<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-937]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 111-937

                                                        Senate Hearings

                                 Before the Committee on Appropriations

_______________________________________________________________________


                                                     Agriculture, Rural

                                               Development, and Related

                                                Agencies Appropriations

                                                       Fiscal Year 2011

                                         111th CONGRESS, SECOND SESSION

                                                                S. 3606

DEPARTMENT OF AGRICULTURE
DEPARTMENT OF HEALTH AND HUMAN SERVICES:
    Food and Drug Administration
NONDEPARTMENTAL WITNESSES



                                                        S. Hrg. 111-937

   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2011

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   on

                                S. 3606

 AN ACT MAKING APPROPRIATIONS FOR AGRICULTURE, RURAL DEVELOPMENT, FOOD 
 AND DRUG ADMINISTRATION, AND RELATED AGENCIES PROGRAMS FOR THE FISCAL 
         YEAR ENDING SEPTEMBER 30, 2011, AND FOR OTHER PURPOSES

                               __________

                       Department of Agriculture
 Department of Health and Human Services: Food and Drug Administration
                       Nondepartmental witnesses

                               __________

         Printed for the use of the Committee on Appropriations


       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________



                      U.S. GOVERNMENT PRINTING OFFICE
  54-956 PDF               WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
ROBERT C. BYRD, West Virginia        THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
DIANNE FEINSTEIN, California         SAM BROWNBACK, Kansas
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN COLLINS, Maine
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
FRANK R. LAUTENBERG, New Jersey
BEN NELSON, Nebraska
MARK PRYOR, Arkansas
JON TESTER, Montana
ARLEN SPECTER, Pennsylvania

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

     Subcommittee on Agriculture, Rural Development, Food and Drug 
                  Administration, and Related Agencies

                     HERB KOHL, Wisconsin, Chairman
TOM HARKIN, Iowa                     SAM BROWNBACK, Kansas
BYRON L. DORGAN, North Dakota        ROBERT F. BENNETT, Utah
DIANNE FEINSTEIN, California         THAD COCHRAN, Mississippi
RICHARD J. DURBIN, Illinois          CHRISTOPHER S. BOND, Missouri
TIM JOHNSON, South Dakota            MITCH McCONNELL, Kentucky
BEN NELSON, Nebraska                 SUSAN COLLINS, Maine
JACK REED, Rhode Island
MARK PRYOR, Arkansas
ARLEN SPECTER, Pennsylvania
DANIEL K. INOUYE, Hawaii
  (ex officio)

                           Professional Staff

                             Galen Fountain
                        Jessica Arden Frederick
                             Dianne Nellor
                      Fitzhugh Elder IV (Minority)
                        Stacy McBride (Minority)

                         Administrative Support

                          Molly Barackman-Eder












                            C O N T E N T S

                              ----------                              

                         Tuesday, March 2, 2010

                                                                   Page

Department of Agriculture: Office of the Secretary...............     1

                         Tuesday, March 9, 2010

Department of Health and Human Services: Food and Drug 
  Administration.................................................   253
Nondepartmental Witnesses........................................   295
  

 
   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                         TUESDAY, MARCH 2, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:01 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Herb Kohl (chairman) presiding.
    Present: Senators Kohl, Harkin, Brownback, Cochran, Bond, 
and Collins.

                       DEPARTMENT OF AGRICULTURE

                        Office of the Secretary

STATEMENT OF TOM VILSACK, SECRETARY
ACCOMPANIED BY:
        DR. KATHLEEN MERRIGAN, DEPUTY SECRETARY
        DR. SCOTT STEELE, BUDGET OFFICER, DEPARTMENT OF AGRICULTURE


                 opening statement of senator herb kohl


    Senator Kohl. Good morning.
    Today, we begin our hearings on the fiscal year 2011 budget 
for the Department of Agriculture.
    We'd like to welcome Secretary Vilsack. He's accompanied by 
Dr. Kathleen Merrigan, Deputy Secretary; and Dr. Scott Steele, 
the USDA Budget Officer. We thank you all for being here.
    Last year this subcommittee worked in a bipartisan manner 
that produced effective and efficient results. With an adequate 
budget request and allocation, there was much collaboration 
across the aisle. We were able to provide USDA with much-needed 
increases in programs, like food safety, which had long been 
underfunded. And we were rewarded for our bipartisan 
cooperation by getting our bill out nearly on time, which, as 
everyone knows, was a welcome change.
    This year, the numbers are a little different, but I'm 
hopeful the process will be much the same. The President's 
budget proposes $21.5 billion for discretionary programs at 
USDA for fiscal year 2011. This is actually a decrease from 
last year, and I am pleased that USDA is showing fiscal 
restraint.
    It is incumbent upon this subcommittee to review all these 
proposals with three priorities in mind. First, we need to 
produce a bill that protects important gains made last year. 
Second, we need to ensure that programs vital to people's 
health, safety, and livelihoods are adequately funded. And 
third, we need to do so in a way that shows fiscal restraint 
and responsible austerity.
    Briefly, here are a few of the major increases in the 
budget, as I see them: The WIC program, which we consider 
essential, receives funding necessary to provide assistance to 
roughly 10 million low-income women, infants, and children. The 
Food Safety and Inspection Service budget receives an increase 
smaller than those of the past several years, but nevertheless 
an increase in order to maintain the safety of our food supply. 
The Farm Service Agency receives a large increase in order to 
pay for much-needed information technology upgrades which allow 
farmers to continue receiving assistance. There is a small 
increase in agricultural research funding. The Foreign 
Agricultural Service receives a significant increase for export 
trade activities. Finally, we have additional welcome emphasis 
on healthy local food production.
    All of these increases, however, are more than offset by 
decreases in other programs, like conservation, research, rural 
development, and others. Further, the budget proposes to reduce 
multiple farm bill programs that this subcommittee has worked 
to protect, and which will certainly raise opposition. None of 
these options are off the table, and everyone needs to be aware 
of that.
    Clearly, we all have to tighten our belts. We'll certainly 
work to ensure that the Department has all of the funding 
necessary to serve the American people. While we have been able 
to provide some necessary increases over the past several 
years, we will be taking a long hard look at the budget, the 
proposed increases and new initiatives, as well as the proposed 
decreases.
    We all look forward to working, again, with Senator 
Brownback in a close bipartisan manner. We need to produce a 
bill that is a reflection of the importance of the USDA, but 
also a reflection of the need to slow spending growth.
    So, Secretary Vilsack, we welcome you, again, for being 
here and look forward to your statement.
    Before that, we'd like to ask Senator Brownback for his 
statement.
    Senator Brownback.


                   statement of senator sam brownback


    Senator Brownback. Thank you very much, Senator Kohl. 
Appreciate the hearing.
    Welcome, Secretary Vilsack, good to have you here. We had a 
good process last year that worked successfully and quickly, 
and--kind of the way the place is supposed to, which was pretty 
amazing in and of itself, and I give that applause to the 
chairman. I look forward to working with you on this year's 
budget. I noted, in a cursory review of it, you've worked to 
reform your budget, cutting some places, putting higher 
priority on others, which is the way I think we ought to look 
at things. If you've got a high priority, put the money there, 
but don't just ask for more money; get it from somewhere else 
in the budget. We may have some questions with you about where 
you got it, and have some suggestions as to other places that 
you may get it from, but I applaud that route of going.
    I've got two suggestions to you that we're going to be 
working on. One is on the agriculture development budget. And 
here, this is one that's going on in another committee, but I 
really think you've--you're the one that's got the expertise on 
it. You're seeing a lot of agriculture development work 
starting in other sectors of the budget, particularly AID, and 
I think you're the one with the primary expertise--or you and 
the land grant university system. I would really--and we're 
going to be pushing this in other sectors, as to ways that we 
can see that budget fit better together.
    Gates Foundation and others are really stepping up in this 
field. They stepped up in the health field on developing 
countries, and together we've had a huge drop in AIDS deaths 
overseas. Malaria is getting more under control, not completely 
by any means. And this is the best foreign policy tool we've 
got, when you save somebody's life. The next step in that is 
agriculture development, and to see it to development. And this 
is a historic role that places like Iowa State, K State, 
Missouri, Wisconsin, others have played for many years. But, 
you've got, I think, the best connection to them, and I'd 
really like to see us--what we can do on that.
    And the final one that I think is key--and you've--got it 
in my opening statement here--is the next generation on 
biofuels. There's just no question that this is a big deal for 
us in farm country. I was at an ethanol plant the other day 
that's feeding wet distiller's grain. They can sell at 30 cents 
cheaper than if you have to dry it. They're taking the 
CO<INF>2</INF> straight to an oil field for recharge purposes. 
I was at NREL in Golden, Colorado, where they're working on the 
cellulosic ethanol. They believe they can make it as price 
effective with grain ethanol by 2012. And I think that's going 
to really help us in agriculture, having a grain stream and a 
cellulosic stream probably under the same plant. And I can't 
think of a bigger thing for us to work on for market 
development and share than this next generation on biofuels, 
bio-based products.
    I had a group the other day--a PCA--hand me a some 
ChapStick that was made out of soy oil. I had a guy a few years 
ago hand me a blue rock, a skeet, that was made out of 
cornstarch. You know, just little widgets, little tiny market 
segments, but all of them add up, all of them add to renewable 
uses, and they're good products.
    And I just--I really think that's one that, if we're going 
to serve the farmers in rural areas of this country, I'd--there 
is not a better place for us to invest time and effort and 
focus and research dollars. And you've got the lion's share of 
that, even though other areas are working on it. And I really 
hope we can working with you on those.
    Chairman, I look forward to the comments and the questions.
    Senator Kohl. Thank you, Senator Brownback.
    And now we turn to you, Mr. Secretary, for your statement.


             summary statement of secretary thomas vilsack


    Secretary Vilsack. Mr. Chairman, thank you very much. And, 
to the members of the subcommittee, thank you for the 
opportunity to appear today.
    As the chair indicated, I'm here with Deputy Secretary 
Merrigan and Mr. Steele in an effort to educate the 
subcommittee on our priorities.
    Let me say that we started this budget process with four 
frames in mind. The first frame is a recognition of the 
economic difficulties the country currently faces, which is 
reflected in our continuation of support programs like SNAP and 
WIC, our food assistance programs, which make up 70 percent of 
our budget. We will continue to provide the nutritional 
assistance necessary to take care of America's families.
    As was mentioned by both the chair and Senator Brownback, 
we also recognize the fiscal challenge that this country faces, 
and that the Senate and House face in putting a budget 
together, which is why we made an effort to try to propose a 
budget with reductions in discretionary spending recognizing 
full well that there are difficult and tough choices that have 
to be made by this subcommittee, by this Congress. We laid out 
what we believed would be the appropriate choices, but are 
certainly open to working with this subcommittee and the House 
committee on thoughts and ideas that you all have.
    I will tell you that we were also struck by the state of 
the rural economy. While the country has faced a recession for 
the last 2 years, I think I can make the case that rural 
America has faced a recession for a number of decades. If you 
take a look at the statistics, what you'll see is, in rural 
America, there is a higher poverty rate; a higher unemployment 
rate; a loss of population, with over 50 percent of rural 
counties having lost population in the last decade. The facts 
are fairly clear that they are less educated, in terms of 
college educated and high school educated individuals, living 
in rural America. And there is a graying of rural America, an 
aging of rural America. All of which is reflected also in 
statistics relative to farms, where we saw a 30 percent 
increase in the number of farmers over the age 75, and a 20 
percent decrease in the number of farmers under the age of 25.
    For that reason, we are proposing and suggesting a slightly 
different direction as it relates to rural development. We 
believe that we need to focus less on individual community and 
project-by-project efforts, and focus more on recognizing that 
smaller communities are part of a regional economy, and looking 
for ways in which we can bolster the regional economy in order 
to create greater activity. Now, we think that this is a 
strategy that--a number of communities have banded together in 
other parts of the country and are seeing positive results.
    We think this rural strategy and this regional strategy 
should be focused on five basic pillars. First of all, a 
continuation of the efforts that this Congress appropriated, in 
terms of expansion of broadband to all parts of America, both 
rural and remote areas, and the opportunities that presents.
    Second, as Senator Brownback indicated, a real focus on 
biofuels and bio-based products and the energy potential that 
can be created in our farm fields, recognizing that this needs 
to be not just focused in one part or one region of the 
country, but, as our Biofuels Task Force report indicates, an 
opportunity for us to have regional economic opportunity in all 
parts of the country by using a variety of feedstocks to create 
biofuels and bio-based products. This can happen in all parts 
of the country, and it actually can create greater energy 
security for this country, promote national security, and also 
significantly help the rural economy.
    We think there is also a need for us to continue an effort 
to link local production and local consumption of farm 
products, creating opportunities for schools, hospitals, 
prisons, and the like, to be able to purchase locally produced 
food in order to keep the wealth in the region and in the 
community. The establishment of the ecosystem markets under the 
2008 farm bill creates an extraordinary opportunity for us to 
focus on water, carbon, and habitat protection as another 
alternative income source for farm families across the country. 
And finally, an aggressive effort in forest restoration and 
private land conservation. We see this budget, in terms of 
conservation, as actually historic, in the sense that we will 
propose extending conservation programs to over 305 million 
acres, an increase of about 10 percent, also focusing those 
acres in programs that really matter, in terms of creating more 
habitat, which, in turn, will create more hunting and fishing 
opportunities, which is often an overlooked economic 
opportunity in rural America.
    These five pillars, we believe, can create higher incomes, 
better-paying jobs, and attract young people to stay and to 
come to rural communities. We'd like the opportunity to prove 
that case to you with the proposal that we have set forth in 
our budget.
    This process will be aided by our focus on research and 
development. Recognizing the need for competitive grants, we 
have maintained the formula funding for our research efforts, 
but have suggested that there needs to be a real competition 
for other research dollars. And so, we have proposed a record 
amount of competitive grants, focused in four or five major 
areas: the energy area, as was mentioned; the need for us to 
continue to look for ways in which we can increase productivity 
and protection of crops and animals from disease and pests and 
invasive species; a focus on food safety; a focus on obesity 
and nutrition; and finally, a focus on the capacity of 
agriculture to adapt and mitigate to changing climates.
    Given the First Lady's Let's Move Initiative, we believe 
the last frame reflected in our budget stems from the 
centerpiece of her Let's Move effort--the legislative 
centerpiece--which is the reauthorization of child nutrition 
proposals. An opportunity to substantially expand efforts in 
the school lunch and school breakfast programs gives us an 
opportunity to add more fruits and vegetables in the diets of 
our young people, responding to the very serious obesity 
epidemic we now face, as well as a strategy for dealing with 
the fact that we still, yet today, in this rich and powerful 
country, have hungry children.
    We also recognize the responsibility that we have at USDA 
to provide the safest and most abundant and most affordable 
food supply. And so, there is continued emphasis on food 
safety, with a focus on increased prevention; better 
surveillance and risk assessment; and more rapid response, 
recall, and recovery. While there is a small budget increase in 
food safety, there has been a tremendous amount of effort and 
focus on the regulatory side of food safety, in an effort to 
better utilize the resources that Congress has provided.


                          prepared statements


    We believe this is a good budget, a strong budget, a budget 
that has elements of reform and responds to the challenges that 
we face in rural America. And we look forward to the 
opportunity to answer your questions.
    [The statements follow:]
                  Prepared Statement of Thomas Vilsack
    Mr. Chairman and distinguished members of this subcommittee, I 
appreciate the opportunity to appear before you as Secretary of 
Agriculture to discuss the administration's priorities for the 
Department of Agriculture (USDA) and provide you an overview of the 
President's 2011 budget. I am joined today by Deputy Secretary Kathleen 
Merrigan and Scott Steele, USDA's Budget Officer.
    I don't need to tell you that the American people have been 
struggling through the most serious economic recession since the Great 
Depression. Families have been forced to make difficult decisions in 
the face of unprecedented job losses. The immediate effects of being 
unemployed are felt deeply by the unemployed and their families. We 
have seen more and more Americans relying on USDA to help put food on 
the table.
    The challenges facing rural communities for decades have grown more 
acute, which is why the Obama administration is committed to new 
approaches to strengthen rural America. Rural Americans earn less than 
their urban counterparts, and are more likely to live in poverty. More 
rural Americans are over the age of 65, they have completed fewer years 
of school, and more than half of America's rural counties are losing 
population.
    This year, President Obama took steps to bring us back from the 
brink of a depression and grow the economy again. But with the 
unsustainable fiscal policies over the past decade, it's time to get 
our fiscal house in order.
    The President has announced the 3-year, non-security discretionary 
spending freeze for the remainder of his term. This is a freeze on the 
bottom line rather than an across-the-board freeze on all line items in 
the budget, which provides the flexibility to achieve high priority 
goals by reducing funding for lower priority, duplicative, or non-
performing programs. USDA's proposed fiscal year 2011 budget is a 
reflection of that policy, essentially freezing funding for on-going 
discretionary programs at the fiscal year 2010 level. When limits 
placed on select programs and efforts to eliminate earmarks and one-
time funding are taken into account, USDA's total discretionary budget 
authority is reduced by over $1 billion. The decrease is primarily due 
to reductions in one-time funding such as earmarks, supplementals, 
rescissions, and targeted program reductions. However, USDA's total 
budget authority request pending before this subcommittee proposes a 
total of $129.6 billion in 2011, up from $119.3 billion in 2010, 
primarily due to an anticipated increase in nutrition assistance 
program participation and mandatory expenditures for crop insurance. 
The discretionary appropriation request for this subcommittee is $21.5 
billion, which is comparable to the $21.7 billion enacted for 2010.
    The 2011 budget request supports the administration's vision for a 
strong rural America through the achievement of four strategic goals. 
Achievement of these goals will ensure that all of America's children 
have access to safe, nutritious, and balanced meals; create new 
economic opportunities for increasing prosperity; strengthen 
agricultural production and profitability through the promotion of 
exports with a specific emphasis on biotechnology while responding to 
the challenge of global food security; and ensure the Nation's national 
forests and private working lands are conserved, restored, and made 
more resilient to climate change, while enhancing our water resources.
    With the help of this subcommittee and the funding provided by the 
Recovery Act, USDA has been able to achieve significant accomplishments 
over the past year. Some of these accomplishments include:
  --SNAP has improved the diets of more than 38 million low-income 
        people now served by the program;
  --The financial distress of over 2,600 producers in 47 States has 
        been relieved through direct farm operating loans. Nearly 20 
        percent of beginning farmers and socially disadvantaged 
        producers obtain at least part of their credit needs from USDA;
  --Critical rural infrastructure improvements have been made that will 
        provide nearly 1 million Americans with improved access to safe 
        drinking water, improve facilities for 655 communities, 
        including many that provide healthcare service and educational 
        opportunities, and create 84,000 housing opportunities for 
        families. USDA has made investments to improve watershed and 
        flood control on 37,000 acres in 36 States. These actions have 
        created thousands of jobs, while investing in projects that 
        will provide benefits for years; and,
  --USDA has made available $2.5 billion to expand and enhance the 
        Nation's access to broadband services. USDA has taken a 
        particular interest in addressing the needs of unserved and 
        underserved rural areas. Broadband projects will support anchor 
        institutions--such as libraries, public buildings and community 
        centers--that are necessary for the viability of rural 
        communities. USDA announced initial awards of $54 million in 
        December 2009. A second USDA announcement of $310 million was 
        made on January 25, 2010. A third USDA announcement of $277 
        million was recently made on February 17, 2010. The second 
        solicitation of applications was published in the Federal 
        Register on January 22, 2010; applications are being accepted 
        through March 15, 2010. This funding will open the door to new 
        businesses that serve global as well as local customers as well 
        as improve the educational and medical opportunities for rural 
        residents.
     ensuring that all of america's children have access to safe, 
                     nutritious, and balanced meals
    A major priority for the Department is ensuring a plentiful supply 
of safe and nutritious food, which is essential to the well-being of 
every family and the healthy development of every child in America. A 
recent report by the Department showed that in over 500,000 families 
with children in 2008, one or more children simply do not get enough to 
eat. There is a growing body of evidence demonstrating that children 
who eat poorly or who engage in too little physical activity do not 
perform as well as they could academically, and that improvements in 
nutrition and physical activity can result in improvements in academic 
performance. Too many children also have poor diets and gain excessive 
weight. Recent data shows that the prevalence of obesity has increased 
over 10 percent, to a level of 17 percent for children between 6 and 19 
years of age. There is also a paradox that hungry children are 
disproportionately prone to obesity. Having poor access to healthy food 
contributes significantly to both of these problems.
Nutrition Assistance
    The budget fully funds the expected requirements for the 
Department's three major nutrition assistance programs--the National 
School Lunch Program, WIC, and SNAP--and proposes $10 billion over 10 
years to strengthen the Child Nutrition and WIC programs through 
reauthorization.
    School lunch participation is estimated to reach a record-level 
again in 2011, 32.6 million children each day, up from about 32.1 
million a day in 2010. This is consistent with the increase in the 
school age population.
    The reauthorization of the Child Nutrition Programs presents us 
with an important opportunity to combat child hunger and improve the 
health and nutrition of children across the Nation. The 2011 budget 
proposes a historic investment of $10 billion in additional funding 
over 10 years to improve our Child Nutrition Programs and WIC. It is 
designed to significantly reduce the barriers that keep children from 
participating in school nutrition programs, improve the quality of 
school meals and the health of the school environment, and enhance 
program performance. Funding will be used to improve the quality of the 
National School Lunch and Breakfast Programs, increase the number of 
kids participating, and ensure schools have the resources they need to 
make program changes. With this investment, additional fruits, 
vegetables, whole grains, and low-fat dairy products will be served in 
all school cafeterias and an additional one million students will be 
served through school lunch programs in the next 5 years. Improving 
these programs directly supports the First Lady's ``Let's Move'' 
campaign aimed at achieving the ambitious national goal of solving the 
challenge of childhood obesity within a generation so that children 
born today will reach adulthood at a healthy weight.
    To ensure USDA makes progress to decrease the prevalence of obesity 
among children and adolescents, and to improve the quality of diets, 
the budget includes an increase of $9 million. The increase will allow 
USDA to strengthen systematic review of basic, applied, and consumer 
research that provides the information necessary to answer questions 
about diet, health, education, and nutrition-related behaviors. This 
will ensure that that USDA and other Federal agencies can describe the 
best nutritional behaviors and develop the best ways of communicating 
this information to help Americans improve their diets. The increased 
funding will also be used to create more effective nutrition education 
interventions for schools and communities, and broaden and maintain 
tools and systems that Americans can use to adopt more healthful eating 
and active lifestyles, in particular reducing overweight and obesity. 
The 2011 budget includes an increase of $50 million for research 
through AFRI that will focus on identifying behavioral factors that 
influence obesity and conducting nutrition research that leads to the 
development of effective programs to prevent obesity. AFRI funding will 
also focus research on addressing the micronutrient content of new food 
crops and improving the nutritional value of staple crops, fruits and 
vegetables through plant breeding leading to greater access to healthy 
foods.
    The budget includes $7.6 billion for WIC, which will support the 
estimated average monthly participation of 10.1 million in 2011, an 
increase from an estimated 9.5 million participants in 2010. The 
request is $351 million above the 2010 appropriation and supports a 
robust contingency fund. Highlights include expanding the breastfeeding 
peer counseling program, doubling the size of the breastfeeding 
recognition program, supporting Management Information Service 
improvements and program research and evaluation, and providing a $2 
increase in the value of the fruit and vegetable voucher for children. 
WIC administrative activities are also funded, which will facilitate 
continued implementation of the revised WIC food packages, required to 
be implemented at the beginning of fiscal year 2010. The changes in the 
food packages bring recipient diets into better conformance with the 
Dietary Guidelines for Americans and feeding recommendations for small 
children. Fruits, vegetables and whole grains were added to the WIC 
packages, mostly for the first time. Fruit and vegetable consumption is 
expected to increase significantly via the new cash value vouchers 
recipients will receive, improving nutritional intake, improving long-
term eating habits, and improving the economics for our fruit and 
vegetable producers. Recipients will use their new vouchers to purchase 
fresh, frozen or canned fruits and vegetables year round.
    Participation in SNAP is estimated to be about 40.5 million 
participants per month in 2010, and is projected to increase to 43.3 
million in 2011. The budget estimates a total of $80.2 billion is 
needed in 2011 to fund all expected costs and includes a $5 billion 
contingency fund recognizing the uncertainty USDA faces in estimating 
actual participation. The Recovery Act increased SNAP benefits $80 a 
month for a family of four and will continue until the statutory cost 
of living adjustments (COLA) eclipse the Recovery Act benefit levels.
    For 2011, we need to continue to support America's families as they 
recover from the current economic crisis many of them find themselves 
in. Fortunately, SNAP is working as it should with participation 
increasing as the people in need increase. However, changes need to be 
made to ensure that participants are treated fairly and equitably and 
that the resources being delivered foster economic mobility. For these 
reasons, we are proposing to improve the accessibility to SNAP. The 
main legislative proposal for SNAP would establish a common, national 
asset allowance for means test of $10,000 for programs government-wide. 
Programs with asset limits currently treat assets inconsistently and 
without regard of the need to allow and encourage families to save 
toward self-sufficiency. SNAP asset limits have been held for decades 
at $2,000 for most households and $3,000 for households with elderly. 
In addition, a second proposal would exclude lump sum tax credits to 
prevent disruption in eligibility and benefits in the wake of new and 
refundable tax credits, and the administrative churning this creates. A 
third proposal would extend the Recovery Act provision that waives time 
limits for Able-Bodied Adults Without Dependents (ABAWDs) for an 
additional fiscal year. In total, these changes to SNAP would add $462 
million to recipient benefits and SNAP program costs in 2011 with a 5-
year total of $4.5 billion.
    The budget also includes increased funding for staffing needed to 
strengthen USDA's ability to simplify and improve the nutrition 
assistance programs, enhance capacity to improve nutritional outcomes, 
and encourage healthy and nutritious diets and expand an obesity 
prevention campaign through efforts supported by the Food and Nutrition 
Service.
Food Safety
    Protecting public health is one of the most important missions of 
USDA. Foodborne illness is recognized as a significant public health 
problem in the United States. These illnesses can lead to short and 
long-term health consequences, and sometimes death. I am firmly 
committed to taking the steps necessary to reduce the incidence of 
food-borne illness and protect the American people from preventable 
illnesses. Over the past year, we have striven to make improvements to 
reduce the presence of deadly pathogens and we continue to make 
improvements. At USDA, about 8,500 inspectors work in approximately 
6,300 slaughtering and processing establishments, import houses, and 
other federally regulated facilities to ensure that the Nation's 
commercial supply of meat, poultry, and egg products is safe, 
wholesome, and correctly labeled and packaged. A major focus is 
implementing the recommendations of the President's Food Safety Working 
Group (FSWG) in accordance with three core food safety principles:
  --Preventing harm to consumers;
  --Conducting analyses needed for effective food safety inspections 
        and enforcement; and,
  --Identifying and stopping outbreaks of foodborne illness.
    The budget includes $1 billion for the Food Safety and Inspection 
Service to fully fund inspection activities and implement 
recommendations of the FSWG and other initiatives aimed at improving 
USDA's public health infrastructure. This includes an increase of $27 
million to further implement recommendations of the FSWG and strengthen 
our public health information infrastructure. Increased funding will be 
used to enhance FSIS' ability to collect, analyze and present food 
safety data necessary for improving inspection practices. Additionally, 
FSIS will hire more epidemiologists to improve investigations of 
foodborne illness and outbreaks in coordination with State officials to 
develop ``trace back'' tools and improve record-keeping. These 
improvements will decrease the time necessary to identify and respond 
to foodborne illness outbreaks, which will better protect consumers by 
improving our capability of identifying and addressing food safety 
hazards and preventing foodborne illness.
    USDA research continually works to meet the evolving threats to the 
Nation's food supply and focuses on the reduction of the hazards of 
both introduced and naturally occurring toxins in foods and feed. As 
part of an integrated food safety research initiative, the budget 
proposes an increase of $25 million, including $20 million for AFRI and 
$5 million for the Agricultural Research Service. This initiative will 
strengthen surveillance and epidemiology programs, develop improved 
methods for controlling food pathogens in the preharvest stage, develop 
innovative intervention strategies to eliminate pathogens and 
contaminants, and improve technologies for ensuring postharvest safety 
and quality.
Minimizing the Impact of Major Animal and Plant Diseases and Pests
    The budget includes $875 million in appropriated funds for the 
Animal and Plant Health Inspection Service (APHIS) to protect 
agricultural health by minimizing major diseases and pests. APHIS 
activities that contribute to this goal include pest and disease 
exclusion, plant and animal health monitoring, response to outbreaks of 
foreign plant and animal threats, and management of endemic pests and 
diseases. Of note, the 2011 budget includes $11 million to continue 
efforts initiated with emergency funding to address the light brown 
apple moth (LBAM). This is an increase of $10 million compared to 2010. 
The LBAM is an invasive pest that attacks a wide variety of plants of 
agricultural or horticultural significance. APHIS estimates the pest 
could cause annual production losses up to $1 billion if allowed to 
spread.
            assisting rural communities to create prosperity
    The economic downturn has impacted many sectors and areas of the 
Nation, including rural America. At this time, there remains high 
poverty in sparsely populated rural areas, which is reflected in higher 
mortality rates for children, higher unemployment, and declining 
populations. Since the beginning of the economic slowdown, rural 
residents have experienced a greater decline in real income compared to 
other parts of the Nation. Some factors contributing to this include 
lower rural educational attainment, less competition for workers among 
rural employers, and fewer highly skilled jobs in the rural 
occupational mix. It is not surprising that over 51 percent of rural 
counties lost population and that a majority of farm families rely on a 
significant amount of off-farm income to meet their needs. However, an 
energetic and creative citizenry is looking for new ways to spur rural 
economic activity to create prosperity and strengthen the economic 
foundations of their communities.
    After a year as the United States Secretary of Agriculture, I have 
reached the conclusion that we must overhaul our approach to economic 
development in rural America. During the past year, at the instruction 
of President Obama, I worked on the elements of a new rural economy 
built on a combination of the successful strategies of today and the 
compelling opportunities of tomorrow. The framework of the new effort 
recognizes that the rural economy of tomorrow will be a regional 
economy. No one community will prosper in isolation. Further, USDA must 
help create economic opportunities in America's rural communities by 
expanding broadband access, promoting renewable energy, increasing 
agricultural exports, taking advantage of ecosystem markets, 
capitalizing on outdoor recreation, pursuing research and development, 
and linking local farm production to local consumption. The common goal 
is to help create thriving rural communities where people want to live 
and raise families and where the children have economic opportunities 
and a bright future.
    The 2011 budget will assist rural communities to create prosperity 
so they are self-sustaining, economically thriving, and growing in 
population. With the assistance of the committee, we have already taken 
important steps in this effort. With funding from the Recovery Act, we 
supported farmers and ranchers and helped rural businesses create jobs. 
Investments were made in broadband, renewable energy, hospitals, water 
and waste water systems, and other critical infrastructure that will 
serve as a lasting foundation to ensure the long-term economic health 
of families in Rural America.
    This budget includes almost $26 billion to build on this progress 
and focuses on new opportunities presented by producing renewable 
energy, developing local and regional food systems, capitalizing on 
environmental markets and making better use of Federal programs through 
regional planning.
Facilitating the Development of Renewable Energy
    On February 4, 2010, the President laid out his strategy to advance 
the development and commercialization of a biofuels industry to meet or 
exceed the Nation's biofuels targets. Advancing biomass and biofuel 
production that holds the potential to create green jobs, which is one 
of the many ways the Obama administration is working to rebuild and 
revitalize rural America. In support of this effort, USDA's budget 
includes funding for a variety of renewable energy programs across the 
Department. These programs help ensure that farmers and ranchers are 
able to capitalize on emerging markets for clean renewable fuels and 
help America achieve energy independence and reduce greenhouse gas 
emissions.
    The 2008 farm bill provided significant mandatory funding to 
support the commercialization of renewable energy. The 2011 budget 
builds on this investment by providing an increase of $17 million in 
budget authority to support $50 million in loan guarantees for the 
Biorefinery Assistance Program. The budget also maintains the budget 
authority for the Rural Energy for America Program (REAP) at $39.3 
million. The budget allocates most of the funding to grants rather than 
loans, because grant applicants will be able to more efficiently 
leverage greater amounts of private sector investment.
    The Department will also focus additional research investments on 
the production of energy crops and the development of renewable energy 
processing. The 2011 budget includes an increase of $33 million for a 
comprehensive research program in alternative and renewable energy 
within the Agriculture and Food Research Initiative (AFRI) competitive 
grant program. This will advance the development of dedicated, 
bioenergy feedstocks, and feedstock production. The budget also 
proposes an increase of $10 million for in-house research for the 
establishment of regional biofuels centers dedicated to the development 
of energy feedstocks and bioenergy feedstock production systems for 
different regions across the Nation.
Developing Local and Regional Food Systems
    With the growing interest among consumers in eating healthy foods 
and knowing where their food comes from, promoting local and regional 
food systems can offer win-win solutions for all involved.
    USDA's ``Know Your Farmer, Know Your Food'' Initiative will work to 
reduce the barriers to local and regional food production, such as the 
lack of local meat processing and packing capacity, and promote 
opportunities to increase local and regional food production and 
purchasing, such as supporting school purchases of local and regional 
foods.
    There exists great potential to create new economic opportunities 
for rural America by strengthening local and regional food systems. 
Currently, many communities across America have limited access to 
healthy foods, which can contribute to a poor diet and can lead to 
higher levels of obesity and other diet-related diseases, such as 
diabetes and heart disease. Most often, these communities are also 
economically distressed and less attractive to grocery stores and other 
retailers of healthy food.
    To address this problem, the Departments of Agriculture, Health and 
Human Services, and Treasury will implement the Healthy Food Financing 
Initiative to provide incentives for food entrepreneurs to bring 
grocery stores and other healthy food retailers to underserved 
communities. Under this initiative, over $400 million will be made 
available in financial and technical assistance to community 
development financial institutions, other nonprofits, public agencies, 
and businesses with sound strategies for addressing the healthy food 
needs of communities. For USDA, the budget includes about $50 million 
in budget authority for loans, grants, and technical assistance to 
support local and regional efforts to increase access to healthy food, 
particularly for the development of grocery stores and other healthy 
food retailers in urban and rural food deserts and other underserved 
areas.
Capitalizing on Environmental Markets
    As America's farms and forests hold a tremendous potential for 
sequestering carbon, improving water quality, and preserving 
biodiversity the budget requests the resources necessary to conduct 
government-wide coordination activities that will serve as the 
foundation for the establishment of markets for these ecosystem 
services.
    Through the Office of Ecosystem Services and Markets and the Office 
of the Chief Economist, the Department will establish technical 
guidelines that outline science-based methods to measure the 
environmental services benefits from conservation and land management, 
pursuant to the 2008 farm bill.
    USDA conducts research that contributes to the development of 
climate change mitigation and adaptation tools and technologies, and 
USDA outreach and extension networks make them available to farmers, 
ranchers, and land managers. The 2011 budget includes an increase of 
$50 million within AFRI for global climate change research to develop 
mitigation capabilities and adaptive capacities for agricultural 
production. The budget also proposes an additional $5.4 million for ARS 
to conduct research that will increase the resilience of crops so they 
can thrive in variable and extreme environments, as well as focus on 
mitigating the effects of climate change by ensuring the availability 
of water through improved management.
Regional Innovation Initiative
    In addition to these priorities, the 2011 budget maintains support 
for USDA's key rural development programs, including $12 billion for 
single family housing loan guarantees and nearly $1 billion in 
guarantees for business and industry loans. These programs not only 
provide needed assistance to rural families and the capital needed to 
create jobs, they also create the foundation needed to improve rural 
markets and communities which is essential for long-term economic 
growth.
    In order to utilize the Federal Government's assets more 
effectively, USDA's Rural Innovation Initiative will promote economic 
opportunity and job creation in rural communities through increased 
regional planning among Federal, State, local and private entities. By 
creating a regional focus and increasing collaboration with other 
Federal agencies, USDA resources will have a larger impact, enabling 
greater wealth creation, quality of life improvements, and 
sustainability.
    To support this initiative, USDA requests authority to set aside up 
to 5 percent of the funding within approximately 20 existing programs, 
approximately $280 million in loans and grants, and allocate these 
funds competitively among regional pilot projects tailored to local 
needs and opportunities. This will encourage regional planning and 
coordination of projects that are of common interest throughout self-
defined regions. This approach will also support projects that are more 
viable over a broader region than scattered projects that serve only a 
limited area. It will also help build the identity of regions, which 
could make the region more attractive for new business development, and 
provide greater incentives for residents to remain within their home 
area.
Broadband
    Although funding for broadband under the Recovery Act will end in 
2010, USDA will continue to make broadband loans and grants under the 
authorities provided by the 2002 farm bill, as amended by the 2008 farm 
bill. The 2011 budget provides $418 million in loans and grants for 
this purpose.
 promote agricultural production and biotechnology exports as america 
                    works to increase food security
    We will also give priority to promoting the production of food, 
feed, fiber, and fuel, as well as increased exports of food and 
agricultural products, as we work to strengthen the agricultural 
economy for farmers and ranchers. America's farmers and ranchers are 
the most productive and efficient in the world and the U.S. 
agricultural sector produces $300 billion worth of farm products 
providing a major foundation for prosperity in rural areas as well as a 
critical element of the Nation's economy.
    The Department provides a strong set of financial safety net 
programs to ensure the continued economic viability and productivity of 
production agriculture, including farm income and commodity support 
programs, crop insurance and disaster assistance, as well as other 
programs. The farm safety net is critically important and provides the 
foundation for economic prosperity in rural America. For 2011, USDA 
estimates that roughly $17 billion in total direct support will be 
provided to farm producers and landowners through a variety of 
programs.
    Recognizing the need to reduce the deficit, the budget proposes to 
better target direct payments to those who need and can benefit from 
them most as well as cap total payments paid to larger operations. For 
2011, legislation will be proposed to build on reforms made by the 2008 
farm bill by reducing the cap on direct payments by 25 percent and 
reducing the Adjusted Gross Income (AGI) payment eligibility limits for 
farm and non-farm income by $250,000 over 3 years. The savings from 
these proposals will impact approximately 30,000 program participants, 
which is about 2 percent of the 1.3 million total program participants, 
and will over time comprise less than 2 percent of the total direct 
support the Department expects to provide annually to farm producers 
and landowners.
    The Federal crop insurance program is an important part of the farm 
safety net. It allows producers to proactively manage their risks 
associated with losses from weather, pests and diseases, and financial 
risks associated with price fluctuations. The stability provided by 
crop insurance has become an important factor used by commercial banks 
to determine the credit worthiness of their agricultural borrowers.
    The budget also reflects savings expected to be achieved through 
reforms in the Federal crop insurance program the changes we are 
proposing will help protect farmers from higher costs, rein in costs 
for taxpayers, improve access to crop insurance and provide greater 
protection from crop losses. Negotiations are currently underway with 
the crop insurance industry to restructure the contract that governs 
their delivery of the crop insurance program. The proposed new Standard 
Reinsurance Agreement (SRA) includes six primary objectives, which will 
(1) maintain producer access to critical risk management tools; (2) 
realign administrative and operating subsidies paid to insurance 
companies closer to actual delivery costs; (3) provide a reasonable 
rate of return to the insurance companies; (4) equalize reinsurance 
performance across States to more effectively reach under-served 
producers, commodities, and areas; (5) enhance program integrity; and 
(6) simplify provisions to make the SRA more understandable and 
transparent.
    These objectives align with RMA's primary mission to help producers 
manage the significant risks associated with agriculture. By achieving 
these six objectives, the new SRA will ensure financial stability for 
the program and the producers it serves, while increasing the 
availability and effectiveness of the program for more producers and 
making the program more transparent. The new agreement will also 
provide insurance companies with greater flexibility for their 
operations and financial incentives to increase service to underserved 
producers and areas, while ensuring that taxpayers are well-served by 
the program.
National Export Initiative
    Agricultural trade contributes directly to the prosperity of local 
and regional economies across rural America through higher commodity 
prices and increased sales. USDA estimates that every $1 billion worth 
of agricultural exports supports 9,000 jobs and generates an additional 
$1.4 billion in economic activity. At the same time, however, foreign 
trade barriers limit exports, thereby reducing farm income and 
preventing job growth in the agricultural sector.
    USDA has an important role in expanding export opportunities for 
our food and agricultural products. As part of the administration's 
National Export Initiative, the budget proposes increased discretionary 
funding of $54 million to enhance USDA's export promotion activities. 
The initiative includes increases of $34.5 million to supplement 
funding for the Foreign Market Development Program--commonly known as 
the Cooperator Program--and $9 million for the Technical Assistance for 
Specialty Crops Program. This funding will be in addition to that 
provided to the programs by the Commodity Credit Corporation and will 
double the level of funding available to the programs in 2011.
    Increased funding of $10 million is also requested for the Foreign 
Agricultural Service, which will be used to expand export assistance 
activities, in-country promotions, and trade enforcement activities to 
remove non-tariff trade barriers, such as unwarranted sanitary and 
phytosanitary standards and technical barriers to trade imposed on U.S. 
commodities by other countries.
Research To Improve Agricultural Productivity
    For 2011, the budget provides almost $800 million for research 
aimed at improving agricultural productivity and protecting agriculture 
from pests and disease that limit the productive capacity of 
agriculture. The proposed research will improve genetic resources and 
cultivars that will lead to improved germplasm and varieties with 
higher yields, improved disease and pest resistance, and resilience to 
weather extremes such as high temperature and drought. The budget also 
funds several initiatives to support research on breeding and germplasm 
improvement in livestock which will enhance food security and lead to 
the development of preventive measures to combat diseases and thereby 
increase production. The budget also includes a 56 percent increase for 
the Sustainable Agriculture Research and Education (SARE) programs 
aimed at helping farmers and ranchers adopt practices that are 
profitable and beneficial to communities. As part of this increase, the 
2011 budget proposes funding for the Federal-State Matching Grant SARE 
Program to assist in the establishment and enhancement of State 
sustainable agriculture research, education and extension programs. The 
matching requirement will leverage State or private funds and build the 
capabilities of American agriculture in becoming more productive and 
sustainable.
    As the world population grows and the demand for food with it, we 
must look to new technologies for increasing production, including 
biotechnology. Biotechnology can expand the options available to 
agricultural producers seeking solutions to a variety of challenges, 
including climate change. However, prudent steps must be taken to 
ensure that biotech products are safely introduced and controlled in 
commerce. For 2011, the budget requests $19 million, an increase of 46 
percent, to strengthen USDA's science-based regulatory system for 
ensuring the safe introduction and control of biotechnology products. 
This includes preventing regulated genetically engineered products from 
being co-mingled with non-regulated products and to ensure the safe 
introduction of biotechnology products. USDA will also continue to 
provide technical input for the development of science-based regulatory 
policies in developing countries. By promoting consistency between the 
domestic regulatory system and the import policies of our trading 
partners, the likelihood of the United States being the supplier of 
choice improves as markets for these products grow.
Increasing Global Food Security
    Recent estimates from the United Nations Food and Agriculture 
Organization suggest that more than one billion people around the world 
are chronically hungry, many of them children.
    A productive agricultural sector is critical to increasing global 
food security. USDA plays a major role in helping American farmers and 
ranchers improve the efficiency of agricultural production, including 
the safe use of biotechnology and other emergent technologies. New 
technologies and production practices can enhance food security around 
the world by increasing the availability of food as well as providing 
developing nations tools for increasing their self reliance and giving 
them greater control over their production decisions.
    For 2011, the budget includes approximately $2.1 billion in 
emergency and non-emergency foreign food assistance programs carried 
out by USDA and USAID, and capacity building programs. Through the 
McGovern-Dole International Food for Education and Child Nutrition 
Program, which is administered by the Foreign Agricultural Service, 
USDA will assist an estimated 5 million women and children in some of 
the world's poorest countries.
    In support of agricultural reconstruction and stabilization 
activities in Afghanistan, USDA is increasing the number of 
agricultural experts serving in Afghanistan from 14 to 64 in 2010. The 
work of these courageous individuals is essential for stabilizing 
strategic areas of the country, building government capacity, ensuring 
the successful management of assistance programs, and addressing the 
issue of food insecurity. It is estimated that as much as 80 percent of 
the Afghan population relies on agriculture for wages and sustenance. 
Consistent with these efforts, the Department has established a 
priority for increasing the number of Afghan provinces in which women 
and children are food secure from 10 to 14 by the end of 2011, ensuring 
food security for 41 percent of the country's provinces by the end of 
2011.
    An important means to assist developing countries to enhance their 
agricultural capacity is by providing training and collaborated 
research opportunities in the United States, where participants can 
improve their knowledge and skills. The 2011 budget provides increased 
funding for the Cochran and Borlaug Fellowship Programs, which bring 
foreign agricultural researchers, policy officials, and other 
specialists to the United States for training in a wide variety of 
fields. Under our proposals, as many as 600 individuals will be able to 
participate in these programs and bring this knowledge home with them 
to benefit their respective countries.
    In addition, the Department is working with other Federal partners 
to reduce global food insecurity and increase agriculture-led economic 
growth in developing countries. These combined efforts will not only 
ensure that the world's children have enough to eat, but will improve 
national security as well. By promoting strong agricultural systems in 
the developing world, we will eliminate some of the primary causes that 
fuel political instability and diminish the economic vitality of 
developing nations.
 ensuring private working lands are conserved, restored, and made more 
    resilient to climate change, while enhancing our water resources
    USDA plays a pivotal role in working with farmers and ranchers to 
protect and restore private working lands, while making them more 
resilient to threats and enhancing our natural resources. USDA partners 
with private landowners to help protect the Nation's 1.3 billion acres 
of farm, ranch, and private forestlands.
    The budget includes record levels of support for conservation 
programs, bringing total funding to about $6 billion, which includes $5 
billion in mandatory funding for the conservation programs authorized 
in the 2008 farm bill and nearly $1 billion in discretionary funding 
for other conservation activities, primarily technical assistance. This 
level of funding supports cumulative enrollment of more than 304.6 
million acres in farm bill conservation programs, an increase in 
enrollment of about 10 percent over 2010.
    The budget will accelerate the protection of our natural resources 
by strategically targeting funding to high priority program areas. This 
includes an increase of $25 million to implement the Strategic 
Watershed Action Teams initiative that will target identified 
watersheds for a period of 3 to 4 years with the intent of reaching 100 
percent of the landowner base in each watershed eligible for farm bill 
conservation program assistance. The additive effect of planned and 
applied conservation practices would hasten environmental improvement 
while keeping production agriculture competitive and profitable.
Research
    Underlying the achievement of all of the Department's goals is a 
strong research program. Research fuels the transformational change 
that rural America needs to excel. To help bring about this change, I 
have launched the National Institute of Food and Agriculture (NIFA), 
which will be a key element in providing the knowledge and technical 
advances that will lead to increased productivity, more abundant food 
supplies, improved nutrition, safer food, and a cleaner environment.
    Agricultural research ultimately leads to increased profitability 
for farmers, reduced food costs and greater choice for consumers, and 
improved management of the natural resource base. To get more out of 
our research, the Department must focus its research and development 
components on making sure we do our very best job not just to increase 
productivity but also to make sure that we protect what it is they are 
growing and raising. The National Institute is going to have a more 
focus, in part on improving productivity and also being able to figure 
out how we can do a better job of protecting crops and animals from 
pests and disease. The more we produce, the healthier we produce, the 
better off we will be. If you conduct more research that will enable 
farmers to be more productive and improve the protection of their crops 
from pests and disease, in concert with protecting the market through 
food safety, we will be able to expand domestic markets and increase 
export markets.
    As I have highlighted a few of the most significant research 
initiatives, I would like to point out that the 2011 budget proposes 
the largest funding level ever for competitive research with $429 
million for AFRI, an increase of $166 million over 2010. AFRI is the 
Nation's premier competitive, peer-reviewed research program for 
fundamental and applied sciences in agriculture. It is broad in scope 
with programs ranging from fundamental science to farm management and 
community issues.
    The budget also maintains formula funding for research and 
extension at 1862, 1890 and 1994 land-grant institutions, schools of 
forestry and schools of veterinary medicine at the 2010 level, thereby 
maintaining the research infrastructure needed to meet our research 
goals. These important capacity building programs will allow 
institutions to sustain the matching requirement that many of these 
programs have, thereby allowing Federal funds to leverage non-Federal 
resources. All of these institutions are also eligible to apply for 
AFRI funding to enhance their research efforts.
Management Initiatives
    The budget also includes a number of management initiatives that 
will improve service delivery, ensure equal access to USDA programs, 
and transform USDA into a model organization.
    As part of a government-wide effort to improve service delivery and 
IT security, the Department will continue to implement improvements to 
address vulnerabilities to aging IT systems used for delivering 
billions of dollars in farm, conservation, and rural development 
program benefits that will result in more reliable, customer-focused 
service to producers.
    Ensuring that the Department and its programs are open and 
transparent is a priority for USDA. Therefore, USDA is proposing to 
expand the Office of Advocacy and Outreach, which was established by 
the 2008 farm bill, to improve service delivery to historically 
underserved groups and will work to improve the productivity and 
viability of small, beginning, and socially disadvantaged producers.
    In support of my commitment to improve USDA's handling of civil 
rights matters, the budget includes funding to ensure that USDA has the 
staffing and resources necessary to address its history of civil rights 
complaints and seek resolution to claims of discrimination in the 
Department's employment practices and program delivery. To demonstrate 
this commitment, USDA under my leadership has been aggressively 
pursuing resolution to several pending discrimination lawsuits against 
the Department. Most notably, USDA and the Department of Justice 
reached a settlement of outstanding claims of discrimination by Black 
farmers in the Pigford case. Resolution of this litigation is evidence 
of the commitment to resolving all of the large civil rights cases at 
USDA, including those involving Hispanic, Native American, and women 
farmers.
    As USDA's workforce interacts directly with the public we serve 
every day, the Department's employees are some of our most valuable 
assets. To enhance the Department's human resource capabilities, USDA 
will focus on improving leadership development, labor relations, human 
resources accountability, and veterans and other special employment 
programs. Investing in our employees will create an environment that is 
more responsive to the Department's broad constituency.
    There is no doubt that these tough times call for shared sacrifice. 
The American people have tightened their belts and we have done so as 
well. We made tough decisions, but this budget reflects our values and 
common sense solutions to the problems we face. It makes critical 
investments in the American people and in the agricultural economy to 
set us on a path to prosperity as we move forward in the 21st century.
    I would be pleased to take your questions at this time.
                                 ______
                                 
        Prepared Statement of Phyllis K. Fong, Inspector General
    I want to thank Chairman Kohl and Ranking Member Brownback for the 
opportunity to submit testimony about the Department of Agriculture's 
(USDA) Office of Inspector General's (OIG) fiscal year 2011 budget 
request. My statement will summarize a number of the most important 
oversight projects and investigations we performed in fiscal year 2009 
and 2010 to date and present the key elements of the President's fiscal 
year 2011 budget request for OIG.
    During this period, we issued a total of 78 audit reports regarding 
USDA programs and operations. We obtained $131 million in potential 
monetary results by reaching management decision with USDA on our 
recommendations. In that time period, we reported 866 convictions and 
$179 million in potential monetary results as a result of OIG 
investigations.\1\
---------------------------------------------------------------------------
    \1\ Audit monetary impacts are derived from funds put to better use 
and questioned/unsupported costs, as established by Congress in the 
Inspector General Act of 1978. The components of our investigative 
monetary results include fines, recoveries, restitutions, claims 
established, and administrative penalties, among others.
---------------------------------------------------------------------------
    My statement will begin with an overview of our work to assess and 
improve the Department's American Recovery and Reinvestment Act of 2009 
(Recovery Act) programs and operations, cover our most significant 
recent audit and investigative activities, and conclude with a summary 
of the President's fiscal year 2011 budget request for OIG.
            oig oversight of usda's recovery act activities
    The Recovery Act provided USDA with $28 billion in additional 
funding for an array of programs and activities. Among the USDA 
programs funded by the Recovery Act are farm loans, watershed 
protection, nutrition assistance, wildfire management, capital 
improvements and maintenance, and rural development. With the 
subcommittee's leadership, the Recovery Act also provided OIG with 
$22.5 million to oversee the USDA programs funded by the Act; these 
funds are available through fiscal year 2013.
    In response to this call for additional oversight, in 2009 OIG 
modified its audit and investigative programs, added staff to handle 
the additional workload, and reprioritized its current work. Along with 
expanding the scope of audits already in process, we added 54 
additional audits that were specifically designed to address Recovery 
Act programs.
    Our approach to auditing Recovery Act-funded programs involves 
three phases that will be implemented over the next several years. In 
the first phase, we are reviewing USDA agencies' documented internal 
control procedures relating to Recovery Act programs. In the second 
phase, through field reviews, we are evaluating program delivery, 
reviewing participants' eligibility, and ensuring Recovery Act funds 
are being used for their intended purposes. In the third phase, we will 
evaluate program performance measures and how accomplishments and 
results are reported by USDA agencies.
    As of April 1, 2010, we have issued 12 audits regarding the 
Department's Recovery Act programs and operations. Our audits addressed 
USDA's internal controls over loan and grant processing, management of 
the Supplemental Nutrition Assistance Program (SNAP), actions taken in 
response to prior audit recommendations, aquaculture grants, and Forest 
Service (FS) contracting and grants management. We have also issued 
another six audits relevant to USDA's Recovery Act activities that were 
in process when the Act was passed. These audits examined programs that 
subsequently received Recovery Act funding, such as the rehabilitation 
of flood control dams, broadband loans and grants, nutrition 
assistance, and rural development. At present, we have 34 Recovery Act 
audits in process, with 10 additional audits scheduled to start in the 
coming months.
    We have also developed a new reporting process to provide USDA 
agency managers with prompt feedback regarding the use of Recovery Act 
funds; these ``fast reports'' convey issues to program managers as soon 
as they are identified. Fast reports are then consolidated and issued 
in a formal, audit report at a later date. As of April 1, 2010, we have 
issued 30 fast reports addressing matters such as business and industry 
loans, contract issuance and management, Recovery Act reporting, 
housing loans, nutrition assistance, farm operating loans, water and 
waste disposal grants and loans, and floodplain easements. For example, 
the fast report we issued concerning SNAP found the budgetary estimate 
for SNAP had increased significantly since the original estimate 
included in the Food and Nutrition Service's Recovery Act Plan. The 
change was not consistently or timely reported on Recovery.gov and 
associated agency Web sites.\2\ The Department agreed to work with the 
Office of Management and Budget (OMB) and the Recovery Accountability 
and Transparency Board to establish a process for changing estimates 
reported on these public Web sites.
---------------------------------------------------------------------------
    \2\ The original estimate totaled more than $19.8 billion through 
fiscal year 2013. This amount increased to $65.8 billion through fiscal 
year 2019 when estimated for the fiscal year 2011 budget.
---------------------------------------------------------------------------
    Our Investigation Division has been working to ensure the integrity 
of Recovery Act programs by investigating allegations of potential 
fraud, preparing to conduct investigations, and implementing a 
whistleblower allegation program. To accomplish these goals, we 
developed a two-phase approach. As part of the first phase, we are 
increasing fraud awareness training for Federal, State, and local 
officials involved in the disbursement and administration of Recovery 
Act funding from USDA.
    In the second phase, we are assessing complaints and referrals OIG 
has received to ascertain if criminal investigations should be opened. 
As of April 9, 2010, OIG had received 31 referrals relating to USDA 
Recovery Act contract awards and 20 complaints to our hotline. Our goal 
is to expeditiously evaluate any concerns raised about USDA's Recovery 
Act activities and expenditures and ascertain if there is potential 
criminal activity or, alternatively, administrative issues. As of April 
9, 2010, we had identified no criminal activity in our reviews of 
Recovery Act referrals and complaints.
   goal 1: strengthen usda's safety and security measures for public 
                                 health
    One of OIG's most important goals is to protect public health and 
ensure the wholesomeness of the food reaching both U.S. consumers and 
consumers in foreign markets. In fiscal year 2009 and the first half of 
fiscal year 2010, we completed several important oversight projects 
related to food safety. We also completed work related to other USDA 
activities potentially affecting public safety, such as assessing the 
ongoing rehabilitation of aging dams throughout the country.
Evaluating Food Safety Controls Prior to Slaughter of Cattle
    In 2008, when videos came to light documenting the abuse of cattle 
awaiting slaughter at a meat packing company in Chino, California, the 
Food Safety and Inspection Service (FSIS) oversaw the company's recall 
of approximately 143 million pounds of raw and frozen beef products--
the largest recall in U.S. history. OIG's audit of conditions at the 
slaughter facility determined there was not a systemic failure ofFSIS' 
inspection process, but that plant personnel acted deliberately to 
bypass required inspections.
    OIG investigators continue to work closely with the U.S. Attorney's 
Office and FSIS to investigate the events that took place at this 
facility. Meanwhile, in 2009, OIG audit's work on this beef recall led 
to three major audits concerning the quality of beef processed in the 
United States.
Evaluating the Recall
    Given the unprecedented size and scope of this beef recall, OIG 
evaluated whether FSIS effectively oversaw the recall, verifying if the 
packing company contacted beef distributors, retrieved the potentially 
contaminated meat, and properly disposed of it. We also assessed 
whether FSIS had implemented corrective actions in response to 
recommendations OIG made in two prior reports on the agency's recall 
process.
    While FSIS had generally taken appropriate actions in response to 
our prior recommendations, we found that FSIS needs to improve how it 
evaluates the success of its recalls. To determine if a recall has been 
successful, FSIS samples and follows up with distributors who have 
received potentially adulterated beef. The agency, however, had no 
procedures to replace sampled distributors who were found not to have 
actually purchased any of the recalled beef. The size and completeness 
of the sample is important because FSIS depends on statistical 
projections to support its overall conclusions concerning a recall's 
effectiveness.
    In this recall, 41 percent of the companies FSIS contacted had not 
received the recalled product and therefore should not have been used 
to evaluate the recall--some were out of business, some did not sell 
meat at all, and others never purchased any of the recalled beef. We 
also found that FSIS needs to implement written procedures to ensure 
that all of its district offices follow a standardized and 
statistically valid process for evaluating recalls. FSIS agreed with 
OIG's recommendations to strengthen agency procedures to evaluate 
recalls.
Evaluating Controls Over Residues in Cattle
    Another public food safety issue facing the United States is the 
contamination of meat with residual veterinary drugs, pesticides, and 
heavy metals. ``Residue'' of this sort finds its way into the food 
supply when producers bring animals to slaughter plants while they have 
antibiotics or other drugs in their system. When the animals are 
slaughtered, traces of the drugs remain in these animals' meat when 
shipped to meat processors and retail supermarkets, and eventually 
purchased by consumers. In cooperation with the Environmental 
Protection Agency (EPA) and the Food and Drug Administration (FDA), 
FSIS inspectors are required to sample and test animal carcasses to 
verify that beef is not contaminated with harmful residue.
    Our March 2010 report found that the National Residue Program is 
not accomplishing its mission of monitoring the food supply for harmful 
residues. For example, FSIS, FDA, and EPA have not established 
thresholds for many dangerous substances (e.g., copper or dioxin), 
which has resulted in meat with these substances being distributed in 
commerce. To address these serious shortcomings in the National Residue 
Program, FSIS, EPA, and FDA need to take steps to improve how they 
coordinate with one another.
    Acting on its own initiative, FSIS can strengthen the National 
Residue Program by requiring slaughter plants to increase their 
controls when processing dairy cattle and bob veal calves. Our analysis 
shows that plants handling these animals were responsible for over 90 
percent of residue violations. The agency can also do more to focus on 
repeat violators-producers who have a history of bringing to slaughter 
animals with residue in their system. FSIS agreed with our findings and 
recommendations.
Purchasing Ground Beef for Federal Nutrition Assistance Programs
    The Agricultural Marketing Service (AMS) purchases ground beef 
products for use in Federal nutrition programs. Our newly released 
audit found that the agency had significantly improved its procedures 
to ensure that contracted ground beef suppliers comply with purchasing 
requirements. However, our audit found that further improvements are 
still needed. AMS has not made a formal determination as to whether 
ground beef suppliers should be required to obtain bonding or insurance 
to safeguard the Department against possible monetary losses resulting 
from major product recalls. The agency needs to strengthen its criteria 
to hold suppliers accountable for their non-conformances and to 
properly track non-conformances to ensure that ground beef suppliers 
meet eligibility requirements for continued program participation. In 
addition, AMS needed to strengthen its controls over the selection of 
product samples for laboratory testing and the laboratory testing 
process itself. This would provide increased assurance that ground beef 
products purchased for Federal programs meet quality and safety 
standards. AMS officials agreed with OIG's findings and 
recommendations.
Overseeing the National Organic Program
    The public's interest in environmental concerns and food produced 
with fewer pesticides and chemicals has led to increased focus on 
USDA's National Organic Program. Over the past decade, the organic 
industry has grown between 14 and 21 percent annually. In 2008, it sold 
more than $24.6 billion in agricultural products. Administered by AMS, 
the National Organic Program is responsible for ensuring that when 
consumers purchase foods labeled ``USDA organic,'' those foods meet 
uniform standards.
    Our recent audit of the National Organic Program found that program 
officials need to improve their process for handling complaints and 
taking appropriate enforcement actions. For example, AMS did not take 
enforcement action against a farming operation that marketed nonorganic 
mint under USDA's organic label for 2 years. Other farming operations 
continued to improperly market their products as organic while AMS 
considered enforcement action, which in some cases took as long as 32 
months.
    Organic products must originate from farms or operations certified 
by agents accredited by USDA. These certifying agents grant organic 
certification upon determining that an operation's procedures comply 
with regulations. We found that AMS did not ensure that its certifying 
agents consistently enforced the requirements of the organic program so 
that products labeled as organic meet a uniform standard. AMS officials 
agreed with OIG's findings and recommendations.
    OIG has also investigated criminal schemes to defraud the National 
Organic Program. In February 2010, as a result of a joint investigation 
involving OIG agents, the owner of an organic commodities company in 
Texas was sentenced to 24 months imprisonment and ordered to pay 
$520,000 for falsely certifying that conventionally grown crops (grain 
sorghum, beans) were organic.
Rehabilitating Aging Dams To Address Public Safety
    Since the 1940s, the Natural Resources Conservation Service (NRCS) 
has assisted in the construction of more than 11,000 dams, many of 
which have reached (or will soon reach) the end of their planned design 
lives and need rehabilitation. Congress appropriated over $159 million 
from fiscal years 2002 to 2007 to assist dam owners in rehabilitating 
these structures, most of which are owned by local governments and 
utilities.
    Our 2009 audit found that instead of first coordinating with State 
dam agencies, NRCS selected dams for assessment as they were 
volunteered by their owners, regardless of the potential threat to life 
and property or their proximity to the end of the planned design life. 
Six years after the program was initiated, NRCS had not assessed 1,345 
of 1,711 high-hazard dams (79 percent) and has spent $10.1 million to 
assess and rehabilitate lower hazard dams. (The failure of a lower-
hazard dam is unlikely to result in loss of life.) NRCS lacks authority 
to compel owners to take any particular action, even in the case of a 
dangerous high-hazard dam. NRCS officials agreed with OIG's findings 
and recommendations.
            OIG Investigations: Food Safety
    OIG considers investigations involving food safety our highest 
priority due to the potential impact on the health and well-being of 
the American public. In our food safety investigations, we typically 
see various schemes such as product tampering, adulteration, the 
falsification of documents, smuggling, and inhumane slaughter. Within 
the last year, we completed a number of noteworthy food safety 
investigations as illustrated by the following two cases.
    The first involves a Texas food company that schemed to defraud 
several Middle Eastern food companies as well as the U.S. military, 
which relies on these companies to provide food to its troops in Iraq 
and Afghanistan. The owner of this food company forged USDA export 
certificates and Halal certificates and directed his employees to wipe 
expiration dates off the products and stamp new dates on them. In July 
2009, the owner pled guilty to charges that he conspired to defraud the 
Government. He was sentenced to serve 24 months in jail and ordered to 
pay $3.9 million in restitution to the Federal Government.
    The second significant OIG food safety investigation involved the 
seizure of smuggled duck and other meat/poultry products aboard cargo 
ships at Port Elizabeth, New Jersey. The importer attempted to 
illegally bring the products into the United States by not listing them 
on the ship's manifest, thereby avoiding USDA inspection. A multi-
agency investigation found that the food products originated from 
China, which was prohibited from exporting poultry to the United 
States. The owner of the American import company ultimately pled guilty 
to conspiracy in February 2010. To date, this investigation has 
resulted in Federal fines in excess of $6.7 million being imposed on 
several companies and their owners.
            Animal Fighting Investigations
    Animal fighting is a crime that has gained national attention 
recently due to several high-profile investigations. OIG has been 
involved in investigating animal fighting for several years because of 
the effect these activities have on animal health, as well as human 
public health and safety concerns. The animals used in these illegal 
activities can introduce diseases into the United States. Individuals 
participating in animal fighting operations are also often implicated 
in illegal activities involving firearms, drugs, contraband, gambling 
and, in some instances, public corruption. In fiscal year 2009 and the 
first half of fiscal year 2010, our animal fighting investigations 
resulted in 405 individuals being convicted and monetary results of 
approximately $223,000.
    An OIG investigation disclosed that the former sheriff in Luray, 
Virginia, was accepting campaign contributions to protect an illegal 
cockfighting and gambling operation at the local sportsman's club. He 
was also using his position to conduct other improper activities, such 
as misusing inmate labor for personal gain. Due to OIG's investigation, 
the sheriff resigned from his position and was ultimately sentenced in 
December 2009 to 19 months imprisonment, 2 years of supervised release, 
forfeiture of $75,000 to the Federal Government, and approximately 
$5,000 in other monetary penalties. The sportsman's club was also fined 
and several associated individuals received prison terms ranging up to 
18 months.
   goal 2: strengthening usda's program integrity and improving the 
                          delivery of benefits
    OIG has also completed a number of projects intended to ensure that 
USDA programs are reaching the people who most need and are eligible 
for program benefits. These projects range from audits verifying the 
accuracy of payments made to farmers to investigations resulting in the 
prosecution of individuals who defraud SNAP.
Determining the Accuracy of Financial Assistance to Peanut Producers
    From 2002 through 2007, the Farm Service Agency (FSA) provided more 
than $1 billion in financial assistance to peanut producers. FSA 
determines how much assistance is needed based on weekly average peanut 
prices published by the National Agricultural Statistics Service 
(NASS). Even very small changes in peanut prices can result in 
significant changes in the amount of assistance provided--a penny one 
way or the other equals roughly $33 million a year. Our March 2009 
audit found that NASS' peanut prices are not based on reliable market 
data. Since there is no public commodity market for peanuts, NASS 
solicits price data from peanut buyers. Their participation is 
voluntary and confidential by law, and NASS does not verify the data 
they provide. Without mandatory and verifiable price reporting, FSA has 
no assurance that its program payment rates depending on NASS' 
published prices correspond to a true market price. FSA officials 
generally agreed with OIG's recommendations.
Improving USDA's 2008 Disaster Relief Response
    The Disaster Relief and Recovery Supplemental Appropriations Act of 
2008 provided USDA with extensive supplemental funding for disaster 
relief assistance to individuals and communities affected by the 
hurricanes and flooding in the Midwest and South (primarily) that year. 
Due to the efforts of this subcommittee and your counterparts in the 
House, the Act provided OIG with $5 million in supplemental no-year 
funding for oversight of the Department's emergency relief activities.
    Our disaster relief oversight program has focused on whether USDA 
agencies have implemented the internal control improvements regarding 
emergency benefits that OIG recommended after assessing their response 
to the 2005 Gulf Coast hurricanes. That experience demonstrated that 
management controls regarding emergency assistance eligibility and 
program oversight are vital to prevent the waste or misuse of USDA 
disaster funding. OIG's audit program for USDA disaster relief 
activities programs is assessing the Department's short-term emergency 
relief assistance and its longer-term rebuilding efforts. We are 
currently reviewing aspects of USDA 2008 disaster relief operations, 
such as the Emergency Watershed Protection Program and the Emergency 
Conservation Program.
Ensuring That All Farm Loan Recipients Are Treated Fairly
    A provision in the 2008 farm bill required OIG to review how FSA 
was processing foreclosures to ``socially disadvantaged'' farmers 
(i.e., women and minorities) to ensure that all loan recipients were 
being treated fairly and in conformity with the law. By analyzing FSA's 
actions at critical points in the foreclosure process, we found that 
FSA generally followed its established process in servicing and 
foreclosing loans to socially disadvantaged borrowers and that the 
agency's decisions conformed to applicable laws and regulations. We did 
find a few instances where FSA did not technically conform to 
prescribed timeframes for some policies and procedures; however, there 
was no statistically significant difference between how socially 
disadvantaged borrowers were treated compared to the rest of the 
population.
            OIG Investigations: USDA Benefit and Farm Programs
    Ensuring the integrity of benefits provided by USDA programs is the 
hallmark of the investigative work we do. OIG investigations of 
criminal activity in USDA's nutrition assistance programs resulted in 
250 convictions and over $44 million in monetary results in fiscal year 
2009. I would like to highlight for the subcommittee several noteworthy 
OIG investigations regarding USDA benefit programs that achieved 
significant sentencings and/or restitution orders in fiscal year 2009.
  --An Illinois store owner and employee conspired with at least five 
        additional retail grocery stores to illegally exchange SNAP 
        benefits for cash. Together, the owner and his employee were 
        sentenced to 83 months of incarceration and ordered to pay $6.3 
        million in restitution to USDA.
  --An Oklahoma entity receiving Child and Adult Care Food Program 
        benefits made false statements and claims on monthly meal 
        reimbursement records to fraudulently obtain additional meal 
        reimbursements. The director was sentenced to 41 months 
        imprisonment and ordered to pay $1.6 million restitution to the 
        U.S. Government.
  --Kentucky business owners fraudulently used the same collateral to 
        secure two bank loans guaranteed by USDA's Rural Business 
        Cooperative Service. In February 2009, the owners pled guilty 
        to bank fraud, wire fraud, and money laundering and were 
        sentenced to 27 months and 30 months imprisonment, 
        respectively. They were ordered to pay $4.5 million in 
        restitution to USDA and two other entities.
    In fiscal year 2009, OIG also completed several investigations into 
fraudulent activities involving FSA and Risk Management Agency (RMA) 
programs. These are some of the most complex investigations we conduct, 
as they often involve large monetary amounts and voluminous 
documentation. In this area, OIG found that:
  --A Florida farming entity received over $1 million in fraudulent 
        crop insurance payments. The OIG investigation resulted in the 
        corporation being ordered in March 2009 to pay $1.1 million in 
        restitution to USDA. The farmer was ordered to pay in excess of 
        $460,000 in taxes and penalties to the Internal Revenue 
        Service.
  --A Missouri farmer made false statements to obtain loans, convert 
        collateral, and commit bank fraud. In September 2009, the 
        farmer pled guilty to all charges and was sentenced to 9 months 
        incarceration and ordered to pay $550,000 to the Federal 
        Government.
     goal 3: oig work in support of usda's management improvement 
                              initiatives
    OIG continuously monitors risks to USDA programs to assist the 
Department in identifying and correcting programmatic concerns, and to 
improve overall Department management.
Enhancing the Integrity of the Federal Crop Insurance Program
    RMA oversees private companies that sell crop insurance policies to 
American farmers. The total liability for this insurance has increased 
markedly in recent years--from 2005 to 2009, total liability increased 
from $35 billion to approximately $91 billion. OIG found that RMA needs 
to take a number of steps to strengthen its oversight of this industry. 
Above all, it needs a comprehensive, systematic, and well-defined 
strategy for improving the integrity of the crop insurance program, 
including a strategy that coordinates the various activities being 
conducted by the different RMA divisions. In order to use RMA's limited 
compliance resources as effectively as possible, the strategy should 
focus those resources on program vulnerabilities, which we recommended 
RMA determine by performing a risk assessment. We identified steps RMA 
can take to strengthen its oversight of the crop insurance companies 
that are responsible for much of the day-to-day operations of the 
program. Such steps include improving the agency's review of large 
insurance claims and holding the private insurance companies 
responsible when RMA finds that they made errors while processing 
claims. We continue to work with RMA officials on corrective actions to 
address OIG's recommendations.
Strengthening the Security of USDA Information Technology
    Over the last decade, USDA has improved its information technology 
(IT) security, but many longstanding weaknesses remain. In 2009, the 
Department implemented its Cyber Security Assessment and Management 
System to provide it with current agency security information and 
enhance the Department's oversight capabilities. USDA still needs to 
take steps to address a number of security weakness, such as developing 
a Department-wide plan for addressing IT security vulnerabilities, 
updating software, addressing vulnerabilities, deploying both 
encryption and the Federal Desktop Core Configuration, and using 
standard security settings. With such a large and diverse Department, 
ensuring that all agencies comply with these standards will take time 
and resources. The Office of the Chief Information Officer is 
continuing to work towards these goals.
Financial Statements for Fiscal Years 2008 and 2009
    Pursuant to the Chief Financial Officers Act of 1990 and OMB 
guidance, Federal OIGs are responsible for annual audits of 
departmental and agency financial statements to obtain reasonable 
assurance that the financial statements are free of material 
misstatements. USDA's fiscal year 2008 and 2009 consolidated financial 
statements received an unqualified opinion, as did the fiscal year 2008 
and 2009 financial statements for five other USDA entities.\3\
---------------------------------------------------------------------------
    \3\ Rural Development, Commodity Credit Corporation, FS, Food and 
Nutrition Service, and Federal Crop Insurance Corporation. NRCS 
received a disclaimer of opinion, but this did not change the opinion 
for the consolidated statements.
---------------------------------------------------------------------------
OIG Investigations
    In order to promote integrity of departmental operations and 
activities, OIG has responsibility to investigate incidents of severe 
misconduct and potential criminal activity by USDA personnel. The 
following OIG investigations involving former USDA personnel resulted 
in sentencings in fiscal year 2009:
  --A former FS employee in Wisconsin was found to have misused 
        purchase card convenience checks and misappropriated almost 
        $320,000 over a 4-year period. In May 2009, she was sentenced 
        to 12 months incarceration and ordered to pay $320,000 in 
        restitution to the Federal Government.
  --In December 2009, a former FSIS employee was sentenced in the 
        Southern District of Mississippi to 11 months in prison and 3 
        years of probation for threatening and pointing an assault 
        rifle at OIG agents. OIG agents had been sent to interview the 
        former employee after he made threatening phone calls to the 
        FSIS Regional Director. The individual pled guilty to one count 
        of assaulting, resisting, or impeding Federal employees.
       goal 4: improving usda's stewardship of natural resources
    USDA provides leadership to help America's private landowners and 
managers conserve their soil, water, and other natural resources. Our 
goal in auditing these activities is to increase the efficiency and 
effectiveness with which USDA exercises stewardship over natural 
resources.
Encouraging Farmers and Ranchers To Become Good Stewards of the Land
    NRCS' Conservation Security Program (CSP) provides financial 
assistance to producers who meet the very highest standards of 
conservation and environmental management. OIG assessed NRCS' CSP 
administration for one fiscal year in which the agency was authorized 
$259 million in financial assistance for prior year contracts and new 
signups for conservation practices, as well as technical assistance to 
develop conservation plans. Of the approximately 4,400 contracts for 
the new signups with first year payments totaling $51 million, we 
sampled 75 contracts that totaled $11.8 million. We found that half (38 
of 75) were given to participants who did not qualify for the program. 
NRCS relied on applicants to provide accurate information, but did not 
confirm key information that would help verify producer qualifications. 
Agency officials agreed with OIG's recommendations and we continue to 
work with NRCS on appropriate corrective actions.
Forest Service
    Employing approximately 30,000 employees and overseeing 193 million 
acres comprising 175 National Forests and Grasslands, the U.S. Forest 
Service (FS) is the largest USDA agency. In fiscal year 2008, FS spent 
more than $5.8 billion managing and protecting America's natural 
resources. Because FS is an extremely decentralized agency that has a 
history of weak internal controls, OIG devotes a significant percentage 
of its resources to overseeing its operations. The following are brief 
descriptions of several of our more noteworthy oversight reviews 
pertaining to FS operations.
Purchasing and Maintaining the Aircraft FS Needs To Fight Fires
    We reviewed FS' plans for purchasing new aircraft for its 
firefighting program, and found that FS did not present the best case 
possible to justify buying new aircraft. With an average age of more 
than 50 years, more than half of the 44 airtankers available under 
contract in 2004 were grounded for safety concerns. By 2012 the 
remaining 19 airtankers will begin to be either too expensive to 
maintain or no longer airworthy. FS will probably have to purchase 
replacement aircraft--at a cost of up to $2.5 billion--rather than 
lease airtankers, as it has done in the past. FS agreed with our 
recommendations to: (1) collect current aviation performance data to 
determine how new aircraft will improve its firefighting performance; 
(2) use aviation firefighting performance measures that directly 
demonstrate the cost impact of its aging airtanker fleet; and (3) 
formally establish an integrated team to take charge of developing the 
agency's budget document.
Improving How FS Uses Contracted Labor Crews To Fight Fires
    Since FS relies on contractors to fulfill many of its firefighting 
responsibilities, we assessed how effectively and efficiently FS is 
deploying these resources. We found that FS needs to analyze its 
mobilization data from previous seasons to identify trends in how 
firefighting labor crews are used in conjunction with other resources 
(i.e., aircraft operations, fire engine crews). Analyzing this data 
would greatly improve FS' ability to identify more effective deployment 
strategies, especially during severe fire seasons when FS' resources 
are most taxed. We continue to work with FS to obtain agreement on the 
corrective actions.
Evaluating How FS Plans To Replace Its Critical Personnel as They 
        Retire
    FS could face a significant shortage of qualified firefighters as 
its workforce ages and firefighters face mandatory retirement. As of 
2009, approximately 26 percent of FS' critical firefighters were 
eligible to retire. Unless adequate replacements are available, the 
nation could face losses to its natural resources and firefighters 
could be at increased risk of harm. We concluded that FS has not taken 
the necessary steps to ensure it has a sufficient number of qualified 
staff to meet its future wildland fire management responsibilities. FS 
officials agreed with OIG's findings and recommendations.
                           oig investigations
    In the case of each fatality of an officer or employee of the FS 
that occurs by a wildfire entrapment or burnover, OIG is required by 
law to conduct an independent investigation.\4\ Thus, when five FS 
firefighters fighting the Esperanza Fire died due to a burnover in 
October 2006, OIG investigated the circumstances of their deaths. Our 
investigation found that there was no evidence of any criminal 
wrongdoing involved in the accident.
---------------------------------------------------------------------------
    \4\ 7 U.S.C. 2270(b).
---------------------------------------------------------------------------
    OIG's Wildland Fire Investigation Team will continue to work with 
FS to ensure that there is transparency and established procedures for 
handling future investigations of this sort.
                 oig's fiscal year 2011 budget request
    Before concluding, I would like to address key elements of the 
President's fiscal year 2011 budget request for OIG. We are very 
grateful for the support of the administration and of the Congress 
particularly the Members of this subcommittee--during this budget 
process. Your ongoing support and interest in our work has enabled us 
to consistently provide constructive oversight for a wide array of 
USDA's extensive programs and operations.
    Over the last 5 fiscal years, the total appropriation available for 
OIG was approximately $413 million. The potential dollar impact of 
OIG's audits and investigations for this same period was $1.36 billion, 
resulting in cost savings and recoveries of approximately $3.29 for 
every dollar invested in our oversight work.
    We respectfully ask that you support the President's fiscal year 
2011 request of $90.3 million for OIG. This appropriation would be an 
increase of $1.6 million over our fiscal year 2010 level and would 
provide:
  --$1 million for 2011 mandatory pay costs;
  --$162,000 to support investigator training, which includes required 
        Federal law enforcement training, training peer counselors for 
        Critical Incident Stress Management, and continuing legal 
        training to maintain the current professional standards set for 
        OIG staff;
  --$394,000 to support the Council ofInspectors General on Integrity 
        and Efficiency (CIGIE, or the Council).
    Pay cost increases are needed to maintain current staffing levels 
to enable OIG to carry out important oversight work in areas such as 
food safety, program integrity, and departmental management. 
Approximately 86 percent of OIG's budget is dedicated to personnel 
compensation. The remaining 14 percent is expended for contract 
services and rental fees (7 percent); travel (5 percent); and supplies, 
equipment, and telecommunications (2 percent). This leaves very limited 
flexibility to OIG managers to absorb mandatory pay increases.
    The President's request provides funds to support CIGIE, which is 
an organization of 69 Federal IGs established by the Congress via the 
IG Reform Act of 2008.\5\ As authorized by the Congress, the Council's 
mission is to address integrity, economy, and effectiveness issues that 
transcend individual agencies and increase the professionalism of the 
IG workforce. USDA OIG is a member of the Council and serves as its 
first elected Chair. To fund CIGIE's activities and responsibilities 
and fulfill its legislative mission under the IG Reform Act, the 
administration has included $394,000 in the budgets of 15 OIGs, 
including USDA OIG. Your support for this request is essential to 
funding this newly established Council.
---------------------------------------------------------------------------
    \5\ Public Law 110-409.
---------------------------------------------------------------------------
    We would be pleased to provide the subcommittee's Members and staff 
with any additional information you may require to fully consider the 
President's fiscal year 2011 budget request for our office.
    This concludes my written statement. I want to again thank the 
Chair and Ranking Member for the opportunity to submit testimony for 
your consideration.

    Senator Kohl. Thank you very much for that fine statement.

                             DAIRY FARMERS

    Mr. Secretary, last year dairy farmers in my State of 
Wisconsin, and as well as all around the Nation, experienced 
the worst downfall in prices in history, as you know. We were 
able to provide some direct assistance to dairy farmers in our 
bill last year. Can you please update us on what USDA has done 
to implement the assistance we provided, other things you have 
done to stabilize the dairy sector, as well as your outlook for 
the coming year?
    Secretary Vilsack. Mr. Chairman, the dairy outlook is, I 
think, much better than it was last year when we were faced 
with record low prices. There has been a slight rebound in 
prices, and our hope is that that will continue.
    We took aggressive steps last year, in the form of 
increasing price support, encouraging an expansion of the Dairy 
Export Incentive Program to spur exports and to allow us to be 
more competitive. We focused on, as you know, rapidly 
implementing the support and assistance that Congress provided 
at the tail end of the year, distributing roughly $270 million 
of the $290 million in cash, that was provided by Congress in 
the appropriation to farmers, pursuant to a formula that tried 
to mirror the MILC payment structure, with a few modifications 
to ensure an equitable distribution of those resources among 
all dairy farmers. The balance of the $350 million has been 
used in purchasing cheese, in an effort to make sure that all 
of the dairy farmers throughout the country have been helped 
and assisted through this effort.
    I think it's fair to say that we got the resources out, and 
in a relatively quick period of time. The cheese purchases have 
recently been concluded. And so, at this point, we have 
eliminated or utilized all of the resources that Congress has 
provided, with the exception of the small percentage of the 
cash payments to make sure that, if we made a mistake on a MILC 
calculation or payment calculation, that we can correct that 
mistake.
    Senator Kohl. Thank you Mr. Secretary.

                             WIC ARRA FUNDS

    The American Recovery and Reinvestment Act of 2009 provided 
funding to support increased WIC participation. According to 
this budget, not all of this funding has been yet allocated. 
Will you use your transfer authority to obligate any of the 
remaining funds from the Recovery Act for other nutrition 
programs, or will these funds be returned to the Treasury?
    Secretary Vilsack. Mr. Chairman, we are watching very 
carefully the resources provided under the Recovery Act, in 
terms of nutrition assistance. We are hopeful that we are 
making the right set of decisions.
    I will say that with SNAP we've seen a rather dramatic 
increase in the numbers. We haven't necessarily seen that same 
corresponding increase in some of the other programs. And we 
are working with States to make sure that, with the tough 
budget situations that States face, that they aren't reducing 
their administrative assistance and help to get the information 
out about these programs. So, we are cautious about 
transferring resources from one program to another until we are 
confident that the trends we're seeing in SNAP are not all of a 
sudden going to be recognized in WIC or some of the other 
programs.
    Obviously, our goal is to make sure that we do as much as 
we possibly can with this nutrition assistance. And the reason 
for it is not just to make sure that people have adequate 
resources to buy groceries, but also the economic stimulus that 
these items represent. For every dollar we spend in the SNAP 
program, for example, we know there's $1.84 in economic 
activity. We know it has helped to retain jobs in grocery 
stores and trucking facilities and processing facilities around 
the country. So, we're going to be very careful about how we 
manage these resources. Our budget does request additional 
resources for WIC; it does focus on additional resources for 
breastfeeding, because we know that that leads to a healthier 
start for our youngsters. We will continue to monitor this.

                               WIC BUDGET

    Senator Kohl. Just to follow on, the budget includes, as 
you know, a big increase for the WIC program, because this 
program, as you know, is volatile, as well as essential. Do you 
believe the budget is sufficient to cover the demand for the 
WIC program, given the recent history of unforeseen food costs, 
as well as other problems?
    Secretary Vilsack. I do, Mr. Chair, in part because the 
rather dramatic increases we've seen in food costs are not 
being reflected in the numbers we're seeing for food increases 
this year. There has been a moderation of those increases, 
number one. On the other hand, we changed the WIC package to 
include more nutritious choices and options. And so, we're 
obviously focused on making sure that we keep an eye on the 
cost of the package, because we want to encourage more 
nutrition.
    Frankly, what we're also focusing on is expanding the 27 
States that are making electronic benefit transfer cards 
available to WIC participants. We see this as a way of 
encouraging participation and making it easier on families to 
be able to utilize these resources in an effective way without 
having any stigma attached to it.
    Today, 50 percent of America's infants are engaged in the 
WIC program. So, it is obviously a very important program for 
the nutritional need of America's children.
    Senator Kohl. Can you say that again? Fifty percent----
    Secretary Vilsack. Yes sir.
    Senator Kohl [continuing]. Of America's children?
    Secretary Vilsack. Infants, the infants----
    Senator Kohl. Yes.
    Secretary Vilsack [continuing]. Fifty percent of the 
infants born in the United States are in the program.

                   SNAP STATE ADMINISTRATIVE EXPENSES

    Senator Kohl. Okay. Mr. Secretary, as you are aware, 
Congress recently approved additional funding to cover the 
costs of State administrative expenses for the SNAP program. 
Because of budget constraints, some States have chosen to use 
these funds for other programs. I outlined this problem to you 
in a recent letter signed by the ranking member and myself. 
What is the Department doing to make sure that these funds are 
only being used for SNAP? Are there any repercussions to States 
for using these funds on other programs?
    Secretary Vilsack. Mr. Chairman, I had the opportunity to 
visit, informally, with a number of the Nation's Governors 
during the recent National Governors Association meeting here 
in Washington, to reinforce the message that we are here to 
help, but we want to make sure our help is focused and directed 
in the proper manner. We have also recently sent correspondence 
to the Nation's Governors on the important role that SNAP is 
playing, and on making sure that, despite the difficult choices 
that they have to make, that they don't misuse these resources. 
And we are keeping an eye on it.
    We are focused on a couple of States, in particular, who 
have had some significant difficulties with the administration 
of the SNAP program. Decisions that were made to outsource some 
of the administrative activities have not done as well as they 
had anticipated. And so, we are working with those States to 
make sure that they are focused.
    We're also focused on States where the participation rate 
has been less than, I would say, optimal. There are States 
that, still today, 50 percent of those who qualify for SNAP are 
not participating. So, we're encouraging and trying to incent, 
recognizing the difficulties and circumstances that Governors 
face. Having been in that situation for 8 years in Iowa, 6 of 
the 8 years, while Governor I had less money than I had the 
year before. So I am somewhat sympathetic, but understand our 
responsibility is to make sure those resources are used 
appropriately.
    Senator Kohl. Did you say there are States that are 
eligible for SNAP, but they don't participate?
    Secretary Vilsack. Well, they participate, but they don't 
actively and aggressively promote the program. So, as a result, 
in a number of States, a little over 50 percent of the people 
who are eligible to participate in SNAP are, in fact, 
participating. It's one of the reasons why we're constantly 
looking for ways in which we can assist folks with categorial 
eligibility.
    In our budget proposal, we're taking a look at the asset 
tests. We're taking a look at extending some of the provisions 
of the Recovery Act that are working pretty well to provide 
that floor, that nutritional floor that SNAP and the nutrition 
assistance programs provide. We have seen an increase, 
obviously, in the numbers in SNAP. We now have more than 38 
million Americans participating in the program. But, if all of 
America participated, I think you would see even more 
significant numbers.
    Senator Kohl. Thank you.
    Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman.

                                ETHANOL

    There have been proposals kicking around on the Hill to up 
the percentage of ethanol in some of the fuel mixtures from 10 
percent to 15 percent. I don't know of a better way to move up 
ethanol than do something like that. Is there--has the agency 
been able to look at that, or weigh in on that debate, 
Secretary?
    Secretary Vilsack. Senator, we have. As you probably know, 
the EPA is currently considering adjusting the E10 rate to as 
much as E15. They are in the process of working with the 
Department of Energy in a series of tests that are being 
conducted on a variety of engines. I believe that there's an 
indication that, in the later-model vehicles, E15 would work 
without significant problems. In some of the older vehicles it 
may be a little bit more difficult. And so, they're trying to 
figure out precisely where that cutoff point is.
    Second, when we put together the Biofuels Task Force 
report, recognizing that we wanted to make sure that this 
industry was a national industry and not necessarily a regional 
industry, we recognized that there were some deficiencies in 
our strategy. One deficiency was that there really wasn't 
adequate distribution, and that's why it's important, I think, 
for us to set up regional efforts so that we can have regional 
distribution systems so that this fuel doesn't have to travel 
long distances to get to where it can be used.
    Second, we saw an overlapping of our research efforts. 
Department of Energy was focused on what really wasn't its core 
competency, and we were focused on things that weren't our core 
competency at USDA. So, we have separated the research 
responsibilities, with USDA focused on feedstocks, Department 
of Energy focused on conversion efficiency. We're also looking 
at ways in which we can focus on the near term, things that 
could be implemented within the next 10 years, with the 
Department of Energy looking at more of the longer-term 
attitude.
    So, there is a comprehensive look at this, and we are going 
to work as hard as we possibly can to get to that 36-billion-
gallon threshold that you all have set.
    Senator Brownback. When--is EPA going to make a ruling on 
this sometime fairly soon, or----
    Secretary Vilsack. I think that they are waiting on a 
completion of the Department of Energy testing. The last time I 
checked, there was still some testing to be done on some of the 
older vehicles. I would anticipate and hope that we would see 
this relatively soon. I think we got positive news, from a 
ethanol and biofuel industry standpoint, with the RFS2, 
reflecting that virtually--the corn-based ethanol and biodiesel 
would be able to qualify under the new RFS2.
    So, we're moving aggressively forward. We're looking at 
ways in which we can use both Recovery money and our regular 
program money to encourage this distribution system for 
biorefineries. We're trying to accelerate the energy title of 
the farm bill provisions so we can make the resources available 
to really jumpstart this industry. We see this as a critical 
component, as I said earlier, a critical pillar to a new 
revitalized rural economy. And we absolutely need this, 
Senator. We need this and a lot more. And we need, I believe, a 
regional approach, in terms of how we invest these resources so 
we get the biggest bang for the buck.
    Senator Brownback. Well, I'd sure urge you to put your 
shoulder in on this--on the EPA, on that percentage, because I 
don't know anything that could quicker move us up than a move 
like that would. And your voice, and your strength on this, and 
your speaking for rural America, could be a key piece of that, 
if you can.

                            METHANE RESEARCH

    Also, we are having difficulties--some people are looking 
at methane within livestock operations. It--I think it would be 
a worthwhile thing for the Department to invest in methane-to-
electricity research--collection-gathering type of systems. 
They have them in dairies--in confined dairies. They aren't, 
off of large cattle operations, because of the collection and 
the dirt that's involved in it, instead of a confined facility.
    We need help in that field. If--in your electricity--or, 
excuse me, when you're looking at the biofuels sector, if you 
can see--that piece of it would be very helpful, as well.
    Secretary Vilsack. I'd say a couple things in response to 
that comment, Senator. First, one of the reasons we wanted to 
focus our competitive research dollars was to be able to 
advance areas that had great significance so that our National 
Institute of Food and Agriculture would become the equivalent 
of the National Institutes of Health, in terms of its ability 
to leverage additional resources. One of the areas we think we 
should be leveraging more dollars competitively is in this 
energy area.
    Second, we entered into a memorandum of understanding with 
the dairy industry. The dairy industry and the retail community 
have combined together to commit to reducing their carbon 
footprint by a significant amount, and one strategy for doing 
that is expanded use of digesters. And so, we are in the 
process of working with the dairy industry to figure out how we 
can use our grant programs more effectively to allow dairy 
operations to utilize this digester capacity. The problem there 
is that the smaller dairies are often not included because it's 
cost prohibitive. So, how can we help those smaller dairies?
    And then, finally, I have been and I have seen farms--hog 
operations, in particular--where there has been a rather 
phenomenal thing taking place, in terms of large hog operations 
essentially converting the methane produced in their pit to 
electricity, and doing it with solar-powered technology. It's 
happening in North Carolina, and it's happening in a number of 
other parts of the country.
    Senator Brownback. We need some help with that in the large 
feed-yard cattle operations. It's just a different setting, 
it's not a----
    Secretary Vilsack. Right.
    Senator Brownback [continuing]. Confined unit. And yet, as 
you might guess, the methane production is fairly substantial 
with it. So, you'd--it's something to watch.

                            AGRICULTURE EXPO

    Just a final thought would be--I'm a big person that, if 
you show people or if you provide an opportunity for people to 
see something, they really--their imagination catches on and 
things start to happen. I've pushed, for some time, that we 
would a new products expo where you would--the USDA--maybe 
USDA, with Department of Energy, or with NREL--would host a 
``bring your latest gismo out of what you're doing with 
agriculture renewable products.'' Maybe it's like a Detroit 
auto show, where you--the latest and greatest comes out, and 
maybe you want to host it in a great Midwestern city of--like, 
Kansas City, maybe, or something like that. I don't know what--
the Kansas side of Kansas City--but, you know, in that area 
anyway. But, I think you would really get a lot of interest. 
And I think you'd--there'd be a lot of people looking at it. 
Just as these things--they start to tend to tell people a 
different narrative of what future that can be different. And I 
think it also helps attract human capital into our industry, 
which is at the root of what we need to do. We need to attract 
more people into the industry. And to do that, you've got to 
sell some excitement with it. And I think these things can be 
very exciting. So, I hope you'd consider doing that.
    Secretary Vilsack. Positive suggestion. I won't commit to 
the Kansas part of it, because I've got a Wisconsin chair, I've 
got a Missouri friend, Mississippi probably could make a case 
for it, and I know--Senator Harkin's not here, and I'm sure 
he'd be--his interest would be piqued in having it in Des 
Moines. Mine would be, too, frankly.
    Senator Brownback. Thanks, Secretary.
    Senator Kohl. Thank you, Senator Brownback.
    Senator Bond.
    Senator Bond. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary. I agree with my friend from 
Kansas. You ought to go to an ag show. It just so happens that 
the Danforth Plant Science Center, the NIDUS Center, which is 
coming up with all of these wonderful ag developments, has 
their annual ag show--it's an international ag show--the last 
week in May. And I hope that you will be there, because they 
are doing tremendous things, particularly in biofuels. And I 
would be--be happy to provide you information, if some of your 
staff wants to attend. And my colleagues are welcome to come, 
too.
    I would agree strongly with what the Senator from Kansas 
said about ag development. We found--as a result of requests 
from the president of Afghanistan, and our commanding general 
at the time, now Ambassador Eikenberry--that providing 
agricultural tools can totally switch around the area. The 
State Department was unable to send ag development specialists, 
but the Missouri National Guard went with ag specialists, 
working with a land grant college--in 1 year they brought 
reasonably modern ag practices that were much more productive 
and lucrative than poppy farming--and poppy production in 
Nangarhar, in 1 year, went from the second highest in the 
Nation to almost zero. And there are now at least 10 other 
States, backed up by land grant colleges--they can provide a 
very valuable resource in what--Secretary Clinton and I 
strongly believe smart power is the only way to establish 
stability in many of these countries. So, that is an area where 
the USDA can help.
    I commend you and thank you for the significant increase to 
$425 million for competitive grants through ag and food 
research. I think NIFA has--is developing wonderful things for 
improving nutrition, making much greater availability of food 
for a growing population, lessening the use of chemical 
pesticides, and improving agricultural energy.
    But, one of the problems we see in the developing area is 
biotech. Many of the experts in the area say, ``This is a 
tremendous industry, but it's being strangled by regulation.'' 
And right now, we've seen roundup-ready alfalfa--been 3 years 
since the court order. They go back for an EIS. It's likely 
going to be 4 years before they get a final EIS. So, this has 
been tested, tested, and retested. And in order for farmers and 
consumers to realize the benefits of agrobiotechnology, it's 
essential the USDA continue to implement a timely--a science-
based, but timely approval process.
    I'd like to hear your thoughts on that; and if there are 
things that we can do legislatively to help you clear away the 
underbrush so we can bring these new products to market, I 
would be very happy to join with my colleagues to provide you 
all the help you need.

                        AFGHANISTAN AGRICULTURE

    Secretary Vilsack. Senator, first of all just a brief 
comment about Afghanistan. I went to Afghanistan in January to 
visit with 64 USDA workers who were over there working with 
National Guard troops, as you mentioned, and with the Afghan 
farmers. And I agree with you----
    Senator Bond. Oh, it's----
    Secretary Vilsack [continuing]. There is----
    Senator Bond [continuing]. Huge.
    Secretary Vilsack [continuing]. A tremendous opportunity. 
The Afghan Agriculture Minister is a person, I think, of good 
integrity. He's got a framework in place focused on increasing 
agriculture productivity, regenerating agribusiness in 
Afghanistan, making sure the natural resources are protected, 
and change management to his own operation. There's a lot of 
work yet to be done there, but I think you're going to continue 
to see----
    Senator Bond. Okay.
    Secretary Vilsack [continuing]. A USDA presence there.

                             BIOTECHNOLOGY

    As it relates to biotechnology, let me, first of all, say 
that, when I came into office, I was confronted with an 
inspector general's report suggesting that the Department did 
not have a strategy for promoting biotechnology, not only 
within the United States, but around the world.
    Senator Bond. Right.
    Secretary Vilsack. We have spent the last 7 or 8 months 
focusing on developing such a strategy, that includes continued 
promotion of a science-based and rules-based system; using 
public diplomacy, pointing out the benefits of biotechnology, 
in terms of its capacity to increase productivity, less 
reliance on natural resources, and on chemicals and protection 
of the environment. So, we're in the process now of 
implementing that strategy.
    We are also focused on our own rulemaking process, which we 
began a number of years ago, in this effort. We got quite a bit 
of comments from people from all parts of the spectrum.

                          NUTRITION GUIDELINES

    Senator Bond. Mr. Secretary, I--time's running out. I just 
want to add one final thought. I support the First Lady's Let's 
Move campaign, but as one who shops in a rural grocery store 
and sees people going through with food stamps for the SNAP 
program, with obese children and parents, and baskets full of 
empty-calorie food, have you thought about implementing the 
same kind of guidelines you have for WIC, school lunch, to SNAP 
to say that you have to use it to buy milk, fruits, vegetables?
    Secretary Vilsack. Senator, we have looked at this. The 
complexity is in the fact that there are now, on average, 
50,000 different items in a grocery store. And using the 
technology to be able to adjust the EBT card makes it difficult 
to do what you've asked to be done.
    What we are looking at is creating a set of incentives. We 
have a program now in which we are encouraging States to look 
at point-of-sale incentives, where, instead of a dollar being 
credited to your EBT card for vegetables and fruit purchases, 
the grocer would get the dollar, but you, the person with the 
card, would only be charged 80 cents. So, that would extend 
their card a bit, as a way of encouraging and incenting fruits 
and vegetable purchases. We're going to see. We've got about 
$20 million of incentive grants for pilots, to see how this is 
going to work, if it's going to work. And that's how we're 
approaching it right now.
    I will say our principal focus this year on fruits and 
vegetables is trying to make sure that we get more of them in 
our school lunch and school breakfast programs.
    Senator Bond. Thank you very much, Mr. Secretary.
    I thank you, Mr. Chairman, and apologize for running over.
    Senator Kohl. Thank you very much, Senator Bond.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you very much. I 
appreciate your leadership of this subcommittee.
    And, Mr. Secretary, welcome. We appreciate your dedicated 
service as Secretary of Agriculture. I know you have a couple 
of hot-button issues in our State, we've always got one or two. 
Don't want you to get bored in your job.

                            FARMERS LAWSUITS

    One of these is the implementation of judgment in the 
minority farmers lawsuit, which had been pending for some 
years. There is now a directive that funds be paid to those who 
were shown to have been discriminated against in the 
administration of Department of Agriculture programs over a 
period of years. I wonder if you could just give us a status 
report on what the administration is doing to settle these 
claims, and what the outlook is. What's the request, if any, 
for specific settlement payments in this bill?
    Secretary Vilsack. Senator, thank you for asking that 
question. When I came into office, on a bipartisan basis, the 
former Agriculture Secretaries that I talked to encouraged me 
to focus time and attention and resources on trying to get 
these cases settled. As you know, there are cases involving 
Black farmers, women farmers, Hispanic farmers, and Native 
American farmers. They are all different, in terms of where 
they are in the court process.
    The Pigford case, which is the Black farmer case, was 
probably the most mature case. We had a class-action 
certification. We had had a settlement of the case. Late filers 
came in. Congress essentially, in the farm bill, reopened this 
matter, but did not put sufficient resources to actually get it 
settled. I encouraged the President and the administration to 
fix a dollar amount that would actually be real, which they 
did. The President submitted in his budget last year, and has 
submitted in a recent supplemental request, $1.25 billion that 
would be distributed in somewhat the same way that the first 
tranche of resources were distributed.
    You'd have two tracks, a speedy track, which would require 
less proof of claim, but a lower dollar amount that you would 
be entitled to, with debt relief; and a more complicated track, 
that would allow you to get up to $250,000. That process 
requires Congress to appropriate the resource. We've made the 
request, and we're going to continue to work with Congress to 
make sure that that is followed through, and hopefully done by 
the end of this month.
    The other cases, we have encouraged the Department of 
Justice, and it has responded, to begin the process of 
discussing negotiations. In the Keepseagle case, which is the 
Native American case, there are numbers being discussed. 
There's a fairly wide gap between the parties at this point, 
but we're continuing to have conversations to narrow that gap. 
In the other two cases, the Love and Garcia case, we're in the 
process now. They are complicated because they're not yet 
certified as class action, so, in a sense, they're individual 
cases, tens of thousands of individual cases.
    Candidly, to get these cases settled, in my view, one of 
two things has to happen. Either there has to be an 
understanding and agreement on a dollar amount that lawyers 
representing an adequate number of plaintiffs will agree with 
the Department of Justice on, or Congress has to essentially 
direct a process for USDA to go through for a rapid evaluation 
of the claims so that we'd get a sense of what the potential 
liability could be in those other three cases. We are very 
committed to trying to get these cases settled and closing this 
rather sordid chapter of USDA history.
    Senator Cochran. Well, we appreciate your insights and 
sharing with us the status of these programs, and your efforts 
to help resolve this in a fair way, and one that's consistent 
with the judgments of the courts that have rendered decisions 
on that subject.

                            FOREIGN CATFISH

    In our State, we have been advised, by some of our 
aquaculture catfish farmer constituents, that the Department 
hasn't been doing much to support them in their effort to get 
inspection of foreign fish that are imported into the country, 
some of it labeled as if it's catfish from Mississippi--it 
doesn't say ``Mississippi,'' but it borrows the name--and in 
other ways is making it difficult to compete, because they're 
not going through the inspection processes and other safeguards 
that are required of our domestic producers. And so, we've got 
a problem there. And folks are not only angry about it, but 
they're going out of business.
    I drove through the delta the other day and noticed some 
bulldozers just pushing down the impoundments, and I found out 
that that person, the landowner involved, is going to try to 
make money growing soybeans again. And maybe that's, you know, 
a good decision, based on the fact that we do have this 
difficult competitive situation.
    What is the status of implementation of the inspection 
programs for foreign fish coming in? And do you have any 
encouragement that I can pass on to my fish farmers down in 
Mississippi?
    Secretary Vilsack. Senator, again, thanks for asking that 
question. One of the things that I've tried to do as Secretary 
is occasionally walk down the various long hallways at the USDA 
building and pop into someone's office and just sit down and 
find out what they're up to. Not long ago, I happened into the 
office of the fellows who are working on the catfish 
regulations, and over the next 45 minutes, I found out how 
complicated this issue is.
    First, we had to determine the intent of Congress, from the 
legislation that was passed, as to whether or not Congress 
intended a narrow definition or an expansive definition. There 
are 39 different varieties of catfish, I found out from my 
brief visit with those fellows. And they are, as you indicated, 
raised in a number of parts of the world in different 
conditions and circumstances.
    Following that conversation, we did put together a rule, 
and we submitted that to OMB. And at the current time, that is 
where the process is. OMB is in the process of reviewing that 
rule. So, we have made our determination as to what we think is 
appropriate, but, in light of the process that we have to 
follow, folks have to sign off on that. We're encouraging OMB 
to do that as quickly as possible.
    We recognize this is a complicated circumstance, because 
you've got safety issues, you've got consumer information 
issues, you've got the economic development capacities of folks 
who are raising these fish in America. You also, obviously, 
have relationships with other countries that get complicated, 
based on decisions that we make here.
    Let me just simply say, from USDA's perspective, we are 
concerned about safety, and ought to be; that's our number one 
concern. We are also concerned about making sure the consumers 
have the right information to make the right and more informed 
choices as they go shopping, that they are getting what they 
are paying for and what they think they are getting. We are 
also interested in making sure that what we do is consistent 
with the science-based systems that we are advocating in 
trading relationships throughout the world. So, those are the 
three criteria that we used in developing our rule.
    Senator Cochran. Thank you. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Kohl. Thank you, Senator Cochran.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. Mr. Chairman, 
Senator Brownback, I want to start by thanking you both for 
your leadership of this subcommittee.

                           IRRIGATION FUNDING

    Mr. Secretary, recently I met with a group of potato 
growers from Maine who expressed to me their difficulty in 
securing funds for important irrigation projects in my State.
    It's my understanding that there are two USDA potential 
sources for irrigation projects. One is the Environmental 
Quality Incentives Program (EQIP). And the second is the 
Agricultural Management Assistance Program. Unfortunately, our 
potato farmers have had difficulty in securing funding from any 
of these programs on an ongoing basis. And let me explain why 
it's important.
    In 2007, the need for irrigation funding was greatly 
increased when the State of Maine established low-flow rules 
for streams and rivers. These rules were the result of a 
collaborative process between agricultural stakeholders and 
environmental groups, and they developed significant new 
environmental standards for minimum flow levels. Everyone 
worked together in a collaborative process, and it was 
understood, at the time, that NRCS would provide the resources 
to assist in implementing these rules. They're particularly a 
problem in the months of July and August, when irrigation is 
most needed for the crop. Thus, the potato industry is in 
desperate need of funds to establish irrigation ponds and 
purchase efficient irrigation equipment.
    Now, there are local meetings that are held to decide how 
to allocate part of the NRCS funds, but those meetings are 
inevitably scheduled, it seems, during either planting or 
harvesting times. And thus, the farmers are unable to leave 
their farms to participate.
    So, my first request would be for you to encourage those in 
charge of the program in our region to schedule those 
allocation meetings at a time when the farmers can attend.
    The second issue is, the director of the program has 
discretion with some of the funding, and yet is putting it to 
other uses. This is an ongoing problem. When the Maine Potato 
Board came to see me recently, it was their number one issue. 
And I worked with the chairman last year on a colloquy urging 
the Department to help us. Unfortunately, nothing really has 
changed.
    So, I want to ask you, personally, to help us resolve this 
irrigation problem that has been created by my farmers, working 
in a very collaborative way with environmental groups, to come 
up with minimum flow standards. But, it has created a need for 
more irrigation.
    Secretary Vilsack. Senator, first of all, I've just 
instructed the staff to make sure that the meetings are 
scheduled at a more convenient time for the farmers. That is an 
absolutely fair request, and I'm not quite sure why that hasn't 
been done, but we will certainly try to rectify that 
immediately.
    I have been advised that $750,000 of EQIP money was made 
available, and resources under the Agricultural Management 
Assistance Program of about $258,000 was made available. The 
total AMA allocation for Maine was made exclusively available 
for potato growers in one county. I may get this wrong, is it 
``Arrows''----
    Senator Collins. It's Aroostook.
    Secretary Vilsack. Aroostook.
    Senator Collins. Where I'm from.
    Secretary Vilsack. Okay, well, that's where all that money 
went.
    Senator Collins. Good.
    Secretary Vilsack. The rest of the resources, the $750,000 
of EQIP money, was available statewide for irrigation 
management. And as a result of the meetings that have taken 
place, NRCS in Maine has established an initiative in which it 
intends to fund, each year for the years 2010, 2011, and 2012, 
an additional $750,000 per year available statewide.
    We will make sure that those resources are, obviously, 
strategically focused and make sure that people have input as 
to where they are to be spent.
    Senator Collins. Thank you. It is an important issue. We 
did receive some funding, but this year the State--the 
conservationist, the head of NRCS, has allocated the AMA 
irrigation funds for other purposes. So, we look forward to 
working with you.
    Mr. Chairman, I know my time is expired. I would ask that I 
be permitted to submit, for the record, a question on our dairy 
industry, which is still facing tough times. But, I want to 
thank the Department for the work that you've been doing to try 
to provide some assistance.
    And also, an issue that Senator Snowe and I have written to 
you about--new regulations being promulgated by the Food Safety 
and Inspection Service that have a big impact on a chicken 
producer in Maine. We're just asking that the full rulemaking 
process be followed so that we can have the opportunity for 
input.
    Secretary Vilsack. Mr. Chairman, can I just make----
    Senator Kohl. Go ahead.
    Secretary Vilsack [continuing]. Two quick comments to 
Senator Collins?
    We have met with the Maine business that has concerns about 
the ready-to-eat, not-ready-to-eat products. And we had a good 
meeting with them.
    And second, we do have a dairy council that we have 
established to take a look at long-term strategies for 
moderating the severe ups and downs of the dairy industry so 
there can be greater predictability. That group will meet by 
conference call in March, and they'll have their first in-
person meeting in Washington, DC, in April. Our hope is that 
they can report to us by the end of this year with 
recommendations.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    And thank you, Mr. Secretary for your hard work.
    Senator Kohl. Thank you very much, Senator Collins.
    Senator Harkin.
    Senator Harkin. Thank you very much, Mr. Chairman.
    And, again, thank you, Mr. Secretary, for your great 
leadership, and that of your Deputy Secretary. It is good to 
see our Budget Officer here again, as it is every year for a 
long time, Mr. Steele.
    First of all, let me just, again, congratulate you and 
thank you for the tremendous emphasis that you have put on 
child nutrition. That is long overdue, and I can sense a 
refocusing of the Department's efforts in this area under your 
leadership. That extra billion dollars a year for 10 years is 
truly, as you said in your statement, an historic proposed 
investment, improving the quality of the food that kids get in 
schools, improving their nutritional level, and getting more 
kids included, of course, in the programs.
    We had a good meeting with the First Lady, and I know we're 
all going to be working together--this subcommittee, and other 
committees I'm on, the Health, Education, Labor, and Pensions 
Committee, and the Agriculture, Nutrition, and Forestry 
Committee--to make this a coordinated effort. So, I thank you 
for having that in the budget.
    In the WIC program, the increase in the fruit and vegetable 
vouchers--again, that is something long overdue. So, I'm glad 
you're addressing that also.
    On food safety, as you know, the--we have a food safety 
bill, that the House has passed--we have it about ready to go. 
I'm sure you've looked at it, at least what the House has done. 
We'll be tracking closely with the House; there'll be a few 
differences that we'll have to work out. I'm hopeful that we'll 
have that food safety bill on the Senate floor soon. If not 
this work period, it definitely will be at the top of the list 
as soon as we come back after Easter. And so, I hope to have 
that done and to the President's desk perhaps by late May, 
something like that.
    That bill is FDA, and USDA's Food Safety and Inspection 
Service is equally critical--focusing not just on diseases, but 
also better food safety pathogen controls. You've addressed 
that also in your statement, and I appreciate that.
    Regarding the Know Your Farmer, Know Your Food initiative, 
again, I've sensed, in the last few years, a growing interest 
in this effort, in Iowa and in other States. In fact--more and 
more often, young people are getting involved in agriculture, 
not with 10,000 acres but smaller enterprises, where they're 
growing for local markets, fruits, and vegetables, livestock or 
poultry, that kind of thing, and are filling niche markets. It 
may not be a full-time occupation, but it's something that 
they're doing with their families. And they may have other 
sources of income. I sense this as a very big--a growing 
movement all over the country. So, to the extent that you have 
focused on that, and are focusing on local processing, local 
meatpacking, local projects that can build off of that, it 
generates income, it's good for the rural economy, and people 
will tend to stay in those local communities. So, again, I 
commend you for your focus on local food initiatives and urge 
you to continue to really push that Know Your Farmer, Know Your 
Food effort.

                          CONSERVATION FUNDING

    Okay, those are all the good things. Now let me get to a 
couple of other things that I'm not quite so happy with, Mr. 
Secretary. And I say that all in good friendship and 
admiration. One has to do with conservation.
    We worked very hard, on the 2008 farm bill, Mr. Chairman, 
to strike balances. It was a long process, but we had 
overwhelming support for the bill here and in the House. In 
fact, it took overriding two Presidential vetoes to get it 
done, but we did so with overwhelming vote. You, yourself, Mr. 
Secretary, have pointed out a number of conservation efforts--
the Mississippi River Basin initiative, the Coral Reef 
Conservation initiative are examples that show--and I know, 
personally--I know your commitment to conservation that you had 
as Governor of the State of Iowa. But, I'm disappointed in the 
budget, on conservation.
    Last fall, in just 56 days, USDA received 21,300 
applications for the Conservation Stewardship Program, covering 
an estimated 33 million acres. But, we could only enroll 12.8 
million acres for 2009 under the farm bill--so, the demand is 
there. The demand is there, but we couldn't meet it all. In the 
EQIP program, at the end of 2009, USDA had on hand, but didn't 
have the funding for, 54,329 applications. So, again, the 
demand is there. And as we keep reading in the paper, whether 
we pick it up and read about the Chesapeake Bay and what's 
happening there, or we look at the water quality in Iowa and 
other States, we just can't back off of all the great strides 
we've started to make in conservation.
    Farmers want to carry, but, you know, when a farmer is 
faced with a cost-price squeeze--well, that additional few 
acres of land that maybe was being devoted to conservation--
well, maybe a farmer is pressured to plant that land to corn or 
beans or wheat, or something like that, or to cut back other 
conservation efforts to make ends meet. So, the pressure's 
become great on farmers. They want to be conservationists. You 
know that as well as I do. They just need some help. They're 
willing to put in their own labor, they're willing to put their 
own money into it, but they need some help from the Federal 
Government.
    And the estimate I have is that the budget cuts will 
eliminate conservation that would be carried out on about 4 
million acres of land.
    So, please talk to me about that, Mr. Secretary. I know 
there are budget problems, but it just seems to me that this is 
one area where we can't back off--I'm concerned deeply about 
it.
    Secretary Vilsack. Well, Senator, first of all, let me 
acknowledge the fact that you have been a champion of 
conservation for as long as you've been in this body, and have 
certainly led the effort in the 2008 farm bill, and in previous 
efforts to try to get people's attention focused on 
conservation as if it were, in a sense, a commodity.
    Senator Harkin. Commodity.
    Secretary Vilsack [continuing]. As significant.
    You know, I haven't been in Washington very long, so I 
don't quite understand the way Washington thinks, at times. 
Last year, we basically funded enough resources to enroll 
roughly 277 million acres--almost 277.5 million acres--in our 
conservation programs totally. The budget we submitted this 
year will cover almost 305 million acres, an increase of over 
27 million acres. So, I think we are continuing to try to look 
for ways in which we can enhance conservation.
    Now, I can understand there's a difference between 
authorized levels and appropriated levels, but we believe that 
this budget actually appropriates more money to conservation 
than the previous year. So, more money and more acres.
    One of the challenges that we have is to manage these 
programs properly. And NRCS has been under a cloud of an audit 
for the last couple of years, because it didn't do all it 
needed to do, in previous years, in making sure that people 
were applying properly and that people were getting resources 
for the right type of conservation. So, we want to make sure 
that, as we increase and ramp up some of these programs, that 
we do it in a way that we manage the resources effectively and 
that we don't continue to be under this cloud of an audit. It 
will take a couple of years for us to fix this problem, 
because, frankly, we tried to do too much too soon, and didn't 
have enough people. So, we're in the process of trying to make 
sure we do this properly so that we can respond to taxpayers 
that we're spending their money wisely.
    So, I think our budget is a constructive one. And I think 
it is furthering the interests of conservation. It may not be 
as much as folks would like to spend, but, given the fiscal 
realities, we thought we did a pretty good job of balancing.
    Senator Harkin. Well, I understand what you said. But, in 
the farm bill we put that money in there, including funds for 
technical assistance and personnel to carry it out, and we paid 
for it. It was fully offset. And that's why, I think, we got so 
many votes for the farm bill. We fully offset it. It was fully 
paid for. So, again, yes, you're increasing, but you're 
``here'' and the farm bill is ``here,'' so there's a--there is 
a gap there, a reduction from what we enacted. Now, if you're 
saying that you want to make sure that you have the people in 
place and everything to make sure that the programs work, well 
I can understand that, too, I guess. But, I'm just worried 
about whether or not we're going to be able to get these people 
signed up in the numbers that we had laid out and fully paid 
for in the farm bill. You think we'll be okay on that this 
year, that we'll have--be able to sign up the 12.8 million 
acres again this year--in the CSP, for example?
    Secretary Vilsack. I think we'll probably, candidly, be 
closer to 12 million, but we'll probably see a significant 
increase in EQIP. So, it kind of depends on which program folks 
sign up for.
    I will say, Senator, our goal is not to undercut the 
conservation efforts. I think the worst thing that could happen 
would be for folks to learn that people who weren't entitled to 
money for conservation were getting money. And we want to make 
sure that we do this right. And if you read the audit of NRCS, 
as I have, you realize that there were some serious issues that 
had to be addressed, and are being addressed, and they were 
fairly comprehensive.
    So, I don't want to, with resources, not properly manage 
those resources. I think I have a responsibility to do that.
    Senator Harkin. Right.
    Secretary Vilsack [continuing]. So, we are trying to ramp 
this up in a way that is manageable.
    Senator Harkin. Thank you.

                     BIOREFINERY ASSISTANCE PROGRAM

    Next is on the whole area of the Biorefinery Assistance 
Program, section 9003 of the farm bill. Again, there is a lot 
of strong support for that. I know you've been a supporter of 
biofuels. But, the budget is $245 million in 2010, $150 million 
was authorized for 2011, but your budget only calls for $17 
million. Why such a low budget figure for the Biorefinery 
Assistance Program?
    Secretary Vilsack. Senator, we have a significant amount of 
carryover to take from the previous year. There has not been 
as--well, let me back up.
    In order for this to work, I think there had to be a 
strategy, there had to be a holistic and comprehensive approach 
to how you build this industry. When credit became difficult, 
when prices collapsed and there was a challenge in the ethanol 
industry, because of a very tough year last year, there was 
sort of a slowing down of interest in this area.
    That's one of the reasons why the President did two things: 
He instructed us to put together a strategic plan for the 
biofuels industry and to accelerate, as best we could, the 
other components of the energy bill that you all put together 
in the 2008 farm bill. Because all of them have to, sort of, 
work in concert. You have to have the resources available to 
farmers to incent them to produce the feedstocks. You have to 
have resources available to biorefineries that can be 
retrofitted to become more efficient. You have to have a 
broader expanse of opportunity, not just in one region of the 
country, but all across the country. You have to have 
coordinated research that increases the efficiency of what 
we're currently doing and develops new feedstocks so we can 
meet the 36 billion gallon threshold.
    And so, as a result of all of that, we are trying to 
coordinate all of these resources. So, with the carryover and 
coordinated resources, we think we're going to have a much 
stronger and more viable biofuels industry, and we are already 
seeing signs of interest picking up. The uncertainty about the 
RFS2 also had issues, which we've now cleared up. And Senator 
Brownback and I had a conversation, before you came, about E15 
and the important role that could play in stimulating 
additional growth. So, there were a lot of moving pieces in 
2009, some of those pieces have come into place. I think you're 
going to see more aggressive effort this year. And I think 
you'll see us do a better job, in terms of resources, in the 
future. But, at the present time, we think the carryover plus 
that amount is enough to, probably, meet the demand, and 
especially using some of the loan guarantee assistance.

                                ETHANOL

    Senator Harkin. Did you--did you state earlier anything 
about the timeframe on when we're going to see the RFS2 come 
out?
    Secretary Vilsack. Well, it's----
    Senator Harkin. It's not your Department, but----
    Secretary Vilsack [continuing]. It's come out, in the sense 
that the EPA has indicated that corn-based ethanol is alive and 
well, meeting the threshold of 20 percent; soy diesel, 
biodiesel alive and well, meeting the threshold. So, that was a 
positive indication and sign.
    Senator Harkin. But the--upping the percentage of ethanol 
that can be blended----
    Secretary Vilsack. The blend rate is----
    Senator Harkin [continuing]. Blend rate----
    Secretary Vilsack [continuing]. Still--as I explained to 
Senator Brownback, Senator, the Department of Energy is 
currently doing testing on older vehicles to determine the 
impact of E15 on those older vehicles. They're fairly confident 
that the newer vehicles can take E15, but they want to make 
sure they know what the cutoff point is. And as they are 
figuring that out, we, obviously, are figuring out ways in 
which we can provide assistance and help through rural 
development for the kind of blender pumps that I think 
ultimately we'll have to have. Because I think somebody will 
drive into a gas station and want E15, somebody will want E85, 
and somebody will want E10, and you have to be able to have the 
pumps to be able to meet that. And so, that's part of our 
effort to try to build this industry, is to create rural 
development resources to make that happen.
    Senator Harkin. Very good.
    Secretary Vilsack. And I should say we're using rural 
development resources from the Recovery Act to essentially 
promote those kinds of gas stations that have capacity to do 
E85. And once we get a read from EPA on whether it's E10 or 
whatever it is, then we can move forward on the appropriate 
distribution systems.
    Senator Harkin. Very good.
    Mr. Chairman, thank you. I have a couple questions, one 
dealing with crop insurance. I'll just--I'll submit it in 
writing.
    Senator Kohl. Sure.
    Senator Harkin. I'm a little concerned about----
    Senator Kohl. Yeah.
    Senator Harkin [continuing]. Some of the cuts in the 
underwriting and in the administrative and operating--A&O, as 
they call it, expenses for crop insurance. I'm just--I'm 
concerned about that, but I won't take any time here. I'll just 
submit it in writing.
    Secretary Vilsack. Senator, if I can just clarify--staff's 
just given me--so that you know--in terms of the biorefinery, 
we believe we have loan guarantee authority up to $900 million. 
So, there's discretionary money, and there's mandatory money. 
What you referred to, I think, was the discretionary money that 
we're adding on--in addition to the mandatory resources. So, in 
biorefinery--we have $900 million of guarantees, which is a 
fairly significant amount, I think. And I would like the 
opportunity to comment about the crop insurance----
    Senator Harkin. Well----
    Secretary Vilsack [continuing]. If I could----
    Senator Harkin [continuing]. Go right ahead.
    Secretary Vilsack [continuing]. If that's----
    Senator Harkin [continuing]. I just didn't want to take----
    Secretary Vilsack [continuing]. All right----
    Senator Harkin [continuing]. Any more time. But----
    Secretary Vilsack [continuing]. I----
    Senator Harkin [continuing]. If you have something you want 
to add.
    Secretary Vilsack. I mean this is a very important issue.
    Senator Harkin. Yes.

                             CROP INSURANCE

    Secretary Vilsack. And it's one that I think folks have to 
understand.
    When crop insurance was first devised, it was not a product 
that people were aware of. It was a new product. And so, there 
had to be a way in which it could be incented so that people 
would think about it and purchase it. It wasn't the thing that 
was mandated, it wasn't a--it was a choice.
    And so, there were efforts to try to encourage agents and 
companies to get into this business. Over the course of time--
--
    Scott, do you have that chart?
    Mr. Steele. Yes.
    Secretary Vilsack. Over the course of time the profits for 
both the agents and the companies have grown rather 
significantly. And, in fact, in the last couple of years--and 
this is the chart. You, obviously, can't see it very well, but 
this is the chart. This is where it started, and this is where 
it is today. And you've seen a dramatic increase in profits in 
the last couple of years, in part because agents are paid based 
on the value of the policy, as opposed to the number of 
policies they sell. And the companies have done a pretty good 
job; they've gotten about a 16 percent return on their money.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    So, what we're proposing is a change that would adjust the 
A&O so that agents would be paid for the number of policies 
they sell. I mean, the reality is that most bankers today 
require crop insurance as a condition of loans. So, it's not 
all that difficult to sell this product.
    And on the profit side, we think a 12 percent return is a 
fair return, and so there's a slight adjustment. Now, why do we 
say that? Because we had a study done, by an independent 
research group, that suggested that 12 percent would be a 
pretty good return. I would take 12 percent on my money.
    And then, second, the GAO was very critical of this 
program, so we tried to respond to the concerns of GAO, to the 
independent study, to the fact that, today, there are 200,000 
fewer policies being written than there were in 2000. So, the 
profits have doubled in the last couple of years, for 200,000 
fewer policies. So, we think, you know, there has to be some 
adjustment; there has to be a fair balance between the need for 
this product, which is a very important risk-management tool, 
and the need for farmers to have it, and also the taxpayers to 
be treated fairly.
    And finally, some of the resource is going to be used to 
expand access to the product in some parts of the country where 
it has been very difficult to get crop insurance at all. So, 
it's an effort to try to spread the opportunity and the risk 
management tool in other parts of the country.
    Senator Harkin. Well, I appreciate your explanation. I may 
want to just get some more elaboration on that. But, you make a 
strong argument. Thank you, Mr. Secretary.
    Secretary Vilsack. Thank you.
    Senator Harkin. Thank you, Mr. Chairman.
    Senator Kohl. Thank you, Senator Harkin.

                 NATIONAL ANIMAL IDENTIFICATION SYSTEM

    Mr. Secretary, after the discovery of mad cow disease in 
North America nearly a decade ago, there was great interest in 
developing a system to trace diseased animals that move in 
commerce. This was considered vital to protect the livestock 
sector against catastrophic market collapse in the event of a 
serious disease outbreak. Since then, there have been 
substantial Federal investments to develop a National Animal 
Identification System, as you know.
    However, on February 5th of this year, USDA announced an 
abrupt about-face, in the nature of goals of this system. This 
revised system will be national, only to the degree that 
animals pass into interstate commerce, leaving much of the 
responsibility to States and Native American tribes. Rather 
than taking the lead, USDA will be a collaborator, assisting 
States and tribes to create diverse localized responses.
    So, Mr. Secretary, what assurance can you provide that, in 
the face of the next widespread animal disease discovery, this 
system will increase consumer confidence, mitigate economic 
impacts of the outbreak, and maintain market access of U.S. 
products--U.S. producers in global markets? What is your 
timetable for development and implementation of this new 
system? How will costs be borne among the Federal Government, 
States, and tribes? How do you plan to assist these States and 
tribes that are not able to assume the additional costs of 
development and implementation of a diverse State-centric 
system? And, as you know, the dairy sector has developed a 
fairly sophisticated identification and animal tracking system 
already. How will your proposal affect dairy farmers or alter 
the system they already have in place, Mr. Secretary?
    Secretary Vilsack. Mr. Chairman, we had a series of 
listening sessions throughout the country, on animal 
identification. There were 15 in all, I attended 2 of the 15, 
and read comments from the other 13. A wide range of concerns 
about the former system, starting with confidentiality and 
privacy and how the Federal Government was going to dictate the 
technology, the cost, and the fact that there were differences 
between various types of livestock. Greater acceptance of this 
program among sheep, among hogs, goats, and the poultry 
industry; great resistance from the beef industry, to the point 
that less than 35 percent of operators were, essentially, 
participating, if you will, in this system. So, we really 
didn't have the kind of cooperation and participation that we 
thought we would have.
    Congress, and many Members of Congress, began to express 
concerns about the resources that were being allocated to this 
program, and were suggesting that--Chairman Peterson, I think, 
suggested the time had come to basically pull the plug on this. 
So, a lack of confidence in Congress, and a lack of confidence 
on behalf of the cattle industry in particular, led us to 
think, ``Is there a way in which we could get greater 
participation?''
    We're still taking advantage of the things we learned from 
the resources that we've spent, and not disrupting what perhaps 
the poultry industry or the hog industry had developed, and not 
disrupting what we had learned from other disease management 
strategies.
    We felt that the one way to do this would be to have a 
partnership between the Federal Government and State 
governments to focus on where the real issue is, which is 
cattle and livestock that pass in interstate commerce, and work 
with the States to develop a strategy that would focus on low-
cost technology that would get the job done, have a higher rate 
of participation, and therefore, allow us to do a better job of 
traceability, which is really what this is all about, and 
encourage a more rapid response if there is, in fact, an 
outbreak.
    So, we are in the process of meeting with State ag 
commissioners and secretaries this month. We start this process 
with our team meeting with those folks, and we will begin to 
develop sort of a standard for how this could work.
    Recognizing that, once the standard's put in place, it 
would probably likely focus on lower-cost technology; it would 
address the concerns that were expressed by those who were just 
local producers and local consumers, that they didn't know why 
they had to participate in a program, when all they were going 
to do was slaughter it for their own use or for their 
neighbors' use; deal with the issue of confidentiality by 
ensuring that Federal Government wasn't going to be having this 
massive database of information about people that would be used 
for purposes other than traceability; and work with folks, in 
terms of the more difficult issues of liability; providing 
Federal resources to help purchase the low-cost technology; and 
see whether or not we could get significantly greater 
participation.
    There may very well be decisions made by these 
commissioners that what's working in poultry and what's working 
in pork may continue, and we would be supportive of that. They 
may decide that they want ear tags, they may decide that 
there's some other technology that makes sense for them in 
their State; we'll help pay for that.
    What we think will happen at the end of this is that 
there'll be greater cooperation between State and Federal 
Government; there'll be greater participation on behalf of 
those in all sectors; and we'll have a better job of promoting 
traceability, and, at the end of the day, will probably reduce 
the cost overall to the Federal Government.
    If we continued down the road we were on, we'd continue to 
have participation in some, but not all, of livestock, and we 
would continue to be confronted with the notion that when only 
30 to 35 percent of people participate, it means 60 to 65 
percent of the folks aren't participating, and that means that 
you really don't have a traceability system, and you don't have 
the capacity to really do what you need to do to preserve the 
market. So, we wanted to try something different.
    Senator Kohl. How will this affect the dairy sector?
    Secretary Vilsack. Well, I think it depends on the 
individual State. I mean, the reality is that if animals are 
crossing State lines, there's going to have to be a system to 
make sure that we can track them back to the State of 
Wisconsin. For example, if they go from Wisconsin to Iowa, then 
we'll have a system that will allow us to track them back to 
Wisconsin. Then, within Wisconsin, you can decide how far back 
you want to go from that point. You may want to go back to the 
case with Wisconsin, where there's been great cooperation and 
participation in the system, you may want to continue that. You 
can do that.
    But, the State's going to be the one that's going to make 
that decision, the producers within that State will have a 
greater say in it, and the technology will be something that 
producers will be satisfied that it's reasonable and that 
they're not being dictated to.

                            NEW INITIATIVES

    Senator Kohl. All right. Mr. Secretary, the budget proposed 
a number of initiatives, including the Healthy Food Financing 
Initiative, and enhancements for organic and sustainable 
agriculture production. Could you please walk us through these 
initiatives? For example, how much of this involves a real 
increase in spending and how much is simply a redirection of 
funds from existing programs?
    Mr. Secretary, I'd like your thoughts on this. I'd also 
like to hear from Deputy Merrigan, if she has any additional 
comments.

                   HEALTHY FOOD FINANCING INITIATIVE

    Secretary Vilsack. Mr. Chairman, I'll give you a general 
overview and then ask the Deputy to provide more specifics.
    As we began the process of taking a look at how to better 
link local production and local consumption, one of the things 
we found out was that there were many communities, both rural 
and in inner-city America, that did not have access to a 
grocery store that would allow them to have access to fruits 
and vegetables and healthy food choices. There was a plethora 
of convenience stores located in these areas that provided an 
opportunity for processed food and more expensive food, but not 
a grocery store.
    So, one of the things we wanted to focus on was a way in 
which we could respond to that challenge. And so, we began a 
process of looking at States and cities that had been 
addressing this aggressively such as the State of Pennsylvania 
and the city of Philadelphia, as an example. And what we 
learned was that, with additional resources and the use of 
market tax credits, we could creatively and innovatively 
respond to the fact that there were places where people would 
go miles and miles and miles without access to a grocery store, 
that we could do this in an innovative and creative way, and we 
could increase the nutritional opportunities that these folks 
have, and also create business opportunities and rural economic 
development. A community without a grocery store has a very 
difficult time attracting any other kind of opportunity.
    What we also found was, when a grocery store located, it 
created enough traffic that other business wanted to collocate, 
so that you could create some momentum in these communities.
    So, working with the Treasury Department, the Health and 
Human Services Department, the First Lady's initiative, and 
USDA, we put together a $50 million proposal, part of which 
would be used to help create that innovative and creative 
approach to getting that grocery store located. And it may not 
even be a fixed facility, it may be a mobile facility. We just 
need to be creative about this.
    We also wanted to focus our efforts on a continuation of 
farmers markets, community-supported agriculture, and we wanted 
to create our rural development resources with enough 
flexibility that if somebody wanted to build a small processing 
facility or a slaughter facility or a mobile slaughter facility 
or a cold storage warehouse so that you could aggregate enough 
product to be able to provide a school or hospital with a 
steady supply of good quality food, locally produced, we ought 
to be able to look at ways in which we could do that.
    So, all of this is designed to use new money, but also to 
redirect some existing resources in what we think might be a 
more effective way.
    But, I want the Deputy, who's worked a lot on this and 
knows more of the details about it, to amplify, if that's all 
right.
    Dr. Merrigan. Thank you, sir.
    The Secretary did a great job talking about Healthy Food 
Financing Initiative, which we're doing in cooperation with 
Treasury and HHS. We have a variety of strategies to deal with 
the food deserts that were identified by the Economic Research 
Service, as mandated by the 2008 farm bill. We're excited about 
that.

                    KNOW YOUR FARMER, KNOW YOUR FOOD

    In terms of the Know Your Farmer, Know Your Food 
Initiative, which Senator Harkin mentioned, great excitement 
across the country about that. I was in Kansas City a couple 
months ago, there was a lot of action going on there around 
local, regional, with your healthcare and your farmers working 
in cooperatives. I'm on my way to Madison this month. I was at 
Iowa State not that long ago.
    But, the Know Your Farmer, Know Your Food Initiative is not 
a program in and of itself. It doesn't have staff, it doesn't 
have its own budget. The concept is to use existing USDA 
authorities, we've got a lot of resources, we've got a lot of 
people, and make sure that we're really following through on 
some initiatives in the 2008 farm bill, in particular. For 
example, the Business and Industry Loan Guarantee Program, 
which Congress had asked that there be 5 percent of that money 
set aside for local food promotion, when Secretary Vilsack and 
I got into the Department and got down into the details, we 
found out that nobody had applied for that money. Our question 
naturally was, ``Well, why not?'' Are we doing enough to get 
the word out that this money is available? And so, part of Know 
Your Farmer, Know Your Food is really trying to better utilize 
existing resources within the Department. It's also about 
having a national conversation, particularly with young people, 
about where we want American agriculture to go. And that's all 
been positive.

                        NATIONAL ORGANIC PROGRAM

    In terms of organic, we will be having an inspector general 
report coming out, probably this week, that will look at some 
longstanding problems in the National Organic Program. These 
are problems that we're getting ahead of now, and, for that 
reason, we've asked for a $3.1 million increase in the 
regulatory program. We believe that this is the age of 
enforcement.
    We're instituting new initiatives, like residue testing, 
unannounced inspections on farms. We really want to increase 
the rigor of this program. At the same time, we want to fund 
organic initiatives around the Department, really just small 
increases in pots that are already there. For example, Market 
News, trying to find out more about what's going on in organic 
dairy in the marketplace. So, we've just asked for a small 
amount of money increase there.
    So, there's a variety of footholds in the Department for 
organic, but no huge new program. Again, it's getting USDA, 
which is a very big-tent organization, finding a way for the 
different kinds of production schemes to have a home within our 
different agencies.

                    KNOW YOUR FARMER, KNOW YOUR FOOD

    Senator Kohl. Deputy, you talk about Know Your Farmer, Know 
Your Food Initiative. We all know it's gaining in popularity 
through expanding farmers markets, and other means also. Would 
you speak a bit to the economic efficiencies of reduced 
transportation costs and the ability for rural communities to 
keep more of the wealth it generates in those local 
communities. And are there other new challenges in food safety 
or other problems, due to this shift in marketing, that we 
should be made aware of?
    Dr. Merrigan. Well, Secretary Vilsack and I are always on 
the road, saying that nobody gets a pass in food safety. Food 
safety is not a size-relevant thing. Whether you're a little 
guy or the big guy, we all have to do better. But, because one 
of the emphases in Know Your Farmer, Know Your Food is to get 
more institutional purchasing of locally grown, regionally 
grown food, maybe that's our school system, there are new 
relationships there, and there are questions about what food 
safety certifications need to be put in place; what are the 
concerns about liability; how contracts should be written. And 
that's one of the reasons that we have a Farm to School team 
that's going around the country trying to figure out where Farm 
to School has been successful, and where it has failed. There 
are 43 States now that have a foothold in Farm to School. Get 
the lessons learned and document that so that other 
institutions can follow. Get that roadmap in place.
    In terms of its potential for rural economic development, 
we think it's great. As we know from our NASS Survey data, 
there is a real uptick in small farms, those that are grossing 
$10,000 and less. We also know that there's that disappearing 
middle of family farmers that are just not finding ways to make 
ends meet. We think that if we can build stronger local and 
regional ag systems, those smaller farmers will graduate into 
the middle-sized farms, and those middle-sized farms that are 
trying to find a way to survive in a differing, evolving 
agricultural climate, that they'll be able to do so.
    And so, again, it's a lot of strategies. It may be helping 
fund a mobile flash-freezing processing van that will help 
small farmers; it might be about helping augment cold storage; 
it might be facilitating the development of a farmer 
cooperative, so they can aggregate materials, so they can 
actually satisfy an institutional buying request. So, again, a 
variety of strategies. And again, no food safety concerns that 
I'm aware of, at this point.
    Senator Kohl. Thank you very much, Deputy Merrigan.
    Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman.
    Just wanted to follow from the opening comments I made, and 
then Senator Bond hit it, as well.

                     GLOBAL AGRICULTURE DEVELOPMENT

    There's a chart you have, Secretary, on agriculture 
development as a percentage of total development assistance. 
And it's what I was mentioning to you earlier about how this 
has fallen off substantially. We had a big investment in 
agriculture development, globally, in the 1980s. It was, I 
guess, trendy but not sufficient enough to grab on. And then 
the--you can see how much it's fallen off, by this chart here--
and then you have it.
    This recent uptick, I'm told, is Millennium Challenge 
funding--accounts funding, which is good. But, again, I think 
it's outside of the wheelhouse. So, you're the one that's got 
the expertise in this field; USDA and the land grant system is 
the one that knows it. And I just--my hope is that, as Gates 
gets into this more, as Millennium Challenge gets into this 
more, as AID focuses on this area more, as we look at ways that 
we stabilize countries around the world via agriculture 
development--like Iraq and Afghanistan, to name two--and as, I 
think, there's more of a focus on Africa--that it's USDA and 
it's the land grant system that's in there doing this, because 
that's where the expertise is.
    This is very good investment for foreign affairs, in my 
estimation, for the United States. And where I--it seems like 
we're kind of in the--betwixt and between on how we're actually 
going to do this, who is going to do it. And I would hope that 
maybe the funding goes through Millennium Challenge, or the 
funding goes through AID, but it ends up working through the 
expertise that you have, and the expertise that's at the land 
grant universities.
    And it would be my hope, as well, that the overall number 
would go up, because this is--we're a long ways down the road 
of--we give a lot of development assistance, we give a lot of 
food aid, in places around the world, but, you know, these are 
ones that, over the longer period of time, have been very 
successful in many places around the world. We're still hard-
stretched in some places. And there's a concentrated set of 
countries, particularly sub-Sahara Africa countries, that the 
picture--as I've looked at this over 20 years, it's narrowed 
in, a narrower set, when we can--we can deal with a lot of 
these problems. And I'm hopeful you can tackle that and deal 
with it.
    Secretary Vilsack. Senator, this is a very important aspect 
of our job at USDA. And as part of our strategic vision for the 
Department, we realize that we have to do a better job of 
providing assistance to deal with food insecurity issues across 
the globe.
    We have a one-government approach to this. And so, the 
State Department, USAID, and USDA have an interagency task 
force, if you will, that had been put together to promote 
global food security, the Global Hunger and Food Security 
Initiative. And it is focused on, first of all increasing 
resources, as the President indicated during the G20 meeting 
last year, and which I indicated a commitment to when I 
traveled to Italy for the first G8 Agriculture Ministers 
meeting on food security ever. It is targeted, in terms of its 
impact on the countries in sub-Saharan Africa and some of the 
poor countries, such as Haiti is another targeted area, even 
before the earthquake. And it is focused on three fundamental 
approaches; first of all, increasing agricultural productivity 
in these countries. And that involves USDA providing 
opportunities for greater exchanges through the Borlaug and 
Cochran fellowships, which we've requested additional resources 
for. It is working with agricultural ministries, like we are in 
Afghanistan and Iraq and Pakistan, to address specific issues 
that we have expertise on that we can share. It is designed to 
promote a science-based approach, in terms of biotechnology, 
and the benefits that that could potentially have in increasing 
crop production in drought areas, with drought-resistant crops 
and other strategies, more appropriate use of fertilizer, a 
better understanding of soil conditions, things of that nature.
    Second, even if you grow the food, it doesn't necessarily 
mean it gets to the people who need it; and therefore, it 
doesn't necessarily create economic opportunity for those 
farmers. So, we need to also focus on creating greater access, 
and that deals with developing market strategies, developing 
regulatory structure and legal frameworks that allow this to 
happen, and the infrastructure, both the storage facilities to 
avoid post-harvest loss, transportation facilities, and the 
like.
    And then, finally, even if it's available, even if it's 
accessible, it may not be properly utilized. And so, therefore 
it goes into an education effort to make sure that there's 
proper refrigeration, proper handling, proper cooking of the 
food so that it's safe for people to consume. When you do all 
of that, you really do create a much more vibrant agricultural 
economy. And in these countries that are fragile and are food 
insecure, that is absolutely the first thing that has to 
happen.
    We are doing pretty significant work in Afghanistan. And, 
you know, I know time doesn't permit me to go into great detail 
about it, but I think we are seeing some results from that.
    Senator Brownback. Well, I--one other thing that you didn't 
mention, and it's not in your area, but I think it's just 
critically important, is that--the structure of the government 
in those countries. We--we've seen places--and particularly--I 
know I can look at examples in sub-Sahara Africa, where we put 
quite a bit of money in over a lot of years. And I've traveled 
these places and you meet with the leadership and they kind of 
ask the question, ``Where'd the money go?'' And that's why I 
like the Millennium Challenge account approach, where they go--
there's a--a key piece of this is about governance, on how you 
govern. And when places like China and India went to a more 
open-market sector, and away from the way they were doing it, 
systems and things started to flourish.
    So, I would hope that we learn our lessons, too, from our 
past engagement, when we put a fair amount of money in this, is 
that it does matter whether a country is willing to help itself 
and structure itself in a way that these dollars can take hold. 
It's like whether it can take root or not, or are we going to 
just throw some money in here. And I would kind of hold it 
back, say, ``We're ready to do this, but you've got to change 
these two things before we're going to put this--we're ready to 
do it, and we want to do it.'' But, otherwise, I think we may 
repeat some past problems, where we poured money into some 
countries and we don't have a whole lot to show for it.
    Secretary Vilsack. Well, that precise discussion took place 
in Afghanistan, with reference to Minister Rahimi and his 
efforts at developing this framework, part of which is change 
management. His own ministry has to operate effectively. And we 
made a commitment of resources, but it was conditioned on those 
resources being used to bolster his capacity to actually do the 
work that needs to be done, and to understand the core 
competencies that a ministry requires. So, there is a concerted 
effort, in that country and in all countries, to make sure that 
we have the regulatory structures, the government structure and 
framework that's actually going to make this work. And that's 
certainly what we're focused on at USDA.

                             SPENDING CUTS

    Senator Brownback. One final thought. And I really 
appreciate your time and your knowledge of your subject and 
your agency. Last year, when we went through the process, 
chairman, on the floor we had a number of amendments proposed 
by individuals suggesting different cuts in places within USDA. 
Our office is going to go back through and look those over to 
see if there were some good suggestions there of things that we 
should look at cutting and maybe putting that in other places, 
or even have a pruned-down budget even further. Because I think 
we owe it to the taxpayer, in these times of, you know, record 
deficits, to say, ``What is it we can do to get this number 
down?'' We need to do our functions, we need to do them well, 
but we also--with a $1.5 trillion deficit, we've just got to 
get--we've got to get the numbers down. And so, we're going to 
go back through and look at some of the suggestions our 
colleagues put in, last year, for possibilities to get the 
budget number down further.
    And I appreciate it, Mr. Chairman.
    And thank you, Secretary, for your time.

                           RESEARCH PROGRAMS

    Senator Kohl. Thank you very much, Senator Brownback.
    Mr. Secretary, I'm pleased to see that the budget continues 
the growth we began last year on the competitive Agriculture 
Food and Research Initiative, known as AFRI. As you know, I'm a 
strong supporter of this program. However, in order to pay for 
the unprecedented increase that the budget proposes in AFRI, a 
large number of other research programs are eliminated, 
including formula funds.
    As I said, I'm pleased to see the beginning of the long-
term growth for AFRI. Its mission, however, is different from 
that of formula programs. Formula programs are, by their 
nature, more flexible and able to rapidly respond to emerging 
research needs which require more immediate action than a long-
term research contract. Can you respond to this concern?
    Also, Mr. Secretary, I've heard from Senator Byrd, who has 
expressed concern about proposed elimination of ongoing ARS 
work in West Virginia. We'll be submitting some questions for 
the record on behalf of Senator Byrd. I'd just like to know--
you to know that I'm going to submit those, and would 
appreciate a response.
    Secretary Vilsack. Very good, Mr. Chairman. Let me see if I 
can respond. Our understanding of what we proposed on the 
formula funding is that we maintained the funding that was 
included in last year's budget, that basically it's the same 
formula funding as the previous year.
    We recognize the concerns that the subcommittee expressed 
about the need to maintain formula funding, and we tried to 
respect that with status quo formula funding. We did eliminate 
some of the programs that were specifically designated, or 
earmarked, if you will, by members of the subcommittee, as is 
consistent with our practice, and refocus those resources into 
a more competitive circumstance. We honestly think that we will 
get a bigger bang and a better bang for our buck if we do this. 
We want research that's actually going to move the dial. We 
want research that's focused on key priorities that this 
Congress, this administration, this country needs to focus on.
    As it relates to ARS, we appreciate Senator Byrd's 
concerns. Our view is that, before we begin spending additional 
resources on ARS facilities, that we really need to take a step 
back and do a strategic overview of precisely what facilities 
we have, what condition they're in, and prioritize the 
maintenance and expansion and new construction projects. We'd 
like a year to be able to do that, and we'd like a small amount 
of money to be able to do that, so that we can come back to 
this subcommittee with a thoughtful and strategic approach to 
improvements, to construction to these labs. We recognize the 
important role they play. We just, again, want to make sure 
we're using taxpayer dollars wisely.

                              FSIS BUDGET

    Senator Kohl. All right, Mr. Secretary, I appreciate that.
    Mr. Secretary, the FSIS budget request asks for a much 
smaller increase than in recent years, but it does include 
significant performance measures. This includes a goal of 
decreasing total illnesses from all FSIS regulated foods by 
more than 17 percent between fiscal year 2009 and fiscal year 
2010, as well as additional decreases in the following years. 
Is FSIS on track to meet these goals?
    Secretary Vilsack. We think they are, Mr. Chairman. I think 
it's appropriate for me to say that there is a need for better 
data collection so that we have a better understanding of 
precisely what causes the difficulties and illnesses that 
Americans experience, and at what part in the food chain those 
difficulties are experienced. One of the things that we would 
like to do is to increase data collection. We'd like to use 
additional resources to focus on better data collection so that 
we could focus on trend lines, establish baselines by which we 
then can make better risk assessment and better decisions, 
relative to where there may be problems.
    We think we need to strengthen our capacity to respond to 
multiple jurisdictional illnesses that cross State lines, which 
is why we have proposed additional resources for strengthening 
our public health programs. We think there needs to be expanded 
research efforts on identifying pathogens that we may not even 
be aware of today, that could potentially cause problems. We're 
obviously continuing to focus on improving the HACCP program 
with particular focus on improving surveillance of pathogens, 
and expanded sampling that's necessary to do that.
    And finally, we want to focus on our school food programs 
to make sure that they are not creating difficulties for our 
school children, in terms of unsafe food. We're doing a top-to-
bottom review of those programs. We will be looking at our 
inspection and procurement programs. We'll also have an 
independent set of eyes at the National Academy of Sciences 
take a look at some of those programs. We want to improve a 
notification system between the Federal Government, State, and 
school districts.
    And so, there's an awful lot of work going on within FSIS. 
It isn't always necessarily about additional resources; it's 
about making sure that you're focusing your time and attention 
on the things that matter. And we want to make sure that we get 
a regulatory structure in place with the resources that we 
have.

                       STATE INSPECTION PROGRAMS

    Senator Kohl. What about State-inspected meat programs, are 
they going to be continuing to receive your attention and 
funding?
    Secretary Vilsack. You know, that is a question I will have 
to get back to you on, unless the Deputy's going to----
    Dr. Merrigan. We're----
    Secretary Vilsack [continuing]. Bail me out here.
    Dr. Merrigan [continuing]. In rulemaking, hopefully soon to 
come out with a final rule, on the interstate meat. I know 
that's something that Wisconsin is desperately waiting for, and 
we've certainly had a lot of comments. I think it's a great way 
to facilitate some of the niche markets. It's very important, 
for the smaller plants, for opportunities there. And we're 
looking forward to publication of the final rule. We did get a 
lot of comments, and we're trying to fine tune the proposal so 
everyone will be ready to embrace it.
    Secretary Vilsack. I would also say, Mr. Chairman, that one 
area that we are focused on relative to State inspections is a 
continued effort to promote more frequent and better 
inspections of schools. As you know, there is a requirement 
that there be two inspections per year, of schools. Not all the 
schools in America are up to that standard. We continue to 
press States to make sure that they are encouraging that to 
happen. We recognize, again, they are under a substantial 
financial stress. We don't want this to be a casualty of that.

                         ELECTRIC LOAN PROGRAM

    Senator Kohl. All right. Mr. Secretary, USDA is the 
principal source of funding to improve the availability of 
electric power throughout rural America. Rural areas face 
unique challenges in accessing adequate power at affordable 
costs because of the high cost to extend electric power to 
rural household, farms, and communities due to the lower 
customer density, as well as the remote locational aspects.
    This budget cuts the electric power program level by more 
than 30 percent, even though the subsidy costs for this program 
are small. It further stops the use of these funds for the 
construction, acquisition, or improvement of fossil-fueled 
electric generating plants, unless those funds are for carbon 
sequestration systems. We all support cleaner energy, 
particularly in rural America, but this budget proposes drastic 
changes in the USDA electric program.
    Mr. Secretary, the planning horizon for large power 
projects is years. How will these proposed program changes 
affect the electric power supply to rural areas in the near 
term? And what assurance can you provide that rural areas will 
not be harmed, such as with higher electric rates and 
unreliable power availability, as a result of these proposed 
changes, Mr. Secretary?
    Secretary Vilsack. Mr. Chairman, we are obviously 
encouraging farmers and ranchers across the country to take a 
look at their own facilities to determine whether or not they 
can be embracing more renewable energy opportunities. It's one 
of the reasons for the REAP Program. We've seen a tremendous 
interest in REAP; millions of dollars being spent to do audits 
of operations and, I think, there's a growing recognition that 
there is money to be made and money to be saved through 
renewable energy. So, we obviously wanted to send a positive 
message about renewable energy. The President has been very 
clear about his priorities in this area.
    I would say that it isn't always necessarily a budget that 
is reflective of support that could be provided to an industry. 
One of the things that we are looking at, which I know the RECs 
have asked us look at, is this notion of how we use our 
security position to enhance expansion. We have circumstances 
today, where we made loans to RECs, where the value of the 
assets that they have, have substantially appreciated since the 
time of our loan, which means that our loan is over-secured, if 
you will.
    The question is, is there any way in which we can take a 
look at that over-security concept to determine how we might be 
able to provide additional resources without necessarily 
spending additional dollars? These are the kinds of things that 
we need to be looking at to make sure that, in these fiscally 
difficult times, we're stretching the resources as effectively 
as we can. So, we're looking at ways in which we can help the 
RECs particularly in this way. We haven't yet made a decision 
on it, but we are looking at it.
    Senator Kohl. So, the assurances that I'm looking for here 
this morning are forthcoming, but not----
    Secretary Vilsack. Well, you know, I don't want to mislead 
the chair. I'm not in a position today to tell you that all of 
the demands are necessarily going to be met. I can tell you 
that I think there is a growing demand on the renewable side, 
which is why our budget reflects that. It's also consistent 
with the President's comments to the world, to the globe. And I 
think there are perhaps other strategies that we could utilize 
that would supplement for additional resources. But, we 
recognize and appreciate the importance of affordable power.

                               BROADBAND

    Senator Kohl. On broadband, Mr. Secretary, for the last 
several years, substantial funding has been provided annually 
to extend broadband service throughout rural America. In 
addition, the Recovery Act made a substantial investment to 
strengthen the program with funds that must be obligated by 
this September. This budget seeks additional funding for 
broadband loans for fiscal year 2011. Mr. Secretary, please 
describe the progress you are making extending broadband 
service to remote, unserved, and underserved rural areas. By 
the end of this year, how much of rural America do you think 
will still be without adequate broadband service? Do you expect 
to obligate all of the Recovery Act funds for this by this 
September? And with the abundance of funding already provided 
for this program, can you justify an additional $400 million in 
fiscal year 2011?
    Secretary Vilsack. Mr. Chairman, I think it's fair to say 
that the tremendous work that Congress and the President did in 
the Recovery Act in creating opportunities for broadband 
expansion represent a significant downpayment, but by no means 
a balloon payment, on the need for expanded broadband access in 
the United States.
    We've seen literally thousands of applications for these 
resources, far in excess of the resources that were made 
available in the Recovery Act. I believe we are on track to 
obligate our resources by September 30 from the Recovery Act, 
but there will still be significant demand after those 
applications have been approved and funds are provided.
    What we are trying to do with this is to emphasize, 
particularly in rural communities, the importance of having 
this technology. It isn't just simply expanding broadband, it's 
making sure that people in rural communities understand how 
best to utilize it. Whether it's distance learning, or 
telemedicine, or business expansion by expanding markets from 
local to global markets, or the opportunities for farmers and 
ranchers to have realtime information. There is a need for 
additional education for people to understand that this is a 
tool that they ought to have, if they have to pay a 
subscription fee or whatever, they ought to be willing to make 
that investment, because it will return that investment.
    I would say that, as I said earlier in my earlier comments, 
it is a linchpin, a pillar of a new rural economy that we have 
to construct in this country. Without that technology, 
businesses, farmers, ranchers, communities will not be able to 
succeed in the 21st century.
    So, I think we have to continue to invest. I think we have 
to be wise about our investments. We have to make sure that 
folks understand how to utilize the resource, that they have 
the financial wherewithal and the technological expertise to 
utilize it properly in communities, and that we need to look 
for projects that will benefit not just a single community, but 
a region, a group of communities, multiple communities from 
resources.
    We're seeing projects for example, my home State recently 
received an award in which 12 counties, 90,000 people, will be 
impacted by this. I think it was something like 30,000 small 
business operations and farms and activities in this area would 
be benefited. So, it's an enormous opportunity here. So, I 
would encourage the subcommittee to look strongly at continuing 
to invest in this very important technology.
    Senator Kohl. You've made the point, and I agree with you, 
that broadband is absolutely essential to future of rural 
America. When do you imagine that we'll have full broadband 
service, as well as, as you pointed out, the ability of 
individuals to know how to use it?
    Secretary Vilsack. Senator, I'm not sure I can give you a 
specific date. I will tell you that I think we have a ways to 
go. I know my State, when I left as Governor, we had roughly 90 
percent of the State covered, but that didn't necessarily mean 
that it was being fully utilized and fully appreciated. And 
that took 5 or 6 years of hard work on the part of our utility 
companies and on the part of our small telephone companies to 
make that happen in the State regulatory structures.
    So, there's a lot of work yet to be done here, but I think 
we need to accelerate. I would say that a continued investment 
is an indication, from this Congress and this administration, 
of the importance of it and the need to continue to look for 
ways to leverage these resources. And part of our challenge, 
candidly, is that there are places where you may have 300 or 
400 people, but the investment will be multiple millions of 
dollars. And so, it becomes very difficult to be able to 
explain to people why a subsidy of $50,000 or $60,000 or 
$70,000 per customer can be warranted, which is why we're 
looking at lower-cost strategies to at least get people further 
ahead in the technology arena than they are, whether it's 
satellite or other strategies that may be perhaps a little bit 
less expensive than broadband, but can still provide access to 
the Internet, can still provide some distance learning 
opportunities. And so, it's conceivable that, at the end of 
this process, if we have resources left over from the 
applications with the Recovery Act, that we'll put a small 
amount of money out there for these communities that just 
cannot justify a $50,000 subsidy, but we could justify a 
satellite operation or a tower or some kind of antenna system.

                               FOOD BANKS

    Senator Kohl. All right.
    Mr. Secretary, according to a Feeding America study, more 
than 37 million people receive emergency food each year through 
food banks and other agencies. This is an increase of 46 
percent since 2006. With the current economic situation not 
improving for many Americans, what is the Department doing to 
help food banks make sure people have access to food?
    Secretary Vilsack. Well, the Recovery Act provided us a 
tremendous shot in the arm, and we got those resources out as 
quickly as possible. We'll continue to use our commodity 
purchasing capacity. It's a little bit limited, based on 
activities that have taken place prior to this year, but we 
will continue to look for ways in which we will provide help 
and assistance.

                   EMERGENCY FOOD ASSISTANCE PROGRAM

    Senator Kohl. The budget includes a small increase for the 
Emergency Food Assistance Program. Do you believe this increase 
is sufficient?
    Secretary Vilsack. The answer to that question, Senator, 
depends, in part, on how well and how quickly the economy 
recovers. We expect and anticipate that we're going to see a 
steady increase in economic activity, as we have seen in the 
last couple of months, with our stock market being stabilized 
and the housing market being somewhat stabilized. Our hope is 
that that help will be reflected in job growth at some point. 
And then, when that happens, there'll be less demand and less 
pressure. But, in the meantime, we want to provide some 
resources that will allow us to respond. Whether this is enough 
or not, it somewhat depends on where we are 6 months from now 
or 9 months from now. Our hope is that it is enough, but I'm 
not going to say that we wouldn't come back here, at some point 
in time, and tell you we need more.

                     SCHOOL FOOD SERVICE EQUIPMENT

    Senator Kohl. Mr. Secretary, this subcommittee provided 
grants, through the stimulus bill, for the purchase of school 
food service equipment. Can you please provide an update on the 
status of those funds?
    Secretary Vilsack. Over 5,000 schools received assistance 
from those resources. And I will say that part of the child 
nutrition reauthorization effort is also focused on continuing 
to provide additional resources for equipment. The reason for 
this is, a lot of schools are not in a position to take full 
advantage of more nutritious food, because they don't have the 
capacity to prepare it or deal with it. They may have a fryer, 
but they may not have something that can steam or cook 
vegetables, for example.
    So, we have to continue to look for ways to provide 
resources and help, both on the equipment side and the 
technological side, and training of school food personnel. So, 
that's part of what we're proposing, in terms of our 
reauthorization effort.

                      HUNGER-FREE COMMUNITY GRANTS

    Senator Kohl. Mr. Secretary, last year we provided funding 
for Hunger-Free Community grants, as authorized in the farm 
bill. What is the status of those funds?
    Secretary Vilsack. We asked for additional resources in 
that area; I think it's a $3 million increase. There is a real 
opportunity here for us to encourage more innovative and 
creative strategies. We are particularly concerned--again, back 
to children--particularly concerned about the summer months, 
when our feeding programs just, frankly, don't get enough 
resources and assistance, and there are a lot of youngsters who 
don't get adequately fed.
    So, we're encouraging, through the grant program, through 
our reauthorization efforts, to try to find additional 
resources to incent more creative and thoughtful approaches. 
How can we take resources and utilize them so that we go to 
where children are, for example, in the summer? Are there 
programs where we can identify where youngsters are, as opposed 
to compelling youngsters to come to a central location for a 
congregate meal type of activity? Is there a way in which 
ballparks, swimming pools, playgrounds, where kids will 
normally and traditionally congregate, and could we figure out 
some kind of mobile strategy that would meet those needs? How 
do we continue to provide backpack opportunities during the 
weekends when there is a snowstorm and school's out for week 
because people can't get to school, what do we do for those 
youngsters?
    So, we want to incent and encourage communities to focus on 
creative strategies. They're going to need resources and 
incentives to do that, which is why we're asking for additional 
resources.
    Senator Kohl. Very good.
    I'd like to thank everybody here today for attending. 
Secretary Vilsack, we appreciate your participation 
particularly, with your assistance Dr. Merrigan, and Dr. 
Steele.

                           PREPARED STATEMENT

    Before we recess this subcommittee hearing, Senator Tim 
Johnson has asked that his statement be made part of the 
record.
    [The statement follows:]
               Prepared Statement of Senator Tim Johnson
    Thank you, Chairman Kohl and Ranking Member Brownback, for holding 
today's Agricultural Appropriations Subcommittee hearing on the 
President's proposed fiscal year 2011 budget. Secretary Vilsack, thank 
you for coming to the Hill today to discuss USDA's funding proposal.
    Mr. Secretary, I appreciate your working to implement Country of 
Origin Labeling according to Congressional intent, and look forward to 
reviewing USDA's rules regarding agricultural competition as authorized 
by the 2008 farm bill. I am hopeful that together, we can make some 
meaningful improvements for independent producers. The President's 
fiscal year 2011 budget contains some very good things, including a 
substantial investment in nutrition as with the proposed increase for 
the Commodity Supplemental Food Program and investment in child 
nutrition and WIC.
    The budget, however, also includes some questionable funding cuts, 
including the elimination of the Resource, Conservation and Development 
program. While the conservation funding included in the budget allows 
for a 10 percent increase in acreage enrollment over 2010 levels, I am 
concerned for the proposed reductions in acreage or funding which may 
impact conservation programs in the future.
    Mr. Secretary, thank you for your time this morning and I look 
forward to working with you on priorities of importance to South 
Dakota.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Kohl. We'd like to request that all members submit 
any questions for the record within 1 week, which is March 9. 
Secretary Vilsack, also like to request that USDA respond to 
those questions within 4 weeks, which would be Tuesday, April 
6. We look forward to working with each of you as we continue 
this appropriations process.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted by Senator Herb Kohl
                   healthy food financing initiative
    Question. The Budget proposes an appropriation of $35,000,000 under 
the Office of the Secretary plus a reserve of $16,280,000 from other 
agencies for the USDA component of a multi-departmental Healthy Food 
Financing Initiative that would total in excess of $400,000,000. The 
goal of this initiative is laudable. Improvement in accessibility of 
healthy foods to many populations will help combat obesity and other 
health problems tied to improper diet.
    This initiative is described as ``multi-year'' in nature. Do you 
foresee that this program will operate indefinitely or do you have a 
specific timeframe in which you expect to meet the program's 
expectations? What measurements will you use to determine program 
effectiveness?
    Answer. Through the new multi-year Healthy Food Financing 
Initiative and by engaging with the private sector, the administration 
will work to eliminate food deserts across the country within 7 years. 
With the first year of funding, the administration's initiative will 
leverage enough investments to begin expanding healthy food options 
into as many as one-fifth of the Nation's food deserts and create 
thousands of jobs in urban and rural communities across the Nation.
    The objectives of the initiative are to increase access to healthy 
and affordable food choices in struggling urban and rural communities, 
and help reduce the high incidence of diet related diseases; create 
jobs and economic development; and establish market opportunities for 
farmers and ranchers. As a result, measurements of program 
effectiveness will include the number of new grocery stores and other 
healthy food retail outlets built in food deserts, the number of people 
previously living in food deserts who are served by the new retailers, 
and other such output measures. It is going to take a lot longer, 
possibly decades to have definitive data on improved diets, better 
health and reduced obesity. USDA plans to involve evaluators in the 
initiative to ensure proper measurements of program effectiveness and 
overall success of the initiative.
    Question. Please describe how USDA will coordinate this initiative 
with other departments and please explain the specific functions the 
other departments will employ in carrying out this initiative.
    Answer. Each of the three agencies brings a particular expertise 
and set of resources to the Healthy Food Financing Initiative. 
Specifically:
    The Department of Agriculture specializes in improving access to 
healthy foods through nutrition assistance programs, creating business 
opportunities for America's farmers, and promoting economic development 
in rural areas. USDA's proposed funding level of $50 million will 
support more than $180 million in public and private investments in the 
form of loans, grants, promotion, and other programs that can provide 
financial and technical assistance to enhance access to healthy foods 
in underserved communities, expand demand and retail outlets for farm 
products, and increase the availability of locally and regionally 
produced foods. USDA has a solid track record of supporting successful 
farmers markets, and has also invested in grocery stores and creating 
agricultural supply chains for them, such as in the People's Grocery 
project in Oakland, CA.
    The Treasury Department will support private sector financing of 
healthy foods options in distressed urban and rural communities. 
Through the New Markets Tax Credit (NMTC) and financial assistance to 
Treasury-certified community development financial institutions 
(CDFIs), Treasury has a proven track record in expanding access to 
nutritious foods by catalyzing private sector investment. The Healthy 
Food Financing Initiative builds on that track record, with $250 
million in authority for the NMTC and $25 million for financial 
assistance to CDFIs devoted to helping finance healthy food options.
    The Department of Health and Human Services (HHS) specializes in 
community-based efforts to improve the economic and physical health of 
people in distressed areas. HHS will dedicate up to $20 million in 
Community Economic Development program funds to the Healthy Food 
Financing Initiative. Through the CED program, HHS will award 
competitive grants to Community Development Corporations to support 
projects that finance grocery stores, farmers markets, and other 
sources of fresh nutritious food. These projects will serve the dual 
purposes of facilitating access to healthy food options while creating 
job and business development opportunities in low-income communities, 
particularly since grocery stores often serve as anchor institutions in 
commercial centers.
    Question. Since this initiative will combine the efforts of a 
number of different USDA agencies and mission areas, how will you 
ensure that proper coordination will occur and who or which agency will 
be ultimately responsible for this initiative?
    Answer. USDA will establish an internal coordination mechanism. 
Leadership for the initiative within USDA is currently assigned to Ann 
Wright, Deputy Under Secretary for Marketing and Regulatory Programs, 
and Cheryl Cook, Deputy Under Secretary for Rural Development. They are 
assisted by staff throughout the Department.
    Question. Please provide an explanation of specifically what each 
USDA agency involved with this initiative will do to carry it out at 
both the headquarters and field level.
    Answer. The Agricultural Marketing Service, Rural Development, and 
the Office of the Secretary will work together to ensure that expertise 
within USDA is appropriately leveraged to carry out the initiative. AMS 
has considerable knowledge and expertise enhancing food access for low 
income populations and improving retail market access for small and 
mid-sized producers. Rural Development has significant expertise 
funding and supporting infrastructure development for purposes of 
economic development.
    Together, the two agencies, working in concert with the Office of 
the Secretary will make funding available to provide:
  --Technical assistance to grantees to help them with facility, and 
        distribution logistics, and food marketing;
  --Grants, loans, and loan guarantees in support of business and 
        infrastructure development and investment; and
  --Administrative support of HFFI and project evaluation.
    Each agency will work through its existing programs to carry out 
the program. There will be no reprogramming of funds:
Rural Development
    Rural Development's Community Facility Grant Program supports the 
success of rural communities by providing loans and grants for the 
construction, acquisition, or renovation of community facilities or for 
the purchase of equipment for community projects.
    The Business and Industry loan program is designed to help new and 
existing businesses in rural areas gain access to affordable capital.
    The Rural Business Enterprise Grant Program provides grants for 
rural projects that finance and facilitate development of small and 
emerging rural businesses.
    The Rural Microentrepreneur Assistance Program provides loans and 
grants to support new and existing rural micro businesses by providing 
funds to microenterprise development organizations for micro lending 
and technical assistance.
    The Intermediary Relending Program (IRP) provides loans to local 
organizations that relend to rural businesses.
    The Rural Business Opportunity Grant Program provides grants for 
training and technical assistance to support economic development.
Agricultural Marketing Service
    The Farmers Market Promotion Program provides grants to support the 
development of farmers markets and other farm to consumer marketing 
businesses. Money from this program can be spent to equip farmers 
markets with electronic benefit transfer equipment so credit cards and 
Supplemental Nutrition Assistance Program (SNAP) benefits can be 
redeemed at the markets.
    The Wholesale, Farmers and Alternative Market Development Program 
provides technical assistance to create or upgrade markets and 
marketing facilities.
    Question. Since the USDA initiative envisions the use of Rural 
Development funds to enhance food accessibility in urban areas, how do 
you reconcile the requirement and underlying objective that rural 
development programs are enacted to serve ``rural'' America?
    Answer. Programs that serve rural America do not necessarily need 
to be located in rural areas. In the case of the Healthy Food Financing 
Initiative, rural areas are expected to benefit from the increased 
demand for agricultural commodities. In addition, all America will 
benefit from a healthier citizenry and stronger economy in both rural 
and urban areas.
    Question. How will you prioritize areas in the Nation to 
participate in this initiative and, more to the point, how will you 
determine where factors such as crime rates and lack of security are 
the dominant forces that determine success or failure of businesses 
such as full service grocery stores? What effect will lack of security 
or similar factors play in your determination where to make Federal 
investment?
    Answer. The administration has set an ambitious goal for the 
initiative--to eliminate food deserts across the country in 7 years. To 
accomplish this goal, the initiative will inevitably need to fund 
projects in areas of the Nation that suffer from high crime rates and 
lack of security. Agencies providing assistance under the initiative 
will draw upon past work they have funded in communities with similar 
characteristics and study and apply the lessons learned from similar 
initiatives such as the Pennsylvania Fresh Food Financing Initiative to 
ensure best practices are being applied to the selection and 
implementation of projects. In addition, the agencies will 
strategically invest in projects in the initial years that will further 
the knowledge and practice of ensuring successful projects in these 
communities. It is worth noting that crime and lack of security have 
not stopped fast food establishments from thriving in food deserts and 
other deprived areas.
    Question. Since a main (if not the primary) underlying purpose of 
this initiative is to improve the diets of Americans who might 
otherwise have to rely on food items from less than full-service 
grocery stores where it is more common to find items of convenience 
rather than high nutritional value, is the Department also looking at 
other changes to improve the nutritional intake of Americans. For 
example, do you think the SNAP program should be reformed to restrict 
benefit use to disallow items of low nutritional quality?
    Answer. By most standards, almost all American diets are in need of 
improvement. Given interest in using Federal nutrition assistance 
programs to promote healthy choices, some suggest that SNAP recipients 
should be prohibited from using their benefits to buy foods with 
limited nutritional value. However, there are serious problems with the 
rationale, feasibility and potential effectiveness of this proposal.
    First, there are no clear standards for defining foods as good or 
bad or healthy or not healthy. Foods contain many components that can 
affect health, and diets contain many foods. As a result, it is 
challenging to determine whether and the point at which the presence or 
absence of desirable nutrients outweighs the presence of nutrients to 
be avoided in ruling a food in or out.
    Second, there are operational issues. Implementation of food 
restrictions would increase program complexity and costs. The task of 
identifying, evaluating and tracking the nutritional profile of every 
food available would be substantial. The burden of identifying which 
products met Federal standards would fall on an expanded bureaucracy or 
on manufacturers and producers asked to certify that their products 
meet Federal standards.
    Third, restrictions may be ineffective in changing the purchases of 
participants. About 70 percent of all SNAP participants who receive 
less than the maximum benefit allotment are expected to purchase a 
portion of their food with their own money. There is no guarantee that 
restricting the use of SNAP benefits would affect food purchases other 
than substituting one form of payment (cash) for another (SNAP 
benefits).
    Finally, there is no strong research-based evidence that SNAP 
participation contributes to poor diet quality. Recipients are no more 
likely than higher income consumers to choose foods with little 
nutritional value; thus the basis for singling out SNAP recipients and 
restricting their food choices is not clear.
    USDA believes the better approach is nutrition education about 
healthy eating and physical activity to foster real behavior change. 
Incentives rather than restrictions that encourage purchases of certain 
foods or expanded nutrition education to enable participants to make 
healthy choices are more practical options and likely to be more 
effective in achieving the dietary improvements that promote good 
health. The Healthy Incentive Pilot program, established by the farm 
bill and supported with $20 million in 2009 will explore this question. 
The President's fiscal year 2011 budget proposes $6 million to expand 
this effort.
                  office of ecosystem services markets
    Question. The Budget includes an increase of $2,021,000 for the 
Office of Ecosystem Services Markets, as authorized under section 2709 
of the 2008 farm bill. It is stated that the purpose of this request is 
to expand the Department's efforts to develop technical guidelines to 
quantify environmental services provided by America's farmers, 
ranchers, and forest landowners. Since this request is for the 
expansion of Departmental efforts, please provide information on the 
activities (including funding levels) currently underway that serve 
this purpose.
    Answer. The Office of Environmental Markets (OEM), originally 
established in December 2008 as the Office of Ecosystem Services 
Markets, builds on and will complement a strong foundation within USDA 
to assess the environmental services provided by conservation and land 
management actions. Ongoing USDA efforts include: the work of the 
Climate Change Program Office within the Office of the Chief Economist 
established the only set of comprehensive farm-level greenhouse gas 
estimation guidelines used in the Government's Voluntary Greenhouse Gas 
reporting Registry; efforts to assess the conservation and 
environmental benefits of USDA actions through the Conservation Effects 
Assessment Program; and monitoring resource conditions through programs 
including the National Resources Inventory (NRI) and the Resource 
Conservation Assessment (RCA).
    OEM is currently active in a project called Farm of the Future that 
demonstrates how landowners are accelerating their environmental 
performance and receiving a positive return on their investment by 
participating in environmental markets. In addition, OEM is leading a 
series of inter-Departmental dialogues that brings together senior 
leadership from across the Federal family to discuss coordination for 
the development of performance metrics and overall infrastructure for 
environmental markets at a national level. In 2010, the OEM intends to 
conduct an assessment of existing science-based technical guidelines 
and develop recommendations on national guidelines for greenhouse 
gases, water quality, biodiversity and wetlands.
    OEM will provide preliminary recommendations for integrating 
carbon, water, wetlands and biodiversity values on the same landscape. 
OEM also intends to assess existing registries and other reporting 
mechanisms and develop initial recommendations to the Secretary for a 
national, integrated registration process. OEM is well positioned to 
build on existing information and move in a new direction that expands 
the Department's work to build the infrastructure for a robust 
marketplace.
    Question. While section 2709 of the 2008 farm bill directs the 
Secretary to issue guidelines regarding this effort, it does not call 
for the establishment of a separate office. Why do you feel this is 
necessary? Why can't these functions be carried out under the Office of 
the Chief Economist, the Economic Research Service, the Natural 
Resources Conservation Service, or some other appropriate agency?
    Answer. All these agencies you mention play a critical role in 
developing information to study and support environmental markets 
including the necessary research. To be effective and increase 
communication between all of the relevant parties, these efforts must 
be coordinated and having a central organization to coordinate this 
work across USDA and the Federal Government as well as with the private 
sector requires an office with a specific focus. The Office of 
Environmental Markets (OEM) is the entity that will coordinate across 
Federal and private sector lines all these critical elements.
    Question. Please provide a description of the types of services 
markets that you envision as coming under the purview of this activity 
and please explain how they will generate additional income to 
participants.
    Answer. The four environmental markets that USDA will potentially 
be focusing on may include greenhouse gases (carbon trading); water 
quality trading: (nutrients, sediment, and temperature) conservation 
banking (species and habitat); and wetland banking. The Department, 
through the Office of Environmental Markets and the Climate Change 
Program Office, will potentially work to develop guidelines for these 
markets consistent with the guidance provided in section 2709 of the 
2008 farm bill. Environmental markets may offer a cost effective 
alternative for regulated communities to meet their environmental 
obligations by purchasing environmental benefits from landowners who 
apply enhanced conservation actions on their operations. These 
conservation solutions could be applied at a fraction of the cost of 
technological options and typically include additional environmental 
benefits as well. Landowners would potentially have the option of 
engaging in environmental markets by offering new commodities such as 
water quality, habitat and other environmental benefits as part of 
their suite of products for sale.
                       office of tribal relations
    Question. The Office of Tribal Relations was created in fiscal year 
2010 with initial funding of $1,000,000. Please describe the activities 
and accomplishments of this Office during the current fiscal year and 
those that are planned for fiscal year 2011.
    Answer. The Office of Tribal Relations serves as the USDA central 
point of contact for all 564 federally recognized tribal governments. 
The Director of the Office of Tribal Relations (OTR) serves as the 
Senior Advisor to the Secretary for Tribal Affairs. Interim staff 
members have been detailed into the office from around the Department 
to begin operations, and the hiring of permanent staff is under way. In 
fiscal year 2010, OTR has participated in the White House Tribal 
Nations Conference of November 2009 and led the development of USDA's 
Action Plan for Tribal Consultation and Collaboration. As part of the 
development of the Action Plan, OTR participated in a number of 
meetings and venues seeking consultative input from tribal leaders. OTR 
is now leading efforts of the Department's Native American Working 
Group to implement the Action Plan.
    Planned activities for fiscal year 2011 include: finalization and 
adoption of a new USDA Departmental Regulation on Tribal Consultation; 
launch of USDA Employee Education and Training initiative relating to 
tribal consultation and collaboration; launch of a reporting and 
accountability structure to track tribal consultation and collaboration 
activities throughout the Department; participation in numerous 
consultation activities throughout the Department; and launch of 
regional consultative venues to more fully engage tribal leadership in 
consultation and collaborative activities.
                     office of the chief economist
    Question. One of the functions of the Chief Economist relates to 
the work of the Climate Change Program Office (CCPO), which coordinates 
the Department's climate change activities and generally represents the 
Department on issues and policies relating to this phenomenon. Since 
agricultural production is extremely sensitive to changes in weather 
patterns and the consequences of extreme weather events, please 
describe ongoing efforts of CCPO and policy implications of the 
Department that work to achieve protection to American producers and 
agricultural production around the world.
    Answer. The Climate Change Program Office (CCPO) within the Office 
of the Chief Economist (OCE) provides syntheses and assessment of the 
implications of climate change on agricultural and forested systems. In 
2008, OCE released The Effects of Climate Change on Agriculture, Land 
Resources, Water Resources, and Biodiversity. Since then, OCE has 
followed up with shorter reports and brochures designed to make this 
information available to farmers, ranchers, forest land owners, and the 
general public. OCE/CCPO has responsibilities for coordinating the 
Department's research program on climate change to ensure that the 
Department's research is providing answers to the most pressing 
questions related to climate change and is leading efforts to develop a 
USDA Strategic Plan for Climate Change Research. A goal will be to 
provide credible, validated, and effective climate change science and 
technology and to make this information easily available to internal 
and external USDA customers and stakeholders on scales relevant to 
decisionmaking.
    Question. Were there any outcomes of the Climate Change Summit 2009 
in Copenhagen, or other national or international meetings in the past 
year, that have affected the operations of CCPO or the Department?
    Answer. Several meetings on climate change in 2009 will affect the 
work of CCPO and the Department. The 15th Conference of the Parties 
(COP 15) to the Framework Convention on Climate Change produced a new 
international agreement--the Copenhagen Accord. Under this Accord, the 
United States has pledged to reduce greenhouse gas emissions by 17 
percent from 2005 levels by 2020--contingent on domestic legislation. 
In addition, a series of preparatory meetings were held in 2009 prior 
to COP 15. These included meetings in Bonn, Bangkok, and Barcelona.
    Land use issues for developed and developing countries were central 
to these negotiations. CCPO led USDA's involvement in the negotiations 
and ensured that USDA technical expertise were applied to the issues 
of: how to address emissions from deforestation and forest degradation 
in developing countries, how to include agricultural mitigation 
opportunities in new agreements or arrangements, and how to account for 
forest carbon in reporting systems.
    At COP-15, USDA made a series of announcements related to climate 
change actions domestically and internationally, including the Global 
Research Alliance on Agricultural Greenhouse Gases and a Memorandum of 
Understanding with the Innovation Center for U.S. Dairy to work 
together to reach a 25 percent reduction in greenhouse gas emissions 
while benefiting dairy farmers.
                 office of budget and program analysis
    Question. For many years, this subcommittee has enjoyed an 
excellent working relationship with the Office of Budget and Program 
Analysis (OBPA) that in our view has been mutually beneficial to both 
the Congress and the Department. Last year, a reorganization of the 
Department occurred in which the status of OBPA was apparently reduced 
and the agency placed under the Assistant Secretary for Administration. 
The Committee continues to be concerned that many of the functions of 
OBPA that have been instrumental over the years for sound and useful 
exchanges of information between the Committee and the Department have 
lost, to a degree at least, their vitality and depth of purpose. Are 
all reports requested in appropriations acts or reports being 
coordinated and reviewed by OBPA, and if not, please explain.
    Answer. OBPA continues to review all reports requested in the 
Appropriations Acts.
    Question. Please identify any categories of information or policy 
recommendations that are not being reviewed by OBPA that were prior to 
the reorganization.
    Answer. Under the delegations of authority OBPA is assigned 
responsibility for a range of budget, legislative and regulatory 
analysis, process and reporting functions. These delegations of 
authority have not been changed as part of the Departmental Management 
reorganization.
    Question. Please identify Departmental positions that have 
management authority over OBPA who did not have such authority prior to 
the reorganization.
    Answer. Since the reorganization, the Assistant Secretary for 
Administration and the Chief Financial Officer has management authority 
over OBPA.
                    office of advocacy and outreach
    Question. The Budget proposes a substantial increase in funding for 
the Office of Advocacy and Outreach, from the fiscal year 2010 enacted 
level of $1,700,000 to $7,009,000 for fiscal year 2011. Of this 
increase, $4,000,000 is a transfer from the Rural Housing Service 
account for carrying out a Farm Worker Program. Please describe the 
activities and accomplishments of the Farm Worker Program in fiscal 
year 2010.
    Answer. The budget request is a $1.3 million increase for the 
Office of Advocacy and Outreach. Four million dollars is provided 
through RHS in 2010 for the 14204 program to fund farm worker job 
stability, safety and training demonstration projects. This funding 
will be used to assist agricultural employers and farmworkers by 
improving the supply, stability, safety, and training the of 
agricultural labor force. USDA plans to assist with: agricultural labor 
skills development; the provision of agricultural labor market 
information; transportation; short-term housing; workplace literacy; 
health and safety instructions; and other supportive services.
    An interim Farm Worker Program Leader has been assigned to the 
position while the selection for a permanent Supervisory Leader is 
underway. The interim leader has developed a plan of operations for the 
program within the Office of Advocacy and Outreach. The program leader 
is working on emergency assistance for farm workers in the devastated 
Florida freeze zone, meeting with Farm Worker organizations and Faith 
Based Organizations to discuss potential USDA assistance, and 
developing a Federal Emergency Humanitarian Farm Worker Aid Plan. The 
Farm Worker Program Leader chairs the Farm Worker subcommittee of the 
USDA Deputy Secretary Know Your Farmer, Know Your Food initiative.
    Other activities of the Farm Worker Program scheduled for 2010 
include: administer funding as available of section 2281 of the Food, 
Agriculture, Conservation, and Trade Act of 1990, low-income and 
migrant seasonal farm worker funding; work with USDA, Federal, State, 
local agencies, as well as, Faith Based Organizations, Farm Workers 
Organizations and other CBO's to provide emergency humanitarian aid to 
Farm Workers in disaster areas; maintain external communication with 
CBO's, Farm Worker Organizations, Faith Based Organizations, 
educational institutions and others to keep abreast of emerging topics, 
trends, and community needs to assist in appropriate USDA response to 
Farm Worker issues; and provide internal leadership and council to USDA 
agencies on Farm Worker issues, as well as, compare community needs 
with USDA programs and make recommendations for program modifications 
or development.
    Question. To what extent does the Farm Worker Program duplicate the 
mission of NIFA extension and education programs?
    Answer. The Farm Worker Coordination Program was established to 
meet the needs of the farm workers that are not currently being 
addressed in USDA and to better coordinate existing USDA programs and 
activities to assist this community. NIFA Extension is managed by 
individual State educational institutions which are not always 
consistent nationwide in addressing the needs of farm workers. The Farm 
Worker Coordination Program will provide leadership to USDA agencies 
and others to provide consistency in program delivery. The program will 
also provide leadership in the modification of existing programs and 
development of new programs that benefit Farm Workers, especially those 
that assist farm workers to become farm operators or owners. This 
program will work in conjunction with NIFA Extension as well as all the 
other USDA agencies.
    Question. To what extent has the centralization of program outreach 
activities for various USDA agencies into the consolidated Office of 
Advocacy and Outreach resulted in savings in the appropriations 
accounts of the affected agencies? Will the requested increase in 
funding for this Office result in even further savings in fiscal year 
2011?
    Answer. The program outreach activities of USDA agencies have not 
been centralized in the Office of Advocacy and Outreach (OAO). Congress 
established the OAO in the Food, Conservation and Energy Act of 2008 
and established duties which included establishing and monitoring goals 
and objectives of the Department to increase participation in programs 
by small, beginning, or socially disadvantaged farmers and ranchers; 
assessing effectiveness of Departmental outreach programs; developing 
and implementing a plan to coordinate outreach activities; providing 
input on agency programmatic and policy decisions; measuring outcomes 
of programs and activities of the Department on small farms and 
ranches, beginning farmers and ranchers, and socially disadvantaged 
farmers and ranchers; and recommending new initiatives to the 
Secretary. As a result of these activities, USDA anticipates more 
effective, coordinated and focused outreach across the USDA agencies, 
who will continue to maintain their own outreach programs. The 2008 Act 
also transferred several USDA programs residing in other agencies to 
OAO, which has already begun efforts to increase access and utility of 
these programs to small, beginning, and socially disadvantaged farmers 
and ranchers.
             office of the chief information officer budget
    Question. In fiscal year 2010, an increase of nearly $44,000,000 
was provided to the Office of the Chief Information Officer for IT 
security upgrades. In view of recent breaches of USDA IT information 
systems, the Congress believed this investment was necessary to protect 
the integrity of Departmental security. Please describe how these funds 
have been used.
    Answer. The fiscal year 2010 Appropriation for the United States 
Department of Agriculture (USDA) Office of the Chief Information 
Officer (OCIO) included nearly $44,000,000 in new funding to support 
our strategy to improve information technology security. The increase 
in funding is being used in support of the following three initiatives:
  --Nearly $17.2 million to Conduct Network Security Assessments to 
        analyze the state of USDA's network to identify 
        vulnerabilities;
  --Nearly $14.3 million to Procure and Deploy Tools for enhanced 
        monitoring and detection; and
  --Nearly $12.3 million to establish an Agriculture Security 
        Operations Center to monitor and protect USDA's systems.
    A summary of activities through early February, 2010, addressing 
each of the three initiatives in turn, is provided below for the 
record.
    [The information follows:]
    Conduct Network Security Assessments.--The purpose of this 
initiative is to gain a comprehensive understanding of how USDA 
computers and networking equipment are interconnected and the existing 
vulnerabilities of that equipment. Nearly $17 million has been 
allocated for this initiative. The following paragraphs provide an 
overview of key projects.
    The Vulnerability Assessment project is underway. We shall complete 
11 assessments by the end of fiscal year 2010. Currently, we have 
completed assessments of three USDA agencies and staff offices: the 
Foreign Agriculture Service (FAS), Washington Communications and 
Telecommunications Services (WCTS), and the National Information 
Technology Center (NITC). An assessment of the Food Safety and 
Inspection Service (FSIS) is currently under way and one for the 
International Technology Services (ITS) is ramping up. The 11 
assessments represent USDA networks carrying 80 percent or more of the 
Department's total network traffic. We are documenting the methods and 
tools involved to create a repeatable process that we can apply 
regularly to ensure our knowledge remains current and improve our 
internal processes.
    The Network Modeling and Performance project is in acquisition 
phase. We plan to complete implementation of the project in the 4th 
quarter fiscal year 2010. Once completed, we shall have a comprehensive 
network inventory, including diagrams showing the interconnections. 
This shall help identify the most economical and effective placement of 
security devices to protect data connections within and external to 
USDA networks. With these devices we can identify and analyze patterns 
at key points in the network to thwart attacks and prevent data 
leakage.
    The Security Management Sensors and Console project is in 
acquisition phase. We have identified our core requirements and are in 
the process of selecting suitable vendors to install the sensors and 
console. We shall have our security management sensors deployed to 12 
locations within USDA to protect network traffic. We plan to complete 
the acquisition and begin implementation in the 4th quarter fiscal year 
2010 and complete implementation in the 1st quarter fiscal year 2011. 
Collectively the sensors will analyze and protect our networks from 
vulnerabilities and report centrally to a management console at the 
Agriculture Security Operations Center.
    Procure and Deploy Security Tools.--Acquiring and deploying a 
number of security tools will help us defend against exploits of 
vulnerabilities as well as maintain a near real-time understanding of 
the health our networks and the devices attached to them. Nearly $14 
million has been allocated for this initiative. The following 
paragraphs provide an overview of key projects.
    The Endpoint Security project is in the operations phase. This 
project installs a piece of software on each end user desktop, laptop 
and server within USDA. It allows us to examine reports centrally, and, 
ultimately, manage end user computers connected to our networks. As of 
the first part of February 2010, we have installed the software on over 
70,000 devices; the remaining devices will be completed in the 3rd 
quarter of fiscal year 2010. Currently, the software where deployed 
allows us to identify the status of patching and compliance with the 
Federal Desktop Core Configuration. We have been using the data to 
identify commercial software vulnerabilities and plan the remediation 
efforts.
    Our Whole Disk Encryption (WDE) project is in the operations phase. 
Full implementation is expected by 4th quarter fiscal year 2010. By 
encrypting the entire hard drive we nearly eliminate the possibility 
that unauthorized users will gain access to sensitive government 
information from lost or stolen equipment. As of the first part of 
February 2010, we have installed WDE on over 36,000 laptops. WDE is 
fully implemented on laptops across 18 agencies and staff offices. We 
are continuing our efforts to implement WDE across the remaining 
agencies and staff offices.
    The Email Security project is in the acquisition phase. This 
project enhances our Enterprise Mail Solution to increase our capacity 
so that we can inspect all email passing through our email gateway to 
allow for a broader protection against data loss and malicious 
attachments. When completed, we will have a capability to classify data 
across departmental systems based on key indicators or data patterns. 
The Email Security project will be operational in the 3rd quarter 
fiscal year 2010.
    The ASOC Information Technology Service Management (ITSM) project 
is in the development phase. ITSM will provide USDA with the capability 
to record IT security incidents Department-wide and enable a more 
robust analysis of incident trends and patterns. ASOC is modeling its 
ITSM after the one in use at the Department of Justice's Security 
Operations Center. ITSM will be operational in the 3rd quarter fiscal 
year 2010.
    The Data Loss Prevention project is in the pilot phase. We are 
evaluating a number of commercial products to determine the best 
solution to preventing costly leaks of data to outside the USDA 
networks. Once completed, we shall analyze the results of the pilot to 
determine the most economical and effective way to acquire a solution 
that can be deployed across the entire USDA network. The pilot will be 
completed in 3rd quarter fiscal year 2010.
    There are several other projects where we are in either the 
evaluation or acquisition phase regarding products to support functions 
such as computer forensics and file protection. These proactive 
measures shall reduce our exposure to vulnerabilities and provide a 
greater control of the health of our systems.
    Establish the Security Operations Center.--The new Agriculture 
Security Operations Center (ASOC) is ramping up operations and has 
taken responsibility for the ongoing IT security operations functions 
of USDA. This fiscal year alone the ASOC has responded to 75 percent 
more incidents in the first 4 months as compared to the same timeframe 
last fiscal year. This higher incident rate is an indication that USDA 
is evolving to a more mature and proactive stance regarding security 
monitoring and incident handling. Approximately $12 million has been 
allocated for this initiative.
    We have completed the organizational design of the ASOC and have 
begun staffing its critical positions with talented Federal employees. 
In the meantime, we have obtained a number of contractor services to 
support our daily operations while we complete our staffing. The new 
organization is active in issuing guidance to our component agencies 
and staff offices to address their IT security needs in the face of 
increasing exposure to complex technologies and social networking. The 
ASOC is overseeing the execution of all the initiatives and projects 
listed above to ensure the citizens of the United States that waste and 
duplication are eliminated and that the results address the greatest 
risk to the security of Federal information assets entrusted to the 
care of the Department of Agriculture.
                           it security risks
    Question. To what extent have security risks been resolved and if 
any still exist, what plans do you have to resolve those problems?
    Answer. New security risks are always appearing, and the methods to 
mitigate them entail balancing conflicting business requirements with 
resources which are not unlimited. The result always includes some 
residual risk and our challenge is to reduce that residual risk to an 
acceptable level. The USDA's strategy is to employ a risk management 
framework based on the guidance of the National Institute of Standards 
and Technology (NIST) in its Series 800 of Special Publications. We 
have established the ASOC to ensure operational security incidents are 
quickly identified and promptly remediated.
    One principal source of risk to USDA IT assets is the difficulty in 
identifying and centrally reporting specific vulnerabilities which come 
from the misconfiguration and/or out-of-date software installed on our 
computers. Our Endpoint Protection solution readily identifies in near 
real-time specific devices which are out of date and allows us to bring 
these devices in compliance with the latest recommendations. The 
solution provides an infrastructure that allows us to extend the 
capabilities to accommodate future monitoring requirements.
    An additional source of risk stems from the disparate environments 
housing our application servers. These environments are spread 
throughout the Nation, do not have uniform access controls (both 
logical and physical), nor uniform environmental controls, and hinder 
disaster recovery efforts. By consolidating our application servers 
into a small number of Enterprise Data Centers we greatly reduce the 
variation among environments and ensure that all USDA servers benefit 
from common security controls.
    Another risk comes from multiple points of entry into the USDA 
network. USDA is following OMB guidelines and embracing the Trusted 
Internet Connection model; still, USDA has a significant portion of its 
workforce that is highly mobile, and connectivity for these workers 
ranges the full spectrum of broadband technologies. By consolidating 
the number and type of connections we limit the points of attack, and 
can consolidate our monitoring and mitigation efforts.
    A final risk that merits mentioning is our overseas operations. 
Adequately securing overseas installations has been a continuing 
challenge for the USDA Foreign Agricultural Service (FAS). We are 
mitigating this risk by moving all FAS overseas end user support into 
the Department of State's OpenNet to take advantage of its existing 
security controls and experience with this operating environment. 
Simultaneously, we are consolidating their data operations into our 
Enterprise Data Center, to provide a more robust security 
infrastructure and operational model.
    These examples highlight key operational risks to USDA. 
Identifying, evaluating and tracking these risks in the light of new 
guidance and internal reviews shall be the focus of our initiative to 
develop a Governance, Risk Management and Compliance System. This 
system will streamline the execution of USDA's risk management 
framework to ensure we continue to reduce the residual risk to an 
acceptable level.
             e-government initiatives and lines of business
    Question. USDA participates in 31 e-Government initiatives and 
Lines of Business. To what extent are USDA customers using the e-
Government options open to them to inquire about USDA programs or to 
make application for assistance? What sort of growth rate has there 
been in such use among USDA customers over the last several years?
    Answer. USDA participates in 31 e-Government initiatives and Lines 
of Business (LoBs). Seven of these initiatives and LoBs are customer-
facing and provide measurable services that provide a means for the 
public to inquire about USDA programs or make applications for 
assistance. The remaining 24 initiatives and LOBs are internal facing 
and/or support other Federal agencies. A brief description of the 
services provided by each of the seven customer-facing initiatives is 
provided immediately below for the record.
    [The information follows:]
                            business gateway
    By creating access to consolidated compliance information, Business 
Gateway directly benefits USDA's ``customers'' (e.g., farm owners, food 
industries, and agricultural chemical producers), all of whom are 
subject to complex compliance requirements across multiple agencies.
    The Business Gateway initiative comprises two Web sites: 
Business.gov and Forms.gov. USDA posts agency forms on Forms.gov so 
customers do not have to search multiple Web sites to find forms they 
need to apply for government assistance. Links to program-related Web 
pages are posted on Business.gov to allow customers to search for 
information on government programs from a central location. Customers 
find a synopsis of programs on Business.gov and are able to ``click-
through'' to USDA Web pages to find more information if they desire. A 
summary of customer activity on these Web sites for fiscal years 2008 
through the present is provided in the table below.

----------------------------------------------------------------------------------------------------------------
                                                                  Number of USDA     Number of       Number of
                           Fiscal year                                 forms        times forms   customer click-
                                                                     available     were accessed     throughs
----------------------------------------------------------------------------------------------------------------
2008............................................................             563         268,496          12,643
2009............................................................             546         407,801          13,612
2010 (to date)..................................................             546         249,320           6,924
----------------------------------------------------------------------------------------------------------------

                            e-authentication
    E-authentication is a public-private partnership that enables 
citizens, businesses, and government employees to access online 
government services using credentials issued by trusted third-parties, 
both within and outside the government.
    The e-authentication initiative provides a single, centralized 
authentication service for Web-based applications across USDA, serving 
USDA employees and customers as well as other Federal agencies. USDA's 
e-authentication service represents USDA's implementation of the E-
Authentication Presidential Initiative.
    The number of applications protected by USDA's e-authentication 
service and the number of users who own an e-authentication credential 
grows each year. USDA employees and customers use this service to 
authenticate themselves by entering a user name and password. Once a 
user is authenticated, he or she is authorized to access multiple 
individual applications protected by the service. A summary of USDA's 
use of the e-authentication service is provided in the table below.

----------------------------------------------------------------------------------------------------------------
                                                         Average number
                                          Number of Web     of active     Average number of    Average number of
              Fiscal year                 applications   users \1\ (per  authentications \1\  authorizations \1\
                                            protected        month)          (per month)          (per month)
----------------------------------------------------------------------------------------------------------------
2007...................................             256        -268,000         -1,648,000          -6,398,800
2008...................................             289        -310,000         -1,828,000          -7,096,800
2009...................................             335        -350,000         -2,129,000          -7,167,000
2010 (to date).........................             365        -435,000         -2,143,000          -7,182,400
----------------------------------------------------------------------------------------------------------------
\1\ Includes USDA employee and customer accounts.

                              e-rulemaking
    USDA's 14 rule-making agencies completed migration to the Federal 
Docket Management System (FDMS) on December 8, 2006. As a result, all 
USDA Federal Register rules, proposed rules, and notices are available 
for public comment on e-rulemaking's Regulations.gov. This initiative 
increases the transparency of USDA's rulemaking process. A summary of 
the rules and proposed rules made posted by USDA to Regulations.gov and 
the number of comments received from the public in response from 
calendar year 2007 to the present is provided in the table below.

----------------------------------------------------------------------------------------------------------------
                                                                     Number of       Number of       Number of
                                                                     rules and        notice          public
                          Calendar year                           proposed rules     documents       comments
                                                                  posted by USDA  posted by USDA     received
----------------------------------------------------------------------------------------------------------------
2007............................................................             300             843           7,133
2008............................................................             317             868          13,272
2009............................................................             339             915          28,986
2010 (to date)..................................................             115             332          24,791
----------------------------------------------------------------------------------------------------------------

                               e-training
    AgLearn is USDA's implementation of the E-Training Presidential 
Initiative. E-training and AgLearn provide a single, USDA-wide learning 
management system that replaces seven legacy, agency-specific systems 
and widespread manual tracking of training. USDA employees are the 
primary users of AgLearn, but the resource is also available to select 
customers and contractors. A summary of USDA's use of AgLearn is 
provided in the table below.

----------------------------------------------------------------------------------------------------------------
                                                                                     Number of
                                                     Number of                       different
                                                   active users      Number of        courses      Total course
                   Fiscal year                    (employees and  active courses   completed by   completions by
                                                    customers)       available     at least one      all users
                                                                                       user
----------------------------------------------------------------------------------------------------------------
2008............................................         131,247          11,216           3,614     \1\ 900,935
2009............................................         134,957          14,423           5,684         778,564
2010 (to date) \2\..............................         120,030          14,552           4,295         323,994
----------------------------------------------------------------------------------------------------------------
\1\ Information Security Awareness and Privacy courses were separate. These were merged for 2009 and forward.
\2\ Through February 2010.

    In addition to the metrics presented above, USDA also uses AgLearn 
to deliver mandatory annual civil rights and cyber security training. 
AgLearn is USDA's official system of record for processing Standard 
Form (SF) 182, which allows USDA to track training requests and 
associated costs. In an average month in fiscal year 2009, nearly 2,000 
SF-182 forms were processed using AgLearn. This represents an increase 
of 100 percent over fiscal year 2008.
                            govbenefits.gov
    GovBenefits.gov provides a self-service tool for citizens to get 
information about agency benefit programs, which reduces the need for 
traditional channels such as call centers and mail. Citizens are able 
to search for program descriptions on GovBenefits and follow links to 
USDA Web pages where they can gather more information. The table below 
provides a summary of the number of USDA benefits programs listed on 
GovBenefits.gov, the number of times citizens viewed those benefits 
descriptions, and the number of referrals to USDA Web pages that 
resulted.

----------------------------------------------------------------------------------------------------------------
                                                                  Number of USDA
                                                                     benefits     Number of page     Number of
                           Fiscal year                              programs on        views       referrals to
                                                                    GovBenefits                   USDA Web pages
----------------------------------------------------------------------------------------------------------------
2008............................................................              34         650,000         109,000
2009............................................................              34       1,198,321         360,275
2010 (to date)..................................................              34         330,128         100,422
----------------------------------------------------------------------------------------------------------------

                               grants.gov
    Grants.gov provides a single location to publish grant (funding) 
opportunities and application packages, and provides a single site for 
the grants community to apply for grants using common forms, processes, 
and systems. Since May 2006, USDA has offered the option to apply 
electronically to 100 percent of its discretionary grants and 
cooperative agreements to applicants through the Web site. The number 
of unique grant opportunities posted by USDA varies by year, but 
customer usage (submission of electronic applications) has increased 
each year. The table below demonstrates this increase in usage from 
fiscal year 2007 through the present.

------------------------------------------------------------------------
                                             Number of       Number of
                                               grant        electronic
               Fiscal year                 opportunities    submissions
                                              posted         received
------------------------------------------------------------------------
2007....................................             144           6,614
2008....................................             143           7,821
2009....................................             136          10,786
2010 (to date)..........................              18           2,303
------------------------------------------------------------------------

                          recreation one-stop
    Recreation One-Stop consolidates information about Federal 
recreation areas from disparate sources (databases, Web sites, and 
publications) by standardizing data and interfacing recreation-related 
computer systems. The initiative provides information for planning 
visits to Federal recreation sites and making campground/tour 
reservations through a customer friendly recreation portal 
(Recreation.gov).
    The National Recreation Reservation Service gives the public a 
customer-friendly recreation portal (www.recreation.gov) with 
information for planning visits to thousands of Federal recreation 
sites.
    Information related to the public's use of the Recreation.gov Web 
site was requested from the Managing Partner, Department of the 
Interior. As of this response no statistic information has been 
received from the Managing Partner.
                          gao greenbook report
    Question. What has the Department done to comply with the 
recommendations included in the October, 2009, GAO report?
    Answer. The Greenbook Departmental Reimbursable Programs are 
operated for the general benefit of the Department and its agencies. 
The centralization of these programs avoids the duplication of efforts 
and costs that would otherwise be incurred if each of the USDA agencies 
tried to address these program needs on their own. As noted in USDA's 
comments on the GAO report, the Department has already taken steps to 
document and provide a more formal process for the annual budget 
review. USDA issued formal budget requirements for the fiscal year 2011 
Greenbook budget. The fiscal year 2011 Greenbook budget guidance 
provided specific requirements for performance measures and analysis of 
benefits of Greenbook activities. Based on the budget submissions, this 
is an area that will be developed more fully to measure the value of 
the individual activities to USDA and its agencies and Staff Offices.
    In 2009 an interagency review board was formed. The Deputy 
Assistant Secretary for Administration Management chaired the board. 
Consisting of representatives appointed by seven USDA mission area 
Under Secretaries, the board was charged with reviewing the fiscal year 
2011 budgets for the Greenbook reimbursable activities. Board members 
held a series of budget review meetings, in which reimbursable program 
managers presented their budget requests and responded to questions 
from board members. The board completed its review and submitted its 
recommendations via the Chief Financial Officer to the Assistant 
Secretary for Administration for use in making the final funding 
decisions.
    The Department plans to continue building on the progress that was 
made in 2009 in developing the Greenbook budgets. While working with 
its agencies, USDA will issue guidelines for decision-making related to 
activities added to or removed from the Greenbook. These guidelines 
will strengthen the oversight of the activities and require that 
decisions made during the budget process are documented.
                         office of civil rights
    Question. The Budget proposes to relegate the Office of the 
Assistant Secretary for Civil Rights to be absorbed within the Office 
of Civil Rights, as was directed as part of last year's Department 
reorganization. Given the high profile cases of civil rights that are 
still pending and the stated intent of the Department to reverse any 
history of discrimination at USDA, why did the USDA take this action 
which will leave the perception that ``civil rights'' is now being 
relegated to a position of lesser rank than the other Sub-Cabinet 
posts?
    Answer. As part of the reorganization of the staff offices and 
administrative services of the Department, numerous functions have been 
consolidated under the Assistant Secretary for Administration in an 
effort to improve the effectiveness and efficiency of the Department.
    The Office of the Assistant Secretary for Civil Rights has been 
realigned into Departmental Management in order to enhance civil rights 
leadership to USDA employees, applicants and customers and to provide 
more effective enforcement of civil rights programs. Including the 
Office of the Assistant Secretary for Civil Rights in the new 
Departmental Management will also improve necessary focus, 
communication, and coordination with the new Office of Advocacy and 
Outreach and the Office of Human Resource Management.
                       pending civil rights cases
    Question. Please provide information regarding the status of 
pending civil rights claims including the number of cases pending 
during the past two fiscal years, the number that have been closed 
during that period, and the number of new cases filed. Also, please 
indicate the Department's ability to manage and reduce the number of 
pending cases during fiscal year 2011.
    Answer. During fiscal year 2008, 1,264 new civil rights program 
claims were filed and 1,621 program claims were closed. As of September 
30, 2008, the Office of the Assistant Secretary for Civil Rights 
(OASCR) had a pending inventory of 806 program claims. During fiscal 
year 2009, 1,326 program claims were filed with OASCR and 1,079 program 
claims were closed, for a final inventory of 1,053 program claims.
    The Department has the ability to reduce the number of pending 
cases during fiscal year 2011. The OASCR's Programs Directorate has 
been staffed to manage the complaints that are less than 2 years old. 
The Civil Rights Program Complaints Task Force manages the inventory of 
complaints that are more than 2 years old. Under the reorganization, a 
Program Adjudication Division was formed and staffed with seven 
adjudicators; plans include hiring three more adjudicators. In 
addition, the Program Investigation Division staff has been increased 
from 5 to 15 investigators.
    Question. Please distinguish the status and categorization of the 
claims under Pigford II, Garcia, Keepseagle, and Love petitions.
    Answer. While there are distinctions in the legal posture of the 
large civil rights cases, the Department remains committed to resolving 
each of these important cases. The Justice Department has reached out 
to the plaintiffs in cases all of these cases regarding discussions 
towards a meaningful settlement process. The Secretary has repeatedly 
made clear that he is committed to resolving all of the large civil 
rights cases quickly and fairly as he believes it is time to move past 
this sad chapter of USDA's history so that USDA can focus on helping 
all farmers be successful.
    In Re Black Farmers Discrimination Litigation (Pigford II) is a 
collection of cases that were filed in the United States District Court 
for the District of Columbia by African American farmers or African 
Americans who allegedly attempted to farm pursuant to section 14012 of 
the 2008 farm bill. A settlement agreement was signed by the parties on 
February 18, 2010. The plaintiffs will file a motion for preliminary 
approval of the settlement agreement within the next 15-18 days. Also, 
funding for $1.15 billion needs to be secured.
    Marilyn Keepseagle, et al. v. Tom Vilsack, is pending in the U.S. 
District Court for the District of Columbia. To date, a class has been 
certified for injunctive relief. Discovery has been completed and there 
are several motions pending including a motion for class certification 
for economic damages. The litigation has been stayed pending settlement 
discussions between the parties. Guadalupe Garcia, et al. v. Tom 
Vilsack, and Rosemary Love, et al. v. Tom Vilsack, are also pending in 
the U.S. District Court for the District of Columbia. Attempts to 
certify these cases as class actions have been rejected by the courts 
including a recent denial of a writ of certiorari by the U.S. Supreme 
Court. The district court has stayed litigation pending settlement 
discussions between the parties.
    Question. In addition to the claims that are part of the Pigford II 
category, there are a number of similar claims by African American 
farmers (the so-called ``non-Pigford'' claims) that are not part of the 
negotiated settlement announced in February, 2010, but which still are 
requested some form of relief. Does the Department intend to pursue 
some settlement for these claims or support action by the Congress 
should legislation to provide relief move forward, or is it the opinion 
of the Department that these claims are without merit justifying 
further relief or settlement?
    Answer. The Department intends to address the ``non-Pigford'' 
claims. The Department has identified hundreds of potentially 
meritorious claims involving actions for which the 2-year statute of 
limitations (SOL) under the Equal Credit Opportunity Act has expired. 
The Department has developed a plan to resolve the complaints should 
Congress pass legislation extending the SOL.
                 departmental management reorganization
    Question. Last year, USDA executed a Departmental reorganization 
which, among other things, placed the Chief Information Officer (CIO) 
and the Chief Financial Officer (CFO) under the Office of the Assistant 
Secretary for Administration. Under current law, both the CIO and CFO 
are required to report directly to the Secretary of Agriculture. How 
have you determined that the reorganization is in compliance with 
current law when it, in fact, relegated these two offices to positions 
where they would not report directly to the Secretary?
    Answer. I charged the USDA staff offices with ensuring that all 
USDA mission areas are equipped to achieve optimal results in the most 
efficient and effective manner possible. By optimizing and streamlining 
the various operations, we can improve quality of services and 
communications, streamline processes and improve transparency to our 
customers. Ultimately, effective USDA management means effective 
results for taxpayers and the people USDA serves.
    Prior to reorganization the USDA Office of General Counsel (OGC) 
reviewed the proposed reporting relationships. OGC stated that the 
Chief Financial Officers Act only requires that the CFO ``report 
directly to the head of the agency regarding financial matters, not for 
all purposes.'' Accordingly, we believe that the requirements of the 
CFO Act may be met, consistent with the proposed organizational chart, 
as long as the CFO is given periodic opportunities to brief the 
Secretary on internal controls, budget execution and financial systems 
improvement projects. Similarly OGC stated that they find no legal 
impediment in the Clinger-Cohen act to having the CIO report to the 
Assistant Secretary for Administration, as long as he is given periodic 
opportunities to brief the Secretary directly on information resources 
management projects.
                   consolidation of gsa leased space
    Question. In fiscal year 2010, $6,342,000 was provided as one-time 
cost for consolidation of GSA leased space. Please provide the status 
of this consolidation.
    Answer. GSA awarded the lease on behalf of USDA on November 12, 
2009. The new leased facility, Patriots Plaza III, is located at 355 E 
St., SW, Washington, DC. This is a newly constructed building that 
requires build out and furnishing before USDA takes occupancy.
    With GSA as the lead USDA is currently completing its final review 
of conceptual space plans and build out requirements. Final plans will 
be complete by the end of the 2nd quarter, fiscal year 2010. Final 
drawings for the space layout are expected to be complete by the 3rd 
quarter, fiscal year 2010. Build out of the space is expected to 
complete by the 2nd quarter, fiscal year 2011.
    USDA plans to complete all moves to the new facility by the 3rd 
quarter, fiscal year 2011. This meets the time lines originally 
scheduled for the lease consolidation project.
                        global research alliance
    Question. I understand the United States has been working with 
other members of the Food and Agriculture Organization to coordinate 
agricultural research through a so-called Global Research Alliance, 
with a focus on the needs in developing countries struggling to become 
food secure and to address the challenges of climate change. Please 
provide the status on the creation of this international collaboration 
on research, including the structure and governing principles of the 
research effort. Please identify the countries involved and those that 
have pledged financial support to carry out this initiative.
    Answer. The Global Research Alliance (GRA) was proposed in 
September 2009, by New Zealand and has been under development in 
partnership with the United States and other countries since then. At 
the United Nations Climate Change Conference in Copenhagen in December 
2009, 21 countries endorsed a joint Ministerial Statement on the 
Establishment of a GRA on Agricultural Greenhouse Gases. This statement 
notes the following points: Agriculture plays a vital role in food 
security, poverty reduction and sustainable development; the 
agricultural sector is particularly vulnerable to climate change 
impacts and faces challenges in meeting the world's increasing food 
demands; the agricultural sector contributes about 14 percent of global 
greenhouse gas emissions but has opportunities to contribute to 
emissions reductions and carbon sequestration; agriculture could reduce 
greenhouse gas emissions and increase carbon sequestration by improving 
agricultural systems' efficiency and productivity; and that underlining 
the need for food security, the GRA is established to help reduce 
greenhouse gas emissions intensity, increase soil carbon sequestration 
and contribute to overall mitigation. The statement further asserts 
that the GRA seeks to understand greenhouse gas emissions from 
agriculture, improve measurement and estimation of greenhouse gas 
emissions and carbon sequestration, develop ways to reduce emissions 
and increase carbon sequestration, mitigate greenhouse gases while 
sustaining or enhancing productivity and resilience as climate changes, 
transfer new knowledge and technology to farmers and land managers 
worldwide, and build scientific capacity in developing countries via 
partnerships.
    The structure and governing principles of the GRA are still not 
established and are currently under discussion among the member 
countries. On April 7-9, 2010, senior government officials representing 
countries that have endorsed the Copenhagen Ministerial Statement will 
meet in Wellington, New Zealand to create a roadmap to guide the first 
12-month goals of this alliance, with specific objectives to agree on 
structure and governance principles, agree on principles for the 
functioning of scientific research groups, identify elements to go into 
a draft charter, and agree on future meetings. A government team with 
representatives from various USDA agencies is currently developing the 
U.S. position on issues to be discussed at the April meeting in New 
Zealand.
    Countries that have endorsed the creation of the GRA are: 
Argentina, Australia, Canada, Chile, Colombia, Denmark, France, 
Germany, Ghana, India, Indonesia, Ireland, Japan, Malaysia, Mexico, 
Netherlands, New Zealand, Norway, Peru, Spain, Sweden, Switzerland, 
United Kingdom, United States, Uruguay, and Vietnam. Canada, New 
Zealand, and the United States have pledged financial support.
      legislative authority for administrative data pilot project
    Question. Does ERS currently have the legislative authority to 
undertake the proposed Administrative Data Pilot projects, in lieu of 
the legal obstacles that currently exist?
    Answer. Yes, ERS has the legislative authority to undertake the 
proposed Administrative Data Pilot project. As a principal statistical 
Agency, ERS' mission includes the collection and analysis of a variety 
of data for statistical purposes. This pilot project is part of a 
cross-cutting initiative sponsored and developed by the Interagency 
Council on Statistical Policy (ICSP). [The ICSP is chaired by OMB's 
Chief Statistician and has the heads of the 13 principal statistical 
agencies as its members. The ICSP serves as an opportunity for 
information exchange between agencies and as a mechanism for agencies 
to participate in shared activities.]
    The other lead agencies, with whom ERS has a tradition of 
partnering, are the U.S. Bureau of the Census (Census) and the National 
Center for Health Statistics (NCHS), who have explicit authorities to 
acquire and use administrative records for statistical purposes. ERS' 
contribution to this proposed partnership includes subject matter 
expertise, a strong connection to the research community whose 
expertise we likely will want to employ, and a strong connection to 
USDA policy agencies that would benefit from the substantive results of 
the project.
    Question. Has ERS worked with other government agencies in 
preparation for the Administrative Data Pilot Projects to ensure, that 
if funded, there will be appropriate participation to determine their 
effectiveness?
    Answer. This pilot is part of a cross-cutting initiative sponsored 
and developed by the Interagency Council on Statistical Policy (ICSP). 
ERS, the National Center for Health Statistics (NCHS), and Census will 
collaborate on the initiative. Census will develop the infrastructure 
for ERS to study the health and nutrition outcomes for low-income 
households participating in food assistance programs and for NCHS to 
examine the relationships between health, and Medicare and Medicaid 
enrollments. ERS is already collaborating with NCHS and the Census on 
other data-linkage activities.
    Question. Is it anticipated that the main Federal agencies 
participating in the Administrative Data Pilot Projects will be USDA 
agencies? What other main Departments and Agencies are expected to 
participate?
    Answer. Through collaboration with the Interagency Council on 
Statistical Policy (ICSP), of which the National Agricultural 
Statistical Service is also a member, the project will benefit the 
entire Federal statistical system by addressing some long-standing 
barriers to greater incorporation of administrative data in statistical 
programs. Another USDA agency that will likely participate in the 
proposed project is the Food and Nutrition Service, which administers 
USDA's domestic nutrition assistance programs and through which 
administrative data would be solicited.
  funding for the statistical community of practice (scop) initiative
    Question. How was the funding request level determined for the 
Statistical Community of Practice (SCOP) proposal?
    Answer. SCOP is one of two cross-cutting initiatives in the 
President's fiscal year 2011 budget to support the Federal statistical 
system. These costs were based upon current costs for similar 
activities that are ongoing in individual statistical agencies. The 
funding request represents the combined costs of staffing a SCOP 
project management office at ERS that will be responsible for providing 
statistical system-wide support to build a platform to pilot cloud 
access to publicly available data, acquire software for interagency 
group purchases, support and manage the individual SCOP projects, and 
manage and maintain FEDSTATS, the dissemination platform for SCOP. Each 
individual SCOP project will be led by a representative from one of the 
Federal statistical agencies and staffed by representatives from other 
interested agencies. Those agencies will contribute financially if 
there are costs specific to the project (e.g., the purchase of 
software). However, there will be the need for support for background 
research and in some cases for the evaluation of existing software and 
the adaptation or development of new software to meet the needs of 
specific aspects of data collection, processing, and/or dissemination. 
The goal is to identify and/or develop Government-owned solutions that 
can be shared across the Federal statistical system, resulting in cost 
savings, process efficiencies and improvements across the survey life 
cycle.
    Question. Since the SCOP will be voluntary and self-selected, how 
will ERS recruit participants?
    Answer. Since the initiative is the product of work sponsored by 
the Interagency Council on Statistical Policy (ICSP), the initial 
participants will come from that community. The ICSP is chaired by 
OMB's Chief Statistician and includes the heads of 13 principal 
statistical agencies. The ICSP sponsors information exchange among the 
agencies and serves as a mechanism for the agencies to participate in 
shared activities. Members of the SCOP task force have met several 
times during the development of SCOP to brief the ICSP members on 
progress, to receive feedback from them, and to request formal 
participation from interested agencies. The ICSP is expected to serve 
as the Governing Board for SCOP. A number of the specific projects 
proposed for SCOP were a direct result of a strategic planning activity 
conducted by the ICSP. In addition, statistical data quality expertise 
will be channeled through SCOP to support the Data.gov effort within 
OMB. All statistical agencies will share in the benefits of SCOP 
project deliverables, e.g., analytical software tools.
    Question. Are there other statistical agencies within the 
government participating in this effort? If so, is ERS the lead agency?
    Answer. Under the guidance of the Interagency Council on 
Statistical Policy (ICSP), the ERS CIO has been working with an 
interagency task force that includes representatives from the OMB 
Statistical and Science Policy Office and 9 of the 12 other principal 
Federal statistical agencies. These include the Bureau of Economic 
Analysis, the Bureau of Justice Statistics, the Bureau of Labor 
Statistics, the Census Bureau, the Energy Information Administration, 
the National Agricultural Statistics Service (NASS), the National 
Center for Education Statistics (NCES), the National Center for Health 
Statistics (NCHS), and the Statistics of Income Division at IRS. The 
ERS CIO is the project lead; as such he has also met with senior staff 
in the OMB E-gov program to ensure that the required documentation is 
available for SCOP to acquire E-gov recognition as a recognized Line of 
Business. Five statistical agencies have officially signed on to be 
active participants in SCOP (Census, ERS, NASS, NCES and NCHS); based 
on feedback from other agencies, we fully expect the list to grow.
duration of the national household food purchase and acquisition survey
    Question. How long is it anticipated that the National Household 
Food Purchase and Acquisition Survey will take to complete?
    Answer. The National Household Food Purchase and Acquisition Survey 
(FoodAPS) is being planned and executed over several years. The 
contract to carry out a pilot survey was awarded in September 2009. A 
full scale survey would be carried out over fiscal year 2011 and 2012. 
Resultant data will be used to understand the determinants of food 
purchases and acquisitions. The proposed Community Access to Local 
Foods Initiative will build on this data collection effort to fund data 
development and to provide staff to carry out research and evaluation 
using the data. The initiative supports research to understand how the 
local food environment influences acquisitions of healthy food in low-
income households. It will provide the baseline for monitoring the 
outcomes of policies and programs such as the Healthy Food Financing 
Initiative.
    Question. Is this survey anticipated to be a one-time event, or 
something that will be continually updated?
    Answer. The FoodAPS survey will be a recurring data investment. 
Currently, the Federal Statistical Agencies do not collect detailed 
price and quantity for food purchases and acquisitions. This survey is 
designed to address that gap. The initiative will also support on-going 
research on Community Access.
    Question. Will the funding request fully fund the survey, or will 
there be additional dollars required in future years?
    Answer. The initiative should not require increased levels of 
annual funding over the foreseeable future.
                national agricultural statistics service
    Question. Will the NASS annual county estimates program funding 
increase be used at all to fund third-party work, for example, to 
continue State or local cooperative agreements?
    Answer. A vast majority of the funding will be used to fully 
implement a probability based survey design, for improved data 
collection follow-up. This data collection is conducted through an 
agreement with the National Association of State Departments of 
Agriculture (NASDA). NASDA employs over 3,000 local interviewers who 
collect virtually all of the data used for NASS estimates.
    Question. How long will it take NASS to develop the rotational 
organic agriculture data series, if funding is provided?
    Answer. The requested funding would allow NASS to implement a 3-
year rotational organic agriculture data series. Planning and 
preparation of the survey would take place the first year; the data 
would be collected in the second year; and analysis and publication 
would be done in the third year.
    Question. How much funding at NASS is currently being used to 
gather data on organic agriculture?
    Answer. The 2008 farm bill provided $1 million in mandatory 
funding, and provided the basis for the initial 2008 Organic Production 
Survey, which was conducted in fiscal year 2009. An additional $250,000 
was appropriated in fiscal year 2010 to aid in completing analysis and 
publication of this new data series. The additional request in fiscal 
year 2011 will provide a total of $750,000 annually for organic 
agriculture statistics and allow NASS to conduct an organic agriculture 
survey on a 3-year cycle.
    Question. If the TOTAL survey has been inactive since 1998, but 
funds have remained in the budget to fund it, as evidenced by their 
proposed elimination this year, what has NASS been doing with these 
funds?
    Answer. The TOTAL survey is funded under the Census of Agriculture. 
This is a cyclical funding source which varies by year and only 
includes the necessary appropriations to complete the cyclical 
activities for that fiscal year. The cyclical activities include such 
items as the planning, conducting, analysis, and summary of the 
quinquennial Census of Agriculture and associated follow-on studies. 
The $4.0 million reduction in fiscal year 2011 are the funds that would 
have been used to conduct the TOTAL survey.
    Question. What effect will the elimination of any activities 
described above have on NASS?
    Answer. A comprehensive review was completed to determine the 
priority of each survey within the overall existing program. Eliminated 
programs were identified as lower priority items which could offset 
requested funding in support of higher priority administration goals.
                   congressionally directed spending
    Question. Please provide a list of all congressionally directed 
spending in fiscal year 2010, including gross to location and net to 
location. Please provide detailed information on how any funding beyond 
a 10 percent difference was used, by project.
    Answer. There are no funding differences beyond 10 percent. The 
information is submitted for the record.
    [The information follows:]

------------------------------------------------------------------------
    Congressionally directed project       Gross amount     NTL amount
------------------------------------------------------------------------
Animal Vaccines, Greenport, NY..........      $1,518,000      $1,366,200
Aquaculture Fisheries Center, Stuttgart,         519,000         467,100
 AR.....................................
Aquaculture Initiatives, Harbor Branch         1,597,000       1,437,300
 Oceanographic Institute, Stuttgart, AR.
Arthropod-Borne Animal Diseases Research       1,500,000       1,350,000
 Laboratory, Manhattan, KS..............
Biomass Crop Production, Brookings, SD..       1,250,000       1,125,000
Biomedical Materials in Plants,                1,700,000       1,530,000
 Beltsville, MD.........................
Bioremediation Research, Beltsville, MD.         111,000          99,900
Biotechnology Research and Development         3,500,000       3,150,000
 Center, Headquarters...................
Catfish Genome, Auburn, AL..............         819,000         737,100
Center for Agroforestry, Booneville, AR.         660,000         594,000
Cereal Disease, St. Paul, MN............         290,000         261,000
Computer Vision Engineer, Kearneysville,         400,000         360,000
 WV.....................................
Crop Production and Food Processing,             786,000         707,400
 Peoria, IL.............................
Dairy Forage Research Center, Madison,         2,500,000       2,250,000
 WI.....................................
Dale Bumpers Small Farms Research              1,805,000       1,624,500
 Center, Booneville, AR.................
Diet Nutrition and Obesity Research, New         623,000         560,700
 Orleans, LA............................
Endophyte Research, Booneville, AR......         994,000         894,600
Forage Crop Stress Tolerance and Virus           200,000         180,000
 Disease Management, Prosser, WA........
Formosan Subterranean Termites Research,       3,490,000       3,217,590
 New Orleans, LA........................
Foundry Sand By-Products Utilization,            638,000         574,200
 Beltsville, MD.........................
Human Nutrition Research, Boston, MA....         350,000         315,000
Human Nutrition Research, Houston, TX...         300,000         270,000
Improved Crop Production Practices,            1,293,000       1,163,700
 Auburn, AL.............................
Livestock-Crop Rotation Management,              349,000         314,100
 University Park, PA....................
Lyme Disease, 4 Poster Project,                  700,000         630,000
 Headquarters...........................
Medicinal and Bioactive Crops,                   111,000          99,900
 Washington, DC.........................
Mosquito Trapping Research/West Nile           1,454,000       1,308,600
 Virus, Gainesville, FL.................
National Bio and Agro Defense Facility,        1,500,000       1,350,000
 Manhattan, KS..........................
National Center for Agricultural Law,            654,000         588,600
 Beltsville, MD (NAL)...................
National Corn to Ethanol Research Pilot          360,000         324,000
 Plant, Headquarters....................
North Carolina Human Nutrition Center,         1,000,000         900,000
 Headquarters...........................
Northern Great Plains Research                   543,000         488,700
 Laboratory, Mandan, ND.................
Northwest Center for Small Fruits,               275,000         247,500
 Headquarters...........................
Pacific Basin Agricultural Research              700,000         630,000
 Center Staffing, Hilo, HI..............
Phytoestrogen Research, New Orleans, LA.       1,750,000       1,575,000
Potato Diseases, Beltsville, MD.........          61,000          54,900
Poultry Diseases, Beltsville, MD........         408,000         367,200
Seismic & Acoustic Technologies in Soils         332,000         298,800
 Sedimentation Laboratory, Oxford, MS...
Sorghum Research, Little Rock, AR.......         135,000         121,500
Soybean Genomics, St. Paul, MN..........         200,000         180,000
Subtropical Beef Germplasm, Brooksville,       1,033,000         929,700
 FL.....................................
Termite Species in Hawaii, New Orleans,          200,000         180,000
 LA.....................................
Tropical Aquaculture Feeds, Oceanic            1,438,000       1,294,200
 Institute, Hilo, HI....................
Water Management Research Laboratory,            340,000         306,000
 Brawley, CA............................
Water Use Reduction, Dawson, GA.........       1,200,000       1,080,000
Wild Rice, St. Paul, MN.................         303,000         272,700
------------------------------------------------------------------------

                           greenbook charges
    Question. Please provide a list of all Greenbook charges assessed 
to ARS during fiscal years 2009 and 2010. From where did the funding 
come to pay for these charges?
    Answer. These costs are funded from a 10 percent indirect cost 
assessment to cover administrative and program management costs 
associated with conducting nationwide research programs and funds set 
aside from lapsed salaries within the agency. The final determination 
of the Greenbook charges for fiscal year 2010 has not been completed. 
The fiscal year 2009 information is submitted for the record.
    [The information follows:]

                     ARS FISCAL YEAR 2009 GREENBOOK
------------------------------------------------------------------------
                     Agency programs                       Amount funded
------------------------------------------------------------------------
U.S. Postal Service Mail Postal Code P005...............        $255,000
Unemployment Compensation \1\...........................         427,000
Workers Compensation \1\................................       3,592,506
Transit Subsidy.........................................         430,204
National Archives Records System........................          78,521
GSA HSPD-12 Lincpass Maintenance........................         142,088
OPM Federal Employment and Administrative Law Judges              41,793
 Service................................................
Consolidated Fed Funds Report and Fed Audit                       11,520
 Clearinghouse..........................................
Small Business Certification............................           1,505
FEMA Emergency Preparedness.............................          19,087
Government-wide Council Activities......................          43,137
Flexible Spending Accounts FSAFEDS......................         158,599
E-Gov Initiatives.......................................         585,438
USDA Tribal Liaison.....................................             915
Advisory Committee Liaison Services.....................          15,919
Faith-Based Initiatives & Neighborhood Partnerships.....          22,126
Hispanic-Serving Institutions National Program..........         118,168
1890 USDA Initiatives...................................         198,721
USDA 1994 Program.......................................          47,529
Diversity Council.......................................          42,039
Visitors Center.........................................          21,962
Honor Awards............................................           6,556
TARGET Center...........................................          75,965
Drug Testing Program....................................           1,900
Sign Language Interpreter Services......................          18,930
Sign Language Interpreter Agency Specific Service \1\...          43,616
Emergency Operations Center.............................         180,693
Labor and Employee Relations Case Tracking and Reporting           5,900
 System.................................................
Continuity of Operations Planning.......................         149,144
Personnel and Document Security.........................         143,347
Federal Biobased Products Preferred Procurement Program.          28,681
Radiation Safety \1\....................................         624,704
Retirement Processor Web Application....................          27,698
Preauthorized Funding...................................         213,062
Financial Management Improvement Initiative.............         250,660
E-Gov Initiatives--HSPD12...............................       1,047,528
E-Gov Initiatives--Content Management...................          75,198
Enterprise Network Messaging............................         345,827
USDA Enterprise Contingency Planning Program............          44,116
USDA IT Infrastructure Security.........................         150,396
E-Gov Enablers-Cyber Security...........................          79,860
                                                         ---------------
      Total.............................................       9,767,558
------------------------------------------------------------------------
\1\ Cost centers assessed based on actual usage.

                        ars administrative costs
    Question. Has ARS considered the possibility of including a general 
fund to pay for all administrative costs and estimated Greenbook 
charges? If not, what concerns would ARS have with such a proposal?
    Answer. No, ARS has not considered the possibility of including a 
general fund for all administrative and program management costs and 
estimated Greenbook and Working Capital charges. ARS assesses 10 
percent on any program increases appropriated to the agency to finance 
administrative and program management costs associated with conducting 
nationwide research programs. This way of budgeting accounts for the 
full cost of running the program, ensuring transparency and 
accountability. In addition to diminishing full cost account and 
transparency, a centralized administrative expenses account may not 
accurately reflect the cost of administering the program. Costs 
associated with the Greenbook and Working Capital Fund are not 
finalized until after the beginning of the fiscal year.
                        classical plant breeding
    Question. What level of ARS funding is used for classical plant 
breeding research?
    Answer. The ARS funding for classical plant breeding research for 
fiscal year 2010 is $74,193,800.
                            organic research
    Question. What level of ARS funding is used for organic research?
    Answer. In fiscal year 2010, ARS invested $17,234,600 in research 
that directly addresses organic agriculture problems. The ARS 
investment in research that does not have specific organic agriculture 
research objectives but which indirectly benefits the organic industry 
is $40,951,300.
                 regional biofuels feedstocks research
    Question. What are the proposed locations of the Regional Biofuels 
Feedstocks Research and Demonstration Centers? How were those locations 
chosen?
    Answer. The five proposed Regional Biomass Research and Development 
Centers will be research networks within the following five agro-eco 
regions:
    Southeast--spans the Southern Coastal Plains and Piedmont areas 
(includes FL, GA, SC, AL, MS, LA, AR, NC, TN, KY, eastern TX, and HI);
    Central-Eastern--covers the Mid-Atlantic, Midwest and eastern Great 
Plaines (includes NE, ND, SD, KS, OK, MN, IA, MO, WI, IL, MI, IN, OH, 
KY, TN, PA, DE, MD, and VA);
    Northern-Eastern--spans the Northern Coastal Plains (includes MN, 
WI, MI, NY, VT, NH, ME, MA, CT, RI, PA, OH, DE, MD, and WV);
    Western--spans the relatively dry Southwest and Western States (NM, 
AZ, CA, NV, UT, CO, MT, WY, ID, and western TX);
    Northwestern--encompasses the Northwest and northern Great Plaines 
(includes WA, OR, ID, MT, eastern CO, WY, CA, AK, and western ND and 
SD).
    Each Regional Center will be composed of a network of ARS and 
Forest Service laboratories, scientists, and their partners within that 
region. Each of the centers will be organized in a ``hub'' and 
``spoke'' fashion with at least one ``hub'' and many ``spokes'', all of 
which contribute to the Regional Center's performance. ``Hubs''--single 
laboratories within Regional Centers will help to coordinate the 
Center's work and relationships so as to maximize effectiveness and 
prevent duplication of efforts. These hubs were chosen based on the 
expertise each possesses for regionally adapted bioenergy feedstocks 
and the kinds of agricultural production systems suited to that region.
                            world food prize
    Question. What amount of funding is in ARS's base budget for the 
World Food Prize? What reasoning is provided for ARS being the USDA 
lead agency to support this Foundation?
    Specifically, how was this amount determined and for what will it 
be used? Since the World Food Prize is related to international food 
security, do you believe it would be better suited within the Foreign 
Agricultural Service?
    Answer. Presently, there are no funds in the ARS base budget to 
support the World Food Prize Foundation (WFP). Conference Report 109-
255, accompanying the Agriculture, Rural Development, Food and Drug 
Administration, and Related Agencies Appropriations Bill for fiscal 
year 2006, directed the Secretary to report ways in which the 
Department can participate in support of WFP and appropriated $350,000 
for such efforts. In response to the directive, the Secretary 
designated ARS to support and partner with WFP and transferred the 
$350,000 appropriated for these efforts to ARS. No funding was 
appropriated in subsequent years for support of WFP.
    The fiscal year 2011 budget, request for $750,000 builds upon the 
established relationship with ARS and the World Food Prize Foundation 
to relieve world hunger. The proposed funding will be used to support 
activities such as travel costs for distinguished participants; 
preparation of publications, brochures, and other materials; 
participation of students and teachers in the Youth Institute; and 
related staff and administrative support costs.
                agriculture and food research initiative
    Question. Please provide a specific list of all research 
initiatives and funding goals for those initiatives proposed within the 
Agriculture and Food Research Initiative (AFRI), including those within 
base funding.
    Answer. The information is submitted for the record.
    [The information follows:]

------------------------------------------------------------------------
                                                            Fiscal year
                                                               2011
                       Initiative                           President's
                                                              budget
                                                             proposal
------------------------------------------------------------------------
Childhood Obesity Prevention plus Improving National         $74,908,900
 Nutrition and Health...................................
Sustainable Bioenergy...................................      73,272,600
Global Food Security....................................      28,309,040
Food Safety.............................................      39,963,000
Global Climate Change...................................     104,909,000
Foundational Programs Listed Below:
    Plant Health and Production and Plant Products--          35,000,000
     Including Colony Collapse Disorder of Honey  Bees..
    Animal Health and Production and Animal Products--        30,000,000
     Animal Health and Production.......................
    Food Safety, Nutrition, and Health..................       6,000,000
    Renewable Energy, Natural Resources, and Environment      11,482,460
    Agriculture Systems and Technology..................      10,000,000
    Agriculture Economics and Rural Communities--             15,000,000
     Economics of Markets and Agricultural Prosperity
     for Small and Medium-sized Farms...................
                                                         ---------------
        Total...........................................     428,845,000
------------------------------------------------------------------------

    Question. Is there any assurance that research programs that have 
been eliminated in the budget, with the justification that they will be 
included in the proposed AFRI increase, will be protected at the levels 
they currently receive?
    Answer. While the specific section 406 funding mechanism and 
programs are not part of the 2011 budget request, AFRI will continue to 
emphasize food safety and climate change (include water issues). In 
addition, research and education supporting organic agriculture is 
conducted through a mandatory funded grants program, and expanded 
Sustainable Agriculture Research and Education activities. I will have 
NIFA provide additional details for the record.
    [The information follows:]
    Water issues will be addressed in multiple Challenge Area programs. 
Impacts on water use, distribution, quality and quantity will be 
addressed in the Bioenergy, Global Climate Change, and Global Food 
Security integrated and research program. Especially important is the 
usage of water for the expanded bioenergy crop production and continued 
availability of high quality water for food production. Basic research 
will continue through the Agricultural Water Science Foundation program 
also. The fiscal year 2010 funding for Water Quality was $12,649,000. 
The AFRI programs for the three Challenge Areas will increase funding 
by over $96 million.
    The AFRI Food Safety Challenge Area Program will continue to 
provide funding for research, education, and extension efforts to 
improve the safety of the U.S. food supply through new and improved 
rapid detection methods, epidemiological studies, and improved food 
harvesting and processing technologies. Several basic research programs 
will address issues related to plant diseases and pathogen 
interactions, animal health, and the use of nanotechnology use to 
ensure food safety. The Food Safety Area will increase funding by 
$19,963,560. The section 406 Food Safety funding in fiscal year 2010 
was $14,596,000.
    The application of Integrated Pest Management will be a focus in 
the Global Food Security Challenge programs looking at a system 
approach in pest management and expand to potential partnerships with 
other agencies addressing appropriate national and international 
application of IPM principles and practices. Section 406 related IPM 
funding for fiscal year 2010 was $12,903,000. Foundational Pest and 
Beneficial Insects in Plant Systems Foundation program funding is at $6 
million and the Global Food Security Challenge IPM program area is at 
$5 million and an increase in the Global Food Security Challenge area 
of over $13 million.
    Organic agricultural production and management systems have been 
and will continue to be supported through many of the AFRI programs. 
Basic research through the Small and Medium-Sized Farms and Rural 
Communities and Economics of markets and Development programs can 
support research on the expansion of organic agriculture with a focus 
related to land use and economics of rural communities. The Global Food 
Security Challenge Programs can support integrated efforts both 
nationally and related to international food security issues. Since 
many organic producers market locally, regional food security efforts 
may be researched to address ``food deserts''. The Nutrition and Health 
Challenge programs address behavioral factors that can address 
providing highly nutritious food especially to children and could 
include improvements in nutritional value in organic crops. Section 406 
Organic Transition Program funding in fiscal year 2010 was $5 million. 
Potential related funds from AFRI from the two Foundational Programs 
are $10 million and $5 million from the Global Food Security Challenge 
Program.
secondary education, 2-year postsecondary education, and agriculture in 
                           the k-12 classroom
    Question. What level of funding requests was received by USDA for 
Secondary Education, 2-Year Postsecondary Education, and Agriculture in 
the K-12 Classroom (SPECA) grants in fiscal year 2009 and 2010?
    Answer. USDA received requests for Secondary Education, 2-Year 
Postsecondary Education, and Agriculture in the K-12 Classroom (SPECA) 
grants totaling $2,986,906 in fiscal year 2009 and $2,434,403 in fiscal 
year 2010.
             higher education institution challenges grants
    Question. What level of funding requests was received by USDA for 
Higher Education Institution Challenges Grants in fiscal year 2009 and 
2010?
    Answer. USDA received requests for Higher Education Institution 
Challenge grants totaling $15,205,883 in fiscal year 2009 and 
$20,600,489 in fiscal year 2010.
                 food emergency response network (fern)
    Question. The FSIS budget proposes to decrease funding for FERN 
laboratories, but the FDA budget restates the importance of these 
laboratories. Did FSIS consult with FDA in making this budget decision, 
and how do the two agencies work together on this initiative?
    Answer. No, the Department did not consult with FDA prior to making 
this budget decision. However, we continue to work closely with FDA to 
further develop and manage FERN. FSIS has primary responsibility for 
funding and overseeing Cooperative Agreements with non-Federal 
laboratories that assist FERN in building surge capacity for responding 
to microbiological foodborne emergencies, while FDA supports 
Cooperative Agreement activities related to chemical and radiological 
emergencies. Joint activities include laboratory training, proficiency 
testing, surveillance testing, method validation studies, and 
coordination of responses to exercises and events. We have made 
considerable investment in the States in building capacity to respond 
to foodborne emergencies through its Cooperative Agreements. The level 
proposed for Cooperative Agreements in fiscal year 2011 is the same as 
for fiscal year 2009.
    For the fiscal year 2011 President's budget, the administration is 
proposing to redirect FSIS funding from FERN in order to offset costs 
to support one of the key findings of the President's Food Safety 
Working Group which is to develop more timely estimates of pathogen 
prevalence. This $10 million increase above the fiscal year 2010 level 
will allow FSIS to improve surveillance of foodborne pathogens of 
human-health concern in FSIS-regulated products through significant 
expansion of Hazard Analysis and Critical Control Point regulatory 
sampling, and conducting an additional traditional baseline study. 
Accurate, timely prevalence estimates for pathogens are critical for 
evaluation of existing prevention policies and the development of new 
regulatory strategies.
                      interstate shipment program
    Question. Please provide an update on the status of the FSIS State 
Meat Inspection rule.
    Answer. The Department is working to implement the farm bill 
provision to allow the interstate shipment of meat and poultry products 
for certain small and very small establishments. The proposed rule was 
published in the Federal Register on September 16, 2009.
    The Department held two public teleconference meetings on the 
proposed regulations, on October 27 and November 5, 2009, and accepted 
public comments on the proposed rule through December 16, 2009. We are 
taking into consideration these public comments and will then move 
forward with the final rule.
                       fsis salaries and expenses
    Question. Will the budget adequately fund all FSIS pay costs, 
including required within grade increases, benefits, and other required 
salary increases? If not, what amount is necessary to ensure that the 
salaries of FSIS employees are fully covered?
    Answer. The President's fiscal year 2011 budget fully funds FSIS 
salary needs including funding for continuation of inspection 
operations without interruption. I am committed to ensuring that we 
have the staffing, the training, the lab support, oversight and other 
resources that are necessary to ensure the safety of the food supply.
                            humane slaughter
    Question. The Committee has received a proposal to redirect funding 
previously set aside for Humane Animal Tracking in order to fund a 
position whose sole responsibility will be to oversee FSIS efforts on 
enforcement of the Humane Methods of Slaughter Act. Has FSIS considered 
this and what would the cost of such a position be? Further, the 
Committee has received a request to fund a specific team of FSIS 
employees whose job description would require them to perform 
undercover investigations of slaughter facilities to ensure compliance 
with the Humane Methods of Slaughter Act. Again, is this something FSIS 
has considered, and what would the approximate cost be?
    Answer. The Department has funded a position whose primary 
responsibility will be to oversee FSIS efforts on enforcement of the 
Humane Methods of Slaughter Act. FSIS used the additional $2 million 
provided in fiscal year 2009 for 24 additional positions to further 
boost its humane handling oversight and verification inspection 
activities. One of these positions is a headquarters-based Humane 
Handling Coordinator, whose primary responsibility will be to provide 
consistent oversight of field-level humane handling activities. The 
other 23 positions--5 PHVs, 1 Supervisory Consumer Safety Inspector, 13 
Consumer Safety Inspectors, and 4 Food Inspectors--were assigned to 
specific plants where the employee will conduct on-line or off-line 
activities. As of March 14, 2010, 22 of these positions had been 
filled, including the Humane Handling Coordinator position, and 2 were 
still in the hiring process.
    We've recently become aware of the suggestion for an undercover 
investigative team and have not yet estimated the cost for such a team. 
Since the events at the Hallmark/Westland establishment in 2008, FSIS 
has made numerous efforts to strengthen and improve its verification 
and enforcement related to the Humane Methods of Slaughter Act. FSIS 
conducted covert humane slaughter surveillance operations in nine 
establishments across the United States within 4 months of the Humane 
Society's Hallmark/Westland video release and determined that all of 
these establishments were in compliance. FSIS can conduct covert 
surveillance operations under existing surveillance and investigation 
allocations. Moreover, FSIS instructed PHVs and other inspection 
program personnel to vary from day-to-day the time during their tour of 
duty that they perform their activities to verify that animals are 
treated humanely. In April 2009, FSIS issued Notice 21-09, which 
reminded inspection program personnel to conduct humane handling 
activities randomly throughout their shift.
            public health data communication infrastructure
    Question. Is the funding requested for the Public Health Data 
Communication Infrastructure Funding one-time funding, or will 
additional investments be required in immediate outyears?
    Answer. Reliable connectivity to information systems and 
applications is critical to the accomplishment of FSIS' inspection, 
investigative, and food defense responsibilities. The backbone that 
underpins these systems and applications must be expanded to support 
the increased requirements of PHIS in both the installed base and for 
additional users. Provision of additional telecommunications support 
will subsume $2.3 million of the $8.0 million requested. These are on-
going costs.
    In addition, the Agency will spend an additional $5.7 million to 
support the on-going costs for the migration to and operation of the 
Department's two Enterprise Data Centers (EDCs). These costs will 
increase as PHIS is brought on-line. Front-line personnel will benefit 
from the increase in the number of centralized mission critical 
applications available under the EDCs. Interoperability of Agency 
systems with other governmental and non-governmental systems will also 
increase demand for EDC-hosted applications, which will in turn, 
increase the Agency's costs for support of those systems. While the 
Agency has received additional funding for the EDCs in fiscal year 2010 
and 2011, the Agency's contribution to the overall EDC support will 
rise as we move from the implementation to the maintenance and 
operations phase with increased user demand. The requested funds are 
therefore intended to be a baseline increase.
    The third major element is to increase the number of FSIS employees 
with daily access to computers. The request includes $5 million to 
purchase 3,600 computers, as part of a longer-term plan to move towards 
one-computer per employee. Much of the agency's frontline workforce is 
highly mobile, making it difficult to share computers across multiple 
sites when access to real-time applications are required. Likewise, the 
agency has not had the systematic ability to turnover computers at the 
work sites of its existing computer users, to enhance workforce 
productivity. Shortening technology lifecycles and the increasing 
complexity of FSIS applications has led to an agency-wide computer 
strategy that includes both increasing the installed base and 
refreshing the computers to the existing users. The requested funds are 
therefore intended to be a baseline increase to support the agency's 
over 10,000 employees and partners.
                              cost sharing
    Question. Many APHIS programs ensure containment, reduction, and 
elimination of animal and plant pests and diseases that could do huge 
harm to production agriculture in the United States. Typically, these 
program resources reflect cost sharing between APHIS and program 
collaborators (generally States and tribes). However, a consistent 
theme in this budget is the proposed reduction in Federal contributions 
to program costs, forcing States and tribes to assume larger burdens.
    Mr. Secretary, does this decision reflect conversations and 
agreements you have reached with your partners?
    Will your collaborators have adequate time to adjust their budgets 
to maintain needed levels of program performance?
    In those States already facing severe budget shortfalls, will you 
provide this subcommittee assurance that needed levels of program 
services will continue?
    Answer. While there may not have been agreement to the level of 
contributions for each pest and disease program, it is reasonable to 
expect all parties to contribute some level of resources towards these 
cooperative programs that, in most cases, have been in place for 
several years.
    The Agency's budget request is presented more than 6 months in 
advance of when it will become effective, which allows time for program 
partners to develop their spending plans in the coming year. The Agency 
will continue to conduct the pest and disease programs based on the 
total available resources and on the highest priorities for the 
program.
                           use of antibiotics
    Question. There continues to be vocal debate on the non-therapeutic 
use of antibiotics in the livestock sector. Some contend that the 
practice places human health at risk due to a concern that the 
consumption of related food products results in antibiotic resistance 
to certain strains of bacteria. On the other hand, it is argued that 
the use of antibiotics in livestock is so minimal that there is no such 
effect.
    What is the current science in regard to this issue?
    Is there any evidence that the use of antibiotics for livestock has 
any influence on human health through food products from such animals?
    Since there is obviously some effect in the use of antibiotics (or 
else the industry would not use them in the first place) is it not 
logical to assume that there is some residual effect in humans? If not, 
what is being done to educate consumers that the use of antibiotics 
poses no threat to human health?
    Answer. Current science is largely assessing the effect of 
antimicrobial use and the antibiotic resistance, also known as 
antimicrobial resistance or drug resistance. APHIS and ARS, FDA, and 
CDC continue to work collaboratively on antimicrobial issues. The 
question of whether antibiotic use in animals has any effect on human 
health requires the consideration of the organism involved, the 
antibiotic in question, and various other mitigating factors in food 
production. The FDA continues to do risk assessments for various 
antibiotics used in animals and their potential to harm human health. 
In some cases the FDA has found that certain uses of antibiotics result 
in unacceptable increased risks to human health and have withdrawn 
approvals for specific antibiotic uses. In other cases the risk 
assessment has indicated that there is not an increased risk associated 
with the use of specific antibiotics in certain animals.
    Antibiotics are used in animals for purposes of treatment of 
clinical disease, disease prevention and growth promotion. Concern for 
antibiotic resistance relative to use of antibiotics in animals is 
primarily related to the transmission of organisms from animals to 
people, especially through food. In some cases these organisms may 
harbor genes that make them resistant to the effects of certain 
antibiotics. When these resistance genes occur and people require 
treatment for that infection, they may not respond optimally to 
treatment.
    APHIS' focus for the antibiotic use and resistance issue has been 
to survey livestock populations to estimate the types and levels of use 
for various commodities/animals and to evaluate the prevalence of 
resistance. APHIS reports on findings from the on-farm sampling through 
reports and in peer reviewed publications in the professional 
literature. The Web site address to access the reports is http://
www.aphis.usda.gov/vs/ceah/ncahs/nahms/. These reports are also made 
available to the Food and Drug Administration (FDA), the agency 
responsible for the approval process of antibiotic use in animals. 
Information regarding the use of antibiotics in animals is available to 
the public on the following FDA Web site: http://www.fda.gov/
AnimalVeterinary/SafetyHealth/AntimicrobialResistance
                               farm loans
    Question. Mr. Secretary, in the face of deteriorating credit 
conditions for rural farmers this Committee increased Farm Service 
Agency ownership and operating loan levels for fiscal year 2010. Now it 
appears even those increased levels will not be sufficient to meet 
fiscal year 2010 credit demand. Adequate credit is essential to help 
rural areas recover from this deep recession. But, this budget cuts 
farm loan program levels for fiscal year 2011.
    What evidence do you have that this request will be sufficient to 
meet the credit needs for agricultural producers?
    Answer. At the time the fiscal year 2011 budget was being 
formulated, economic forecasts indicated that farm prices would rebound 
in fiscal year 2010 and agriculture would continue to be somewhat 
insulated from the credit crisis faced primarily by the non-agriculture 
sectors of our economy. Based on these assumptions--and given that 2009 
funding was augmented by $173 million of stimulus funds and $810 
million of supplemental funds provided adequate funding to satisfy a 
large increase in credit applications for fiscal year 2009--a 
determination was made that fiscal year 2009 obligation levels would be 
sufficient for fiscal year 2010 and subsequently for fiscal year 2011. 
We will continue to monitor the agricultural credit markets and, 
pursuant to the 2010 Conference Report, keep the Committee informed of 
the farm credit needs.
    Question. What tools do you have to increase program levels during 
the year if your estimates for fiscal year 2011 turn out to be low?
    Answer. The last several appropriations acts included language that 
allowed FSA to make adjustments to program levels by moving funds from 
program areas with less demand to those with greater demand, with 
Committee consent. This flexibility proved useful in the past when 
demand changed significantly from forecasts, which are made many months 
in advance. The Department also has authority to interchange up to 7 
percent of funds provided to FSA for farm loans should the need arise.
                       cce computer modernization
    Question. Mr. Secretary, the budget includes $35,000,000 under 
Conservation Operations for CCE computer modernization and upgrades. 
Will this activity require funding beyond fiscal year 2011? If so, what 
is the anticipated overall cost?
    Answer. The Common Computing Environment (CCE) infrastructure was 
implemented in 2000 to provide a common information technology (IT) 
platform for the three Service Center Agencies (the Farm Service 
Agency, the Natural Resources Conservation Service, and Rural 
Development). Since 2000, the system has not undergone a system-wide 
refresh resulting in outdated equipment and processes and therefore, 
the 2011 budget includes funding to reduce vulnerabilities and improve 
system performance by initiating a refresh and right-sizing initiative. 
This initiative will be an on-going effort to ensure that system 
components are replaced and configuration changes are made to support 
current and future program delivery.
    In addition to the funding requested under NRCS Conservation 
Operations, USDA is also requesting funding under FSA and RD. The 
details of this funding request are provided in the accompanying table. 
As this is an on-going initiative, its total overall cost will be 
driven by the length of time that USDA continues to operate the CCE. 
According to the business case developed for this investment, after 
2011, total annual funding to maintain the investment and to support a 
regular refresh cycle according to industry standards will be 
approximately $62 million.

------------------------------------------------------------------------
                                                            Fiscal year
                         Agency                                2011
------------------------------------------------------------------------
FSA.....................................................     $36,000,000
NRCS....................................................      35,000,000
RD......................................................      12,000,000
                                                         ---------------
      Total.............................................      83,000,000
------------------------------------------------------------------------

                    strategic watershed action teams
    Question. The budget includes $25,000,000 for the implementation of 
strategic watershed action teams. Please explain how you envision this 
new initiative to be carried out.
    Answer. NRCS envisions deploying Strategic Watershed Action Teams 
(SWATs) consisting of five to seven people (approximately 35 teams or 
175 FTEs), for a period of 3 to 5 years in a specified geographic 
location. These teams will include Soil Conservationists, technicians 
and specialists and will be identified based on the needed technical 
expertise in each watershed. The number of teams deployed for each 
watershed will depend on the analysis of natural resource and 
socioeconomic data of the region and will be decided based on a formula 
that NRCS will develop.
    The development and deployment of SWATs will greatly improve the 
environmental cost effectiveness of NRCS technical and financial 
assistance programs. By significant planning, education, and program 
implementation assistance, the technical assistance teams will enhance 
the Agency's capability to strategically invest in conservation and 
better target the Agency's financial and technical assistance programs.
    The goal of deploying the SWATs will be to reach every eligible 
landowner in a targeted watershed and provide them with the technical 
assistance to assess their natural resource conditions and offer 
resource planning and program help. Emphasis in resource assessment and 
planning will be placed on those resource conditions that are of 
priority interest in the selected watershed.
    The SWATs will help NRCS work more closely and effectively with the 
U.S. Forest Service (FS) in that Agency's efforts to also adopt a 
landscape-scale approach to natural resource management. This will 
leverage the strengths of each agency's technical skills and natural 
resource programs to conserve and restore forestland, grassland, and 
working farmland.
    During fiscal years 2010 and 2011, NRCS will coordinate with FS and 
other stakeholders and partners to identify high-priority watersheds in 
order to enhance conservation on a landscape scale across land 
ownerships. Smaller critical watersheds within these high-priority 
watersheds would be identified for the deployment of SWAT, using 
natural resource and socioeconomic data.
    water and wastewater disposal grants for native alaskan villages
    Question. This Committee has been concerned about the growing 
unobligated balances of grants to Native Alaskan Villages. The 
Secretary was directed to: obligate the funds; and develop a plan to 
streamline the grant process and reduce the paperwork burden on rural 
Alaskan communities and Native Alaskan Villages. That plan was due to 
the Committee 90 days after enactment of the fiscal year 2010 
appropriations bill. Please explain why delivery of the plan has been 
delayed.
    Answer. The selection of an independent third party contractor that 
is responsible for developing a final work plan to address processing 
delays was recently completed in January 2010. In the next few days, a 
preliminary plan for analyzing the use of all unobligated balances will 
be submitted to Congress.
    Prior to fiscal year 2006, Water and Waste Disposal Program funding 
for Native Alaskan Villages was provided to an intermediary. Some 
technical disruptions in delivering the program occurred, requiring the 
agency to takeover review of grant applications and head coordinated 
efforts to aid Alaskan residents prepare applications is the largest 
single reason why a significant amount of the appropriated funds remain 
unobligated.
    The preliminary report provides detailed background on the program 
and how the significant amount of unobligated balances was created, and 
the approach to resolve application processing delays. This report 
indicates that a final report will be submitted to Congress in August 
of 2010. Until then, discussions are ongoing.
    Question. Please provide a status report including the obligations 
history, applications backlog, and estimated demand for fiscal year 
2011.
    Answer. This information will be included in the final report.
    Question. What process improvements are you considering to enhance 
the efficiency and effectiveness of this program?
    Answer. The final report will provide a thorough analysis of the 
application, approval, and tracking process; dialogue with other 
agencies regarding their roles in the process; stakeholder input; and 
third party contractor review.
    Question. What is the expected timeframe for implementation of 
these changes?
    Answer. This information will be included in the final report.
             single family housing guaranteed loan program
    Question. The Committee is aware that funding for the single family 
housing guaranteed loan program ($12 billion appropriated for fiscal 
year 2010 plus carryover funds from the Recovery Act) will be exhausted 
in April. It is taking time for private sector lenders to unwind from 
the current recession and begin providing normal levels of housing 
lending. In the meantime this program is one of only a few that is 
offering necessary credit for homebuyers.
    When did you realize and formally notify this Committee that funds 
would be exhausted so early in the fiscal year?
    Answer. The Department is still assessing, evaluating options, and 
preparing status report required by the 2010 Conference report.
    Question. What actions are you taking to supplement this credit 
shortfall for the last 5 months of fiscal year 2010?
    Answer. The administration is pleased that it will be able to fully 
obligate all Single Family Housing Guaranteed Loan Program funds that 
were appropriated for this program in fiscal year 2010. We are 
currently evaluating various options to ensure assistance is provided 
to rural homeowners.
    Question. This budget proposes several significant changes to the 
program including adding an annual fee and implementing a ``direct 
endorsement'' program. The annual fee will eliminate program costs to 
the government. Please explain why you are proposing an annual fee 
rather than increasing the up-front fee which could generate the same 
result.
    Answer. Program costs to the government can be eliminated either by 
increasing the up-front fee or by instituting an annual fee. The annual 
fee was proposed to achieve consistency with FHA, and to maintain up-
front costs at current levels.
    Question. Please describe the effects on borrowers of an annual fee 
versus an up-front fee in which both alternatives generate zero subsidy 
cost.
    Answer. The 2011 budget requests a loan level of $12 billion 
supported by establishing a fee structure that will eliminate the 
subsidy cost for all new purchases. The annual fee that USDA is 
proposing would eliminate the need for an annual appropriation to pay 
for the cost of loan subsidies. The up-front fee on new purchase loans 
will remain 2 percent, but an annual fee of 0.15 percent will be added 
to both new and refinanced loans. In addition, the up-front fee for 
refinanced loan guarantees will be increased to 1 percent. The annual 
fee would apply to all loans, regardless of the income of the borrower. 
This is the same as for the one-time fee that is assessed up-front, and 
can be incorporated in the loan amount. The annual fee would, instead, 
be applied directly to the borrower's monthly payment. The two fees, 
combined, would be lower than the fees charged by HUD and VA. Low-
income borrowers constitute about 30 percent of USDA's single family 
guaranteed loan borrowers. The annual fee included in the 2011 budget 
proposal is estimated to be 1/15 of 1 percent. It is anticipated that 
it would have minimal impact on the ability of low income borrowers to 
qualify for loans.
    The annual fee will be capped at 0.5 percent and in fiscal year 
2011 is expected to be 0.15 percent of the guaranteed principal loan 
amount. On a $100,000 loan, the annual fee will be $150. This results 
in an additional monthly payment of $12.50. This is a nominal increase 
and should be affordable.
    Question. Under a direct endorsement program the Agency's role in 
loan underwriting is minimized while the responsibilities for 
maintaining credit quality are shifted to the private sector guaranteed 
lenders. Please elaborate on the need for a direct endorsement program 
at this time.
    Answer. Direct endorsement will streamline the loan making process 
and achieve a measure of consistency with the other Federal Housing 
programs. Some private sector lending partners have repeatedly 
requested direct endorsement capabilities. Also, this will make the 
Agency more efficient and allow the single family housing staff to 
focus more on single family housing direct loans.
    Question. How do you reconcile this request with your proposal to 
reduce (by $6 million) resources to monitor guaranteed lender 
performance?
    Answer. Significant Information Technology gains related to 
maintaining portfolio compliance, safety, and soundness are being made 
through investment of Recovery Act administrative funding in 2010. 
These gains will be applied to many of Rural Development's programs, 
including the section 502 guaranteed loan program. The projected $6 
million reduction is supported through gains that will be realized in 
fiscal year 2010, reducing the need for these Information Technology 
investments in fiscal year 2011.
    Along with these Information Technology gains, efforts and 
investment towards monitoring section 502 guaranteed lenders and 
portfolio performance and compliance will increase in 2011. This is 
necessary due to the growth of the program and the level of new lender 
participation. We are proactively working internally and with the 
Office of Inspector General to ensure that robust portfolio quality 
control procedures continue to evolve and be implemented to protect the 
safety and soundness of the program.
    Question. What assurance can you provide that the current excellent 
portfolio credit quality and low default history will be maintained?
    Answer. We expect the current excellent portfolio credit quality 
will be maintained. The intent is to limit direct endorsement to 
lenders that have demonstrated strong program knowledge and 
responsibility. Only well performing lenders would be given direct 
endorsement capabilities, and they would be closely monitored on a post 
closing basis. Lenders with direct endorsement would have to submit 
their loans through Rural Development's automated underwriting system. 
Loans receiving an ``accept'' from the automated underwriting system 
have demonstrated better performance than loans which are manually 
underwritten.
                                outreach
    Question. I know that you share our commitment to improving access 
to the child nutrition programs for families that have long suffered 
material hardships and those experiencing new difficulties as a result 
of the recession. Children are especially vulnerable to the effects of 
the recession. The SNAP program has an aggressive outreach component 
that is not matched in the school meals programs. Parents that are 
recently unemployed may not realize that their children are eligible 
for free or reduced price meals. Others may not realize that they can 
sign up at any point in the school year. What has USDA already done to 
make sure that eligible families are enrolled for free or reduced price 
school meals and what are your plans to engage schools in outreach 
campaigns for the upcoming school year?
    Answer. The Department recognizes the importance of getting program 
information to families suffering from economic hardship, and we have 
taken several steps to ensure children have access to the healthy meals 
they need. In response to the recent economic problems, we have 
targeted outreach about the availability and importance of free and 
reduced price school meals to unemployment insurance applicants. We 
issued a policy memorandum on February 27, 2009 (SP 15-2009) describing 
ways to assist families during an economic downturn. This memo 
encouraged schools to reach out to families whose circumstances may 
change during the school year by reminding them that they may apply for 
free or reduced price meal benefits at any time.
    On September 3, 2009, through coordination with the Department of 
Labor's Employment and Training Administration, we distributed two 
letters through the listserv of the National Association of State 
Workforce Agency Administrators. The first letter was directed to State 
Workforce Agency Administrators, and asked that they further distribute 
and/or post the second letter to Unemployment Insurance applicants, to 
make them aware of their potential eligibility for free school meals.
    We have also issued a policy memorandum to all State agencies, 
Extending Categorical Eligibility to Additional Children in a 
Household, on August 27, 2009 (SP 38-2009, CACFP 08-2009, SFSP 07-
2009). Under this memorandum, effective immediately, all children in a 
family are considered categorically eligible for free meals either 
through direct certification with SNAP, the Food Distribution Program 
on Indian Reservations (FDPIR) and the Temporary Assistance for Needy 
Families (TANF) program, or through free and reduced price applications 
with case numbers for these programs. This means that when school 
districts have information on a family's composition, either through 
the free and reduced price application or school enrollment records, 
they should certify all children in a family for free meals if there is 
a SNAP, FDPIR or TANF case number for at least one family member on an 
application, or if one family member is directly certified through 
SNAP, FDPIR or TANF. We will soon issue additional guidance to States 
on this eligibility extension.
    We are also working to encourage more schools to conduct Direct 
Certification matches more frequently and to do it better. More 
effective direct certification is a vital tool to increase the number 
of children certified as eligible for free lunches and breakfasts. FNS 
published a report titled ``Direct Certification in the National School 
Lunch Program: State Implementation Progress'' in November 2009 to 
assess the effectiveness of State and local efforts to conduct direct 
certification of children for free school meals. The report found that 
the 2008-2009 median direct certification rates of SNAP-participant 
children were 72 percent. This shows that local educational agencies 
have increased their use of direct certification from a rate of 69 
percent reported in the previous year.
                          direct certification
    Question. Automatically enrolling poor children for free school 
meals based on participation in other means-tested programs is an 
important component of improving access to the school meals programs 
and reducing the administrative burden of running them. I am concerned, 
however, that your recent report on State direct certification 
performance shows that as many as 3.5 million children who could have 
been directly certified were not, and a good portion of those children 
may have missed out on free meals. Congress has already taken steps to 
try to improve direct certification rates, most recently providing 
$22,000,000 in the fiscal year 2010 agriculture appropriations 
legislation for grants to improve direct certification. I would like to 
hear what USDA is doing to improve State performance. Specifically, 
what steps have you taken to distribute the grant funds? What 
improvement steps are you asking of these States? What support are you 
providing to share best practices and support improvement efforts?
    Answer. The Department recognizes the importance of using direct 
certification to enroll eligible children to receive free school meals 
and is working aggressively to develop a request for application 
(RFA)--describing qualification criteria, the application process, 
allowable uses of funds, etc.--so that States can begin applying for 
the grants as soon as possible. We are developing the RFA based not 
only on the best practices described in the report you referenced, but 
on input obtained directly from eligible States during conference calls 
that FNS is conducting specifically to discuss this grant opportunity. 
In addition, FNS will continue to publicize this grant opportunity 
during conference calls, webinars, and stakeholder meetings such as the 
School Nutrition Association meeting in July.
                       national export initiative
    Question. The budget request for the Foreign Agricultural Service 
includes an increase of over $53,000,000 for the National Export 
Initiative. This is quite a large increase for FAS. How will the 
initiative be carried out?
    Answer. I have the honor of being appointed by President Obama as a 
member of the Export Promotion Cabinet, which has been charged with 
providing the President a comprehensive plan within 180 days to carry 
out the goals of the National Export Initiative (NEI). The plan will 
identify the resources and strategy for effective implementation of 
NEI.
    The NEI includes a proposed increase of $53.5 million in 
discretionary funding for the Foreign Agricultural Service for 2011 to 
promote exports of U.S. food and agricultural products. This enhanced 
funding would stimulate increased agricultural exports through new 
trade promotion and marketing activities; expanded grants to improve 
market access for specialty crop exports; and expanded cost-share 
activities with agricultural market development groups.
    The funding requested for FAS would be invested in three areas. 
First, $10 million is provided for enhanced export assistance by FAS. 
It would support expanded foreign market development activities at 
selected FAS overseas posts; strengthen trade facilitation services of 
FAS personnel in key countries; facilitate the participation of a 
greater number of small- and medium-sized enterprises (SMEs) at foreign 
and domestic trade shows; increase resources targeted at removing 
sanitary and phytosanitary (SPS) and technical barriers to trade; and 
strengthen outreach activities to a broader array of SMEs.
    For the Technical Assistance for Specialty Crops (TASC) Program, 
funding would be increased by $9 million to double the overall size of 
the program. Grants under TASC aim at breaking down SPS and technical 
barriers to foreign markets that prohibit or impede the export of U.S. 
specialty crops. Examples of TASC projects include technical seminars, 
study tours, field surveys, pest and disease research, and pre-
clearance programs. Increased funding would enable FAS to support a 
wider range of entities promoting U.S. exports of specialty crops and 
horticultural crop products.
    Increased funding of $34.5 million would be provided for the 
Foreign Market Development (Cooperator) Program, which would double 
total funding for that program as well. Increased resources for the 
Cooperator Program would support an expansion in the range of 
agricultural products benefiting from the existing program and export 
marketing promotions to include, for example, new or non-traditional 
uses of U.S. agricultural commodities and new foreign markets.
    Question. Do you foresee this requiring funding beyond fiscal year 
2011?
    Answer. The President has announced a plan to double total U.S. 
exports in 5 years. During that period, it is clear that promoting 
export growth and developing long-term trading relations will require 
an extended commitment for the President's goal to be accomplished.
                     capital security cost sharing
    Question. Over the past several years we have provided funding for 
Capital Security Cost Sharing. This budget does not include funds for 
that activity. Is the State Department no longer assessing FAS for 
capital security?
    Answer. The State Department continues to assess Foreign Service 
agencies for contributions to the costs of building new, more secure 
diplomatic facilities, and funding of $9.9 million for that purpose is 
included in the 2011 FAS budget. However, no increase in funding is 
requested in 2011 because the amount of FAS' annual contribution has 
now leveled off. The original plan was for the Capital Security Cost 
Sharing program to be phased in gradually over a number of years, with 
annual funding increases requested during that phase-in period. The 
phase-in period is now completed with the 2010 budget. There may be 
periodic adjustments in the amount of annual agency contributions in 
future years based on changes in the number of personnel overseas and 
construction costs, but no adjustment is anticipated to be made during 
2011.
             agricultural reconstruction and stabilization
    Question. The budget includes $14,600,000 to fund agricultural 
reconstruction and stabilization activities. Please explain how these 
funds will be used. What countries besides Afghanistan will benefit?
    Answer. In Afghanistan these funds will be used by USDA to help 
support the implementation of the U.S. commitment to rebuilding that 
country by providing agricultural experts who serve as advisors to key 
ministries and work with rural farmers throughout the country. 
Additional funding to support these efforts will be provided by the 
Department of State.
    These agricultural experts serve on civilian-military command units 
throughout the country. The experts' work is essential for stabilizing 
strategic areas of the country, building government capacity, and 
raising confidence in the government. They will help to ensure the 
successful management of assistance programs, to develop economic 
opportunities and jobs in agriculture, and address food insecurity. 
Consistent with these efforts, USDA has established a high priority 
performance goal of increasing the number of Afghan provinces 
designated as food secure from 10 to 14 provinces by the end of 2011. 
Other countries that will benefit include Iraq, Haiti, and Pakistan, 
although others may be added later.
               veterinary medical loan repayment program
    Question. Over the last several years this subcommittee has 
provided a funding for USDA to implement the Veterinary Medical Loan 
Repayment Program. I am happy to see that progress is being made. Some 
concerns have been raised about the time line that State Animal Health 
Officials were given to apply for a ``shortage designation''.
    Have you heard similar concerns? Is the Department doing anything 
to address this issue? How many State Animal Health Officials have 
submitted applications for the ``shortage designation''?
    Answer. On July 9, 2009, the National Institute of Food and 
Agriculture (NIFA) published an interim final rule and request for 
comments on this program.
    The rule clearly stated the intent was to solicit nominations of 
shortage areas, and spelled out in detail the procedure to be followed. 
The rule also explicitly stated the agency's intention to solicit 
nominations for a period of 60 days. Insofar as this interim final rule 
was published approximately 6 months prior to actually calling for 
nominations, we believe that the 60 day response period is sufficient 
and reasonable. I will have NIFA provide additional details for the 
record.
    [The information follows:]
    The period for submitting shortage area nominations ended on March 
8, and we received 249 nominations from 48 States and the Republic of 
Marshall Islands. We did not receive any complaints with respect to the 
time we allowed for nominations from any of the State Animal Health 
Officials (SAHO).
    All States submitted nominations except Massachusetts and Hawaii 
(and DC). We contacted the SAHO of Massachusetts and Hawaii and both 
indicated that this was not a priority concern for them. Neither 
indicated that the compressed timeline was a factor.
    There was considerable effort made to ensure eligible entities were 
informed and engaged. All Chief Animal Health Officials received 
information and reminders about the nomination process both leading up 
to and after release of the Federal Register notice soliciting 
nominations. The National Assembly of State Animal Health Officials 
(NASAHO) and the United States Animal Health Association (USAHA), both 
with memberships comprising the authorized respondents to this 
solicitation, were very helpful sending out notices and reminders to 
respond by the deadline.
    Although the intention was to solicit nominations for a period of 
60 days, we determined that a period of 45 days was necessary to allow 
for sufficient time to review and certify shortage areas prior to the 
opening of the VMLRP application period on April 30. Given that this 
was the first year of implementation, we were prepared to allow a grace 
period to those that needed extra time to submit their nominations.
                   limitations on farm bill programs
    Question. Section 726 would impose limitations on a number of 2008 
farm bill programs in order to achieve savings to pay for increases in 
discretionary spending. Among these is language to not allow for the 
enrollment of more than 192,982 acres in the Wetlands Reserve Program 
in fiscal year 2011. According to USDA documents, this language would 
achieve discretionary savings of $116,386,000. However, estimates of 
the Congressional Budget Office (CBO), which will control Congressional 
budget scorekeeping, often differ from those of OMB.
    Given this potential discrepancy, does USDA intend for us to 
increase the acreage limitation to comport with CBO scorekeeping, if 
necessary, or will Congress receive a budget amendment to account for 
either the need for lower spending or additional savings in mandatory 
programs?
    Answer. USDA believes the projected discretionary savings resulting 
from limiting enrollment for the Wetlands Reserve Program is an 
accurate estimate. Therefore, USDA does not anticipate submitting a 
budget amendment to Congress concerning this issue.
    Question. Similarly, if intervening congressional action (such as 
the reauthorization of the Child Nutrition Act, or other actions 
requiring budgetary adjustments) further reduces the availability of 
mandatory funds in programs identified for savings in the 2011 
appropriations bill, will the administration provide guidance on how 
the subcommittee should make adjustments through other reductions?
    Answer. The 2011 budget represents a judicious allocation of 
conservation resources. It reflects a strategic targeting of high 
priority programs and current workforce and workload capacity, while 
including efforts to ensure financial integrity and cost effectiveness. 
At this time, USDA believes that the current budget proposal is the 
best allocation of resources and looks forward to working with the 
Committees on obtaining funding for these important programs.
    Question. The budget proposes to eliminate language in the 2010 Act 
relating to activities of the Watershed and Flood Prevention Operations 
account. The reason provided for this termination is ``in order to 
permit the Secretary the flexibility needed to carry out programs in 
the most efficient and effective manner''. However, elsewhere in the 
President's budget, the entire Watershed and Flood Prevention 
Operations account is eliminated. How does the elimination of an entire 
program strengthen the Secretary's ``flexibility'' to carry it out?
    Answer. With the elimination of the Watershed and Flood Prevention 
Operations (WFPO) Program, which has been heavily earmarked in recent 
years, the Secretary will have the ability to use merit-based criteria 
to prioritize projects in other programs within those watersheds 
without the pre-selection of watershed projects. The WFPO program 
benefits are highly localized and the Agency anticipates that those 
projects not yet completed will continue to receive local support from 
project sponsors.
             contracting and acquisition workforce training
    Question. Section 729 proposes an appropriation of $6,500,000 to 
support a Government-wide Contracting and Acquisition Workforce 
Training initiative. What efficiencies and what savings to the 
Department will result as a consequence of the appropriation?
    Answer. Office of Management and Budget (OMB) Memorandum M-09-25, 
Improving Government Acquisition, dated July, 29, 2009 promotes 
``building the skills of the acquisition workforce and recruiting new 
talent so as to negotiate more favorably priced contracts and manage 
contract costs more effectively''.
    In order to meet these objectives, USDA proposes to (1) improve 
training and development for new hires through an acquisition workforce 
intern program; (2) enhance skills and training for current acquisition 
workforce regardless of level; and (3) implement knowledge management 
initiatives to increase contracting efficiencies throughout USDA.
    USDA has at least one acquisition workforce employee in virtually 
every county in the United States. Provision of mandatory training 
requires a substantial amount of logistical and training funds. Many of 
the existing acquisition employees are insufficiently trained due to a 
lack of funding. Effective training will address critical proficiency 
gaps and enhance the quality of contract award/management which often 
translates to cost savings.
    An effective knowledge management program will increase efficiency 
in understanding best practices; more effectively define customers and 
business partners; and ultimately provide the right information to the 
right individual(s) at the right time. An effective knowledge 
management program will reduce the risk of time and money spent 
unsuccessfully obtaining information.
    An intern program at USDA would help develop the acquisition 
workforce, as well as facilitate improvements in attracting and 
retaining talented, proficient employees. An intern program will 
counteract USDA's high retirement rate and increase the percentage of 
agency 1102's with bachelor's degrees. The USDA intern program will 
include several key components as follows:
  --Training will allow USDA to enhance the knowledge of its 
        acquisition workforce to award and administer higher quality 
        and more economical contracts. Soft skills training such as 
        communication, leadership, and interpersonal skills will 
        improve workforce effectiveness.
  --Rotational assignments will support intern development and maximize 
        the fit of the right intern with the right agency.
  --FAC-C certification will validate understanding of specific 
        competencies and expedite workforce ability to obtain warrant 
        levels, and expand the pool of contracting officers with the 
        knowledge and warrant to award procurements.
  --Promotions will provide interns with a structured promotion 
        schedule to maintain morale and productivity and bolster 
        retention, thereby minimizing cost and inefficiencies due to 
        employee attrition.
    Question. Since this is a government-wide initiative, what 
consequences will result if less than the fully requested amount is 
provided?
    Answer. The inability to fully fund the initiative to improve 
USDA's acquisition workforce would have a detrimental impact on USDA's 
acquisition workforce. In recent years unsettling trends gained 
momentum and these trends could continue if insufficient funding is 
provided for training and improvement programs. Consequences would 
involve the widening of the human capital gap with mass retirement of 
an aging workforce and high turnover rate of employees within USDA. 
Acquisition workforce employees frequently transfer from one Federal 
agency to another. Employees may also be lost to private industry, who 
may offer better salaries and benefits. Knowledge gaps will widen 
leading to more costly and less effective contracts.
         greenbook charges and miscellaneous agency assessments
    Question. Mr. Secretary, we continue to hear concerns from research 
centers, universities, and other parties who work with USDA on a 
cooperative basis that assessments charged by USDA are harming their 
ability to continue research and other activities as envisioned in the 
original cooperative agreements. For example, certain research centers 
who engage with ARS under specific cooperative agreements are 
discovering that the funding levels described in Congressional acts and 
reports for those locations are reduced far below the customary 10 
percent reduction for net-to-location adjustments. In addition, the 
Governmental Accountability Office (GAO) reported in October, 2009, 
that Greenbook charges have increased from $5,400,000 in 1999 to 
$61,200,000 in 2009, with a peak of $76,000,000 in 2007.
    Can you please provide a listing of USDA programs, projects, or 
activities involving non-Federal cooperators that are reduced through 
assessments not related to the purposes described by the Congress, 
including the amounts (in the aggregate by program) and purposes of 
such assessments?
    Answer. Programs are affected for a variety of reasons. In addition 
to the traditional assessments that pay for services provided by the 
Department, programs can be reduced based on statutory direction as is 
the case with the Small Business Innovation Research Program and the 
Biotechnology Risk Assessment Programs. In addition, there are 
statutory authorities that make assessments permissive such as the case 
with NIFA programs where statutory authority allows up to 4 percent of 
program funding to be assessed to pay agency costs for program 
management and oversight. In addition, there could be assessments to 
fund Department-wide costs, such as e-Government charges, or agency 
specific assessments to support program management and oversight.
    The following table provides a summary of agency programs involving 
non-Federal cooperators that are reduced for these types of program 
costs.
    The information is submitted for the record.
    [The information follows:]

 LIST OF PROGRAMS, PROJECTS OR ACTIVITIES INVOLVING NON-FEDERAL COOPERATORS THAT ARE REDUCED THROUGH ASSESSMENTS
                                                FISCAL YEAR 2009
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                                       Total
                         Agency/program                            2009 enacted     Assessments      available
----------------------------------------------------------------------------------------------------------------
Agricultural Research Service: \1\
    Salaries and Expenses.......................................          $3,323            $332          $2,991
Animal and Plant Health Inspection Service:
    Salaries and Expenses.......................................           4,963             852           4,111
Food Safety and Inspection Service: \2\
    Salaries and Expenses.......................................          59,170           1,773          57,397
National Institute of Food and Agriculture: \3\
    Research and Education Activities...........................         691,524          54,919         636,605
    Extension Activities........................................         474,250          20,786         453,464
    Integrated Activities.......................................          56,864           2,842          54,022
Natural Resources Conservation Service: \4\
    Conservation Operations.....................................          11,693           1,437          10,256
    Watershed Operations........................................           5,276             465           4,811
----------------------------------------------------------------------------------------------------------------
\1\ ARS has a long-standing policy of applying a 10 percent indirect cost assessment on increases in
  appropriated program funds to finance administrative and program management costs associated with conducting
  nationwide research programs. This policy is documented in REE Policies & Procedures 329.5 entitled,
  Assessment of Indirect Program Support Costs and Indirect Research Costs.
\2\ Agency met States for Cooperative Agreements up to 50 percent of State Meat and Poultry Inspection costs as
  authorized by the Federal Meat and Poultry Act, as amended (21 U.S.C. 601 et seq.), specifically section 301
  of the FMIA (21 U.S.C. 661) and the Poultry Products Inspection Act, as amended (21 U.S.C. 451 et seq.),
  specifically section 5 of the PPIA (21 U.S.C. 454) Agency redirected funding for FERN Cooperative Agreements
  to mission critical needs, including salary and benefits, frontline travel and Cooperative Agreements with
  State MPI programs.
\3\ Set-aside for Agency administration costs. Unless otherwise stipulated in law, most NIFA programs are
  assessed up to 4 percent to pay agency administrative costs. This includes costs for the grants review and
  approval process, documentation and management, funds disbursements, and post-award grants monitoring,
  including site visits and final close-out activities. Section 1469 of the National Research, Teaching and
  Policy Act of 1977, as amended, provides specific statutory authority to pay for administrative costs set-
  aside for the Current Research Information System (CRIS). Funds are set aside from the Hatch Act and Evans-
  Allen formula programs for partial support of CRIS. The amount set aside is based on the approved multi-State
  Hatch project that supports operational costs each year set-aside for Peer Panel Costs. NIFA has statutory
  authority for setting aside funds for the costs associated with convening peer panels for the purpose of
  reviewing and evaluating proposals submitted to competitively awarded programs. Section 1469 of the National
  Research, Teaching and Policy Act of 1977, as amended, provides this authority.
\4\ Adjustments include about $2 million for Technical Assistance costs. The program authorizations for carrying
  out these programs are under: Soil Conservation and Domestic Allotment Act of 1935, Public Law 74-46 (16
  U.S.C. 590a-590f) and the Soil and Water Resources Conservation Act of 1977 and Watershed Protection and Flood
  Prevention Act (16 U.S.C. 1001-1005 and 1007-1009).

    Question. If agencies which are funded through a general salaries 
and expenses appropriation require funds to be set aside for various 
administrative purposes, why does the budget not specifically identify 
those items and provide for them by a specific appropriations amount, 
thereby making assessments against actual research or other activities 
unnecessary?
    Answer. As you know, some agencies in the Department have separate 
program, and salaries and expenses appropriations, while others have 
one appropriation. Having separate appropriations for program 
activities and salaries and expenses is one approach that has merit. 
However, due to certain statutory requirements, some assessments 
against programs, projects or activities may occur even within agencies 
that have a separate salaries and expenses account. These statutory 
set-asides include a requirement to set aside 2.5 percent of extramural 
research and development funds to be used for the Small Business 
Innovation Research Program (Small Business Research and Development 
Enhancement Act of 1992, Public Law 102-564, as amended). In addition, 
all biotechnology research projects are required to set aside 2.0 
percent of funds to support the Biotechnology Risk Assessment program 
(section 1668 of the Food, Agriculture, Conservation, and Trade Act of 
1990, Public Law 101-624, as amended).
    Question. Please describe any adverse consequences that would 
result from a prohibition against further agency assessments and, 
instead, provide a specific appropriation to cover the items for which 
those charges are currently being assessed.
    Answer. It is difficult to assess the impacts of your proposal 
without the specifics of what the prohibition would entail. However, in 
general eliminating the ability to charge assessments would limit 
agencies' flexibility to respond to unforeseen events or other changes 
that occur during the fiscal year. In addition, it would be difficult 
to accurately identify needed administrative costs a year and a half in 
advance. Finally, historically salaries and expenses accounts have not 
kept pace with needed program delivery costs, leading to the 
possibility that the appropriate management and oversight of program 
delivery would be at risk.
              farm service agency (fsa) automated systems
    Question. Mr. Secretary, the precarious status of FSA's automated 
systems has been evident for several years. In the face of systems 
outages, the Agency has had to take the unprecedented step of rationing 
access by FSA employees. These automated systems support commodity 
programs, credit and farm loans, farm operations, conservation, and 
agriculture disaster relief, and systems instability is untenable.
    In fiscal year 2010, this Committee provided funding to begin a 
multi-year information technology stabilization and modernization 
initiative. This budget requests continuation of that initiative, 
seeking $38,300,000 for the continued implementation of the MIDAS 
system, $20,000,000 for conversion of FSA software from obsolete legacy 
systems, and $36,000,000 to replace outdated hardware components in 
local offices.
    Mr. Secretary, what progress has been made toward stabilizing and 
modernizing FSA's automated systems?
    Answer. As of the end of fiscal year 2010, FSA will have completed 
the Stabilization activities that secure Web-based platform systems and 
adapted ``best practices'' and technology to the current environment to 
significantly lower the risk of future stoppages. These Stabilization 
activities enable FSA to improve the existing network by acquiring and 
using monitoring and management tools, methodologies and processes that 
promote optimal and efficient system performance. The result is a 
significant step towards achieving success in all future modernization 
efforts. Additional progress has also been made in the Modernize and 
Innovate the Delivery of Agricultural Systems (MIDAS) initiative. For 
example, FSA used ARRA funding to release the major acquisition 
solicitation that was essential to start system implementation work, 
continue program management and governance support, and continue 
business process streamlining activities that leverage industry ``best 
practices'' to reduce process errors and ongoing costs.
    The fiscal year 2011 budget proposal includes the necessary 
resources to move ahead on schedule with IT modernization for FSA. It 
will support the continuation of the MIDAS project as planned along 
with necessary conversion of software for supporting activities to 
facilitate transition of FSA IT from the obsolete legacy system. In 
addition, the budget provides for a needed refreshment and upgrade of 
the Common Computing Environment to support the continued modernization 
process for FSA and the other service center agencies.
    Question. Is this budget request sufficient to ensure against 
catastrophic system collapse, and to maintain adequate service levels 
through fiscal year 2011?
    Answer. Yes, FSA has a plan in place to continue transforming and 
modernizing its IT environment and program delivery processes for 2011 
and beyond. The 2011 budget requests $95.3 million for FSA IT Systems. 
This includes $38.3 million for the second installment of a multi-year 
request for MIDAS, $20 million for the continued conversion of legacy 
system processes to Web-based applications, $36 million to ``refresh'' 
the hardware on FSA's portion of the Common Computing Environment 
(CCE), and $1 million for IT staffing.
    Question. Will you please provide a detailed schedule and funding 
needs estimate to complete the task?
    Answer. FSA efforts to modernize aging IT systems, when completed, 
will work in concert with all of FSA's modernization initiatives to 
successfully operate and maintain daily our IT infrastructure while 
ensuring the viability of our payment processes moving forward. FSA 
will use the Web to provide information which employees need to deliver 
farm programs and provide a modernized, Web-based public face to their 
customers in support of open government.
    The Stabilization initiative began in fiscal year 2007. As of the 
end of fiscal year 2010, FSA will have completed the Stabilization 
activities that secure Web-based platform systems and adapted ``best 
practices'' and technology to the current environment to significantly 
lower the risk of future stoppages. These Stabilization activities 
enable FSA to improve the existing network by acquiring and using 
monitoring and management tools, methodologies and processes that 
promote optimal and efficient system performance.
    For Stabilization, no additional cost above our base requirements 
is needed. The original fiscal year 2007 Stabilization Project estimate 
did not include requirements for operational costs in fiscal year 2010 
through fiscal year 2012. In our fiscal year 2010 budget request, FSA 
included requirements and received funding for operational costs in 
fiscal year 2010. These operational costs for Stabilization are 
considered base requirements and are included in our fiscal year 2011 
President's budget totaling $20.4 million.
    The cost breakout and task schedule for Stabilization are provided 
in the tables below.

                                 STABILIZATION PROJECT AND OPERATIONAL EXPENSES
----------------------------------------------------------------------------------------------------------------
                                 Actual        Actual        Actual        Actual
       Funding source          fiscal year   fiscal year   fiscal year   fiscal year   Fiscal year   Fiscal year
                                  2006          2007          2008          2009          2010          2011
----------------------------------------------------------------------------------------------------------------
S&E Base....................  ............  ............  ............  \1\ $5,189,2   \2\ $27,232   $20,400,000
                                                                                  10
S&E Increase................  ............  ............  ............  ............    20,400,000  ............
Base Carryover..............  ............  ............  ............  ............  ............  ............
Common Computing Environment  ............   $24,585,000  ............  ............  ............  ............
 (CCE)......................
Emergency Supplemental......  ............  ............   $37,500,000  ............  ............  ............
Recovery Act (ARRA).........  ............  ............  ............     9,126,345    21,873,655  ............
                             -----------------------------------------------------------------------------------
      Total.................  ............    24,585,000    37,500,000    14,315,555    42,300,887    20,400,000
----------------------------------------------------------------------------------------------------------------
Note: Stabilization Operational Expenses for fiscal year 2011 and beyond will be covered from within the S&E
  base.
Total Stabilization Project Costs (fiscal years 2007-2010): $118,701,442.
\1\ The $5,189,210 in the S&E base for Stabilization was provided for fiscal year 2009 only to expedite
  contracting until ARRA funds were available. The only funds designated for Stabilization in fiscal year 2009
  were ARRA funds.
\2\ In fiscal year 2010, FSA made a conscious decision to use $5,161,978 from the fiscal year 2009 S&E base to
  cover other critical infrastructure operational needs, which left $27,232 in the base for Stabilization
  expenses.


                                          STABILIZATION TASK SCHEDULE FISCAL YEAR 2007 THROUGH FISCAL YEAR 2012
--------------------------------------------------------------------------------------------------------------------------------------------------------
         Initiative/Task           Fiscal year 2007    Fiscal year 2008    Fiscal year 2009    Fiscal year 2010    Fiscal year 2011    Fiscal year 2012
--------------------------------------------------------------------------------------------------------------------------------------------------------
Stabilization Investment Tasks:
    eAUTH Performance             Start.............  End...............  ..................  ..................  ..................  ..................
     Enhancements.
    Site B Disaster Recovery      Start.............  End...............  ..................  ..................  ..................  ..................
     Management Study.
    Data Base Performance         ..................  Start & End.......  ..................  ..................  ..................  ..................
     training.
    ITS Independent Verification  Start.............  End...............  ..................  ..................  ..................  ..................
     and Validation (IV&V)
     Management Study.
    Application Performance       Start.............  ..................  End...............  ..................  ..................  ..................
     Monitoring.
    Network Server Management...  Start.............  End...............  ..................  ..................  ..................  ..................
    Certification &               Start.............  End...............  ..................  ..................  ..................  ..................
     Accreditation Management.
    Technical Performance         Start.............  End...............  ..................  ..................  ..................  ..................
     Training.
    IV&V Gartner Management       ..................  Start & End.......  ..................  ..................  ..................  ..................
     Study.
    Project Closeout and          ..................  ..................  Start & End.......  ..................  ..................  ..................
     Migration Management.
    Security Performance          ..................  Start & End.......  ..................  ..................  ..................  ..................
     Training.
    Security Operations           ..................  Start.............  End...............  ..................  ..................  ..................
     Monitoring Enhancements.
    Application Build and Test    ..................  Start.............  End...............  ..................  ..................  ..................
     Performance Management.
    Application Availability and  Start.............  End...............  Migrated To         Migrated To         Migrated To         Migrated To
     Performance Lab.                                                      Operations.         Operations.         Operations.         Operations
    Application Performance       Start.............  ..................  End...............  Migrated To         Migrated To         Migrated To
     Testing.                                                                                  Operations.         Operations.         Operations
    Data Base Management........  Start.............  End...............  Migrated To         Migrated To         Migrated To         Migrated To
                                                                           Operations.         Operations.         Operations.         Operations
    Application Process Flow      Start.............  ..................  End...............  Migrated To         Migrated To         Migrated To
     Management.                                                                               Operations.         Operations.         Operations
    Application Middleware        ..................  Start.............  End...............  Migrated To         Migrated To         Migrated To
     Performance Upgrade.                                                                      Operations.         Operations.         Operations
    Enterprise Data Management..  ..................  Start.............  End...............  Migrated To         Migrated To         Migrated To
                                                                                               Operations.         Operations.         Operations
    Enterprise Reporting          ..................  Start.............  ..................  End...............  Migrated To         Migrated To
     Performance Capability.                                                                                       Operations.         Operations
    Application Process Flow      ..................  Start.............  End...............  Migrated To         Migrated To         Migrated To
     Management Reposi-  tory.                                                                 Operations.         Operations.         Operations
    IT Infrastructure             Start.............  ..................  End...............  Migrated To         Migrated To         Migrated To
     Architecture Management.                                                                  Operations.         Operations.         Operations
    End to End User Performance   Start.............  ..................  End...............  Migrated To         Migrated To         Migrated To
     Monitor.                                                                                  Operations.         Operations.         Operations
    Hosting and Network           Start.............  End...............  Migrated To         Migrated To         Migrated To         Migrated To
     Management.                                                           Operations.         Operations.         Operations.         Operations
    Hardware/Software & Telecom   Start.............  ..................  End...............  Migrated To         Migrated To         Migrated To
     Performance Enhancements.                                                                 Operations.         Operations.         Operations
    System Center & Service       Start.............  ..................  End...............  Migrated To         Migrated To         Migrated To
     Oriented Monitoring.                                                                      Operations.         Operations.         Operations
    Problem Detection             ..................  Start.............  End...............  Migrated To         Migrated To         Migrated To
     Performance Monitoring.                                                                   Operations.         Operations.         Operations
--------------------------------------------------------------------------------------------------------------------------------------------------------

    The Modernize and Innovate the Delivery of Agricultural Systems 
(MIDAS) program is designed to transform the FSA delivery of farm 
program benefits, on behalf of the Commodity Credit Corporation (CCC), 
into a 21st century business model. MIDAS will streamline FSA business 
processes and develop a modernized long-term IT system and architecture 
to meet the needs of our customers, USDA, and other stakeholders.
    The total implementation cost for MIDAS is estimated to be $304.7 
million. In fiscal year 2006, fiscal year 2007 and fiscal year 2008, 
FSA utilized $2,716,000 of Salary and Expense funds for pre-planning 
and project office set up. These pre-planning costs were not part of 
the $304.7 million estimate.
    This amount has not changed and is consistent with previous reports 
submitted to Congress. MIDAS is currently on track. With enactment of 
the current fiscal year 2011 request, a total of $159.9 million will 
have been provided for this project to date (see table below). 
Therefore $144.8 million is needed to fund the remaining costs of 
MIDAS.
    See the cost table below for MIDAS funding.

                                                      MIDAS
----------------------------------------------------------------------------------------------------------------
                                       Actual       Actual       Actual       Actual
          Funding source            fiscal year  fiscal year  fiscal year  fiscal year  Fiscal year  Fiscal year
                                        2006         2007         2008         2009         2010         2011
----------------------------------------------------------------------------------------------------------------
S&E Base..........................      $40,000      $40,000     $676,000   $1,000,000   $2,600,000  $49,500,000
S&E Increase......................  ...........      636,000    1,324,000  ...........   46,900,000   39,300,000
Base Carryover....................  ...........  ...........  ...........  ...........    1,600,000  ...........
Recovery Act (ARRA)...............  ...........  ...........  ...........    5,600,000   13,400,000  ...........
                                   -----------------------------------------------------------------------------
      Total.......................       40,000      676,000    2,000,000    6,600,000   64,500,000   88,800,000
                                   -----------------------------------------------------------------------------
      Total MIDAS Project Costs...                                   304,700,000
----------------------------------------------------------------------------------------------------------------

    The table below identifies MIDAS's schedule until fiscal year 2014.

                                                                                              MIDAS
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
        Initiative/Task         Fiscal year 2006  Fiscal year 2007  Fiscal year 2008  Fiscal year 2009  Fiscal year 2010  Fiscal year 2011  Fiscal year 2012  Fiscal year 2013  Fiscal year 2014
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
MIDAS INVESTMENT TASKS:
    Pre-planning and project    Start...........  ................  End.............  ................  ................  ................  ................  ................  ................
     office set up.
    Acquisition and Planning--  ................  ................  ................  Start & End.....  ................  ................  ................  ................  ................
     Software and SI
     acquisition.
    Task Order 1--Planning....  ................  ................  ................  ................  Start & End.....  ................  ................  ................  ................
    Task Order 2--Proof of      ................  ................  ................  ................  Start...........  End.............  ................  ................  ................
     Concept and System Design
     Complete.
    Task Order 3--Initial       ................  ................  ................  ................  ................  Start...........  ................  End.............  ................
     Deployment.
    Task Order 4--Full          ................  ................  ................  ................  ................  ................  Start...........  ................  End
     Deployment.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

    Stabilization and MIDAS are just pieces of a larger FSA 
Modernization picture. Stabilization served as a necessary first piece 
to transform the IT environment to support the various initiatives of 
FSA's modernization plan. MIDAS is a significant piece that modernizes 
FSA's Farm programs; however, it is intertwined with several other 
modernization efforts. Currently, FSA is identifying funding needs and 
developing funding estimates for fiscal year 2012 to continue the 
journey to fulfill FSA Modernization. These efforts include
  --Enterprise wide modernization either by assuming a lead role or 
        partnering with USDA/agencies across the Federal Government 
        including Budget and Performance Management Systems (BPMS), Web 
        Based Supply Chain Management (WEBSCM) and Financial Management 
        Modernization Initiative (FMMI); and,
  --Acquisition and management of geo-spatial data and imagery in a way 
        that maximizes efficient collection and manipulation of 
        information while enhancing agricultural benefits 
        administration and program monitoring. FSA intends to enhance 
        such program capabilities as assembly, storage, transfer, 
        manipulation, and display of geo-spatial data.
  --Full modernization of all FSA program delivery including Farm 
        Loans, and also Commodity Operations, not just Farm Programs.
    All these efforts are required to move FSA's IT environment from 
one reliant on old/unsupported technology, isolated business processes 
using paper and manual operations, and limited online service and 
functionality to an open and portable 21st century environment that 
provides IT services, support, delivery and operations for the delivery 
of essential farm business management information and program benefits 
to farmers and ranchers. FSA will also transform the IT environment and 
infrastructure to deliver quick response solutions, such as farm bill 
requirements, when asked.
     section 719 of the proposed 2011 act/farm bill implementation
    Question. Section 719 would permit the use of CCC funds provided in 
the 2008 farm bill for various program benefits to also be used for 
salaries and related expenses to carry out those programs. Please 
provide information on a program by program basis indicating the 
amounts of funding that would be transferred for this purpose.
    Answer. The Recovery Act provides authority for USDA to use funds 
provided for certain farm bill programs for administrative expenses 
associated with implementing the programs. This authority expires at 
the end of September 2010. The 2011 budget requests similar authority 
to allow USDA to continue implementing these farm bill programs. The 
information provided below reflects the amounts apportioned for program 
implementation in fiscal year 2010. Actual obligations may be less.
    [The information follows:]

ADMINISTRATIVE EXPENSES TAKEN FROM PROGRAM LEVELS AUTHORIZED IN THE 2008
                                FARM BILL
------------------------------------------------------------------------
                                                          Administrative
                         Program                              expense
                                                             estimates
------------------------------------------------------------------------
Market Access Program...................................      $4,980,000
Foreign Market Development Cooperator Program...........       1,530,000
Technical Assistance for Specialty Crops Program........       1,000,000
Emerging Markets Program................................       1,350,000
Quality Samples Program.................................         330,000
Local and Regional Purchase Pilot Program...............       1,550,000
Food for Progress.......................................       3,300,000
Marketing Loss Assistance Asparagus.....................          96,000
Voluntary Public Access Program.........................         175,000
Farmers Market Protection Program.......................         682,000
Specialty Crop Block Grants.............................         637,000
Plant Pest and Disease Management.......................      10,000,000
National Clean Plant Network............................         485,000
                                                         ---------------
      SUBTOTAL..........................................      26,115,000
                                                         ===============
Additional CCC Spending\1\:
    Feedstock Flexibility...............................          50,000
    Biomass Crop Assistance Program.....................       3,000,000
                                                         ---------------
      SUBTOTAL..........................................       3,050,000
                                                         ===============
      TOTAL.............................................      29,165,000
                                                         ===============
Recap by Agency:
    Farm Service Agency.................................       3,321,000
    Foreign Agricultural Service........................      14,040,000
    Agricultural Marketing Service......................       1,319,000
    Animal and Plant Health Inspection Service..........      10,485,000
                                                         ---------------
      TOTAL.............................................      29,165,000
------------------------------------------------------------------------
\1\ Mandatory funding is provided ``as such sums as are necessary''.

                                 ______
                                 
               Questions Submitted by Senator Tom Harkin
               women, infants and children (wic) program
    Question. WIC is a sound investment, not only because of the 
extraordinary benefits for participants, but also because it is one of 
the most cost-efficient benefit programs. One of the reasons that WIC 
continues to be able to serve all eligible applicants is because 
Congress and the Department of Agriculture have taken seriously the 
responsibility to control the program's costs.
    USDA just released a report that found that WIC is paying $127 
million more annually for infant formula under the contracts that are 
currently in place than under previous contracts, after adjusting for 
inflation. The Economic Research Service at USDA attributed nearly 
three quarters of the increase to increases in the inflation-adjusted 
price of infant formula (the remainder reflect lower rebate bids). The 
report concluded that the increase in infant formula price is largely 
explained by the introduction into formulas of two long-chain 
polyunsaturated fatty acids, which were followed by wholesale price 
increases of some 7 to 30 percent above the prices of what had 
previously been standard formulas.
    Please explain whether the Department agrees with the details of 
the ERS report regarding the principal causes of price increases for 
infant formula in recent years (above the rate of inflation). Is the 
increased cost of infant formula in the WIC program a concern to you, 
and if so, what will be the response of the Department?
    Answer. While I have not personally reviewed the conclusions of the 
ERS report you mention, I am confident that their analysis is rigorous 
and sound.
    The Department is always concerned about costs which impact the WIC 
Program's ability to serve the greatest number of eligible persons 
within the funds made available to it. FNS continually monitors program 
costs, market trends, and developments in an effort to ensure WIC pays 
competitive prices for all eligible foods and infant formula in 
particular. FNS also reviews State agency rebate solicitations to 
ensure the solicitations comply with Federal requirements established 
to maintain an even playing field for formula manufacturers, thereby 
fostering competition.
                         nrcs oig audit report
    Question. Please detail all actions taken to respond to the Office 
of Inspector General audit report of November 13, 2008. Do you believe 
the actions taken thus far will adequately address the issues raised in 
the OIG report? Why or why not?
    Answer. NRCS has taken numerous actions since the OIG audit report 
was issued in 2008 to improve the condition of financial information. 
While many actions have been completed, they have not yet been 
sufficient in scope to produce a clean audit opinion. Some of the 
actions planned but not yet completed will take more time and require 
more dedicated resources to complete. Information on actions completed 
to date is provided below for the record.
    [The information follows:]
    Training:
  --Ensured all employees who prepare agency financial statements 
        attend mandatory training presented by the U.S. Department of 
        Treasury.
  --Provided 2-day training which included a checklist reference guide 
        to State personnel on evaluating and reviewing the validity of 
        open obligations.
  --Developed and delivered training on the review and proper recording 
        of accruals, the accounting for reimbursable agreements, and 
        the review of cardholder transactions.
  --Ensured all employees completed required OCIO Information 
        Technology Services User Authorization Access Training Program.
    Policy and Procedures:
  --Reviewed, updated and issued interim policy and procedures to 
        ensure balances were valid, delivered orders were accrued in 
        accordance with policy, and obligations were properly recorded 
        on a timely basis.
  --Issued draft policy for reimbursable agreements and unfilled 
        customer orders.
  --Instituted a process effective December 22, 2008, to ensure general 
        ledger account relationship tests over Fund Balance with 
        Treasury are performed on a routine basis.
  --Reviewed and updated current change control policy and procedures 
        related to testing and approving application changes prior to 
        migration to production.
  --Reinforced the need for supervisors to adhere to policy and 
        procedures over reviewing purchase cardholder transactions.
  --Instituted procedures for management review of the monthly 
        statements for fleet card purchases. In addition to monitoring 
        activities, periodically sampled fleet card purchases during 
        OMB Circular A-123 testing cycle to ensure proper use and the 
        reasonability of the amount charged.
  --Reaffirmed guidance regarding the transfer of USDA Officer of the 
        Chief Information Office (OCIO) information technology 
        equipment at the State offices to the OCIO inventory listing 
        and monitored for compliance.
  --Developed and deployed a Web-based tool to assist State and 
        Headquarters personnel in a 100 percent review of open 
        obligations. On-going monitoring is conducted to ensure 
        compliance with policy and procedures. In fiscal year 2009, 
        this activity was performed quarterly. In fiscal year 2010, 
        NRCS plans to perform this activity three times.
    Reviews:
  --Conducted reviews of 20 States in fiscal year 2009 to ensure 
        compliance with the open obligation review.
  --Reviewed and ensured appropriate segregation of duties and 
        established guidelines and procedures for reviewing Co-Lab 
        project roles are performed on a periodic basis (Co-lab is a 
        collaboration system that NRCS uses to support software 
        development and maintenance).
  --Completed a review of the property systems to ensure bulk purchases 
        are properly classified.
    Accountability:
  --Developed a standardized certification statement that all allowance 
        holders are required to certify each quarter.
  --Developed an inventory of all leases. Received and classified all 
        leases prior to signing in order to ensure proper accounting 
        treatment. This inventory is compared to the information in the 
        USDA Corporate Property and Information System to ensure 
        completeness.
  --Instituted a management review process and approval of agency 
        financial statements.
    Security:
  --Modified the security tables in the USDA Foundation Financial 
        Information System (FFIS) to ensure appropriate segregation of 
        duties.
  --Revised the WebTCAS (Agency time reporting system) Risk Assessment 
        to account for all NIST SP 800-30 (Risk Management Guide for 
        Information Technology Systems) control areas and revised the 
        WebTCAS System Security Plan to account for all NIST SP 800-18 
        (Guide for Developing Security Plans for Federal Information 
        Systems) control areas.
    Despite the actions that NRCS has taken thus far, there are still 
challenges we are working to overcome. These include the following:
  --Turnover in key financial management positions.
  --Insufficient documentation of policy and procedures for financial 
        management activities that reflect the large number of 
        accounting standards and requirements promulgated in the past 
        decade.
  --Inadequate numbers of staff with appropriate skill level in 
        financial and administrative organizations at both Headquarters 
        and State organizations. Shortages are most acute in accounting 
        and involve developing policy, procedures and processes in 
        accounting operations at headquarters and State offices, 
        controls over financial reporting through OMB Circular A-123, 
        Appendix A, and support for the annual financial statement 
        audit.
  --Lack or inadequacy of Agency program systems to correctly capture 
        financial information without labor-intensive work-arounds.
    NRCS has recently taken steps with regard to each of these barriers 
as follows:
  --Recruited for a new CFO; selection process is underway.
  --The Accounting Officer position was recently vacated and will be 
        advertised soon.
  --The Agency is currently recruiting qualified individuals for 
        lateral reassignment to perform high-risk functions described 
        in the audit report.
  --NRCS leadership has procured the support of a firm to evaluate and 
        recommend an appropriate organization for financial and 
        administrative functions.
  --Training has been developed and delivered to employees with 
        responsibilities in financial and administrative functions.
  --The Agency is investing in a strategic initiative to streamline the 
        program, administrative and financial components of the 
        financial assistance programs (including mandatory funds). This 
        initiative will streamline and automate business processes 
        using role-based technology to most efficiently capture 
        financial transactions with the necessary internal controls.
  --The Agency is considering the centralization of certain 
        administrative/financial functions to ensure standardization, 
        accuracy and completeness of financial reporting.
  --The Agency has procured support for audit remediation support that 
        will begin in April 2010. The audit remediation contract will 
        focus on the weakness/risk that were initiatives in the audit. 
        The contractor will work with States on an individual basis to 
        focus the efforts under this contract including the hands-on 
        training of personnel and clean-up of the Agency's financial 
        records with regard to all the weaknesses and deficiencies 
        noted in the audit report.
    Question. If you believe the Department is not now capable of 
carrying out the conservation programs at the mandatory funding levels 
provided in the Food, Conservation and Energy Act of 2008, what further 
changes in management will be necessary for the Department to take to 
properly carry the programs out as required by law, and by what date 
would you expect to have made all necessary management changes?
    Answer. NRCS is currently working diligently to address management 
and financial concerns raised by its most recent stand-alone audit.
    The Agency has experienced expanded programmatic and administrative 
responsibilities with expanded and new programs in the recent farm 
bills. However, the workforce needed to effectively carry out the 
expanded responsibilities has not increased at a comparable level.
    To improve the efficiency and business management of the Agency, 
the following actions are taking place:
  --Implementing a conservation streamlining process that includes more 
        effective and efficient automated processes for managing 
        financial assistance programs. NRCS estimates this initiative 
        will reduce the administrative and clerical burdens on field 
        staff by over 80 percent once fully implemented. The 2011 
        budget includes a $5 million in to accelerate this process;
  --Improving internal controls in program databases;
  --Updating program policies to reflect current statues and 
        regulations;
  --Developing a managerial cost account methodology that clearly 
        defines and aligns the Agency's funding with performance; and
  --Conducting a workforce planning assessment to identify staffing 
        needs (i.e. positions and locations) and to better allocate 
        human resources.
    In addition to the actions listed above the 2011 budget includes 
the following initiatives for the Agency:
  --$25 million for the implementation of Strategic Watershed Action 
        Teams (SWATs) that will be deployed to high-priority watersheds 
        and landscapes to focus program assistance to more effectively 
        address resources concerns. The development and deployment of 
        SWATs will greatly improve the environmental cost effectiveness 
        of the Agency's programs. By significant planning, education, 
        and program implementation assistance, the technical assistance 
        teams will enhance the Agency's capability to strategically 
        invest in conservation and better target the Agency's financial 
        and technical assistance programs.
  --$35 million for the agency's share of the modernization and upgrade 
        to the Common Computer Environment (CCE) for the Service Center 
        Agencies (NRCS, Farm Services Agency (FSA) and Rural 
        Development (RD). The funding will be used to replace outdated 
        components of the CCE (reducing system vulnerabilities and 
        improving performance and effectiveness of the infrastructure 
        and allow for the first system-wide refresh since the system 
        was implemented in 2000).
    It is anticipated that it will take 3 to 5 years to complete these 
actions.
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan
                               mandan ars
    Question. Secretary Vilsack, I was disappointed that the 
President's fiscal year 2011 budget proposed a $543,000 cut in 
biofeedstock research at the Northern Great Plains Research Laboratory 
in Mandan, North Dakota. Bioenergy feedstock research is a priority for 
your Department and for the Congress. In fiscal year 2010 for example, 
Congress redirected money to this area and in your fiscal year 2011 
budget, you requested a $10 million increase for biofuels feedstock 
research. Can you explain why you cut the bioenergy feedstock funding 
at the Mandan ARS when it matches USDA's high priority research 
mission?
    Answer. The ARS fiscal year 2011 budget proposed to terminate all 
congressionally earmarked projects appropriated in fiscal year 2010, 
including the $543,000 earmarked for the Northern Great Plains Research 
Laboratory in Mandan, North Dakota. The proposed elimination of ARS 
earmarks and the redirection of these funds will offset the cost for 
new and expanded research initiatives, including the establishment of 
five Regional Biofuels Feedstocks Research and Development Centers.
                              smith-lever
    Question. Congress established the Cooperative Extension Service 
through the Smith-Lever Act of 1914. North Dakota has extension offices 
in 52 counties and on Fort Berthold Indian Reservation. Smith Lever 
funding is critical to our State in providing educational assistance 
and technical support to North Dakota rural communities. These funds 
are necessary in order to serve long term, short term and emergency 
needs in rural America. What steps are being taken by USDA to increase 
Smith Lever funding?
    Answer. The fiscal year 2011 President's budget request sustains 
support for the Smith-Lever 3(b) and (c) formula at the fiscal year 
2010 appropriated level. However, increased funding for AFRI will 
substantially support extension activities through growth in both 
extension focused awards and integrated research and education awards. 
The budget also seeks a funding increase for the Sustainable 
Agriculture Research and Education program, which is a critical element 
of extension delivery at the regional, State, and local levels. In 
addition, the 2008 farm bill provides funding for the Beginning Farmers 
and Ranchers Program, Organic Agriculture Research and Extension 
Initiative, and Specialty Crop Research Initiative which will support 
extension activities.
        tribal college and university community facility program
    Question. Congress established the Tribal Colleges and Universities 
Essential Community Facilities Program to help our Nation's tribal 
colleges and universities (TCU) address long overdue and high-priority 
infrastructure and facilities needs. The USDA's fiscal year 2011 budget 
proposes to eliminate entirely this vitally needed program for American 
Indians. Can you explain your reasoning for eliminating this program? I 
understand that USDA offers some competitive programs that could also 
offer a potential source of funding for TCUs. If the Department sees 
this as a viable alternative for these institutions, please provide an 
analysis of the success that TCU's have had in competing for general 
USDA programs and for land-grant programs.
    Answer. The reason the program is proposed for elimination in the 
2011 budget is that the tribal colleges and universities can compete 
for community facility funding without a specific set-aside. From 2001 
through 2009, TCUs received about $38 million in grants under the set-
aside, compared to about $229 million in grants, direct loans and loan 
guarantees that all tribal entities received under the community 
facility program, which shows that the TCU set-aside is only a modest 
portion of the assistance USDA is providing to meet the needs of 
American Indians. Further, tribes are eligible for several other USDA 
Rural Development programs, such as the business and industry 
guaranteed loan program and the rural business enterprise grant 
program.
            rural utilities service loan and grant programs
    Question. What is the Rural Utilities Service doing to ensure that 
the Broadband Initiatives Program promotes broadband deployment in 
unserved or underserved areas?
    Answer. With over 60 years of successful telecommunication 
financing experience, RUS will continue to strive to ensure that it 
provides loan and/or grant resources to eligible projects. Under our 
Broadband Initiatives Program (BIP), RUS has established an objective 
scoring process which incents applicants to bring the most robust 
service to the most rural and unserved areas. In fact, RUS gives 
priority to unserved and highly rural areas. RUS will rely heavily upon 
the information submitted by the applicant to prove the need for 
broadband service. To further validate this information, RUS will post 
all proposed service territory maps on broadbandusa.gov and allow 
incumbent providers to comment on whether these areas are unserved or 
underserved through Public Notice Responses (PNRs) received during a 
30-day comment period. RUS will rely upon these comments, along State 
broadband maps (where available), and both RUS and Rural Development 
Field Staff to validate the information when necessary.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                              food safety
    Question. I have been encouraged to see this administration's 
commitment to improving the safety of our food supply, and I commend 
you and Secretary Sebelius for forming the Food Safety Working Group. I 
know that you share my belief that there is much room for improvement 
in this area, and I would encourage you to examine these important 
issues with a very critical eye.
    Specifically, I am concerned about the chemical intensive 
production practices that are used to clean and prepare our meat, and I 
am concerned about the persistent presence of pathogens even after 
these chemical and antimicrobial processes have been applied.
    According to FSIS Directive 7120.1, industrial strength chemicals 
such as chlorine and ammonia, as well as carbon monoxide, and other 
complex chemical compounds can be used in the production and processing 
of meat products. What is even more shocking is that there is no 
requirement to label most of the additives on this list.
    Why doesn't the USDA require that all processes and processing 
agents be labeled on the packaging of meat products so that consumers 
will know exactly what they are consuming? Have you conducted any 
research that concludes that consumers do not want to know that these 
processing aids have been used on their meat products?
    Answer. Under a Memorandum of Understanding between the agencies, 
the U.S. Department of Health and Human Services' Food and Drug 
Administration (FDA) is responsible for determining whether or not 
substances are safe for use in meat and poultry products, and USDA's 
Food Safety and Inspection Service (FSIS) is responsible for 
determining the suitability of their intended use.
    FSIS strives to have consistent labeling policies with FDA. For 
example, FDA does not require processing aids to be declared on the 
label. Processing aids are ingredients that are present in a meat or 
poultry product in an insignificant amount and that have no functional 
or technical effects in the finished meat or poultry product.
    We have not conducted consumer research on processing aids. We do 
continually review our labeling policies and strive to ensure that 
consumers are not misled by information either on or missing from food 
packages.
    Question. Have you started any reviews, or taken any other steps to 
begin reevaluating the safety of all products that are currently listed 
as Generally Recognized As Safe (GRAS) using modern scientific 
standards?
    Answer. To conduct a review of GRAS substances would be very 
expensive, and we are not aware of any evidence that unsafe ingredients 
have been allowed for use in food by FDA or FSIS. The FDA is 
responsible for determining whether or not substances are safe for use 
in meat and poultry products, and issues GRAS notices regarding these 
substances. GRAS determinations are based on scientific data showing 
that, under the proposed conditions of use by industry, the substance 
is safe. Based on these findings, FSIS determines whether the proposed 
conditions of use by industry are suitable.
    Question. While the Food Safety Inspection Service is testing meat 
products for the presence of the deadly E. coli O157:h7, what other 
pathogens are inspectors looking for? Why are the tolerance levels for 
these other pathogens, such as Salmonella which also has the potential 
to cause debilitating illnesses significantly higher than the tolerance 
levels for E. coli O157? When is the agency going to develop pathogen 
reduction activities and set performance goals for non-O157:H7 Shiga 
toxin producing escherichia coli (STEC)?
    Answer. The Department is continuing its intensive efforts targeted 
at reducing the incidence of foodborne illness and the prevalence of 
foodborne pathogens in the meat, poultry and processed egg supply. 
Inspection program personnel sample for a variety of foodborne 
pathogens, including Salmonella, E. coli O157:H7, Listeria 
monocytogenes, and they will soon sample for Campylobacter.
    Reducing the prevalence of Salmonella is a priority of the 
President's Food Safety Working Group (FSWG) as part of its first core 
principle of preventing harm to consumers. As part of the FSWG 
recommendations, we are in the process of finalizing revised 
performance standards for use in reducing the prevalence of Salmonella 
in turkeys and young chickens. Our goal, as part of FSWG, is that 90 
percent of all poultry establishments meet the new standards by the end 
of 2010. Performance standards assess the plant's process control by 
testing for the presence of the pathogen in product. By revising 
current performance standards, we will have a means to measure whether 
food safety improvements are occurring in the products it regulates.
    Currently FSIS is collaborating with USDA's Agricultural Research 
Service to develop a laboratory test for non-O157 Shiga toxin-producing 
E. coli (STEC).
                                 citrus
    Question. I remain very concerned about the citrus industry in 
California. The Asian Citrus Psyllid has now been found in five 
counties and the pest is quickly approaching the major citrus producing 
regions of my State. Although no cases of citrus greening have yet been 
reported, producers believe that unless a resistant citrus strain is 
identified or dramatic action is taken to stop the spread of the 
psyllid that it is only a matter of time before this catastrophic 
disease infects our citrus trees.
    In your effort to stop the spread of the Asian Citrus Psyllid, how 
are you engaging the Mexican government, and what efforts are you 
taking to help prevent or slow the pest's movement north across the 
border? Have you engaged the Government of Belize in similar efforts? 
To what extent do you believe these efforts will help citrus growers in 
California?
    What research is being done to help identify resistant citrus 
varieties and how soon do you expect these varieties to be made 
available for commercial use?
    The Asian Citrus Psyllid infestation has been particularly hard on 
citrus nurseries because of the extended latency period of the 
Huanglongbing disease. What resources are you dedicating to help 
protect the existing citrus nursery stock in California, and have you 
been able to identify any ways to provide an earlier diagnosis of the 
Citrus Greening disease?
    Answer. Protecting agriculture from pest and diseases remains a 
priority for the Department. Like you, we are also very concerned about 
the potential for citrus greening (CG) to spread to additional citrus 
producing States like California. To protect California and other 
States, the Animal and Plant Health Inspection Service (APHIS) is 
conducting survey and regulatory activities for both the Asian citrus 
psyllid (ACP) and CG. In addition, APHIS is working with State and 
industry cooperators to implement control measures aimed at suppressing 
ACP populations and preventing or slowing the spread of CG. APHIS is 
working closely with the Mexican government to delimit and suppress ACP 
populations along the United States-Mexico border. APHIS spent $800,000 
in fiscal year 2009, and is spending $1.7 million in fiscal year 2010, 
to assist the Mexican government with these activities along the 
border.
    While APHIS is not conducting suppression activities in Belize, the 
Agency is coordinating efforts with its government as well. APHIS, 
Mexico, and Belize recently developed a tri-national strategic and 
operational plan to address citrus diseases. This plan established 
harmonized protocols that each country will use for survey, regulatory, 
and control activities and will help enhance coordination of 
protection, response, and recovery from ACP and CG.
    APHIS is coordinating research efforts on ACP and CG with the 
Agricultural Research Service, the National Institute of Food and 
Agriculture, universities, and industry stakeholders. The areas being 
investigated include survey and detection methods, diagnostic tools, 
control tools (biological and chemical), as well as the development of 
citrus varieties resistant to CG. Research and development of resistant 
varieties started more than a year ago, and APHIS, along with its 
stakeholders and partners, recognizes the importance that such 
varieties could play in successfully mitigating the effects of ACP and 
CG on U.S. citrus production. However, we are not able to specify a 
timeframe for when the varieties may be available for commercial use.
    APHIS also recognizes the concerns of the nursery industry about 
the impact the detection of CG in California could have on the State's 
ability to move its products. APHIS' current quarantine restrictions on 
areas with CG prevent any host plants from being moved out of the 
quarantine area. To protect California (and other States), APHIS is 
working to improve strategies for early detection of citrus diseases. 
Current efforts include protocols that intensify sampling for CG as 
soon as ACP is detected in an area. APHIS also is working to prevent or 
slow the spread of ACP from the areas currently affected in California, 
which do not include citrus or nursery stock producing areas at this 
time.
    Additionally, the California Department of Food and Agriculture is 
conducting ACP suppression efforts. APHIS is spending $14.5 million on 
Citrus Health Response Program activities in California and continues 
to review the current regulatory response to ACP and CG while research 
into new detection and treatment methods continues.
                                organic
    Question. I have been encouraged to see that the administration is 
committed to improving the organic industry in our country, and the 
inclusion of $10.1 million for the National Organic Program in the 
President's budget was an important step to ensure the integrity of 
USDA's organic label. However, I am concerned that the President's 
fiscal year 2011 budget cuts funding for competitive organic research 
programs by $5 million. With these cuts, funding for organic research 
amounts to only 1.3 percent of the total budget for the National 
Institute of Food and Agriculture.
    This proposed reduction in dedicated organic research funding 
appears to be at odds with the administration's commitment to support 
the growth and development of organic agriculture.
    Can you please explain this decision to reduce the level of organic 
research funding in your fiscal year 2011 proposed budget?
    Answer. In efforts to streamline program delivery, the National 
Institute of Food and Agriculture proposes to eliminate funding of $5 
million for the Organic Transition Program (OTP). In fiscal year 2011, 
$20 million in mandatory funding through the Organic Agriculture 
Research and Extension Initiative is available for research on 
organics. Programs such as the Specialty Crop Research Initiative, 
Agriculture and Food Research Initiative, and Sustainable Agriculture 
Research and Education Programs also support organic activities. These 
competitive programs as well as State and local governments, and 
private sources, could be used to support aspects of OTP deemed to be 
of priority at State and/or local levels.
    Question. I am also concerned that some producers are taking 
advantage of the USDA Organic label, and that the current standards, 
oversight and enforcement options at the National Organic Program are 
not strong enough. What reassurances can you give me that the National 
Organic Program is actively seeking out producers that are cheating the 
system and penalizing them for their actions? With the additional 
funding in the fiscal year 2011 budget, how do you intend to improve 
enforcement of NOP standards in the coming year?
    Answer. The National Organic Program continues to actively work to 
enforce NOP regulations in the United States and internationally. The 
NOP is working closely with accredited certifying agents to verify and 
enforce organic standards. We are conducting market surveillance of 
organic labels and the organic market to ensure proper labeling. NOP 
has begun taking steps to resolve compliance and enforcement cases more 
quickly by increasing staff, establishing standard operating 
procedures, and enhancing use of tracking and monitoring systems. In 
addition, NOP is planning to develop an administrative sanctions policy 
to specify when civil penalties or other sanctions are warranted; 
implement a more efficient system for tracking and resolving 
complaints; strengthen oversight of certifying agents and operations; 
publish a program manual to serve as a guide for certifying agents on 
NOP regulations; and develop a quality manual to comply with 
international accreditation norms.
    Internationally the National Organic Program has conducted 
extensive audits of certifiers and certified operations in Europe 
(United Kingdom, Italy, Spain, Germany, Netherlands, Austria, and 
Switzerland) South and Central America (Bolivia, Brazil, Argentina, 
Chile, Costa Rica, and Peru), Australia, and Canada through the course 
of accreditation audits of certifiers based in those countries. 
Protocols for auditing large international certifying agents now 
include site reviews of certified operations outside of the certifiers' 
home country of operations.
    With the funding increase in fiscal year 2011 the National Organic 
Program will continue to improve compliance with program regulations 
and will enhance the integrity of the organic label. Of the $3.111 
million funding increase requested for fiscal year 2011, $2.11 million 
will provide the resources needed to accelerate the review and 
amendment, as required, of the program standards and regulations to 
reflect industry and consumer expectations through a transparent and 
participatory process; improve the consistency in certifier application 
of the standards, explore statutory authority to strengthen compliance, 
ensure label integrity, and respond to requests for international 
equivalency agreements.
                               pesticides
    Question. Environmental, public health, and farming groups have all 
contacted me to express concerns about the EPA's review of pesticide 
use. I understand that there are concerns about pesticide drift and the 
impact of these pesticides on endangered species. It is my hope that 
you will be engaging with the EPA on this matter to ensure that the 
concerns of all parties can be addressed.
    What is USDA doing to ensure that pesticides can be used by farmers 
in a safe way?
    Answer. The Agricultural Research Service (ARS) conducts research 
on technologies to minimize spray drift by investigation of spray-drift 
management, maximizing field deposition and targeted spraying to 
minimize spray drift. Technologies and application guidelines are 
developed to ensure that the right amount of pesticide is applied to 
the right location at the best time. More precision of application 
ensures reduced losses to the atmosphere and waterways, thus reducing 
economic losses to the farmer, fostering more sustainable production 
and ensuring that the demands of a growing population for food, fiber, 
feed and fuel can be met while improving environmental quality. ARS and 
the Forest Service are actively supporting EPA's efforts to advance 
Drift Reduction Technology.
    In addition to ARS, the National Institute of Food and Agriculture 
(NIFA) engages in promoting the safe application of pesticides through 
numerous activities. After the passage of the Food Quality and 
Protection Act (FQPA) in 1996, a number of Integrated Pest Management 
(IPM) programs were developed by the Cooperative State Research, 
Education and Extension Service (now the National Institute of Food and 
Agriculture or NIFA), with an emphasis on the development and 
implementation of safer alternative pest management practices and 
strategies. These programs include the Regional IPM Centers, the 
Extension IPM Coordination and Support Program, the Pest Management 
Alternatives Program, the Regional IPM Program, the Crops at Risk 
Program, the Risk Avoidance and Mitigation Program, and the Methyl 
Bromide Transitions Program. All of these programs encourage the use of 
IPM strategies, which provide a sustainable approach to managing pests 
by combining biological, cultural, physical, and chemical tools in a 
way that minimizes economic, health, and environmental risks. In 
addition, the Pesticide Safety Education Program, managed jointly by 
the U.S. Environmental Protection Agency (EPA) and NIFA, supports 
educational programs for pesticide applicators in the proper use of 
pest management technologies.
    Because these programs encourage and support the use of IPM and 
best management practices, and the judicious use of more selective and 
carefully timed pesticides, the risks from pesticide drift to natural 
enemies, pollinators, endangered species, wildlife and human health are 
minimized. Projects supported by many of these programs have documented 
significant reductions in pesticide use.
    I will have ARS and NIFA provide additional information for the 
record.
    [The information follows:]
    DepositScan, a portable scanning system that was developed at 
Wooster, Ohio, to enable farmers to optimize equipment settings, 
techniques, and practices; train applicators to accurately apply 
chemicals on targets; and accelerate manufacturers' processes for new 
pesticide formulations and pesticide spraying equipment. The software 
for DepositScan is available to the public without charge, and can be 
downloaded from the Web site: http://ars.usda.gov/mwa/wooster/atru/
depositscan.
    Assessments of methods that can be used to test potential drift 
reduction technologies (DRTs).--In cooperation with the U.S. EPA Office 
of Pesticide Programs, this work at College Station, Texas, included 
testing protocols for ground and aerial DRTs, and assessments of 
various spray nozzles and the droplet sizes produced. This is critical 
in providing the aerial application industry with scientifically sound 
information, protocols, and new technology to assure ongoing compliance 
with evolving regulatory requirements.
    New spray nozzles improve herbicide application efficiency.--New 
spray technologies developed at College Station, Texas, allow herbicide 
applicators to optimize the efficiency of sprays so that effective weed 
control can be achieved with a minimum amount of glyphosate. The work 
clearly showed that rotary atomizer and electrostatic nozzles provide 
superior herbicide efficacy and permit reduced amounts of liquid spray 
applications, thus reducing application costs and environmental 
impacts.
    Optimizing pesticide application rate technology for nursery 
production.--Various adjustments of air-assisted sprayers developed by 
ARS scientists at Wooster, Ohio, resulted in one-half the usage of 
pesticides for pest and disease controls in nursery shade tree plants. 
By using the half-rate technology, growers safeguarded the environment 
due to pesticide applications and reported savings of over $200-$500 
per acre.
    Developing ways to prevent devastating soybean disease.--Small 
droplet applications designed at Wooster, Ohio, to improve coverage can 
effectively treat the target area if air-assistance is used to help 
provide extra energy to penetrate down to the plants' lower leaves, 
where the potentially devastating Asian soybean rust fungus can hide. 
Applicators will know the importance of matching the application 
equipment parameters with the pesticide choice to provide the most 
efficacious applications.
    Increased efficiency and safety through drip applications.--
Researchers at Bushland, Texas, and Parlier, California, have developed 
surface and subsurface drip and microdrip irrigation technologies that 
minimize weeds in cropping systems. Drip irrigation minimizes water 
that would support weed growth, eliminates the need for aerial sprays, 
lessens runoff, reduces worker exposure, and cuts the use of herbicides 
and tillage otherwise needed for weed control.
    Artificial wetlands that capture pesticides.--Researchers at 
Oxford, Mississippi, and Tifton, Georgia, have developed constructed, 
artificial wetland systems to capture agricultural drainage waters and 
reduce nutrient levels and allow time for the dissipation and decay of 
pesticides. This research helps to determine the fate and transport of 
nutrients and pesticides and helps to establish design parameters for 
wetlands. This information is also valuable in predicting how climate, 
soils and management affect the cycling of these contaminants.
    Sensor for smart application of pesticides.--Researchers at 
Lincoln, Nebraska, and Bushland, Texas, have developed active light 
reflectance sensor technologies for use in precision agriculture on 
sprinkler systems. The sensors are designed to detect the health or 
stress of growing crops and when connected to control systems, can 
direct on-the-go variable rate herbicide, fungicide, pesticide or plant 
growth regulator applications; or can map specific crop attributes or 
conditions while crop scouting. Active sensor use for management of 
crop inputs such as pesticides and nutrients can improve efficiency and 
profitability, while enhancing environmental quality.
    Contributions to interagency technical and financial assistance to 
growers and U.S. EPA.--ARS' Office of Pest Management Policy works with 
the four regional Integrated Pest Management Centers (funded by the 
USDA National Institute of Food and Agriculture) and grower 
representatives to provide information to EPA on how pesticides are 
used and to help determine how they can be used safely for workers and 
the environment. The Pest Management Centers' Crop Profiles and Pest 
Management Strategic Plans, produced in cooperation with the EPA, 
support pesticide Registration Review efforts and identify pesticide 
alternatives. The Natural Resources Conservation Service provides 
information on the use of conservation practice standards and 
Integrated Pest Management (IPM) techniques in the local Field Office 
Technical Guide (FOTG). The Window Pesticide Screening Tool (WIN-PST) 
is used to assist with site specific management of pesticide use at the 
farmer level. Financial assistance is provided by the Environmental 
Incentive Program (EQIP) and Conservation Security Program (CSP) which 
encourages farmers to use conservation practices and IPM techniques 
that reduce the risk of degrading natural resources and follow label 
instructions. The Animal and Plant Health Inspection Service (APHIS) 
implements procedures to ensure that staff applying pesticides have 
taken appropriate training and certification classes specific to their 
State requirements and any special pesticide requirements.
    NIFA and other USDA agencies are currently involved in discussions 
with EPA concerning their review of pesticide use and the forthcoming 
draft National Pollution Discharge Elimination System Program (NPDES) 
general permit. EPA has encouraged Federal agency comment on the draft 
permit. We are encouraged that the use of IPM strategies is anticipated 
to be among the requirements for obtaining an NPDES general permit.
    The Regional IPM Centers promote the development and implementation 
of IPM strategies by facilitating collaboration across States, 
disciplines, and purposes. They serve as focal points for regional pest 
management information networks, collaborative team building, and 
broad-based stakeholder participation. The end result is increased 
coordination of IPM research, education and extension efforts and 
enhanced responsiveness to critical pest management challenges. The 
four Regional IPM Centers serve the needs of the north central, 
northeastern, southern and western regions of the United States.
    The Extension IPM Coordination and Support Program supports 
regional, State, and local efforts in advancing the goals of the 
National Roadmap for IPM by addressing priority needs associated with 
the coordination, design, development, implementation, and evaluation 
of Extension IPM programs. The program helps agricultural producers and 
other pest managers adopt alternative pest management practices through 
training, demonstration, and evaluation of methods and strategies.
    The Pesticide Safety Education Program, managed jointly by EPA and 
NIFA, supports educational programs for pesticide applicators in the 
proper use of pest management technologies. Extension programs at land 
grant institutions, in conjunction with State regulatory agencies that 
certify and license applicators, provide these education programs.
    The Pest Management Alternatives Program supports the development 
and implementation of pest management alternatives when regulatory 
action, voluntary action by the registrant, or other circumstances 
results in the unavailability of certain pesticides or pesticide uses. 
Through these grants, new pest management tools and techniques are 
developed to address critical pest problems identified by pest managers 
and other stakeholders. This program works with the Regional IPM 
Centers to identify and address regional priorities established by 
stakeholders.
    The Regional IPM Program is managed by the Regional IPM Centers and 
supports the development and implementation of new and modified IPM 
tactics and systems, their validation in production systems, and the 
delivery of educational programs to pest managers, advisors, and 
producers. The program builds stakeholder partnerships to address 
critical pest management needs in each region.
                                 dairy
    Question. I understand that USDA is nearing the completion of the 
Dairy Economic Loss Assistance Program that was authorized and funded 
by this subcommittee last year to assist dairy producers who have 
struggled as a result of last year's record low prices.
    Since the implementation of this program, what steps has the 
Department taken to address the long term problems in the dairy 
industry and avoid similar collapses in the coming years? Do you 
believe that any of the supply management proposals will be able to 
stabilize the dairy market, or does the Department believe that other 
alternatives would be more appropriate?
    When will the Department endorse a specific plan to stabilize the 
volatile dairy market?
    Answer. Since payments were initiated under the Dairy Economic Loss 
Assistance Program, USDA continues to operate the Milk Income Loss 
Contract (MILC), the Dairy Export Incentive and the Dairy Product Price 
Support programs as authorized under the 2008 farm bill. Dairy 
producers may elect to enroll in the Risk Management Agency's Livestock 
Gross Margin for Dairy Cattle Insurance Policy to provide protection 
against volatility in milk prices and feed costs. The Department 
continues to reduce its inventory of surplus nonfat dry milk through 
barter and other arrangements in order to provide nutritious and 
wholesome foods to low-income families and bring dairy product markets 
into better balance.
    In addition, we have taken steps to move forward with the USDA 
Dairy Industry Advisory Committee, which will have its first formal 
meeting April 13-15, 2010. We will be looking to this diverse group of 
17 individuals to provide insights regarding the issues of farm milk 
price volatility and dairy farmer profitability. As you suggest, supply 
management likely will be a topic that this subcommittee addresses. 
USDA eagerly awaits the recommendations of the Dairy Industry Advisory 
Committee and their insights regarding measures to reduce volatility in 
dairy markets.
               women, infants and children (wic) program
    Question. The WIC program purchases infant formula at a substantial 
discount to provide to low-income mothers and children. Under the 
program, a competitive bidding process is used in which manufacturers 
offer discounts (rebates) to a State WIC program in exchange for being 
the sole formula provider in that State.
    USDA recently released a report that found that the WIC program is 
paying $127 million more annually for infant formula under the 
contracts that are currently in place than under previous contracts.
    Considering that the program now spends about $800 million each 
year on infant formula, that is a significant increase. The report says 
that the main reason for the increase is that WIC is providing more 
expensive formulas with certain fatty acids. Can you please explain 
this trend?
    Answer. During 2002 and 2003, manufacturers introduced an infant 
formula that was supplemented with the fatty acids docosahexaenoic acid 
(DHA) and arachidonic acid (ARA). Manufacturers' advertisements claim 
the additional nutrients support the mental development and visual 
acuity of infants. The wholesale price of the formula was more than the 
non-enhanced formulas. Since the introduction of the DHA/ARA-enhanced 
infant formula, manufacturers have mostly phased out the production of 
non-enhanced formulas. In addition, manufacturers have submitted bids 
for infant formula rebate contracts using the DHA/ARA-enhanced infant 
formula. As a result of formula availability and contract requirements, 
WIC State agencies are issuing the enhanced infant formulas on a 
regular basis.
    Question. Does USDA have any authority that would prevent WIC from 
having to pay more if new, even more costly, formulas are introduced?
    Answer. USDA does not have authority that prevents WIC from having 
to pay more for new and more costly formula. The State agencies 
contract with infant formula manufacturers and accept the bid that 
provides the lowest net cost for the formula the manufacturer has 
determined meets contract requirements. If the infant formula 
manufacturer adds a new, more costly formula after the contract has 
been awarded, State agencies have the discretion to deny its inclusion 
to the State agency's allowable food list and thus not pay for the more 
costly formula during the life of the contract, which is typically 3-5 
years.
    The Department is always concerned about costs which impact the WIC 
Program's ability to serve the greatest number of eligible persons 
within the funds made available to it. USDA continually monitors 
program costs, market trends, and developments in an effort to ensure 
WIC pays competitive prices for all eligible foods and infant formula 
in particular. We review State agency rebate solicitations to ensure 
the solicitations comply with Federal requirements established to 
maintain an even playing field for formula manufacturers, thereby 
fostering competition.
    It is worth noting that it is FDA that determines the regulatory 
requirements for infant formulas and determines if a product may be 
marketed in the United States. Due to the array of infant formulas that 
are produced and in order to ensure infant formula rebate solicitations 
remain competitive, WIC Program regulations require State agencies to 
issue rebate solicitations for an infant formula that is suitable for 
routine issuance to the majority of generally healthy, full-term 
infants. The infant formula manufacturer determines the formula that 
best meets this requirement. The lowest bidder is awarded the contract, 
and the formula that the manufacturer bid is considered the Primary 
Contract Brand infant formula. The Primary Contract Brand formula is 
considered the formula of first choice and all other infant formulas 
are considered alternative formulas.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
                         market access program
    Question. The administration recently announced its intent to 
increase U.S. exports through a National Export Initiative. But while 
the administration's fiscal year 2011 budget invests in a number of 
programs aimed at export promotion, it proposes a 20 percent reduction 
in funding for the Market Access Program (MAP). MAP has played an 
important role in making our products competitive overseas. The program 
effectively leverages public and private resources to establish and 
build export markets abroad and increase farmer profitability. Overseas 
markets are critical for agricultural producers in Illinois and across 
the country. I am pleased that this administration is committed to 
eliminating trade barriers and boosting U.S. agricultural exports, and 
believe MAP, a program with a proven track record, can contribute to 
that goal. Are there specific concerns with MAP's effectiveness to date 
that led to the proposal to scale back even while renewing the 
commitment to expand exports of U.S. products?
    Answer. The fiscal year 2011 budget proposes a series of 
adjustments in the funding levels for USDA's market development 
programs to provide a better balance among them and to reflect the 
changing nature of agricultural trade competition. While the requested 
2011 MAP funding is reduced from $200 million in 2010, to $160 million, 
that level provides program funding nearly 80 percent above 2001.
    At the same time, the proposed budget includes increases in 2011 to 
double annual funding for the Foreign Market Development (Cooperator) 
Program and Technical Assistance for Specialty Crops (TASC) Program to 
address long-term barriers to export growth. The budget also includes 
an increase of $10 million for the Foreign Agricultural Service to 
expand its exporter assistance efforts, trade missions, in-country 
promotions, and trade enforcement activities to remove non-tariff trade 
barriers, such as unwarranted sanitary and phytosanitary standards. 
Annual funding for the Cooperator program has remained relatively 
stagnant since the early 1980s, which has tended to discourage new 
organizations from participating and new types of activities from being 
undertaken. The proposed increase in TASC program funding reflects the 
growing importance of specialty crops for U.S. agricultural trade 
growth and the contribution the program has made in resolving numerous 
trade barriers.
                         mc govern-dole program
    Question. The McGovern-Dole International Food for Education and 
Child Nutrition Program reduces child hunger and promotes education by 
providing meals to vulnerable children at schools in the world's 
poorest countries. The Program was developed to expand and improve upon 
a $300 million pilot program known as the Global Food for Education 
Initiative, which was created by President Clinton in 2000. Although 
the McGovern-Dole Program was authorized by Congress in the 2002 farm 
bill and reauthorized in 2008, it has never received the level of 
funding provided for the GFEI pilot program. I was pleased the 
administration's fiscal year 2010 budget provided a significant boost 
in funding to the McGovern-Dole Program. I understand the budget 
constraints that may have influenced the decision to flat fund the 
program in fiscal year 2011. What plans does the Department have to 
ensure the future growth of this very important program?
    Answer. USDA believes the McGovern-Dole International Food for 
Education Program is a crucial tool for improving education, nutrition, 
health, and the general food security of women and children worldwide 
and requested a doubling of the budget in 2010. We continue to improve 
the program through increased monitoring and evaluation, improved 
indicators, and increased collaboration with host country governments.
                       conservation partnerships
    Question. The administration's budget directs NRCS dollars to 
programs that ``focus on addressing the needs of priority landscapes in 
the most need of protection, and emphasize partnering with local 
constituents to efficiently implement programs and initiatives.'' I'd 
like to highlight a great conservation partnership that has developed 
in Illinois. The Illinois Department of Natural Resources has been 
working with organizations that specialize in landscape and habitat 
restoration to help private landowners restore vital watersheds 
throughout central and southern Illinois. What is the Department doing 
to encourage more of these partnerships, particularly those that serve 
to multiply benefits by using the technical assistance and expertise of 
State agencies and qualified private organizations?
    Answer. The Cooperative Conservation Partnership Initiative (CCPI), 
established in section 2707 of the Food, Conservation, and Energy Act 
of 2008, gives the NRCS legal authority to enter into partnership 
agreements with eligible entities, including State agencies and 
qualified private organizations, to enhance conservation outcomes on 
agricultural and nonindustrial private forest lands. In 2010 NRCS will 
offer CCPI through the Mississippi River Basin Healthy Watershed 
Initiative (MRBI) and the Chesapeake Bay Watershed Initiative (CBWI). 
Through these initiatives, NRCS and its partners will provide technical 
assistance to help landowners and operators voluntarily implement 
conservation systems to address resource concerns in priority 
watersheds.
    Federal, State, and Local partners are critical to the 
implementation of the CBWI and have been engaged through State 
Technical and partner meetings. In many cases, partners, especially 
Conservation Districts, are able to provide both technical and or 
financial assistance that complements the goals of the CBWI. For 2010, 
three locations in the Chesapeake Bay Watershed have been chosen as 
Showcase Watersheds (Conowago PA, Upper Chester MD, and Smith Creek 
VA). The objective of the Showcase projects is to reduce nutrient 
loading into waterways while demonstrating and documenting the 
effective voluntary implementation of priority conservation practices 
and ``Cooperative Conservation Partnerships''. These watersheds will be 
the locations for increased outreach activities (with potential 
interaction with every farmer in the watershed). In addition, the U.S. 
Geological Survey and other scientific partners will provide water 
quality monitoring services to watch for potential in-stream responses 
from the increased conservation efforts.
    In 2010, Environmental Protection Agency received $475 million for 
the inter-agency Great Lakes Restoration Initiative (GLRI) to address 
regional issues that affect the Great Lakes, such as invasive species, 
habitat and wildlife protection and restoration, non-point source 
pollution, and contaminated sediment. As a Federal partner in the GLRI, 
NRCS will receive $34 million in fiscal year 2010, to purchase 
conservation easements and implement conservation systems in priority 
watersheds in the Great Lakes. Through GLRI, NRCS will also partner 
with the Great Lakes Commission to support the Great Lakes Basin 
Program for Soil Erosion and Sediment Control. The Great Lakes Basin 
Program will provide financial assistance, information and education, 
and technical assistance to partner agencies, landowners, and operators 
to protect and improve water quality in the Great Lakes Basin by 
reducing soil erosion and improving sediment control.
    The Agricultural Water Enhancement Program (AWEP) also provides an 
excellent opportunity for partnership with State and local entities. 
Under AWEP, NRCS enters into partnership agreements with eligible 
entities that want to promote ground and surface water conservation or 
improve water quality on agricultural lands. After the NRCS Chief has 
announced approved AWEP project areas, eligible producers submit 
applications for financial and technical assistance to implement water 
enhancement activities. AWEP will be offered in 2010.
    On March 12, 2010, USDA announced the Sage-Grouse Initiative. 
Sixteen million dollars in Environmental Quality Incentives Program 
(EQIP) and Wildlife Habitat Incentive Program (WHIP) funds will be used 
to assist private landowners with implementing conservation practices 
that address the many threats to sage-grouse habitat. This funding will 
be available in all 11 States that have sage grouse populations: 
California, Colorado, Idaho, Montana, Nevada, North Dakota, Oregon, 
South Dakota, Utah, Washington, and Wyoming. By providing a focused 
effort across multiple States, NRCS can ensure funds are prioritized 
consistently to provide the highest potential of improving the quality 
of sage-grouse habitat. There will be close collaboration of many 
stakeholders, including the State fish and wildlife agencies, in this 
effort to ensure that NRCS activities complement efforts already 
underway.
                              food safety
    Question. The National School Lunch program provides a valuable 
service to our Nation, by ensuring that over 32 million children each 
day are well fed and ready to learn. With so many of our Nation's 
youngsters relying on this program, we must take necessary steps to 
ensure that the food they are consuming is safe. While USDA and FDA 
both work hard to ensure the safety of our food supply, in the past 
some school kids have been served--and even sickened by--products that 
should never have been consumed because they were recalled. In a report 
on this issue, GAO recommended that changes to Federal agencies' 
procedures could reduce the risk of school children consuming recalled 
food. I understand that USDA and FDA are finalizing a Memorandum of 
Understanding that will provide for specific notification to the USDA's 
Food and Nutrition Service, Agricultural Marketing Service, and Farm 
Service Agency during FDA investigations that may involve commodities 
intended for school meal programs. Can you give me an update on the 
status of the MOU?
    Answer. The health and safety of the children we serve each day in 
our school nutrition programs is of the utmost importance to us. The 
Food and Nutrition Service (FNS), Agricultural Marketing Service (AMS), 
and Farm Service Agency (FSA) work closely with the regulatory 
agencies, Food and Drug Administration (FDA) and the Food Safety and 
Inspection Service (FSIS) to provide interlocking rings of protection 
against foodborne illness. FNS, AMS, and FSA are strengthening the 
bonds with FDA by drafting an MOU on communications during food safety 
investigations and recalls. USDA is working closely with FDA to create 
an MOU that meets the needs of all agencies involved. A final MOU is 
expected by the end of the fiscal year.
    FNS closely monitors data from the Centers for Disease Control and 
Prevention (CDC), the FDA, and other sources to ensure we are reducing 
the impact of foodborne illness in schools to the greatest extent 
possible. Illnesses linked to recalled foods in schools are very rare, 
and there is no evidence of any cases of foodborne illness being 
attributed to recalled USDA commodity food that was served at schools 
in the last 10 years. The primary cause of foodborne illness in schools 
is norovirus, which recently was characterized and published by FNS in 
the Journal of Environmental Health. That article described the 
analysis of CDC foodborne illness outbreak data and showed that 
norovirus was confirmed as being responsible for over 60 percent of 
outbreaks in schools (Venuto et al., Journal of Environmental Health, 
2010. Available at http://www.fns.usda.gov/fns/safety/pdf/
JEH_2010.pdf). Food is generally contaminated with norovirus by 
infected food handlers, and FNS has launched an educational campaign to 
address this issue with food service workers in the National School 
Lunch Program.
    FNS and FDA are working together on other fronts as well. We have a 
joint research project to address improper cooling of foods in schools, 
another frequently cited cause of foodborne illness outbreaks.
                            imports of dogs
    Question. I worked to include language in the 2008 farm bill to 
prevent the import of underage, unhealthy dogs destined for resale in 
the United States. The final bill, signed into law in June 2008, 
provides USDA APHIS with new enforcement authority and requires that 
dogs imported to the United States for resale be at least 6 months of 
age, properly vaccinated, and in good health. Please provide an update 
on the status of USDA's regulations for enforcement of the farm bill's 
puppy import restrictions.
    Answer. As mandated by the 2008 farm bill, APHIS is coordinating 
with the Department of Health and Human Services' Centers for Disease 
Control and Prevention, the Department of Commerce's Chief Counsel for 
Regulations, and the Department of Homeland Security's Customs and 
Border Protection to develop appropriate dog import regulations and 
enforcement strategies. APHIS anticipates that the proposed rule will 
be published in the Federal Register and available for comment by the 
summer of 2010.
                                 ______
                                 
               Questions Submitted by Senator Tim Johnson
                       animal disease traceabilty
    Question. Many farmers and ranchers in South Dakota were very 
pleased to hear that USDA recently scrapped the proposed National 
Animal Identification System, as it was seen to be invasive and 
burdensome. We've heard USDA estimates that a new animal disease 
traceability system would take roughly 18 months to complete--how will 
you involve farmers and ranchers in the program's development and 
ensure transparency?
    Answer. We are committed to ensuring transparency and openly 
working with States, tribes, and producers in the new approach for 
animal disease traceability. In keeping with the spirit of the 
listening sessions we held last year, we are holding a forum March 18-
19, 2010, in Kansas City, Missouri, with States and tribes to discuss 
the new approach and to discuss their ideas for achieving a workable 
animal disease traceability framework.
    APHIS also established a working group to develop regulations 
related to animal disease traceability. The working group consists of 
Federal, State, and tribal animal health officials who assess options 
for the animal disease traceability framework, provide input to the 
Agency, and review feedback received from stakeholders, such as 
ranchers and farmers. Input and feedback can be provided through local 
animal health officials, and by contacting the USDA area veterinarian 
in charge, State veterinarian, or tribal animal health officials. 
Contact information for State veterinarians is available on USDA's 
animal disease traceability Web site at: http://www.aphis.usda.gov/
traceability.
    USDA will also establish a Secretary's Advisory Committee on Animal 
Health to provide feedback to the Department. Membership on this 
Advisory Committee will be completed in a transparent manner, with a 
call for nominations that will be published in the Federal Register. In 
addition, if States, tribes, and industry need species working groups, 
USDA will establish these groups under the Advisory Committee on Animal 
Health. Upon publication of the proposed rule, APHIS will offer a 
comment period of 90 days for comments and feedback from farmers, 
ranchers, and other interested parties. APHIS will also ensure timely 
updates to the Agency's traceability Web site to honor our commitment 
to transparency.
                       country of origin labeling
    Question. Thank you for your work in implementing Country of Origin 
Labeling. As you know, this has been a substantial priority for me 
since 1992. USDA conducted a survey to ascertain how COOL was being 
implemented in accordance with Congressional intent. When will the 
results of that survey be released?
    Answer. Since the COOL Final Rule went into effect, USDA has been 
carrying out compliance activities through conducting in-store retail 
reviews. In calendar Year 2009, COOL compliance reviews were performed 
in 3,871 retail stores where approximately 1.16 million item types 
(e.g., U.S. Choice Strip Steak, company branded strip steak, bin of 
tomatoes, package of carrots, Tilapia fillet, etc.) were evaluated. By 
this summer, we plan to have completed a total of 12,700 reviews.
    We are currently in preparations to post information related to our 
compliance-related activities on the USDA Web site late this spring. We 
will ensure this information is provided to you at that time.
                      ``actively engaged'' farmer
    Question. I am disappointed to see that USDA's rules on farm 
program payment limits do not include a stronger interpretation of what 
it means to be an ``actively engaged'' farmer. Will USDA revisit this 
definition?
    Answer. For more than 20 years, Congress and USDA have worked to 
ensure that farm program benefits only go to farmers who are actively 
engaged in farming. For 2009-12, new requirements were placed on the 
contributions of active personal labor and/or active personal 
management by the partners, stockholders, and members of some types of 
legal entities in the determination of actively engaged in farming. 
These changes include:
  --Each of the partners, stockholders, or members must make a 
        contribution of active personal labor and/or active personal 
        management to the farming operation that must be performed on a 
        regular basis, be identifiable and documentable, and separate 
        and be distinct from the contributions of any other partner, 
        stockholder, or member of the farming operation;
  --The contribution of the partners, stockholders and members must be 
        significant and commensurate; the legal entity will make 
        contributions to the farming operation that are at risk for a 
        loss, with the level of risk being commensurate with the 
        claimed share of the farming operation; and
  --The failure of any partner, stockholder, or member to meet this 
        requirement will result in a reduction of payments to the 
        payment entity commensurate with the ownership share held by 
        that interest holder.
    On an on-going basis, USDA examines the definitions and parameters 
we use for a wide variety of programs. Likewise, staff continually 
reviews our actively engaged regulations to determine whether changes 
in those regulations are needed to prevent farm program payments going 
to non-farmers. Given the changing structure of agriculture--including 
how operations are run and their financial and ownership structures--we 
are evaluating options to best ensure that our programs are equitable 
and efficient to all, while at the same time taking into account a wide 
variety of viewpoints.
               veterinary medical loan repayment program
    Question. I am glad to see USDA has implemented the Veterinary 
Medical Loan Repayment Program. I am concerned, however, that the 
timeline to turn in shortage area nominations has been too compressed. 
What outreach has USDA undertaken to ensure that every State has ample 
opportunity to participate in this program, and has USDA received 
complaints from State Animal Health Officials about the timeline?
    Answer. On July 9, 2009, the National Institute of Food and 
Agriculture (NIFA) published an interim final rule and request for 
comments on this program.
    The rule clearly stated the intent of was to solicit nominations of 
shortage areas, and spelled out in detail the procedure to be followed. 
The rule also explicitly stated the Agency's intention to solicit 
nominations for a period of 60 days. Insofar as this interim final rule 
was published approximately 6 months prior to actually calling for 
nominations, we believe that the 60 day response period is sufficient 
and reasonable. I will have NIFA provide additional information for the 
record.
    [The information follows:]
    The period for submitting shortage area nominations ended on March 
8, and we received 249 nominations from 48 States and the Republic of 
Marshall Islands. We did not receive any complaints with respect to the 
time we allowed for nominations from any of the State Animal Health 
Officials (SAHO).
    All States submitted nominations except Massachusetts and Hawaii 
and the District of Columbia). We contacted the SAHO of Massachusetts 
and Hawaii and both indicated that this was not a priority concern for 
them. Neither indicated that the compressed timeline was a factor.
    There was considerable effort made to ensure eligible entities were 
informed and engaged. All Chief Animal Health Officials received 
information and reminders about the nomination process both leading up 
to and after release of the Federal Register notice soliciting 
nominations. The National Assembly of State Animal Health Officials 
(NASAHO) and the United States Animal Health Association (USAHA), both 
with memberships comprising the authorized respondents to this 
solicitation, were very helpful sending out notices and reminders to 
respond by the deadline.
    Although the intention was to solicit nominations for a period of 
60 days, we determined that a period of 45 days was necessary to allow 
for sufficient time to review and certify shortage areas prior to the 
opening of the VMLRP application period on April 30. Given that this 
was the first year of implementation, we were prepared to allow a grace 
period to those that needed extra time to submit their nominations.
                   conservation technical assistance
    Question. I've heard many times from conservation groups that a 
crucial piece of conservation program implementation is an adequate 
focus and dedication to technical assistance to ensure producers are in 
compliance with program requirements. What are your thoughts on 
technical assistance, and will you place additional emphasis on this?
    Answer. The successful delivery of conservation technical 
assistance is inherently a field-based activity. Since 2002, increased 
administrative workload associated with increased financial assistance 
programs has reduced the amount of time field staff can spend in the 
field during the planning process. At the same time the financial 
assistance funding has increased, the number of NRCS FTE's has remained 
relatively stable. To streamline the business processes required to 
support conservation planning and contract development, NRCS is 
designing a mobile conservation planning tool that will be a critical 
part of our delivery model in the future. NRCS envisions having field 
staff in the field, working with clients 65 to 80 percent of the time. 
Web-based applications will integrate Geographic Information System 
services and mobile computing so that planning and contract development 
will occur simultaneously as the planner is working in the field.
    The streamlining effort and next generation tools will: (1) make 
participation in USDA's conservation programs easier for customers and 
the delivery of programs less complex for employees; (2) increase 
efficiencies by streamlining and integrating processes across business 
lines, and (3) ensure the continued science-based delivery of 
technically sound conservation products and services.
    NRCS envisions deploying Strategic Watershed Action Teams (SWATs) 
consisting of five to seven people (approximately 35 teams or 175 
FTEs), for a period of 3 to 5 years in a specified geographic location. 
These teams will include Soil Conservationists, technicians and 
specialists and will be identified based on the needed technical 
expertise in each watershed. The number of teams deployed for each 
watershed will depend on the analysis of natural resource and 
socioeconomic data of the region and will be decided based on a formula 
that NRCS will develop.
    The development and deployment of SWATs will greatly improve the 
environmental cost effectiveness of NRCS technical and financial 
assistance programs. By significant planning, education, and program 
implementation assistance, the technical assistance teams will enhance 
the Agency's capability to strategically invest in conservation and 
better target the Agency's financial and technical assistance programs.
    The goal of deploying the SWATs will be to reach every eligible 
landowner in a targeted watershed and provide them with the technical 
assistance to assess their natural resource conditions and offer 
resource planning and program help. Emphasis in resource assessment and 
planning will be placed on those resource conditions that are of 
priority interest in the selected watershed.
                                 ______
                                 
               Questions Submitted by Senator Ben Nelson
                rural microenterprise assistance program
    Question. I worked to get the Rural Microenterprise Assistance 
Program (RMAP) into the 2008 farm bill (The Food, Conservation, and 
Energy Act, Public Law 110-246), which was signed into law on in June 
of 2008. Unfortunately 20 months later we are still waiting for USDA to 
roll out this new initiative.
    With small business making up 90 percent of all rural businesses 
and over one-million rural businesses containing 20 or fewer employees; 
Congress supported the creation of RMAP, and provided mandatory funding 
for the initiative. Because we wanted to address the financing needs of 
small rural businesses, particularly the small firms with less than 10 
employees that have always had a difficult time securing affordable and 
flexible financing.
    The current economic slowdown has made it even more difficult for 
these businesses. The reasons: banks are no longer willing to provide 
capital for expansion, for working capital or for equipment. The 
situation is even more dire for start-up businesses that do not have a 
track record and must depend on ``character lending.'' The start-ups 
and micro businesses are on the chopping block for private credit even 
with a good business plan and/or record of success. While the 
Department published a proposed rule on RMAP last fall, we have seen 
nothing since. When can we expect the program to be implemented?
    Answer. We anticipate that an interim rule will be published in 
April 2010 and that the Notice of Funds Availability (NOFA) will follow 
shortly thereafter.
    Question. Can you provide a timetable for issuing a publication of 
a final rule, Notice of Fund Availability, application deadlines and 
loan and grant awards?
    Answer. We anticipate publication of the Interim Rule in April, 
2010 and that a NOFA will follow very shortly thereafter. Applications 
could be accepted as early as May with the first awards being made in 
August.
    Question. The budget proposes a reduction of $1.65 million in 
microenterprise assistance grants. A number of Members expressed 
concern in a letter to the Department November 23, 2009 that the 
proposed rule did not adequately address need to ensure that the 
government's investment in this program was protected through technical 
assistance to borrowers nor did the rule seem to fully grasp the 
importance of helping those entities and organizations with community 
need but without the capacity to implement a program authorized under 
RMAP right this second. What is the view of the Department on technical 
assistance activities authorized under RMAP?
    Answer. The Department fully realizes the importance of technical 
assistance to micro-borrowers and potential micro-borrowers. We also 
recognize the subcommittee's position regarding the expansion of the 
microenterprise development industry into areas without immediate 
capacity. Upon receipt of the November 23rd letter the Department 
internally addressed each of the subcommittee's concerns in developing 
the interim rule. The rule is currently under review.
    In that same letter, we also commented on the proposed rule 
regarding loan rates and loan loss reserves. In our view the statute is 
clear in mandating 1 percent loans to intermediaries. The rule proposed 
a different and in our view more confusing approach. The proposed rule 
also required borrowers to fund from their own resources the loan loss 
reserve. This requirement will serve to limit participation of 
organizations with limited resources. Our suggestion was to fund that 
out of the Federal loan.
    Question. What is the Department's view on these issues?
    Answer. We agree that the rate structure in the proposed rule was 
not straight-forward. This issue has been addressed in the interim 
rule. We believe that the interim rule is much simpler.
    Regarding the Loan Loss Reserve Fund (LLRF), we fully understand 
the subcommittee's position regarding lowering the cost of program 
participation by funding the LLRF with Federal funding.
                                research
    Question. The scarcity of food and the disappearance of fuel have 
the potential to be major crises that could develop across the world. 
Certainly research in Agriculture has the potential to mitigate the 
impact of these possible shortages.
    While we have seen significant sums of research funding through the 
National Science Foundation, National Institutes of Health, DOE's 
Office of Science, we have not had the same investment in agricultural 
research. The proposed $1.35 billion in discretionary spending for the 
National Institute of Food and Agriculture (NIFA) is the same level as 
last year.
    Recognizing agricultural research can address these challenges and 
find solutions--by addressing water quality and quantity issues; 
adapting to climate change and the effect it has on agriculture and 
forestry; increasing food production for a raising population with 
reduced inputs; and promoting renewable fuels to replace dependence on 
foreign fossil fuels--how do you anticipate utilizing the fund that are 
available to promote these activities?
    What can be done in the future to get Agricultural research the 
recognition it deserves to grab a greater share of the overall Federal 
budget?
    Answer. We have taken a critical step toward giving agricultural 
science the recognition it deserves by substantially increasing funding 
for the Agriculture and Food Research Initiative competitive grant 
program which is focused on high priority issues where science and 
education can solve real problems in agriculture--improving food 
safety, reducing childhood obesity, adapting and mitigating climate 
change, expanding biofuels, and addressing world hunger. NIFA will 
focus resources on larger, longer programs to create substantial 
impacts in addressing critical issues facing the long-term viability of 
agriculture. By working with the best and brightest scientist across 
the Nation, and continuing to foster collaborations with other science 
agencies, we hope to reposition agricultural research within the 
Federal science enterprise.
                      international food security
    Question. Continuing on the importance of food scarcity and 
security, could you elaborate on your plans for international food 
security?
    Answer. USDA is participating in a ``whole-of-government'' approach 
to a global food security initiative called ``Feed the Future.'' The 
U.S. strategy will:
  --Address the underlying causes of hunger with a comprehensive 
        approach by focusing on agricultural productivity, linking 
        farmers to markets, and reducing under-nutrition;
  --Invest in country-led plans and tailoring assistance to the needs 
        of individual countries through country-led consultations and 
        investment plans;
  --Improve strategic coordination through participation of all 
        stakeholders to ensure efficiency, effectiveness, and 
        accountability;
  --Leverage the strengths of multilateral institutions to deliver 
        resources effectively, increase resources, and promote 
        inclusive policy dialog; and
  --Make long-term, sustained and accountable investments and use 
        benchmarks and targets to measure progress toward meeting the 
        initiative's goals.
    USDA's role will be to leverage the wealth of knowledge and 
expertise it possesses to support the U.S. initiative in areas of (1) 
basic agricultural research, (2) adaptive research that takes 
scientific innovation and output to farmers and processors, and (3) 
capacity building to ensure sustained country ability to build and 
maintain agricultural statistics systems; enhance capabilities with 
Ministries of Agriculture; link farmers to markets; conduct policy and 
market analysis; and create and oversee modern food safety standards 
and regulations. USDA will not have the lead for the U.S. Government 
for agricultural development activities.
                      international food security
    Question. Many of our universities have long worked on agricultural 
production around the world. What do you see as the partnership role 
between these universities and USDA in addressing the issues of 
international food security?
    Answer. Global food security is one of USDA's Research, Education, 
and Economics agencies' Challenge Areas and it is addressed in part 
through the NIFA's partnership with land grant and other public 
universities. USDA international activities and outreach often involve 
and rely upon expertise and experience of academic personnel from our 
universities. For instance, because of their experience and expertise 
in Haitian soils and agriculture, researchers from Auburn University 
(Alabama), the University of Florida, and Virginia Tech University were 
in the group that was there to set up soil fertility evaluations and 
recommendations when recent earthquake there occurred. NIFA's 2010 
Agriculture and Food Research Initiative (AFRI) will have a request for 
application on Global Food Security and will award grants for research, 
extension, and education in this area to universities and other 
research institutions. Also, it is anticipated that much of USDA's 
research, education, and outreach commitment to the Global Research 
Alliance for Agricultural Greenhouse Gases will be accomplished through 
grants to U.S. universities. In addition to reducing greenhouse gases 
from agriculture, this research will improve international food 
security. It is further anticipated that leading scientists from 
universities will participate in the research groups of the Alliance 
and provide input and expertise for many of the Alliance's activities. 
NIFA's International Programs section also administers funds awarded to 
U.S. universities in the area of international agricultural production 
and food security. For instance, in 2008, 23 institutions received 
grants to enhance capabilities of U.S. universities to conduct 
international collaborative research, extension, and teaching through 
the competitively awarded International Science and Education Grants 
program. The projects will enhance the international content of 
curricula, provide faculty with the opportunity to work outside the 
United States to bring lessons learned back to the classroom, promote 
international research partnerships, enhance the use and application of 
foreign technologies in the United States and strengthen the role that 
colleges and universities play in maintaining U.S. competitiveness.
    Question. While DOE has made huge investments in biofuels, their 
investments in renewable it is towards non-grain cellulosic ethanol. 
These priorities ignore the years of success made by grain ethanol and 
the efficiency gains made by the industry that will continue to 
drastically reduce greenhouse gas emissions and improve the 
profitability in the first generation of biofuels. What steps is USDA 
taking to ensure the continued success of grain based biofuels and the 
expansion of cellulosic biofuels in order for farmers and ranchers to 
be a part of their expansion and rural communities can benefit from 
their development?
    Answer. Much of the interest in non-grain cellulosic ethanol, 
including USDA's guaranteeing of a loan to Range Fuels under the 
Biorefinery Assistance Program is driven by the realization that grain 
ethanol alone cannot met the Nation's renewable energy standard of 36 
billions of renewable fuel by 2022--four times the 2008 level--without 
significant impacts on U.S. exports of grain, land usage, a food 
prices. Cellulosic ethanol production currently limited to small pilot 
projects. Although there are several commercial sized plants under 
development, grain ethanol production is expected to remain viable into 
the foreseeable future, at least for as long as it continues to receive 
the Government's subsidy through tax credits. USDA fully appreciates 
the benefits that grain ethanol has provided to many rural communities, 
and will continue to conduct research to increase yields to keep 
abreast of the market potential for both grain ethanol and bio-diesel. 
USDA also understands that there are potential benefits for cellulosic 
ethanol and other renewable fuels that also need to be tapped through 
its research. In addition, USDA administers a number of 2008 farm bill 
programs that support the commercialization of advanced fuels.
                   national drought mitigation center
    Question. With USDA reorganizing its research priorities the 
National Drought Mitigation Center (NDMC) was not included in the 
Department's fiscal year 2011 budget. Based at the University of 
Nebraska--Lincoln, NDMC helps people and institutions develop and 
implement measures to reduce societal vulnerability to drought. By 
stressing preparation and risk management over crisis management, the 
Center provides valuable research that is utilized by all levels 
government and the agriculture sector to lessen the impact of drought.
    While we will work to provide funding for the Center through our 
work in Congress, what can be done to protect the valuable work of the 
NDMC and ensure its funding for years to come?
    Answer. Mitigation and adaptation to climate change will be one of 
the focus areas of the Requests for Applications in the Agriculture and 
Food Research Initiative competitive grants program in 2010 and 
anticipated in 2011, where the NDMC should be well positioned to 
compete.
                                 trade
    Question. The U.S. Department of Agriculture has again targeted the 
Market Access Program for a 20 percent reduction. While the budget 
proposes an additional $53.5 million for Department of Agriculture 
export promotion activities, of which $34.5 million is for the Foreign 
Market Development program, I am concerned about any reduction in 
funding for programs that assist farmers and ranchers to gain access in 
foreign markets and help their products overcome the inherent biases 
and barriers that can block access to the market.
    I would like to hear more about the Department's efforts in helping 
agriculture keep up with the fluctuations in the market. What steps is 
it taking to help overcome new regulations and barriers that our 
international partners are putting up to our agricultural products?
    Answer. As tariff barriers declined with the emergence of the World 
Trade Organization (WTO), there has been a dramatic increase in non-
tariff barriers to trade such as unnecessarily restrictive and 
scientifically unjustified regulations to protect human, animal and 
plant health, and technical barriers to trade (TBTs). In spite of the 
WTO Sanitary and Phytosanitary (SPS) and TBT Agreements, countries have 
increasingly erected SPS and technical barriers as a means to protect 
domestic industries in the face of quickly growing global trade.
    High priority SPS and TBT issues for USDA include restoring the 
Russian market for poultry, the Turkish market for biotech cotton and 
soybeans, the Japanese beef market, and harmonizing international 
standards for maximum residue levels for pesticides and veterinary 
drugs.
    Within the Department, FAS provides overall leadership on trade 
issues. In Washington, FAS assesses the trade implications of foreign 
regulations, and coordinates strategies to address priority trade 
barriers. Overseas, FAS and the Animal and Plant Health Inspection 
Service (APHIS) address border-entry problems affecting U.S. exporters, 
and provide valuable information on foreign regulations. APHIS 
negotiates international standards related to plant and animal health--
the most effective way to prevent new trade barriers in those sectors. 
The U.S. Office for Codex Alimentarius, housed in the Food Safety 
mission area, promotes science-based regulations and standards around 
the world, while the Food Safety and Inspection Service technical 
programs ensure that foreign governments recognize the U.S. food safety 
systems for meat, poultry, and egg products. Agricultural Marketing 
Service verification programs provide the ability to certify to many 
foreign government trade requirements. USDA capacity building programs, 
conducted by several agencies, train foreign governments in science-
based regulatory decisionmaking to prevent new barriers to trade.
                        rural utilities service
    Question. The President's fiscal year 2011 Budget has proposed to 
cut the Rural Utility Service (RUS) Electric Loan program by $2.5 
billion and prevent RUS lending for peaking natural gas plants, as well 
as environmental upgrades to existing power plants.
    While the shape of future energy legislation is a bit uncertain; 
what is for sure, is our Nation's utilities will need to begin to move 
towards cleaner and more efficient means for energy. My concern is by 
cutting this loan program and placing restrictions on lending, we are 
hindering our small rural utilities from securing the funds necessary 
to help them to make the transition to cleaner burning fuels and 
renewable wind power, to help them mitigate the potential costs of any 
future energy legislation.
    At this time of energy transition, why does the Department feel it 
is necessary to lessen the capabilities of the Electric Loan Program; 
especially if it actually saves the government money by bringing loan 
repayments into the treasury and reduces ratepayers energy costs by 
spurring the development of efficiencies and renewable.
    Answer. The budget request for the RUS Electric Program reflects 
the level that will be needed to finance borrower requests since the 
agency is not currently financing base load generation projects. The 
budget request also reflects the President's commitment not to provide 
subsidies for fossil fuels. Restricting the use of RUS electric loans 
to non-fossil fuel projects will increase the emphasis on moving 
towards cleaner and more efficient means of energy and spurring 
technological development.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
                                  snap
    Question. Mr. Secretary, thank you for your work and commitment to 
ensure that all Americans have access to safe, nutritious foods and 
particularly for your support of the Supplemental Nutrition Assistance 
Program (SNAP). The increase in participation over the last year is 
clearly a sign of the tough economic times we face, but it is also a 
result of USDA's and your efforts to encourage eligible individuals to 
apply for benefits. In addition, the temporary benefit increase 
provided under the Recovery Act has helped participants and has 
provided an economic lift, since each dollar in benefits increases GDP 
by $1.73, according to economist Mark Zandi.
    In Rhode Island, where unemployment is just under 13 percent, SNAP 
benefits have been a life-line for thousands of families who have been 
out of work for months. Nonetheless, it has at times been difficult for 
individuals to get enrolled in the program, particularly in States like 
mine, where State resources have been stretched to the breaking point. 
Indeed the State of Rhode Island was sued and entered into a settlement 
agreement last year over its failure to process applications within the 
statutory time lines. As you know, the Recovery Act, as well as the 
fiscal year 2010 Defense Appropriations Act, provided administrative 
funding to help States with SNAP enrollments.
    Can you comment on how the States have used these funds? Are they 
investing in personnel, in equipment? Have they been effective in using 
these resources to expedite the enrollment process? How are you 
evaluating their performance and how is USDA encouraging them to use 
their additional administrative funding wisely?
    Answer. States are required to report on how they spend ARRA funds 
to administer SNAP. ARRA reporting is done in a manner that is similar 
to how States report spending regular SNAP administrative funds. 
According to those reports, it is clear that States are overwhelmingly 
spending ARRA funds on staffing to address the increased workload 
resulting from the rising SNAP caseloads. In fact, our reports show 
that in 2009, over 80 percent of the ARRA funding was used to hire and 
maintain staff. Early reports for 2010 indicate a similar trend. We 
also know that many States have taken this opportunity to use ARRA 
funding to update work environments to better handle the increase in 
demand for this critical nutrition program.
    Rhode Island received $471,124 as a result of ARRA in fiscal year 
2009 and an additional $476,014 in fiscal year 2010. In addition, Rhode 
Island received $1,501,575 from the Department of Defense (DOD) 
appropriations in fiscal year 2010. Rhode Island reported that they 
used their fiscal year 2009 ARRA funds for staff overtime to clear 
application backlogs and to purchase new telephone systems to lay the 
groundwork for a statewide call center model to improve customer 
service and increase efficiency. Finally, they also developed automated 
noticing and recertification packages to alleviate staff of 
administrative tasks so that their time could be spent on other 
certification related activities. The State plans to use fiscal year 
2010 funds to further support a call center model. Early indications 
are that Rhode Island intends to use their DOD money to hire additional 
staff.
    USDA works with State partners to ensure that they understand the 
purpose of both ARRA and Department of Defense appropriations funding. 
In addition to both the ARRA and regular administrative cost reporting 
requirements, USDA evaluates State performance through multiple 
mechanisms including participation rates, management evaluations, 
quality control error rates, timeliness measures and continuous 
monitoring and oversight by the regional office.
    We recognize the workload pressures faced by States. USDA offers 
technical assistance to encourage States to wisely spend ARRA funds in 
ways that maximize quality customer service for SNAP applicants and 
participants. Additional guidance was issued to State agencies on March 
15, 2010, to help ensure that States are using the ARRA administrative 
funds for their intended purposes. Over 7 million more people have been 
enrolled in SNAP over the past year. We believe that the ARRA funding 
has been instrumental in enabling State agencies to respond to this 
increased need.
                  rural development--rural definition
    Question. Mr. Secretary, although some may not consider Rhode 
Island to be a rural or agricultural State, it does have rural 
communities and agriculture. As a result, it has benefited (and done 
good things) with rural development funding through USDA. Regrettably, 
as the result of new statutory requirements and institutional bias, 
States like Rhode Island have found it difficult to access funding that 
had traditionally been available to them. If this trend continues, I am 
concerned that my constituents will view USDA Rural Development in the 
same way they view the Bureau of Reclamation: an agency that their tax 
dollars support but which provides them with no direct benefit.
    I appreciate your efforts, as well as those of Chairman Kohl, last 
year to restore the eligibility of several communities in my State, as 
well as Massachusetts and Connecticut, which had been deemed ineligible 
for rural development grants and loans under an administrative ruling, 
even though these communities had long histories of participating in 
these programs. Under the 2008 farm bill, USDA is charged with 
developing an equitable definition of rural communities.
    Can you provide an update on that process and the steps that you 
are taking to ensure equity for communities in States like mine?
    Answer. The confusion that has existed in the Northeast relates to 
the fact that there are many villages and boroughs in the Northeast and 
these terms are not defined in either the 2008 farm bill or prior 
legislation. The long standing policy of allowing villages and boroughs 
to be considered eligible on the same basis as a town has been restored 
through an Administrative Notice sent to Rural Development field staff. 
This policy appears to be the best approach to providing equity for 
Northeastern States.
    As for the changes in the definitions of rural and rural areas that 
were included in the 2008 farm bill, they involve a considerable amount 
of area mapping that has yet to be done. Further, regulations will need 
to be developed with regard to the discretionary authority given to the 
Under Secretary for Rural Development to make a determination on 
whether certain areas are ``rural in character.'' This work is not 
likely to be completed before next year. In the interim, the Under 
Secretary of Rural Development will accept, as provided by law, the 
petition of a unit of government in areas described in the farm bill 
language for such a determination and will act accordingly.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor
            administration's funding of catfish inspections
    Question. The President's budget recommends $5 million for catfish 
inspection needs in 2011. This is a decrease of $10.3 million from 2010 
levels. The budget cited the ``investment to date and the need for 
considerable stakeholder engagement and regulatory development before 
the adoption and implementation of a catfish inspection program'' as 
justification for the decrease. This Congress approved the last farm 
bill in June of 2008 and provided 180 days for the administration to 
complete its rulemaking process and implement the rule for catfish 
import inspections. Can you tell the subcommittee where we are in the 
rulemaking process, which is now over a year and a half overdue, and 
explain why the administration is seeking fewer resources for 
implementation?
    Answer. We believe that the $5 million requested for catfish 
inspection is adequate to meet essential program needs in fiscal year 
2011. The draft proposed rule is currently under review. In the 
meantime, we are working diligently in order to develop the foundation 
needed to assume catfish inspection responsibilities upon 
implementation of a final rule.
                   poultry imports (chinese chicken)
    Question. Last year, with the help of USDA, Congresswoman DeLauro, 
and members of the Appropriations Committee, we included food safety 
language in the fiscal year 2010 Agriculture Appropriations bill to 
provide additional safety measures for certain imported poultry 
products from China. This language was important for food safety, trade 
relations, and import quality assurances. Since passage last fall, the 
administration has been corresponding with the Chinese government to 
implement the measures provided by Congress.
    Can you please bring the Committee up to speed on how things are 
progressing with the implementation of section 743 of the fiscal year 
2010 Appropriations bill? Is the Chinese government participating in 
discussions with USDA and USTR?
    Answer. The Department has moved forward on implementation of 
section 743 of the fiscal year 2010 Agriculture Appropriations Act. A 
report on the actions taken was submitted to the Committee on February 
22, 2010. We have provided China with clear instructions to complete 
the equivalence process, and will work with them to get the necessary 
information in order to act on their application.
         administration's proposed cuts to farm bill safety net
    Question. Budget proposed making significant cuts to the safety net 
provisions of the 2008 farm bill. The 2008 farm bill was essentially a 
contract between the Federal Government and domestic agriculture 
producers. During the farm bill debate, significant concessions were 
made by farmers and significant constraints on support programs were 
placed on farmers. For example, there was the elimination of the three-
entity rule for direct attribution, income restrictions, payment 
limits, and cuts to direct payments. Now, the administration wants to 
go several steps further in their budget proposal by adding additional 
income restrictions, payment limits, and payment reductions.
    Do you view the 2008 farm bill as a contract between the Government 
and Agriculture producers? Why does the administration propose such 
drastic changes to policies negotiated by Congress that are currently 
the law through the life of the 2008 farm bill?
    Answer. I agree that the 2008 farm bill contains an implicit 
``contract'' set by the scope of programs in the farm bill. Rather than 
viewing the President's budget proposals as a drastic change in this 
underlying ``contract,'' however, I see this as the next step in a 
series of changes that have occurred over time. Specifically, we are 
recommending that the Direct Payment limit and the Adjusted Gross 
Income (AGI) payment eligibility criteria be reduced beginning with the 
2011 program (crop) year. More specifically:
  --The Direct Payment limit would be reduced to $30,000 per program 
        year for individuals and applicable entities, down from the 
        current limit of $40,000, and
  --The non-farm and farm AGI criteria would each be reduced by 
        $250,000 over a 3-year period--with the non-farm AGI declining 
        to $250,000 and the farm AGI declining to $500,000.
    The Department provides a strong set of financial safety net 
programs to ensure the continued economic viability and productivity of 
production agriculture, including farm income and commodity support 
programs, crop insurance and disaster assistance, as well as other 
programs. The farm safety net is critically important and provides the 
foundation for economic prosperity in rural America. For 2011, USDA 
estimates that roughly $17 billion in total direct support will be 
provided to farm producers and landowners through a variety of 
programs.
    Recognizing the need to reduce the deficit, the budget proposes to 
better target direct payments to those who need and can benefit from 
them most as well as cap total payments paid to larger operations. The 
savings from these proposals will impact approximately 30,000 program 
participants, which is about 2 percent of the 1.3 million total program 
participants, and will over time comprise less than 2 percent of the 
total direct support the Department expects to provide annually to farm 
producers and landowners.
    USDA estimates that these changes would save the government roughly 
$2.3 billion over 10 years. By focusing farm program payments to those 
most in need, and working to reduce the additional $12 trillion in debt 
that has accumulated since the beginning of the decade, we are working 
to ensure that Federal funds are being spent wisely.
       administration's proposed cuts to delta regional authority
    Question. Budget proposed to eliminate 100 percent of funding 
($2.97 million) for the DRA to administer Rural Community Advancement 
Program (RCAP) funds for the region. Why did the administration decide 
to cut (RCAP) funding to the Delta region in their 2011 Budget?
    Answer. This funding has been provided in recent appropriation acts 
as a grant to the Delta Regional Authority (DRA) for purposes that can 
be funded under RCAP, with no more than 5 percent used for 
administration. No other regional authority or entity receives such a 
grant from USDA. While the administration supports regional planning 
and coordination, it proposes to do so under a competitive process. DRA 
can compete for USDA funding as can other eligible entities within the 
Delta region.
    Question. How is the administration committed to improving the 
economic condition of the Delta Region?
    Answer. The President's 2011 budget supports $24 billion in loans, 
grants and technical assistance to be provided through USDA's Rural 
Development programs. The Delta region is expected to receive a fair 
share of this assistance, much of which will be allocated among the 
States based on established formulas. USDA's programs have historically 
reached deep in to the Delta to serve this purpose. USDA is committed 
to having a strong presence in the Delta region and will continue to 
commit resources to worthy projects and infrastructure there.
         ouachita national forest trail management plan (atvs)
    Question. In late January, the Ouachita National Forest announced a 
new trail management plan to go into effect in the coming weeks. This 
plan, which apparently changed dramatically after the last comment 
period, has agitated constituents in the region (Mena/Polk County) that 
have built economic engines off the National Forest through recreation 
opportunities provided by the Forest Service. Now the Forest Service is 
proposing dramatic cuts to the status quo, and these cuts will 
undoubtedly cause economic harm to the region, which is already 
struggling tremendously due to the declining demand for forest 
products. I've sent you a couple of letters recently with some of my 
colleagues expressing some concern over the plans, and I hope you will 
commit to working with me to minimize economic harm to these 
communities.
    Are you aware of the recent letters that I've sent you regarding 
the Ouachita National Forest? Will you commit to working with me on 
this issue?
    Answer. I am aware of recent letters from you and your colleagues 
regarding the Ouachita National Forest. As we continue to put the 
Nation back on the path of economic recovery, job creation remains one 
of my top priorities. Plans for Ouachita National Forest Trail 
Management are currently under review by a regional team that will 
address all administrative appeals. And in the meantime, the Chief of 
the Forest Service plans to visit the sites to understand the impacts 
first hand in late March. We look forward to working with you on this 
issue.
             rural broadband--rural utilities service (rus)
    Question. When Congress appropriated funds for broadband in the 
American Recovery and Reinvestment Act, priority was placed on unserved 
and underserved areas. Ensuring that tax payers funds are not going 
towards projects with sufficient broadband service is a priority for 
me. However, I have heard reports of projects awarded that overbuild 
private investment. So far, RUS has awarded projects in 18 States, with 
at least 3 States (Iowa, Alaska, and North Dakota) receiving multiple 
project awards.
    What measures has RUS taken to ensure that grants and loans are 
going to truly unserved and underserved areas?
    Answer. The Rural Utilities Service is responsible to ensure that 
projects funded under the Broadband Initiatives Program (BIP) meet the 
requirements of Recovery Act. To do so, RUS has established an 
objective scoring process which incents applicants to bring the most 
robust broadband service to the most rural and unserved areas. In fact, 
RUS gives priority to unserved and highly rural areas. RUS will rely 
heavily upon the information submitted by the applicant to prove the 
need for broadband service. To further validate this information, RUS 
will post all proposed service territory maps on broadbandusa.gov and 
allow incumbent providers to comments on whether these areas are 
unserved or underserved through Public Notice Responses (PNRs) received 
during a 30-day comment period. RUS will rely upon these comments, 
along with State broadband maps (where available), and both RUS and 
Rural Development Field Staff to validate the information when 
necessary.
    Question. Does RUS need additional resources in order to conduct 
diligent and vigorous oversight of the BIP program and its award 
grantees?
    Answer. At the current time, RUS has sufficient resources in its 
headquarters and field staff to provide oversight of the BIP program 
and its award grantees.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd
              appalachian farming systems research center
    Question. I am deeply concerned by the Administration's decision to 
eliminate funding for the operation of the Appalachian Farming Systems 
Research Center (AFSRC) in Beaver, West Virginia. The AFSRC supports 55 
full time equivalents and 6 part-time positions in Raleigh County, West 
Virginia, a historically low-income, high-unemployment area of the 
country. As I am sure you are aware, the AFSRC has operated in West 
Virginia for more than 30 years and is dedicated to designing 
management practices that sustain productivity and profitability for 
small scale farmers and to delivering improved soil, water, and air 
quality. Further, the AFSRC infuses millions into the economy of 
southern West Virginia, an economically disadvantaged area.
    Mr. Secretary, you personally outlined five goals for the U.S. 
Department of Agriculture (USDA), one of which is to create wealth in 
rural communities so that they are self-sustaining, repopulating, and 
thriving economically.
    Why has the administration proposed to eliminate the AFSRC when its 
primary mission is to support small scale farmers in rural communities 
across the country?
    Answer. As do all of ARS' 106 locations, the Agricultural Research 
Service (ARS) Appalachian Farming Systems Research Center (AFSRC) 
contributes to a wide range of research topics, including work that is 
relevant to the five goals recently outlined for USDA. However, despite 
some degree of relevance to assorted topics, the work of the Center 
could be done more effectively at other ARS locations where a larger 
concentration of researchers would be more conducive to achieving the 
various research missions.
    The work pertinent to USDA constituents will continue at other ARS 
locations with similar focus on small farms research. The proposed 
closure of the AFSCR will offset the cost of higher priority programs 
and projects in service of USDA constituents.
    Question. The Agriculture Research Service has identified five 
research priorities, one of which is Global Food Security. The AFSRC is 
working to develop management strategies for cattle, sheep, and goat 
production on terrain not suitable for cultivated row crops, as a way 
to diversify and support local food production. It has been shown that 
locally produced livestock contributes significantly to food 
availability for the United States and the world populations. In 
addition, locally produced livestock provides alternative resources for 
meat should concentrated livestock production systems in the United 
States become compromised.
    Do you believe that the AFSRC contributes to the agency's Global 
Food Security mission?
    Answer. The AFSRC has conducted collaborative research on pasture 
based animal production systems. ARS recognizes the regional 
contribution of this research but considers the largest impact to be 
gained from conducting research on grass fed cattle to be complete.
    Question. How does eliminating the AFSRC align with your personal 
goal of having America lead the world in sustainable crop production 
and biotech crop exports?
    Answer. The ARS fiscal year 2011 budget proposes an increase of 
$61.5 million for high priority program initiatives, including $9 
million for expanded research on crop breeding and protection to 
enhance sustainable production. This high priority research directly 
supports the USDA goal of having America lead the world in sustainable 
crop production by focusing research on providing a continuous supply 
of improved plant varieties with protection from emerging diseases, 
insects, and damaging environmental conditions. The proposed funding 
increases are offset by the termination of $53.3 million in 
Congressionally earmarked projects and other lower priority programs 
and projects, including the $8.2 million for the Appalachian Farming 
Systems Research Center at Beaver, West Virginia.
    Question. Food Safety is a second research priority for the 
Agriculture Research Service. The AFSRC is working to discover pasture 
plant materials that can help maintain sheep and goat health, thus 
decreasing the need to administer pharmaceutical products. These 
efforts will produce safer meat products for consumers and reduce 
pharmaceutical residues entering soil and water resources. Meeting 
livestock nutritional needs, while preventing chemical and biological 
contamination of water resource, provides a significant contribution 
toward food safety.
    Mr. Secretary, do you believe that the AFSRC contributes to the 
agency's Food Safety mission?
    Answer. Food Safety is a research priority for the Agricultural 
Research Service. However, the research conducted at the AFSRC is only 
peripherally related to USDA Food Safety goals. Medicinal plant 
research to produce safer meat products for consumers and reduce 
pharmaceutical residues entering soil and water resources is not 
considered a food safety priority. No significant amount of the 
location's appropriation is used for such research, and the location's 
scientists are not among those with primary responsibility to lead or 
conduct work under ARS' multi-location food safety National Program.
    Question. How does eliminating the AFSRC align with your personal 
goal of having America's children and the world's children have access 
to safe, nutritious and balanced meals?
    Answer. The ARS fiscal year 2011 budget proposes an increase of 
$61.5 million for high priority program initiatives, including crop 
production, food safety, and human nutrition. These critical 
investments will focus on the availability of high quality, safe, 
nutritious food for children and adults. New and expanded research in 
these high priority initiatives will be financed by the termination of 
$53.3 million in congressionally earmarked projects and other lower 
priority programs and projects, including the $8.2 million for the 
Appalachian Farming Systems Research Center at Beaver, West Virginia.
    Question. Climate Change is a third research priority for the 
Agriculture Research Service. The AFSRC develops systems that improve 
small-acreage farm productivity and sustainability within the 
Appalachian region. This technology is applicable to hill-land 
environments world-wide. However, these production systems are already 
resilient to climatic variability. The grazing systems designed for 
small-acreage farms accommodate soil, plant, and animal resources are 
already capable of adapting to varied weather patterns.
    Further, the AFSRC has developed the technology to apply biochar 
(produced from charring poultry litter or plant residues from the 
biofuels industry) to improve the production capability of soil and 
increase carbon sequestration. The results are improvements to the 
chemical and physical attributes of soil, including sequestering 
chemical and biological contaminants of ground water and improving 
plant productivity through hospitable rooting environments.
    Mr. Secretary, do you believe that the AFSRC contributes to the 
agency's Climate Change mission?
    Answer. Much ARS research across the Nation has relevance to 
climate change, in terms of research on soil and tillage management, 
soil carbon, or breeding crops or livestock for tolerance to weather 
extremes and variability. The AFSRC's mission is not directed to 
climate change research. No significant amount of the location's 
appropriation is used for such research, and the location's scientists 
are not among those with primary responsibility to lead or conduct work 
under ARS' multi-location climate change National Program. Although the 
Center conducts limited work on the application of biochar to soil as a 
way to modify soil condition and sequester carbon, it is not central to 
the overall research on land management for small farms and is not a 
leading site for this topic nationally.
    Question. How does eliminating the AFSRC align with your personal 
goal of ensuring that private working lands are conserved, restored and 
made more resilient to climate change and are managed to enhance water 
resources?
    Answer. Although much of ARS' nationally coordinated research on 
livestock production has implications for water resources, and water 
quality is mentioned in the Center's mission statement in the small 
farms context, the AFSRC is not among the ARS locations that have a 
research project contributing significantly to the ARS National Program 
on water resources.
    Question. The administration and Congress are working every day on 
ways to create and preserve jobs in communities across the country. 
Eliminating the AFSRC will not only result in a direct loss of nearly 
60 jobs in Raleigh County, West Virginia, but countless others across 
the country, as important assistance to small acreage farmers, 
independent family farm operators, and sheep and goat producers is no 
longer available.
    Mr. Secretary, do you believe that eliminating the AFSRC will 
contribute to the efforts of the Congress and the administration to 
create and sustain jobs in the United States?
    Answer. The fiscal year 2011 USDA budget continues to make critical 
investments in long-term sustainable job creation and economic growth, 
while maintaining discretionary spending at the fiscal year 2010 level. 
The fiscal year 2011 budget proposes significant investments to: (1) 
increase access to broadband and continue business creation; (2) 
facilitate sustainable renewable energy development; (3) develop 
regional food systems; (4) capitalize on climate change opportunities; 
and (5) generate and retain jobs through recreation and natural 
resource restoration, conservation, and management. These critical 
investments are being financed by the reduction or elimination of 
congressionally earmarked projects and other lower priority programs.
    Question. How does eliminating the AFSRC align with your personal 
goal of enabling the USDA's constituents to understand and appreciate 
what the agency can do for them every day in every way because USDA 
employees are engaged, valued, and productively serving the people of 
America and the world?
    Mr. Secretary, in summary, I am greatly disturbed that the 
administration is seeking to eliminate a deeply rooted Federal 
operation that clearly meets many of your stated goals for the USDA, 
particularly when the overall USDA budget proposes a $20 million 
increase for Salaries and Expenses. I want you to know that restoring 
funding for the operation of the AFSRC will be among my highest 
priorities for fiscal year 2011. It is my hope that between now and the 
formulation of the fiscal year 2012 President's budget request that you 
will avail yourself the opportunity to visit the AFSRC. I have no doubt 
that you would find that this outstanding facility clearly aligns with 
the research priorities of Agriculture Research Service and your 
personal vision for the agency. I look forward to hearing from you 
after your visit to the AFSRC and our future discussions in this 
regard.
    Answer. The work pertinent to USDA constituents will continue at 
other ARS locations with similar focus on small farms research. The 
proposed closure of the Appalachian Farming Systems Research Center 
will offset the cost of higher priority programs and projects in 
service of USDA constituents.
                                 ______
                                 
              Questions Submitted by Senator Sam Brownback
                         international food aid
    Question. As you may know, the GAO reports that 65 percent of food 
aid funding goes to administration and transportation of food aid 
commodities. Section 737 of the 201 agriculture appropriations bill 
requires a consensus report from the Secretaries of Agriculture, State, 
and Transportation on changes that could be made to the food aid 
programs. Specifically, we asked that you and your colleagues look at 
the potential savings and efficiencies for long-term commodity 
procurement contracts, increased use of pre-positioning, longer term 
shipping contracts, and adoption of more commercial standards in 
contracting. What is the status of this report? Have you engaged the 
Departments of State and Transportation on this?
    Answer. Representatives from the U.S. Department of Agriculture, 
the U.S. Department of Transportation (DOT), and the U.S. Agency for 
International Development (USAID) have met three times to collect the 
information outlined in section 737 of the fiscal year 2010 agriculture 
appropriations act. USDA, DOT, and USAID are preparing a draft response 
that should be ready for submission to Congress in May 2010.
                        food aid pilot projects
    Question. Last year, I held numerous meetings with food aid experts 
and asked them to tell me what changes they would make to the existing 
food aid programs. Expert after expert told me that micronutrient 
fortification was the single greatest improvement we could make. So in 
fiscal year 2010, we included $10 million to develop new micronutrient 
fortified food aid products for use in the McGovern-Dole Food for 
Education Program. What is the status of this pilot program? Can you 
provide the Subcommittee with information on how USDA envisions this 
will be carried out?
    Answer. FAS plans to announce the opening of solicitations for 
proposals for this pilot project in March 2010. FAS will consider a 
range of products in various locations that meet the micronutrient 
needs of a variety of program beneficiaries and that ship well and have 
a good shelf life. The $10 million in funding will be used to develop, 
monitor, and evaluate the new products. Their purchase and shipping 
will be covered by McGovern-Dole program appropriations. FAS hopes to 
identify new products that can become a regular part of the McGovern-
Dole program through this pilot program.
                            food aid quality
    Question. Over the past few years there have been some issues with 
the quality of the commodities provided by the United States for 
international food aid programs. These issues have been highlighted in 
GAO oversight investigations. In response to this the USDA entered into 
a contract with SUSTAIN, a nonprofit organization whose mission is to 
improve nutrition in developing countries through innovative 
applications of food science and technology. In 2008, SUSTAIN published 
a food aid quality study for the Department that developed new product 
specifications for food aid to meet U.S. commercial food industry 
quality standards.
  --Please address the following question in GAO's September 2009 
        report: ``How have U.S. Agencies implemented SUSTAIN's 
        recommendations on updating specifications and improving 
        nutritional standards of U.S. food aid?''
  --New authority and obligations were included in the 2008 farm bill 
        for USDA to utilize Title II funds to address and resolve food 
        aid quality issues. Directives on implementation of food aid 
        quality reforms were reiterated and reaffirmed in fiscal year 
        2010 agriculture appropriations act. Please address whether the 
        Department believes there are any limitations in law that are 
        preventing them from moving forward with implementation of food 
        aid quality reforms.
  --In communications to committee staff in September 2009, USDA stated 
        it was working to complete an ``Independent Government 
        Estimate'' for the statement of work of the implementation of 
        SUSTAIN's recommendations. Please provide a schedule for when 
        the award will be issued and implementation of the statement of 
        work completed.
    Answer. USDA's Farm Service Agency contracted with Sharing Science 
and Technology to Aid in the Improvement of Nutrition (SUSTAIN) in 
October, 2007 to develop methods that would standardize and harmonize, 
in a consistent format, the specification language used in USDA foreign 
food assistance commodity acquisitions. The components of this contract 
included:
  --A review of existing department commodity specifications used to 
        obtain food aid commodities;
  --Recommendations to achieve maximum standardization and 
        harmonization among the specifications; and
  --Recommendation of a post-production commodity sampling and testing 
        regime based upon sound scientific standards and similar to 
        commercial practices exercised by food suppliers.
    SUSTAIN completed all requirements of this contract in June 2008. 
Most of SUSTAIN's recommendations have been incorporated into FSA 
commodity purchase announcements, as appropriate. SUSTAIN's recommended 
post-production commodity sampling and testing regime (a minimum of 5 
samples per lot to a maximum of 20 samples per lot) was not adopted as 
the additional value to be achieved was not deemed to justify the 
considerably higher procurement cost that would result. FSA, partnering 
with the Grain Inspection, Packers and Stockyards Administration, 
ensures that contractors perform sampling and testing protocols and 
institute tests necessary to substantiate that the supplies or services 
furnished under the contract conform to established requirements. In 
addition, contract provisions currently specify that the contractor 
shall have in place a quality control system consistent with the 
standards and specifications of the contract.
    Presently, FSA does not believe there are any statutory 
restrictions that would prevent the Department from moving forward with 
implementation of food aid quality reforms. Because FSA has implemented 
most of SUSTAIN's recommendations, FAS and FSA at this time do not 
believe that a statement of work for the implementation of SUSTAIN's 
recommendations is needed. Therefore, there is no schedule for 
completion of a statement of work and no award for an additional 
contract will be issued.
                        agricultural development
    Question. Spending on agriculture development as a percentage of 
the United States total official development assistance has dropped 
from 20 percent in 1980 to around 5 percent today. Interestingly, most 
of this assistance comes from USAID and not USDA. What has the 
experience in Afghanistan and Iraq taught you about USDA's capabilities 
to assist with agricultural development?
    Answer. Since 2003, USDA has effectively deployed over 120 
agricultural experts to Iraq and Afghanistan. These experts have been 
recognized by the Department of State and Department of Defense for the 
skills and professional expertise provided to both countries to help 
reconstruct the physical and institutional infrastructure of the 
agricultural sectors. USDA has responded to requests for technical 
assistance from the Governments of Iraq and Afghanistan by reaching out 
to all USDA agencies which have a wealth of expertise in the areas of 
strategic planning, extension and education, land and water resources 
management, and animal inspection and food safety. In addition, USDA 
has drawn from U.S. land grant universities to support capacity 
building efforts in Iraq and Afghanistan.
    Question. Beyond your work in Afghanistan and Iraq, how does USDA 
tap its vast pool of expertise and its relationships with the land 
grant universities to assist in agricultural development globally?
    Answer. USDA collaborates with land-grant institutions to provide 
technical assistance around the world to help other nations address 
economic transitions, natural disasters, minimal resources, and decades 
of neglect and mismanagement. The partnership between USDA and U.S. 
land grant universities has been instrumental in helping countries 
around the world acquire the agricultural knowledge they need to 
achieve food security. Through a comprehensive, multidisciplinary 
approach that integrates research, teaching, and extension, USDA and 
its university partners have improved the quality of life for millions 
of people at home and abroad.
    Question. What do you believe the role of USDA should be in 
international agricultural development?
    Answer. Although USDA does not have the lead in the U.S. Government 
for agricultural development activities, USDA agencies contribute to 
global agricultural development by providing agricultural capacity 
building and technical assistance in an array of areas such as natural 
resource management and conservation, plant and animal health, and 
farming techniques. USDA can support technical assistance activities 
within developing countries through the short and long-term assignments 
of personnel from USDA agencies, State departments of agriculture, and 
land grant universities.
    USDA has a longstanding role in framing U.S. Government policy on 
global food security with the Department of State and the U.S. Agency 
for International Development. USDA also has a long tradition of 
technical assistance and capacity building to help other countries 
develop a productive agriculture sector in cooperation with host 
governments, producers, and markets. USDA's expertise and institutional 
resources, which serve as a reference for other countries and are among 
the most sophisticated in the world, have been deployed to help 
countries strengthen food security since the United States first 
engaged in foreign assistance. USDA's institutional ties with 
agribusiness, land grant universities, extension services, and 
agricultural research centers are fully utilized in providing 
international technical assistance for agricultural and rural 
development. USDA's market development programs leverage additional 
private-sector engagement in addressing food security.
                            wheat stem rust
    Question. I am very concerned about the impact that cereal rust, 
especially Ug99, will have on world hunger. Since 1999, Ug99 stem rust 
has moved throughout East Africa to Yemen, and in 2007, was found in 
Iran. The African stem rust--Ug99--has defeated nearly all major genes 
for resistance currently deployed in the United States and around the 
world. The wheat growers tell me that over 75 percent of wheat acreage 
in India, Pakistan and Afghanistan, representing 20 percent of world 
production, is planted to susceptible varieties; areas that all of us 
on this subcommittee are concerned about.
    First, how have you used the $1.5 million the subcommittee provided 
to ARS in last year's appropriation bill?
    Answer. The goals of the USDA Ug99 Action Plan for the United 
States are:
  --Cereal Stem Rust Assessment and Pathology;
  --Detection and Identification;
  --Monitoring and Reporting;
  --Germplasm Enhancement, Gene Discovery, and Development of Molecular 
        Markers;
  --Regional Variety Development, Evaluation, and Implementation;
  --Disease Management;
  --Communication and Outreach.
    Details on how Appropriations were used are provided for the 
record.
    [The information follows:]
    Congress appropriated $1.5 million in fiscal year 2009 for Wheat 
Stem Rust (Ug99). The focus was on Action Plan goals 1-5. Funding was 
distributed as follows:
    ARS Cereal Disease Laboratory, St. Paul, Minnesota--ARS cereal rust 
disease experts at the laboratory are the world experts on 
characterizing stem rust pathogens and are the only authorized 
laboratory in the United States to work with Ug99. The Cereal Disease 
Laboratory was provided $666,700. A portion of the new funds is being 
used to handle expanded demands to identify resistant wheat and barley 
germplasm and characterize unknown rust pathogens. New funding has been 
used to identify and verify emerging rust biotypes, culture and 
conserve live rust pathogens from foreign sources, and accurately 
identify host-plant resistance in seedlings, and adult plant resistance 
genes in collaborative research with U.S. wheat and barley breeders. A 
specific cooperative agreement has been established to partner with the 
University of Minnesota in pathogen screening and resistance breeding 
in wheat and barley.
    ARS Manhattan, Kansas, was provided $166,700 to combine three or 
more highly effective Ug99 resistance genes into hard winter wheat 
elite lines and deliver those to regional breeders and to identify 
resistance genes in wild relatives of wheat and move those genes into 
regional germplasm. A cooperative agreement was established with the 
wheat genetics program at Kansas State University. The ARS Manhattan 
location serves the Southern Great Plains Region that produces winter 
wheat, which is prone to stem rust overwintering and can serve as a 
source of stem rust spores for the central and northern Great Plains.
    ARS Raleigh, North Carolina, was provided $333,300 to accelerate 
breeding of Ug99 resistant winter wheat varieties in the Southeast, 
genotype parent lines for regional breeders for adult plant resistance 
to Ug99 and develop breeder-friendly DNA markers, partner with the 
international centers CIMMYT and ICARDA in screening international 
nurseries for Ug99 resistance, and coordinate screening of wheat lines 
for U.S. breeders in Eastern Africa. The ARS Raleigh location serves 
the Gulf Coast and Southeastern Region, another winter wheat region 
(principally soft red winter wheat) which is prone to stem rust 
overwintering, and can serve as a source of stem rust spores for the 
Mississippi River Valley, the Upper Midwest, and the East Coast.
    The ARS Small Grains and Potato Germplasm Research Unit, Aberdeen, 
Idaho, was provided $194,400 to identify Ug99 resistance genes in land 
races of the National Small Grains Collection and to support East 
African screening, to expand molecular marker analysis of the 
collection for rust resistance, and to enhance capacity of the 
repository to ensure that resistant accessions are readily available 
for U.S. wheat and barley breeders. The ARS Aberdeen location serves 
the Western Region that produces western white wheat and barley.
    The ARS Wheat Genetics Unit, Pullman, Washington, was provided 
$138,900 to expand germplasm evaluation for western white wheat and 
barley for stem and stripe rust resistance, expand genotyping for wheat 
and barley breeders in the West and for the National Small Grains 
Repository for stem rust resistance introgression, and to establish a 
specific cooperative agreement with Washington State University for 
barley resistance gene mapping.
    An additional $1.0 million was appropriated in fiscal year 2010 for 
Wheat Steam Rust (Ug99). The focus is on Action Plan goals 4-5. This is 
in keeping with Congressional intent that the new funds be used for 
development of stem rust resistant varieties, and for the overriding 
need to get disease resistant varieties developed and deployed in the 
most vulnerable regions of the United States. Emphasis has been placed 
on U.S. regions that are most prone to stem rust development and 
overwintering. In addition, we are emphasizing the protection of the 
majority wheat market in the United States, that is, winter wheat (70 
percent of all wheat grown in the United States). Ug99 protection of 
barley is also targeted because Ug99 also attacks barley and can 
overwinter on barley. Fiscal year 2010 funding was distributed as 
follows:
The Southern Great Plains Region
    ARS Manhattan, Kansas, was provided $270,000 to strengthen 
identification of new sources of Ug99 genetic resistance for deployment 
into hard red and white winter wheat. A combination of controlled 
conditions and field research is focused on incorporating adult-plant 
resistance into adapted genotypes in partnership with regional wheat 
breeders. Portions of the funding are being used for specific 
cooperative agreements with wheat breeding programs at Texas A&M 
University, Oklahoma State University, Kansas State University, and 
Colorado State University, to support development of new Ug99-resistant 
wheat varieties.
    ARS Lincoln, Nebraska, was provided $88,000 to develop Ug99-
resistant winter wheat and barley for the Great Plains. A portion of 
the funds is being used for a specific cooperative agreement with the 
University of Nebraska wheat breeding program.
The Gulf Coast and Southeastern Region
    ARS Raleigh, North Carolina, was provided $259,000 to expand 
identification, genotyping, and incorporation of adult-plant resistance 
in soft red winter wheat and winter barley, including field locations 
in Louisiana, Georgia, North Carolina, and Virginia. A portion of the 
funding will support specific cooperative agreements with wheat and 
barley breeding programs at Louisiana State University, University of 
Georgia, North Carolina State University, and Virginia Tech University.
    The Northern Plains Region, which produces principally hard red 
spring wheat and some barley, would be the primary ``recipient'' of 
stem rust spores produced from the more southern States:
    ARS Fargo, North Dakota, was provided $250,000 to identify and 
breed Ug99 resistant genes from the wild relatives of wheat into 
commercial wheat varieties, enhance genotyping for developing barley 
germplasm with resistance to Ug99 for all U.S. barley breeding 
programs, and to deploy Ug99 resistant genes into wheat and barley, 
particularly for the Northern Plains. A portion of the funds will be 
used for a specific cooperative agreement with the barley and wheat 
breeding programs at North Dakota State University.
The Western Region
    ARS Small Grains and Potato Germplasm Research Unit, Aberdeen, 
Idaho, was provided $133,000 to accelerate efforts to develop Ug99-
resistant wheat and barley. This includes strengthening support for the 
National Small Grains Collection to conserve accessions with cereal 
rust resistance and to introgress stem rust resistance into western 
barley germplasm.
    Question. If Ug99 continues to spread, what will its impact be on 
world food supplies?
    Answer. The United Nations Food and Agricultural Organization (FAO) 
estimates that 29 countries in East and North Africa, the Near East, 
and Central and South Asia--which account for 37 percent of global 
wheat production--have been affected by Ug99 or are at immediate risk. 
ARS research in collaboration with the international wheat research 
centers, CIMMYT and ICARDA, indicates that over 80 percent of the 
world's wheat production is vulnerable to Ug99. Pakistan consumes 22 
million tons of wheat annually and 35 percent of its citizens live 
below the poverty line. Wheat varieties grown in Pakistan and 
Afghanistan are completely vulnerable to Ug99 as are many varieties 
grown in India. Ug99 losses have already caused at least a 30 percent 
decrease in yield in Kenya. Small farmers who cannot afford fungicide 
treatments especially suffer from Ug99 losses. Further spread of Ug99 
would significantly reduce world grain supplies and could lead to grain 
speculation and higher grain prices.
    Question. How much will wheat production around the world suffer 
and what will be its impact on world hunger needs?
    Answer. Wheat represents approximately 30 percent of the world's 
production of grain crops, and the impact of Ug99 losses will be 
especially severe where wheat or barley is a major food staple. On 
average, each person in the world consumes 68.2 kilograms of wheat each 
year, about 630 calories per day per person, or one-half to one-third 
of the minimal energy requirements of most adults. In North Africa and 
in West and Central Asia, wheat provides more calories than all other 
grains combined. Nearly one-half of the world's wheat production this 
year will be harvested in developing countries. Currently, Middle 
Eastern and North African countries consume over 150 percent of their 
own wheat production and are heavily dependent on imports. In Sub-
Saharan Africa wheat is the number one urban food staple.
                   traditional production agriculture
    Question. There is a growing perception among traditional 
agriculture that USDA is willing to disparage conventionally produced 
food to promote local production--creating a good food, bad food 
distinction and distorting the perceptions of consumers across the 
country.
    How is the agency prepared to defend traditional production?
    Is there any effort to include traditional production in the Know 
Your Farmer, Know Your Food initiative? If not, why not?
    Answer. USDA supports agriculture through every agency in our 
Department in a myriad of ways. USDA does not support nor does it 
maintain any ``good food/bad food'' distinction. USDA continues to 
defend U.S. farmers and agricultural products domestically and 
overseas, while working to provide valuable safety net assistance to 
farmers, sustain current markets, and promote new markets. USDA 
utilizes its authorities to help keep our farmers on the farm and 
sustain our rural communities, while helping them provide Americans and 
persons around the world with a safe, affordable, and abundant food 
supply. Two recent efforts will serve to highlight USDA's work on 
behalf of traditional production agriculture. First, since February 
2009, USDA expedited implementation of 2008 farm bill programs that had 
not been implemented by the last administration, including the 
Livestock Indemnity Program (LIP), Livestock Forage Disaster Program 
(LFP), Supplemental Revenue Assistance Payments (SURE) Program, and 
Emergency Assistance for Livestock Honey Bees, and Farm-Raised Fish 
(ELAP). To date, more than $480 million has been disbursed to farmers 
and ranchers under these major disaster programs. Notably, USDA 
implemented the Dairy Economic Loss Assistance Program (DELAP) in only 
60 days and has efficiently disbursed more than $270 million in 
assistance to dairy farmers in dire need. Second, USDA is actively 
working to support President Obama's National Export Initiative to help 
rebuild the economy by increasing export opportunities. This year 
alone, despite the sharp global economic downturn, USDA estimates that 
agricultural exports will reach $100 billion. Production agriculture 
will not only benefit from the National Export Initiative, it will also 
benefit from a more informed and engaged consumer population.
    The Know Your Farmer, Know Your Food initiative is designed to 
benefit all of American agriculture by facilitating a much-needed 
national conversation about food, food production, and all that farmers 
do to provide our food supply. One of the main goals of the initiative 
is to better link consumers to the farmers they rely on for every meal. 
An informed consumer that understands the capital investments and the 
weather and other risks associated with farming is more likely to 
support--or even act as an advocate for--traditional agriculture, 
compared to a consumer who has lost touch with agriculture. The 
initiative also seeks to foster new opportunities for all types of 
farmers by supporting new markets created by the demand for local and 
regional products. This will benefit rural communities as USDA 
strengthens the link between rural economies and agriculture and helps 
rural areas become economically sound, vibrant places to live. Examples 
of existing operations that serve as a model for the Know Your Farmer, 
Know Your Food effort include Illinois corn producers selling to a 
tortilla company in Chicago and a group of Pacific Northwest wheat 
farmers who have tripled their sales in the past 3 years by cooperating 
under a brand label to produce flour that constitutes a personalized 
product which can be easily traced back to its producers. We are taking 
an inclusive approach to the Know Your Farmer, Know Your Food effort, 
and look for successful examples and insights from all over 
agriculture.
                             crop insurance
    Question. You're in the middle of the renegotiation of the Standard 
Reinsurance Agreement (SRA) on crop insurance. As you know, the latest 
draft proposes significant additional reductions from the industry 
creating what most believe will be a significant deterioration of the 
quality of products available to producers and potentially the number 
of companies willing to offer crop insurance tools. How does USDA see 
the system functioning as a part of the farm safety net if companies 
cannot continue to offer crop insurance products to producers?
    Answer. Under the new SRA, insurance companies can expect to earn a 
reasonable rate of return, receive more stable payments, and have more 
protection in bad years. Although some consolidation has occurred in 
the Property and Casualty insurance industry generally, crop insurance 
companies have fared proportionately better--a trend that is expected 
to continue under the new SRA. In fact, in early March 2010 we expect 
to welcome Occidental Fire and Casualty Company of North Carolina as 
the newest participating company to sign the SRA. I believe the 
imminent signing of Occidental, and the continued interest of 
additional insurance companies, shows that this agreement is still a 
very attractive business proposition that will serve the crop insurance 
industry well for many years to come.
    The changes that USDA has proposed in the most recent draft of the 
SRA are justified for a variety of reasons. Administrative & Operating 
(A&O) subsidy payments for 2006 were $959 million, a level that 
motivated Congress to reduce the subsidy rate in the 2008 farm bill and 
to direct USDA to seek further reductions through the renegotiation of 
the SRA for 2011. Since 2006, there has been a 65 percent increase in 
A&O subsidy payments to the insurance companies with no commensurate 
increase in the number of policies sold.
    Managing risk is critical for all producers and every farmer and 
rancher deserves access to this important national program. However, 
geographical differences in loss patterns have resulted in dramatic 
differences in the concentration of companies and agents in the Corn 
Belt States compared with most other parts of the country. The draft 
SRA contains a number of features that are designed to expand the 
availability of crop insurance to places where there are currently few 
companies and agents selling policies, while ensuring that a high level 
of service will be maintained for those who have come to depend on it.
    The draft SRA rebalances the program's underwriting performance to 
level the playing field across the United States. In addition, it seeks 
to expand the availability of crop insurance by providing insurance 
companies with additional financial incentives to service those areas, 
producers, and operations that lack the product availability and 
quality service that many of the Corn Belt States currently enjoy. The 
draft agreement will provide the non-Corn Belt States with higher 
reference prices which will lead to higher A&O subsidies for these 
lesser-served States. Additionally, the draft SRA contains a provision 
to give back a portion of the Net Book Quota Share to those insurance 
companies that sell and service the lesser-served States. Together, 
these provisions will provide financial incentives for companies to 
foster enhanced service in lesser-served areas.
                   healthy food financing initiative
    Question. As a part of the First Lady's ``Let's Move!'' campaign to 
address childhood obesity, the President's budget includes a $400 
million government-wide request for the Healthy Food Financing 
Initiative. USDA's part of this initiative is $50 million in direct 
appropriations that will support more than $150 million in loans, 
grants, and market promotion programs. I agree that far too many of our 
youth lead sedentary lifestyles and live in areas where less nutritious 
food is the first choice for a snack because fruits and vegetables are 
not easily found.
    Would you provide additional information on the overall initiative 
and USDA's specific role?
    Answer. The Healthy Food Financing Initiative will promote a range 
of interventions that expand access to nutritious foods, including 
developing and equipping grocery stores and other small businesses and 
retailers selling healthy food in communities that currently lack these 
options. Residents of these communities, which are sometimes called 
``food deserts'' and are often found in economically distressed areas, 
are typically served by fast food restaurants and convenience stores 
that offer little or no fresh produce. Lack of healthy, affordable food 
options can lead to higher levels of obesity and other diet-related 
diseases, such as diabetes, heart disease, and cancer.
    Through the new multi-year Healthy Food Financing Initiative and by 
engaging with the private sector, the administration will work to 
eliminate food deserts across the country within 7 years. With the 
first year of funding, the administration's initiative will leverage 
enough investments to begin expanding healthy food options into as many 
as one-fifth of the Nation's food deserts and create thousands of jobs 
in urban and rural communities across the Nation.
    USDA's proposed 2011 budget includes a funding level of $50 million 
that will support more than $150 million in public and private 
investments in the form of loans, grants, and promotion, and other 
programs designed to create healthy food options in food deserts across 
the country. Of that:
  --$35 million in fiscal year 2011 discretionary funding is to remain 
        available until September 30, 2012 for the Secretary to use for 
        financial and technical assistance.
  --$15 million in funds shall be made available for technical or 
        financial assistance and shall come from a set aside of up to 
        10 percent of the funds made available through programs 
        outlined in the budget request.
    Of the $50 million requested for USDA's component of the Healthy 
Food Financing Initiative, $15 million would be made available for 
technical or financial assistance and would come from a list of 
relevant programs outlined in the budget request. These funds would 
remain in the respective agencies and within the designated programs 
and would not be transferred to any other account. The program dollars 
set aside for the HFFI would be used to support strategies for 
addressing the healthy food needs.
    HFFI projects may require a combination of grants, loans and/or 
technical assistance, so this effort will require close coordination 
among USDA agencies to ensure that dollars are leveraged and used 
wisely. Coordination will occur throughout the process of announcing 
and selecting projects and where appropriate may include the use of 
consolidated solicitation and application processes to ensure the most 
worthy projects are identified and funded.
    The Agricultural Marketing Service, Rural Development, and the 
Office of the Secretary will work together to ensure that expertise 
within USDA is appropriately leveraged. AMS has considerable knowledge 
and expertise enhancing food access for low income populations and 
improving retail market access for small and mid-sized producers. Rural 
Development has significant expertise funding and supporting 
infrastructure development for purposes of economic development.
    Together, the two agencies, working in concert with the Office of 
the Secretary, will make funding available to provide:
  --technical assistance to grantees to help them with facility design, 
        and distribution logistics, and food marketing;
  --grants, loans, and loan guarantees in support of business and 
        infrastructure development and investment; and
  --administrative support of HFFI and project evaluation.
    Question. I understand that the Department of Treasury and the 
Department of Health and Human Services are also involved in this 
initiative, can you speak briefly to their role and how their programs 
are expected to complement USDA's efforts?
    Answer. Through the joint initiative, which was included in the 
President's budget for 2011, Treasury, USDA, and HHS would make 
available more than $400 million in financial and technical assistance 
to community development financial institutions, other nonprofits, and 
businesses with sound strategies for addressing the healthy food needs 
of communities. The initiative will make available a mix of Federal tax 
credits, below-market rate loans, loan guarantees, and grants to 
attract private sector capital that will more than double the total 
investment. Federal funds will support projects ranging from the 
construction or expansion of a grocery store to smaller-scale 
interventions such as placing refrigerated units stocked with fresh 
produce in convenience stores.
    Each of the three agencies brings a particular expertise and set of 
resources to the Healthy Food Financing Initiative. Specifically:
  --The Department of Agriculture specializes in improving access to 
        healthy foods through nutrition assistance programs, creating 
        business opportunities for America's farmers, and promoting 
        economic development in rural areas. USDA's proposed funding 
        level of $50 million will support more than $150 million in 
        public and private investments in the form of loans, grants, 
        promotion, and other programs that can provide financial and 
        technical assistance to enhance access to healthy foods in 
        underserved communities, expand demand and retail outlets for 
        farm products, and increase the availability of locally and 
        regionally produced foods. USDA has a solid track record of 
        supporting successful farmers markets, and has also invested in 
        grocery stores and creating agricultural supply chains for 
        them, such as in the People's Grocery project in Oakland, CA.
  --The Treasury Department will support private sector financing of 
        healthy foods options in distressed urban and rural 
        communities. Through the New Markets Tax Credit (NMTC) and 
        financial assistance to Treasury-certified community 
        development financial institutions (CDFIs), Treasury has a 
        proven track record in expanding access to nutritious foods by 
        catalyzing private sector investment. The Healthy Food 
        Financing Initiative builds on that track record, with $250 
        million in authority for the NMTC and $25 million for financial 
        assistance to CDFIs devoted to helping finance healthy food 
        options.
  --The Department of Health and Human Services (HHS) specializes in 
        community-based efforts to improve the economic and physical 
        health of people in distressed areas. HHS will dedicate up to 
        $20 million in Community Economic Development program funds to 
        the Healthy Food Financing Initiative. Through the CED program, 
        HHS will award competitive grants to Community Development 
        Corporations to support projects that finance grocery stores, 
        farmers markets, and other sources of fresh nutritious food. 
        These projects will serve the dual purposes of facilitating 
        access to healthy food options while creating job and business 
        development opportunities in low-income communities, 
        particularly since grocery stores often serve as anchor 
        institutions in commercial centers.
    Question. I am concerned that the budget request asks the Committee 
to eliminate any legal requirements regarding ``eligibility, area 
served, and size of loan'' when funding this program without a clear 
explanation of why this is necessary.
    Answer. Food deserts exist in both rural and urban areas. 
Successfully addressing the multi-faceted problem of food deserts will 
take a concerted effort by all sectors of society and requires the 
unique combination of financial and technical assistance proposed in 
the Healthy Food Financing Initiative. The statutory requirements of 
several of the programs included in the initiative include several 
provisions that would impede the initiative, for example, limitations 
to rural areas, or areas less than a certain level, and loan limits 
below those necessary to serve large projects in urban areas. Rather 
than asking for a broad repeal of these limitations, USDA is asking for 
the discretionary authority to eliminate them only for the HFFI.
    Question. Would you explain the intent of this request and provide 
examples of how USDA's current authority prohibits full implementation 
of the Healthy Food Financing Initiative as envisioned?
    Answer. The community facility programs are limited rural 
communities and towns of less than 20,000 population and the business 
and industry loan program is limited to rural areas of less than 
50,000. The statutory limit on the loans to intermediaries under the 
Intermediary Relending Program is $2 million, regardless of the number 
of ultimate recipients they serve, and the statutory limit on loans to 
rural microentrepreneurs under the Rural Microentrepreneur Assistance 
Programs is $50,000. While these limits may be adequate to serving 
projects in rural areas, they would preclude reaching out to urban 
areas that can best be served by larger projects, such as the recently 
constructed grocery store that is now serving the Anacostia area of 
Washington, DC.
    Question. Under what circumstances would the Department overlook 
eligibility requirements when making grants and loans?
    Answer. Projects under the HFFI would be expected to meet other 
statutory and regulatory requirements for the programs used to provide 
financing. In short, they would need to show that they are competitive 
with other applications for these programs, except for those 
requirements that would be waived.
                      single family housing loans
    Question. Because traditional home loans are increasingly difficult 
to secure, USDA's single family housing guaranteed loan program has 
become an attractive alternative for those seeking to purchase a home 
in rural America. I understand USDA has been guaranteeing around $2 
billion worth of loans per month--a staggering amount. The fiscal year 
2010 appropriations bill provided funding to guarantee $12 billion in 
single family housing loans.
    Would you provide an update on this program? Is current funding 
sufficient to meet demand in fiscal year 2010?
    Answer. Like all of the Rural Development programs, funding is not 
determined by demand. These are discretionary programs with a set level 
of funding as provided by Congress. In 2010, RD will obligate the full 
funding level provided by Congress in the 2010 appropriations. We 
should note that there is frequently a greater demand than available 
funding for below market financing. Just as there can be a backlog in 
the Water and Wastewater program, so can there be a backlog in any of 
the RD programs, including 502 Guarantees.
    Fiscal year 2010 has had some specific challenges that have 
aggravated demand lately. Due to this strong demand arising from the 
housing and economic crisis, and the success of our program across the 
country, the private sector remains reluctant to make home loans absent 
Government backing. Also, in some areas the Rural Development SFH 
guaranteed program is the only financing available. Until the crisis, 
the guaranteed loan program historically obligated about $3 billion 
each fiscal year. The crisis pushed obligations to a record $6.9 
billion in fiscal year 2008 and to another record $16.2 billion during 
fiscal year 2009. The $16.2 billion obligated in fiscal year 2009 
included substantial funding from the American Recovery and 
Reinvestment Act of 2009 (ARRA) which provided about $10 billion for 
the program.
    The guaranteed loan program received almost $12 billion in program 
level from the fiscal year 2010 appropriations bill. In addition, ARRA 
funding in the amount of $1.1 billion carried over from fiscal year 
2009. We are continuing to monitor the level of demand for the program 
and will keep the committees informed of the status.
    Question. To help ease the burden on the program and give the 
Department authority to guarantee more loans, the budget request 
includes a proposal to charge an annual 0.5 percent fee to lenders, 
which is consistent with the operation of HUD's FHA loan program. This 
fee will make the single family housing program essentially a ``no 
cost'' program allowing the Department to guarantee loans without 
appropriated funds supporting the loan level.
    Do you expect lenders to pass this fee on to borrowers? If so, do 
you have an estimate for how much the monthly payment for borrowers 
will increase?
    Answer. We expect lenders to pass the annual fee on to borrowers, 
the same way as is done for FHA loans. The annual fee will be capped at 
0.5 percent and in fiscal year 2011 is expected to be 0.15 percent of 
the guaranteed principal loan amount. On a $100,000 loan, the annual 
fee will be $150. This results in an additional monthly payment of 
$12.50. This is a nominal increase and should be affordable.
    Question. In addition to the fee proposal, the budget also includes 
language that will allow lenders to directly issue loan guarantees on 
behalf of USDA. This proposal is consistent with FHA and VA loan 
programs. Why are you seeking this change now?
    Answer. Direct endorsement will streamline the loan making process 
and achieve a measure of consistency with the Federal housing programs. 
Some private sector lending partners have repeatedly requested direct 
endorsement capabilities. Also, this will make the agency more 
efficient and allow the single family housing staff to focus more on 
single family housing direct loans.
    Question. USDA's loan portfolio is much stronger and has a lower 
default percentage than traditional loans and loans guaranteed by other 
government agencies. We would like to maintain the Department's 
outstanding record. Does giving a 3rd party authority to issue these 
loans put USDA's portfolio at risk? What does USDA plan to do to make 
sure this change does not put the portfolio at risk?
    Answer. We expect the current excellent portfolio credit quality 
will be maintained. The intent is to limit direct endorsement to 
lenders that have demonstrated strong program knowledge and 
responsibility. Only well performing lenders would be given direct 
endorsement capabilities, and they would be closely monitored on a post 
closing basis. Lenders with direct endorsement would have to submit 
their loans through Rural Development's automated underwriting system. 
Loans receiving an ``accept'' from the automated underwriting system 
have demonstrated better performance than loans which are manually 
underwritten.
                     regional innovation initiative
    Question. The budget request unveils a new program called the 
Regional Innovation Initiative. Funding for this program comes from a 5 
percent tap to existing rural development, Agricultural Marketing 
Service, Natural Resources Conservation Service, and forestry programs 
which are not under the jurisdiction of this subcommittee. Through 
these taps the Department expects to generate $280 million in loans and 
grants for this initiative. The goal of the initiative is to ``promote 
economic opportunity and job creation in rural communities through 
increased regional planning among Federal, State, local and private 
entities.''
    While I recognize that regional planning can be beneficial, I am 
concerned that the budget and your testimony lacks sufficient details 
describing how this program will be implemented, especially since the 
budget proposes to redirect 5 percent of programs that are either 
generally oversubscribed or not under the jurisdiction of this 
subcommittee. Does USDA currently have sufficient authority to allow 
the inclusion of these regional innovation grants and loans in the 
programs you propose to tap?
    Answer. USDA has a series of programs that are already oriented 
toward regional economic development. These programs include broadband 
loans administered by the Rural Utilities Service, the Community Food 
System Program administered by NIFA, and the Rural Business Opportunity 
Grant (RBOG) program. USDA has expertise with regional economic 
development, but we believe our overall economic development activities 
can be better targeted toward the goals of this initiative.
    RBOG is one example of an oversubscribed regional economic 
development program. Created in the 1996 farm bill, this program 
provides grants to nonprofit organizations, public bodies, and tribes 
for strategic technical assistance, training, and planning activities 
that promote ``best practices'' in sustainable rural economic 
development. The 2009 RBOG program yielded dozens of regional 
applications, including 21 multi-State applications. Because of our 
funding level, Rural Development simply couldn't fund most of these 
applications. We believe that this program holds great promise for the 
early steps in regional economic development of planning and 
collaboration.
    RBOG grantees will be just one of a variety of regional 
organizations that USDA has supported through the Rural Development 
Mission Area. Others include Empowerment Zones, Enterprise Communities, 
and Champion Communities; Rural Economic Area Partnership, or REAP, 
zones; the Delta Regional Authority, and the Appalachian Regional 
Commission; and organizations with cooperative agreements with Rural 
Development around certain priority areas, such as food systems or 
economic diversification in regions dominated by a National Forest. 
Rural Development will focus additional outreach and technical 
assistance on these groups, as well as monitoring for results under the 
Department's commitments to OMB's High Priority Performance Goals 
process.
    In addition, Rural Development already has undertaken two 
significant efforts toward the Department's larger regional strategy. 
First, a team has been assembled in headquarters to begin reviewing all 
Rural Development programs, starting with those identified for 
inclusion in the regional provisions of the President's 2011 budget, to 
ensure that agency regulations and application evaluation criteria do 
not disadvantage applicants seeking financing of a regional project. 
Where necessary, the Administrators of Rural Housing Service, Rural 
Utilities Service, and Rural Business--Cooperative Service will propose 
regulatory modifications.
    Second, Rural Development's 47 State directors have been tasked 
with developing more active working relationships with other Federal 
and State partners to assist in recruiting regional projects, beginning 
with the food system arena, where an existing statutory set-aside of 5 
percent of budget authority in the Business and Industry Loan Guarantee 
program offers priority to projects that benefit rural, tribal, or 
urban food deserts. The Rural Development State Director might defer to 
a HUD financing strategy for a grocery store in an urban food desert, 
but still finance a produce distribution facility or meat processing 
facility in a rural area that would help supply the new urban grocery 
store as well as other surrounding retail outlets. With most other 
Federal agencies appointing multi-State regional representatives, Rural 
Development also has grouped its State directors into four regions 
coinciding with those of the Regional Rural Development Centers under 
the National Institute of Food and Agriculture.
    To the extent that authority already exists, the initiative is 
designed to utilize the statutory authorities for on-going programs. In 
the case of grants for regional planning activities, the Rural Business 
Opportunity Grant (RBOG) program would be utilized because the 
statutory authority for that program to grant to conduct ``regional, 
community, and local economic development planning and coordination, 
and leadership development.''
    Question. For loan and grant purposes, how do you intend to define 
areas that are ``engaged in regional innovation''?
    Answer. The areas are to be self-defined based on the documentation 
of an applicant's participation in regional planning activities.
    Question. How do you plan to measure success for this program?
    Answer. The work will be done by the Community and Economic 
Development staff in Rural Development, initially as part of the OMB 
High Priority Performance Goal process, with additional staff support 
from other USDA agencies and eventually other Departments with programs 
offering regional opportunities. The 2011 budget proposal provides this 
work will be done by the Office of Regional Innovation, which would be 
housed within Rural Development.
    Rural Development will apply the existing standards and scoring 
criteria of the RBOG regulation to applicants in 2010. The process for 
selecting grant recipients will be competitive and transparent. In 
addition, the Notice of Funds Availability (NOFA) asks all applicants 
to demonstrate: clear regional leadership; evidence of broad 
participation, including demographic diversity within the region; and 
evidence of broad collaboration among Federal, State, and local 
government agencies, private for-profit and non-profit firms, 
universities, and philanthropic organizations, including both their 
participation in and financial support of the project. The NOFA 
recruits applications focused on economic opportunities in rural 
America: addressing end users in regional broadband projects; regional 
food system projects; regional renewable energy projects; projects 
demonstrating innovative use of natural resources to expand business 
opportunities; and projects designed to attract new equity capital into 
rural areas.
    There are program performance measures already established for each 
of the programs included in the initiative, for example, the number of 
jobs created or saved. It is anticipated that these measures will show 
high program performance in areas with regional innovation than those 
without such activities. Other measures may also be developed and 
program participants will be required to participate in the monitoring 
of performance.
                                  snap
    Question. Currently, 38 million people participate in the 
Supplemental Nutrition Assistance Program (SNAP), a record high level 
of participation driven primarily by the poor economy and unemployment. 
The budget proposal suggests that the final participation number for 
fiscal year 2010 will be more than 40 million participants with an 
unemployment rate of 10.1 percent. For fiscal year 2011, the Department 
estimates that 43 million people will participate in the program and 
unemployment will be 9.5 percent, a drop of 0.6 percent from the 
previous year's estimate. Given that unemployment is usually a strong 
indicator of SNAP participation and that the Department estimates 
unemployment will drop in fiscal year 2011, what is driving the 
participation estimate up by 3 million participants to more than 43 
million people? Is there an underlying factor that is not explained by 
the unemployment rate?
    Answer. SNAP participation is driven to a large extent by the 
national unemployment rate. However, the relationship between the two 
elements contains an inherent lag with SNAP participation growth 
lagging increases in the unemployment rate. Therefore, a decline in 
SNAP participation may not occur until well after the end of the 
recession and drop in unemployment.
         voluntary public access and habitat incentive program
    Question. What is the status of the Voluntary Public Access and 
Habitat Incentive Program?
    Answer. The Voluntary Public Access and Habitat Incentive Program 
regulation is currently under review. Our plan is to have this 
regulation published in the Federal Register later this spring.
                         discrimination claims
    Question. Mr. Secretary, the President recently submitted a request 
for $1.150 billion to settle discrimination claims brought by Black 
farmers. Unfortunately there are similar claims of discrimination by 
other groups (women, Native Americans, and Hispanics).
    What can you tell us about these other claims?
    Will they be settled in the near future?
    What is the potential liability of the Federal Government?
    What is being done to prevent future discrimination?
    Answer. I am committed to trying to resolve all farmers' claims of 
discrimination, including the claims of women (Love), Native Americans 
(Keepseagle), and Hispanic (Garcia) farmers.
    U.S. Department of Justice (DOJ) and U.S. Department of Agriculture 
(USDA) are currently reviewing all available options in order to 
establish a path forward that will resolve all of the major cases 
pending before USDA. We are currently involved in confidential 
settlement discussions involving these cases. Consequently, all 
litigation has been stayed. Because of the confidential nature of the 
discussions, it is difficult for me to offer specifics on potential 
liability.
    All farmers and all of USDA's customers should be treated fairly 
and equally. I remain absolutely committed to that principle and have 
made it a top priority for the Department. On April 21, 2009, I 
published a civil rights statement that noted, ``This is a new day for 
Equal Employment Opportunity, program delivery, and civil rights in 
USDA. I intend to lead the Department in correcting its past errors, 
learning from its mistakes, and moving forward to a new era of 
equitable service and access for all.'' As we work to resolve all of 
the major cases pending before USDA, I will be guided by those 
commitments and will seek a just and equitable outcome for the various 
groups of individuals who believe they have suffered from 
discrimination.
    To prevent future disparate treatment, USDA is undertaking several 
proactive measures which should decrease the filing of discrimination 
complaints. These measures include an independent assessment of program 
delivery, increased emphasis on outreach to socially disadvantaged and 
small and beginning farmers through the establishment of the Office of 
Advocacy and Outreach, reviewing findings of discrimination by the 
Office of Human Resources Management to determine if adverse actions 
are warranted and increased training for employees in civil rights.
    In April 2009, USDA published a Request for Proposals to obtain an 
independent analysis of access to program delivery at the Farm Service 
Agency, Rural Development, Natural Resources Conservation Service, and 
the Risk Management Agency. After approximately 7 months of field 
interviews of USDA employees as well as gathering feedback from USDA 
customers, a thorough report will be provided to the USDA that lists 
specific recommendations and methodologies the Department can adopt to 
ensure programs are delivered equitably and fairly. These 
recommendations will ensure that access is afforded to all 
constituents, including socially disadvantaged farmers, ranchers, and 
rural America.
    The Office of Human Resources Management under Departmental 
Management has been delegated responsibility for the establishment of 
an initiative to review all settlement agreements and decisions in 
program, individual, and employee complaints of discrimination. This 
initiative will ensure the highest level of accountability and fiscal 
responsibility is maintained within the USDA.
    Key components of the initiative are as follows:
  --Review of all settlement agreements and decisions finding liability 
        against the Agency in program, individual, and employee 
        complaints of discrimination.
  --Investigations or inquiries to determine responsibility for the 
        actions or inactions leading to Agency liability.
  --Appropriate administrative actions to correct future conduct.
  --Increased awareness of individuals in decision-making positions to 
        make responsible decisions.
  --Improvements in programs to ensure that all services are available 
        in a nondiscriminatory manner.
  --Hold USDA personnel accountable and responsible for their actions.
    This last mandate will ensure that USDA employees at all levels 
will be held accountable for ensuring that all USDA applicants, 
customers, constituents, and stakeholders, as well as employees, are 
provided equal access to USDA opportunities, programs, and services.
    The initiative to review settlement agreements and decisions in 
program, individual, and employee complaints of discrimination will be 
instrumental in improving civil rights and making USDA a model 
department.
    Additionally, all employees are required to take annual EEO 
training, in conjunction with the Department issuing the annual notice 
on discrimination. Finally, the Secretary and Assistant Secretary for 
Civil Rights have regularly given speeches and issued correspondence 
regarding civil rights, EEO, diversity, and the consequences of 
violating the civil rights of individuals, employees, and USDA 
customers.
    The 2008 farm bill authorized the creation of the Office of 
Advocacy and Outreach'' (OAO), which was established under the 
Assistant Secretary for Administration on November 3, 2009. This action 
brought together outreach, advocacy and scholarship programs which were 
scattered throughout the USDA. The Office is in the process of 
obtaining staff, implementing grant and scholarship programs, and 
assembling two Advisory Committees--the Small and Beginning Farmer and 
Rancher Advisory Committee and the Minority Farmer Advisory Committee 
are being assembled. The Office is also developing accountability 
systems such as a receipt for services and the Program Participation 
Initiative that will track service to landowners by race, ethnicity and 
gender.
    OAO will work with all USDA agencies to develop a comprehensive 
Departmental Outreach Plan to guide future activities of USDA. OAO is 
also charged with conducting a review of all rules and regulations in 
USDA to assess barriers to full participation in USDA programs by 
underserved groups.
    The creation of OAO as a distinct entity in the Department will 
place heightened emphasis on making USDA programs accessible to all. 
The mission of OAO is ``to increase access to programs of the 
Department and increase the viability and profitability of small farms 
and ranches, beginning farmers or ranchers, and socially disadvantaged 
farmers or ranchers.''
    Finally, I have directed all USDA political appointees to receive 
civil rights training. The Assistant Secretary for Civil Rights is 
providing the same civil rights training to senior managers in the 
field offices at the Farm Service Agency, Natural Resources 
Conservation Service, and Rural Development, especially in those States 
where USDA agencies report significant numbers of program 
discrimination complaints. In a video-taped message to training 
participants, I emphasized the importance of implementing USDA's civil 
rights policy and reminded attendees of their responsibility to ensure 
USDA constituents have full and equitable access to USDA programs and 
services. The civil rights training includes a historical perspective 
of civil rights at USDA, employment and program complaint processing, 
dispute resolution, civil rights compliance, and diversity. To date, 
trainings have been conducted in New York, Texas, Louisiana New Mexico, 
Florida and Oregon.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                       catfish inspection program
    Question. Secretary Vilsack, the administration's budget request 
recommends a decrease of $10.3 million for the catfish inspection 
program under the Food Safety Inspection Service. The farm bill was 
very clear that regulations for this program be completed within 18 
months of passage of the farm bill. Can you elaborate on this budget 
request and inform the subcommittee when you expect the Department of 
Agriculture to both release the regulations and begin implementation of 
this program?
    Answer. We believe that the $5 million requested for catfish 
inspection is adequate to meet essential program needs in fiscal year 
2011. The draft proposed rule is currently under review. In the 
meantime, FSIS is working diligently in order to develop the foundation 
needed to assume catfish inspection responsibilities upon 
implementation of a final rule.
    Question. In the President's budget request for the Catfish 
Inspection Program, the administration notes a ``need for considerable 
stakeholder engagement.'' What is the Department doing to engage 
stakeholders?
    Answer. Upon publication of the proposed rule, USDA will seek 
public comments on the proposed rule. In addition, USDA plans to hold 
three public meetings on the proposed rule, which will likely take 
place in Arkansas, Mississippi, and Washington, DC. We are developing 
significant outreach and communication plans for both domestic and 
foreign stakeholders to commence once the proposed rule is published.
             the food, conservation, and energy act of 2008
    Question. Mr. Secretary, the administration's fiscal year 2011 
budget submission includes proposals that require opening up and 
amending the Food, Conservation, and Energy Act of 2008. I have 
concerns about the implications of amending a farm law that was 2 years 
in development and which still has not been fully implemented. I would 
like to know your thoughts about the possible undermining of confidence 
in farm policy and the adverse impact on the rural economy that would 
result if Congress makes significant changes to farm law before its 
scheduled expiration?
    Answer. I feel that the President's budget proposals regarding 
``payment limits'' and ``Adjusted Gross Income'' criteria actually 
strengthen confidence in U.S. farm policy, rather than undermine it. By 
focusing farm program payments to those most in need, and working to 
reduce the additional $12 trillion in debt that has accumulated since 
the beginning of the decade, we are working to ensure that Federal 
funds are being spent wisely.
    The Department provides a strong set of financial safety net 
programs to ensure the continued economic viability and productivity of 
production agriculture, including farm income and commodity support 
programs, crop insurance and disaster assistance, as well as other 
programs. The farm safety net is critically important and provides the 
foundation for economic prosperity in rural America. For 2011, USDA 
estimates that roughly $17 billion in total direct support will be 
provided to farm producers and landowners through a variety of 
programs.
    Recognizing the need to reduce the deficit, the budget proposes to 
better target direct payments to those who need and can benefit from 
them most as well as cap total payments paid to larger operations. The 
savings from these proposals will impact approximately 30,000 program 
participants, which is about 2 percent of the 1.3 million total program 
participants, and will over time comprise less than 2 percent of the 
total direct support the Department expects to provide annually to farm 
producers and landowners.
                         pigford ii settlement
    Question. Mr Secretary, in regards to the Pigford II settlement, 
thousands of the farmers that have claims against the USDA are from 
Mississippi. I hope this settlement will resolve these claims in a fair 
way that is consistent with the court rulings rendered in these cases. 
I am told that under the settlement agreement, between 4.1 percent and 
7.4 percent of the appropriated funds will be spent on attorney's fees. 
Can you tell me how USDA derived these percentages?
    Answer. Subject to court approval, the parties have agreed to a 
range of attorneys' fees that will be not less than 4.1 percent but not 
more than 7.4 percent of the total amount of funds available for the 
settlement minus any money spent to implement the non-judicial claims 
process established in the agreement. Although the agreement permits 
plaintiffs to move for a fee award of 7.4 percent, the Agreement 
expressly provides that the Secretary can respond to plaintiffs' fee 
petition and argue to the Court that the Fee Award should be limited to 
4.1 percent. The parties arrived at this structure through arms-length 
negotiation.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
                                 dairy
    Question. I would like to stay on the topic of dairy and speak 
about cattle health. The health of cattle also can suffer during these 
economically challenging times for dairy farmers. Less income means 
less money spent on preventative care and waiting longer to take care 
of a sick animal. This not only can affect the farmer's bottom line, 
but it also may affect human health.
    What is the USDA doing to ensure the health of our Nation's dairy 
cattle?
    Answer. APHIS conducts a variety of activities to protect the 
health, quality, and marketability or our Nation's animals. These 
activities include surveillance to quickly identify diseased animals, 
and emergency response capabilities that allow for the Agency to 
provide leadership, strategies, and resources for effective emergency 
response and management. These activities help to minimize exposure of 
animals to diseases that negatively impact producers.
    APHIS also assists States and producers with developing approaches 
for disease management of cattle herds by providing technical 
assistance. For example, APHIS has provided assistance to States and 
producers in developing and implementing their Johne's disease 
management, testing, and monitoring strategies for use in controlling 
the disease in cattle herds. APHIS also remains vigilant in protecting 
herds from economically significant animal diseases, such as 
brucellosis and tuberculosis, through effective control and eradication 
programs.
                   not-ready-to-eat poultry products
    Question. On December 21 of last year Senator Snowe and I sent a 
letter (attached) to you regarding our concerns about the process for 
new regulations being promulgated by USDA's Food Safety and Inspection 
Service (FSIS) for certain Not-Ready-to-Eat poultry products without 
employing the traditional rulemaking process as outlined in the 
Administrative Procedures Act (APA). This important issue affects a 
number of producers across the country, including Barber Foods, a Maine 
company employing 750 people.
    It is my understanding that FSIS will make a significant change in 
agency policy on regulation of Not-Ready-to-Eat poultry products which 
appear Ready-to-Eat. Specifically, FSIS is considering a change which 
would declare Salmonella to be an adulterant and would require non-
detectable levels of Salmonella in Not-Ready-to-Eat poultry products 
which appear Ready-to-Eat.
    A change in agency policy to regulate the presence of Salmonella in 
these products as an adulterant would reverse the long-standing policy 
of FSIS and establish a new precedent. Under the APA, changes to long-
standing agency policies are to be made through formal rulemaking 
procedures.
    Let me be very clear that the safety of our Nation's food supply is 
of paramount importance, and I am not commenting on the merits of the 
regulation change. I encourage FSIS to take all necessary steps to 
improve the safety of our food supply. Even the most important policy 
goals, however, must be implemented in accordance with the procedures 
established by law.
    Since I have yet to receive a response to my letter, I wanted to 
take this opportunity to ask you what specific steps FSIS is taking to 
make sure any regulatory change for Not-Ready-to-Eat poultry products 
which appear Ready-to-Eat are made in accordance with APA requirements?
    Answer. The problem of Salmonella in not-ready-to-eat (NRTE) 
stuffed poultry that appears to be ready-to-eat (RTE) is longstanding. 
There is a history of consumers purchasing the product, treating it as 
though it were RTE, and then getting sick. For more than a decade we 
have worked with companies making these NRTE products to identify and 
implement strategies that will result in a safer product. 
Unfortunately, despite our efforts, the problem persists.
    We are committed to ensuring that any decisions about these 
products will be made in an open and transparent manner. Accordingly, 
please be assured that as USDA moves forward in this effort, we will 
provide ample opportunity for industry and, indeed, all interested 
parties to comment on any actions that FSIS tentatively determines are 
necessary to protect the public health. Ample time will also be allowed 
for the companies involved to implement any actions that FSIS may 
decide to require. We must all be aware, however, that while we work 
with companies to identify actions likely to be most effective, people 
continue to risk becoming ill from these products.
                    congressionally direct spending
    Question. For all congressionally direct spending, please provide 
for each: a funding history, all ultimate funding recipients, a 
statement of goals and accomplishments, any assessments made on funding 
amounts and how those funds were used.
    Answer. The information is submitted for the record.
    [The information follows:]

                        Special Research Grants

                  advancing biofuel production, texas
    The research under this project is being conducted at Texas A&M 
University and Baylor University. The goal of the proposed project is 
to enhance understanding of crop composition on bioenergy conversion, 
using sorghum as a model dedicated energy crop. Understanding the 
composition of this crop and its effect on conversion efficiency is 
crucial to the development of alternative energy sources. From the 
Texas A&M University sorghum program, biomass samples from different 
sorghum types grown under different agronomic practices were produced, 
dried, ground, and provided to Baylor University personnel. Samples 
continue to be analyzed for potential conversion to biofuels. The 
analysis focuses on the sugar composition using a protocol developed 
specifically for the analysis.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $148,950; for fiscal year 2009, 
$140,000; and for fiscal year 2010, $300,000. The total amount 
appropriated is $588,950.
    Research activities to complete the objectives began in 2008. 
Samples of sorghum have been produced and are currently being analyzed 
to address the original objectives to analyze water-soluble materials 
in sorghum, investigate the optimal conversion technology and operation 
conditions for conversion into biofuel, and evaluate the existing 
germplasm and continued breeding programs to develop sorghum varieties.
    The NIFA National Program Leader has had discussions with the 
principal investigator from Texas A&M University. A site visit to 
Baylor University is planned for 2010.
                advanced genetic technologies, kentucky
    This research focuses on developing the infrastructure needed to 
initiate advanced genetic technologies used in the study of 
agriculturally relevant plants, animals, and microbes. The research 
will integrate the modern laboratory methods of large-scale DNA 
sequencing with computational methods to interpret DNA sequences and 
identify genes and key features of genomes. Pilot studies will be 
conducted to obtain sequences from an important symbiont of tall 
fescue, the most widely planted forage grass in the United States, and 
also from an important horse parasite. Other pilot studies will be 
invited and pursued as appropriate.
    The results of this research will enhance techniques of genetic 
analysis, and through such techniques, increased understanding of 
genomes of plants, fungal symbionts of plants, and animal parasites. 
The techniques developed by this research will enable genome sequencing 
for numerous microorganisms that are pathogenic or symbiotic with 
agricultural plants and livestock in the local environment. The project 
will support the training of students and post-docs for work in the 
life science and computer science.
    The work supported by this grant began in fiscal year 2001, and the 
following amounts have been appropriated: in fiscal year 2001, 
$473,955; in fiscal year 2002, $600,000; in fiscal year 2003, $670,613; 
in fiscal year 2004, $600,436; in fiscal year 2005, $644,800; in fiscal 
year 2006, $638,550; in fiscal year 2007, $0; in fiscal year 2008, 
$480,612; in fiscal year 2009, $452,000; and fiscal year 2010, 
$650,000. The total amount appropriated is $5,210,966.
    The research is being conducted at the agricultural experiment 
station maintained by the University of Kentucky.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation. 
The submitting institution conducts a peer review of the proposal prior 
to submission.
          aegilops cylindrica (jointed goatgrass), washington
    The purpose of this initiative is to investigate the biomass and 
bioproduct potential of plants that are typically classified as weeds 
when they invade land used for growing crops. Weedy plants have traits 
that allow them to compete successfully for resources and to grow 
rapidly. An issue related to biomass production is whether traits 
derived from weedy plants might be used to augment production of 
biomass crops and/or whether weedy plants might be developed into 
biomass crops. The goal with Aegilops cylindrica, or jointed goatgrass, 
is to determine whether the robust growth of jointed goatgrass-wheat 
hybrids might make these hybrids or related plants that carry some of 
their traits useful in dryland areas. These hybrids are annuals and 
almost completely sterile so if the hybrids themselves were used as a 
biomass crop, there would not be a significant control problem. Three 
other weedy plants also will be investigated. Research on a hybrid 
poplar will determine whether it is possible to reroute significant 
amounts of carbon from the phenylpropanoid pathway that generates 
lignin precursors to other phenolic compounds that might be used as 
high-value biofuels. The ability to divert carbon from lignin into a 
valuable commodity would be especially useful in lignified biomass 
crops like poplar, which is an invasive tree well suited to the Pacific 
Northwest. Arundo donax, or giant reed, is an invasive and fast-growing 
grass, and various photosynthetic parameters will be investigated to 
determine why light harvesting or carbon allocation is so efficient. 
There is a good control plan in place for experimental plantings that 
rely on water limitation and herbicide application to eliminate the 
plant when necessary. Lactuca serriola, or prickly lettuce, will be 
evaluated to determine if it is possible to increase the quantity or 
quality of the latex compounds in the sap. There have been recent 
advances in gene mapping in this plant, and the focus may be on the 
weed itself but an alternative might be to take the genes responsible 
for isoprenoid polymerization to latex and move them into an alternate 
plant.
    Previous work with jointed goatgrass focused on controlling 
invasion into wheat fields. The research has been a success. Scientists 
developed cultural practices to suppress this weed and combined these 
practices with a technology to allow elimination of jointed goatgrass 
by application of a herbicide during cultivation of a herbicide-
resistant wheat developed for this project. Now that goatgrass can be 
controlled, progress has been made by gathering hybrids and probable 
parental plants from several locations for fiber analysis and by 
producing better defined crosses in greenhouses to generate the needed 
amount of hybrid seed for field testing. Preliminary experiments with 
giant reed have shown an impressive growth rate and extremely high rate 
of carbon dioxide assimilation. Prickly lettuce species and biotypes 
have been surveyed for latex quality and quantity; and matings have 
been carried out to develop populations for mapping productivity 
traits, and genetic markers are being screened. The research on poplar 
continues with cloning high capacity genes for using the 
phenylpropanoid pathway to reroute carbon flux to aromatic monomers.
    The initial work supported by this grant began in fiscal year 1994. 
The appropriation for fiscal year 1994 was $329,000; for fiscal years 
1995 1997, $296,000 each year; $346,000 for fiscal year 1998; $360,000 
each year in fiscal years 1999 and 2000; $359,208 in fiscal year 2001; 
$367,000 in fiscal year 2002; $380,511 in fiscal year 2003; $340,976 in 
fiscal year 2004; $355,136 in fiscal year 2005; $351,450 in fiscal year 
2006; $0 in fiscal year 2007; $261,159 in fiscal year 2008; and 
$245,000 per year in fiscal years 2009 and 2010. Total appropriations 
are $5,188,440.
    This work is being carried out at Washington State University.
    This project has been previously peer reviewed for scientific merit 
and adherence to the program objectives by a panel of scientists and 
producers. Senior agency scientists have reviewed the overall grant 
annually. Progress toward the new objectives was evaluated based on a 
progress report and during a site visit in the fall of 2009.
                  agricultural diversification, hawaii
    Diversified agriculture offers new opportunities and includes 
specialty fruits that open a variety of new markets. The overall 
objective of this project is to provide scientific and outreach support 
services that enable Hawaii entrepreneurs to increase their revenues or 
profits from growing and selling specialty fruits.
    Highlights of work that have been accomplished include establishing 
a private sector oversight committee to review program activities, 
research on identification of new products, risk analysis, market 
analysis, and provision of business guidelines for growing and selling 
new crops. Since project inception, there has been a two- and one-half 
fold increase in the number of farms growing tropical specialty fruit 
crops and a three-fold increase in the value of the crops produced on 
these farms.
    Grants have been awarded from funds appropriated as follows: for 
fiscal years 1988-1989, $156,000 per year; for fiscal years 1990-1993, 
$154,000 per year; for fiscal year 1994, $145,000; for fiscal years 
1995-2000, $131,000 per year; for fiscal year 2001, $130,712; for 
fiscal year 2002, $128,000; for fiscal year 2003, $127,168; for fiscal 
year 2004, $113,327; for fiscal year 2005, $112,096; fiscal year 2006, 
$218,790; for fiscal year 2007, $0; for fiscal year 2008, $162,852; and 
for fiscal years 2009 and 2010, $153,000 per year. A total of 
$3,157,945 has been appropriated.
    Research is being conducted at the University of Hawaii's College 
of Tropical Agriculture and Human Resources on the island of Oahu, and 
other Hawaiian islands.
    Evaluation of this project is conducted annually based on the 
annual progress report and discussions with the principal investigator. 
It has been determined that progress in the development of new 
agricultural opportunities and use of decision-making tools for farmers 
and entrepreneurs is satisfactory.
         agricultural entrepreneural alternatives, pennsylvania
    This research is focused on key areas with entrepreneurial growth 
potential and will expand into two new areas with considerable growth 
potential. Such areas include bio-based energy, green buildings and 
organic foods. This research will determine the most effective methods 
designed to increase small farm profitability by improving farmers' 
business management, marketing, and production practices; and to 
identify barriers to marketing local foods in Pennsylvania.
    To date, this project has hired a Research Associate whose 
appointment began in August 2009. This project has also completed the 
following: prepared and beta tested an agriculture and natural 
resources green business case study for entrepreneurship students; 
established a sustainable entrepreneurship research project design; 
gathered content to develop an agricultural focused entrepreneurship 
extension and outreach train-the-trainer program.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $248,250; for fiscal year 2009, 
$233,000; and for fiscal year 2010, $248,000. The total amount 
appropriated is $729,250.
    This work is being carried out at Pennsylvania State University 
Research station.
    Annual proposals for funding are peer reviewed for relevance and 
scientific merit. The National Institute of Food and Agriculture agency 
contact is also in regular contact with the principal researcher at 
Pennsylvania State University to discuss progress towards meeting 
project objectives.
                    agricultural marketing, illinois
    The University of Illinois developed an electronic infrastructure 
and marketing resource called MarketMaker which was to be used to 
assist and educate livestock farmers on marketing strategies for value-
added meat products. It has developed into a tool that can benefit 
everyone in the food supply chain, from farmers, to processors, 
distributors, retailers, and the consumer looking for unique food 
products. The goal for this stage of development will include the 
continued geographic expansion of MarketMaker but will also build 
greater participation from businesses beyond the farm gate.
    Current progress includes the following: Build awareness among non-
farm food related enterprises--Project investigators and State partners 
are in the early stages of a campaign to educate and inform food 
processors, wholesalers, distributors and food retailers on the use 
MarketMaker to acquire attribute specific food products and identify 
potential supply chain partners. To extend the outreach of the project, 
the investigators have targeted organizations such as the National 
Restaurant Association, the American Association of Meat Processors, 
the Seafood Products Association, and the Food Marketing Institute. 
Solicit Food Industry Feedback--Food industry leaders and decision-
makers have been invited to identify the types of information about 
other food related enterprises that they would find most useful. 
Conversations with WalMart, Sysco Corp, and C.H. Robinson are ongoing 
and are providing valuable feedback that will guide the further 
expansion of the current MarketMaker data base. Key Food Industry 
decision-maker interviews--The MarketMaker team will continue to 
solicit feedback from industry experts to arrive at the optimum extent 
of information that would aid food supply chain decision makers. 
Investigators will identify key food industry decision-makers, with 
input from the Advisory Board. Interviews will focus on collecting data 
on (1) food categories and characteristics most important for their 
business; (2) search capabilities most important to their business; and 
(3) strategies for training personnel to use MarketMaker in their 
industry. Identify Key Metrics to Determine the Commercial Readiness of 
Farmers--Industry interviews will also allow investigators to inventory 
standards of performance that are expected from farmers in such areas 
as post harvest handling, packaging standards and food safety 
standards. This information will become the basis for developing a 
curriculum for ``Commercial Ready Farming Practices''. This curriculum 
will be implemented by the land grant partners. Design New Business 
Registration Templates--This information will be integrated into a new 
online registration template used to create profiles for the individual 
business. The farmer/producer portion of the data base already includes 
expanded profiles that identify products produced, forms of sale, 
marketing attributes, and other types of information that help the user 
filter out the farmers that best fit their needs. Newly designed 
templates for registering will allow for the creation of equally rich 
profiles for food manufacturers, wholesalers, distributors, restaurants 
and food retailers. Other business profiles in the data base currently 
only include the kinds of cursory information that can be purchased 
through business data brokers.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant, with an amount of $186,684; and for fiscal years 2009 
and 2010, $176,000 per year. The total amount appropriated is $538,684.
    The work is being conducted at the University of Illinois.
    The agency evaluates the merit of research proposals as they are 
submitted. The principal investigators and project managers submit 
annual reports to the agency to document impact of the project. Agency 
evaluation of the project includes peer review of accomplishments and 
proposal objectives and targeted outcomes. Additionally, progress 
reports to the Current Research Information System (CRIS) are being 
monitored for satisfactory accomplishments and timelines.
             agriculture energy innovation center, georgia
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $1,000,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.
                       agriculture science, ohio
    This program has focused on research on emerging diseases of 
plants, animals, zoonotic diseases, and foodborne diseases. 
Specifically, these diseases have included influenza virus, severe 
acute respiratory syndrome (SARS) coronavirus, aster yellows 
phytoplasma, and sudden oak death. In 2009, work was done to determine 
the molecular basis for interspecies transmission of H3N2 viruses 
between swine and turkeys. This program also looked to determine if 
soybean rust and new strains of stem rust of wheat have arrived in 
Ohio, and to develop protocols for sampling for invasive crop diseases 
and assessing the accuracy of risk assessment models for emerging high-
impact crop diseases.
    Progress continues on research involving influenza viruses, SARS 
coronavirus, soybean rust, and sudden oak death. Educational materials 
have been developed to assist soybean growers in the identification of 
soybean rust in infected plants, and staff training continues for 
biosafety laboratory containment. Polyclonal antibodies specific for 
the soybean rust pathogen have been developed and several volatiles 
have been identified from infected trees that attract insects; chemical 
characterization is in progress.
    The work supported by this grant began in fiscal year 2003, and the 
appropriation for fiscal year 2003 was $496,750; for fiscal year 2004, 
$444,363; for fiscal year 2005, $542,624; for fiscal year 2006, 
$564,300; $0 in fiscal year 2007; $407,130 in fiscal year 2008; 
$382,000 in fiscal year 2009; and $450,000 in fiscal year 2010. The 
cumulative total amount appropriated is $3,287,167.
    This work is being done at the Food Animal Health Research Program 
laboratories and clinics at the Ohio Agricultural Research and 
Development Center and the Department of Plant Pathology, all located 
at The Ohio State University in Wooster, Ohio.
    The fiscal year 2009 proposal was institutionally peer-reviewed at 
the Ohio State University. In addition, a NIFA National Program Leader 
reviewed the proposal and determined that the research project was 
appropriate and addresses important opportunities for better 
understanding new and emerging plant and animal disease threats. 
Furthermore, the feasibility, budget, time-frame, and facilities for 
the project were adequate. The National Program Leader noted that these 
ongoing research projects outline a program which builds upon 
established resources and responds to National research needs in 
emerging plant and animal diseases.
            agroecology/chesapeake bay agroecology, maryland
    The objective of this grant is to preserve farm and forest land in 
the Chesapeake Bay region and prevent farmland conversion to housing. 
The research focuses on: the management and selection of hull-less 
barley cultivars in Maryland that can be used as a feedstock for fuel 
ethanol production; investigating a variety of native plant species for 
use as high-value niche crops for small farms and nurseries; and 
assessing State forestland through the collection of information on 
forest type, past management history, age, volume, forest structure, 
and species diversity.
    This grant has completed some objectives to provide alternative 
high value crops to maintain farmland and provide cover crops to reduce 
nutrient runoff.
    Fiscal year 2009 was the first year that funds were appropriated 
for this grant. In fiscal years 2009 and 2010, funds appropriated were 
$499,000 per year. A total of $938,000 has been appropriated.
    The work is being carried out at the Wye Research and Education 
Center in Queenstown, Maryland, and throughout the State.
    Fiscal year 2009 is the first year that funds were appropriated for 
this grant. An evaluation is planned for the summer of 2010.
                     air quality, texas and kansas
    This research and technology-transfer initiative was created to 
form a Federal/State partnership that is: (1) characterizing odor, 
odorous gases, particulate matter, and greenhouse gases from open-lot 
concentrated animal feeding operations (CAFOs); (2) developing and 
evaluating cost-effective abatement measures; (3) providing a sound, 
scientific basis for specific air pollution regulations, including 
appropriate emission factors for particulates, odor, and odorous gases 
for the Southern Great Plains; (4) determining the potential impact of 
these air contaminants on animal health and productivity with 
inferences related to human health concerns; and (5) providing 
technology transfer to the public and agricultural producers. The 
project is no longer working on animal health and productivity and has 
begun measuring emissions of greenhouse gases. The following are the 
most recent accomplishments to date by objective.
    Objective 1. Emissions Characterizations for Abatement Measures and 
Receptor Impacts.--A value of 20 percent surface moisture content of 
feedlot pen surfaces was determined to be a critical threshold for 
reducing particulate matter emissions, and time of day was found to be 
a critical parameter for applying the water to the pen surface. Average 
12-month dry deposition of inorganic nitrogen was found to be almost 
three times as large as wet deposition. These relationships will be 
very useful in constructing process-based emissions models for 
particulate matter and gaseous emissions.
    Objective 2. Process-Based Emissions Models.--A nitrogen mass 
balance was constructed for cattle in commercial feedyards. Less than 
10 percent of the fed nitrogen was retained by the cattle and 30-35 
percent of the nitrogen was available to be lost to the atmosphere as 
ammonia in winter and almost double that amount in summer. Feeding 
distiller's grains, a co-product of ethanol from corn, generated higher 
emissions of ammonia nitrogen which was proportional to increased 
protein content in the ration.
    Objective 3. Dispersion Modeling, Regulation, and Emissions 
Factors.--Scraping manure from the feedyard pens reduced reactive 
volatile organic carbon emissions significantly. Emission factors for 
these organics was a factor of 10 times lower than values used by some 
State regulatory agencies. Scraping also significantly reduced 
emissions of carbon dioxide and methane. EPA methodology for estimating 
feedlot emissions of methane from volatile solids was determined and 
compared to more direct emissions measurements.
    Objective 4. Technology Transfer.--Investigators produced 4 
refereed journal articles, 17 scientific presentations, 5 news 
articles, 5 fact sheets, 2 eXtension webinars, and 6 graduate student 
theses. The project Web site was consolidated and improved. The project 
team received the Vice Chancellor's Award in Excellence-Research for 
their work on this project.
    The work supported by this grant began in fiscal year 2002, and the 
appropriation for fiscal year 2002 was $640,000, $869,313 in fiscal 
year 2003; $894,690 in fiscal year 2004; $1,065,408 in fiscal year 
2005; $1,558,260 in fiscal year 2006; $0 in fiscal year 2007; 
$1,160,817 in fiscal year 2008; and $1,090,000 per year in fiscal years 
2009 and 2010. A total of $8,368,488 has been appropriated.
    Research is being conducted within the Texas A&M University System 
with the lead being at the Agricultural Research and Extension Center 
at Amarillo and participation at West Texas A&M University. Kansas 
State University also participates in the project as well as 
participation by the Agricultural Research Service in Bushland, Texas.
    A comprehensive program review was completed in August 2008 with an 
independent peer review team. The review team reported satisfactory 
progress on all but one of the five objectives. The review team felt 
that progress on the technology transfer objective could be much better 
given the maturity of the project. A number of very helpful 
recommendations were given by the review team to the project directors. 
The project directors have since met and have laid-out a very 
comprehensive plan to address the review team's recommendations. The 
2008 review has created a broader group of participants on the advisory 
committee. The program officer thoroughly reviewed the most recent 
proposal and progress updates and participated in the research planning 
meeting for the 2010 fiscal year.
   animal science food safety consortium, arkansas, iowa, and kansas
    The Food Safety Consortium researchers provide information to 
consumers by supporting one of the largest food safety Web sites. The 
Food Safety Consortium will continue to improve the safety of American 
meat and poultry products, provide U.S. consumers with safer products 
and help the United States maintain a major role in the international 
market.
    The original goal of this research was to assess the potential 
threats to beef, pork, or poultry during the production of the live 
animal and during processing, distribution, and consumption, in 
addition to developing sampling and testing strategies to rapidly 
identify any contaminants and determine the distribution of the 
contaminants in the food supply. To date promising results were 
obtained in continuing work with two natural proteins termed 
bacteriocins and produced by two beneficial bacteria belonging to the 
genus Bacillus. Preliminary studies indicate a potential mechanistic 
action of these new Bacillus candidates involving rapid activation of 
innate host immune mechanisms in chickens and turkeys. In addition to 
these findings, another research group determined whether combinations 
of organic acids would inhibit Salmonella Typhimurium biofilm formation 
using an assay based on adherence to titer plate wells. At lower 
concentrations organic acids disrupted biofilm formation while higher 
concentrations led to bacterial death.
    Grants have been awarded from funds appropriated as follows: fiscal 
year 1989, $1,400,000; fiscal year 1990, $1,678,000; fiscal year 1991, 
$1,845,000; fiscal years 1992-1993, $1,942,000 per year; fiscal year 
1994, $1,825,000; fiscal years 1995-1996, $1,743,000 per year; fiscal 
year 1997, $1,690,000; fiscal years 1998-2000, $1,521,000 per year; 
fiscal year 2001, $1,631,403; fiscal year 2002, $1,598,000; fiscal year 
2003, $1,603,509; fiscal year 2004, $1,444,427; fiscal year 2005, 
$1,432,448; fiscal year 2006, $1,417,680; fiscal year 2007, $0; fiscal 
year 2008, $1,056,552; fiscal year 2009, $939,000; and fiscal year 
2010, $1,000,000. The total appropriation was $32,494,019.
    Research is being conducted at the University of Arkansas at 
Fayetteville, Iowa State University, and Kansas State University.
    This program was reviewed and approved based on the proposal 
submission and Current Research Information system (CRIS) reports by 
NIFA staff in September 2009.
                apple fire blight, michigan and new york
    This research is on fire blight in apple trees. Fire blight is a 
bacterial disease that can kill spurs, branches, and sometimes entire 
trees. The management of this disease is difficult because there are 
limited control options available. This research project is designed to 
develop fire blight resistant varieties, evaluate biological and 
chemical control methods for disease management, and develop an 
education and extension program to help growers improve their ability 
to manage fire blight in their orchards.
    To date, new genes have been identified that show promise for their 
ability to make apple trees resistant to fire blight. These genes are 
now incorporated into apple trees that are significantly resistant to 
fire blight in the field. Additionally, a novel material, kasugamycin, 
has been shown to have good potential for controlling fire blight in 
areas where streptomycin resistance has developed. This is now being 
used by growers on a trial basis and will be further tested this year. 
An integrated pest management strategy is being developed and deployed.
    Fiscal year 1997 was the first year that funds were appropriated 
for this project, with an appropriation of $325,000. Each year that 
this grant has been appropriated, the total has been split equally 
between New York and Michigan. For fiscal years 1998 through 2000, 
$500,000 per year; in fiscal year 2001, $498,900; in fiscal year 2002 
$489,000; in fiscal year 2003, $491,783; in fiscal year 2004, $456,292; 
in fiscal year 2005, $479,136; in fiscal year 2006, $495,000; in fiscal 
year 2007, $0; in fiscal year 2008, $368,403; and in fiscal years 2009 
and 2010, $346,000 per year. A total of $5,795,514 has been 
appropriated.
    This research project is being conducted as a collaborative program 
at agricultural experiment stations maintained by Michigan State 
University and at the New York State Agriculture Experiment Station of 
Cornell University, located in Geneva, New York.
    Senior agency technical staff conducts a merit review of the 
proposal submitted by the performing institution each year. The 
investigators have developed improved techniques for transferring 
resistance genes into apples and have been able to accelerate flowering 
in transgenic trees to be able to make evaluations after 2 years, 
rather than 4 to 5 years. The researchers have made progress toward 
effective biological control of the bacterium that causes the disease, 
as well as understanding the genetic basis for disease development.
              aquaculture, california, florida, and texas
    The objective of this grant is focused on shell fish aquaculture to 
ensure the sustainability of the hard clam aquaculture industry in 
Florida through evaluation of stock hybridization, stocking densities, 
and an initial assessment of soil characteristics in Florida. 
Objectives also focus on developing new technologies to advance United 
States marine finfish aquaculture by improving the efficiency and 
economic viability of recirculating aquaculture systems for maturation 
and spawning of marine fish broodstock.
    Accomplishments from this directed research include but are not 
limited to: generation of a computer model and new design 
specifications for marine broodstock maturation systems and new water 
quality monitoring tests and protocols that have led to the successful 
spawning of southern flounder producing more than 600,000 viable eggs 
and juveniles. These eggs and juveniles were provided to the Texas 
Parks and Wildlife fish hatchery system along with juvenile flounder to 
a commercial grower for industry development. The University of Texas 
determined that juvenile flounder could be successfully reared in 10 
parts per 1,000 salinity but had reduced survival at 0.5 parts per 
1,000. Digestive enzymes in larval southern flounder were also measured 
during development in order to select an appropriate feeding regimen. 
Cultured Mercenaria mercenaria and wild Mercenaria campechiensis were 
spawned and single-parent crosses accomplished. Allozyme marker 
analysis indicated parental clams in two crosses were hybrids. Grow-out 
trials indicated hybrid weights and growth were higher than parental 
stocks. A laboratory challenge was conducted exposing two families to 
salinities of 15 or 25 parts per 1,000 and hypoxic or normoxic 
conditions at 32 degrees Centigrade. In the lab challenge, survival 
analysis indicated that the Mercenaria mercenaria x Mercenaria 
campechiensis crosses performed better under stressful conditions than 
did parents or reciprocal crosses. About 248,000 hybrid seed were 
planted in 2008 for replicated comparison of stocks, density, and gear. 
Experimental clams are sampled every four months and will be harvested 
in late summer. Ten commercial growers planted 190,000 seed clams on 
commercial leases in three counties for site comparison. Additionally, 
in March 2008, a total of 1,017,000 seed was transferred to Cedar Key 
for continued culture. The clam husbandry project is still underway.
    Work supported by this grant began in fiscal year 2006 with an 
appropriation of $594,000; $0 in fiscal year 2007; $442,878 in fiscal 
year 2008; and $416,000 per year in fiscal years 2009 and 2010. The 
total amount appropriated is $1,868,878.
    The University of Florida, Gainesville, in collaboration with 
commercial producers in the Cedar Key area in Florida, is conducting 
the clam research. Research on marine finfish is being conducted at the 
Mote Marine Laboratory and Aquarium in Sarasota, Florida, the 
Department of Marine Science of the University of Texas in Port 
Aransas, Texas, and at the Hubbs-Sea World Research Institute in San 
Diego and Carlsbad, California.
    The Agency's National Aquaculture program staff review the project 
annually upon submission of proposals with details on all proposed 
studies. Programmatic review of the fiscal year 2009 proposal concluded 
that the methodology and experimental design were sound. Additionally, 
the Agency held a post-award management workshop in December 2009 that 
included reporting on progress and accomplishments and focus on 
performance, relevancy, and quality.
                   aquaculture, idaho and washington
    The original goal of the program was to improve and expand trout 
aquaculture at the regional and national levels through improved animal 
health management, improved water quality management, improved product 
quality, and new product development. Past research has led to vital 
information on the immune system of trout and new diagnostic methods 
that will help in the early detection of disease organisms affecting 
the rainbow trout industry; the identification of genetic disease-
resistance markers in rainbow trout which will aid in the development 
of genetic vaccines for the rainbow trout industry; the development of 
disease diagnostic tools for other salmonids; improved processing 
technologies for rainbow trout and improved trout production systems to 
reduce effluents from trout farm; water re-use systems for less-costly 
and flow-through aquaculture facilities with more environmentally 
friendly performance due to new engineering techniques; Hepatopoietic 
Necrosis Virus resistance loci in a rainbow X cutthroat cross have been 
identified and mapped; and a rickettsial-like bacterial sequence 
associated with strawberry disease lesions in rainbow trout has been 
identified. Research on other species has led to: both imidacloprid and 
carbaryl were found to be efficacious in controlling burrowing shrimp 
at the rates tested; and ultrasound can be used to measure egg diameter 
in mature female sturgeon and to predict appropriate caviar harvest 
times. Recent findings from this program include but are not limited 
to: Black soldierfly pre-pupae were grown with and without omega-3 and 
omega-6 fatty acids by altering their diets. Black soldierfly pre-pupae 
enriched with omega-3 and omega-6 fatty acids do not undergo 
significant oxidation even after 12 months of storage at room 
temperature. These findings suggest that this insect could easily be 
stored for several months at room temperature without becoming rancid, 
a characteristic that is beneficial to the feed industry if this 
product is to be considered as a potential feed ingredient for 
aquaculture diets as well as diets for various other animals. The 
mechanism of immune-stimulated muscle wasting in fish may be somewhat 
different than that in mammals. Selection of strains based on increased 
levels of immunity may be detrimental to muscle growth. These results 
may also imply that management practices such as long-term feeding of 
immunostimulant-containing diets may ultimately reduce production 
efficiency. Differential expression of heat shock proteins in rainbow 
trout tissues was determined, as well as differential capacity of 
rainbow trout embryos to up-regulate heat shock proteins expression in 
response to heat shock. Partial results of these studies did show that 
older embryos showed greater tolerance to heat shock than younger 
embryos. Rainbow trout should be fed a low level of soybean meal during 
early feeding to improve utilization of higher levels of soybean meal 
in grow-out, and this information challenges current dogma. Findings 
from this research have also identified important patterns in consumer 
response to mass media reporting on farmed salmon and aquaculture in 
general. People often use simple decision rules, leading a large 
percentage of the population to avoid farmed seafood products under the 
belief that these products are not natural or are contaminated. Media 
analysis shows that news stories rarely convey the science in a 
complete way. The research is leading to recommendations for both 
science reporting and health advisories regarding seafood.
    The work supported by this grant began in fiscal year 2001, and the 
appropriation was $284,373. The fiscal year 2002 appropriation was 
$600,000; in fiscal year 2003, $769,963; in fiscal year 2004, $688,911; 
in fiscal year 2005, $763,840; in fiscal year 2006, $756,360; in fiscal 
year 2007, $0; in fiscal year 2008, $563,031; and in fiscal years 2009 
and 2010, $529,000 per year. A total of $5,484,478 has been 
appropriated.
    Washington State University, the University of Idaho, and the 
Pacific Shellfish Institute in Washington are conducting the research.
    The proposals are reviewed by the agency's National Aquaculture 
Program staff upon submission. The last agency review concluded that 
significant progress had been reported on research objectives under 
this program. The Principal Investigators were leading authorities in 
this area of research and were well aware of the complexity of the 
industry and the implications of their research. The proposal was well 
written and objectives were clearly stated. The experimental design and 
scientific approach appeared to be sound. Literature and justifications 
for research were provided. The Agency conducted a post-award workshop 
in December 2009 that included reporting on progress and 
accomplishments with a focus on performance, quality, and relevancy.
                         aquaculture, louisiana
    The original goal of the research was to provide science-based 
information that specifically addressed the needs of the aquaculture 
industry in Louisiana and the southern region. The program funded by 
the Aquaculture, Louisiana grant has resulted in increased crawfish 
production from research on new winter baits, the use of square-mesh 
traps, improved pond-draining and stocking schedules, and increased 
reproduction capacity and improved predictability of reproduction from 
short-term feeding of adult crawfish prior to burrowing. Studies were 
completed that evaluated bait type, trap soak-time, and crawfish escape 
from traps made from square-mesh welded wire. Research from this 
program has also demonstrated that chitosan produced from crawfish 
shells offers the potential to reduce off-flavor in processed channel 
catfish. Disease control has been enhanced through the development of 
new vaccines for channel catfish. Genetic maps have been developed for 
commercial strains of channel catfish and research on cryopreservation 
technologies has led to improved gene banking of commercially important 
aquaculture species. The use of ultrasound for classification of 
ovarian condition of catfish, including industry-scale use in 
cooperation with commercial farms, was standardized and validated. 
Spawning of catfish in greenhouse tanks prior to the natural spawning 
season has been documented as well as reproductive conditioning of koi 
carp in heated broodstock ponds. Research examined the utilization of 
ultrasound technologies to determine the state of ripeness of channel 
catfish eggs and demonstrated that channel catfish can be induced to 
spawn early by using warm well water without affecting reproductive 
performance. New processing technologies have led to improved quality 
and safety of cultured aquatic species and new feed formulations have 
led to reduced production costs. Energy analysis of alligator 
operations showed two major areas where significant savings could 
occur: water heating; and feed production. Results from recent crawfish 
trials conducted in artificial burrows provided possible cause/effect 
relationships observed in crawfish ponds where production relies solely 
on natural recruitment to populate ponds. Possible causes of 
reproductive impairment were identified to improve the understanding of 
population dynamics in crawfish ponds. High-throughput cryopreservation 
technologies for blue catfish sperm is now available for application 
and, with continued work with commercial hatcheries, will become 
available for commercialization. Characterization of larval development 
of the Fat Sleeper, a marine baitfish, will aid in the identification 
of morphological changes prior to these larvae accepting live or 
artificial feed items. Soluble and insoluble proteins from catfish skin 
were isolated and studied. Freeze-dried soluble and insoluble 
hydrolysate catfish skin powders were shown to have desirable 
functional and rheological properties. Protein hydrolysates made from 
catfish skin can be converted into a high-value protein powder food 
ingredient. Applications of this food ingredient include incorporation 
into muscle tissue products by injection, tumbling, and coating. The 
majority of Vibrio vulnificus isolates from Gulf oysters were of the 
environmental type versus the clinical type, and there was a seasonal 
variation in the genotypes identified. The study may help guide future 
control measures to focus more specifically on seasons that tend to 
accumulate the clinical-type Vibrio vulnificus.
    Research conducted under this program continues as initiated under 
the Aquaculture General program in fiscal years 1988 through 1991. The 
work supported by the current program began in fiscal year 1992, and 
the appropriation for fiscal years 1992-1993 was $390,000 per year; 
$367,000 in fiscal year 1994; $330,000 each year in fiscal years 1995-
2000; $329,274 in fiscal year 2001; $322,000 in fiscal year 2002; 
$327,855 in fiscal year 2003; $313,141 in fiscal year 2004; $329,344 in 
fiscal year 2005; $325,710 in fiscal year 2006; $0 in fiscal year 2007; 
$243,285 in fiscal year 2008; $188,000 in fiscal year 2009; and 
$150,000 in fiscal year 2010. A total of $5,655,609 has been 
appropriated.
    The research is being conducted at Louisiana State University.
    The agency's National Aquaculture Program Staff review proposals as 
they are submitted to the agency with details of proposed research 
studies. The proposed research is consistent with national goals and 
objectives outlined by the Joint Subcommittee on Aquaculture, National 
Science, and Technology Council (JSA-NSTC) Strategic Plan for 
Aquaculture Research and Development. The Agency conducted a post-award 
management workshop in December 2009 that included reporting on 
progress and accomplishments with a focus on performance, quality and 
relevancy.
                        aquaculture, mississippi
    The fiscal year 2009 research funded under the Aquaculture 
Research, Stoneville, Mississippi Special Research grant was focused on 
practical feeding and nutritional requirements of channel catfish. 
Specific objectives outlined in the fiscal year 2009 proposal include: 
(1) evaluate effects of lysine supplementation on lysine-deficient 
diets on growth, feed efficiency, and lysine utilization in channel 
catfish; (2) determine clearance times for yellow pigments in channel 
catfish; and (3) compare satiate and restricted feeding on production 
characteristics of pond-raised channel catfish x blue catfish hybrids. 
The anticipated impact will be a reduction in feed cost and an increase 
in profit for catfish producers. Research funded under this program has 
had significant impact on the profitability of the pond-raised channel 
catfish industry in the United States. Researchers involved in this 
program work closely with the catfish industry providing practical 
solutions to improve the feeding efficiency of catfish production 
systems.
    Past research conducted under this program has resulted in improved 
feed formulations and efficiency and improved water quality and disease 
resistance strategies for commercial channel catfish culture. Past 
results, include but are not limited to, research that has shown that 
dried distiller's grains with solubles plus supplemental lysine can 
replace about 35 percent of soybean meal, and cottonseed meal plus 
supplemental lysine can replace about 50 percent of soybean meal in the 
diet without significantly affecting fish growth, feed efficiency, and 
processing yield. A combination of distiller's grains, cottonseed meal, 
and supplemental lysine can totally replace soybean meal. However, a 
dietary level of 30 percent distiller's grains appears to increase the 
fillet fat level because of the high fat content in distiller's grains. 
Another study examined the use of high-protein finishing diets to 
improve processing yield of pond-raised channel catfish using a 
multiple-batch cropping system. Results showed that there were no 
significant differences in the amount of feed fed, net production, 
final weight per fish, feed conversion, processing yield, and body 
composition of fish fed low protein diets and finished with high 
protein diets compared with fish fed diets containing various levels of 
protein throughout the growing season. Based on results from this 
study, it appears that finishing with high protein diets does not 
appear to be beneficial to improving processing yield of pond-raised 
catfish. Another recent project concluded that there were no 
significant differences in weight gain, feed conversion ratio, 
survival, and processing yield of fish fed diets containing various 
levels of canola meal up to 50 percent. Comparisons between channel 
catfish and blue catfish concluded that, regardless of dietary protein 
levels, blue catfish had higher whole-carcass weight, nugget, and total 
meat yield and higher fillet moisture and protein but lower fillet 
yield and fillet fat than channel catfish. Results of this program are 
quickly disseminated to the industry having an almost immediate impact 
on production costs due to close linkages with the channel catfish 
industry.
    The program was initiated in fiscal year 1980. Grants have been 
awarded from funds appropriated as follows: fiscal years 1980-1981, 
$150,000 per year; fiscal year 1982, $240,000; fiscal years 1983-1984, 
$270,000 per year; fiscal year 1985, $420,000; fiscal years 1986-1987, 
$400,000 per year; fiscal year 1988, $500,000; fiscal year 1989, 
$588,000; fiscal year 1990, $581,000; fiscal year 1991, $600,000; 
fiscal years 1992-1993, $700,000 per year; fiscal year 1994, $658,000; 
fiscal years 1995-1997, $592,000 per year; fiscal year 1998, $642,000; 
fiscal years 1999-2000, $592,000 per year; fiscal year 2001, $590,698; 
fiscal year 2002, $579,000; fiscal year 2003, $582,191; fiscal year 
2004, $520,908; fiscal year 2005, $516,832; fiscal year 2006, $511,830; 
fiscal year 2007, $0; fiscal year 2008, $385,284; and fiscal years 2009 
and 2010, $361,000 per year. A total of $14,637,743 has been 
appropriated.
    The research is being conducted at the Thad Cochran National 
Warmwater Aquaculture Center and Delta Branch Experiment Station of the 
Mississippi State University Agricultural and Forestry Experiment 
Station located in Stoneville, Mississippi.
    The agency's National Aquaculture Program staff review proposals 
with details of planned research studies that are submitted to the 
agency. The Agency conducted a post-award management workshop in 
December 2009 that included reporting on progress and accomplishments 
with a focus on performance, quality and relevancy.
                      aquaculture, north carolina
    The objective of the grant is to improve the production efficiency 
of the North Carolina warm water fish culture industry through 
understanding the fundamental mechanisms controlling growth and feed 
intake, and establishing methods to improve production efficiency and 
environmental sustainability of hybrid striped bass in recirculating 
water aquaculture systems.
    Past research conducted under this program has lead to information 
on: certain plasma proteins in hybrid striped bass that were correlated 
with specific growth rates; a biofiltration study that suggested that 
wood chips would be a cost-effective alternative to the more-expensive, 
conventional plastic media; growth uniformity that can be achieved in 
yellow perch by controlling temperature and photoperiod of grow-out 
systems; nutritional requirement determinations for optimum growth and 
development for Southern flounder and hybrid striped bass; selection of 
families of hybrid striped bass for production traits including 
survival, growth, and dress-out weight; determining that increasing the 
percentage of female Southern flounder in a grow-out system will 
significantly reduce production costs; partial compensatory growth was 
observed in hybrid striped bass food fish grown in ponds and tanks 
during the re-alimentation period when fish were fed daily following 
periods of feed deprivation and pond total phosphorus concentrations 
was 32 percent lower in the compensatory growth treatments than control 
ponds; and many genes in hybrid striped bass are activated in 
association with the transition of oocytes from primary to secondary 
growth. Recent accomplishments include but are not limited to: ovaries 
in early atresia produce a choriolysin, which is related to the 
hatching enzyme involved in hatching fish embryos so that females 
initiating atresia can be identified and induced to reproduce before 
they become un-spawnable. Leptin expression was restricted to the liver 
in striped bass and hybrid striped bass while in mammals leptin is 
expressed predominantly in adipose tissue. Both tissues are important 
lipid stores for their respective groups. The principal investigators 
found that Insulin-like Growth Factor-I is a strong corollary to 
predict growth and that ghrelin, a major appetite stimulatory hormone, 
may partially drive the growth hormone secretory dynamics and 
hyperphagic response observed with compensatory growth feeding 
protocols for hybrid striped bass. Results from studies using chemicals 
to reduce effluents from hybrid striped bass ponds strongly suggest 
that chemical treatment of pond effluents to achieve Environmental 
Protection Agency compliance is not feasible.
    Work supported by this grant began in fiscal year 1997, and the 
appropriation was $150,000. The project was not funded in fiscal years 
1998 and 1999. The fiscal year 2000 appropriation was $255,000; for 
fiscal year 2001, $299,340; for fiscal year 2002, $293,000; for fiscal 
year 2003, $291,096; for fiscal year 2004, $260,454; for fiscal year 
2005, $277,760; for fiscal year 2006, $321,750; for fiscal year 2007, 
$0; for fiscal year 2008, $242,292; and for fiscal years 2009 and 2010, 
$227,000 per year. The total amount appropriated for this program is 
$2,844,692.
    The research is being conducted at North Carolina State University 
at the North Carolina State aquaculture research facilities in Aurora 
and Plymouth, North Carolina.
    The agency's National Aquaculture Program staff reviewed the 
project upon submission to the agency with details of all proposed 
research studies. The proposed research was consistent with the Joint 
Subcommittee on Aquaculture's Strategic Plan for Research and 
Development. The Agency conducted a post-award management workshop in 
December 2009 that included reporting on progress and accomplishments 
with a focus on performance, quality and relevancy.
      aquaculture product and marketing development, west virginia
    The original goal of this research was to develop sound marketing 
strategies for aquaculture products, improve the economic efficiency of 
aquaculture production systems, and improve the quality and variety of 
aquaculture products coming from West Virginia and the Appalachian 
region. Research funded under this program has lead to the development 
of software designed to simulate raceway production of trout that will 
provide a way for growers to determine how to better-manage their 
systems; commercial fish meal-free diets that may provide an effective 
strategy to reduce the levels of contaminants in farm-raised rainbow 
trout; West Virginia fee-fishing opportunities that can contribute to 
the productivity of the tourism industry by providing tourists with 
more to see and do with respect to outdoor activities; information on 
watercress that can be grown in the effluent stream from trout raceway 
systems and that may effectively remove nitrogen and phosphorus 
discharged into streams; the use of impaired waters, such as mine 
discharge ponds, utilizing different feeds and the use of different 
strains or species of fish that may open opportunities for small fish 
farms in the Appalachian region; aquaponics systems that can utilize 
flow-through systems and that cool-season food and ornamental plants 
can be produced and grow well in this system; and plant production that 
can be maintained year-round providing a reliable income source and 
that can be used to grow cool-season crops through the summer when they 
are less-available and can command a higher price. New protein and 
lipid recovery technologies designed for semi-industrial applications 
that will allow protein and lipid recovery in sufficient quantities for 
development of marketable, value-added food products from aquaculture 
products from West Virginia has lead to the development of basic 
parameters for protein and fish oil recovery and design for an 
industrial-scale bio-reactor system for processing fish by-products 
and/or whole, gutted fish. This has resulted in the submission of two 
patent applications filed by West Virginia University with the United 
States Patent and Trademark Office.
    Grants have been awarded from funds appropriated as follows: fiscal 
year 1998, $600,000; $750,000 for each of fiscal years 1999 and 2000; 
$748,350 for fiscal year 2001; $733,000 for fiscal year 2002; $735,190 
for fiscal year 2003; $671,017 for fiscal year 2004; $705,312 in fiscal 
year 2005; $742,500 in fiscal year 2006; $0 in fiscal year 2007; 
$521,325 in fiscal year 2008; $489,000 in fiscal year 2009; and 
$550,000 in fiscal year 2010. A total of $7,995,694 has been 
appropriated.
    The work is being carried out at the University of West Virginia in 
Morgantown along with a number of cooperators.
    Proposals with details of planned research studies are submitted to 
the agency for critical review by the agency's National Aquaculture 
Program staff. The proposed research was consistent with national goals 
and objectives outlined in the National Science and Technology 
Council's Joint Subcommittee on Aquaculture under the Strategic Plan 
for Aquaculture Research and Development. The Agency conducted a post-
award management workshop in December 2009 that included reporting on 
progress and accomplishments with a focus on performance, quality and 
relevancy.
                     armillaria root rot, michigan
    This project has objectives to find resistance to Armillaria root 
rot of cherry by conventional breeding techniques and to develop a 
management strategy for Armillaria root disease, primarily host plant 
resistance. The nurseries in infected field plots have already been 
established, but the outcome of the experiment will be 5 to 8 years in 
the future. Within the large screening program, some epidemiological 
work on strain distribution and on the efficacy of sanitation measures 
will be done. Analysis of integrated pest management possibilities, 
particularly biological control and chemical control are underway. 
Basic research is being conducted on the fungal pathogen itself, in the 
evaluation of genetic factors that help the Armillaria fungus develop 
rhizomorphs that grow from one tree to the next and are important in 
protecting the fungus from sunlight.
    The work supported by this grant began in fiscal year 2002, and the 
appropriation for fiscal year 2002 was $160,000; in fiscal year 2003, 
$158,960; in fiscal year 2004, $142,156; in fiscal year 2005, $149,792; 
in fiscal year 2006, $149,490; in fiscal year 2007, $0; in fiscal year 
2008, $111,216; and in fiscal years 2009 and 2010, $104,000 per year. 
The total amount appropriated is $1,079,614.
    This work is being carried out at Michigan State University.
    The submitting institution conducts a peer review of the proposal 
prior to submission. Senior agency technical staff conducts a merit 
review of the proposal prior to making a funding recommendation. The 
agency may conduct an on-site review in 2010.
             asparagus production technologies, washington
    The original goals of this research were to reduce production and 
consumer costs and increase the annual asparagus supply. To date this 
research has proven the concept of new harvesting technologies to 
reduce field labor costs, developed new reduced-labor processing 
technologies, investigated new packaging processes to improve quality 
and shelf life of fresh-packed asparagus, and began investigations into 
the economic and social impact of reduced-labor asparagus production. 
Reduced production costs will increase the national and global 
competitiveness asparagus growers.
    The work supported by this grant began in fiscal year 2001. The 
amount appropriated for fiscal year 2001 was $224,505; for fiscal year 
2002, $260,000; for fiscal year 2003, $278,180; for fiscal year 2004, 
$248,525; for fiscal year 2005, $248,000; for fiscal year 2006, 
$245,520; for fiscal year 2007, $0; and fiscal year 2008, $183,705; and 
for fiscal years 2009 and 2010, $173,000 per year. The total amount 
appropriated is $1,861,435.
    The work is being conducted at Washington State University's 
agricultural experiment stations in Prosser and Pasco and at Michigan 
State University's experiment station in East Lansing.
    The performing institution conducts a peer review of each proposal 
and submits an annual progress report to the agency each year. Progress 
has been made in achieving the research objectives. Senior agency 
technical staff reviews each proposal to assess quality. The findings 
of these reviews indicate progress in achieving the project's 
objectives.
                       avian bioscience, delaware
    The objective of the grant is to improve production efficiency, 
animal health, environmental compatibility, and food safety in poultry 
systems. A key goal of the University of Delaware Center for Avian 
Biosciences (Center) is to strengthen the interfaces between recognized 
and growing programs to enhance their visibility and effectiveness. 
Since its inception in 2006, and continued efforts in 2009, the Center 
has made significant contributions in the field of avian biosciences. 
Some of the significant highlights include: developed foam-based humane 
emergency mass depopulation alternative for floor-reared poultry 
broilers and turkeys; improved in-house compositing of poultry 
carcasses infected with highly pathogenic avian viruses; interacted 
with Federal agencies and legislators and provided scientific 
information for adoption/endorsement of the technology by the U.S. 
poultry industry; made numerous training presentations on Avian 
Influenza controls and eradication efforts; developed avian influenza 
rapid diagnostic assays; received recognition for two University of 
Delaware laboratories as leading labs in avian influenza surveillance 
and detection in wild birds and poultry; sponsored numerous conferences 
and workshops; established significant domestic and international 
linkages in animal health. This Center continues to build partnerships 
with the industry, appropriate State and Federal agencies, other 
organizations, centers, and universities in research, teaching and 
outreach efforts. Furthermore, undergraduate and graduate educational 
programs in avian biosciences are flourishing under faculty mentorship 
in avian bioscience disciplines.
    The work supported by this grant began in fiscal year 2006 with an 
appropriation of $99,000; in fiscal year 2007, $0; in fiscal year 2008, 
$74,475; in fiscal year 2009, $94,000; and in fiscal year 2010, 
$150,000. A total of $417,475 has been appropriated.
    This work is being carried out at the University of Delaware in 
Newark, Delaware.
    The agency thoroughly evaluated the current year and previous year 
progress in May of 2009. The agency evaluation is in agreement with the 
project description as being 40 percent research and 60 percent applied 
in nature. Subsequent conversations and email exchanges between the 
Project Director and our liaison suggest that the project is 
progressing well.
                      babcock institute, wisconsin
    The original goal of the Institute was to cultivate links between 
the dairy industry of the United States and those in the rest of the 
world through mutually beneficial research and programs that are 
scientific, educational, and commercial in nature. This involves 
research collaboration and scientific exchange, world market and dairy 
trade analysis, and education and training programs. The Institute is 
still dedicated to its original goal. The Babcock Institute has 
completed studies of the Indian and Mexican dairy sectors as part of 
its series of dairy ``country/regional studies'' designed to help 
United States firms and policymakers develop strategies and policies to 
exploit export opportunities and accommodate actions of foreign dairy 
companies and governments in exporting countries. Mexico is the largest 
market for U.S. exporters of dairy products. In 2008, Mexico purchased 
U.S. dairy products valued at $935 million. Babcock is developing links 
with Southeast Asia. In 2009, the Director participated in a Trade 
mission to Japan and China to promote Wisconsin as a site for foreign 
investment and learn more about export opportunities and technical 
collaborations. Babcock is collaborating with the China Agricultural 
University in Beijing to increase the exchange of scientific 
information between the United States and China. Visitors from China 
toured the Babcock Institute to learn ways to help improve the quality 
and safety of dairy products in China. Babcock is building ties to 
current and future dairy leaders in Mexico through links with the main 
agricultural campus at Queretaro, Mexico's leading private University, 
commonly known as Monterrey Tec, the large Alpura processing 
cooperative, and the national Holstein Association. Partnerships have 
resulted in research to help improve the flavor of United States-
produced Hispanic cheeses, which continue to be a substantial growth 
area in the United States, but are routinely criticized for poor flavor 
and functional characteristics. Babcock is funding research through 
sub-grants to study methods to improve animal/dairy products 
production. This includes feed evaluation to improve animal nutrition, 
which will improve the nutritional value of the dairy products and 
enhance dairy yields. Studies on the microbiology and chemistry of 
artisanal cheeses are also ongoing. The Institute has reached out to 
international and domestic producer groups with multilingual technical 
publications and CDs, multilingual electronic outreach through the Web, 
and international short courses and consulting services. Institute 
staff members continue to work closely with county extension agents to 
create practical training materials for Spanish-speaking dairy 
employees, including calf care and herdsmanship modules for the Dairy 
Worker Training series, and with University of Wisconsin--Madison 
professors to create educational CDs for U.S. and international farmers 
and dairy industry professionals. Recently developed CDs include 
Artificial Insemination Techniques, Milking Skills, and Brucellosis 
Prevention. Babcock also produces the Dairy Update series, which brings 
University of Wisconsin research findings to the agricultural 
community. The institute provided training to improve the quality and 
safety of dairy products to dairy farmers, producers, scientists, and 
students from Europe, Central and South America, Southeast Asia, and 
the Middle East. Training of young scientists in the United States in 
dairy science and cheese making is ongoing.
    Grants have been awarded from funds appropriated as follows: fiscal 
years 1992 and 1993, $75,000 per year; fiscal year 1994, $250,000; 
fiscal years 1995-1998, $312,000 per year; fiscal year 1999, $400,000; 
fiscal year 2000, $510,000; fiscal year 2001, $598,680; fiscal year 
2002, $588,000; fiscal year 2003, $596,100; fiscal year 2004, $536,814; 
fiscal year 2005, $564,448; fiscal year 2006, $594,000; fiscal year 
2007, $0; fiscal year 2008, $442,878; and fiscal years 2009 and 2010, 
$416,000 per year. A total of $7,310,920 has been appropriated.
    The work of the Babcock Institute is carried out at the University 
of Wisconsin--Madison College of Agriculture and Life Sciences and 
throughout the world.
    The Babcock Institute undergoes two independent reviews each year, 
internally at the University of Wisconsin prior to submission of the 
proposal, and by technical staff at NIFA prior to approval for release 
of funds. In addition, the Institute was included in a review of the 
Department of Dairy Science at the University of Wisconsin in May, 
2004. The 2009 proposal was reviewed by the NIFA National Program 
Leader.
            barley for rural development, idaho and montana
    The original goal of this research was to use results from 
significant earlier investment in barley genetics and molecular 
genetics to assemble appropriate genetic packages, with traditional 
crossing and selection techniques, to develop and release more 
economically productive barley varieties to western barley growers. 
These researchers have focused on unique attributes of barley as a crop 
and a valued product. A major development this year has been the 
acceptance of barley varieties developed by this project by major 
brewing companies, including Coors-Miller and Anhauser-Busch. The new 
varieties performed well in brewing quality tests. Farmers will benefit 
because the project's new varieties are significantly more reliable for 
them than varieties they were growing before, which were bred in and 
for Canada. Barley farmers in Montana, Idaho, and similar regions can 
now grow varieties that have a good market and reduced risk of crop 
failure, two characteristics that are critical for farm income and 
rural development. In addition, the researchers report a technical 
breakthrough this year toward a practical and economically feasible on-
farm ethanol production from barley straw. After natural in-field 
freezing, fructan components in the straw can be isolated, 
concentrated, and fermented by a specific yeast to create biofuel.
    The work supported by this grant began in fiscal year 2006 with an 
appropriation of $727,650; $0 in fiscal year 2007; $547,143 in fiscal 
year 2008; $514,000 in fiscal year 2009; and $547,000 in fiscal year 
2010. The total amount appropriated is $2,335,793.
    Research is being conducted at Montana State University and the 
University of Idaho.
    Each annual proposal is reviewed by senior agency technical staff. 
This research has been productive based on germplasm releases and peer-
reviewed journal articles and other publications.
             beef improvement research, missouri and texas
    The original goal of this program was to enhance production 
efficiency in beef cattle production systems. Since 2006, the Missouri 
group research has focused on measuring residual feed intake among 
animals, its relevance to feed costs differences among animals, and 
benefit of selecting for residual feed intake in reducing production 
costs in the feedlot. The research has shown that selecting progeny 
from sires that were tested to be efficient compared to those testing 
inefficient reduced production costs in the feedlot by an estimated $60 
per head. The Texas researchers selected 105 Brahman bulls, 120 Brahman 
heifers, and 38 Bonsmara heifers based on phenotypic measure of 
residual feed intake including reproductive performance. The next phase 
of this study included breeding high and low efficiency Brahaman 
females to high and low efficiency Hereford bulls to develop high and 
low efficiency F1 females. With these animal populations in hand, the 
project staff is now pursuing to determine the biological basis for 
genetic and phenotypic variation in feed efficiency of growing and 
mature cattle; examining behavioral and physiological responses in 
cattle with divergent feed efficiencies; develop technologies to reduce 
the cost and increase the accuracy of measuring feed efficiency in 
cattle, especially on pasture; examine relationships between feed 
efficiency and fertility in gestation cows, growing heifers, and bulls; 
and develop producer education programs to enhance adoption of these 
technologies. Ultimately, a significant reduction in feed input costs 
and environmental impacts of beef production systems are the desired 
target.
    The work supported under this grant began in fiscal year 2006, and 
the appropriation for fiscal year 2006 was $990,000; in fiscal year 
2007, $0; in fiscal year 2008, $737,799; and in fiscal years 2009 and 
2010, $693,000 per year. A total of $3,113,799 has been appropriated.
    This work is being carried out at the Departments of Animal 
Sciences at Texas A&M University and the University of Missouri--
Columbia.
    The agency evaluated the initial proposal in May of fiscal year 
2006. In September 2006, the National Program Leader responsible for 
the grant oversight visited the Texas facilities. The project was 
reviewed again in 2008. The Missouri project was reviewed by the 
National Program Leader in fiscal year 2006. No site visit for the 
Missouri project has been conducted. However, the project progress and 
the current project were thoroughly reviewed in spring of 2008 and 
spring of 2009.
 bioactive foods and research for health and food safety, massachusetts
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an appropriation of $525,000. Since this is a new 
grant, no information is available regarding the program's research 
goals and objectives.
           biodesign and processing research center, virginia
    The Biodesign and Bioprocessing Research Center researchers are 
working to develop processes for producing high value polymers from 
poultry and dairy processing in Virginia, optimize biogas and acid 
production potential and nutrient recovery from dairy manure, and 
conduct a proof-of-concept study to produce high-yield hydrogen from 
polysaccharides and water through a novel enzymatic method.
    The project has been investigating ways to toughen agricultural by-
product proteins from poultry and dairy processing by eliminating the 
diffusible glycerol component and ways to stabilize the protein against 
biodegradation for longer life. It has been discovered that choice of 
the correct protein structure through processing can stabilize the 
protein to microbial attack and more efficiently tailor product life. 
Current studies are also focusing on self-assembly protein structures 
from wheat and corn protein that could serve as templates for high 
performance materials. Results so far show that these proteins can form 
fibers similar to silk, hair, and collagen. Studies have been conducted 
to explore a novel attached culture system for growing the alga 
Chlorella as a biodiesel feedstock, using dairy manure wastewater as 
the growth medium. Among the various supporting materials tested for 
algal attachment, the best performance in terms of biomass yield, ease 
of harvest and physical robustness was observed with polystyrene foam. 
The algal culture removed 61-79 percent total nitrogen and 62-93 
percent total phosphorus from the dairy manure wastewater under 
different culture conditions. A patent application has been filed based 
on this technology. The project also produced high-yield hydrogen from 
cellulosic materials. In addition, they have increased the hydrogen 
production rate by 10x fold through optimization. The next 10-fold 
increase in reaction rate will greatly enhance the chances for 
commercialization of the technology. The results of these 
investigations have been disseminated at numerous national and 
international conferences throughout the World. The Center has provided 
opportunities for training of a large number of graduate students in an 
effort to produced skilled work force for the bio-industry of the 
future.
    The work supported by this grant began in fiscal year 2006. The 
appropriation for fiscal year 2006 was $940,000; for fiscal year 2007, 
$0; for fiscal year 2008, $701,058; and for fiscal years 2009 and 2010, 
$868,000 per year; A total of $3,377,058 has been appropriated.
    The research is conducted at the Virginia Polytechnic Institute and 
State University.
    A progress report for fiscal year 2009 has been evaluated, and it 
has been determined that progress toward accomplishing the project 
objectives is on-going.
        bioenergy production and carbon sequestration, tennessee
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $1,000,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.
        biomass-based energy research, mississippi and oklahoma
    This project is focused on the conversion of cellulosic biomass, 
such as switchgrass, to liquid fuels using a gasification-fermentation 
process. Specifically, the project will: (1) assess the feedstock 
potential of agricultural and forestry crops; (2) establish critical 
parameters in maintaining syngas quality; (3) advance bioreactor 
designs and enhance enzyme activities; (4) investigate potential 
valuable products that complement ethanol production; and (5) determine 
the full cost of system components including production, harvesting, 
storage, processing, and waste disposal. The project has developed a 
new high-yielding switchgrass cultivar that has demonstrated 
significantly higher yields than the best standard variety. 
Correlations between gasifer performance parameters and biomass 
properties have improved the understanding of operational variables and 
increased syngas quality. Preliminary estimates suggest that at least 
three units of energy are produced for one energy unit of input.
    The work supported by this grant began in fiscal year 2001, and the 
appropriation for fiscal year 2001 was $900,016; for fiscal year 2002, 
$960,000; for fiscal year 2003, $1,142,525; for fiscal year 2004, 
$1,022,929; for fiscal year 2005, $1,014,816; for fiscal year 2006, 
$1,188,000; for fiscal year 2007, $0; for fiscal year 2008, $893,700; 
and for fiscal years 2009 and 2010, $839,000 per year. The total amount 
appropriated is $8,799,986.
    The work is being carried out at Oklahoma State University, the 
University of Oklahoma, and Mississippi State University.
    Evaluation of this project is conducted yearly based on annual 
progress reports and discussions with the principle investigators over 
the course of the year. This project is making progress in accordance 
with the mission of the National Institute of Food and Agriculture.
                     biotechnology, north carolina
    The original goal of this research was to improve the 
competitiveness of wood production in the southern United States, to 
better manage invasive pathogens of ornamental trees, and to increase 
the distribution of elite hardwood trees in natural forest settings. 
Researchers are planning on using biotechnology and genetics to address 
optimal ways to generate both transgenic and non-transgenic Populus 
clones that are better adapted as biomass feedstock under varying 
environmental conditions. Recent accomplishments include the 
development of field sites at Oxford and Williamsdale, North Carolina.
    The work supported by this grant began in fiscal year 2001, and the 
following amounts have been appropriated: in fiscal year 2001, 
$284,373; in fiscal year 2002, $306,000; in fiscal year 2003, $304,011; 
in fiscal year 2004, $272,383; in fiscal year 2005, $286,688; in fiscal 
year 2006, $284,130; in fiscal year 2007, $0; in fiscal year 2008, 
$211,509; and in fiscal years 2009 and 2010, $199,000 per year. The 
total amount appropriated is $2,347,094.
    The research is being conducted at North Carolina State University 
and various sites in the southern Appalachians and elsewhere in the 
southeastern United States.
    Senior agency technical staff conducts a merit review of the 
proposal for this research prior to making a funding recommendation. 
The submitting institution conducts a peer review of the proposal prior 
to submission.
              bovine tuberculosis, michigan and minnesota
    The original goal of this program is to focus on the issues of 
spatial epidemiologic relationships involved in the transmission of 
tuberculosis among the deer population, survivability of the organism 
in the environment, and the other wild or domestic hosts that may exist 
for this organism, as well as the pathogenesis of the disease in 
pigeons. Tuberculosis infected deer have been found to be the source of 
infection for other wild animals and domestic cats. New approaches to 
TB diagnosis and detection, through more rapid, reliable diagnostic 
tools and novel and more efficient surveillance techniques, are needed 
to reduce the significant costs associated with TB control and 
eradication programs. A risk assessment model for herd tuberculosis 
status was developed and correctly classified 95 percent of the 
simulated case herds as tuberculosis positive. This risk model 
accurately predicts the likelihood of a beef herd being correctly 
identified as tuberculosis positive or negative. Incorporating these in 
to a risk-based surveillance program will enhance current TB 
surveillance programs. This will decrease both the economic and 
psychological costs of TB, and accelerate TB control and eradication.
    The work supported by this grant began in fiscal year 2000 with an 
appropriation of $170,000; for fiscal year 2001, $324,285; for fiscal 
year 2002, $318,000; for fiscal year 2003, $345,738; for fiscal year 
2004, $309,165; for fiscal year 2005, $352,160; for fiscal year 2006, 
$352,440; for fiscal year 2007, $0; for fiscal year 2008, $262,152; for 
fiscal year 2009, $246,000; and for fiscal year 2010, $346,000. The 
cumulative total amount appropriated is $3,025,940.
    This work is being conducted at the College of Veterinary Medicine 
at Michigan State University in East Lansing, Michigan.
    Each proposal submitted to NIFA has been institutionally peer-
reviewed at Michigan State University. During the review of the fiscal 
year 2009 proposal, the NIFA National Program Leader determined that 
the research objectives were clearly described and placed in lucid and 
logical context with the objectives of the prior grant cycle.
                      brucellosis vaccine, montana
    The original goal of this program is to develop vaccine delivery 
systems and novel Brucella vaccines for bison. This will be 
accomplished by conducting research to design and develop new subunit 
and live Brucellosis vaccines that will effectively protect bison and 
cattle against Brucellosis.
    Progress to date includes a better understanding of the bison 
immune response which shows the dynamics of bison immunity and the 
importance of studying bison mucosal immune responses to assist in the 
development of new generation Brucella vaccines. Reagents have been 
developed to detect immune responses of bison, and an oral delivery 
system for a bison vaccine has been optimized. The investigator 
continues to work toward vaccine development, and has identified 
possible candidates for the brucellosis vaccine. Results from the bison 
and mouse vaccination studies are promising due to protective efficacy 
which was obtained in both animal systems. Thus, the development of a 
subunit vaccine for brucellosis appears to be feasible once analyses' 
discerning the protective epitopes using a DNA vaccine approach has 
been completed. Further work was also done to characterize the new 
vaccine candidates.
    The work supported by this grant began in fiscal year 1999. The 
appropriation for fiscal year 1999 was $150,000; for fiscal year 2000, 
$425,000; for fiscal year 2001, $494,909; for fiscal year 2002, 
$485,000; for fiscal year 2003, $489,796; for fiscal year 2004, 
$438,398; for fiscal year 2005, $440,448; for fiscal year 2006, 
$435,600; for fiscal year 2007, $0; for fiscal year 2008, $324,711; and 
for fiscal years 2009 and 2010, $305,000 per year. The total amount 
appropriated is $4,303,862.
    This work is being done at Montana State University's Department of 
Veterinary and Molecular Biology in Bozeman, Montana.
    Each fiscal year, the submitted proposal for this program is peer-
reviewed by the institution prior to submission, and subsequently 
reviewed by a NIFA National Program Leader.
 cataloging genes associated with drought and disease resistance, new 
                                 mexico
    This research will use computational tools to investigate changes 
in gene expression that occur during drought and diseases stresses in 
plants grown in the American Southwest. The researchers propose to link 
DNA sequence information to gene expression patterns with particular 
interest in those genes that affect plant metabolism. They will also 
set up plant metabolite extraction methods and gas chromatography and 
mass spectrometry analysis methods to quantify key metabolites. Based 
on gene expression data, the researchers predict that certain 
metabolites in Capsicum chili and Phaseolus beans will be altered in 
response to disease and drought. They will test these predictions using 
root samples collected from treated resistant and susceptible or 
tolerant genotypes. Research on the molecular genetics of drought 
stress and the impact of drought on disease stress is crucial as water 
supplies and quality become more restricted.
    In 2009, these researchers focused on the development of a process 
for green chemistry extraction of commercially valuable red pigments 
from chili peppers. This will be a new process that may be patented. 
They have also discovered that not all orange-colored chili peppers are 
high in beta-carotene, since red and yellow pigments can mix in the 
fruit to create orange color. Chili breeding programs should verify 
whether or not there is a link between color and vitamin content in 
their material, before proceeding with visual selection based on color.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $186,684; and for fiscal years 2009 
and 2010, $176,000 per year. A total of $538,684 has been appropriated.
    The research will be conducted at New Mexico State University.
    The submitting institution conducts a peer review of the proposal 
prior to submission. Senior agency technical staff conducts a merit 
review of the proposal prior to making a funding recommendation.
                   center for one medicine, illinois
    The original goal of this program, was to educate a new cadre of 
health professionals who understand the determinants and contributing 
factors for human, animal, and ecosystem health as well as how public 
health policy is developed and how it affects the health of all three 
objectives. To understand disease processes that occur at the interface 
of human and animal activities and their effects on the environment and 
to improve our society's preparedness and response to natural and 
intentional exposures of biological, chemical, and physical agents.
    Fiscal year 2009 was the first year that funds were appropriated 
for this grant. An amount of $235,000 was appropriated in fiscal year 
2009 and $500,000 in fiscal year 2010. A total of $735,000 has been 
appropriated.
    The work is being carried out at the University of Illinois, at 
Urbana-Champaign.
    The fiscal year 2009 proposal was institutionally peer-reviewed at 
the Center for One Medicine. In addition, a NIFA National Program 
Leader reviewed the proposal.
                   center for rural studies, vermont
    The original goal was to create a database and analytical 
capability for rural development programming in Vermont. Past 
accomplishments include maps to target child hunger and rural 
development opportunities, applied research to inform the development 
of retail areas, an ``Economic Handbook for Vermont Counties,'' and 
strategies for using the Internet.
    The Center has assisted local officials with e-mail, streaming 
video, software installation and utilization, and accessing information 
from Web sources. It has developed databases useful for local planners 
and school boards and indicators to help local officials interpret data 
and apply for State and Federal grants. It worked with the Vermont 
Council on Rural Development to assess the need for broadband Internet 
service and facilitated community-level solutions for service in more 
than 47 towns. It has developed training materials for town clerks on 
Web site design, e-Government, and e-security.
    In 2008, the Center updated the ``Vermont Indicators Online,'' 
collaborated with the U.S. Census Bureau to ensure access to Census 
Bureau data, assisted Vermont data users, and maintained a Census 
Bureau data portal for State residents. The VIO had 24,000 Web site 
visits, and 60,000 pages of data were accessed that year. The Center 
also developed the ``Vermont Geography Portal'' to make spatial 
information and a mapping application widely available. In addition, 
the Center developed a GIS educational curriculum for municipal 
officials and K-12 educators. Also in 2008, the Center developed 
methods to use spatial data to identify population clusters in the 
State and analyze them community-by-community.
    In 2009, the Center surveyed over 400 Vermont farmers on land and 
development issues related to farmer decisions to purchase or sell land 
or to change the way they farm. Almost 80 percent reported that local 
boards had some degree of understanding of agricultural issues and 
operations. The Center addressed the issue of extending broadband to 
rural Vermont and developed a database of over 4,800 households and 
businesses that want broadband access and services. Focusing on farm 
business incubation, the project supported 15 operations over 3 years 
that now report an average net farm income increase from $18,000 to 
$21,000 over 1 year. The Center completed a study of a local food e-
commerce portal to assist in marketing fresh products. Farmers will 
help design and test an e-commerce portal in fiscal year 2010. 
Workshops for women farmers helped expose producers to new 
opportunities through the Internet. The Center continued to enhance and 
maintain the Vermont Indicators Online (VIO) Web site and the Vermont 
Housing Data Web site. The project funded two rounds of business 
workshops for food product entrepreneurs and provided technical 
assistance to a State farm-to-school program, with VT FEED. Other 
activities included maintaining and updating the Vermont Planning 
Information Center, a clearinghouse of information for municipal land 
use officials, and launching a community-based participatory research 
partnership with Smart Growth Vermont to determine indicators of health 
for Vermont downtowns, including food systems and regional landscape 
date.
    The grant was initiated in fiscal year 1992. Appropriated amounts 
are: fiscal years 1992-1993, $37,000 per year; fiscal year 1994, 
$35,000; fiscal years 1995-1998, $32,000 per year; fiscal years 1999-
2000, $200,000 per year; fiscal year 2001, $199,560; fiscal year 2002, 
$240,000; fiscal year 2003, $337,790; fiscal year 2004, $302,206; 
fiscal year 2005, $348,192; fiscal year 2006, $361,350; fiscal year 
2007, $0; fiscal year 2008, $261,159; fiscal year 2009, $245,000; and 
fiscal year 2010, $350,000. Total appropriations are $3,282,257.
    The work is being carried out through the University of Vermont. 
Parts of the research and application are done in association with 
county planning commissions and local governments and business 
organizations.
    The agency evaluates the merit of research proposals as they are 
submitted. The principal investigators and project managers submit 
annual reports to the agency to document impact of the project. Agency 
evaluation of the project includes peer review of accomplishments and 
proposal objectives and targeted outcomes.
                childhood obesity and nutrition, vermont
    The objective of this grant is to increase physical activity 
behavior in preschool children enrolled in daycare centers by: 
increasing the exercise self-efficacy of daycare staff, increasing 
their knowledge and changing attitudes, beliefs, and perceptions about 
preschool physical activity, and increasing the availability and 
utilization of high quality physical activity materials.
    This research looks at physical activity behavior as one 
intervention. Formative data on daycare centers and daycare providers 
were collected in 2004 through three focus groups to see how staff 
perceived physical activity for children, what they felt the barriers 
to children getting more activity were and how they felt about their 
own activity. Focus groups gave positive feedback that physical 
activity for children was important to daycare providers. A key result 
was that the day care setting was a very favorable environment for 
promotion of physical activity with perceived advantages to social, 
cognitive, behavioral and health issues. In addition, there was a 
strong appreciation of the child care provider's role in promoting, 
facilitating, or teaching physical activity skills during active play 
times. Both modeling and leadership were seen as important to obtaining 
the benefits of physical activity in this environment. While child care 
providers showed a strong appreciation of their role in promoting, 
facilitating, or teaching physical activity during active play times, 
the level of engagement in physical activity in their own lives varied 
widely, suggesting that this will be a challenging direction for 
intervention in comparison to other skills directly related to child 
care work. Barriers to physical activity in day care settings to 
include indoor and outdoor space available, access to open land and 
play or exercise equipment were explored. In 2005 and 2006, two mail 
surveys were implemented and sent to Vermont daycare center directors 
and to daycare staff. Survey responses helped researchers identify 
training needs; training content, format, location and incentives; 
barriers to staff involvement in modeling or leading active play; and 
supporters or reinforcers for active play. In 2006 and 2007, the 
feasibility of using SenseWear Armbands to measure physical activity 
was determined in two different daycare centers. In 2008, the physical 
activity of 61 children from seven daycare centers was measured via 
direct observation and objectively using the SenseWear Armbands. 
Results showed that children spent a total of 58 percent of their day 
sedentary; 36.8 percent in moderate activity; 4.4 percent in vigorous 
activity and 0.7 percent in very vigorous activity. Children were about 
twice as active when they played outside as compared to inside for 
moderate or vigorous activity and the quality of their play or level of 
energy expended 10 percent higher when they were engaged in teacher-led 
activities. This evidence supports current work to train providers to 
provide more teacher-directed, structured physical activity to 
preschool children.
    The work supported by this grant began in fiscal year 2003 with an 
appropriation of $149,025; for fiscal year 2004, $133,209; for fiscal 
year 2005, $190,464; for fiscal year 2006, $198,990; for fiscal year 
2007, $0; for fiscal year 2008, $112,209; for fiscal year 2009, 
$169,000; and for fiscal year 2010, $250,000. A total of $1,202,897 has 
been appropriated.
    Research is being conducted at the University of Vermont and State 
Agricultural College, Burlington.
    The project underwent a peer review process in June 2009 in 
accordance with USDA guidelines and is also evaluated through annual 
reports. The project materials have also been reviewed by the 
Institutional Review Board and by State daycare leaders. Finally, any 
data that are published would be evaluated through the peer review 
process.
                  citrus canker and greening, florida
    The original goals of this research were to evaluate potential 
materials that could delay or interfere with the bacterial infection 
processes on susceptible host material, characterize aspects of canker 
and HLB and ACP biology, ecology, and epidemiology that might be 
manipulated to reduce infection or to predict more effectively where 
infection has taken place, and to develop mechanisms within the host 
plants that will increase their resistance to infection and disease 
development. Researchers are attempting to introduce additional 
resistance mechanisms derived from the pathogen or from plants with 
resistance to other similar bacterial diseases. Educational objectives 
of this project focus on development and delivery of current 
information on the organism, the disease, and efforts to eliminate it. 
Educational programs will be designed for commercial citrus producers, 
harvesters, and those who work in contact with citrus trees which may 
be exposed to the disease; homeowners with citrus planted in their 
yards; the general public who seeks information on the eradication 
effort and its necessity; and regulators and policy makers who are 
interested in science-based actions and policies.
    This program began in fiscal year 2001. Funds have been 
appropriated as follows: fiscal year 2001, $4,739,550; fiscal year 
2002, $490,000; fiscal year 2003, $486,815; fiscal year 2004, $447,345; 
fiscal year 2005, $470,208; fiscal year 2006, $495,000; fiscal year 
2007, $0; fiscal year 2008, $1,295,865; and fiscal years 2009 and 2010, 
$1,217,000 per year. The total amount appropriated is $10,858,783. This 
project was funded only for citrus canker through 2007. Citrus greening 
was added to the objectives in 2008 although funding levels did not 
increase.
    The research is being conducted at the University of Florida 
research and education facilities located at Lake Alfred, Bradenton, 
Immokalee, and Homestead; and in South Texas.
    Senior agency technical staff evaluates the project every year. In 
addition, the University of Florida operates this project as an 
internal competitive grants program that seats an independent panel of 
experts to review the research and extension proposals. The agency 
worked with the program director to develop a request for applications 
and provided input into the development of a peer-review process. A 
review of the research supported by this project was undertaken in 2006 
by the National Citrus Research Council, and an agency technical 
specialist was in attendance. There was no recommendation for change of 
direction, and the community wants to stay the course with the current 
objectives, while increasing public outreach, particularly on the 
option of transgenic oranges. In 2011, the Agricultural Research 
Service is leading a national research coordination effort. This 
special grant funded research projects and new request for applications 
will be reviewed in the context of the total national research and 
extension effort on citrus diseases.
          competitiveness of agriculture products, washington
    This research identifies international marketing opportunities for 
Northwest firms in the forest products and food products sectors by 
providing information on markets and product technologies that can open 
higher-valued international markets to U.S. exporters. Foreign 
purchasers need information on the advantages of U.S. products, and 
U.S. exporters need information on the substantially different quality 
and service requirements for serving foreign markets.
    The International Marketing Program for Agricultural Commodities 
and Trade (IMPACT) program of Washington State University implements 
this research and provides a central and stable core of knowledgeable 
experts who can guide small export businesses in navigating these 
markets successfully.
    The Center for International Trade in Forest Products (CINTRAFOR), 
located within the College of Forest Resources at the University of 
Washington, provides the research knowledge in marketing and product 
conversion to be competitive in the world market.
    The most recent accomplishments of IMPACT and CINTRAFOR are:
For 2008
    IMPACT Center developed a cost effective algal cultivation process 
for converting cull potato starch to omega-3 polyunsaturated fatty 
acids (omega-3 PUFA), more specifically, docosahexaenoic acid (DHA). A 
patent for the process is currently pending. The enriched algal biomass 
that is created in the process also has auxiliary uses as feed 
additives that can be fed to dairy cows to enrich the nutritional value 
of milk or to other animals to increase the value of the respective 
animal products. In addition to the clear impact of providing a supply 
source for omega-3 polyunsaturated fatty acids that can have positive 
health effects on humans, as well as providing for nutritionally 
enhanced milk products, the process also provides for a valuable 
alternative market outlet for cull potatoes that might otherwise have 
limited value in the market place for potato producers.
    CINTRAFOR, manages the United States-China Build (USCB) program and 
promotes the benefits of wood frame construction to construction 
professionals in China. This program also provides U.S. wooden building 
materials manufacturers the opportunity to participate in trade 
missions to China where they can meet with potential customers in three 
different cities to showcase their products and services. Since the 
start of the program, over 100 U.S. companies and over 2,800 Chinese 
construction industry professionals have participated in USCB programs 
in China. This program has resulted in over $32.4 million in new export 
sales to China while creating almost 350 new jobs within the forest 
products sector in the United States.
For 2009
    The IMPACT Center funds a variety of projects applying advances in 
science and technology to improve the competitiveness of food and 
agricultural systems in today's global market.
    IMPACT Center scientists are investigating polices for mitigating 
production and trade effects from invasive species outbreaks in 
livestock--e.g., mad cow disease or foot and mouth disease--and 
plants--e.g., apple maggot. Other projects include exploring the phase 
out of organophosphate pesticides on the apple industry, enhancing wine 
exports, profitability in the organic sector, and assessment of agri-
tourism.
    Research has demonstrated that losses from a foot and mouth 
outbreak in the United States could range over $270 billion, but that 
this can be dramatically reduced with improved traceability in the 
livestock system. Other projects can improve export success for 
existing industries, solve phytosanitary and barriers to trade issues, 
or develop alternative revenues through organic production and agri-
tourism.
    CINTRAFOR manages the highly successful United States-China Build 
program for the Evergreen Building Products Association.
    In 2009, CINTRAFOR organized two sales missions to China where 17 
U.S. companies made technical presentations to the 678 Chinese 
construction professionals who attended the six seminars.
    Following the conclusion of the two sales missions, the U.S. 
companies reported that they had obtained total sales of $22,441,000 as 
a result of their participation in the United States-China Build 
program. It is estimated that the increase in U.S. exports resulting 
from these two sales missions led to the creation of 252 new jobs.
    The work began in fiscal year 1992. The appropriation for fiscal 
years 1992-1993 was $800,000 each year; fiscal year 1994, $752,000; 
fiscal years 1995-1998, $677,000 each year; fiscal years 1999-2000, 
$680,000 each year; fiscal year 2001, $678,504; fiscal year 2002, 
$665,000; fiscal year 2003, $675,580; fiscal year 2004, $604,413; 
fiscal year 2005, $646,784; fiscal year 2006, $672,210; fiscal year 
2007, $0; fiscal year 2008, $500,472; and fiscal years 2009 and 2010, 
$469,000 per year. A total of $11,800,963 has been appropriated.
    Both programs--IMPACT and CINTRAFOR--were formally reviewed by an 
external review team with a representative from NIFA in August 2004. 
Both were found to be satisfactorily achieving their goals.
    On-site reviews are conducted annually of the University of 
Washington component of the project through annual meetings of the 
project's Executive Board and attended by NIFA and the Washington State 
University component through the grant competition evaluation where the 
NIFA project director is involved.
    The original goal of this research was the application of leading-
edge information technologies, including high-performance computing, to 
advance agricultural sciences and quickly bring research results to 
farmers and the general public. Spatially balanced, complete-block 
experimental designs have been created for 15 treatments and 
replications in agronomic crops and recently extended to vineyards; a 
hyperspectral soil data base has been developed; a real-time nitrogen 
management model, Adapt-N, has been linked to a Web interface; using 
widely dispersed rain gauge data and radar-based precipitation 
estimates, high resolution precipitation estimates are now generated 
and provided daily to farmers using a Web interface; economic 
investment models accommodate stochastic events, such as climate change 
and insect infestations; and data-mining techniques are used to make 
weather event predictions that are spatially and temporally explicit. 
Additionally, this project has supported six graduate student theses 
and generated more than 30 peer-reviewed scientific papers.
    The work supported by this grant began in fiscal year 2003. The 
appropriation for fiscal year 2003 was $248,375; for fiscal year 2004, 
$221,684; for fiscal year 2005, $239,072; for fiscal year 2006, 
$236,610; for fiscal year 2007, $0; for fiscal year 2008, $176,754; and 
for fiscal years 2009 and 2010, $131,000 per year. The total amount 
appropriated is $1,384,495.
    Research is conducted at Cornell University's Theory Center, at 
various Cornell University laboratories, and in experiment station and 
producer fields. With extension of the Adapt-N nitrogen tool, work is 
also being conducted in Iowa.
    The project is subject to a thorough institutional peer review 
during preparation of the grant proposal. Submitted proposals undergo 
merit review by one or more agency scientists. In 2004, an agency-led 
on-site review of the research was conducted. The review team 
encouraged broader marketing of their activities and eventual 
development of one or two signature projects that fully exploit the 
computational resources available. The principal researcher and other 
institutional representatives met with agency staff in 2008 to review 
project progress.
    cool season legume research, idaho, north dakota, and washington
    The original goals of this project were to improve efficiency and 
sustainability of cool season food legumes through multi-disciplinary 
research directed at high priority issues affecting cool season food 
legumes. The program was to develop new and strengthen regional 
collaborative approaches in research and technology transfer. While the 
overarching goals remain the same, specific objectives are revised 
annually and prioritized through consultation among researchers, 
industry representatives, and farmers. In one outcome, phenolic and 
flavenoid compounds have been tracked to assess antioxidant activity to 
help explain the cancer prevention properties of pulse legumes. 
Extracts of specific legumes have been confirmed to inhibit cancers of 
the colon, liver, stomach, and tongue. Compounds are being isolated 
from green and yellow pea, lentil, and chickpea and their activity is 
being confirmed. Processing of the legume seed with steam appears to 
improve the appearance, texture, and retention of antioxidant activity. 
This research has complemented work done to investigate the retention 
of antioxidant capacity in extruded products made from legume flours. 
Extruded snacks containing 65 percent of lentil or dry pea, along with 
selected natural food ingredients and potato starch, were prepared in 
the laboratory and sent to a certified laboratory in Canada to 
determine the glycemic index (GI) using human subjects. These legume-
based foods offer great alternatives for populations suffering from 
health problems, such as type two diabetes, obesity, colon cancer, and 
heart disease.
    Cool season food legume trials across the northern plains provided 
critical information for producers about high yielding legume varieties 
with good quality traits. These data will help decision makers improve 
yields 5 to 10 percent and benefit the industry with a better quality 
end product.
    Lentil and pea selections for adaptation, agronomic, quality, 
disease tolerance are ongoing. Several mapping populations are now in 
development or are in use to more quickly identify powdery mildew 
resistance. Other genetic markers have been identified to improve 
efficiency of breeding for resistance to Fusarium and Aphanomyces fungi 
and of high-yielding pea cultivars. These new methods have increased 
throughput, accelerating powdery mildew resistance screening of 24 
cultivars, 17 lines, and 582 accessions of pea. No immune genotypes 
were found, but a range of susceptibility was identified. Leveillula 
taurica, the chickpea powdery mildew pathogen was also identified for 
the first time in the Pacific Northwest. Pea seed treatments fungicides 
were found to reduce root rot incidence and severity and increase 
yield.
    The critical weed-free period for chickpea and lentil and the 
associated yield losses has been shown to vary across cultivars are now 
better understood. These data will help growers with decisions on 
herbicide use, application timing and may result in a better return on 
herbicide inputs or less herbicide being used.
    A system has been launched to track the movement of the winged pea 
aphid into the Palouse region of Washington and Idaho using 
geospatially referenced insect traps. It is expected that this system 
will result in reduced insecticide use and the associated environmental 
and public health benefits and reduced production cost.
    The work supported by this grant began in fiscal year 1991 with 
appropriations for fiscal year 1991 of $375,000; fiscal years 1992-
1993, $387,000 per year; fiscal year 1994, $364,000; fiscal year 1995, 
$103,000; fiscal years 1996 through 2000, $329,000 per year; fiscal 
year 2001, $328,276; fiscal year 2002, $321,000; fiscal year 2003, 
$333,816; fiscal year 2004, $536,814; fiscal year 2005, $564,448; 
fiscal year 2006, $558,360; fiscal year 2007, $0; fiscal year 2008, 
$416,067; fiscal year 2009, $235,000; and fiscal year 2010, $350,000. A 
total of $6,904,781 has been appropriated in the life of the project.
    This research is being conducted at agricultural experiment station 
locations in Idaho, Washington, and North Dakota. The funds are awarded 
competitively among scientists from the participating States.
    The project is evaluated annually by an advisory panel of 
university and industry experts. Proposals are peer reviewed at the 
performing institutions and by senior agency technical staff. An on-
site review of the project was conducted by a senior member of agency's 
technical staff in 2004. A strategic planning session was held in 
February 2006 in Spokane, Washington, to assess current research needs 
for cool season pulse crops. The current research priorities are based 
on the conclusions from that meeting. The next external peer review 
panel and program review by the Industry Research Committee will be 
held in February of 2010. The research priorities identified at that 
workshop will be reflected in the program application for 2010.
          cotton insect management and fiber quality, georgia
    The objectives of this project are to improve the quality of cotton 
produced in Georgia and other southeastern States and to test a new 
experimental gin. This research focuses on areas that integrate levels 
of biological organization such as population ecology and the biology 
and ecology of transgenic organisms in agroecosystems, along with the 
more traditional pest management tactics to sustain cotton production 
in Georgia and the southeastern region. Substantial progress has been 
made toward achieving the overall project goals including maintaining 
fiber quality, understanding the biology and ecology of emerging pests, 
improving sampling of emerging pests and establishing management 
thresholds, improving management tactics for emerging insect pests, and 
continuing surveillance of the farmscape for shifts in pests. A cotton 
entomologist has been hired and is currently establishing a laboratory. 
Several studies have been completed evaluating recommended thresholds 
and assessing the possibility of using variable thresholds depending on 
the phenology of the crop. Another study has been conducted examining 
the possible use of barrier crops, such as grain sorghum and Sudan 
grass, to reduce colonization of cotton fields and limit crop damage.
    Work supported by this grant began in fiscal year 2006 with an 
appropriation of $489,060; $0 in fiscal year 2007; $368,402 in fiscal 
year 2008; and $346,000 per year in fiscal years 2009 and 2010. The 
total amount appropriated is $1,549,463.
    This research is being conducted primarily at the Coastal Plain 
Experiment Station located at Tifton, Georgia. However, collaborative 
work has expanded several of the studies into other States in the 
Southeast.
    Each of the annual project proposals was subjected to peer review 
performing institution's peer review and was reviewed by senior agency 
technical staff. Results of this project have been presented at the 
Beltwide Cotton Research Conferences, meetings of the Entomological 
Society of America, and at numerous regional meetings of growers and 
commodity groups.
          cranberry/blueberry disease and breeding, new jersey
    The work is focused on identification and monitoring of insect 
pests on blueberries and cranberries; the identification, breeding, and 
incorporation of superior germplasm into horticulturally desirable 
genotypes; identification and determination of several fungal fruit-
rotting species; identification of root-rot resistant cranberry 
genotypes; and identification of human health benefits from cranberry 
and blueberry consumption. Overall, research has been focused on the 
attainment of cultural management methods that are environmentally 
compatible, while reducing blueberry and cranberry crop losses.
    This project involves insects and diseases having major impacts on 
New Jersey's cranberry and blueberry industries, but the findings are 
being shared with experts in Wisconsin, Michigan, and New England.
    Over 75 blueberry selections with wild blueberry accessions 
resistant to secondary mummy berry infections have been moved into 
advanced testing. The biology and seasonal life history of spotted 
fireworm on cranberries has been determined. A pheromone trap-based 
monitoring system for cranberry fruitworm was developed and further 
refined for commercialization. Blueberry fruit volatiles attractive to 
blueberry maggots were identified and tested in the field. Researchers 
have planted over 4,500 cranberry progeny for evaluation. Seven major 
fruit-rotting fungal species were identified, and their incidence in 10 
major cultivars of blueberry and cranberry were determined. It is 
likely that resistance to fruit rot is specific to fungal species. 
Investigators have developed a product that is ready for field testing 
which uses current season remote sensing data to predict the incidence 
of fruit rot in cranberry.
    Grants have been awarded from funds appropriated as follows: fiscal 
year 1985, $100,000; fiscal years 1986 and 1987, $95,000 per year; 
fiscal years 1988 and 1989, $260,000 per year; fiscal year 1990, 
$275,000; fiscal years 1991 to 1993, $260,000 per year; fiscal year 
1994, $244,000; fiscal years 1995 to 2000, $220,000 per year; fiscal 
year 2001 $219,516; fiscal year 2002, $216,000; fiscal year 2003 
$234,466; fiscal year 2004 $209,755; fiscal year 2005, $352,160; fiscal 
year 2006, $643,500; fiscal year 2007, $0; fiscal year 2008, $479,619; 
for fiscal year 2009, $451,000; and for fiscal year 2010, $550,000. A 
total of $6,785,016 has been appropriated.
    This research is being conducted at the New Jersey Agricultural 
Experiment Station.
    This project is evaluated annually based on the annual progress 
report and discussions with the principal investigator. It has been 
determined that progress in the development of new agricultural 
opportunities and use of decision-making tools for farmers and 
entrepreneurs is satisfactory. The agency conducted an on-site 
evaluation of the project in April 2006. In addition, evaluation of 
this project is conducted annually based on the annual progress report 
and discussions with the principal investigator. It has been determined 
that progress in the development of new agricultural opportunities and 
use of decision-making tools for farmers and entrepreneurs is 
satisfactory.
                   cranberry/blueberry, massachusetts
    The original goal of this research was to use molecular genetics to 
reduce dependence on chemical pesticides in cranberry production. An 
additional goal was to use molecular genetic techniques to identify 
potential biological control agents that could be used to further 
decrease dependency on the use of synthetic pesticides in cranberry 
production. Good progress has been made toward achieving both of these 
goals. Molecular markers have been developed that differentiate between 
early and late emerging dodder populations. These markers have been 
used to identify field populations of the different strains, and trials 
have been initiated to determine the best timing of herbicide 
applications to provide complete control of dodder. Field samples have 
been taken from both wild and cultivated cranberry, and various strains 
of Actinomycete fungi have been isolated. These organisms will be 
evaluated under greenhouse and field conditions for the ability to 
suppress the growth of fungi pathogenic to cranberry and blueberry.
    The work supported by this grant began in fiscal year 1999, and the 
appropriation for fiscal years 1999 and 2000 was $150,000 per year; in 
fiscal year 2001, $174,615; in fiscal year 2002, $172,000; in fiscal 
year 2003, $170,882; in fiscal year 2004, $153,091; in fiscal year 
2005, $151,776; in fiscal year 2006, $158,400; in fiscal year 2007, $0; 
in fiscal year 2008, $118,167; in fiscal year 2009, $111,000; and in 
fiscal year 2010, $160,000. A total of $1,669,931 has been 
appropriated.
    Research is being conducted at a University of Massachusetts 
Research and Extension Center.
    A site visit was made by senior agency technical staff in July 
2003, and a merit review was conducted in April 2007. It was determined 
that the investigators are making progress toward the achievement of 
their stated objectives. In addition, evaluation of this project is 
conducted annually based on the annual progress report and discussions 
with the principal investigator.
             crop integration and production, south dakota
    The objectives of this grant are to develop crop alternatives for 
which there is no governmental commodity support but which would be 
economically sustainable in no tillage conditions of South Dakota, 
North Dakota, and Nebraska. The research is designed to develop 
production management systems for alternative crops in western 
Nebraska, North Dakota, and South Dakota that are nitrogen producing 
and that also fit into a no tillage dry land crop rotation system.
    Researchers have focused on examining characteristics of 
alternative crops relative to their potential to improve cropping 
systems. The factors evaluated included the ability of the crop to 
reduce nitrogen needs, disrupt pest cycles, and produce products with 
adequate economic return. The information from this research will be 
used to assess the nutritional and economic viability of these crops as 
food, feedstuffs, forage, energy, or green manure sources. Nebraska 
researchers have initiated beef feedlot feeding trials. Some swine 
ration research using pulse crops and oilseed meals as feed ingredients 
are being conducted; this presents a large potential market for pulse 
crops, particularly these corps that do not meet the food grade 
standard.
    The work supported by this grant began in fiscal year 2002, and the 
appropriation for fiscal year 2002 was $200,000; for fiscal year 2003, 
$273,213; for fiscal year 2004, $268,407; for fiscal year 2005, 
$294,624; for fiscal year 2006, $297,000; for fiscal year 2007, $0; for 
fiscal year 2008, $223,425; for fiscal year 2009, $258,000; and for 
fiscal year 2010, $400,000. A total of $2,214,669 has been 
appropriated.
    The research is being conducted in South Dakota, North Dakota, and 
Nebraska under semiarid conditions.
    A peer review of the proposal was conducted by the submitting 
institution, and senior agency science staff conducted a critical 
review of the proposal. In 2008, an on-site review was conducted by 
senior agency technical staff.
                     crop pathogens, north carolina
    This research will elucidate the genomics of high consequence 
fungal plant pathogens and produce algorithms for tracking and mapping 
the spread of crop pathogens, with the specific intent to determine if 
the spread is natural or appears to be unusual. The study is directed 
toward identifying regions of DNA diagnostic to the sub-species level, 
as well as for pathogenicity, survival, and toxin production of three 
high-consequence fungal pathogens: Mangaporthe oryzae, Aspergillus 
flavus, and Rhizoctonia species.
    Progress to date includes building phylogenetic relatedness maps of 
several highly damaging plant pathogens and performing the systematic 
work needed to turn this knowledge into accurate diagnostic tools. The 
research on Rhizoctonia is develop DNA markers and microarray 
technology to discern Rhizoctonia species from other biota in soils.
    This project began in fiscal year 2003 with an appropriation of 
$198,700; for fiscal year 2004, $177,944; for fiscal year 2005, 
$250,976; for fiscal year 2006, $321,750; for fiscal year 2007, $0; for 
fiscal year 2008, $240,306; and for fiscal years 2009 and 2010, 
$225,000 per year. A total of $1,639,676 has been appropriated.
    The research is being conducted at North Carolina State University.
    The submitting institution conducts a peer review of the proposal 
prior to submission. Additional merit review is conducted annually by 
senior agency technical staff prior to making a funding recommendation.
                  dairy and meat goat research, texas
    The objective of this grant focuses on defining the population 
structure of goats in Texas and the Southeastern United States with an 
ultimate aim of determining the genetic make-up, breed identification, 
semen preservation, and embryo collection and storage.
    In 2006, the researchers focused on capacity building in artificial 
insemination and embryo transfer technologies at the International Goat 
Research Center at their institution. The overall objectives for the 
2008 project were: (1) to quantify genetic diversity within and among 
15 goat breeds located in Texas and the southeastern United States; and 
(2) to clarify the evolutionary genetic relationships among the 15 goat 
breeds. However, in fiscal year 2009, the focus of the project changed 
to defining the underlying molecular mechanisms that impact goat 
fertility. The investigators have standardized techniques for cell 
culture and biochemical analysis of cellular proteins by western 
blotting and immunoreactivity. The National Program Leader overseeing 
the progress of this project is satisfied with the progress and expects 
the project objectives to be completed within the project duration.
    Grants have been awarded through appropriated funds as follows: 
$100,000 per year for fiscal years 1983-1985; $95,000 per year for 
fiscal years 1986-1988; no funds were appropriated in fiscal year 1989; 
$74,000 for fiscal year 1990; $75,000 per year for fiscal years 1991-
1993; $70,000 for fiscal year 1994; $63,000 per year for fiscal years 
1995-2000; $62,861 for fiscal year 2001; $63,000 for fiscal year 2002; 
$62,591 for fiscal year 2003; $56,664 for fiscal year 2004; $99,200 for 
fiscal year 2005; $148,500 in fiscal year 2006; $0 in fiscal year 2007; 
$111,216 in fiscal year 2008; $94,000 in fiscal year 2009; and $200,000 
in fiscal year 2010. A total of $2,230,032 has been appropriated thus 
far.
    Research is being conducted at Prairie View Agricultural and 
Mechanical University in Texas.
    The current project was thoroughly reviewed at the time of 
submission in 2009. The project progress is being monitored 
continuously.
                 dairy farm profitability, pennsylvania
    The objective of this grant is to identify and develop improved 
dairy management practices that will help producers sustain and improve 
the profitability of their operations by: improving the reliability and 
enhancing the performance of next-generation anaerobic digesters by 
developing psychrotolerant and acidotolerant microbial consortia 
derived from acidic bogs; develop innovative sensing systems with 
Internet enabled remote monitoring and process control to reduce 
operator management requirements; defining digester designs based on 
current best practices and next-generation digester enhancements, 
building on the innovations developed in the first two objectives; and 
assessing the dairy farm-level performance and profitability of these 
digester designs for different dairy farm types and sizes and different 
policy scenarios.
    To date, current progress is focusing on the following four 
objectives:
  --Use the Profitability Assessment Dairy Tool (PA Dairy Tool) and the 
        Income Over Feed Cost (IOFC) Tool to identify bottlenecks that 
        limit dairy farm profitability on at least 50 farms over 2 
        years. (http://www.das.psu.edu/dairy/pa-tool and http://
        dairyalliance.psu.edu/resources/income-over-feed-cost-tool/)
Uniqueness of the Pennsylvania Dairy Tool
    Several features of the Pennsylvania Dairy Tool are novel and 
innovative including:
    --an overall, big picture assessment of an operation's 
            profitability combined with drill-down specificity at the 
            basic management level,
    --minimal data input to generate results,
    --unbiased assessment of the factors limiting revenue generation on 
            the dairy operation,
    --simple color-coded results that immediately focus the attention 
            of the user on the most critical management areas,
    --useable across herds of different sizes, different breeds, 
            different management styles, and different regions,
    --estimation of revenue loss from each operational management area,
    --the ability to estimate revenue losses against both industry 
            benchmarks and the dairy operator's goals,
    --the ability to build a database to assess farm management changes 
            and dairy profitability.
  --Determine relationships between operational and capital efficiency 
        and overall return on assets of high profit--greater than 4 
        percent--level farms.
  --Identify strategic changes that will result in improvement in IOFC, 
        cows per worker, milk sold per worker, internal herd growth 
        (IHG) and asset turnover ratio in order to increase overall 
        farm profitability--using data from objective 2 and high profit 
        level herds.
  --Teach dairy producers and advisors about strategies--objective 3--
        for improving farm profitability through ongoing training with 
        Dairy Profit Teams, a series of webinars, and quarterly 
        newsletters.
    The work supported by this grant began in fiscal year 2001. The 
appropriations amount to the following: fiscal year 2001, $284,373; 
fiscal year 2002, $294,000; fiscal year 2003, $496,750; fiscal year 
2004, $444,363; fiscal year 2005, $468,224; fiscal year 2006, $495,000; 
fiscal year 2007, $0; fiscal year 2008, $372,375; fiscal year 2009, 
$349,000; and fiscal year 2010, $372,000. In total, this research has 
received $3,576,085.
    The work is being carried out at the Pennsylvania State University, 
University Park, Pennsylvania.
    The productivity of the research team has been documented through 
the publication of many scientific papers in peer reviewed journals, 
Pennsylvania Department of Agriculture publications, and others. 
Additionally, the agency closely reviews each year's proposals and 
works with the project director to correct any deficiencies. 
Additionally, progress reports to the Current Research Information 
System (CRIS) are being monitored for satisfactory accomplishments and 
timelines.
                delta rural revitalization, mississippi
    The objective of the grant is to support basic and applied research 
relevant to efforts to expand economic development opportunities for 
farms, families, communities, and residents of the Mississippi Delta 
region, increase adult literacy, and address healthy living issues.
    The project has progressed through several phases. Phase I research 
produced a baseline assessment of economic, social, and political 
factors that enhance or impede the region's progress. Phase II research 
evaluated the potential for entrepreneurship and small business 
creation and assessed the availability and use of information 
technology in the Delta. In the current phase, major new applied 
research efforts have been launched.
    Grants have been awarded from funds appropriated as follows: fiscal 
year 1989, $175,000; fiscal year 1990, $173,000; fiscal years 1991-
1993, $175,000 per year; fiscal year 1994, $164,000; fiscal years 1995-
2000, $148,000 per year; fiscal year 2001, $204,549; fiscal year 2002, 
$201,000; fiscal year 2003, $203,668; fiscal year 2004, $182,914; 
fiscal year 2005, $244,032; fiscal year 2006, $247,500; fiscal year 
2007, $0; fiscal year 2008, $186,684; and fiscal years 2009 and 2010, 
$176,000 per year. A total of $3,747,430 has been appropriated.
    The research is being carried out by the Southern Rural Development 
Center, housed at Mississippi State University, and sub-contractors. 
The Southern Rural Development Center Director is the project director, 
and he has established collaborations with the Mid-Delta Developers' 
Association, the Delta Council's Adult Literacy Program, the Delta 
Regional Authority, the Delta Data Center, the Mississippi Development 
Authority, and regional Chambers of Commerce.
    Proposals are submitted for internal review, evaluation, and merit 
review within the agency as they are received. The principal 
investigators and project managers submit periodic updates to the 
agency to document progress and impacts. For the current phase of the 
project, a team prioritized research questions so that the research 
investment interfaces closely with regional needs and supports outreach 
education.
                   designing foods for health, texas
    The objectives of the grant are to: (1) optimize the health 
promoting bioactive compounds through genetics; (2) assess the health 
benefits of these compounds; (3) isolate, purify and characterize the 
bioactive compounds; and (4) develop technologies for pre/post-harvest 
and processing.
    The interdisciplinary team of scientists has expertise in the areas 
of breeding, pre- and post-harvest physiology, nutrition, chemistry, 
biochemistry, biotechnology, biomedical sciences, and molecular 
genetics. This inter-disciplinary research team provided need-based 
outcomes evolved from stakeholders. Integrating efficient drip 
irrigation, nitrogen and potassium fertilizer strategies will lead to 
optimal quality and yield of high cash-value vegetable crops in 
southwest Texas.
    The work supported by this grant began in fiscal year 1999, and the 
appropriation for fiscal year 1999 was $250,000; for fiscal year 2000, 
$318,750; for fiscal year 2001, $561,761; for fiscal year 2002, 
$690,000; for fiscal year 2003, $819,638; for fiscal year 2004, 
$1,342,035; for fiscal year 2005 $1,611,008; for fiscal year 2006, 
$1,980,000; for fiscal year 2007, $0; for fiscal year 2008, $1,474,605; 
and for fiscal years 2009 and 2010, $1,385,000 per year. The total 
appropriation was $11,817,797.
    Research is conducted at the Vegetable and Fruit Improvement Center 
and other research centers within the Texas Agricultural Experiment 
Station of the Texas A&M University System. Some research is conducted 
at the University of Houston, Victoria, and the University of Arizona.
    The 2009 proposal was reviewed in September 2009 by NIFA staff who 
determined the faculty and facilities were adequate for completion of 
the proposed project.
                   detection and food safety, alabama
    The goal of this project was to reduce the incidence of food-borne 
illness through the use of sensor chips that assess the safety of food 
items as they moved through the food chain. Work in 2001 was aimed at 
developing a hand-held sensor that will allow food processors to detect 
the presence of bacterial pathogens and toxins in food within 100 
seconds. Laboratory tests in 2003 demonstrated faster response times 
while detecting as few as 300 Salmonella cells in 1 milliliter of 
liquid. Test kits have also been commercialized for detecting a 
livestock feed constituent that transmits bovine spongiform 
encephalopathy, commonly referred to as ``mad cow disease.'' 
Furthermore, investigators have demonstrated capability with radio-
frequency identification tags and have patented and licensed several 
new approaches to sensing pathogens, including Salmonella and anthrax 
that promise the capability to detect a single bacteria or spore. Tests 
with patented magneto-strictive particle sensors in 2005 confirm one-
cell sensitivity. A new, more sensitive Enzyme-Linked Immunosorbent 
Assay (ELISA) test strip for anthrax has been prototyped. A patent 
application has been submitted for a new micro-fluidic device that can 
bring a single bacteria cell or spore in contact with a nano-scale 
sensor. At this point in 2008, one spin-off company has been 
established and four other companies are selling commercialized 
products resulting from this work. Recently, a sixth licensed 
technology dramatically improves the software diagnostic capability of 
off-the-shelf electronic noses used in defense and in the food 
industry.
    The work supported by this grant began in fiscal year 1999 under 
the Food Safety, Alabama grant. The appropriation for fiscal year 1999 
was $300,000; for fiscal year 2000, $446,250; for fiscal year 2001, 
$519,854; for fiscal year 2002, $608,000; for fiscal year 2003, 
$1,117,688; for fiscal year 2004, $1,000,065; for fiscal year 2005, 
$1,091,200; for fiscal year 2006, $1,134,540; and for fiscal year 2007, 
$0. In fiscal year 2008, the project was renamed the Detection and Food 
Safety, Alabama grant with an appropriation of $1,861,875; and for 
fiscal years 2009 and 2010, $1,748,000 per year. The total amount 
appropriated for this program is $11,575,472.
    Research is conducted at the Auburn Research Center for Detection 
and Food Safety, Auburn University.
    The project is subject to a thorough institutional peer review 
during preparation of the grant proposal. Each project proposal 
receives merit review by one or more agency scientists. All food safety 
special-grant projects were reviewed at an investigator-attended 
workshop held at agency offices in August 2005. The project's principal 
investigator provided a seminar for agency personnel in 2009. It was 
noted that the project is proceeding according to its projected time 
line.
                      drought mitigation, nebraska
    The objective of the grant is to reduce the risk to agriculture and 
society associated with drought: promoting and conducting research on 
drought mitigation and preparedness technologies; improving 
coordination of drought-related activities and actions within and 
between levels of government; and assisting in the development, 
dissemination, and implementation of appropriate mitigation and 
preparedness technologies in the public and private sectors.
    The work supported by this grant received an appropriation of 
$200,000 per year in fiscal years 1995 through 2000; $199,560 in fiscal 
year 2001; $196,000 in fiscal year 2002; $223,538 in fiscal year 2003; 
$200,808 in fiscal year 2004; $211,296 in fiscal year 2005; $219,780 in 
fiscal year 2006; $0 in fiscal year 2007; $372,375 in fiscal year 2008; 
$469,000 in fiscal year 2009; and $600,000 in fiscal year 2010 for a 
total appropriation of $3,892,357.
    The research is conducted at the University of Nebraska--Lincoln. 
The National Drought Mitigation Center in Lincoln, Nebraska, is 
recognized around the world as a leader in research, education, and 
outreach for drought. The Center also hosts preparation of the Drought 
Monitor--a product used to determine drought relief in USDA.
    An on-site review of the project was conducted in 2005, and a 
follow-up review was conducted at the NIFA National Water Conference in 
February 2006. Since then, the project leaders have conducted informal 
meetings with the National Program Leader assigned to this project in 
Washington, DC. The project also is reviewed each year when the 
proposal is submitted for funding. The project was reviewed as part of 
a Programmatic Review conducted by the National Institute of Food and 
Agriculture in 2009.
               efficient irrigation, new mexico and texas
    The objective of the grant is to increase the efficiency of 
agriculture and urban landscape irrigation and encourage the 
development of efficient water markets in the Rio Grande Basin. 
Modeling technology aids are helping irrigation district managers 
understand likely financial outcomes of changes in water-delivery rates 
to agricultural, municipal, and industrial users. Data being gathered 
from rehabilitation projects for irrigation districts with leaking 
canals and pipelines and inefficient pumping facilities are estimated 
to save 61,275 acre-feet of water per year. Significant reductions in 
sugarcane water use are possible using efficient application methods 
that improve uniformity of distribution and optimum scheduling, 
including amount and timing of water application. Substantial water 
savings have been facilitated in vegetable and citrus production in the 
Lower Rio Grande Valley using soil moisture monitoring, various 
cultural practices on crop water use, and irrigation recommendations. 
The potential water savings may reach 19,528 million gallons per year, 
assuming 50 percent of landscapes in El Paso are irrigated with 
recycled water. Several chili pepper cultivars were found to be more 
salt tolerant than others; this indicates that recycled water may be 
used for irrigating chili peppers and freshwater can be saved for more 
sensitive crops. Soil salinization in urban green spaces is being 
studied in El Paso. This study is expected to establish soil assessment 
and handling guidelines for construction of sports fields and irrigated 
urban landscapes. Such guidelines will help improve water-use 
efficiency and wise use of fiscal resources.
    The work supported by this grant began in fiscal year 2001, and the 
appropriation for fiscal year 2001 was $1,185,386; for fiscal year 
2002, $1,176,000; for fiscal year 2003, $1,490,250; for fiscal year 
2004, $1,342,035; for fiscal year 2005, $1,488,000; for fiscal year 
2006, $1,658,250; for fiscal year 2007, $0; for fiscal year 2008, 
$1,235,292; and for fiscal years 2009 and 2010, $1,160,000 per year. 
The total amount appropriated is $11,895,213.
    Texas A&M University and New Mexico State University jointly 
conduct this research through the Water Resources Institute at Texas 
A&M University.
    An agency scientist conducts a merit review of the proposal 
submitted in support of the appropriation on an annual basis. A 
conference of the co-investigators was held in August 10-13, 2009. The 
site review involved a series of presentations by project leaders that 
described project objectives and accomplishments for the previous year. 
The site visit review of this project allowed the agency scientists to 
ensure that objectives of the project were coordinated with the other 
three projects in the basin. The research team is a multi-disciplinary 
group including, but not limited to economists, engineers, plant, soil, 
and atmospheric scientists. Agency scientist(s) intend to participate 
in a similar conference in 2010 to continue evaluating its progress.
                        emerald ash borer, ohio
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $550,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.
                    environmental research, new york
    The objectives of this research are (1) Improve estimates of the 
magnitudes of biogeochemical fluxes of Nitrogen (N), (P), and sediments 
from the New York portion of the Susquehanna River basin into the 
Susquehanna, and ultimately to the impaired Chesapeake Bay; (2) Assess 
controls on nutrient pollution, particularly N, in rural landscapes 
with a mixture of forested and agricultural land uses; (3) Evaluate the 
importance of agricultural sources of nutrient pollution in the context 
of all sources in the watershed; and (4) Assess the effects of climate 
variability and climate change on fluxes of N, P, and sediment from the 
rural landscape.
    There are three main research areas for the project. Research 
activities on Agricultural Biogeochemistry are being conducted at the 
Harford Animal Science Teaching and Research in Cortland County, New 
York. Research on Atmospheric Deposition is being conducted at the 
Connecticut Hill Game Management Area in New York State. Integrated 
modeling of nutrient and sediment sources and sinks across spatial 
scales is being done at Cornell University. Each of the three research 
areas has collected the essential background and historical information 
for their respective sites and established specific monitoring 
activities.
    At the Harford Animal Science Teaching and Research Center, ongoing 
and historical data available include water quality from 15 wells, soil 
test results and crop yields, manure and fertilizer applications 
records for 20 years, nutrient inputs via animal feed, animal densities 
and field management. Data to be collected for this project include: 
repair and sampling of wells monthly for a year; analysis of dissolved 
organic nitrogen, nitrate, ammonium, monthly storm events, and surface 
samples from drainage creeks and nearby streams; analysis for 
sediments, nitrite, nitrate, ammonium, total dissolved nitrogen, 
soluble reactive phosphorus, total dissolved phosphorus, and 
particulate nitrogen and phosphorus; and monitoring deposition of 
ammonia and ammonium along gradients away from the farm site, using 
both bulk deposition measurements and passive samplers for ammonia gas 
in the atmosphere.
    At the Connecticut Hill Atmospheric and Precipitation Chemistry 
Research and Monitoring Facility, historical data available include a 
30-year record of wet and dry nitrogen deposition, comparative studies 
of dry deposition of nitrogen and sulfur species between measurements 
through the fall season versus inferentially measured estimates, and 
isotopic studies of wet and dry deposition to understand the sources of 
nitrogen deposition, and the impact of changing emissions of sulfate 
and nitrate on wet and dry deposition of sulfur, nitrogen, and acidity.
    The work supported under this grant began in 1991 with an 
appropriation of $297,000; $575,000 per year in fiscal years 1992-1993; 
$540,000 in fiscal year 1994; $486,000 per year in fiscal years 1995 
through 1999; $400,000 in fiscal year 2000; $399,120 in fiscal year 
2001; $391,000 in fiscal year 2002; $392,433 in fiscal year 2003; 
$350,917 in fiscal year 2004; $372,992 in fiscal year 2005; $369,270 in 
fiscal year 2006; $0 in fiscal year 2007; $275,061 in fiscal year 2008; 
and $258,000 per year in fiscal years 2009 and 2010. The total amount 
appropriated is $7,883,793.
    The last evaluation showed progress in producing a series of 
creative spin-up efforts emphasizing field and laboratory studies by 
individuals or groups of Cornell faculty that have led towards a better 
understanding of the sources and sinks of nutrients and sediments in 
the Susquehanna River Basin. The program has also been successful in 
integrating models of nutrient and sediment sources and sinks across 
spatial scales. The program has also made progress towards evaluating 
the importance of atmospheric deposition and agricultural sources of 
nutrient pollution in the context of all sources in the watershed. The 
Cornell community has the broad expertise in the disciplines required 
to achieve their goals. The program is designed to foster creative new 
research and integrate the results with current research at Cornell 
into an overall, comprehensive effort. The Susquehanna River Basin has 
proven to be an ideal laboratory for better understanding of the 
factors that control nitrogen fluxes from rural landscapes with mixed 
agriculture and forest lands.
              environmental risk factors/cancer, new york
    The objectives of the grant are to evaluate the scientific 
information on pesticides, other chemicals, and diet, and the 
relationships of these to breast cancer risk. As a result of the 
proposed work, health professionals, extension educators, community 
leaders, and the public will increase their understanding of the 
relationship between overweight and obesity and breast cancer risk and 
will improve their capacity to take an environmental approach to breast 
cancer risk reduction through obesity prevention in communities.
    Focus group data of over 200 study participants showed the 
proportion of participants meeting walking goals increased from 38 to 
65 percent over 10 weeks with the greatest relative step increase by 
those who walked least at baseline. Ninety-three percent reported 
positive dietary changes. In the current project year, the proposed 
intervention and data collection objectives have been met; the 
intervention, Small Steps are Easier Together, has been implemented in 
five new worksites and three comparison worksites and pre- and post-
intervention data have been collected from all sites. In addition, 
information on the environmental approach for obesity prevention 
developed and implemented by this research was disseminated at multiple 
scientific and professional meetings, reaching 525 researchers, health 
professionals, educators and community leaders.
    The work supported by this grant began in 1997, and in fiscal years 
1997-1999, $100,000 was appropriated per year; fiscal year 2000, 
$170,000; fiscal year 2001, $226,501; fiscal year 2002, $222,000; 
fiscal year 2003, $220,557; fiscal year 2004, $197,826; fiscal year 
2005, $217,248; fiscal year 2006, $214,830; fiscal year 2007, $0; 
fiscal year 2008, $159,873; and fiscal years 2009 and 2010, $150,000 
per year. A total of $2,228,835 has been appropriated.
    The work is done at Cornell University, Ithaca, New York.
    A university peer review of the project was last completed in May 
2009. In addition, this project has undergone continuous evaluations by 
the agency and project researchers. Conclusions from these have 
informed planning efforts for the education component including the 
streamlining of the environmental intervention, e.g. Small Steps are 
Easier Together for easy local application by community educators with 
minimal assistance.
                 environmentally safe products, vermont
    The objectives of the grant are to develop new applications for 
``waste'' products that may lead to novel products or approaches to 
solving environmental problems including the development of an 
environmentally friendly wood finish, coating formulation system, the 
development of a deicer from by-products of the cheese whey production 
process, the use of iron slag wastes as absorptive materials to capture 
phosphorous in agricultural runoff to then be used in horticultural 
applications, and the use of waste products as energy sources to 
improve efficiency of greenhouse operations.
    Five prototype wood coating mixes were formulated and have been 
optimized for maximum performance in industrial settings. The chemical 
characteristics of the formulations have been analyzed, and the coating 
materials have been applied on experimental wood samples. A workshop 
has been built which is designed for this project. The safe wood 
finishes perform better in terms of water resistance, drying time, and 
pencil scratch hardness compared with the same type of commercial 
products. The analyses on mold resistant properties and ultraviolet 
resistance of the prototypes have been completed. A U.S. patent 
application for formulation and production of the environmentally safe 
wood finish products was filed in July 2002. Commercial application 
trials have been carried out at two of Ethan Allen Furniture 
operations. An organic salt, potassium acetate, has been produced 
through a two-stage fermentation process at lab scale, and work is 
ongoing to optimize the process. This by-product of the cheese making 
process serves to reduce road ice and is biologically degradable in the 
environment. Other by-products of the cheese manufacturing process, 
whey protein and lactate, are being evaluated as coatings and nutrient 
sources for biocontrol fungi, respectively. Whey protein-based wood and 
paper adhesives have been developed with much improved strength. Scaled 
up studies on the plywood adhesives were performed. Analyses on 
functional properties of the adhesives were conducted. A peer-reviewed 
manuscript on the findings of this project has been submitted to 
Journal of Polymer Sciences.
    The work supported by this grant began in fiscal year 2000. The 
appropriation for fiscal year 2000 was $200,000; for fiscal year 2001, 
$245,459; for fiscal year 2002, $240,000; for fiscal year 2003, 
$243,408; for fiscal year 2004, $745,575; for fiscal year 2005, 
$740,032; for fiscal year 2006, $742,500; for fiscal year 2007, $0; for 
fiscal year 2008, $335,634; for fiscal year 2009, $188,000; and for 
fiscal year 2010, $250,000. The total amount appropriated is 
$3,930,608.
    This work is being carried out in the College of Agricultural and 
Life Sciences, the University of Vermont.
    Evaluation of this project is conducted annually based on the 
annual progress report and discussions with the principal investigator 
and colleagues, as appropriate. The review is conducted by the NIFA 
staff who has determined that this research is in accordance with the 
mission of the agency.
                    expanded wheat pasture, oklahoma
    The goal of this research was to discover and disseminate 
scientific information that decreases production risk and improves 
profitability of feeder cattle and grain production from dual purpose 
winter wheat. This work has already shown how the use of feed 
supplements can increase net profit from cattle grazing on wheat 
pasture. The study has identified management practices, for example, 
date of planting, cultivar selection, grazing intensity, and date of 
cattle removal, that produce the optimum grain yield and cattle gain. A 
decision support microcomputer model, titled ``Wheat and Wheat/Stocker 
Production Planner'' has been developed for use by producers and 
extension educators as a decision aid to help producers assess income 
risk in the operation. Wheat cultivars called GRAZEnGRAIN that maintain 
high grain yields after being grazed have been identified. Studies were 
conducted to further develop supplementation strategies for growing 
cattle on wheat pasture, characterize the physiological basis for 
differences in finishing performance of feeder cattle off wheat pasture 
and determine the effects of wheat breeding practices, varietal 
improvement, and cultural and management practices on productivity of 
the wheat/stocker cattle enterprise. Data evaluating adipose tissue 
development indicate that steers grazing winter wheat pasture will gain 
at a greater rate and start to deposit more intramuscular fat at a 
younger age compared with steers grazing dormant native rangeland.
    The work supported by this grant began in fiscal year 1989, and 
appropriations were as follows: fiscal year 1989, $400,000; fiscal year 
1990, $148,000; fiscal year 1991, $275,000; fiscal years 1992-1993, 
$337,000 per year; fiscal year 1994, $317,000; fiscal years 1995-2000, 
$285,000 per year; fiscal year 2001, $292,355; fiscal year 2002 
$286,000; fiscal year 2003, $307,985; fiscal year 2004 $275,366; fiscal 
year 2005, $272,800; fiscal year 2006, $319,770; fiscal year 2007, $0; 
fiscal year 2008, $238,320; and fiscal years 2009 and 2010, $223,000 
per year. A total of $5,962,596 has been appropriated.
    Large replicated pasture studies are being conducted at wheat 
pasture research units near the Oklahoma State University campus, at 
the Wheat Pasture Research Unit, 596 acres near Marshall, Oklahoma, 
which is 30 miles west of the Oklahoma State University campus, and the 
Sparks Beef Research Center, an Oklahoma Agricultural Experiment 
Station facility near campus. As a component of the Oklahoma 
Agricultural Experiment Station wheat breeding program, breeding 
nurseries have been established at Marshall using a graze-plus-grain 
management system. In addition, small-plot wheat variety performance 
tests are conducted at about 18 locations across the State either on 
Oklahoma Agricultural Experiment Station facilities or on private farm 
land.
    Senior agency technical staff reviewed the annual project proposal 
and progress reports and concluded that the project was appropriately 
focused and addressing the stated objectives. A comprehensive review 
including site visit is still under consideration for 2010.
       expert integrated pest management decision support system
    The objective of this project is to streamline the exchange of pest 
management information within and between Federal and State government 
agencies, research scientists, extension educators, agricultural 
industries, commodity groups, and agricultural producers. The Expert 
Pest Management Information Decision Support System has been moved to a 
Web-based system, with access to all of the originally proposed 
databases now complete. This system has now been seamlessly integrated 
into the agency's Regional Integrated Pest Management Centers 
Information System at www.ipmcenters.org. Semi-automated updating of 
the databases is now in place as a cooperative effort among the 
agencies responsible for collecting the information. The Center for 
Integrated Pest Management maintains the databases for the Pipeline, 
CropLife Pesticide Use Data, Crop Profiles, Pest Management Strategic 
Plans, Crop Timelines, the NIFA Food Quality Protection Act Research 
Projects Database, the NIFA Contacts Database, the aggregated National 
Agriculture Statistics Service Pesticide Use Data, a new Interagency 
Integrated Pest Management Projects Database and a new Proposal/Project 
Management System. The latter is used by the Regional Integrated Pest 
Management Centers to track and seamlessly manage all Request for 
Applications for which they have responsibility, from Request for 
Applications publication, through proposal submission and review, to 
project reporting locally and dynamically into the Interagency 
Integrated Pest Management Projects Database.
    This work supported by this grant began in fiscal year 1995, and 
appropriations were as follows: in fiscal year 1995, $172,000; in 
fiscal year 1996, $177,000 from this special grant plus $21,000 from 
Research, Extension, and Education Evaluation Funds and $40,000 from 
the Pesticide Impact Assessment Program; in fiscal year 1997, $165,425; 
in fiscal years 1998-2000, $177,000 per year; in fiscal year 2001, 
$176,611; in fiscal year 2002, $177,000; in fiscal year 2003, $175,850; 
in fiscal year 2004, $158,062; in fiscal year 2005, $156,736; in fiscal 
years 2006 and 2007, $155,430 per year; in fiscal year 2008, $153,915; 
in fiscal year 2009, $154,000; and in fiscal year 2010, $156,000. Total 
amount appropriated is $2,725,459.
    The bulk of the work is carried out on the campus of North Carolina 
State University in Raleigh, which collaborates with agricultural 
scientists at land-grant universities throughout the United States. The 
Center for Integrated Pest Management at North Carolina State 
University manages the Web server where the pest management information 
system is located.
    Over the past 4 years, the Web development aspect of the project 
has been evaluated annually. Currently, the annual review of the 
project and goals is by a Web development committee composed of the 
directors and Information Technology staff of the Regional Integrated 
Pest Management Centers. Several key components of the project received 
favorable reviews during a formal comprehensive review of the 
Integrated Pest Management Centers in February of 2008. For 2009, the 
project was competitively awarded and was reviewed prior to submission 
by three independent reviewers and an external review panel.
                          floriculture, hawaii
    The original goals of this research were to develop and 
commercialize high yielding, disease and insect resistant floral 
cultivars of anthurium, orchids, protea, flowering ginger, bird of 
paradise, heliconia, ti leaves and other exotic tropical flower and 
foliage varieties; address current technical constraints; and implement 
effective marketing strategies.
    More than 100 new anthurium hybrids are in individual plant 
selection stage and eight selections in tissue culture are in advance 
testing on cooperator farms. Protea resistant to the fungal pathogen, 
Phytophthora cinnamomi, were obtained from South Africa, and this 
germplasm is being incorporated into protea breeding lines. Seventeen 
new resistant, tissue-culture propagated protea hybrids were released 
to the public for a total of 101 new cultivars released since 1999. 
Seventeen new Leucospermum hybrids were released since 2003. Tests 
continue for Phytophthora cinnamomi resistance and extended vase life. 
The orchid breeding program was intensified in 2004, and 39 crosses 
have been germinated to date. Research on light enhancement has 
shortened the production period for orchid flowering by four to six 
weeks. Research was also focused on the development of post-harvest 
handling practices and addressed quarantine issues. A post-harvest hot 
air treatment was developed and proved effective in controlling 
nematode and bacterial infections in anthurium plants and will 
significantly reduce production costs. Studies determined effective 
controls for a new pest, pink hibiscus mealybug. Over 4,400 Protea 
cuttings were released to Hawaii growers; 15 new anthurium hybrids are 
being evaluated on grower-cooperator farms; several new dendrobium 
orchids are being tested for both potted and cut flower varieties. Nine 
commercial orchid nurseries were assessed for fusarium diseases; 
Fusarium proliferatum, F. oxysporum, F. solani, and F. subglutinans 
were the most common pathogens. Most recently, a series of water and 
fertilizer management audits at large nurseries found improper usage of 
water and fertilizers. Results of an irrigation experiment on Anthurium 
showed a substantial increase in flower yield by 35 percent and also an 
increase in the proportion of large flowers size from 45 percent to 70 
percent with several short pulses of fertigation compared to current 
farm practices, resulting in a net revenue gain of approximately 
$200,000 per acre each year. Additionally, composts using macadamia nut 
shells and rubber chips as ingredients were demonstrated to be 
appropriate alternative potting media for potted palms compared with 
more expensive potting media sold commercially. Using controlled-
release fertilizers with a shorter time-release rate enabled faster 
movement of nutrients into the potting media was shown to facilitate 
faster intake by plants. Also it was found that a coir-cinder mixture 
was an adequate potting media for dendrobium and oncidium orchids due 
to its better water holding capacity; thus, lower the rate of 
fertilizer release. These research results were presented at a national 
conference and an abstract was published in HortScience.
    The work supported by this grant began in fiscal year 1989 and the 
following amounts have been appropriated: in fiscal year 1989, 
$300,000; fiscal years 1990-1993, $296,000 per year; fiscal year 1994, 
$278,000; fiscal years 1995-2000, $250,000 per year; fiscal year 2001, 
$249,450; fiscal year 2002, $400,000; fiscal year 2003, $397,400; 
fiscal year 2004, $354,894; fiscal year 2005, $352,160; fiscal year 
2006, $348,480; fiscal year 2007, $0; fiscal year 2008, $259,173; 
fiscal year 2009, $243,000; and fiscal year 2010, $300,000. A total of 
$6,166,557 has been appropriated since fiscal year 1989.
    This research is being conducted by the College of Tropical 
Agriculture and Human Resources at the University of Hawaii--Manoa at 
locations in Honolulu and Hilo, and by the College of Agriculture, 
Forestry and Natural Resource Management at the University of Hawaii at 
locations in Hilo, with input from the floral crops industry on the 
islands of Hawaii and Maui.
    Each individual project proposal goes through a national peer merit 
review managed by the applicant institution. Each proposal is peer 
reviewed and ranked, and funding is provided only to the highest ranked 
projects. Project accomplishments and proposed research objectives are 
reviewed annually. In addition, project expenditures are monitored to 
ensure that spending is consistent with approved project budgets and 
with Federal regulations. Research results are also reviewed by members 
of the Hawaii floriculture industry to ensure that priorities 
identified by the industry and reflected in the request for proposals 
are being addressed and progress toward achieving objectives are on 
schedule. As new objectives are identified, they will be reviewed by 
research administrators and members of the Hawaii floriculture 
industry.
food and agriculture policy research institute, iowa, missouri, nevada, 
                               wisconsin
    The objectives of the grant are: (1) to provide information to help 
public decision makers evaluate farm policy options; and (2) to enhance 
capacity to conduct quantitative analysis of agricultural policy 
issues.
    The institutions maintain large econometric models and datasets 
which are regularly updated to analyze farm and trade policy 
alternatives and the impacts of various programs on several sub-sectors 
of the agricultural economy. During the past year, the Food and 
Agriculture Policy Research Institute (FAPRI) at Missouri included an 
annual 10-year outlook for agriculture--prepared every year since 1984, 
agricultural policy scenarios requested by Congress at will, 
Congressional briefings, and Congressional testimony. The final 
projections for domestic and world agricultural markets are found in 
FAPRI 2009 U.S. and World Agricultural Outlook. Each publication is 
posted on their Web site (www.fapri.missouri.edu).
    Grants have been awarded from funds appropriated as follows: fiscal 
years 1984-1985, $450,000 per year; fiscal years 1986-1987, $357,000 
per year; fiscal year 1988, $425,000; fiscal year 1989, $463,000; 
fiscal year 1990, $714,000; fiscal years 1991-1993, $750,000 per year; 
fiscal year 1994, $705,000; fiscal years 1995-1996, $850,000 per year; 
fiscal year 1997-2000, $800,000 per year; fiscal year, 2001, $947,910; 
fiscal year 2002, $1,000,000; fiscal year 2003, $1,515,088; fiscal year 
2004, 1,364,899; fiscal year 2005, $1,536,608; fiscal year 2006, 
$1,595,880; fiscal year 2007, $0; fiscal year 2008, $1,191,600; fiscal 
year 2009, $1,139,000; and fiscal year 2010, $1,339,000. The total 
amount appropriated is 22,700,985.
    The program is carried out at the Center for Agriculture and Rural 
Development, Iowa State University, and the Center for National Food 
and Agricultural Policy, University of Missouri.
    Each year Iowa State University and the University of Missouri 
publish the Food Agriculture Policy Institute U.S. and World 
Agriculture Outlook which is assessed annually. A formal evaluation of 
this program has not been conducted.
                     food and fuel initiative, iowa
    The objectives of this grant focus on: (1) discovery of new value-
added food safety compounds in co-products to enhance economic 
development opportunities; (2) Mycotoxin monitoring in co-products for 
food and feed safety and mitigation strategies; and (3) economic 
analysis, risk assessment and communication.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $297,900; $280,000 in fiscal year 
2009; and $298,000 in fiscal year 2010. A total of $875,900 has been 
appropriated.
    This research is conducted at Iowa State University.
    The submitted proposal for this new project was critically reviewed 
in the summer of 2009 by the National Program Leader of NIFA and was 
found to be scientifically sound.
               food marketing policy center, connecticut
    The objectives of the grant are the analysis of private strategies, 
public policies, and food system performance to enhance economic 
welfare; and, the development of food safety and related policies to 
provide guidance for the control of safety risks and for significant 
reduction of safety risks in the global food system.
    The work supported by this grant began in fiscal year 1988. The 
appropriations amount to the following: fiscal year 1988, $150,000; 
fiscal year 1989, $285,000; fiscal year 1990, $373,000; fiscal years 
1991-1993, $393,000 per year; fiscal year 1994, $369,000; fiscal years 
1995-1998, $332,000 per year; fiscal years 1999-2000, $400,000; fiscal 
year 2001, $493,911; fiscal year 2002, $484,000; fiscal year 2003, 
$486,815; fiscal year 2004, $581,548; fiscal year 2005, $579,328; 
fiscal year 2006, $573,210; fiscal year 2007, $0; fiscal year 2008, 
$426,990; and fiscal years 2009 and 2010, $401,000 per year. The total 
amount appropriated for this project to date is $8,911,802.
    Project work is being carried out at the University of Connecticut 
and also at the University of Massachusetts and at cooperating 
universities via the visiting fellows program.
    Annual proposals for funding are peer reviewed for relevance and 
scientific merit. The NIFA contact is also in regular contact with the 
principal researcher at the key institution to discuss progress towards 
meeting project objectives.
                    food safety, maine and oklahoma
    The objectives of this project is to discover ways to improve the 
safety and security of the Nation's food supply at all steps from farm 
or ranch production through processing. The project will focus on 
E.coli monitoring in cattle, L. Monocytogenes virulence, oregano as an 
inhibitor of food borne pathogens, and the tracing of staphylococcal 
enterotoxin along with a recombinant genetic method for detecting 
prions in meat or meat by-products.
    Researchers have demonstrated that injection of 0.1 percent 
solution of ammonium hydroxide significantly affects aerobic and 
anaerobic microbial populations in beef loins. Protocols have 
successfully been developed for the detection of the various soy 
products' DNA using the lectin gene with Real-time Polymerase chain 
reaction. E. coli O157:H7 has been found to persist in young growing 
spinach for up to two weeks, and the leaf morphology for spinach has 
been found to play a role in bacterial colonization.
    The work supported by this grant began in fiscal year 2002 with an 
appropriation of $400,000; for fiscal year 2003, $620,938; for fiscal 
year 2004, $555,702; for fiscal year 2005, $551,552; for fiscal year 
2006, $546,480; for fiscal year 2007, $0; for fiscal year 2008, 
$407,130; and for fiscal years 2009 and 2010, $382,000 per year. A 
total of $3,845,802 has been appropriated.
    The research is being conducted at Oklahoma State University, 
Agricultural Experiment Station in the Food and Agricultural Products 
Research and Technology Center. The sensor technology proof of concept 
research will be completed in Orono, Maine, at the Sensor Research and 
Development Corporation.
    An agency evaluation was conducted in 2009. The Project Director 
met with the National Program staff at NIFA via a series of 
teleconferences and gave a summary of the status of the project and 
also presented the data that has been compiled to date.
                           food safety, texas
    The objective of the grant is to develop a national and 
international Electron Beam Food Research Center that will conduct 
applied research focusing electron beam technology on food applications 
and agriculturally related products. Specifically, the Center will host 
research projects from industry, government, and academia, while 
conducting outreach, training, and education in the science and 
technology of electron beam-based irradiation.
    To date, the Center has completed studies on the usage of electron 
beams to inactivate viruses on cantaloupes and pathogens in lettuce and 
spinach, and a provisional patent has been obtained for the use of E-
beam for the treatment and disinfection of municipal wastewater. In 
addition, the researchers are using e-beam irradiation to develop novel 
vaccines for Salmonella in poultry. A Salmonella vaccine patent has 
been submitted in collaboration with USDA-Agricultural Research Service 
scientists for use by poultry breeders, growers, and in hatcheries. E-
beam irradiation can be used to replace formalin, which is currently 
used in vaccine production. Formalin has been classified as 
``reasonably anticipated to be a human carcinogen''; Therefore, this 
technology will likely improve the safety of vaccines. This has public 
health implications and could be used to improve the safety of human 
vaccines. In addition, use of the vaccine in live chickens will improve 
the health of the chickens, thus reducing the need for antibiotics and 
may result in lower levels of Salmonella contamination in poultry meat. 
Experiential short courses in food safety have been conducted 
periodically and have provided hands-on training for food industry 
workers and other food science and food safety professionals. In 2009, 
this research included scientists from Mexico, France, and India.
    The work supported by this grant began in fiscal year 2003, and the 
appropriation for fiscal year 2003 was $198,700; for fiscal year 2004, 
$177,944; for fiscal year 2005, $187,488; for fiscal year 2006, 
$198,000; for fiscal year 2007, $0; for fiscal year 2008, $74,475; and 
for fiscal years 2009 and 2010, $69,000 per year. A total of $974,607 
has been appropriated.
    Currently, all related research has been conducted at the Institute 
of Food Science and Engineering in the Texas A&M University Electron 
Beam Food Research Facility, College Station, Texas.
    The last Agency evaluation of this project was conducted in 
December 2009. It was concluded that the investigators are qualified to 
carry out the objectives involving applied research on food and 
agriculturally related products and that the findings of the research 
will result in food safety and public health benefits.
               food safety research consortium, new york
    The objective of this grant is to conduct and coordinate food 
safety research that provides critical new knowledge on foodborne 
pathogens and leads to the development of new and innovative food 
safety tools and intervention strategies by developing and applying 
molecular characterization and epidemiological methods to provide an 
improved understanding of the transmission, evolution, and ecology of 
selected bacterial foodborne pathogens, including Salmonella and L. 
monocytogenes.
    Strain collections, subtyping and characterization methods, and 
protocols will be made broadly available to facilitate application of 
the methodologies developed. Over the last project year, researchers 
have made major progress on two specific projects. Previous research 
has shown that L. monocytogenes isolates can be grouped into three 
genetic lineages, which seem to differ in their ability and likelihood 
to cause human disease. Researchers have also tested the hypothesis 
that L. monocytogenes lineages may exhibit different stress-related 
phenotypes.
    The work supported by this grant began in fiscal year 2001 with an 
appropriation of $284,373; for fiscal year 2002, $800,000; for fiscal 
year 2003, $894,150; for fiscal year 2004 $800,250; for fiscal year 
2005, $892,800; for fiscal year 2006, $990,000; for fiscal year 2007, 
$0, for fiscal year 2008, $737,799, for fiscal years 2009 and 2010, 
$693,000 per year. A total of $6,785,372 has been appropriated.
    This research will be conducted at Cornell University in Ithaca, 
New York, in the Departments of Food Science and Computer Science.
    An agency evaluation was conducted by NIFA staff in September 2009 
upon receipt of the proposal and Current Research Information System 
(CRIS) reports. NIFA staff determined the proposal was sound and the 
facilities and faculty were adequate to complete the project 
successfully.
                       food security, washington
    The objectives of this grant are to enhance the Pacific Northwest 
(PNW) spring wheat breeding material; develop and test facultative 
wheat varieties that can be planted in the late fall, winter, or early 
spring; develop innovative intervention to control microbiological 
pathogens associated with food processing; and develop new packaging 
and processing methods to prevent microbiological contamination of 
processed foods.
    The work began in fiscal year 2002 with an appropriation of 
$400,000; $447,075 in fiscal year 2003; $399,628 for fiscal year 2004, 
$397,792 in fiscal year 2005; $394,020 in fiscal year 2006; $0 in 
fiscal year 2007; $293,928 in fiscal year 2008; and $276,000 per year 
in fiscal years 2009 and 2010. A total of $2,884,443 has been 
appropriated.
    Research is being conducted at laboratories at the College of 
Agriculture, Human, and Natural Resources, Washington State University.
    Proposals for projects are developed by Washington State University 
and are reviewed by peers at the College of Agriculture, Human, and 
Natural Resources. They are then submitted to NIFA and are reviewed by 
National Programs Leaders. NIFA staff also monitors the progress of the 
project through semi-annual conference calls and through review of 
annual accomplishments. Selection of recipients of small grants awarded 
by the project is made by scientists at Washington State University. It 
is anticipated that NIFA staff will conduct an evaluation in 2010.
          forages for advancing livestock production, kentucky
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $473,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.
                      forestry research, arkansas
    The objective of the grant is to develop alternative forest 
management strategies for achieving multi-resource objectives; i.e., 
production of timber, wildlife, recreation, and other values of the 
forest on private industrial and non-industrial forest lands and public 
lands. Progress has been made in several areas such as development of 
intensive fiber farming systems as alternatives to soybeans for 
Mississippi Delta farmers, and discovery of the nutrient needs of 
predators of the beetle so predators can be grown and studied in 
artificial cultures.
    A major accomplishment in 2008 follows:
    The Arkansas Forest Resources Center conducted bio-fuel research to 
determine the most efficient alternative bio-fuel and feed-stocks in a 
variety of locations around the State of Arkansas. Portable bio-
refinery work proceeds as a component of this research. Results 
indicated that large volumes of cellulosic biomass from forest residue 
and agronomic biomass crops are compatible with growing sites in 
Arkansas and can provide large volumes capable of providing fuel feed 
stocks. Forest based feed stocks--residuals and slash--could produce as 
much as 900,000,000 gallons of ethanol a year. This is a replacement of 
10 percent of the total gasoline consumption in the State.
    A major accomplishment in 2009 follows:
    Issues surrounding cellulosic-based biomass feedstock production 
are complex and require sound science-based information from which to 
base management decisions. Scientists implemented studies on cellulosic 
biomass production systems to assess biomass yields, determine 
investment potentials, and evaluate impacts on selected environmental 
services. Successful establishment of different cellulosic biomass 
production systems was influenced by local environmental factors 
associated with each treatment immediately following planting.
    Grants have been awarded from funds appropriated as follows: 1994 
$470,000; 1995 $523,000; 1996 $523,000; 1997 $523,000; 1998 $523,000; 
1999 $523,000; 2000 $523,000; 2001 $521,849; 2002 $512,000; 2003 
$508,672; 2004 $455,298; 2005 $461,280; 2006 $456,390; 2007 $0; 2008 
$339,606; 2009 $319,000; 2010 $319,000; Total $7,501,095.
    The Arkansas Forest Resources Center is administered through the 
School of Forest Resources on the campus of the University of Arkansas 
at Monticello. Individual studies are being conducted at the University 
of Arkansas, Fayetteville; University of Arkansas at Monticello; and 
several locations across the State.
    A review was conducted in 2001. The review team found no adverse 
conditions on research capability, and that infrastructure is adequate; 
projects were progressing as scheduled. A review will be scheduled in 
2010.
                 fresh produce food safety, california
    The objectives of this grant are to establish a clearinghouse for 
research related to produce safety, and to support studies focused on 
developing solutions that mitigate risks associated with the Nation's 
produce supply.
    Eleven research projects have been awarded, and each will 
specifically address reducing the food safety risks associated with 
growing and harvesting fresh produce.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $521,325; $704,000 in fiscal year 
2009; and $750,000 in fiscal year 2010. A total of $1,975,325 has been 
appropriated.
    The research is being conducted at the University of California, 
Davis.
    A summary of completed work was submitted, reviewed, and approved 
by National Program staff in November 2009.
       genomics for southern crop stress and disease, mississippi
    The objective of this grant is to determine how southern crops and 
livestock respond to stress from pests and the environment, in order to 
provide basic and applied knowledge to breeding programs. The research 
will use genomics tools for identification of pathogen and stress 
resistance in southern agricultural crops including, but not limited 
to, cotton, rice, soybeans, corn, sweet potatoes, forestry, and in 
livestock, including poultry.
    Researchers have been constructing the genome maps of 
agriculturally important plants and animals, using experimental data to 
provide more accurate blueprints for identifying key genes involved in 
production. This work is continually ongoing as more and more genome 
sequence data becomes available. It makes the genome sequences much 
easier for researchers worldwide to interpret, use, and turn into 
valuable products. Researchers are also continually improving the 
encyclopedia of all gene functions for all agriculturally important 
species; the encyclopedia is called AgBase and is available at 
www.agbase.msstate.edu. AgBase provides information that has a digital 
code and is used to reverse-engineer the molecular components of 
cellular machines. It is used by researchers worldwide to derive 
knowledge, and thus value, from their massive genomics data sets.
    The work supported by this grant began in fiscal year 2002. The 
appropriation for fiscal year 2002 was $640,000; for fiscal year 2003, 
$715,320; for fiscal year 2004, $640,200; for fiscal year 2005, 
$882,880; for fiscal year 2006, $1,128,600; for fiscal year 2007, $0; 
for fiscal year 2008, $849,015; and for fiscal years 2009 and 2010, 
$797,000 per year. A total of $6,450,015 has been appropriated.
    Research is being conducted at Mississippi Agriculture and Forestry 
Experiment Station sites. Collaboration will be encouraged with 
researchers at Historically Black Colleges and Universities in the 
State. Alcorn State University and the Mississippi University for Women 
have participated in summer programs through this project. The 
researchers also collaborate with the European Bioinformatics 
Institute.
    The project is managed as a competitive grants program. Each 
application is reviewed by an external, nationally recognized panel of 
reviewers. Only projects with superior recommendations are funded.
                     geographic information system
    The objectives of the grant are to build institutional frameworks 
for developing and disseminating geographic and related information to 
local decision-makers and to promote collaborative and innovative 
transfer of geographic information system (GIS) technologies to State 
and local governments and others in the public and private sectors.
    In fiscal year 2009, administration of this project was transferred 
to Pennsylvania State University from the University of Wisconsin. 
Accomplishments in fiscal year 2008 common to all sites include: 
technical assistance in GIS implementation; pilot project 
demonstrations; data automation and database development; consultation 
and advice for local and tribal government; software evaluation and 
development; model development; software and GIS application training; 
satellite telecasts; educational video production; public conference 
and other professional presentations; technical and lay audience 
publications; and provision of information and technical resources 
through the RGIS Web site. The RGIS Web site will be maintained by the 
Chesapeake Penn State University site www.ruralgis.org.
    All sites contribute and participate in the two annual coordinating 
committee meetings; regional GIS meetings and conferences; preparation 
and distribution of the project bulletins; helping to update and 
maintain the project Web site; and coordination and guiding development 
of education modules. The project provided several bulletins and 
education modules for the Cooperative Extension's eXtension community 
of practice called <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0c416d7c4c5f757f7822">[email&#160;protected]</a>
    A few examples of project impacts by site are detailed below:
    Chesapeake--Pennsylvania State University.--Developed a Web 
application that allows farmers to create maps necessary to meet 
regulatory requirements of the Pennsylvania Nutrient Balance Sheets; 
Initiated development of the Pennsylvania One Stop, an online 
application that provides farmers with the ability to develop their own 
conservation and nutrient management plans; Designed a method to assess 
drought vulnerability for Pennsylvania applicable at the field scale 
using local soils, climatic conditions, and crop management factors; 
Evaluated LiDAR data for use in riparian buffer assessment for streams 
by improving channel morphology data, characterization of buffer 
vegetative conditions, and to quantify stream shading conditions; and 
Expanded an educational program called FARMSAFE where FFA students and 
their teachers develop Farm Emergency Response Maps for farmers. They 
learn about farm safety and geospatial technologies. Currently 26 
school districts are participating and using curriculum developed by 
this center.
    South--South Georgia Regional Development Center.--Developed models 
and maps of lands in south Georgia suitable for both development and 
agriculture uses, including land use for bio-energy, land areas in 
which there is suitability for both uses, and land in proximity to 
residential and commercial enterprises where it is prone to loss as a 
prime source of food and energy crops; Developed a first-of-its-kind 
geospatial database template to assist the Georgia Department of 
Community Affairs with gathering complete, topologically sound land use 
reporting from 16 regional development centers across the State; and 
Refined and disseminated the Well and Septic Tank Referencing and 
Online Map (WelSTROM) resource for the mapping and data collection of 
private wells and septic systems as the installations occur.
    Tribal Technical Center (TTC)--Southwestern Indian Polytechnic 
Institute.--The Tribal Technical Center has not yet provided a report 
for 2008 RGIS activities. Key personnel left the project at the 
beginning of the project and considerable time elapsed before they were 
replaced. It is only in recent months that RGIS-TTC has begun to make 
substantive progress toward project goals. In order to allow RGIS-TTC 
sufficient time to meet 2008 goals, TTC requested and received a 1-year 
no-cost extension to the overall RGIS grant. During the spring 2010 
business meeting, members of the consortium will evaluate TTC progress 
and provide a recommendation to the 2008 grant administrative unit--
University of Wisconsin--Madison. It is hoped that TTC will have 
sufficient progress at this time to justify disbursement of the entire 
funds allocated for their purposes. If, however, it appears at that 
time that RGIS-TTC will not be able to expend the funds toward project 
goals, RGIS Administration will submit a request to USDA to reallocate 
funds.
    Grants have been awarded from funds appropriated as follows: fiscal 
year 1990, $494,000; fiscal year 1991, $747,000; fiscal years 1992 and 
1993, $1,000,000 per year; fiscal year 1994, $1,011,000; fiscal year 
1995, $877,000; fiscal year 1996, $939,000; fiscal years 1997 through 
1999, $844,000 per year; fiscal year 2000, $850,000; fiscal year 2001, 
$1,022,745; fiscal year 2002, $1,199,000; fiscal year 2003, $1,390,900; 
fiscal year 2004, $1,431,504; fiscal year 2005, $1,702,272; fiscal year 
2006 $1,783,980; fiscal year 2007, $0; fiscal year 2008, $1,328,634; 
and fiscal years 2009 and 2010, $1,248,000 per year. A total of 
$21,805,035 has been appropriated. This project was funded under 
research Federal Administration through fiscal year 2004. In fiscal 
year 2005, these funds were awarded as a Special Research Grant.
    The National Consortium for Rural Geospatial Innovations in America 
is administratively centered at Pennsylvania State University at 
University Park and functions as one of the Chesapeake Centers.
    The South Georgia Center in Valdosta, Georgia, works in affiliation 
with the South Georgia Regional Development Center.
    The Mid-South Center, in Fayetteville, Arkansas, works in 
affiliation with the University of Arkansas.
    The Pacific Northwest Center works in affiliation Central 
Washington University and the Yakima Nations.
    The Great Plains center in Grand Forks, North Dakota, works in 
affiliation with the University of North Dakota.
    Native American communities are being reached through the 
Southwestern Indian Polytechnic Institute Tribal Technical Center in 
Albuquerque, New Mexico.
    Beginning in 1995, the program was externally reviewed by local 
advisory committees and qualified professionals inside and outside of 
government with comments and suggestions sent to the agency to assist 
with the merit reviews. A 2-day review of the program was conducted in 
November 2002 by the NIFA personnel in conjunction with a satellite 
training broadcast of Geographic Information Systems technologies to 
tribal colleges. In December 2003, an independent group of peers did a 
comprehensive review of project activities over the last 5 years. The 
program was found to be making progress towards objectives and 
producing useful documents for their clientele. In fiscal year 2006, 
the project conducted a stakeholder survey to assess the achievement 
and impacts of RGIS directly.
               global change and uv monitoring, colorado
    The objective of this grant is the establishment of a 
climatological network to monitor ultraviolet radiation at the surface 
of the earth.
    Instruments have been deployed and are currently in operation at 36 
monitoring sites across the 50 United States and Canada. Data are 
available within 24 hours of measurement, via the Web, and are used by 
many Federal agencies and university researchers. In 2009, the 
project's Web site increased its capability to provide users with 
graphical displays for some data. Some project funds are expended each 
year to partially support studies by researchers across the country to 
address plant, animal, and ecological impacts from ultraviolet 
exposure. This, of course, represents a small fraction of all the 
scientific studies being conducted with these data by the broader 
scientific community. The lead scientist is developing an integrated 
impact assessment model that couples climate, radiation, crop models, 
and local weather conditions to predict and understand climate-crop 
interactions. Recent model results demonstrate geospatially dispersed 
effects of combined ultraviolet radiation and temperature increases on 
the productivity of cotton cropland across the United States. Model 
results for corn crops will be available by the middle of 2010.
    The work supported by this grant began in fiscal year 1992, and the 
appropriation for fiscal years 1992-1993 was $2,000,000 per year; 
fiscal year 1994, $1,175,000; fiscal year 1995, $1,625,000; fiscal year 
1996, $1,615,000; fiscal year 1997, $1,657,000; fiscal years 1998-2000, 
$1,000,000 per year; fiscal year 2001, $1,430,845; fiscal year 2002, 
$1,402,000; fiscal year 2003, $2,235,375; fiscal year 2004, $2,000,129; 
fiscal year 2005, $1,984,000; fiscal year 2006, $2,162,160; fiscal year 
2007, $0; fiscal year 2008, $1,610,646; and fiscal years 2009 and 2010, 
$1,408,000 per year. A total of $28,713,155 has been appropriated.
    Colorado State University manages the operating network, which 
includes fully instrumented sites across the continental United States, 
and in Hawaii, Alaska, Puerto Rico, and New Zealand. Ultraviolet 
radiation effects work is conducted at collaborator laboratories across 
the United States. Isolated experiments on ultraviolet effects are 
conducted at various university and government laboratories across the 
country.
    The agency has assigned two technical staff to continuously monitor 
activities in the global change research program. Agency staff 
scientists are in contact with the principal researchers on a monthly 
basis. A review of the Ultraviolet Radiation Monitoring Program by a 
panel of technical experts from outside the Department was completed in 
April 2001, and their report is available. Agency staff met with 
program staff in January 2002 to discuss implementation of review panel 
recommendations. In 2004, the project's principal researchers developed 
a 5-year strategic plan for monitoring and research, which has been 
reviewed and approved by agency technical staff; this plan is updated 
annually to keep it current. Each year, the project's principal 
researchers meet with the agency administrator and other staff to 
evaluate project objectives, approaches, and impacts. In 2008, funds 
were awarded to the institution competitively though a request for 
applications and a peer-review process.
                    grain sorghum, kansas and texas
    The objective of the grant is to identify and use germplasm to 
develop grain sorghum cultivars that both mature earlier and produce 
more grain.
    In 2009, research in this project has improved understanding of the 
mechanisms of drought tolerance in sorghum. Field research with 
genetically diverse sorghum lines under different conditions revealed 
that leaf temperature and slow wilting are the best measurable 
indicators of superior end-of-season yields under drought stress. These 
traits are known to be related to plant water use efficiency. 
Researchers are using the technique of association mapping with these 
same lines, to identify the genes that help sorghum use water 
efficiently. Breeders will then be able to use these genes in marker-
assisted breeding to develop sorghum lines that are even more drought 
tolerant.
    The work supported by this grant began in fiscal year 1997, and the 
appropriation for fiscal years 1997-2000 was $106,000 per year; for 
fiscal year 2001, $105,767; for fiscal year 2002, $104,000; for fiscal 
year 2003, $139,040; for fiscal year 2004, $124,262; for fiscal year 
2005, $135,904; for fiscal year 2006, $728,640; for fiscal year 2007, 
$0; for fiscal year 2008, $548,136; for fiscal year 2009, $515,000; and 
for fiscal year 2010, $1,000,000. A total of $3,824,749 has been 
appropriated.
    The research is conducted at Kansas State University, Texas Tech 
University, and Texas A&M University.
    The project is subjected to peer review by the recipient 
institution, as well as review by senior agency technical staff. In 
addition, stakeholder input was obtained through formal and informal 
methods. The project was reviewed as part of the agency review of the 
Kansas State University Agronomy Department.
  grass seed cropping for sustainable agriculture, idaho, oregon, and 
                               washington
    The objectives of this grant are to: develop sustainable grass seed 
cropping systems that optimize economic seed production with maximum 
energy and resource conservation and maintain or improve environmental 
quality; develop economic utilization of grass seed production by-
products in agriculture; and develop maximum genetic and biological 
potential of seed.
    The work supported by this grant began in fiscal year 1994 with an 
appropriation of $470,000; fiscal years 1995-2000, $423,000 per year; 
fiscal year 2001, $422,069; fiscal year 2002, $414,000; fiscal year 
2003, $454,030; fiscal year 2004, $406,587; fiscal year 2005, $450,368; 
fiscal year 2006, $445,500; fiscal year 2007, $0; fiscal year 2008, 
$332,655; and fiscal years 2009 and 2010, $313,000 per year. A total of 
$6,559,209 has been appropriated.
    The research is conducted at State agricultural experiment stations 
in Idaho, Oregon, and Washington.
    Additional work is expected to address some of the most difficult 
issues, such as breeding new cultivars to address changing needs and 
developing markets for the unburned crop residue. That work is now 
underway.
    This program is subject to an annual comprehensive evaluation by a 
team of peer scientists, industry representatives, and farmers. The 
results are used to guide research for the next year. Each proposal 
undergoes merit review at the performing institution and is reviewed by 
senior agency technical staff. The program was subjected to a 
comprehensive review in December of 2000, which focused on the program 
objectives and priorities. A site visit and review of progress was 
conducted in 2003.
                    high performance computing, utah
    The objective of this grant is to extend the use and applications 
of high performance computing to the agricultural research community by 
producing a virtual, scalable infrastructure for agricultural 
researchers, and developing a new parallel approach to population 
genetics and phylogeography on this infrastructure.
    During 2006, Utah State University organized and sponsored a 
national symposium on high performance computing for the agricultural 
research community with a technical and educational program; a similar 
meeting was held in 2009. Researcher-focused seminars and workshops 
were held in 2008 and 2009 to help faculty and graduate students 
develop knowledge and skills related to high-performance computing and 
to help them initiate projects. Investigators have completed testing of 
a regional climate model for snowpack, and the simulation and analysis 
of climate impacts on agricultural water use have been completed.
    The work supported by this grant began in 2006 under the Advanced 
Computing Research and Education grant with an appropriation of 
$539,550; and in fiscal year 2007, $0. In fiscal year 2008, the project 
was renamed High Performance Computing with an appropriation of 
$521,333; in fiscal year 2009, $525,000; and in fiscal year 2010, 
$263,000. A total of $1,848,883 has been appropriated for this program.
    The program is carried out at Utah State University.
    The project is subject to a thorough institutional peer review 
during preparation of the grant proposal. Submitted proposals undergo 
merit review by one or more agency scientists. The principal researcher 
meets annually with agency staff wherein project objectives, plans, and 
accomplishments are discussed. An agency scientist made an on-site 
visit to the project in 2009.
                       human nutrition, louisiana
    The objective of this grant is to understand differences in fat 
storage and how this information can be applied to terminating the 
current fattening of America.
    Previous work evaluated the effects of high and low protein diets 
in normal and overweight men and women at both low and high levels of 
physical activity and energy intake using gene expression and muscle 
metabolism, in vitro to explore the metabolism, and genetic basis of 
the responses to intakes of these diets. Weight gain with the low 
protein diet was significantly less than with higher protein diets, but 
the fat storage was identical between the groups. These results are 
noteworthy in that from a nutritional point of view it means that 
interpreting weight changes in people with different protein intakes is 
not simple and suggests that additional measures may be needed to 
adequately interpret such data. Currently, this research has two 
projects underway. The first, the study of variability of food intake 
in dietitians is based on a demonstration of corrective signals for 
feeding that operate over 3- to 4-day intervals in relatively sedentary 
women. The second, the study of the interaction of dietary fat and 
carbohydrates examines whether a high fat diet enhances liver fat and 
decreases insulin sensitivity over 3- to 4-day intervals and if this 
effect is exaggerated by the type of monosaccharide, such as fructose 
or glucose, in the diet.
    The work supported by this grant began in fiscal year 1991, and the 
appropriation for fiscal years 1991-1993 was $800,000 per year; for 
fiscal years 1994-2000, $752,000 per year; for fiscal year 2001, 
$750,346; for fiscal year 2002, $800,000; for fiscal year 2003, 
$794,800; for fiscal year 2004; $711,776; for fiscal year 2005, 
$706,304; for fiscal year 2006, $698,940; for fiscal year 2007, $0; for 
fiscal year 2008, $526,290; and for fiscal year 2009, $494,000; and for 
fiscal year 2010, $526,000. A total of $13,672,456 has been 
appropriated.
    Research is conducted at the Pennington Biomedical Research Center, 
a unit of the Louisiana State University.
    A scientific and independent peer-review was conducted by a panel 
of three reviewers from the Pennington Biomedical Research Center, 
Baton Rouge, Louisiana, and two external reviewers according to the 
USDA guidelines on May 20, 2009. In addition, progress is evaluated 
through the review of annual reports by NIFA National Program Leaders.
                       human nutrition, new york
    The objective of the grant is to support new multi-investigator 
collaborative research projects that integrate approaches in genomics, 
nutritional biochemistry, and human metabolism to address fundamental 
questions in human nutrition and health. Research focuses on the use of 
stable isotope approaches to understand human nutrient dynamics at the 
whole body and cellular level in healthy humans.
    Work on the current human nutrition research projects that focus on 
the key nutrients calcium, iron and choline began in fiscal year 2009. 
Studies to measure calcium, vitamin D, related hormones and bone 
turnover markers in pregnant teens to determine how these factors are 
associated with fetal bone growth and maternal bone loss across 
pregnancy are nearing completion. Researchers have found that vitamin D 
insufficiency is prevalent in minority adolescents and their newborns 
at delivery and that suboptimal vitamin D status is associated with a 
significantly lower birth weight in the newborn infant. Maternal 
vitamin D insufficiency was also found to have a significant negative 
impact on fetal bone growth. These results are being written for 
publication. Human nutrition studies of choline requirements during 
pregnancy are completing data collection. Analysis of the data is 
underway.
    Grants have been awarded from funds appropriated as follows: fiscal 
year 1989, $450,000; fiscal years 1990-1991, $556,000 per year; fiscal 
years 1992-1993, $735,000 per year; fiscal year 1994, $691,000; fiscal 
years 1995 through 2000, $622,000 per year; fiscal year 2001, $620,632; 
fiscal year 2002, $609,000; fiscal year 2003, $571,163; fiscal year 
2004, $546,755; fiscal year 2005, $580,320; fiscal year 2006, $574,200; 
fiscal year 2007, $0; and fiscal year 2008, $402,165; and fiscal years 
2009 and 2010, $377,000 per year. A total of $12,113,235 has been 
appropriated.
    Research is being conducted at Cornell University, New York.
    The proposal that was received for fiscal year 2009 was subjected 
to independent peer review as required by the Cornell University 
Agricultural Experiment Station. The process followed guidelines issued 
by that office and entailed complete review of the proposal by two 
Cornell faculty members external to the Division of Nutritional 
Sciences. The proposal that is being prepared for fiscal year 2010 is a 
continuation that is subject to an internal review by NIFA staff.
                      hydroponic production, ohio
    The objective of the grant is to expand hydroponic production 
technology with new growers and new crops using energy efficient 
greenhouses and Internet decision support tools and have year-round 
availability of locally grown, high-quality vegetable and floriculture 
crops for all consumers.
    Significant progress has been made in the areas of economic 
analyses to enable producers to make fiscally sound decisions on choice 
and operation of production facilities, cropping patterns, and 
marketing decisions. This information has been provided to the user 
community in easily accessible formats, including demonstration 
greenhouses at Toledo, printed information, Web-based information, and 
conferences. There is continuous, ongoing testing and demonstration of 
improved technology including determination of the economic feasibility 
of using the new technology systems. A Web-based grower information 
system with interactive decision model for growing hydroponic tomatoes, 
which is available at www.oardc.ohiostate.edu/hydroponics/drake/
index.php, was developed and is continuously updated and modified. 
Demonstration and outreach activities are assisting growers in 
expanding markets and marketing organizations for hydroponic-grown 
crops; refining Internet decision support tools; designing and 
demonstrating new, economical, energy efficient production systems; 
investigating the feasibility of new crops for hydroponic production 
methods; and conducting research on and demonstrating safe, effective 
integrated pest management practices for hydroponic production systems. 
Vegetable growers in Ohio and abroad were provided with technical, 
cultural, and marketing support through one-on-one consultations and 
site visits, telephone and e-mail communications, a monthly greenhouse 
newsletter, a Web site, as well as through support for the grower-led 
organization, the Great Lakes Hydroponic Association.
    The work supported by this grant began in fiscal year 1998, and the 
following amounts have been appropriated: in fiscal year 1998, 
$140,000; in fiscal years 1999 and 2000, $200,000 per year; in fiscal 
year 2001, $99,780; in fiscal year 2002, $100,000; in fiscal year 2003, 
$99,350; in fiscal year 2004, $178,938; in fiscal year 2005, $178,560; 
in fiscal year 2006, $177,210; in fiscal year 2007, $0; in fiscal year 
2008, $132,069; and in fiscal years 2009 and 2010, $124,000 per year. A 
total of $1,753,907 has been appropriated.
    The research is being conducted by the Food, Agricultural, and 
Biological Engineering, the Ohio State University Agricultural Research 
Center, Wooster, Ohio; the Ohio State University Extension Commercial 
Business Enhancement Center, Bowling Green, Ohio; and at the Toledo 
Botanical Garden, Toledo, Ohio.
    Each year, the performing institution conducts an internal peer 
review of the proposal. In addition, the agency conducts a merit review 
of each new proposal. To date, satisfactory progress towards 
accomplishing project goals and objectives has been made.
           improved dairy management practices, pennsylvania
    The objective of this grant is to research new technologies and 
management practices that will help Pennsylvania dairy operations 
become more profitable and sustainable.
    Feed represents the largest and most variable cost for dairy 
producers. Therefore, the productivity and profitability of every 
commercial dairy farm depends on the efficient use of feed, with the 
goal of achieving the highest output of milk with the minimum input of 
feed. New feeding strategies are needed to improve feed efficiency in 
dairy cattle. To this end, the research in this project seeks a better 
understanding of the natural biological rhythms in dairy cattle. This 
information will enable researchers to test different feeding regimens 
and find ways to produce more milk with less feed. In addition to 
improved productivity and profitability, enhanced feed efficiency has 
the potential to decrease the production of greenhouse gases by dairy 
cattle and thus lessen their local, regional and global contributions 
to climate change.
    The work supported by this grant began in fiscal year 1992, and the 
appropriation for fiscal years 1992 and 1993 was $335,000 per year; 
fiscal year 1994, $329,000; fiscal years 1995-2000, $296,000 per year; 
fiscal year 2001, $397,124; fiscal year 2002, $389,000; fiscal year 
2003, $397,400; fiscal year 2004, $354,894; fiscal year 2005, $352,160; 
fiscal year 2006, $348,480; fiscal year 2007, $0; fiscal year 2008, 
$259,173; and fiscal years 2009 and 2010, $243,000 per year. A total of 
$5,759,231 has been appropriated.
    This research is being carried out at the Pennsylvania State 
University.
    The submitted proposal for this new project was critically reviewed 
by the National Program Leader of NIFA in the summer of 2009.
                   improved fruit practices, michigan
    The objective of this grant is to reduce the chemical contamination 
of the environment during protection from pests in fruit production and 
improve production practices for beans and beets through multi 
disciplinary research, including genetic resistance, pesticides, and 
the development of new nonchemical production methods.
    Field studies are being conducted to determine optimum nitrogen 
application rates for sugar beet. This project has played a crucial 
role in the development, registration, and expanded use of mating 
disruption products for Michigan apples and peaches. The use of this 
technique has greatly improved the control of codling moth, a key pest 
of apples. The technique involves spraying a chemical that interferes 
with moth mating. The spray does not leave toxic residue on the fruit 
and does not harm beneficial organisms. Use of the technique has 
reduced fruit injury and provided increased revenues of $20 to $100 per 
acre. To reduce costs of application and effectiveness of the technique 
to control key fruit pests, pheromone delivery and application 
technologies are being developed. Reducing the reliance on broad 
spectrum pesticides in the production of fruit has been a focal point 
of this project. By incorporating reduced risk control options into 
their integrated pest management programs, Michigan apple producers 
have been able to reduce insecticide and miticide use by an average of 
28 percent. This includes a 20 percent and 37 percent reduction in the 
use of organophosphate and carbamate compounds, respectively. Insect 
trapping technologies are now finding application to protect Michigan's 
cherry crop. Traps provide an alternative to insecticide use. Using 
traps on the crop has saved the industry as much as $700,000 per 
growing season.
    The work supported by this grant began in fiscal year 1994. The 
appropriation for fiscal year 1994 was $494,000; for fiscal years 1995 
2000, $445,000 per year; for fiscal year 2001, $444,021; for fiscal 
year 2002, $239,000; for fiscal year 2003, $237,447; for fiscal year 
2004, $211,743; for fiscal year 2005, $210,304; for fiscal year 2006, 
$209,880; for fiscal year 2007, $0; for fiscal year 2008, $156,894; and 
for fiscal years 2009 and 2010, $147,000 per year. A total of 
$5,167,289 has been appropriated.
    Research is conducted by Michigan State University at several of 
its field stations and in grower orchards and fields.
    This project has been subjected to a comprehensive review each 
year. The annual proposals are peer reviewed at the performing 
institution before submission to the agency, and the proposal is then 
reviewed by senior agency technical staff.
        increasing shelf life of agricultural commodities, idaho
    The objective of this grant is to develop a bio-electronic detector 
platform for the detection of staphylococcal microorganisms and 
enterotoxins, which can be applied in food processing and distribution 
systems and that can serve as a model for the development of a sensor 
with broader applications to other pathogens and food contaminants.
    A micro-electronic test chip has been specifically designed and 
manufactured for this purpose; transistor parameters have been defined. 
The electronic test structure fabricated allows surface chemistry data 
to be acquired along with deoxyribonucleic acid binding data. Initial 
experiments captured both live and formalin killed staphylococcus 
aureus from pure cultures. Data obtained using the test chip provide 
information for the design of an intelligent electronic micro-device. 
National Aeronautics and Space Administration's Ultra Low Power 
technology was used to create maximum sensitivity. The transistor 
circuits were completed. The fabrication run was completed, and 
processes for chip cleaning and surface modifications and encapsulation 
were developed. Three electronic sensor platforms have been evaluated 
in food systems. A hand-held, sensitive, enzyme-linked immunomagnetic 
electrochemistry biosensor has been developed and tested for detection 
of microorganisms and toxins in food and water. Silica nanospring mat 
electronic biosensors were fabricated and found useful in sequence 
specific detection of deoxyribonucleic acid. The third platform is 
nanowire-based field effect transistor devices for label free and 
ultra-sensitive electronic biodetection. Conjugated gold nanoparticle 
technology has been explored to knock down genes for improving shelf-
life of meat through pre-harvest regulation or post-harvest fatty acid 
oxidation.
    The work supported by this grant began in fiscal year 2002. The 
appropriation for fiscal year 2002 was $640,000; $789,833 in fiscal 
year 2003; $706,805 in fiscal year 2004; $822,368 in fiscal year 2005; 
$854,370 in fiscal year 2006; $0 in fiscal year 2007; $642,471 in 
fiscal year 2008; and $603,000 per year in fiscal years 2009 and 2010. 
A total of $5,661,847 has been appropriated.
    The primary research is conducted at the University of Idaho 
Research Park in Post Falls and in the Department of Microbiology, 
Molecular Biology, and Biochemistry, and Department of Chemical and 
Materials Engineering on the Moscow campus of the University of Idaho. 
Limited supplementary works, including microchip fabrication and some 
tests, are conducted at the chosen collaborators' locations.
    An agency scientist conducts a merit review of the proposal 
submitted in support of the appropriation on an annual basis. A review 
of the proposal for fiscal year 2009 was conducted on June 25, 2009. 
The research team is a multi-disciplinary group consisting of molecular 
biologists, electronic designers, organic chemists, solid state 
physicists, microbiologists, material engineers, and food scientists. 
The feasibility of a successful completion of the proposed tasks is 
good.
                 infectious disease research, colorado
    The objective of this grant is to initiate, conduct, and promote 
research activities that have impacts on trade issues; use a 
multidisciplinary, integrated approach to monitor for diseases; 
prioritize critical research needs through stakeholder advisory groups; 
and provide outreach and graduate student training.
    The investigators have contributed to the diagnosis and preventive 
policy for several economically important diseases such as Vesicular 
Stomatitis, Bovine Tuberculosis, Johne's Disease, Brucellosis, Bovine 
Spongiform Encephalopathy, Foot and Mouth Disease, and Bovine Viral 
Diarrhea. Research results have been made available directly to the 
stakeholders for immediate implementation through an advisory group, as 
well as a Web site. Antimicrobial drug use and antimicrobial resistance 
research has been conducted to investigate appropriate methods to 
evaluate antimicrobial resistance through time. Furthermore, industry, 
international, veterinary, and traditional students from diverse 
disciplines have received advanced short-term or long-term training in 
animal diseases, health and food safety.
    The work has been underway since 1999 with an initial appropriation 
of $250,000. Since that time appropriations have been made as follows: 
$255,000 for fiscal year 2000; $299,340 for fiscal year 2001; $640,000 
for fiscal year 2002; $745,125 for fiscal year 2003; $667,041 for 
fiscal year 2004; $777,728 for fiscal year 2005; $808,830 for fiscal 
year 2006; $0 for fiscal year 2007; $608,709 for fiscal year 2008; 
$572,000 for fiscal year 2009; and $650,000 in fiscal year 2010. A 
total of $6,273,773 has been appropriated.
    The work is being conducted on the campus of Colorado State 
University located at Fort Collins by the College of Veterinary 
Medicine and Biomedical Sciences.
    The NIFA National Program Leader from the agency hosted a meeting 
with the Project Director in Washington, DC in March 2007 and has met 
with him at various professional meetings on a regular basis since 
then. In addition, the project advisory committee conducted a program 
review in February-March 2005. The progress and accomplishments were 
found to be consistent with the goals of the project. The fiscal year 
2010 proposal was institutionally reviewed by Colorado State 
University, as well as by a NIFA National Program Leader.
   initiative to improve blueberry production and efficiency, georgia
    The objective of this grant is to develop a variety of blueberry 
cultivars with high fruit quality with regards to flavor, storage, and 
shipping.
    In the first year of the project, field trials were established on 
University of Georgia research farms and at grower test sites. The 
trials consisted of standard cultivars and advanced selections from the 
University of Georgia blueberry breeding program. The field trials 
included both rabitteye and southern highbush selections. Various fruit 
and plant attributes were evaluated.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $223,425; and $209,000 per year for 
fiscal years 2009 and 2010. A total of $641,425 has been appropriated.
    A merit review of the application was conducted in 2010.
                  inland marine aquaculture, virginia
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $400,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.
          institute for food science and engineering, arkansas
    The objective of the grant is to provide a mechanism for the 
University of Arkansas to utilize its multidisciplinary research 
expertise to offer an integrated approach to developing and 
disseminating scientific information associated with production, value-
added processing, safety, nutritional value, packaging, storage, and 
distribution of food products.
    The Institute for Food Science and Engineering seeks to strengthen 
existing partnerships and develop new partnerships and alliances with 
the State, regional, national food industry, government, and academic 
institutions, while providing an appropriate balance of fundamental and 
applied research in program areas that are critical to the food 
processing industries in Arkansas, the region, and the Nation. New 
production, processing, and packaging technologies are developed and 
promoted to enhance product quality and ensure safety throughout the 
food chain from production to consumption. Technology transfer efforts 
assist the food industry in developing value-added, high-quality 
products that are safe, appealing, and healthy. Appropriate technology 
transfer methods are used to communicate research findings, developing 
a nationally and internationally recognized industry outreach program.
    The work supported by this grant began in fiscal year 1996. The 
appropriation for fiscal years 1996 and 1997 was $750,000 each year; 
$950,000 for fiscal year 1998; $1,250,000 each year for fiscal years 
1999-2000; $1,247,250 for fiscal year 2001; $1,222,000 in fiscal year 
2002; $1,214,057 for fiscal year 2003; $1,086,551 for fiscal year 2004; 
$1,110,048 for fiscal year 2005; $1,107,810 for fiscal year 2006; $0 
for fiscal year 2007; $825,183 for fiscal year 2008; and $775,000 per 
year for fiscal years 2009 and 2010. The total appropriation was 
$14,312,899.
    This project was evaluated in September 2009 by NIFA staff and the 
reviews indicated that the faculty and facilities were adequate, and 
the proposal was sound.
   integrated economic and technical analysis of sustainable biomass 
                        energy systems, indiana
    The objective of this grant is to conduct economic and 
environmental analyses to assist Indiana and the Midwest in producing 
and using renewable energy and how biomass production and conversion 
affects the economy, environment and ecosystems of the region.
    The original goal of this research is to conduct economics and 
environmental analyses. The economic analysis is using three different 
economic modeling tools that capture the uncertainty in oil price and 
other economic variables and simulation of the impacts of different 
biofuels policy options and oil prices on ethanol production. The 
policies being considered are the fixed biofuel subsidy, a variable 
subsidy that fluctuates with the price of oil, the Renewable Fuel 
Standard, and greenhouse gas policies. This project is also examining a 
model used to simulate global impacts of domestic and European Union 
biofuels programs. Technology options include cellulose conversion via 
biochemical processes and via thermochemical processes. The economic 
analyses are under development by building spreadsheet models for each 
of the major technology paths and policy options. The environmental 
analysis will include data collection and analysis of field trials 
using big bluestem, miscanthus, switchgrass, sorghum, and corn grown in 
rotation with soybean and continuous corn. All experimental treatments 
have been established at the primary experimental site including 
transplanting Miscanthus rhizomes and removal of residues from corn and 
sorghum residue removal treatments. All monitoring equipment has been 
installed and calibrated to study grain and total above ground dry 
matter yields as a function of nitrogen fertilizer rate and dissolved 
organic carbon content in drainage water and weekly assessment of 
greenhouse gas emissions. Compositional analysis of all plant issues 
has been initiated.
    Fiscal year 2009 was the first year that funds were appropriated 
for this grant. An amount of $188,000 per year was appropriated in 
fiscal years 2009 and 2010. The total appropriation is $376,000.
    The work is being carried out at Purdue University and at the 
Purdue University Water Quality Field Station.
    Fiscal year 2009 was the first year that funds were appropriated 
for this grant. An agency evaluation will be conducted when the 
proposal for fiscal year 2010 is submitted.
                       integrated pest management
    The objective of this grant is to develop new approaches for 
managing critical pest problems in agricultural production systems and 
urban environments. Integrated pest management systems are developed to 
enhance or maintain profitability, protect human health and the 
environment, manage invasive pest species, and serve as a replacement 
for management tools lost as a result of regulatory action, pest 
resistance, and other factors.
    The investment of research grant funds in these projects has 
resulted in the development of many new pest management tools and a 
reduction in the economic, health, and environmental risks associated 
with agricultural production. Recent examples of contributions made by 
this research program include the development of new management 
approaches for peach brown rot, rice stink bug, and grape berry moth.
    The work supported by this grant began in fiscal year 1981, and the 
following amounts have been appropriated: in fiscal year 1981, 
$1,500,000; in fiscal years 1982-1985, $3,091,000 per year; in fiscal 
years 1986-1989, $2,940,000 per year; in fiscal year 1990, $2,903,000; 
in fiscal year 1991, $4,000,000; in fiscal years 1992 and 1993, 
$4,457,000 per year; in fiscal year 1994, $3,034,000; in fiscal years 
1995-2000, $2,731,000 per year; in fiscal year 2001, $2,724,992; in 
fiscal year 2002, $2,725,000; in fiscal year 2003, $2,707,288; in 
fiscal year 2004, $2,438,527; in fiscal year 2005, $2,419,488; in 
fiscal years 2006 and 2007, $2,395,800 per year; in fiscal year 2008, 
$2,379,228; in fiscal year 2009, $2,379,000; and in fiscal year 2010, 
$2,415,000. A total of $85,841,123 has been appropriated since fiscal 
year 1981.
    Researchers from all land-grant universities are eligible to 
compete for this funding. In fiscal year 2009, the following 15 
institutions received funding from this competitive grants program: 
Clemson University, Cornell University, Idaho State University, 
Louisiana State University, Michigan State University, Montana State 
University, North Carolina State University, Ohio State University, 
Oregon State University, Purdue University, the University of Florida, 
the University of Georgia, the University of Massachusetts, the 
University of Maine, and Washington State University.
    The agency has established a comprehensive annual process to 
identify meritorious projects through a competitive process that 
evaluates relevance to stakeholder needs and technical merit. All 
proposals undergo technical and merit review at the institutional and 
regional levels. All proposals are reviewed by a panel of experts to 
identify those that are both highly relevant and technically sound. 
Senior agency technical staff evaluates proposals and make 
recommendations based on the evaluation of the peer review panel. The 
agency's technical staff also reviews annual and final reports to 
evaluate accomplishments and to determine whether project objectives 
are being achieved. The program was reviewed by an external panel in 
February 2006 as part of a broader stakeholder review of the agency's 
Regional Integrated Pest Management Centers program.
                integrated production systems, oklahoma
    The objectives of this grant are to develop organic production 
techniques for crops in Oklahoma, and to characterize changes in market 
prices at regional terminal markets and develop potential market 
opportunities.
    Recent work includes a project to determine activity and 
effectiveness of organic pesticides for managing harlequin bugs on 
brassica crops. Three studies were conducted on the use of cucurbit 
crop planting systems following a rye cover crop for their impact on 
weed control. Another study was conducted on corn gluten meal for weed 
control in southern peas. Cultivar trials were conducted with 18 
cultivars of tomatoes grown under certified National Organic Program 
protocols. Twelve cultivars of cantaloupe were also grown in a soil 
fertility study comparing conventional synthetic fertilizers with 
organic poultry litter fertilizers. In another study, the effectiveness 
of conventional versus organic vegetable production systems was 
examined. Results of these studies have been published in journals and 
Oklahoma State University variety trial publications and presented at 
field days.
    Work supported by this grant started in fiscal year 1984, and the 
appropriations were: fiscal year 1984, $200,000; fiscal year 1985, 
$250,000; fiscal year 1986, $238,000; fiscal years 1987-1989, $188,000 
per year; fiscal years 1990-1991, $186,000 per year; fiscal year 1992, 
$193,000; fiscal year 1993, $190,000; fiscal year 1994, $179,000; 
fiscal years 1995-1998, $161,000 per year; fiscal years 1999-2000, 
$180,000 per year; fiscal year 2001, $179,604; fiscal year 2002, 
$176,000; fiscal year 2003, $231,486; fiscal year 2004, $206,773; 
fiscal year 2005, $205,344; fiscal year 2006, $252,450; fiscal year 
2007, $0; fiscal year 2008, $187,677; and fiscal years 2009 and 2010, 
$177,000 per year. A total of $4,983,334 has been appropriated.
    This research is being conducted at the Wes Watkins Agricultural 
Research and Education Center at Lane, Oklahoma. This facility is 
operated by the Oklahoma State Agricultural Experiment Station.
    Each of the annual project proposals was subjected to peer review 
by the performing institution and was evaluated by senior agency 
technical staff.
              international arid lands consortium, arizona
    The objective of this grant is to develop an ecological approach to 
multiple-use management and sustainable use of arid and semi-arid 
lands.
    The Consortium has conducted research and development, educational 
and training initiatives, demonstration projects, workshops and other 
technology transfer activities applied to the development, management, 
restoration, and reclamation of arid and semi-arid land in North 
America, the Middle East, and elsewhere in the world. All activities 
are supported by member institutions through their ongoing applied 
research and demonstration projects. The IALC was authorized by 
Congress in 1990. During the past 20 years, the IALC has funded 91 
research projects, 30 demonstration projects, 11 special initiatives; 
administered a successful 7-year IALC-USAID (U.S. Agency for 
International Development) cooperative agreement in Central Asia and 
the Middle East; and sponsored 20 undergrad and grad students through 
the IALC Peace Fellowship program. Selected project topics over the 
past 20 years include: conservation; water quality; irrigation; GIS 
(Geographic Information System) and remote sensing; ecology; 
agriculture; wildlife management; rangeland management; wastewater; and 
biodiversity. IALC outputs from projects include: journal articles; 
books; doctoral dissertations; presentations; Web sites; and many 
others. Most IALC projects have taken place in the Southwestern United 
States and in the Middle East. Four highlights from the fiscal year 
2008-2009 projects funded by NIFA include: (1) Fire in Chihuahuan 
Desert Grasslands: Effects on Soil Biota and Nutrient Cycling; (2) Pine 
Expansion in Arid Land: Fire Effects on Safe Site Abundance; (3) Post-
Fire Vegetation Recovery: Impacts of Restoration and Environment; and 
(4) Runoff, Flood, and Non-sewage Wastewater for Native Tree 
Propagation: Anaerobic Sewage Treatment for Sustainable Water 
Reclamation in Jordan.
    The International Arid Lands Consortium was incorporated in 1991. 
Funds were appropriated to the Forest Service in 1993. Additional funds 
were received during each of the years that followed. For fiscal years 
1994-1998, $329,000 per year; for fiscal years 1999 and 2000, $400,000 
per year; for fiscal year 2001, $493,911; for fiscal year 2002, 
$484,000; for fiscal year 2003, $513,640; for fiscal year 2004, 
$581,549; for fiscal year 2005, $579,328; for fiscal year 2006, 
$573,210; for fiscal year 2007, $0; for fiscal year 2008, $426,990; and 
for fiscal years 2009 and 2010, $401,000 per year. Total appropriations 
are $6,899,628.
    Research is currently being conducted at the University of Arizona; 
South Dakota State University; Texas Agricultural and Mechanical 
University, Kingsville; New Mexico State University; University of 
Illinois; Nevada's Desert Research Institute; and several research and 
higher education institutions in Israel, Jordan, and Egypt.
    The National Program Leader for Rangeland and Grassland Ecosystems 
communicates regularly with the project director and attended the Board 
of Directors meeting held in spring 2009. The research conducted under 
this grant is progressing satisfactorily and is in accordance with the 
mission of the agency.
                   invasive plant management, montana
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $270,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.
                    ir-4 minor crop pest management
    The objectives of the grant are to obtain and maintain regulatory 
clearances of effective crop protection agents for high value, 
specialty food crops and for minor uses on major crops with special 
emphasis on lower risk chemicals and uses that are compatible with 
integrated pest management programs; to support research to enhance the 
development and registration of bio-pesticides for use in food and non-
food pest management programs; and to support research on crop 
protection products that will expand their uses on ornamental crops to 
allow management of new and important pest species.
    Since the program began, data generated by IR-4 has contributed to 
the approval of over 8,400 food-use and over 10,800 ornamental pest 
management product clearances and registrations. The IR-4 program 
supported clearances accounting for approximately 50 percent of all 
pest management registration packets approved by the EPA between 2001 
and 2004. From 1999 through 2004, IR-4 data packages contributed to the 
registration of 3,780 food-crop products and 3,520 ornamental products, 
which are 46 percent and 32 percent, respectively, of all IR-4 
supported registrations. During calendar year 2008, the EPA reviewed a 
record 41 chemistries for IR-4 Food Use Program tolerance petitions. 
The agency also eliminated the remaining backlog of IR-4 petitions 
making 2008 one of the most productive years for IR-4. Permanent 
pesticide tolerances on these were established on 241 chemicals that 
could result in 999 new specialty crop use registrations, many of which 
are considered reduced risk. IR-4 Ornamental Horticulture Program data 
supported seven new registrations and one registration amendment as 
well as four registrations in California. These IR-4 supported 
successes impacted 3,095 ornamental plant species. The Biopesticide 
Program funded 29 research projects to provide data to support 
expansion on a number of biopesticide registrations. IR-4's efforts 
supported 18 new or modified products which could provide 128 new 
biopesticide uses. IR-4 continued the crop group update by submitting a 
proposal to EPA to expand the tree nut crop group. In 2008, the IR-4 
food crop program consisted of 573 field trials associated with 92 
studies. The IR-4 Ornamental Horticulture program established 1,323 
trials with greenhouse and field ornamental crops in support of company 
registrations decisions. All food use studies are conducted in 
compliance with Federal Good Laboratory Practice Standards. The IR-4 
Quality Assurance Unit conducted 157 field and 73 analytical in-life 
inspections; and audited 651 field data books, 84 analytical summary 
reports, and 97 final or amended reports. In 2008, the Food Use Program 
submitted 151 data packages, involving 36 chemicals, and the Ornamental 
Horticulture Program submitted 12 data packages to registrants.
    Grants have been awarded from appropriated funds as follows: 
Program redirection in fiscal year 1975, $250,000; fiscal years 1976-
1980, $1,000,000 per year; fiscal year 1981, $1,250,000; fiscal years 
1982-1985, $1,440,000 per year; fiscal years 1986-1989, $1,369,000 per 
year; fiscal year 1990, $1,975,000; fiscal year 1991, $3,000,000; 
fiscal years 1992-1993, $3,500,000 per year; fiscal year 1994, 
$6,345,000; fiscal years 1995-1997, $5,710,000 per year; fiscal years 
1998-2000, $8,990,000 per year; fiscal year 2001, $8,970,222; fiscal 
year 2002, $10,485,000; fiscal year 2003, $10,673,171; fiscal year 
2004, $9,549,325; fiscal year 2005, $11,145,120; fiscal years 2006 and 
2007, $10,677,150 per year; fiscal year 2008, $11,367,864; fiscal year 
2009, $12,000,000; and fiscal year 2010, $12,180,000. A total of 
$187,881,002 has been appropriated.
    Field work is performed at locations that meet specific EPA 
requirements for appropriate geographic distribution of locations for 
regulatory data collection. The majority of IR-4 field research is 
conducted at 28 Field Research Centers in the following 20 States: 
California, Colorado, Florida, Hawaii, Idaho, Illinois, Maine, 
Maryland, Michigan, New Hampshire, New Jersey, New Mexico, New York, 
North Carolina, Oregon, South Dakota, Tennessee, Texas, Washington, and 
Wisconsin. In addition, the Agricultural Research Service (ARS) has 
cooperating IR-4 field research sites in California, Georgia, South 
Carolina, Ohio, Oregon, Texas, and Washington. IR-4 laboratory analyses 
are being conducted at Agricultural Experiment Stations in California, 
Florida, Michigan, and New York with assistance from State Agricultural 
Experiment Stations in Hawaii, North Carolina, and Washington. The ARS 
laboratories in Georgia, Maryland, and Washington also cooperate with 
the processing of residue sample analysis. Protocol development, data 
assimilation, writing petitions, and registration processing are 
coordinated through the New Jersey Agricultural Experiment Station.
    Funding applications are reviewed by senior agency technical staff. 
The findings of these reviews indicate progress in achieving the 
objective of providing safe and effective pest management alternatives 
for specialty crops growers. In May 2003, the agency sponsored a peer 
review of the project, which consisted of a science panel composed of 
representatives from the USDA, the EPA, commodity groups, the food 
processing industry, the crop protection industry, and land-grant 
universities. The review committee was asked to examine past IR-4 
accomplishments, review the current organizational structure, 
operations and program, and help chart future directions for the 
program. The review panel report was issued in July 2003 with specific 
comments and recommendations for each of the above areas. The report 
ranked the IR-4 program as outstanding in carrying out its mission of 
facilitating the registration of new pest management products for 
specialty crops. A strategic planning conference was held in December 
2008 to focus on future needs and opportunities. Participants believe 
that maintaining and enhancing the core objectives of the Food Use, 
Ornamental Horticulture, and Biopesticide programs is essential. An 
external peer review was conducted in May 2009.
  joint united states/china biotechnology research and extension, utah
    The objective of this grant is to establish joint programs between 
the United States and China in agricultural biotechnology and related 
areas. Joint research programs will focus on animal models for the 
study of infectious diseases, natural bioactive compound development, 
and cellular communication networks; and agriculturally relevant crops 
and forages; livestock cloning and genetics; water resources; and 
climate change.
    A collaborative project on sheep genomics between Utah State 
University and Yunnan University in Kunming has resulted in the 
training of graduate and post-graduate students with joint publications 
as outcomes.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $446,850; $420,000 in fiscal year 
2009; and $210,000 in fiscal year 2010. A total of $1,076,850 has been 
appropriated.
    The research is being conducted at Utah State University and at 
cooperating institutions in China.
    Senior agency technical staff conduct a merit review of the 
proposal for this research prior to making a funding recommendation. 
The submitting institution conducts a peer review of the proposal prior 
to submission.
                  leopold center hypoxia project, iowa
    The objective of this grant is the development of performance-based 
strategies for improving land management in the Upper Mississippi River 
basin by optimizing agricultural production on specific landscapes, 
facilitating land use change to create ecological buffers and water 
retention areas, and diversifying land use to increase production of 
perennials for bio-based and energy crops.
    Demonstration sites for this project have been established and 
results of water quality improvement are being analyzed. One key issue 
is developing management alternatives for producers. To that end, the 
project continues to explore alternative methods to reduce nutrient 
losses from agriculture.
    The work is being carried out through the Leopold Center for 
Sustainable Agriculture at Iowa State University in Ames, Iowa.
    The project was initiated in fiscal year 2004. The appropriation 
for fiscal year 2004 was $223,673; for fiscal year 2005, $222,208; for 
fiscal year 2006, $219,780; for fiscal year 2007, $0; for fiscal year 
2008, $112,209; and for fiscal years 2009 and 2010, $105,000 per year. 
A total of $987,870 has been appropriated for this project.
    A programmatic review of this project is expected to be conducted 
in 2010. The most recent review was conducted by a NIFA National 
Program Leader who visited the campus at Iowa State University and met 
with project officials in fiscal year 2006. The Project leader met with 
the National Program Leader responsible for oversight of this project 
in 2008.
             livestock and dairy policy, new york and texas
    The objective of this grant is to provide timely and comprehensive 
analysis of numerous policy and technological changes affecting 
livestock and dairy farmers and agribusinesses and advise them and 
policymakers promptly of possible outcomes.
    The program continues to provide timely assessments and evaluations 
of provisions and proposed changes in agricultural policies, the 
General Agreement on Tariffs and Trade, and the North American Free 
Trade Agreement; various income and excise tax measures; and 
alternative pricing measures for milk. Work on most projects continues 
under Project 576. Accomplishments under various sub-projects of 
Project 594 include econometric models of price transmission processes 
in U.S. dairy markets. Both institutions maintain extension outreach 
programs to disseminate results of their analysis throughout the United 
States. They have organized a national Dairy Markets and Policy 
Extension Committee to advise and assist them in this effort. This 
committee was especially helpful to USDA in educating farmers about 
proposed milk marketing order changes last year.
    Grants have been awarded from funds appropriated as follows: fiscal 
year 1989, $450,000; fiscal year 1990, $518,000; fiscal years 1991-
1993, $525,000 per year; fiscal year 1994, $494,000; fiscal years 1995-
1998, $445,000 per year; fiscal year 1999 and 2000, $475,000 per year; 
fiscal year 2001, $568,746; fiscal year 2002, $558,000; fiscal year 
2003, $600,074; fiscal year 2004, $894,690; fiscal year 2005, $892,800; 
fiscal year 2006, $990,000; fiscal year 2007, $0; fiscal year 2008, 
$737,799; and fiscal years 2009 and 2010, $693,000 per year. A total of 
$12,395,109 has been appropriated.
    The research is being conducted at Cornell University and Texas A&M 
University.
    A formal evaluation of this project has not been conducted. Annual 
proposals for funding, however, are peer reviewed for relevance and 
scientific merit. The NIFA contact is also in regular contact with 
principal researchers at each institution to discuss progress toward 
project objectives.
                        maple research, vermont
    The objective of the grant is to investigate several novel maple 
sap vacuum tubing collection systems in order to develop a cost-
effective system that maximizes sap yield.
    Research funded by the USDA Special Grants for Maple since 2005 has 
focused on the effects of sap processing technology on maple syrup 
chemistry and quality. Initial studies during the spring seasons of 
2006 and 2007 examined the impacts of air injection of maple sap and 
concentrate on maple syrup chemical composition and flavor. In general, 
air injection, either of sap or concentrate, results in production of 
maple syrup that is significantly lighter in color, but with relatively 
few other changes of consequence. In 2008, as a result of producer 
desires to reduce energy consumption by further increasing reverse 
osmosis concentration, researchers compared the effects of boiling 8 
degree Brix and 21 degree Brix sap concentrate. In addition to the 
initial ``sweetening'' boil, during the 2009 production season 
researchers were able to complete five test boils in two identical 
syrup evaporators with the different levels of sap concentrate. 
Laboratory analyses of syrup produced in these experiments are ongoing; 
however, it appears that for color grade, trends found in the 2009 
season are similar to those observed in 2008, although syrup is 
produced at a considerably faster rate at higher concentrations.
    Work under this project began in fiscal year 1985. Annual 
appropriations in support of this project are as follows: fiscal year 
1985, $100,000; fiscal years 1986 and 1987, $95,000 per year; fiscal 
years 1988 and 1989, $100,000 per year; fiscal years 1990-1993, $99,000 
per year; fiscal year 1994, $93,000; fiscal years 1995-1997, $84,000 
per year; fiscal years 1998-2000, $100,000 per year; fiscal year 2001, 
$119,000; fiscal year 2002, $120,000; fiscal year 2003, $149,025; 
fiscal year 2004, $133,209; fiscal year 2005, $131,936; fiscal year 
2006, $137,610; fiscal year 2007, $0; fiscal year 2008, $97,314; 
$155,000 in fiscal year 2009; and $165,000 in fiscal year 2010. The 
total appropriation was $2,739,094.
    This research is being conducted at the Proctor Maple Research 
Center at the University of Vermont in Burlington.
    The proposal was evaluated by NIFA Staff in September 2009. 
Approval was granted based on the quality of the proposal, the 
facilities, faculty, and previous Current Research Information System 
(CRIS) reports.
                           meadowfoam, oregon
    The objective of this grant is to increase the productivity and 
profitability of meadow foam as an oilseed crop by developing new 
varieties that out-yield previously grown varieties. Four new 
experimental varieties were developed in 2008-2009 and planted for 
further increase and yield evaluation.
    Breeding and genetics, weed management, and other research 
activities are being carried out in field, greenhouse, and laboratory 
facilities managed by the Department of Crop and Soil Science at Oregon 
State University, Corvallis. Assessment of herbicidal activity of 
glocosinolate derivatives is conducted at the Columbia Basin 
Agricultural Research Center, Pendleon, Oregon.
    The work supported by this grant began in 1999, and the 
appropriation for fiscal years 1999-2000 was $300,000 per year; for 
fiscal year 2001, $299,340; for fiscal year 2002, $293,000; for fiscal 
year 2003, $293,083; for fiscal year 2004, $262,442; for fiscal year 
2005, $259,904; for fiscal year 2006, $257,400; for fiscal year, 2007, 
$0; for fiscal year 2008, $191,649; and for fiscal years 2009 and 2010, 
$180,000 per year. A total of $2,816,818 has been appropriated.
    Evaluation of this project is conducted annually based on the 
annual progress report and discussions with the principal investigator 
as appropriate. In the fall of 2006, a discussion on progress was held 
with the Oregon Meadowfoam Oilseed Growers Association. The evaluation 
is conducted by the National Program Leader for Agricultural Materials 
who has determined that research is progressing and is in accordance 
with the mission of the agency.
                   michigan biotechnology consortium
    The objectives of the grant are to increase the utilization of 
agricultural raw materials; to develop bioprocessing technology to 
manufacture products from agricultural raw materials; to reduce 
agricultural surpluses; and to reduce the need to import foreign 
petroleum, thereby decreasing environmental costs of agricultural 
products and processes.
    Recent accomplishments include identification of a bacterium, 
Actinobacillus succinogenes, capable of utilizing both hexose and 
pentose sugars simultaneously for the production of succinic acid, 
demonstration that this organism is capable of converting hydrolyzed 
raw starch efficiently to succinic acid in a clean-not-sterile 
environment, and demonstration that biomass-derived sugar streams, 
generated through pre-treatment and hydrolysis of corn fiber, can serve 
as sugar sources in succinic fermentations. Additional goals for this 
project include: optimizing the physical, chemical and mechanical 
properties of cellulose in the form of nanowhiskers and microfibrils as 
reinforcement in polymer matrix nanocomposites; developing a 
biodegradable, thermoplastic cellulose polymer based on environmentally 
benign processing techniques; developing a commercially viable process 
for the production of succinic acid from bio-based feedstocks; and 
identifying new commercially attractive biobased technologies. Six 
promising technologies for new biobased products have been identified 
and further research on these technologies is being initiated.
    The work supported by this grant began in fiscal year 1989, and the 
following amounts have been appropriated: in fiscal year 1989, 
$1,750,000; in fiscal year 1990, $2,160,000; in fiscal year 1991, 
$2,246,000; in fiscal years 1992-1993, $2,358,000 per year; in fiscal 
year 1994, $2,217,000; in fiscal year 1995, $1,995,000; in fiscal years 
1996 and 1997, $750,000 per year; in fiscal years 1998-2000, $675,000 
per year; in fiscal year 2001, $723,405; in fiscal year 2002, $481,000; 
in fiscal year 2003, $623,918; in fiscal year 2004, $558,684; in fiscal 
year 2005, $554,528; in fiscal year 2006, $549,450; in fiscal year 
2007, $0; in fiscal year 2008, $409,116; and in fiscal years 2009 and 
2010, $384,000 per year. A total of $23,277,101 has been appropriated.
    This research is being conducted on the campus of Michigan State 
University and at the Michigan Biotechnology Institute. Technology 
demonstrations are occurring throughout the United States.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation. 
The submitting institution conducts a peer review of the proposal prior 
to submission.
             midwest center for bioenergy grasses, indiana
    The objective of this grant is to optimize bioenergy crops for 
their end-use production as biofuels by (1) exploring grass genetics 
for improved feedstock quality and quantity; (2) optimizing biomass 
architecture for end-use production; (3) developing cropping systems 
for plant production, sustainability, and cost efficiency; and (4) 
developing direct-conversion technologies for scalable and distributive 
hydrocarbon refineries.
    Researchers have already engaged growers, ethanol producers, and 
implement companies to work with the research center to test and grow 
feedstocks and produce and assess the resulting ethanol. Test plots to 
determine soil characteristics and long-term sustainability have been 
established.
    Fiscal year 2009 was the first year that funds were appropriated 
for this grant. An amount of $188,000 per year was appropriated for 
fiscal years 2009 and 2010. A total of $376,000 has been appropriated.
    The research is being conducted by Purdue University at regional 
Purdue Agricultural Centers and at Purdue University's Water Quality 
Field Station.
    Evaluation of this project is conducted yearly based on annual 
progress reports and discussions with the principle investigators over 
the course of the year. This project is making progress in accordance 
with the mission of the National Institute of Food and Agriculture.
                    midwest poultry consortium, iowa
    The objective of the grant is to conduct poultry research based on 
current and projected needs of the poultry system in the Midwest.
    The Midwest Poultry Consortium priorities for the poultry industry 
in the Midwest are improving efficiency and sustainability of poultry 
production through integrated, collaborative research and technology 
transfer. This project has focused on identifying biomarkers for 
beneficial traits, mechanisms of muscle growth, and practices to reduce 
malodorous compounds; as well as developed new vaccines and food 
products. It has also developed new regional collaborative approaches 
in research and technology transfer involving land-grant and other 
universities, the Federal Government, and the private sector on 
priority areas of local needs and problems of regional/national scope.
    Research projects supported by this grant began in fiscal year 2002 
with an appropriation of $400,000. This was followed in fiscal year 
2003 with $695,450; in fiscal year 2004, $626,283; in fiscal year 2005, 
$682,496; in fiscal year 2006, $675,180; in fiscal year 2007, $0; in 
fiscal year 2008, $502,458; and in fiscal years 2009 and 2010, $471,000 
per year. The total amount appropriated is $4,523,867.
    Research is conducted by member States of the Midwest Poultry 
Consortium Research, which are: Colorado, Illinois, Indiana, Iowa, 
Kansas, Michigan, Minnesota, Missouri, Nebraska, North Dakota, Ohio, 
South Dakota, and Wisconsin. Experts in other States collaborate on 
projects.
    The progress under each project is reported yearly and found to be 
satisfactory. An annual merit review of projects is provided by staff.
                       milk safety, pennsylvania
    The objective of this grant is to improve the safety of pasteurized 
fluid milk, addressing critical control points from pre-pasteurization 
contamination of milk from the distribution system to the consumer.
    Researchers have gathered preliminary data that uses a general 
approach to identify single nucleotide polymorphisms which may lead to 
a rapid, cost effective method of differentiating E. coli O157:H7 
strains. A bioreporter-based diagnostic test for detection of organic 
toxicants such as benzene, toluene, ethylbenzene, trichloroethylene, 
and xylene directly from milk and milk products was developed. The 
molecular beacon-based real-time Polymerase Chain Reaction assays for 
detection of foodborne pathogens, including Campylobacter jejuni, 
Escherichia coli O157:H7, Listeria monocytogenes, Salmonella, 
Staphylococcus aureus, and bioterrorism agent Bacillus anthracis, were 
developed.
    Grants have been awarded for milk consumption and milk safety from 
funds appropriated as follows: fiscal years 1986-1989, $285,000 per 
year; fiscal year 1990, $281,000; fiscal year 1991, $283,000; fiscal 
year 1992, $284,000; fiscal year 1993, $184,000; fiscal years 1994-
1998, $268,000 per year; fiscal year 1999, $250,000; fiscal year 2000 
$297,500; fiscal year 2001, $374,175; fiscal year 2002, $600,000; 
fiscal year 2003 $745,125; fiscal year 2004, $667,041; fiscal year 
2005, $703,328; fiscal year 2006, $780,120; fiscal year 2007, $0; 
fiscal year 2008, $586,863; fiscal year 2009, $771,000; and fiscal year 
2010, $821,000. A total of $10,108,152 has been appropriated.
    This research is conducted at the Pennsylvania State University, 
State College, Pennsylvania.
    This project was evaluated in April 2009 by NIFA staff using 
Current Research Information System reports and the submitted proposal. 
This review by staff concluded that the Pennsylvania State University 
faculty and facilities are adequate for the successful completion of 
this project.
                         minor use animal drugs
    The objective of this grant is to facilitate the registration 
process for therapeutic compounds in minor food and fiber animal 
species. This cooperative effort between State, Federal and industry 
personnel will obtain minor and specialty animal drug clearances i.e. 
tolerances, exemptions, and registrations. The activities will include 
determining and prioritizing minor use needs and data requirements, 
reviews, analyzes and evaluations of minor use research proposals; 
developing and assembling data for minor use drug registrations; and 
preparing and submitting petitions for drug registrations.
    Currently, data generated through this project has led to improved 
animal health and welfare due to new applications of drugs for minor 
species that are made available. This project will facilitate the safe 
and efficacious use of drugs to improve the health and welfare of minor 
animal species and facilitate use of drugs for minor uses in major 
animal species.
    Fiscal year 2009 is the first year that funds were appropriated for 
this grant. However, this grant was previously funded starting in 
fiscal year 1982 through fiscal year 2006 with appropriations totaling 
$10,803,443. The fiscal years 2009 and 2010 appropriations are $429,000 
per year for appropriations totaling $858,000.
    The work is being carried out at Cornell University, the University 
of Florida, the University of California--Davis, and Iowa State 
University.
    The fiscal year 2009 proposal was institutionally peer-reviewed at 
Cornell University, the University of Florida, the University of 
California--Davis, and Iowa State University. In addition, a NIFA 
National Program Leader reviewed the proposal and determined that the 
research project was appropriate and addresses important opportunities 
for better understanding of the need to obtain minor and specialty 
animal drug clearances. Furthermore, the feasibility, budget, time-
frame, and facilities for the project were adequate. The National 
Program Leader noted that these ongoing research projects outline a 
program which builds upon established resources and responds to 
national research need for data on safe and effective drugs, such as 
are available for cattle, swine, and poultry.
                      molluscan shellfish, oregon
    The objectives of this grant are to establish a repository for 
molluscan shellfish germplasm, to establish breeding programs for 
commercial production of molluscan shellfish, and to establish a 
resource center for industry researchers and other interested parties 
in the United States and abroad.
    The program has developed improved strains of oysters which have 
been evaluated by industry collaborators in Alaska, Washington, Oregon, 
and California. Several commercial oyster hatcheries have used the 
breeding program's broodstock to produce billions of spat for the west 
coast oyster industry and foreign markets. A repository has been 
established to conserve genetic materials from oyster lines with a 
redundant, second repository to protect the selected lines of oysters 
developed by this program and is co-administered and funded in 
partnership with industry collaborators.
    The work supported by this grant began in fiscal year 1995 with an 
appropriation of $250,000; in fiscal year 1996, $300,000; in fiscal 
years 1997-2000, $400,000 per year; in fiscal year 2001, $399,120; in 
fiscal year 2002, $391,000; in fiscal year 2003, $392,433; in fiscal 
year 2004, $350,917; in fiscal year 2005, $348,192; in fiscal year 
2006, $361,350; in fiscal year 2007, $0; in fiscal year 2008, $269,103; 
and in fiscal years 2009 and 2010, $253,000 per year. A total of 
$5,168,115 has been appropriated.
    The work is being conducted by Oregon State University at their 
Hatfield Marine Science Center located in Newport, Oregon, in 
cooperation with commercial shellfish producers in California, Oregon, 
Washington, and Alaska.
    The agency's National Aquaculture Program staff review the project 
annually as the proposals are submitted to the agency with details of 
planned research studies. The proposed research is consistent with the 
National Aquaculture Research and Development Strategic Plan. The 
Agency conducted a post-award management workshop in December 2009 that 
included reporting of progress and accomplishments with a focus on 
quality, performance, and relevancy.
                    multi-commodity research, oregon
    The objective of this grant is to provide agricultural market 
research and analysis to support Pacific Northwest producers and 
agribusinesses and to identify potential value-added markets and 
product opportunities in the Pacific Rim countries.
    A couple examples of current work includes:
    Marketing and Trade Economics.--The reinstatement of State 
slaughter and processing inspection programs could provide new 
opportunities for processing facilities and livestock producers in 
terms of value-added meat products and sales. For these and other 
reasons, ongoing work and surveys are being undertaken to assess 
interest in a State-Federal meat inspection program in Oregon and 
Washington.
    Value-added Product Development.--A number of value-added projects 
were initiated over the past year, including product development 
activities, ingredient formulation, and shelf-life studies. There have 
been several ongoing laser technology projects to explore the benefits 
of laser scoring on fruits to increase infusion of high fructose corn 
syrup (HFCS) to produce a shelf stable product. An example is work on 
blueberries where laser scoring followed by HFCS infusion provided a 
superior quality dehydrated product. However, preliminary test results 
of laser-scored frozen raspberries showed that laser scoring does not 
significantly improve the infusion rate, the dehydration rate, or the 
weight loss of the laser-scored raspberries compared to control 
raspberries. This is probably due to the more delicate skin of the 
raspberries compared to the harder outer core of blueberries.
    The work supported by this grant began in fiscal year 1993. The 
appropriations amount to the following: fiscal year 1993, $300,000; 
fiscal year 1994, $282,000; fiscal years 1995-2000, $364,000 each year; 
fiscal year 2001, $363,199; fiscal year 2002, $356,000; fiscal year 
2003, $397,400; fiscal year 2004, $354,894; fiscal year 2005, $353,152; 
fiscal year 2006, $349,470; fiscal year 2007, $0; fiscal year 2008, 
$260,166; and fiscal years 2009 and 2010, $244,000 per year. In total, 
this research project has received $5,688,281.
    The work is being carried out at Oregon State University in 
Corvallis, and at the Food Innovation Center in Portland, Oregon.
    NIFA conducted a merit review of the project in May 2001, as it 
evaluated the proposal submitted that year. This project was also 
assessed in 2005 in preparation for an external review of agricultural 
markets and trade as a portion of the Office of Management and Budget 
Performance Assessment Rating Tool. Furthermore, reports have been 
submitted to the Current Research Information System to reflect 
accomplishments for 2006, 2007, and 2008. Additionally, progress 
reports are being monitored for satisfactory accomplishments and 
timelines.
national beef cattle genetic evaluation consortium, colorado, georgia, 
                              and new york
    The objective of this grant is to develop and implement improved 
methodologies and technologies for genetic evaluation of beef cattle to 
maximize the impact genetic programs have on the economic viability, 
international competitiveness, and sustainability of United States beef 
cattle producers, and to provide consumers with affordable and healthy 
beef products, and to develop one national system for the genetic 
evaluation for all breeds of beef cattle.
    An outcome of this project is that producers will be able to alter 
nutrient composition of beef--for example, fatty acid composition, iron 
content, and others--through selection, which will enhance its 
nutritional value, thus improving human health. To achieve this 
outcome, Iowa State University researchers will determine nutrient 
composition of beef samples and evaluate any influence these nutrient 
components have on tenderness/sensory characteristics. For adaptation, 
researchers are developing phenotypic--reproduction and stayability--
and Deoxyribonucleic Acid resources on populations of cattle at large 
ranches located around the United States. Stayability will be defined 
as the probability a female stays in the herd through three 
pregnancies. Cattle health is an important component to profitability. 
Over 2 years, 1,600 calves from a single large ranch will be owned by 
and fed at a cooperating feedlot. Data on incidence of disease, 
behavior, such as flight speed and chute behavior, and growth and 
carcass traits as well as Deoxyribonucleic Acid samples will be 
collected by Colorado State University. It is anticipated that 80 
percent of the calves will be identified back to their sire through 
Deoxyribonucleic Acid parentage testing. Whole genome scans will be 
done on the sick calves and a representative sample of those identified 
as not being sick in the feedlot growing phase of the study. The 
National Beef Cattle Genetic Evaluation Consortium is involved in 
producer education through workshops and symposium and train-the-
trainer educational events.
    The work supported by this grant began in fiscal year 2001. The 
appropriation for fiscal year 2001 was $284,373; for fiscal year 2002, 
$343,000; for fiscal year 2003, $667,632; for fiscal year 2004, 
$671,018; for fiscal year 2005, $779,712; for fiscal year 2006, 
$871,200; for fiscal year 2007, $0; for fiscal year 2008, $655,380; for 
fiscal year 2009, $615,000; and for fiscal year 2010, $655,000. The 
total amount appropriated is $5,542,315.
    Research is conducted at the three universities involved in the 
consortium: Colorado State University, Cornell University, and 
University of Georgia and three affiliates--Iowa State University, 
Kansas State University and University of Kentucky--which are 
collaborating in enhancing the national genetic evaluation system that 
producers widely use for making genetic improvements in their beef 
herds. Additionally, they collaborate with United States beef cattle 
breed associations and many purebred and commercial beef cattle 
operations in the United States.
    The proposal was peer-reviewed at the university prior to 
submission. A merit review was conducted by the agency prior to 
funding. The NIFA National Program Leader meets on a yearly basis with 
the project director and co-project directors to discuss and evaluate 
progress. It is concluded that this project is making progress.
          national center for soybean biotechnology, missouri
    The objective of this grant is to integrate basic and applied 
research to develop superior soybean cultivars that will help U.S. 
farmers maintain global competitiveness.
    Researchers on have used the technique of fluorescence in-situ 
hybridization to create a karoytype of all soybean chromosomes. It has 
been difficult for researchers to map the physical locations of genes 
onto soybean chromosomes because soybean chromosomes are small, and all 
about the same size and shape. The new karyotype makes it possible for 
researchers to distinguish each distinct pair of soybean chromosomes. 
The results of this research were presented at an international 
conference in 2009 and will be submitted for publication in 2010. Using 
the new information from the karyotype, researchers have already 
detected a chromosome translocation in wild soybeans that is not 
present in domestic soybeans. This finding is of significance to 
soybean breeders who are working with wild soybeans to broaden the 
narrow genetic diversity of cultivated soybeans. It will help to 
predict and work around the loss of fertility that is often a barrier 
in crosses between wild and cultivated soybeans. Researchers are using 
information from the newly available soybean genome sequence to 
identify genetic markers for important, hard-to-select soybean traits. 
This year, they have identified quantitative trait loci, a type of 
linked genome markers, for Asian soybean rust and for soybean cyst 
nematode. They are particularly excited about the nematode resistance 
gene because it appears to be a different gene from the nematode 
resistance presently used in soybean breeding throughout the United 
States. The availability of different resistance genes will help 
protect this valuable crop.
    The work supported by this grant began in fiscal year 2004. The 
appropriation for fiscal year 2004 was $894,690; for fiscal year 2005, 
$940,416; for fiscal year 2006, $977,130; for fiscal year 2007, $0; for 
fiscal year 2008, $734,820; and for fiscal years 2009 and 2010, 
$690,000 per year. A total of $4,927,056 has been appropriated.
    Research is conducted at the University of Missouri at Colombia.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation. 
The submitting institution conducts a peer review of the proposal prior 
to submission.
          nematode resistance genetic engineering, new mexico
    The objective of this grant is to provide an alternative approach 
for the control of plant parasitic nematodes and insects through the 
use of molecular biology to transfer pesticide resistance to plants.
    Previous accomplishments include enhancing the genetic expression 
of natural pesticides, development of genetic constructs with improved 
effectiveness, adaptation of genetic promoters for specific crop 
plants, and molecular characterization of targeting sequences. Recent 
work has focused on development of engineered nematode resistance, 
development of molecular tools for rapid and highly accurate pest 
detection, and development of resistance genes to viral plant 
pathogens. Continuing work includes: cloning of a collagenase gene for 
nematode resistance from the model nematode C. elegans and creating 
transgenic plants that express this novel collagenase; development of 
transgenic plants that express novel Bt toxins which have shown promise 
as nematode resistance genes; development of molecular identification 
technology for rapid high accuracy identification of pests. Results of 
this research have been used to differentiate endemic and exotic 
species of fire ants, differentiate specific strains of alfalfa weevil 
which are morphologically indistinguishable but have different 
behaviors in the field, identify the occurrence of Pierce's disease, a 
highly important disease of grapes, in New Mexico, and for the 
continued development of genes that confer broad spectrum resistance to 
multiple plant viruses. During the coming year, researchers will focus 
on developing additional sequences that can be used to distinguish 
these and other hard to differentiate Meloidogyne species. This assay 
will be valuable for rapid identification of nematodes in the field, 
especially for Meloidogyne spp. that cannot be identified beyond the 
genus level using morphological characteristics of juveniles.
    The work supported by this grant began in fiscal year 1991, and the 
following amounts have been appropriated: in fiscal years 1991-1993, 
$150,000 per year; in fiscal year 1994, $141,000; in fiscal years 1995-
2000, $127,000 per year; in fiscal year 2001, $126,721; in fiscal year 
2002, $147,000; in fiscal year 2003, $146,045; in fiscal year 2004, 
$130,227; in fiscal year 2005, $138,880; in fiscal year 2006, $137,610; 
in fiscal year 2007, $0; in fiscal year 2008, $223,425; and in fiscal 
years 2009 and 2010, $209,000. A total of $2,820,908 has been 
appropriated.
    Research is being conducted at New Mexico State University and at 
collaborating universities in the region.
    Project proposals are subjected to peer review at the submitting 
institution and merit review by senior agency technical staff.
                   nevada arid rangelands initiative
    The objectives of this grant are: (1) healthy rangelands for 
multiple uses; (2) improved campus-based range management education 
programs; (3) healthy economies at the ranch, community, and county 
level; and (4) public land decisionmaking models that value and support 
public inputs.
    The project initiated a mini-grant program that is stakeholder-
driven, integrated with Cooperative Extension as well as Federal and 
State agencies, and peer and stakeholder reviewed to address critical 
issues for the multiple uses of the Nevada arid rangelands and support 
for rural economies. Considerable progress has been made in invasive 
weed management, fuel load reduction, fire management and restoration 
of Great Basin rangelands; assessment of pinyon-juniper expansion; 
restoration of sagebrush, woodland, and riparian ecosystems; rangeland 
management/wildlife interactions including sage grouse and pygmy rabbit 
habitats, persistence of native plant species, disease transfer between 
bighorn and domestic sheep; the production of water efficient 
alternative crops such as native seed; and policies that affect the 
sustainability of agriculture and rural economies.
    The work supported by this grant began in fiscal year 2000, and the 
appropriation for fiscal year 2000 was $255,000; fiscal year 2001, 
$299,340; fiscal year 2002, $400,000; fiscal year 2003, $521,588; 
fiscal year 2004, $467,227; fiscal year 2005, $480,128; fiscal year 
2006, $498,960; fiscal year 2007, $0; fiscal year 2008, $365,424; 
fiscal year 2009, $376,000; and for fiscal year 2010, $500,000. A total 
of $4,163,667 has been appropriated.
    Research is conducted at the University of Nevada Main Station 
Field Lab in Reno; the Gund Range Research Ranch outside of Austin in 
Eureka County, Nevada; Bureau of Land Management allotments near Elko 
and Winnemucca; and at selected ranches and other often remote offsite 
locations. Part of the project helps to fund student exchange with 
Turkmenistan.
    NIFA expects to conducts a site visit in 2010. The institution 
conducts a mini-grant program that sends the proposals out for peer and 
stakeholder review and provides funding for the highest quality 
relevant projects that address the most critical issues facing their 
stakeholders. They instituted an annual review process where the 
project investigators provide a written and oral presentation regarding 
the progress the project is making toward obtaining its goals and plans 
for continuation. The NIFA National Program Leader for Rangeland and 
Grassland Ecosystems is in close contact with the project director and 
several of the mini-grant project directors for this research.
                         new century farm, iowa
    An objective of this grant is to improve the cost-effectiveness of 
producing biofuels, bioenergy, industrial chemicals, and biobased 
products from corn and soybeans, and alternative cellulosic feedstocks 
such as corn grain fiber, corn cobs, corn stover, switch grass, and 
other sources of biomass. Another objective is to develop microbial co-
products that are desired by the monogastric (swine and poultry) and 
ruminant livestock feed industry.
    Progress to date has demonstrated opportunities to improve the 
energy and water balances in dry-grind ethanol plants and to produce a 
high-protein feed product for non-ruminants by cultivating the fungal 
organism Rhizopus microsporus on excess thin stillage. The fungi remove 
waste products from yeast fermentation. Waste products include 
glycerol, lactic, and acetic acids. Their removal resulted in the 
ability to recycle recovered water and enzymes. This greatly reduced 
energy input into the ethanol process by avoiding the need for 
evaporating thin stillage. A provisional patent has been filed for five 
strategies to recover corn germ, during or after fermentation to 
improve ethanol yield, recover edible oil, and improve quality of 
ethanol feed coproducts. Laboratory-scale work has shown that 
oleaginous yeast grows well and accumulates oil when cultivated on 
glycerol, a byproduct of biodiesel production; therefore, the glycerol 
byproduct serves as a feedstock for biodiesel.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $223,425; $282,000 in fiscal year 
2009; and $350,000 in fiscal year 2010. A total of $855,425 has been 
appropriated.
    The research is conducted at Iowa State University.
    A report of progress in fiscal year 2009 has been evaluated, and it 
has been determined that progress is being made.
                    new crop opportunities, kentucky
    The objective of this grant is to develop, demonstrate, and assist 
in the adoption of more profitable production and marketing systems for 
horticultural crops and specialty grains.
    Accomplishments include the establishment of a Web site to provide 
information to farmers and extension agents about the Center's 
research, and to provide information on additional crops. The Web site 
now includes profiles of 123 crops with production, marketing, and 
budget information to help farmers determine if a particular crop is 
right for them. The Web site also offers links to decision aids 
available through the University of Kentucky's Department of 
Agricultural Economics, crop budgets, and price reports from farmers 
markets and produce auctions around the State. Kentucky's farmers 
markets have grown steadily for the past 5 years, and growers 
throughout the State use the New Crops price reports as guidelines for 
pricing their produce and value-added products. The State's farmer's 
market vendors totaled more than 2,000 in 2009. Training sessions have 
been offered around the State to help extension agents learn how to aid 
farmers in their counties who want to try new crops. Sweet sorghum 
research led to the release of the male-sterile hybrid KN Morris. In 
2009, more than 1,000 pounds of KN Morris seed was sold. This indicates 
that more than 300 acres and over 100 producers are growing the 
variety. A recent budget for sweet sorghum estimated that net profits 
of more than $2,500 per acre are possible. In addition, the sweet 
sorghum improvement project has produced and distributed seed of 
several varieties for which there is a demand for small quantities 
worldwide, primarily for ethanol research. Breeding triple-null soybean 
cultivars was among the original New Crops research projects in 2000. 
In 2009, the Kentucky Agricultural Experiment Station Seed Commodity 
Committee approved the release of KY04-ns-309, a soybean with a black 
seed coat and yellow cotyledons that is a triple seed lipoxygenase 
null. Evaluation of flax and chia as potential new crops for Kentucky 
began in 2006. A patent is being pursued for development of early 
flowering chia (Salvia hispanica) varieties. Research has included 
projects on improved production techniques that will benefit organic 
vegetable, fruit and grain farmers, and a training session on organic 
production and irrigation was offered to extension agents in 2009. 
Research has also included projects on conventional produce, as well as 
floriculture and nursery crops. Flowering dogwood research has saved 
producers $3,250 per acre. Eight years ago, the value of all 
horticulture cash receipts in Kentucky was $78.6 million. Kentucky's 
vegetables, fruit, nursery and greenhouse industries have grown 
steadily, and current industry sales trends point toward 2009 gross 
sales of approximately $115 to $120 million.
    The work supported by this grant began in fiscal year 2000, and the 
appropriation for fiscal year 2000 was $595,000; for fiscal year 2001, 
$723,405; for fiscal year 2002, $735,000; for fiscal year 2003, 
$737,177; for fiscal year 2004, $659,088; for fiscal year 2005, 
$724,160; for fiscal year 2006, $752,400; for fiscal year 2007, $0; for 
fiscal year 2008, $559,059; and for fiscal years 2009 and 2010, 
$525,000 per year. The total amount appropriated is $6,535,289.
    The work is being conducted at the University of Kentucky, its 
research centers in Eastern and Western Kentucky, at arboreta and 
botanical gardens, and on cooperating farms across the State.
    A peer review of the proposal has been conducted by the submitting 
institution. Additionally, senior agency technical staff conducted a 
critical review of the proposal prior to awarding the grant. Based on 
the peer review, the agency's review, and the grantee progress reports, 
the project has been successful in meeting its objectives of developing 
and assisting in the adoption of more profitable production and 
marketing systems for horticultural crops and specialty grains.
     new satellite and computer-based technology for agriculture, 
                              mississippi
    The objective of this grant is to evaluate site-specific 
technologies and develop recommendations for management decisions 
related to fertilization, pest control, and other cultural practices 
for agricultural crop production in the mid-South.
    Yield monitors and variable-rate fertilizer applications have been 
evaluated, both operationally and economically, and are being 
commercially adopted by farmers. Research projects have resulted in new 
decision support systems and have led to new agricultural production 
systems that are being marketed by small businesses. Thirteen invention 
disclosures, and an equal number of patent applications, are in process 
at the institution.
    The work supported by this grant began in fiscal year 1997 under 
the former project title Advanced Spatial Technologies with an 
appropriation of $350,000; for fiscal year 1998, $600,000; for fiscal 
years 1999-2000, $1,000,000 per year; for fiscal year 2001, $997,800; 
for fiscal year 2002, $978,000; for fiscal year 2003, $982,572; for 
fiscal year 2004, $879,778; for fiscal year 2005, $935,456; for fiscal 
year 2006, $926,640; and for fiscal year 2007, $0. In fiscal year 2008, 
$697,086 was appropriated under the current project title New Satellite 
and Computer-Based Technology for Agriculture; and in fiscal years 2009 
and 2010, $654,000 per year. The total amount appropriated is 
$10,655,332.
    The research is being conducted on various Mississippi Agricultural 
Experiment Station facilities and farmer fields around the State.
    The project is subject to a thorough institutional peer review 
during preparation of the grant proposal. In addition, individual 
experiments comprising the project are subject to a year-end assessment 
of progress by project staff. Submitted proposals undergo merit review 
by one or more agency scientists. A comprehensive review by a panel of 
outside experts was conducted following the 2001 crop season. This 
review provided suggestions to strengthen and sharpen the focus 
beginning with the 2002 fiscal year, including establishment of an 
advisory board. A strategic planning effort to identify priorities and 
improve management was initiated and now guides the focus of current 
work. To better delineate initiation-completion cycles for individual 
experiments, beginning in fiscal year 2007, individual experiments have 
been reviewed and funded in total at initiation, rather than allocating 
continuation funding on an annual basis.
              oil resources from desert plants, new mexico
    The objectives of this grant are to examine the expression patterns 
of 12 putative wax synthases in the wild plant of the mustard genus of 
oilseeds, and to use bioinformatics approaches to identify numerous 
candidate genes for wax and oil synthesis in other species such as 
grapes, rice poplar trees, and others.
    The expression of industrial oils in plants through genetic 
engineering has proven difficult due to several characteristics of the 
oil-producing process in plants. The genes for specialty oils are 
difficult to isolate, and successful expression of desired oils 
involves complex interactions of several metabolic pathways and 
biochemical support components.
    This research began in fiscal year 1989 with a $100,000 grant under 
the Supplemental and Alternative Crops program. Grants have been 
awarded under the Special Research Grants program as follows: for 
fiscal year 1990, $148,000; for fiscal years 1991-1993, $200,000 per 
year; for fiscal year 1994, $188,000; for fiscal years 1995-1996, 
$169,000 per year; for fiscal years 1997-2000, $175,000 per year; for 
fiscal year 2001, $174,615; for fiscal year 2002, $196,000; for fiscal 
year 2003, $223,538; for fiscal year 2004, $200,808; for fiscal year 
2005, $211,296; for fiscal year 2006, $208,890; for fiscal year 2007, 
$0; for fiscal year 2008, $186,684; and for fiscal years 2009 and 2010, 
$176,000 per year. A total of $3,827,831 has been appropriated.
    The research is being conducted by the Plant Genetic Engineering 
laboratory at New Mexico State University at Las Cruces.
    The project is evaluated by senior agency technical staff based on 
the annual progress report. A site visit was made in April 2005. 
Progress in the metabolic engineering of target organisms was 
determined to be satisfactory and meets the mission of the agency.
                        organic cropping, oregon
    The objectives of this grant are to develop a fertilizer calculator 
for cover crop systems; investigate biological pest management 
strategies to encourage beneficial predator; screen onion and broccoli 
varieties for suitability in organic systems; and identify weed control 
strategies for forage systems and cereal crop systems.
    Accomplishments to date include establishing plots, collecting data 
and disseminating information on organic cereal crops, an organic 
fertilizer calculator for cover crops, vegetable variety trials, and 
beneficial ground beetle activities.
    The project began in fiscal year 2008 with an appropriation for of 
$148,950; in fiscal year 2009, $140,000; and in fiscal year 2010, 
$149,000. A total of $437,950 has been appropriated.
    The work is being carried out at Oregon State University and on 
working farms in the State.
    Fiscal year 2008 is the first year that funds were appropriated for 
this grant so NIFA has not conducted an evaluation of this project.
                      organic cropping, washington
    The objective of this grant is to address multiple areas of 
interest identified by the organic industry including organic seed 
protection and production, understory management in tree and vine 
crops, organic weed control for annual crops, organic pest and nutrient 
management, and analysis of economic and marketing trends.
    Organic seed treatments were tested for their ability to control 
soil-borne diseases in vegetables, and several show promise. After 
evaluating vegetable varieties, several new varieties were released. 
Research on integrating organic grain and livestock production in 
dryland farming is being conducted on two organic farms has shown that 
after alfalfa take-out, organic grains yielded similarly to the 
conventional local average as long as the alfalfa was successfully 
taken out. Integration of organic crops with livestock was economically 
successful in 2008 both for livestock producers adding a grain 
component and for grain producers adding a livestock component. Results 
have been shared in 29 presentations at conferences and field days and 
on the Web site of Washington State University's Center for Sustaining 
Agriculture and Natural Resources. Five scientific journal articles and 
three non-refereed reports have been published. The systems, methods, 
and products evaluated by this program are used not only by certified 
organic and transitional organic farmers but also increasingly by 
conventional producers as economic, environmental, safety, and market 
pressures increase. Several of these subprojects have the potential to 
advance sustainable agriculture on a national scale. New wheat 
varieties will be developed and selected in organic systems and will be 
available to wheat growers throughout the United States. Organic 
vineyard management techniques will be relevant to growers in other 
regions of the country with similar wet growing conditions. Organic 
seed treatment results will be relevant to all growers regardless of 
location. Orchard management for nitrogen and cover crops will be 
relevant to orchard growers with similar dry growing conditions.
    The work supported by this grant began in fiscal year 2003, and the 
appropriation for fiscal year 2003 was $124,188; for fiscal year 2004, 
$223,673; for fiscal year 2005, $359,104; for fiscal year 2006, 
$355,410; for fiscal year 2007, $0; for fiscal year 2008, $264,138; for 
fiscal year 2009, $248,000; and for fiscal year 2010, $264,000. A total 
of $1,838,513 has been appropriated.
    The work is being carried out at university research farms, 
laboratories, greenhouses, and other facilities at Washington State 
University, and on the farms of cooperating growers in Washington 
State.
    Annual proposals and progress reports are reviewed by senior agency 
technical staff. The research is addressing industry needs and shows 
good stakeholder involvement and responsiveness.
                 organic waste utilization, new mexico
    The objective of this grant is the qualification of the effects of 
applying dairy-derived compost as a soil amendment, relating nutrient 
availability, plant growth, irrigation requirements, and heavy metal 
uptake when compared to applications of raw dairy waste.
    Compost application regarding soil fertility, plant growth, water 
retention, and salinity is on-going. The new composting technology has 
little to no investment in specialized equipment materials for the bio-
reactor process cost less than $35.00/unit, produces no odors or 
commonly associated insects problems, amenable to scaling up, reduces 
volatilization and leaching of nutrients to minimal amounts, reduces 
the composting time cycle up to 75 percent, reduces water usage by a 
factor of 6, and results in a low salinity 2-3 mS/cm\2\, nutrient rich, 
high-microbial-biodiversity compost. Standards for the use of compost 
for land reclamation are being developed in collaboration with State 
agencies.
    The work supported by this grant began in fiscal year 1996, and the 
appropriation for fiscal year 1996 was $150,000; for fiscal years 1997-
2000, $100,000 per year; for fiscal year 2001, $99,780; for fiscal year 
2002, $100,000; for fiscal year 2003, $99,350; for fiscal year 2004, 
$88,475; for fiscal year 2005, $93,248; for fiscal year 2006, $92,070; 
for fiscal year 2007, $0; for fiscal year 2008, $74,475; and for fiscal 
years 2009 and 2010, $69,000 per year. A total of $1,355,398 has been 
appropriated.
    This work is being carried out in New Mexico under the direction of 
Waste-management Education and Research Consortium: A Consortium for 
Environmental Education and Technology Development in collaboration 
with Canon Consulting. Other collaborators include the Composting 
Council, N-Viro in Ohio, Plains Electric, and McKinley Paper in New 
Mexico.
    This project has been evaluated based on the annual progress report 
and discussions with the principal investigator in the winter of 2009. 
The NIFA National Program Leader for Animal Manure Management has 
reviewed the project and determined that progress is satisfactory and 
that the research is conducted in accordance with the mission of this 
agency.
             peach tree short life research, south carolina
    The objective of this grant is to find a long-term solution to a 
disease syndrome known as Peach Tree Short Life by development and 
testing of Guardian rootstocks. These rootstocks have been introduced 
in 22 States and their performance has been good for the most part. 
However, they report an unacceptable amount of genetic variation in 
seedlings produced by clones of the original resistant parents. The 
investigators are using molecular marker-assisted techniques to improve 
the seedling selection process. Practical field strategies for control 
of the infectious nematodes, based on non-chemical and biological 
methods are also being developed. The efficacy of a wide variety of 
fungicides with different modes of action was determined under lab 
conditions for control of Armillaria tabescens. A replicated research 
trial investigating pre-plant practices to manage Armillaria root rot 
was established on a commercial replant site near Ridge Spring, South 
Carolina.
    Grants have been awarded from funds appropriated as follows: fiscal 
year 1981, $100,000; fiscal years 1982 to 1985, $192,000 per year; 
fiscal years 1986 to 1988, $183,000 per year; fiscal year 1989, 
$192,000; fiscal year 1990, $190,000; fiscal years 1991 to 1993, 
$192,000 per year; fiscal year 1994, $180,000; fiscal years 1995 to 
2000, $162,000 per year; fiscal year 2001, $178,606; fiscal year 2002, 
$175,000; fiscal year 2003, $260,297; fiscal year 2004, $232,619; 
fiscal year 2005, $264,864; fiscal year 2006, $275,220; fiscal year 
2007, $0; fiscal year 2008, $207,537; and fiscal years 2009 and 2010, 
$195,000 per year. A total of $5,511,143 has been appropriated.
    This research is being conducted at the South Carolina Agricultural 
Experiment Station.
    The last agency evaluation of this project was a merit review 
completed in April 2005. This evaluation concluded that the evaluation 
of peach rootstocks with resistance to peach tree short life is of 
continued importance in managing this disease. Integrated management 
practices are currently being evaluated. Results with ``BY520-9'' have 
been so encouraging that a program has been implemented with commercial 
nurseries to provide peach growers this rootstock on an experimental 
basis, while testing progresses in the southeastern United States. 
Guardian Brand ``BY520-9'' is not resistant to ring nematodes, but 
peach trees on this rootstock thrive for many years in nematode-
infested soil.
                      perennial wheat, washington
    The objectives of this grant are the development of perennial wheat 
lines, to test promising lines for agronomic and grain quality 
characters, and to develop a management system for their use on 
erodible land in the Pacific Northwest.
    Results indicate that there is no relationship between grain yield 
and regrowth among wheat lines exhibiting a perennial habit. The 
significance of this data is that it should be possible to develop 
perennial wheat lines that yield as much as annual wheat.
    The research began in fiscal year 2003, and the appropriation for 
fiscal year 2003 was $149,025; for fiscal year 2004, $133,209; for 
fiscal year 2005, $140,864; for fiscal year 2006, $139,590; for fiscal 
year 2007, $0; for fiscal year 2008, $104,265; and for fiscal years 
2009 and 2010, $98,000 per year. A total of $862,953 has been 
appropriated.
    This research is conducted at the Washington State University 
research farm and on fields of participating farmers.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation. 
The submitting institution conducts a peer review of the proposal prior 
to submission. A site review was conducted in 2003, which found the 
project to be well organized and managed.
                      pest management alternatives
    The objective of this grant is the development and implementation 
of pest management alternatives when regulatory action by the 
Environmental Protection Agency, voluntary action by the registrant, or 
other circumstances results in the unavailability of certain pesticides 
or pesticide uses.
    These activities have pertained to pesticides identified for 
possible regulatory action under the Food Quality Protection Act of 
1996. Through these grants, new pest management tools and techniques 
are being developed to address critical pest problems identified by 
pest managers and other stakeholders. This program has initiated a 
process to address regional priorities established by these 
stakeholders.
    Grants have been awarded from funds appropriated as follows: fiscal 
years 1996 through 2000, $1,623,000 per year; fiscal year 2001, 
$1,619,429; fiscal year 2002, $1,619,000; fiscal year 2003, $1,608,477; 
fiscal year 2004, $1,448,404; fiscal year 2005, $1,436,416; fiscal 
years 2006 and 2007, $1,421,640 per year; fiscal year 2008, $1,412,046; 
fiscal year 2009, $1,412,000; and fiscal year 2010, $1,434,000. A total 
of $22,948,052 has been appropriated.
    All State agricultural experiment stations, all colleges and 
universities, other research institutions and organizations, Federal 
agencies, private organizations or corporations, and individuals are 
eligible to compete for this funding. This research is currently being 
carried out by State agricultural experiment stations and other 
research organizations located in several States.
    Each new request for applications and all submitted project 
proposals are evaluated annually by a regional panel for relevancy and 
a national panel for scientific merit. Reviews are held annually to 
evaluate the progress and scope of this program. The conclusions 
continue that the program is on course and making good progress. The 
projects supported by this special research grant program have 
consistently provided key knowledge needed in developing new approaches 
to pest management.
                     phytophthora research, georgia
    The objective of this grant is to reduce the loss of vegetable 
crops due to Phytophthora capsici, evaluating efficacy and economics of 
the following practices: Remediation of infected sites, containment of 
Phytophthora and limit spread, development and testing of new control 
measures including soil treatments, rotational crops, and testing and 
treating water sources used for irrigation.
    Information on preventive and containment measures will be 
distributed and recommendations will be demonstrated with research 
plots on grower farms. Integrated management practices are being moved 
into the farm sector and on-going monitoring techniques are being 
developed.
    The work supported by this grant began in fiscal year 2006 with an 
appropriation of $255,420; for fiscal year 2007, $0; for fiscal year 
2008, $189,663; and for fiscal years 2009 and 2010, $178,000 per year. 
A total of $633,083 has been appropriated.
    The research is being conducted at facilities operated by the 
University of Georgia College of Agricultural and Environmental 
Sciences in Tifton, Georgia.
    The project proposal will be peer reviewed at the submitting 
institution where it will be evaluated for technical quality and 
relevance to regional goals by experts with the scientific knowledge 
and technical skills to conduct the proposed research work. The 
reviewers will read and make comments that will be incorporated into 
the proposal by the project director. The agency national program staff 
with expertise in plant pathology will evaluate the submitted proposal. 
Progress reports will be submitted each year. Additional merit review 
is conducted annually by senior agency technical staff prior to making 
a funding recommendation.
                    phytophthora research, michigan
    The objective of this grant is to reduce the loss of vegetable 
crops due to Phytophthora capsici by: developing new techniques to 
prevent Phytophthora contamination of irrigation sources because the 
disease can spread through water; identifying and developing 
Phytophthora-resistant varieties; developing new techniques for 
Phytophthora control, including soil additives, mulches, crop rotation 
and water management; testing fungicides, biological controls and other 
new agents that might control Phytophthora; conducting on-farm research 
trials and hands-on grower workshops; and investigating the Fraser fir 
as a host to the Phytophthora capsici that historically has only 
affected vegetable crops.
    Five surface water sites used for vegetable irrigation were 
monitored for Phytophthora in two regions of the State. Phytophthora 
was recovered from all five sites from mid-June to mid-August. Nearly 
4,000 acres of vegetable production were impacted by our findings. In 
response, six wells have been drilled and will be used as a source of 
clean irrigation water that is free of Phytophthora. Using clean 
irrigation water will protect Michigan's vegetable crops and reduce the 
spread of Phytophthorato clean fields. Research was also focused on 
developing Phytophthora-resistant varieties. The fruit of 31 cucumber 
cultigens were screened for resistance to Phytophthora. None of the 31 
cultigens exhibited complete resistance, however, six were identified 
that reduced spore production. Fruit from a variety of cucurbit crops 
was tested for age-related loss in susceptibility to Phytophthora. For 
those crops with age-associated increase in resistance, protection by 
fungicides will be most critical at the early stages of fruit 
development. Efforts was also directed toward the development of new 
techniques for Phytophthora control, including soil additives, mulches, 
crop rotation and water management. Field experiments were conducted on 
a commercial farm to test the effects of cover crops and raised plant 
beds on the management of Phytophthora. The cover crops including 
oilseed radish, brown mustard, and oriental mustard, provided some 
control of the disease but would need to be combined with other 
management tools. In some regions of the State where vegetable and 
Christmas tree production occur in the same regions, growers will need 
to be especially aware of this pathogen's ability to infect vegetables 
and Fraser fir as our current research identifies Fraser fir as a host 
of Phytophthora capsici. Resources were also focused on testing 
fungicides, biological controls and other new agents that might control 
Phytophthora. Twenty-five products, including three biopesticides, 
three reduced-risk, and five experimental fungicides, were tested alone 
and in combination in six field trials during 2006 for management of 
Phytophthora on squash, cucumber, and bell peppers with up to 75 
percent increased yield compared to controls. The original objectives 
were expanded to integrate control techniques and then to conduct on-
farm research trials and hands-on grower workshops. Fungicide and water 
management trials were conducted on commercial farms and 21 
presentations were made to growers.
    The work supported by this grant began in fiscal year 2006 with an 
appropriation of $495,000; for fiscal year 2007, $0; for fiscal year 
2008, $368,403; and for fiscal years 2009 and 2010, $346,000 per year. 
A total of $1,555,403 has been appropriated.
    The work is being conducted at Michigan State University with field 
research and demonstration plots with commercial growers in Michigan.
    The project proposal is peer reviewed at the submitting institution 
where it is evaluated for technical quality and relevance to regional 
goals by experts with the scientific knowledge and technical skills to 
conduct the proposed research work. The reviewers read and make 
comments that will be incorporated into the proposal by the project 
director. Senior agency technical staff evaluate the submitted proposal 
and also conduct merit reviews. Progress reports are submitted each 
year.
  phytosensors for crop security and precision agriculture, tennessee
    The objective of this grant is to develop a biodetection system 
that can sense and report the presence of plant pathogens prior to 
symptom appearance and spread. The project will combine state-of-the-
art technologies in biotechnology and photonics to produce crop plants 
that can be used as early warning sentinels for the detection of plant 
diseases.
    Current research has focused on developing this biodetection 
system, showing proof-of-concept, and initiated preliminary studies of 
the biodetection system. Research work is underway to reach this goal. 
In 2009, the proposed work has resulted in seven publications with two 
additional manuscripts in preparation.
    Fiscal year 2009 was the first year that funds were appropriated 
for this grant with an amount of $700,000; and for fiscal year 2010, 
$1,000,000. A total of $1,700,000 has been appropriated.
    The work is being carried out at the University of Tennessee at 
Knoxville.
    The agency has not evaluated this project, since fiscal year 2009 
is the first year that funds were appropriated for this research.
                      pierce's disease, california
    The objective of this grant is to control Pierce's Disease, through 
the development of resistant grape clones, supplemented with integrated 
management methods.
    Recent research has revealed both conventional and transgenic 
approaches to creating grapevines with resistance to the causative 
agent. Other research is exploring new and conventional methods to 
controlling the sharpshooter vectors. Other supported research has 
identified proteins contributing to the pathogenicity and virulence of 
the causative agent.
    The work supported by this grant began in fiscal year 2001, and the 
amount appropriated was $1,895,820; in fiscal year 2002, $1,960,000; in 
fiscal year 2003, $2,235,375; in fiscal year 2004, $2,013,053; in 
fiscal year 2005, $2,071,296; in fiscal year 2006, $2,188,890; in 
fiscal year 2007, $0; in fiscal year 2008, $1,630,506; in fiscal year 
2009, $1,531,000; and in fiscal year 2010, $2,000,000. The total amount 
appropriated is $17,525,940.
    The research is being carried out by the University of California 
Division of Agriculture and Natural Resources. Funds are awarded 
competitively to scientists in California and from other universities 
in the United States with pertinent expertise in research on Pierce's 
disease.
    The agency evaluated the project in August 2009. In December 2009, 
senior agency technical staff also evaluated individual research 
projects competitively awarded in 2009. Research projects from this 
grant are addressing the research objectives for scientific advances to 
control Pierce's disease and are integrated and complementary with 
other research programs on Pierce's disease.
  policy analyses for a national secure and sustainable food, fiber, 
                   forestry and energy program, texas
    The objective of this grant is to conduct quantitative policy 
analysis of food, farm, fiber, forest, and international economies. The 
model estimates the aggregate economic impacts of exogenously specified 
bio-fuel production on all endogenous variables in the model, including 
price, utilization by category, regional acreage planted and harvested, 
and production for each crop for each year simulated dynamically 
starting with historically data and simulating into the future as far 
as the 2030/31 crop year.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $148,950; in fiscal year 2009, 
$140,000; and in fiscal year 2010, $200,000. A total of $488,950 has 
been appropriated.
    The research will be conducted at Texas A&M University and Auburn 
University.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant so NIFA has not conducted an evaluation of this project. 
However, the principal investigator and the National Program Leader 
maintain regular contact.
                      potato cyst nematode, idaho
    The objectives of this grant are to develop an understanding of 
potato cyst nematode reproduction, evaluate bio-fumigants to eradicate 
nematodes and cysts, and evaluate the use of microbial, fungal and 
plant bio-control approaches to reduce the level of viable cysts in the 
field.
    Thus far, reproduction research has involved developing 
informational resources on nematode production, equipping facilities 
for processing and collecting cysts, and developing protocols for 
producing new generations of cysts from field harvested nematodes. This 
project has facilitated establishing contacts with research programs in 
Scotland and Northern Ireland, leveraging the understanding of this 
pest and how to manage it as we deal with issues of global food 
security. The rearing protocol has been established and cysts are being 
produced for use in controlled studies. Isolation and identification of 
potential microbial and fungal bio-control agents of G. pallida have 
been isolated from field samples that could explain the initial low 
hatching rate of the field cysts. Eleven fungal species and four 
bacteria were isolated from the field derived G. pallida cysts, based 
on DNA sequence evaluation. These microbes may have value as biological 
control agents. Initial successes have been achieved on the cyst 
viability question. Staining techniques are being perfected, but 
initial results indicate that shorter staining periods, as little as 2 
days may be sufficient without contributing to nematode mortality due 
to the test. Extracts from Brassica juncea and Sinapsis alba seed meal 
is being evaluated as potential biofumigants to control G. pallida. 
Hatching and viability studies indicate that the extracts do affect 
nematode egg and juvenile viability, but studies on cysts will be 
conducted in 2010. Potato germplasm screening for potential resistance 
to G. pallida has been initiated in association with Agricultural 
Research Service potato breeders in Idaho and Washington. Several 
potential candidate genotypes were identified with most being products 
of interspecific crosses with wild potato relatives. A second study 
using germplasm from the National Plant Germplasm System is currently 
underway to evaluate less adapted genotypes as potential sources of 
resistance to G. pallida. The research program is providing G. pallida 
cysts and facilities for work by other G. pallida related programs. The 
research program facilitated Agricultural Research Service weed host 
studies which resulted in the identification of one nightshade species 
that could serve as an alternative host for G. pallida. The program 
supplied cysts and laboratory facilities for diffusate fractionation 
studies that resulted in the potential isolation of a fraction that 
induces a higher rate of hatching. This work could lead to the 
development of a method to induce hatching of G. pallida in the field 
without an adequate host. G. pallida cysts and DNA from J2 juveniles 
was sent to Agricultural Research Service researchers in New York for 
molecular studies of G. pallida. To facilitate eradication efforts by 
the Animal and Plant Health Inspection Service in southern Idaho, G. 
pallida cysts were supplied to serve as controls in viability studies 
for potential deregulation of fumigated G. pallida fields. One 
additional project was efficacy testing of several fumigants on G. 
pallida cysts. Field trials were conducted under controlled conditions 
and found all tested fumigants to be effective.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $372,375; and $349,000 per year in 
fiscal years 2009 and 2010. A total of $1,070,375 has been appropriated 
in the 3 years of the project.
    An evaluation of this project has not been conducted since funds 
were first appropriated and provided late in fiscal year 2008.
                    potato breeding research program
    The objective of this grant is to improve production and quality of 
potatoes for processing and fresh market by breeding new potato 
varieties that are high yielding, disease and insect resistant, and 
adapted to the growing conditions in their particular areas, both for 
fresh market and processing.
    Potato breeders must provide farmers with outstanding levels of 
performance in more different traits than perhaps any other crop. A 
farmer typically needs a potato variety with resistance to 6 to 10 
diseases and pests, and 3 to 5 types of tolerance to stresses such as 
drought, heat, and frost, and adaptation to sustainable and region-
specific production practices; and even more qualities for processing 
or cooking quality and tuber appearance. In the northeastern region, 
grower demand for three promising experimental varieties outstripped 
seed production capacity, and adoption of two specialty varieties by 
small-scale fresh market growers increased. An advanced variety with 
good late blight and nematode resistance is ready for use as a parent, 
to reduce use of pesticides and reduce growers' loss to pests. Area 
planted to a recent release, the heat-necrosis resistant variety Harvey 
Blackwell, increased significantly this year. The North Central region 
has a large number of novelty potatoes, over 100 selections, in 
advanced trials. In the Northwest region, three new varieties were 
released. One of these uses 10 to 25 percent less water than standard 
older varieties and is expected to replace the older varieties over 
much of the acreage. An earlier release, Alturas, requires only half 
the nitrogen of standard varieties; this variety was grown on 14,000 
acres this past year, with a total savings to producers of about $1.7 
million. A molecular marker was developed and is in use to select for 
resistance to a prevalent virus that is difficult to detect visually. 
In the Western region, about 60 percent of production acres and a 
similar percentage of certified seed acres were planted to varieties 
developed by this project.
    Grants have been awarded from funds appropriated as follows: fiscal 
year 1983, $200,000; fiscal year 1984, $400,000; fiscal year 1985, 
$600,000; fiscal years 1986 and 1987, $761,000 per year; fiscal year 
1988, $997,000; fiscal year 1989, $1,177,000; fiscal year 1990, 
$1,310,000; fiscal year 1991, $1,371,000; fiscal years 1992 and 1993, 
$1,435,000 per year; fiscal year 1994, $1,349,000; fiscal years 1995-
1998, $1,214,000 per year; fiscal years 1999 and 2000, $1,300,000 per 
year; fiscal year 2001, $1,446,810; fiscal year 2002, $1,568,000; 
fiscal year 2003, $1,573,704; fiscal year 2004, $1,408,640; fiscal year 
2005, $1,496,928; fiscal year 2006, $1,482,030; for fiscal year 2007, 
$0; for fiscal year 2008, $1,104,216; for fiscal year 2009, $1,037,000; 
and for fiscal year 2010, $1,436,000. A total of $30,369,328 has been 
appropriated.
    The work is being conducted at State agricultural experiment 
stations in Idaho, Oregon, Washington, Michigan, Wisconsin, Minnesota, 
North Dakota, New York, Maine, Pennsylvania, Virginia, North Carolina, 
Ohio, Florida, New Jersey, Colorado, Texas, and California.
    The agency publishes a request for proposals each year for this 
project. Funds are awarded after a national-level scientific peer 
review. Comments from these agency-managed reviews have resulted in 
increased collaboration among States and among stakeholder groups, and 
improved technical quality of the research.
                     precision agriculture, alabama
    The objective of this grant is to evaluate and demonstrate the 
utility of geospatial applications to crop and forest production in 
Alabama.
    Research has begun to develop improved relationships between 
dynamic soil processes and soil hydraulic properties; develop and 
evaluate variable-rate application technologies, e.g., fertilizer, 
pesticides; improve sub-stand-level management in forestry operations; 
and develop precision irrigation technologies. Adoption of precision 
agriculture tools and technologies has increased in Alabama, with 
demonstrated economic savings of $2 to $8 per acre for spraying 
operations. In 2009, there was a 15 percent increase in the adoption of 
subsurface drip irrigation, which provides yield benefits over rain-fed 
crops.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $445,857; and for fiscal years 2009 
and 2010, $419,000 per year. A total of $1,283,857 has been 
appropriated.
    The research will be conducted at Auburn University, on experiment 
station farms, and in producer fields in Alabama.
    The project is subject to a thorough institutional peer review 
during preparation of the grant proposal. Submitted proposals undergo 
merit review by one or more agency scientists.
                    precision agriculture, kentucky
    The objective of this grant is to develop and evaluate precision 
agriculture technologies and provide producers with guidelines for 
adoption. Research focuses on agricultural practices and forestry and 
natural resources.
    Mini-grants are awarded that address both economic and 
environmental issues related to soil variability and the application of 
precision technologies. To date, more than 80 research papers have been 
produced that highlight advances in nitrogen management, soil mapping, 
Global Positioning System use and performance, crop yield monitoring 
sensors and mapping, remote sensing platforms, variable-rate 
technologies, wildlife tracking, delineating field management zones, 
and economics-based decision support systems.
    The work supported by this grant began in fiscal year 1999. The 
appropriation for fiscal year 1999 was $500,000; for fiscal year 2000, 
$850,000; for fiscal year 2001, $748,350; for fiscal year 2002, 
$733,000; for fiscal year 2003, $737,177; for fiscal year 2004, 
$659,088; for fiscal year 2005, $674,560; for fiscal year 2006, 
$668,250; for fiscal year 2007, $0; for fiscal year 2008, $502,458; for 
fiscal year 2009, $471,000; and for fiscal year 2010, $671,000. A total 
of $7,214,883 has been appropriated.
    The research is conducted at the Kentucky Agriculture Experiment 
Station, University of Kentucky laboratories, and selected producer 
field locations.
    This project is composed of mini-grants within the institution, 
each of which is peer reviewed, and the combined proposal is subjected 
to the institution's project approval process. Submitted proposals 
undergo merit review by one or more agency scientists. This program has 
not been subjected to on-site review by the agency.
                     preharvest food safety, kansas
    The objective of this grant is to identify means to control E. coli 
O157 at the farm level through research to develop and validate 
improved methods for the detection of E. coli O157:H7 in cattle feces 
and environmental samples, to improve the understanding of the natural 
ecology of E. coli O157 in cattle operations, and to identify and test 
on-farm intervention strategies for control of E. coli O157.
    Researchers have completed a study to determine the effects and 
interactions of distillers grain and dry-rolled corn supplementation of 
steam flaked corn-based finishing diets on fecal shedding of E. coli 
O157:H7. Their findings indicate that distillers grain, with or without 
dry-rolled corn supplementation, has no effect on fecal E. coli O157:H7 
shedding. Other research results suggest that using pre-evisceration 
carcass testing to reduce the effect of high shedders within a truck 
load of animals may be effective. The researchers have recently 
developed a multiplex Polymerase Chain Reaction (PCR) method to detect 
six major virulence genes of E. coli O157:H7, which has strengthened 
the identification protocol for isolates from fecal and food samples.
    The work supported by this grant began in fiscal year 1996 with 
appropriations through fiscal year 2000 of $212,000 per year; for 
fiscal year 2001, $211,534; for fiscal year 2002, $208,000; for fiscal 
year 2003, $206,648; for fiscal year 2004, $184,903; for fiscal year 
2005, $191,456; for fiscal year 2006, $199,980; for fiscal year 2007, 
$0; for fiscal year 2008, $150,936; $142,000 for fiscal year 2009; and 
$500,000 for fiscal year 2010. A total appropriation of $3,055,457 has 
been appropriated.
    The research is being conducted at Kansas State University, College 
of Veterinary Medicine, in the Department of Diagnostic Medicine/
Pathiobiology.
    An agency evaluation was conducted in November 2009 and the work 
was found to be progressing satisfactorily.
             preservation and processing research, oklahoma
    The objective of the grant is to identify the major limitations for 
maintaining quality of harvested fruits, vegetables, tree nuts, herb 
and spice crops, and prescribe appropriate harvesting, handling and 
processing protocols to extend shelf life and enhance marketability for 
horticultural commodities.
    The focus has been to maintain and improve profitability of 
integrated production and postharvest handling systems to assure an 
economic market niche for Oklahoma producers and food processors. Crop 
biosensors developed earlier in this project are being commercialized 
in Oklahoma for precision agriculture applications, and efforts to 
improve precision and expand utility of new generation sensors are 
underway. A systematic approach to develop complementary cropping, 
harvesting, handling, and processing operation has resulted in 
development of improved handling systems for cucurbit, tree fruit, and 
nutraceutical crops. Non-destructive processing systems for partial oil 
reduction of tree nuts have been developed to extend shelf life and 
lower the calorie content for the raw or processed product. A new food 
drying and extraction facility started operations in Oklahoma. Systems 
for maintenance of high active ingredients in sage, pepper, and 
watermelon crops are under development to extend efforts toward 
profitable value-added extraction of foods, and expansion of marketing 
opportunities for current and potential Oklahoma horticultural crops.
    This work has been underway since 1985. Funds have been 
appropriated as follows: fiscal year 1985, $100,000; fiscal year 1986, 
$142,000; fiscal year 1987, $242,000; fiscal years 1988 and 1989, 
$267,000 per year; fiscal year 1990, $264,000; fiscal year 1991, 
$265,000; fiscal year 1992, $282,000; fiscal year 1993, $267,000; 
fiscal year 1994, $251,000; fiscal years 1995-2000, $226,000 per year; 
fiscal year 2001, $225,503; fiscal year 2002, $221,000; fiscal year 
2003, $222,544; fiscal year 2004, $199,814; fiscal year 2005, $198,400; 
fiscal year 2006, $247,500; fiscal year 2007, $0; fiscal year 2008, 
$184,698; and fiscal years 2009 and 2010, $174,000 per year. A total of 
$5,550,459 has been appropriated.
    This work is being conducted at the Oklahoma State Agricultural 
Experiment Station, in conjunction with ongoing production research at 
the Wes Watkins Agricultural Research and Extension Center and the 
South Central Agricultural Research Laboratories.
    An agency scientist conducts a merit review of the proposal 
submitted in support of the appropriation annually. Last review of the 
project was conducted on June 25, 2009. The specific researches 
progressed well and the results were satisfactory.
    protein production for research to combat viruses and microbes, 
                              connecticut
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $500,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.
                       protein utilization, iowa
    The objective of this grant is to utilize industrial enzymes in 
enhancing the value of soybean by creating new protein products.
    To date, microscopic observations have shown that High Pressure 
Processing was efficient in releasing oil from soybean aggregates. 
Adding methanol was equally effective, offering the potential for 
incorporating EAEP with biodiesel production. Researchers evaluated 
strategies to produce high-protein feed and determined the potential of 
the skim milk fraction as a food source. Membrane filtration produced 
protein that could be spray-dried and had greatly reduced content of 
anti-nutritional factors. Researchers discovered hydrolyzing soy sugars 
with a-galactosidase increased sweetness and decreased bitterness of 
protease-modified soy protein. Industry partners adopted this 
hydrolysis procedure in their processing plant to produce hydrolysate, 
and their potential customer, an adhesives compounder, utilized the 
product in adhesives. The hydrolysate was compatible with non-phenol 
formaldehyde resins. Polyamine-epichlorohydrin can be used in soy 
adhesive systems as the primary reactant or as a crosslinker. 
Researchers discovered that chemical treatment of EAEP proteins with a 
reducing agent improved growth parameters in broiler chicks.
    This project began in fiscal year 2001 with an appropriation of 
$189,582; $186,000 for fiscal year 2002; $422,238 for fiscal year 2003; 
$671,018 for fiscal year 2004; $804,512 in fiscal year 2005; $836,550 
in fiscal year 2006; $0 in fiscal year 2007; $623,604 in fiscal year 
2008; $586,000 in fiscal year 2009; and $600,000 in fiscal year 2010. 
The total appropriation was $4,919,504.
    Research is being conducted at Iowa State University in Ames, Iowa, 
and Genencor International in Rochester, New York.
    The last agency evaluation of the project was September 2009. Work 
toward the project objectives appeared to be adequate and progressing 
according to the projected timetable.
                  rangeland ecosystems dynamics, idaho
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $300,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.
              regional barley gene mapping project, oregon
    The objective of the grant is to establish a cooperative project 
from molecular genetics to breeding that will locate and use new genes 
to add value, maximize grain quality, and ensure a more productive and 
competitive barley industry.
    A multi-institutional approach has been taken, with research being 
conducted at institutions in 17 States. Experimental lines developed by 
these researchers are being grown and tested in Colorado, Idaho, 
Kansas, Minnesota, Montana, Ohio, Oregon, Washington, and Wisconsin. 
The first major accomplishment of this research was a barley linkage 
map that was the considered the best crop plant linkage map at that 
time. The map laid the foundation for breeders and statistical 
geneticists to produce the first comprehensive genomic analysis of 
agronomic and quality traits in a crop of economic importance.
    Grants have been awarded from funds appropriated as follows: fiscal 
year 1990, $153,000; fiscal year 1991, $262,000; fiscal years 1992-
1993, $412,000 per year; fiscal year 1994, $387,000; fiscal years 1995-
1998, $348,000 per year; fiscal year 1999, $400,000; fiscal year 2000, 
$425,000; fiscal year 2001, $586,706; fiscal year 2002, $760,000; 
fiscal year 2003, $755,060; fiscal year 2004, $675,988; fiscal year 
2005, $682,496; fiscal year 2006, $675,180; fiscal year 2007, $0; 
fiscal year 2008, $502,458; and fiscal years 2009 and 2010, $471,000 
per year. A total of $9,422,888 has been appropriated.
    Research is being conducted in numerous State agricultural 
experiment stations. In recent years, research has been conducted at 
experiment stations in Oregon, Colorado, Washington, Montana, Idaho, 
North Dakota, Minnesota, New York, Virginia, Oklahoma, Utah, Wisconsin, 
and California.
    Senior agency technical staff conduct a merit review of the 
proposal for this research prior to making a funding recommendation. 
The submitting institution conducts a peer review of the proposal prior 
to submission. The research supported by this project is competitively 
awarded by a panel formed by the National Barley Improvement Committee; 
panel members include researchers, growers and industry. Researchers 
supported by this project regularly report their results for peer 
scrutiny at the annual International Conference on the Status of Plant 
and Animal Genome Research, which is co-organized by this agency.
     regionalized implications of farm programs, missouri and texas
    The objective of this grant is to provide the farm community, 
agribusiness groups, and public officials information about farm, 
trade, and fiscal policy implications by developing regionalized models 
that reflect farming characteristics for major production regions of 
the United States.
    Aggregate level impacts as well as those for all 102 representative 
farms were analyzed. The financial conditions of these farms over the 
next 5 to 7 years are presented in the 2009 Food and Agricultural 
Policy Research Institute (FAPRI)--United States and World Agricultural 
Outlook Baseline data.
    The work supported by this grant began in fiscal year 1990 and the 
appropriation for fiscal year 1990 was $346,000; in fiscal years 1991-
1993, $348,000 per year; $327,000 in fiscal year 1994; $294,000 per 
year in fiscal years 1995 through 2000; $293,353 in fiscal year 2001; 
$287,000 in fiscal year 2002; $317,920 in fiscal year 2003; $536,814 in 
fiscal year 2004; $759,872 in fiscal year 2005; $851,400 in fiscal year 
2006; $0 in fiscal year 2007; $633,534 in fiscal year 2008; and 
$595,000 per year in fiscal years 2009 and 2010. A total of $8,350,893 
has been appropriated.
    Research is being conducted by the Texas A&M University and the 
University of Missouri at Columbia.
    A formal evaluation of this project has not been carried out; 
however, the NIFA representative is in frequent communication with the 
principal investigator concerning policy analysis procedures and 
studies.
              renewable energy and products, north dakota
    The objectives of this grant are to: determine the potential yield 
of selected perennial grass varieties for biomass and biofuel 
production, evaluate weed control strategies for biomass crops, examine 
the impacts of corn-based ethanol production on markets and 
communities, and analyze the availability of nanofibers from crop 
residues to be used for biocomposites.
    Biomass production plots were seeded at four sites in May 2008. 
Initial yields on the dryland sites were lower than expected, but 
switchgrass yields at an irrigated site were 26 percent higher than 
projected. A total of 4 pre-emergent and 23 post-applied herbicides 
have been evaluated for efficacy on switchgrass, quackgrass, and smooth 
bromegrass. Switchgrass yield increased two-fold after glyphosate was 
applied to an old stand to control cool season grassy weeds. Of these, 
nine were chosen for further evaluation of weed control in an 
established switchgrass field. Herbicides for most effective control 
for quackgrass and smooth bromegrass were identified. Additional 
experiments included evaluating potential biomass yield from kenaf, 
sunnhemp, sorghums, and millets. Initial results found sorghum and 
kenaf have the potential to produce above 10 tons per acre of dry 
matter in one season and could be used as annual feedstocks for 
cellulosic ethanol production. Sugargbeet pulp is being used as a 
feedstock for ethanol production using yeast and E. coli K011. A 
solids-fed batch approach has shown that loadings up to 12 percent 
solids resulted in maximum yields. A pre-pilot scale pretreatment 
facility capable of processing 300 pounds of wheat straw feedstock per 
hour has been developed and is in the testing phase. Samples of 
cellulose nanofibers and of nanocomposite materials based on these 
fibers have been produced. A transportation model has been developed to 
optimize shipment of biomass from producing regions to preselected 
biofuel-producing plants in the northern plains region and ethanol from 
processing plants to blending locations. The model includes over 184 
biomass producing regions, approximately 25 predetermined processing 
plants and several blending locations. In addition, the model contains 
several feedstock storage areas where biomass is converted into pellets 
for shipments. An empirical model has been developed to determine the 
optimal number, location, and size of cellulose ethanol plant. The 
optimal number of plants was determined to be 10 in North Dakota with 
an optimal size of production capacity of 110 million gallons.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $744,750; $939,000 in fiscal year 
2009; and $1,000,000 in fiscal year 2010. A total of $2,683,750 has 
been appropriated.
    The research is conducted at North Dakota State University, and the 
nanofiber research is conducted in collaboration with Michigan State 
University and Michigan Biotechnology Institute.
    Fiscal year 2008 is the first year that funds were appropriated for 
this grant. The report of progress for fiscal year 2009 has been 
evaluated, and progress is being made.
                        rice agronomy, missouri
    The objective of this grant is to increase yield and quality of 
rice, reduce the cost of production, and protect the environment in the 
rice producing area in the upper Mississippi River Delta Region.
    The research has found that growing rice with pivot irrigation 
required a higher level of management for irrigation, fertilizer, and 
weed control than conventional flood irrigated rice. Possible 
advantages to the system are the ability to grow rice in fields 
unsuitable for flooding. This type of rice production may have a 
positive impact on air quality because of reduced methane emissions and 
help conserve energy. Rice production without flooding has the 
potential to reduce methane gas production. By reducing irrigation 
water use with center pivot systems compared to flooding less 
electricity was consumed for pumping. Additionally, the research has 
yielded particularly useful information about the efficacy and 
environmental impact new pest control systems, sustainable irrigation 
and fertilization practices, and the systematic interplay between new 
practices. Results were communicated to growers and rice industry 
officials through electronic media, as well as the Delta Research 
Center field day in September 2009.
    The work supported by this grant began in fiscal year 2003, and the 
appropriation for fiscal year 2003 was $198,700; fiscal year 2004, 
$177,944; fiscal year 2005, $212,288; fiscal year 2006, $247,500; 
fiscal year 2007, $0; fiscal year 2008, $184,698; and fiscal years 2009 
and 2010, $174,000 per year. A total of $1,369,130 has been 
appropriated.
    The work is conducted at the University of Missouri's Delta 
Research Center in Portageville.
    The annual proposals were peer reviewed at the institution and by 
senior agency technical staff. An onsite review is planned for 2011.
  ruminant nutrition consortium, montana, north dakota, south dakota, 
                                wyoming
    The objective of this grant is to enhance economic development in 
the four-State area of Montana, North Dakota, South Dakota, and Wyoming 
by strengthening and capturing value from the ruminant livestock 
industry.
    To date, five 15 large research trials have been initiated. 
Extensive collaborations have been established among researchers, 
making all of these projects multi-investigator and multi-
institutional. While the progress reports for these projects are not 
yet available, excellent research outcomes are expected from all five 
projects.
    This grant began in fiscal year 2002 with an appropriation of 
$400,000. In fiscal year 2003, the appropriation was $447,075; in 
fiscal year 2004, $447,345; in fiscal year 2005, $470,208; in fiscal 
year 2006, $489,060; in fiscal year 2007, $0; in fiscal year 2008, 
$465,717; and in fiscal years 2009 and 2010, $563,000 per year. A total 
of $3,845,405 has been appropriated to support this project.
    This work is being carried out at South Dakota State University, 
North Dakota State University, Montana State University, the University 
of Nebraska, and the University of Wyoming.
    This project was last reviewed by agency National Program Leaders 
in 2008. The results of the evaluation revealed that the research is 
timely, well-designed, and addresses issues of local, regional, and 
national importance.
         rural policies institute, nebraska, iowa, and missouri
    The objective of the grant is to create a new model for providing 
timely, unbiased estimates of the impacts of policies and new policy 
initiatives on rural people and places. That model was developed. 
Policy analysis research and dissemination activities expanded in 
response to emerging issues in rural America. Rural Policies Institute 
(RUPRI) facilitates panels of researchers who collaborate on topical 
areas and form the fabric of its research capacity.
    In fiscal year 2009, RUPRI expanded its capacity to provide support 
to Federal programs and initiatives including developing regional 
approaches to rural development, economic targeting analysis, and 
collaborations across agencies to enhance rural innovation, nutrition 
and wellness, and food systems analysis. It continued the interactive 
mapping application that allows USDA to visualize investments in 
relation to economic, social, and demographic indicators. It expanded 
its capacity to conduct policy analyses in emerging rural development 
issues, including broadband deployment and adoption, implications of 
climate change and energy independence, and the urban-rural 
interdependence import for policy framing. It joined discussions about 
the collaboration between philanthropy and government in rural and 
regional development and begun research on wealth creation in rural 
America. With the Aspen Institute, it convened meetings around food 
systems, ecosystem services, and alternative energy. It continued its 
communications and outreach efforts, working with State capitols, 
public interest groups, trade associations, foundations, nonprofit 
intermediaries, and higher education.
    The work supported by these grants began in fiscal year 1991 with 
an appropriation of $375,000; fiscal year 1992, $525,000; fiscal year 
1993, $692,000; fiscal year 1994, $494,000; fiscal years 1995-2000, 
$644,000 each year; fiscal year 2001, $822,000; fiscal year 2002, 
$1,040,000; fiscal year 2003, $1,261,745; fiscal year 2004, $1,129,298; 
fiscal year 2005, $1,205,280; fiscal year 2006, $1,192,950; fiscal year 
2007, $0; fiscal year 2008, $888,735; fiscal year 2009, $835,000; and 
fiscal year 2010, $889,000. A total of $15,214,008 has been 
appropriated.
    The Institute's member universities are: the University of 
Missouri--Columbia; the University of Nebraska--Lincoln; and Iowa State 
University, Ames.
    NIFA performed an external review of the Social Science Unit at the 
University of Missouri--Columbia in fall 2002, and this included a 
review of RUPRI. Since 2005 there has been an ongoing process of 
strategic review and priority setting. This has resulted in a set of 
programmatic and organizational objectives approved by the RUPRI Board 
of Directors in 2008. The National Advisory Board provides analysis of 
directions, priorities, and outcomes.
    rural renewable energy research and education center, wisconsin
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $500,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.
                     russian wheat aphid, colorado
    The objectives of the grant are the: (1) discovery of new crop 
genes that provide resistance to the Russian wheat aphid and rapid 
incorporation into wheat varieties; (2) identification and 
characterization of wheat genes involved in the defensive response to 
the Russian wheat aphid; (3) determination of mechanisms of Russian 
wheat aphid toxicity; (4) establishment of a program for rapid 
assessment of wheat quality characteristics using near-infrared 
reflectance spectroscopy; (5) development of methods to identify 
valuable wheat quality factors in a rapid manner; (6) location and 
characterization of the genetic factors controlling drought tolerance 
and end-use quality in two mapping populations; and (7) evaluation of 
promising lines of wheat for stress tolerance using field, greenhouse 
and growth chamber screening techniques.
    Progress is being made using the techniques of molecular genetics 
to reach the goal of identifying new genes for resistance to Russian 
wheat aphid and incorporating them into commercially acceptable wheat 
varieties. Specific accomplishments during the past year included 
development of experimental lines that combined resistance to the C-
biotype-two with acceptable agronomic performance, and suitable end-
use. One or more of these lines will be developed for seed increase and 
further testing in the 2011 State dryland variety trials. Gene 
silencing results from the past year indicate that the tested genes 
that were highly expressed in resistant plants are both involved in 
host plant response to Russian wheat aphid. Manipulation of the gene 
that was highly expressed in susceptible plants may provide a means to 
develop broad spectrum resistance to Russian wheat aphid. Results from 
the water use efficiency studies suggest that some of the selected 
synthetic wheat lines may be a useful source of additional variation 
for developing drought resistant wheat cultivars.
    The work supported by this grant began in fiscal year 1998, and the 
appropriation for fiscal years 1998-2000 was $200,000 per year; for 
fiscal year 2001, $249,450; for fiscal year 2002, $320,000; for fiscal 
year 2003, $317,920; for fiscal year 2004, $284,313; for fiscal year 
2005, $289,664; for fiscal year 2006, $302,940; for fiscal year 2007, 
$0; for fiscal year 2008, $228,390; for fiscal year 1990, $214,000; and 
for fiscal year 2010, $250,000. A total of $3,056,677 has been 
appropriated.
    Research is conducted on the campus of Colorado State University, 
at Colorado State University research stations, and in a collaborator's 
laboratory at Kansas State University and on the farms of cooperators 
throughout Colorado. Outreach and extension activities are shared with 
scientists and wheat growers in Colorado, Nebraska, Wyoming, Kansas, 
New Mexico, Texas, and Oklahoma through a Western region Hatch Act 
supported multi-State research and extension project.
    This project was evaluated during a site visit by senior agency 
technical staff in February 1999; the project has been evaluated using 
annual progress reports since that time.
                     seed technology, south dakota
    The objective of this grant is to develop and deliver new seed that 
will help agricultural producers enhance crop value and farm 
profitability.
    The seed technology center has been established and is providing 
training and developing seed technology and biotechnology methods 
needed to support the safe delivery of specific traits to agricultural 
producers. Traits currently available in crops include herbicide 
tolerance and insect resistance. Progress has been made on assessing 
the physiological responses of crops to stress and developing tools 
that can be used to assess the impact of stress on current genotypes. 
Research in corn has focused on improving our understanding of the 
physiological impacts of stress on corn growth and development. In rice 
and wheat, research was focused on developing a mechanistic 
understanding of seed dormancy. Findings from rice and wheat research 
will be used to reduce pre-harvest sprouting and increase seedling 
quality. Soybean research was conducted to determine if genes from wild 
soybean can be used to improve resistance to biotic and abiotic stress. 
A workshop was held to promote dialogue between producers and 
scientists concerning the importance of this research. Commodity 
representatives including those promoting corn, soybeans, and wheat 
were in attendance.
    The work supported by this grant began in fiscal year 2004, and the 
following amounts have been appropriated: in fiscal year 2004, 
$313,142; in fiscal year 2005, $354,144; in fiscal year 2006, $356,400; 
in fiscal year 2007, $0; in fiscal year 2008, $265,131; in fiscal year 
2009, $282,000; and in fiscal year 2010, $350,000. A total of 
$1,920,817 has been appropriated.
    The research is being conducted at South Dakota State University, 
Brookings, South Dakota.
    Senior agency technical staff review proposals and accomplishment 
reports to ensure technical quality and relevance to needs.
          small fruit research, oregon, washington, and idaho
    The objective of this grant is to fund studies that would enhance 
the profitability and sustainability of the small fruit industry in the 
Pacific northwest through research in genetics, pest management, small 
fruit processing, production/physiology, and wine grape production.
    This grant supports research using genetic material from national 
germplasm collections and the discovery of new isolates, which expand 
these genetic holdings. Studies supported by this project use advanced 
selections in breeding programs and approaches that utilize genetic 
engineering. Another industry wide-goal of this program is to identify 
new potentially harmful virus disorders in nursery stock and eliminate 
them prior to introduction into small fruit production systems. The 
selection and development of new small fruit varieties is essential to 
maintaining the competitiveness of the United States in the world 
market and in maintaining export advantages required for our 
international balance of trade.
    The initial support for this grant was an appropriation in fiscal 
year 1991 for $125,000. The fiscal appropriation for fiscal years 1992 
and 1993 was $187,000 each year; fiscal year 1994, $235,000; fiscal 
years 1995-1998, $212,000 each year; fiscal years 1999 and 2000, 
$300,000 each year; fiscal year 2001, $324,285; fiscal year 2002, 
$392,000; fiscal year 2003, $397,400; fiscal year 2004, $354,894; 
fiscal year 2005, $421,600; fiscal year 2006, $438,570; fiscal year 
2007, $0; fiscal year 2008, $326,697; and fiscal year2 2009 and 2010, 
$307,000 per year. A total of $5,451,446 has been appropriated since 
the project was initiated in 1991.
    The research is conducted at 10 research sites across the Pacific 
Northwest, managed by Oregon State University, Washington State 
University, and the University of Idaho. Research on projects under 
this grant is also conducted at several Agricultural Research Service 
laboratories and experiment stations in the Pacific Northwest.
    Senior agency technical staff conducted an on-site review in 
December 2009. In addition, evaluation of this project is conducted 
annually based on the annual progress report and discussions with the 
principal investigator.
   soil-borne disease prevention in irrigated agriculture, new mexico
    The objective of this grant is to produce safe and nutritious foods 
by developing strategies for prevention of soil-borne diseases in 
irrigated agriculture. Research includes focusing on genetic 
improvement of cultivars of chile pepper, determining the race 
structure of the fungal pathogen Phytophthora capsici, and 
understanding the molecular basis of resistance and virulence.
    To date, the scientists have developed genetically improved 
cultivars and produced seeds that they continue to test for disease 
resistance. They will continue this cycle of events until the desired 
horticultural and agronomic traits needed by industry and consumers are 
acceptable. They have also developed a more reliable and rapid 
screening method to hasten the selection for disease resistance 
breeding stock. The new method allows them to screen numerous races of 
foliar blight in a single plant. Further, this method allows them to 
distinguish between resistant and susceptible plants in a 3-day period 
which is much faster than with the traditional method. They have 
distributed recombinant inbred lines of chile pepper to researchers in 
several countries including China, Peru, Brazil and India, in addition 
to several States in the United States. They continue gain further 
insight and knowledge into the host-pathogen interaction and therefore, 
are gaining a foothold on reaching their ultimate goal.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $186,684; for fiscal year 2009, 
$176,000; and for fiscal year 2010, $187,000. A total of $549,684 has 
been appropriated.
    The research is being conducted at New Mexico State University 
research facilities.
    Fiscal year 2008 was the first year that funds were appropriated. A 
new proposal, including a progress report, was submitted, reviewed and 
approved for fiscal year 2009 funding.
           southern great plains dairy consortium, new mexico
    The objective of this grant is to investigate the economic and 
environmental impacts of the dairy industry on local economies, air 
quality, carbon footprint, and water use in the Southern Great Plains 
region.
    The formation of multi-disciplinary, university faculty research 
teams to address identified issues has been accomplished. Work toward 
the determination of the effects of dairies on local economies--air 
quality, carbon footprint, and water use--has been implemented by the 
multi-disciplinary, university faculty research teams and is currently 
underway.
    Fiscal year 2009 was the first year that funds were appropriated 
for this grant with an amount of $235,000; and in fiscal year 2010, 
$350,000. A total of $585,000 has been appropriated.
    The work is being carried out at New Mexico State University and on 
farms in New Mexico and Texas.
    Fiscal year 2009 was the first year that funds were appropriated 
for this grant, so NIFA has not yet conducted an evaluation of this 
project.
southwest consortium for plant genetics and water resources, new mexico
    The objectives of this grant are to understand tolerance to 
biological and chemical stresses in plants and the impact of these 
stresses on susceptibility of plants to pests and pathogens and on 
symbiotic beneficial organisms. An additional objective is to develop 
and evaluate genetically transformed plants for better adaptability to 
stresses of arid and semi-arid environments and the problems of water 
use efficiency and water quality.
    Researchers have used chromosome translocation to create bread 
wheat lines that can be selected for increased root size and branching. 
Many of these selected plants have been shown to exhibit increased 
drought tolerance and higher grain yields in the greenhouse, and are 
now being moved into field trials. Several families of drought-tolerant 
alfalfa have been identified using biomass markers. They have been 
successfully field tested and are now being introduced into cultivars 
for commercial application. New insight into how plants regulate their 
stress genes, including the regulation of saline and heat stress has 
been gained in tomato and in the model plant Arabidopsis.
    The work supported by this grant began in fiscal year 1986 and has 
been provided with appropriations of the following amounts: fiscal year 
1986, $285,000; fiscal years 1987-1989, $385,000 per year; fiscal year 
1990, $380,000; fiscal years 1991-1993, $400,000 per year; fiscal year 
1994, $376,000; fiscal years 1995-2000, $338,000 per year; fiscal year 
2001, $368,188; fiscal year 2002, $392,000; fiscal year 2003, $389,452; 
fiscal year 2004, $350,917; fiscal year 2005, $372,992; fiscal year 
2006, $388,080; fiscal year 2007, $0; fiscal year 2008, $288,963; and 
fiscal years 2009 and 2010, $271,000 per year. A total of $8,516,592 
has been appropriated since fiscal year 1986.
    The research teams are formed from researchers at five 
participating southwestern institutions: New Mexico State University, 
Texas Tech University, Los Alamos National Laboratory, University of 
Arizona, and the University of California in Riverside.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation. 
The submitting institution conducts a peer review of the proposal prior 
to submission. Research funding is awarded to researchers at five 
participating institutions through a mini-grant program. Projects are 
selected for funding based on a competitive external peer review and a 
project committee review. A progress report is submitted for review by 
each funded mini grant project prior to the award of second year funds. 
An annual symposium is held for researchers to present and discuss 
results.
                    soybean cyst nematode, missouri
    The objective of this grant is to develop new management strategies 
for managing soybean cyst nematode including research on soybean host 
resistance and Soybean cyst nematode variability.
    Since 2003, several nematode resistant soybean lines were released, 
and many experimental lines with resistance to soybean cyst nematode 
and glyphosate herbicide have been evaluated. The pathogen has 
continued to become increasingly variable genetically and in virulence, 
increasing the need for more locally adapted high-yielding soybean 
breeding lines to develop resistant varieties with a broad spectrum of 
resistance. Over 500 new resistant soybean lines resulting from this 
program were tested in 2008 and many of these were tested again in 
2009. Two of the 120 lines screened in 2008 were identified with broad 
spectrum resistance to soybean cyst nematode and also have resistance 
to other pests of soybean, the reniform nematode, the root knot 
nematode and a fungal leaf disease called frogeye leafspot. More lines 
with similar pest resistance spectra are continuing in evaluation. 
Tolerance to glyphosate herbicide has been incorporated into some of 
these new lines which offer great promise for producers. More 
fundamental research involves the utilization of new molecular 
technologies to identify genes responsible for resistance. Genetic 
fingerprinting of soybean lines has identified several multiple genes 
for soybean cyst nematode resistance. This team has increased output of 
soybean cyst nematode resistant cultivars in recent years through use 
of marker assisted selection to screen over 15,000 soybean lines 
annually and has developed markers to better identify lines with 
resistance to race three of the nematode. As the project has developed, 
the objectives have been grouped into two priority research areas, 
soybean resistance to SCN and the variability of the pathogen. Under 
the resistance priority, the following goals as currently being 
pursued, to continue to develop breeding material, to improve the 
marker assisted selection used in the breeding programs, to expand the 
gene maps for SCN resistance, to identify new sources of SCN 
resistance, to better understand the genetics of SCN resistance, and to 
educate the public about SCN through the Cooperative Extension Service. 
The variability priority area is examining population genetics to 
better understand the pathogen and its relationship with the soybean 
plant, determine the number of virulence genes in the nematode and 
their heritability, to use molecular biology methods to differentiate 
SCN variants, and to educate the public about the variability of the 
pathogen.
    Grants have been awarded from funds appropriated as follows: fiscal 
year 1979, $150,000; fiscal years 1980-1981, $250,000 per year; fiscal 
year 1982, $240,000; fiscal years 1983-1985, $300,000 per year; fiscal 
years 1986-1989, $285,000 per year; fiscal year 1990, $281,000; fiscal 
year 1991, $330,000; fiscal years 1992-1993, $359,000; fiscal year 
1994, $337,000; fiscal years 1995-1997, $303,000 per year; fiscal year 
1998, $450,000; fiscal years 1999-2000, $475,000 per year; fiscal year 
2001, 598,680; fiscal year 2002, $686,000; fiscal year 2003, $688,496; 
fiscal year 2004, $616,342; fiscal year 2005, $702,336; fiscal year 
2006, $793,980; fiscal year 2007, $0; fiscal year 2008, $591,828; and 
fiscal years 2009 and 2010, $556,000 per year. The total amount 
appropriated to date is $12,694,662.
    This research is being conducted at the Missouri Agriculture 
Experiment Station locations and at the University of Missouri.
    The last evaluation of this project was an external review in 
September 2008. The review indicated satisfaction with processes 
followed in administering the grant and the progress made in addressing 
this insidious problem in soybean production fields.
                       soybean research, illinois
    The objective of this grant is to use biotechnology to identify and 
create improved mechanisms of disease tolerance and resistance to 
contribute to the reduction of yield losses from plant diseases.
    In the past year, significant progress has been achieved including 
the completion of a comparative analysis of soybean defense responsive 
genes to provide a defense-specific promoter for high-throughput 
disease screens; the development of markers for a novel source of 
soybean aphid resistance; combining the primary genes conveying 
resistance to soybean cyst nematode in one soybean genotype, providing 
broad based soybean cyst nematode resistance; developing a new method 
for marker discovery that has detected between 3,500 and 15,000 
informative markers for in four tested soybean cultivars; discovering a 
physiological pathway that can be exploited for engineering soybean 
cyst nematode resistance in soybean; developing an improved serological 
test to detect soybean rust spores and developed a way to differentiate 
living and dead soybean rust spores; identifying as many as 40 new 
potential genes for resistance to soybean rust from a wild relative of 
soybean, Glycine tomentella and producing hybrids from Glycine 
tomentella and soybean that appear to be resistance to soybean rust; 
developing a novel software program, Global Food in 3D, to help policy 
makers, analysts, and students understand the changing global demand 
for protein and showed that markets for soy products from the United 
States are dramatically shifting to the fast growing Asia region.
    The work supported by this grant began in fiscal year 2002, and the 
appropriation for fiscal year 2002 was $800,000; $844,475 in fiscal 
year 2003; $755,516 in fiscal year 2004; $955,296 in fiscal year 2005; 
$1,065,240 in fiscal year 2006; $0 in fiscal year 2007; $793,407 in 
fiscal year 2008; $745,000 per year in fiscal years 2009 and 2010. The 
total amount appropriated is $6,703,934.
    The work is conducted by researchers at the Soybean Disease 
Biotechnology Center on the campus of the University of Illinois.
    Each proposal is peer reviewed by the submitting institution and 
senior agency personnel technically review the research proposal and 
provide oversight.
                       specialty crops, arkansas
    The objective of this grant is to assist growers, producers, and 
processors in the development of profitable production systems to 
provide wholesome, safe, and nutritious specialty crops that promote 
human health.
    Identification of new value-added products and development of 
affordable processing techniques that maintain or enhance their sensory 
and nutritional characteristics can enhance the viability and 
sustainability of the small and medium-sized farms. Addressing food 
safety concerns and optimizing the health-promoting aspects of products 
are critical. The work with blueberries can serve as a template for use 
with other specialty crops. Other research has demonstrated value for 
environmentally friendly, sustainable uses of specialty crop waste.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $74,475; and fiscal year 2009, 
$164,000; and for fiscal year 2010, $175,000. A total of $413,475 has 
been appropriated.
    The research will be conducted at the University of Arkansas.
    Senior agency technical staff evaluated the research each year, and 
satisfactory progress has been made.
                        specialty crops, indiana
    The objective of this grant is to conduct research on gummy stem 
blight, a fungal disease of melons, and to expand off-season production 
of vegetable crops employing high-tunnel growth facilities.
    This research will contribute to the establishment of a specialty 
crops research, teaching, and extension program at the Southwest 
Indiana Purdue Agricultural Center. The initial phase involves 
assembling the research facilities needed to pursue the research on 
fungal diseases of melons and on off-season production of specialty 
crops.
    A wide variety of horticultural production techniques will be 
evaluated with the goal of increasing productivity and maximizing yield 
potential. The geographic and climatic conditions in southwest Indiana 
make the area ideal for fruit and vegetable production as well as for 
greenhouse production of floricultural and nursery crops. This area 
fills a production niche between crops grown in the South and those 
from colder climates to the north. A well-educated workforce and 
effective strategies to combat diseases of the principal crops are 
needed to support and expand an already significant contributor to the 
economic activity of southern Indiana; melons alone are a $34 million 
crop from the region. Because approximately 40 percent of the Nation's 
population lives within a 500-mile radius of Vincennes and Evansville, 
Indiana, same-day distribution of fresh produce and floricultural crops 
is feasible.
    Fiscal year 2009 was the first year that funds were appropriated 
for this grant. An amount of $235,000 per year was appropriated for 
this grant in fiscal years 2009 and 2010. The total amount appropriated 
is $470,000.
    The work is being carried out at Purdue University.
    The proposal was subjected to peer review by the submitting 
institution. Additionally, senior agency technical staff conducted a 
critical review of the proposal prior to awarding the grant.
                steep-water quality in pacific northwest
    The objectives of this grant are to: (1) determine the impact of 
farming practices and systems on soil, water, and air quality; (2) 
develop new technologies and increase efficiency of inputs which 
improve profitability of conservation farming systems; (3) assess the 
profitability of conservation systems; and (4) accelerate grower 
evaluation and adaptation of profitable conservation farm systems. 
Substantial progress has been made toward meeting the objectives.
    The work supported by this grant began in fiscal year 1991, and the 
appropriations for fiscal years 1991-1993 were $980,000 per year; in 
fiscal year 1994, $921,000; in fiscal year 1995, $829,000; in fiscal 
years 1996-2000, $500,000 per year; in fiscal year 2001, $498,900; in 
fiscal year 2002, $588,000; in fiscal year 2003, $665,645; in fiscal 
year 2004, $595,466; in fiscal year 2005, $639,840; in fiscal year 
2006, $633,600; in fiscal year 2007, $0; in fiscal year 2008, $472,668; 
and in fiscal years 2009 and 2010, $444,000 per year. A total of 
$12,172,119 has been appropriated.
    This project is hosted by Washington State University. However, the 
research activities are conducted on farmlands across Idaho, Oregon, 
and Washington with cooperation from researchers and educators at the 
University of Idaho, Oregon State University, and Washington State 
University.
    The Project Director met with the National Program Leader in the 
summer of 2009 as part of a regional water quality program review. The 
project leadership team meets every year to evaluate the overall 
project and contributing projects. Overall, the project is meeting the 
goals and remains on schedule as indicated in their plan of work. A 
comprehensive review of project accomplishments is being planned for 
2010, and an overall evaluation will be conducted in conjunction with 
that review.
                  sustainable agriculture, california
    The objective of the grant is to improve the sustainability of the 
food and agriculture system along the Central Coast of California by: 
developing economically viable strawberry and vegetable crop management 
systems that emphasize crop health, reduce environmental impacts, and 
contribute to regional biodiversity conservation; enhancing ecosystem 
health in multiple-use watersheds through innovative partnerships; 
examining ways to increase participation in the development of 
sustainable food systems; and examining social and economic factors 
affecting the development of sustainable food systems in communities.
    The work supported by this grant began in fiscal year 2000, and the 
appropriation for fiscal year 2000 was $255,000; in fiscal year 2001, 
$392,135; in fiscal year 2002, $400,000; in fiscal year 2003, $496,750; 
in fiscal year 2004, $444,363; in fiscal year 2005, $514,848; in fiscal 
year 2006, $509,850; in fiscal year 2007, $0; in fiscal year 2008, 
$380,319; and in fiscal years 2009 and 2010, $357,000 per year. The 
total appropriation is $4,107,265.
    The work is being carried out in the Monterey Bay area of 
California by the Center for Agroecology and Sustainable Food Systems 
at the University of California at Santa Cruz.
    Progress reports are submitted annually and are reviewed by the 
NIFA scientific staff. The latest review, in June 2009, found the 
procedures reasonable and recommended funding.
                   sustainable agriculture, michigan
    The objective of the grant is the development of production ecology 
information for use in farm management decisionmaking.
    Researchers have discovered methods of compost and gypsum 
application that improve quality and yield of sweet corn, learned that 
there is a high demand for pasture-raised livestock products, and 
developed outreach programs for organic growers. They have also tested 
such soil-building techniques as cover crops and low-till weed control 
and worked with Michigan farmers to develop packaging and labeling for 
their products. Results have been summarized in a variety of research 
reports as well as a series of practical manuals for field crops, fruit 
crops, pest management, and farming systems.
    The work supported by this grant began in fiscal year 1994 with an 
appropriation of $494,000; $445,000 per year in fiscal years 1995 
through 2000; $444,021 in fiscal year 2001; $435,000 in fiscal year 
2002; $432,173 in fiscal year 2003; $386,705 in fiscal year 2004; 
$383,904 in fiscal year 2005; $380,160 in fiscal year 2006; $0 in 
fiscal year 2007; $283,005 in fiscal year 2008; and $266,000 per year 
in fiscal years 2009 and 2010 bringing total appropriations to 
$6,440,968.
    This work is being carried out at research stations and other 
locations at Michigan State University and on cooperating farms around 
the State.
    Reports are submitted annually and are reviewed by the NIFA 
scientific staff. The most recent review, in June 2009, determined that 
the procedures were thoroughly described and scientifically sound.
      sustainable agriculture and natural resources, pennsylvania
    The objective of this grant is to assist farmers in developing 
strategies to address issues related to the production, profitability, 
and sustainability of organic and conventional production systems.
    A study is being conducted to determine if seeding rates can be 
reduced without reducing the harvest yield of grain soybeans. Studies 
will continue on commercially available products that claim to reduce 
loss of surface applied nitrogen. Investigations will continue into 
improved cover cropping in the Eastern United States.
    Sustainability of various production systems has been improved. On-
farm Soybean network is being developed for use by the farmers.
    The work supported under this grant began in fiscal year 1993. The 
appropriation for fiscal year 1993 was $100,000; $94,000 per year in 
fiscal years 1994 through 1998; $95,000 per year in fiscal years 1999 
and 2000; $99,780 in fiscal year 2001; $123,000 in fiscal year 2002; 
$149,025 in fiscal year 2003; $133,209 in fiscal year 2004; $190,464 in 
fiscal year 2005; $188,100 in fiscal year 2006; $0 in fiscal year 2007; 
$141,999 in fiscal year 2008; $133,000 in fiscal year 2009; and 
$142,000 in fiscal year 2010. A total of $2,060,577 has been 
appropriated.
    Research is being conducted by the Pennsylvania State University on 
farms throughout the State of Pennsylvania. Additional work is being 
undertaken by county-based or statewide specialists in Cooperative 
Extension, Rodale Institute, Pennsylvania Association for Sustainable 
Agriculture, Pennsylvania Certified Organic, and farmer commodity 
groups.
    Annual proposals for funding are peer reviewed for relevance and 
scientific merit. The NIFA contact is also in regular contact with the 
principal researcher at the key institution to discuss progress towards 
meeting project objectives. Agency evaluation of this project has not 
been conducted.
                    sustainable beef supply, montana
    The objectives of this grant are: (1) development and delivery of 
educational programs aimed at providing research-based information and 
meeting beef quality assurance standards; (2) certification of feeder 
calves that have met defined beef quality assurance management 
protocols; (3) information feedback from the feedlot and packing plant 
to the cow-calf producer showing if the feeder calves met industry 
requirements for quality, consistency, and red meat yield; (4) age and 
source certification of weaned calves for the export market such as 
Japan; (5) development and delivery of educational materials associated 
with biosecurity of the ranch to prevent disease; and (6) development 
of material for an interactive television program on Global Beef 
Production.
    Research aimed at measuring phenotypic and genetic effects of 
reducing feed intake in beef heifers and cows will be measured. 
Reducing feed intake without negatively impacting reproduction, calf 
weaning weights, and bull fertility is the main focus with measurements 
of greenhouse gas--methane, carbon dioxide and nitrous oxide--
production the secondary focus. The hypothesis is that feed intake can 
be reduced 15 percent and greenhouse gases can be reduced 17 percent 
without affecting productivity. By using county extension agents to 
assist with producer training, beef producers are educated on methods 
to reduce beef quality defects; age and source verify weaned calves; 
and subsequently improve the value of cattle and carcasses. As part of 
a regional project, carcass data collected over the past 5 years will 
be analyzed to determine if production practices have changed with 
regard to carcass quality and yield. The starting point for this 
research is accomplished by a series of hands-on courses demonstrating 
best management practices. The Montana Stockgrowers Association and 
Montana State University will provide beef quality assurance education 
throughout the State. Finally, as a component of the educational focus, 
a cooperative effort between Montana State University, Montana 
Stockgrowers Association, and Montana Grain Growers Association, the 
Montana MarketManager Web site will be implemented.
    The work supported by this grant began in fiscal year 1999. The 
appropriation for fiscal year 1999 was $500,000; for fiscal year 2000, 
$637,500; for fiscal year 2001, $742,363; for fiscal year 2002, 
$1,000,000; for fiscal year 2003, $993,500; for fiscal year 2004, 
$889,720; for fiscal year 2005, $937,440; for fiscal year 2006, 
$974,160; for fiscal year 2007, $0; for fiscal year 2008, $725,883; and 
for fiscal years 2009 and 2010, $682,000 per year. The total amount 
appropriated is $8,764,566.
    The work is a joint project that is being carried out at Montana 
State University in Bozeman and the Montana Stockgrowers Association in 
Helena. In addition, various beef cattle ranches in Montana and 
cooperating beef processing facilities are located in more than 10 
States throughout the Midwest.
    NIFA National Program Leaders evaluated this project in June 2009. 
The NIFA review found that progress has been made. The goals and 
objectives of the project are relevant to the mission of the USDA and 
NIFA.
  sustainable engineered materials from renewable resources, virginia
    The objectives of the grant are to: (1) develop a methodology and a 
database for assessing alternative forest management practices 
consistent with future demand for wood products; (2) develop 
methodology for designing, evaluating, and deploying new composite 
products based on principles of materials science; and (3) assess the 
economic viability of developing a new wood-based composite products 
and alternative forest management practices.
    In 2009, Virginia Tech's Sustainable Engineered Materials Institute 
provided a hotbed for material innovation through exploration and 
creation of new competitive biobased products and materials that can 
enter new markets, create economic recovery, and enhance U.S. 
competitiveness. One of its research efforts created a natural fiber 
that is substantially less susceptible to destruction from natural 
sources such as insects and microorganisms. Current estimates show that 
utilizing this process to create a natural durable fiber could result 
in saving U.S. homeowners over $1 billion annually in preventative and 
remedial treatments currently required to repair damage caused by 
insects and decay fungi. Engineered wood and fiber products being 
created in this research offers the opportunity for dramatic reduction 
in the need for petroleum products, less waste of our Nation's natural 
resources, superior product performance, and new economic development 
opportunities. By utilizing engineered wood and fiber products rather 
than solid wood, we could save approximately 50 percent of the U.S. 
wood resources for other uses such as biofuels and bioenergy.
    The work supported by this grant began in fiscal year 2002 with an 
appropriation of $400,000; $596,100 for fiscal year 2003; $532,838 for 
fiscal year 2004; $603,136 for fiscal year 2005; $693,000 in fiscal 
year 2006; $0 in fiscal year 2007; $516,360 in fiscal year 2008; and 
$485,000 per year in fiscal years 2009 and 2010. A total of $4,311,434 
has been appropriated.
    Research is being conducted at Virginia Tech in Blacksburg, 
Virginia.
    An evaluation on this project is planned for 2010.
 sustainable production and processing research for lowbush specialty 
                              crop, maine
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $200,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.
         swine and other animal waste treatment, north carolina
    The objective of this grant is to establish a poultry and livestock 
air quality research and education initiative that will foster growth 
of research programs in agricultural air quality that provide the basis 
for effective outreach and educational programs, locally and 
nationally.
    A porous windbreak wall and a biofilter for the exhaust air from 
the swine facility have been constructed. Twelve environmentally 
controlled poultry chambers have been used to measure the effect of 
various manure management practices, ventilation systems, and animal 
diets on the air emissions from the chambers. The vermicomposting pilot 
unit at Lake Wheeler Research Farm revealed that this pilot system 
works comparatively better for reducing bacteria fecal coliform, 
Escherichia coli, and enterococci than two previously studied 
conventional lagoon/sprayfield systems.
    The work supported by this grant began in fiscal year 1997, and the 
appropriation for fiscal year 1997 was $215,000; for fiscal year 1998, 
$300,000; for fiscal years 1999 and 2000, $500,000 per year; for fiscal 
year 2001, $498,900; for fiscal year 2002, $489,000; for fiscal year 
2003, $491,783; for fiscal year 2004, $440,386; for fiscal year 2005, 
$466,240; for fiscal year 2006, $484,110; for fiscal year 2007, $0; for 
fiscal year 2008, $372,375; and for fiscal years 2009 and 2010, 
$349,000 per year. A total of $5,455,794 has been appropriated.
    This work is being conducted at North Carolina State University in 
Raleigh and with linkages throughout the country.
    The NIFA conducted an evaluation of the progress of this work 
during 2009. The project has made progress towards meeting the original 
goals.
     technology for irrigated vegetable production, north carolina
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $500,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.
                     texas obesity research project
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $500,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.
              tick borne disease prevention, rhode island
    The objective of this grant is to develop the predictive model 
framework and Geographic Information System tools for communicating 
changes in risk and a comprehensive community-based public health 
action plan for tick-borne disease prevention.
    Accomplishments include annual Rhode Island-wide tick surveillance 
data collection for development of a risk model for the northeastern 
States; continued progress on evaluating environmental parameters 
including direct measurement of relative humidity duration for 
refinement of a climate-based model for tick and disease risk; 
development of tools for the health information delivery and decision 
support system; enhancements to the public Internet Tick Encounter 
Resource Center; and interactive workshops with citizens of Rhode 
Island to provide practical information on reduction of risks to tick-
borne diseases.
    The work supported by this grant began in fiscal year 2003 with an 
appropriation of $99,350; for fiscal year 2004, $88,475; for fiscal 
year 2005, $142,848; for fiscal year 2006, $148,500; for fiscal year 
2007, $0; for fiscal year 2008, $297,900; and for fiscal years 2009 and 
2010, $280,000 per year. A total of $1,337,073 has been appropriated.
    The research is being performed by the University of Rhode Island 
at Kingston and at more than 61 field locations throughout the State.
    Senior agency technical staff evaluated this project in August 
2009. This year's review found the progress on the stated research 
objects is on schedule, and the research is answering the overall 
objectives of this grant.
           tillage, silviculture, waste management, louisiana
    The objective of this grant is improve conservation tillage systems 
for Louisiana crops and to address manure issues from dairy and poultry 
operations, as well as reduce stream pollution from livestock and 
forestry.
    Practices to promote greater efficiency of crops within and among 
cropping systems and to reduce production costs are being incorporated 
to maintain crop productivity with fewer negative effects on the 
environment. Continued work on maintaining forest soil fertility and 
quality where pine straw is annually removed further supports poultry 
litter as superior to inorganic fertilizer. This project is serving as 
a foundation for future water quality research in other regions of the 
country. Techniques, procedures and expertise learned in the planning 
and implementation of this project will be used to guide continuing 
research on water quality and waste management in this area. A biomass 
gasifier was designed and built at Louisiana State University (LSU). A 
non-provisional patent was filed in June 2008. A larger--500 lb/hr--
gasifier unit will be constructed by an investor in early 2010. A novel 
technique of producing crude-type oil from wet dairy slurries was also 
researched. Tests in 2008 were severely impacted by flooding and winds 
of Hurricane Gustav that lowered overall yields by 30 to 50 percent, 
and require caution in interpreting recent results.
    The work began in fiscal year 1994. The appropriation for fiscal 
year 1994 was $235,000; for fiscal years 1995-2000, $212,000 per year; 
for fiscal year 2001, $211,534; for fiscal year 2002, $400,000; for 
fiscal year 2003, $422,238; for fiscal year 2004, $377,758; for fiscal 
year 2005, $424,576; for fiscal year 2006, $495,000; for fiscal year 
2007, $0; for fiscal year 2008, $368,403; for fiscal year 2009, 
$188,000; and for fiscal year 2010, $200,000. This sums to $4,594,509.
    The work is being conducted on the main campus at Louisiana State 
University and at LSU's Experiment Stations at Calhoun, Crowley, Chase, 
Winnsboro, St. Joseph, and Washington Parishes.
    An on-site review is planned for 2010.
                tri-state joint peanut research, alabama
    The objective of this grant is to increase peanut yields through 
sod-based rotations and conservation tillage cropping systems by 
developing and comparing the economic and environmental benefits of 
conventional and sod-based farming systems using conservation tillage, 
quantifying the positive impact that sod-based rotations have on soil 
health, pest reduction and sustainable farm production, and identifying 
production practices that result in significant yield increases with 
decreased inputs in a sod-based rotation.
    Researchers are currently monitoring disease, insect, and nematode 
levels in different phases of the sod-based cropping system in Alabama, 
Florida and Georgia for peanuts and cotton with Bahia grass. Economic 
returns from these systems are being evaluated through the economic 
model developed for this system. Soil health factors such as 
penetrometer measurements have been taken in the field. Crop growth 
parameters and nitrate levels are being monitored in each cropping 
system to determine the value of conservation tillage and of perennial 
grasses in rotation. Economic models developed thus far through this 
research indicate that a 200 acre farm can increase its net profit from 
less than $10,000 per year under the present peanut, cotton, cotton 
rotation to over $40,000 per year with the bahiagrass rotation. A 
reduction in pesticide costs is also projected of over $6,000 on the 
farm practicing the rotation. A simple spreadsheet business model is 
now available for bahiagrass, cattle, peanuts and cotton rotation.
    The work supported by this grant began in fiscal year 2002, and the 
following amounts have been appropriated: in fiscal year 2002, 
$600,000; in fiscal year 2003, $596,100; in fiscal year 2004, $532,838; 
in fiscal year 2005, $562,464; in fiscal year 2006, $585,090; in fiscal 
year 2007, $0; in fiscal year 2008, $439,899; and in fiscal years 2009 
and 2010, $413,000 per year. A total of $4,142,691 has been 
appropriated since fiscal year 2002.
    The research is being conducted at Auburn University, the 
University of Florida, and the University of Georgia.
    Senior agency technical staff reviewed the accomplishment reports 
submitted for each fiscal year since 2004 and have determined that the 
investigators are making progress toward the achievement of their 
stated objectives for each proposal. A review of recent progress will 
be conducted upon the submission of a progress report to be included in 
a new proposal solicited for 2010.
                     tropical aquaculture, florida
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an appropriation of $300,000. Since this is a new 
grant, no information is available regarding the program's research 
goals and objectives.
 tropical and subtropical research/t star, florida, usvi, puerto rico, 
                                and guam
    The objectives of the grants are to: (1) provide research that 
maintains and enhances production of established tropical and 
subtropical agricultural products; (2) develop agricultural practices 
in the tropics and subtropics that are environmentally acceptable 
through an agro-ecosystems approach; (3) enhance the role of value-
added agriculture in tropical island ecosystems; (4) expand and 
diversify presently unexploited food and fiber products which have 
potential for commercial production in tropical and subtropical 
regions; (5) expand linkages of tropical and subtropical agriculture to 
related industries and economic sectors; (6) develop and deliver user-
friendly decision support packages to help client needs; (7) address 
invasive species issues affecting agriculture in the Pacific Basin; and 
(8) enhance the linkages of agricultural and food production and 
consumption by designing foods and intervention strategies that lead to 
healthy and productive citizens in the tropical and sub-tropical 
regions.
    Participants of T STAR program are the University of Florida, the 
University of Puerto Rico and the University of the United States 
Virgin Islands. These three institutions make up the T STAR Caribbean 
basin, while the Pacific basin is comprised of the University of Hawaii 
and the University of Guam. The Administrative group of the Caribbean 
basin includes State Agricultural Experiment Station staff from 
Florida, Puerto Rico and the Virgin Islands. The Administrative group 
of T STAR Pacific basin includes State Agricultural Experiment Station 
staff from Hawaii and Guam. The Executive Director of the Association 
of the Southern Region Agricultural Experiment Station Directors is a 
participating non-member of the T STAR Caribbean, while the Executive 
Director of the Association of the Western Region Agricultural 
Experiment Station Directors is a participating non-member of the T 
STAR Pacific basin. The Agricultural Research Service of the United 
States Department of Agriculture is also represented in each basin. 
Oversight for the T STAR program is provided by two National Program 
Leaders in the National Institute of Food and Agriculture. Along with 
funding, responsibilities for each basin are divided equally between 
the Administrative groups.
    T STAR participants also collaborate with food and agricultural 
scientists throughout the region including all Ministers of Agriculture 
in the Caribbean region, French Overseas Departments, the Dutch 
Republic and the State of Florida. These relationships are critical in 
the battle against pests and diseases that are either affecting and or 
predicted to become problematic in the region
    In Guam, funds were used to study the genetic structure of cycads, 
which are important ecologically but also as ornamentals. The work is 
being coordinated on a global scale with cooperators located from 
Thailand to New York State.
    T STAR scientists have been successfully meeting these goals over 
the life of the program. However, new and emerging issues continue to 
present new challenges, many times, on an annual or even monthly basis. 
The Administrative group, in consultation with their stakeholders, 
identifies the most pressing needs of the food and agricultural sectors 
for focusing their research efforts. For example, in the Caribbean 
basin, funds are being focused on invasive aquatic and terrestrial 
invasive pests and diseases of animals and plants. The goal is to 
reduce, eliminate and or prevent the entry of organisms, all while 
protecting and conserving the natural resources and ecosystem of the 
basin. All the funded projects address important local, regional and 
national needs, for example, the effect of climate change on the pests 
and diseases, improving meat and fish production efficiency, quality of 
foods like coffee, and invasive woody plants and their impact on the 
ecosystem.
    The operation of the Tropical and Subtropical Research program was 
transferred from the Agricultural Research Service to the agency in 
fiscal year 1983. Funds were appropriated as follows: fiscal years 1983 
and 1984, $2,980,000 per year; fiscal year 1985, $3,250,000; fiscal 
years 1986-1988, $3,091,000 per year; fiscal year 1989, $3,341,000; 
fiscal year 1990, $3,299,000; fiscal years, 1991-1993, $3,320,000 per 
year; fiscal year 1994, $3,121,000; fiscal years 1995-1996, $2,809,000 
per year; fiscal years 1997-2000, $2,724,000 per year; fiscal year 
2001, $3,853,504; fiscal year 2002, $8,000,000; fiscal year 2003, 
$8,941,500; fiscal year 2004, $8,946,900; fiscal year 2005, $9,398,208; 
for fiscal year 2006, $9,452,520; fiscal year 2007, $0; fiscal year 
2008, $7,110,873; and fiscal years 2009 and 2010, $6,677,000 per year. 
A total of $123,775,505 has been appropriated.
    Research projects submitted to the T STAR Caribbean program for 
funding undergoes a thorough peer-review process, which is then subject 
to approval by the Administrative group. The Administrative group is 
comprised of administrators from the respective institutions in each 
basin, and an Agricultural Research Service and an Executive Regional 
Research Administrator from that basin. The projects deemed worthy by 
the Administrative group are then submitted to the National Institute 
of Agriculture, which conducts its own review to determine whether 
these projects will be recommended for funding. Each Administrative 
group also meets twice per year to review the program and plan ahead 
for future endeavors. In addition, the National Program Leader for T 
STAR Caribbean is also the National Institute of Agriculture's liaison 
to the University of Florida and through this relationship, 
communicates frequently with the Administrator of the T STAR program 
regarding all related issues and progress. Success of the program is 
also tracked through annual and termination reports that are required 
by the agency. The National Program Leader is therefore able to 
determine impacts, outcomes and outputs resulting from the conduct of 
these projects.
          virtual plant database enhancement project, missouri
    The objective of this grant is to develop the complete database for 
plants of Central America by capturing half a million new specimen 
records, bar coding and geo-referencing the specimens for analysis, and 
providing Web access to these data for scientific and agricultural 
research.
    Since work on this project was initiated in 2004, a user-friendly 
data capture program for the project was developed and deployed. Twenty 
new data entry people were trained to interpret and enter data from 
herbarium specimens. Data from 356,287 specimens at the Missouri 
Botanical Garden and 34,367 specimens in Honduras have been added to 
TROPICOS. In 2009, the project exceeded its original estimate of geo-
referencing 500,000 specimens by over 200,000. The final total was 
718,354 specimens with new coordinates. The information gathered by the 
project was made immediately available on the Web to scientists, 
researchers, and the informed public.
    This project was begun in fiscal year 2004. In fiscal year 2004, 
$671,018 was appropriated; in fiscal year 2005, $705,312; in fiscal 
year 2006, $697,950; in fiscal year 2007, $0; in fiscal year 2008, 
$625,590; and in fiscal years 2009 and 2010, $588,000 per year. A total 
of $3,875,870 has been appropriated.
    This research is being conducted at the Missouri Botanical Garden.
    Senior agency technical staff completed a merit review of this 
project in April 2008 and concluded that the objectives of the research 
were of value and that the collaborative agreements with various 
collection owners and technology are in place. The annual proposals 
undergo an internal, institutional review prior to submission to the 
agency, where they are again reviewed for merit. Consistent, high-
quality data are being added daily to the database and made available 
to researchers world-wide. The Missouri Botanical Garden is making 
satisfactory progress.
              virus-free wine grape cultivars, washington
    The objective of this grant is to use virus-free grape clones to 
determine the best cultivars to use in the Pacific Northwest.
    Funds have been used to establish, expand, and maintain a 
foundation block of virus-free commercial grape cultivars from 
worldwide sources. These vines have been used to evaluate growth, 
yield, cold hardiness, and fruit and wine quality of grape scions and 
rootstocks. Data on the interactions of plant diseases with 
environmental effects are also being analyzed.
    The work supported by this grant began in fiscal year 2005 with an 
appropriation of $322,400; for fiscal year 2006, $318,700; for fiscal 
year 2007, $0; for fiscal year 2008, $237,327; for fiscal year 2009, 
$223,000; and for fiscal year 2010, $260,000. A total of $1,361,427 has 
been appropriated.
    Research is being conducted at the Washington State University 
Irrigated Agriculture Research and Extension Center.
    Each year, the proposal undergoes a peer review at the recipient 
institution and a merit review is conducted by senior agency technical 
staff.
     viticulture consortium, new york, california, and pennsylvania
    The objective of this grant is to maintain or enhance the 
competitiveness of the United States viticulture and wine industry in 
the global market by doing research on: varietal responses of grapes; 
modeling of water requirements; management of diseases and insects, 
including Phyloxera; and other cultural aspects of grape production.
    Each year, researchers meet with stakeholder advisory boards to 
determine research priorities, and these priorities are incorporated 
into subsequent request for applications. To date, an effective 
competitive research program has been established and is addressing 
priorities in the eastern and western regions of the country.
    Grants have been awarded from funds appropriated as follows: fiscal 
years 1996 and 1997, $500,000 per year; fiscal year 1998, $800,000; 
fiscal years 1999 and 2000, $1,000,000 per year; fiscal year 2001, 
$1,496,000; fiscal year 2002, $1,600,000; fiscal year 2003, $1,788,300; 
fiscal year 2004, $1,599,507; fiscal year 2005, $1,835,200; fiscal year 
2006, $2,079,000; fiscal year 2007, $0; fiscal year 2008, $1,548,087; 
and fiscal years 2009 and 2010, $1,454,000 per year. A total of 
$18,654,094 has been appropriated.
    Research is conducted in as many as 12 different States in any 1 
year. Research funds are distributed through the competitive grants 
processes administered by Cornell University and the University of 
California. Each year a request for applications is distributed to all 
States in which there is a viable grape industry.
    In addition to scientific peer review of the competitive grant 
process and the relevancy review of the regional guidance committees, 
the overall process of the Viticulture Consortium underwent review and 
recommended changes in 2006. Annually, senior agency technical staff 
participates in the review process used to select research projects. 
Funded research is addressing the objectives of the grant.
                       water conservation, kansas
    The objective of this grant is to determine the feasibility of 
subsurface drip irrigation and other alternative irrigation systems in 
western Kansas to sustain irrigated corn production to support the beef 
feedlot industry.
    Primary experimental activities were the continuation of field 
studies examining the agronomic relationship of crop yield and water 
supply as affected by irrigation technology, tillage and residue 
management, nitrogen management and plant density for use in evaluating 
limited irrigation strategies.
    Differences in soil water evaporation between bare soil and residue 
treatments were 0.50 to 0.75 mm/day which for seasonal basis might be 
55 to 58 mm. The impact of this change in knowledge is that producers 
might be able to obtain much as 2.7 Mg/ha additional corn yield.
    Tests indicated that gross irrigation savings of 25 to 100 mm per 
year are realistic when weather-based irrigation scheduling is 
practiced. In addition to the conserved water resource, energy savings 
of $10 to $40/acre are possible. Economic comparison of center pivot 
sprinklers and subsurface drip irrigation (SDI) indicated that SDI can 
be more profitable than sprinklers with good corn yields and current 
crop prices provided the system can last at least 20 years.
    The work supported by this grant began in fiscal year 1993 with an 
appropriation of $94,000; $88,000 in fiscal year 1994; $79,000 per year 
in fiscal years 1995-2000; $78,826 in fiscal year 2001; $79,000 in 
fiscal year 2002; $78,487 in fiscal year 2003; $70,581 in fiscal year 
2004; $74,400 in fiscal year 2005; $73,260 in fiscal year 2006; in 
fiscal year 2007, $0; in fiscal year 2008, $74,475; in fiscal year 
2009, $69,000; and in fiscal year 2010, $500,000. The total funds 
appropriated are $1,754,029.
    The research is being conducted at Kansas State University. The 
field portion of the research is being conducted on Research Centers at 
Colby and Garden City, Kansas. Additional work is being carried out in 
the Departments of Agronomy and Agricultural Economics of Kansas State 
University in Manhattan, Kansas.
    The agency scientist met with the principal researcher in October 
2008 to discuss the project progress and accomplishments. The 
researchers continue to make accomplishments in their research and 
dissemination of findings.
      water use efficiency and water quality enhancements, georgia
    The objective of this grant is to develop and expedite the 
implementation of new technologies to improve water use efficiency and 
water quality at both a State and watershed scale by determining the 
environmental impact of these systems on water quality.
    Detailed information on several variable rate irrigation systems 
was collected on several Georgia farms, and water quality data on 
several sites has been collected with the goal of optimizing yield, 
water quality, and field cropping patterns with a minimum of water use. 
Research to tie the current and future controller systems to wireless 
soil moisture sensors is making good progress, using soil moisture 
sensors which transmit data through a mesh network. A second generation 
commercial system that makes the nozzle system self-powering and 
controlled though a wireless ZigBee link to the controller at the pivot 
point is now being evaluated. This second generation system simplifies 
installation and maintenance by using water pressure to close the 
Bermod valve instead of air. This eliminates the need for air 
compressors and air holding tanks on the pivot. Commercial systems, 
both first and second generation, have been installed in Georgia, 
Alabama, Florida, South Carolina, North Dakota and Alaska with over 50 
cooperating growers. These sites show an average water savings of 12 to 
16 percent coupled with equal or better production. Additional systems 
are now being installed in Nebraska for the 2010 season. Growers in 
California and Maryland are likely to order in 2010 or 2011. Work has 
also progressed on a solar powered drip irrigation system, particularly 
valuable for remote sites. Work continues to simplify the system and to 
add additional information including images and temperature and 
moisture data and also to add control signals and alerts. Soil moisture 
sampling systems, developed by the project team, use a battery powered 
watermark sensor connected to a wireless data transmission system and 
promises to be significantly cheaper than all systems now commercially 
available. Results of a dissertation funded by this project and 
increased water quality monitoring have lead to recommendations for 
riparian buffers as crucial landscape Best Management Practices for 
reducing herbicide runoff from agricultural production on Georgia's 
coastal plain. The number of test sites for the variable rate center-
pivot irrigation system was expanded to over 50 last year. The project 
is now investigating micro turbines that might be used to power the 
system with the goal of coupling the nozzle system and the micro 
turbine into a single prototype piece that will be rugged, reliable, 
accurate and reasonably priced.
    The work supported in this grant began in 2002. The appropriation 
for fiscal year 2002 was $480,000; for fiscal year 2003, $536,490; for 
fiscal year 2004, $447,345; for fiscal year 2005, $470,208; for fiscal 
year 2006, $489,060; for fiscal year 2007, $0; for fiscal year 2008, 
$368,403; and for fiscal years 2009 and 2010, $346,000 per tear. A 
total of $3,663,506 has been appropriated.
    The development research is carried out in the Tifton laboratory of 
the University of Georgia. Testing sites are in several farms in the 
area.
    The agency conducted a thorough review of the project in fiscal 
year 2002. All subsequent proposals related to this project have been 
reviewed both internally and by the agency. A second project review was 
carried out through a visit to the University of Georgia, reports, and 
telephone interviews. A visit from the research team for a review is 
tentatively scheduled for 2010. Results from this project have been 
reported annually in the USDA Current Research Information System and 
in Proceedings of the American Society of Agricultural Engineers. 
Results were also presented at a National Science Foundation workshop, 
multi-State committee meetings, and a special symposium on Emerging 
technologies for real-time integrated management at the American 
Society of Agronomy-Crop Science Society of America-Soil Science 
Society of America international annual meetings. Results of this 
project have also been reviewed through the project Web site, which can 
be found at http://www.nespal.org/vri.html. The review found that work 
has been in keeping with the project objectives, that progress is on 
schedule, and publication of results is appropriate.
                       wetland plants, louisiana
    The objective of this grant is to develop an economically feasible 
approach to controlling coastal wetlands erosion that would use 
vegetation to retain threatened areas and to rebuild lost land. To 
accomplish this, a system that incorporates agricultural principles 
involved in crop production is required. Specifically, a seed-based 
system using appropriate planting material is required, and progress 
has been rapid in developing this seed-based system.
    In 2008, the Louisiana State University AgCenter's Coastal Plants 
Program (CPP), which consists of geneticists, ecologists, and other 
scientists, developed improved restoration practices and genetically 
enhanced plant varieties of ecologically important native coastal 
plants. Cost-efficient seed-based sediment restoration was developed by 
the CPP and four smooth cordgrass and five sea oats varieties were 
developed that have superior performance in natural environments. These 
developments and findings will greatly increase the efficiency and 
success of restoration projects by providing improved planting material 
and methods that effectively stabilize restored coastal sites and 
create natural ecosystems. Louisiana's losses of 20,000 to 30,000 acres 
per year with long-term consequences on national security, energy 
production, navigation, fisheries, wildlife, and other economic and 
environmental resources will benefit from this research.
    In 2009, genetically different smooth cordgrass and sea oats 
genotypes and clones were developed and tested for performance with 
traditional plant breeding methodologies by the Louisiana State 
University Agricultural Center's Coastal Plants Program. Four clones of 
smooth cordgrass and four clones of sea oats have been identified as 
superior clones after multiple years of evaluation in natural marsh or 
beach environments. These clones will be released to the public for use 
in restoration projects in 2010.
    The work supported by this grant began in fiscal year 1999, and the 
appropriation for fiscal years 1999 and 2000 was $600,000 per year; for 
fiscal year 2001, $598,680; for fiscal year 2002, $587,000; for fiscal 
year 2003, $596,100; for fiscal year 2004, $532,838; for fiscal year 
2005, $562,464; for fiscal year 2006, $557,370; for fiscal year 2007, 
$0; for fiscal year 2008, $415,074; for fiscal year 2009, $188,000; and 
for fiscal year 2010, $200,000. A total of $5,437,526 has been 
appropriated.
    Research is being conducted at the Louisiana Agricultural 
Experiment Station at Louisiana State University.
    This project was reviewed in August 2003. It was found to be 
progressing satisfactorily relative to the achievement of its original 
goals.
                     wheat genetic research, kansas
    The objective of this grant is to enhance the genetic diversity 
available to wheat breeders nationally and internationally by 
collecting, evaluating, maintaining, and distributing germplasm derived 
from wild relatives of wheat.
    The Wheat Genetics Resource Center fills requests for seed from the 
germplasm collection from wheat breeders in the United States and in 
other countries. In 2009, this project identified genetic materials for 
screening for resistance to a new and threatening wheat stem rust 
referred to as Ug-99. Five new sources of resistance were identified 
and are now being used in germplasm enhancement programs.
    Work supported by this grant began in fiscal year 1989. 
Appropriations for this project are as follows: fiscal year 1989, 
$100,000; fiscal year 1990, $99,000; fiscal year 1991, $149,000; fiscal 
years 1992-1993, $159,000 per year; fiscal year 1994, $196,000; fiscal 
years 1995-1997, 176,000 per year; fiscal years 1998-2000, $261,000 per 
year; fiscal year 2001, $260,426; fiscal year 2002, $255,000; fiscal 
year 2003, $263,278; fiscal year 2004, $235,602; fiscal year 2005, 
$244,032; fiscal year 2006, $340,560; fiscal year 2007, $0; fiscal year 
2008, $256,194; fiscal year 2009, $240,000; and fiscal year 2010, 
$1,000,000. A total of $5,268,092 has been appropriated.
    This research is being conducted at Kansas State University at the 
Wheat Genetics Resource Center. The Center also includes collaborative 
projects with other departments at Kansas State University, the 
Agricultural Research Service, and with other institutions in the 
United States.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation. 
The submitting institution conducts a peer review of the proposal prior 
to submission. The project was found to successfully address issues in 
the winter wheat industry in Kansas and other States. A senior member 
of the agency's technical staff conducted a site visit in March 2008.
        wildlife/livestock disease research partnership, wyoming
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $300,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.
                       wood utilization research
    The objectives of the grant are to: (1) provide science that 
addresses the problems associated with harvesting, transporting, 
manufacturing, and marketing economical forest products in three 
regions, and (2) educate graduate students to be knowledgeable of wood 
as a renewable resource.
    The program has been expanded to include additional university 
research locations--total = 13 universities. These have included new 
regions of indigenous forests and specific manufacturing techniques as 
well as new research emphases as specified in the Program's 5-Year 
Strategic Plan (2006) as follows:
  --Domestic and global industrial competitiveness
  --Sustainable environmentally acceptable operations and manufacturing
  --Efficient use of renewable wood materials for the benefit of 
        Americans
    There are 13 locations. Forest products research centers at 
Michigan State University, Mississippi State University, and Oregon 
State University were the first centers supported in the program. The 
University of Minnesota--Duluth, North Carolina State University, and 
the University of Maine were added in fiscal year 1994. In 1999, two 
additional units were added: (1) a consortium made up of specific units 
at the Universities in Idaho, Montana, and Washington; and (2) the 
Forestry Department, University of Tennessee. The University of 
Alaska--Sitka was included in the program in fiscal year 2000, and West 
Virginia University was added in the program in 2004. Louisiana State 
University is the latest addition (2008).
    The three original locations have expanded the objectives of their 
research as new information became available through ongoing research 
and continued responses to the completed studies. The newer programs 
have also been continued with new research objectives; some based on 
needs from consumers for additional work. The program in Alaska is 
working with institutions and organizations in Alaska to define 
research priorities. West Virginia University concentrates on the use 
of upland hardwoods. All of the programs are working to define 
environmentally benign products made of a renewable resource and 
procedures that are economically viable.
    Grants have been awarded from funds appropriated as follows: fiscal 
year 1985, $3,000,000; fiscal years 1986-1989, $2,852,000 per year; 
fiscal year 1990, $2,816,000; fiscal years 1991 and 1992, $2,852,000 
per year; fiscal year 1993, $4,153,000; fiscal year 1994, $4,176,000; 
fiscal years 1995 and 1996, $3,758,000 per year; fiscal years 1997 and 
1998, $3,536,000 per year; fiscal years 1999 and 2000, $5,136,000 per 
year; fiscal year 2001, $5,773,271; fiscal year 2002, $5,670,000; 
fiscal year 2003, $6,129,895; fiscal year 2004, $6,069,975; fiscal year 
2005, $6,234,720; fiscal year 2006, $6,370,650; fiscal year 2007, $0; 
fiscal year 2008, $4,840,875; fiscal year 2009, $4,545,000; and fiscal 
year 2010, $4,841,000. The total amount appropriated is $106,592,386.
    Reviews are conducted when requested by a State institution. 
Reviews at Mississippi State University and Oregon State University 
were conducted in 2004. Both institutions have successfully achieved 
their set objectives. Center directors met in 1996, 1999, 2004, 2005, 
2006, 2008 and 2009. Progress reports are reviewed each year. Each 
center has its advisory group or research committee to provide 
direction and the input of stakeholders into the program.
               wool research, montana, texas, and wyoming
    The objective of this grant is to improve the efficiency and 
profitability of producing and marketing wool, mohair, and cashmere. 
Objectives at the three laboratories are continually revised to reflect 
the changing research priorities for the wool, mohair, and cashmere 
industries and to satisfy consumer demands for products from these 
fibers. It is anticipated that 5 years will be required to complete the 
current research.
    Research conducted at the Texas A&M University station is examining 
and contributing to several approaches for making the United States 
animal fiber and sheep and goat meat industries more competitive and 
more profitable.
    The Montana State University station uses the Optical Fiber 
Diameter Analyzer OFDA2000 instrument to provide producers an 
opportunity to test wool inexpensively and is developing an edge for 
marketing their wool clips.
    The University of Wyoming effort supports improvement of the United 
States sheep industry through identifying and evaluating new 
technologies that enhance our abilities to objectively measure the 
physical properties of greasy wool and other animal fibers; and through 
promoting communication between research organizations, producer 
groups, both at the State and national levels, end-user groups, and 
regulatory groups.
    Grants have been awarded from appropriated funds in the amount of 
$150,000 per year for fiscal years 1984-1985; $142,000 per year for 
fiscal years 1986-1989; $144,000 for fiscal year 1990; $198,000 for 
fiscal year 1991; $250,000 per year for fiscal years 1992-1993; 
$235,000 for fiscal year 1994; $212,000 per year for fiscal years 1995-
1997; $300,000 per year for fiscal years 1998-2000; $299,340 for fiscal 
year 2001; $294,000 for fiscal year 2002; $292,089 for fiscal year 
2003; $268,407 for fiscal year 2004; $297,600 for fiscal year 2005; 
$295,020 for fiscal year 2006; $0 for fiscal year 2007; for fiscal year 
2008, $219,453; and for fiscal years 2009 and 2010, $206,000 per year. 
A total of $5,858,909 has been appropriated.
    In 2008, the principal investigators from the three universities 
met with the NIFA National Program Leader responsible for the grant 
during a multi-State committee meeting where progress and direction of 
the grant was discussed. The research encompassed in this grant is a 
component of a multi-State research project; therefore, accomplishments 
are reported annually to scientific peers and representatives from the 
sheep, goat, wool, mohair, and cashmere industries. Each multi-State 
research project is periodically peer reviewed to verify 
accomplishments and collaborative efforts among the participating 
institutions. In addition, research results are presented each year to 
the members of the American Sheep Industry Association during its 
annual convention.
               world food and health initiative, illinois
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $461,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.
                 research federal administration grants
         ag-based industrial lubricants research program, iowa
    The Ag-Based Industrial Lubricants program was initiated to develop 
new non-food uses for soybean crop oil. Eighteen years of research and 
development has led to numerous patents or joint patents on soy-based 
lubricants, leading to successful commercialization of many soy-based 
grease and lubricant products. In 2007, this program transitioned to a 
Center of Excellence and became the National Agriculture-Based 
Lubricants Center. The research program continues to investigate 
improvements in biolubricants manufacturing efficiency using microwave 
energy as a replacement for traditional heating methods which cost more 
and cause oxidative break-down in vegetable oils. In addition, the 
project has conducted initial diesel engine testing to evaluate 
biolubricants in the engine crankcase--a direct result of improved 
technologies to control oxidative breakdown of vegetable oils through 
continuing research in both chemical and genetic modifications of 
vegetable oils to achieve unprecedented stability. Research continues 
to investigate nano-metals for control of bacteria which cause 
premature lubricant failure in machining equipment.
    Federal funding for this project began with a 1998 appropriation of 
$200,000. Fiscal years 1999 and 2000 appropriations were $250,000 each 
year; for fiscal year 2001, $349,230; for fiscal year 2002, $360,000; 
for fiscal year 2003, $447,075; for fiscal year 2004, $402,611; for 
fiscal year 2005, $522,784; for fiscal year 2006, $543,510; for fiscal 
year 2007, $0; for fiscal year 2008, $405,144; for fiscal year 2009, 
$380,000; and for fiscal year 2010, $405,000. A total of $4,515,434 has 
been appropriated.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
        agricultural development in the american pacific, hawaii
    The Agricultural Development in the American Pacific (ADAP) goals 
are to develop human resources and information capacity within the 
institutions, to manage more effectively, agricultural programs within 
and among the institutions, and to focus available resources on 
critical agricultural issues of the Pacific. On-going projects include 
animal health surveys, livestock waste management, artificial 
insemination demonstration and education, market production information 
tracking systems co-developed with ``State'' Departments of 
Agriculture, and Web sites that contain relevant research information 
supported by ADAP and pacific-based information.
    The ADAP Communications, Information and Publications Service 
(CIPS) project was created to coordinate and address the information 
needs of the ADAP institutions, communities and clientele on a regional 
basis. This project helped provide and made accessible appropriate 
information and materials that benefit the American Pacific region and 
encourage economic and agricultural sustainability. As a result of more 
open and immediate access to information, duplication of work in the 
region was reduced, leading to more efficient use of fiscal and human 
resources. The increased utilization of electronic communication 
capabilities greatly reduced travel costs for various meetings, 
training, and workshops.
    The American Pacific Land-grant institutions and government 
agencies want to increase their levels of trained and competent staff 
in order to enhance the institution and government services and to 
advance local agricultural development or allied fields. One way to 
help increase the number of qualified employees is to provide high 
school and college students, specifically potential future employees, 
and current government or ADAP institution employees, with the 
opportunity to compete for educational scholarships. ADAP has developed 
programs targeted at different stages of educational development.
    The work was funded for 7 years with an annual appropriation of 
$650,000 to the former Extension Service. In fiscal year 1994, an 
appropriation of $608,000 was made to NIFA to continue the ADAP 
program. In fiscal year 1995, the appropriation was $527,000; for 
fiscal years 1996 through 2000, $564,000 each year; fiscal year 2001, 
$562,759; fiscal year 2002, $552,000; fiscal year 2003, $548,412; 
fiscal year 2004, $490,091; fiscal year 2005, $486,080; fiscal year 
2006, $481,150; fiscal year 2007, $0; fiscal year 2008, $372,375; 
fiscal year 2009, $349,000; and fiscal year 2010, $400,000. The total 
appropriation is $8,196,867.
    Work is carried out at American Samoa Community College, College of 
Micronesia, College of the Marshall Islands, Palau Community College, 
College of Micronesia--Federated State of Micronesia, Northern Marianas 
College, University of Guam, and the University of Hawaii at Manoa.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
              agriculture waste utilization, west virginia
    The original goal of this project was to determine the 
applicability of anaerobic digestion to convert organic waste materials 
to energy in the form of biogas, thereby reducing the amount of organic 
matter for disposal. The subsequent goal is to manage the remaining 
solids from anaerobic digestion in an environmentally sound manner. A 
model was developed that predicts the changes of temperature in a pilot 
plant anaerobic digester. An experiment has made excellent progress 
using a molecular approach to document microbial diversity in an 
anaerobic digester. A long-term experiment was begun in 2008 to 
investigate the capacity of thermophilic anaerobic digestion to recover 
additional energy from a variety of types of waste biomass including 
agricultural residues and ethanol manufacturing wastes. Metagenomics is 
a new field that has arisen as a result of technological advancements 
to understand how a microbial community functions.
    The work supported by this grant began in fiscal year 1998, and the 
appropriation for fiscal year 1998 was $360,000; for fiscal year 1999, 
$250,000; for fiscal year 2000, $425,000; for fiscal year 2001, 
$494,909; for fiscal year 2002, $600,000; for fiscal year 2003, 
$685,515; for fiscal year 2004, $617,336; for fiscal year 2005, 
$648,768; for fiscal year 2006, $683,100; for fiscal year 2007, $0; for 
fiscal year 2008, $484,584; for fiscal year 2009, $455,000; and for 
fiscal year 2010, $500,000. A total of $6,204,212 has been 
appropriated.
    Research is conducted at West Virginia State College, Institute.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
            animal health research and diagnostics, kentucky
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $300,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.
                   animal waste management, oklahoma
    The goal of this research is to develop best management practices 
for the expanded animal industry that will protect ground water 
supplies from pollution of nutrients, salts, and pathogens; maintain 
air quality; and minimize odors derived from the swine operation to 
include: swine buildings, lagoon, land-application, soil-cropping, and/
or rangeland production system, thus maintaining the quality of life in 
the rural sector. Long-term application of swine effluent in no-till 
cropping systems resulted in increasing levels of carbon sequestration 
and nitrogen in the soil profile following 9 years of an irrigated 
corn-wheat production. Reductions in protein content in swine feed has 
resulted in significant reductions in ammonia emissions from swine 
housing. The project has produced several educational videos for use by 
swine producers in Oklahoma and in the adjoining States. These videos 
describe how producers can reduce the environmental impact of managing 
swine manure to protect soil, water, and air. These videos are 
accessible by any producer through the Oklahoma State University Web 
site.
    The work supported by this grant began in fiscal year 1998, and the 
appropriation for fiscal years 1998-2000 was $250,000 per year; for 
fiscal year 2001, $274,395; for fiscal year 2002, $320,000; for fiscal 
year 2003, $332,823; for fiscal year 2004, $298,230; for fiscal year 
2005, $295,616; for fiscal year 2006, $392,040; for fiscal year 2007, 
$0; for fiscal year 2008, $291,942; and for fiscal years 2009 and 2010, 
$274,000 per year. A total of $3,503,046 has been appropriated for this 
project.
    Some of the field work has been conducted at The Oklahoma Panhandle 
Research and Extension Center located in Goodwell, Oklahoma. Much of 
the laboratory analysis work was done at Oklahoma State University. The 
diet modification and economic impact studies were conducted at the 
swine research facility at Stillwater, Oklahoma.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
       applied agriculture and environmental research, california
    California State University scientists are studying the air quality 
requirements of particulate matter from agriculture, race horse 
muscular injuries threatening the horse racing industry, managing 
drought on high value crops like pistachios, development of an avian 
flu immunization, and reducing crop processing costs and environmental 
impacts.
    The project developed an eco-friendly lye peeling system with wide 
application in fruit and vegetable processing industries. The system 
has potential to significantly reduce fresh water use, wastewater 
discharge, and contaminant levels in wastewater. Research demonstrated 
that allowing weed growth in winter and vegetation removal in mid-
spring using cultivation, prevented vine yield reductions, reduced 
production costs, and avoided pre-emergence herbicide use. Results show 
that a series of growth implants increased physiological growth and 
carcass attributes in Holstein Steers. Completion of the development of 
an Intelligent Mechanical Tomato Transplanter has increased the 
knowledge base leading to a new awareness that computer controlled 
robotic systems can potentially be used for transplanting tomatoes and 
similar crops. Genome mapping in lettuce has led to increased shelf 
life and nutrient quality. Wine grape quality and value are improved 
through abscisic acid treatments. The use of improved water management 
allowed nut orchards to survive through long periods of drought 
conditions.
    The work for this project began in fiscal year 2006 with an 
appropriation of $990,000; for fiscal year 2007, $0; for fiscal year 
2008, $737,799; and for fiscal years 2009 and 2010, $693,000 per year. 
A total of $3,113,799 has been appropriated.
    The research is being carried out at California State at Fresno; 
the California State Polytechnic University at San Luis Obispo; 
California State University at Pomona; and California State University 
at Chico.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                           aquaculture, ohio
    The goal of the project is to establish a program in Ohio to foster 
the development of a statewide aquaculture industry. Research funded 
under the Aquaculture, Ohio program has led to: new information from 
muscle studies that will be useful in identifying gene products unique 
to enhanced muscle growth and development and will allow producers to 
develop useful breeding strategies for the production of yellow perch; 
the establishment of a marker-assisted breeding program in yellow perch 
that should improve growth rate by 15 to 20 percent per generation; 
unique protein expression patterns that were correlated with specific 
traits that can be used to examine muscle in fishes; sensory evaluation 
studies comparing wild versus farm-raised yellow perch that found that 
farm-raised yellow perch compares favorably to wild-caught perch; 
development of new pond fertilization regimes for yellow perch 
production that has led to a 30 percent increase of perch juveniles; 
establishment of XY female bluegill population that will allow for the 
development of a YY-male broodstock population. Progeny from these 
broodstock will be entirely male and are expected to grow 30 to 50 
percent faster than mixed-gender population; genetic linkage mapping 
and identified sex-specific markers that should provide the basis for 
detection of important commercial traits; and that market-sized golden 
shiners can be raised in one growing season in Ohio's temperate 
climate. Recent accomplishments include but are not limited to: 10 
improved lines of yellow perch were developed. These fish showed that 
the improved lines grew 28 percent to 54 percent faster than unimproved 
fish. Approximately 60,000 of these improved yellow perch fry and 
fingerlings were distributed to fish farmers in the State. A second 
generation of improved fish was created in 2008. Two mapping families 
have been developed and induced to produce second generation families 
for quantity trait loci mapping. About 15,000 all-male and 5,000 YY 
supermale bluegill populations, which would grow 40 to 50 percent 
faster than a mixed-gender population, have been generated for 
developing all-male broodstock. The Bowling Green Aquaculture Program 
established an algal and zooplankton culture lab and produced 50,000 
yellow perch juveniles for grow-out trials with a private cooperator. 
The aquaponics variety trials in 2008 were successful in producing 
tomatoes, peppers, leaf lettuce, cucumbers, eggplant, as well as chives 
and basil. The Bowling Green Aquaculture Program organized a Baitfish 
Grower's Alliance and provided a Baitfish Culture manual and technical 
assistance to the growers. Largemouth bass and yellow perch were 
cultured together to market size in 1 year using indoor recirculating 
systems, substantially reducing production costs and traditional grow-
out time by nine months. Methods have been developed to identify gene 
products associated with muscle growth due to genetic and nutritional 
selection and researchers have developed novel proteomic methodology 
combining electrophoretic, image, statistical, and primary protein 
sequence techniques to identify muscle proteins and enzymes associated 
with environmental impacts on muscle growth and meat quality. The 
fundamental findings from these studies demonstrate that muscle growth 
in meat animals is accomplished through the increase in those enzymes 
that are the gate keepers of the glycolytic pathway.
    The appropriation for fiscal year 2002 was $400,000; for fiscal 
year 2003, $447,075; for fiscal year 2004, $849,955; for fiscal year 
2005, $846,176; for fiscal year 2006, $891,000; for fiscal year 2007, 
$0; for fiscal year 2008, $663,324; and for fiscal years 2009 and 2010, 
$623,000 per year. A total of $5,343,530 has been appropriated.
    The research is conducted at The Ohio State University in 
collaboration with the Ohio Agricultural Research and Development 
Center, the South Centers at Piketon, and the Agricultural Technical 
Institute.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
        aquaculture research and education center, pennsylvania
    The goal of this project is to develop a program in aquaculture 
production and processing for urban areas. Research conducted by the 
program have: found that NuPro, a commercially available feed 
ingredient, can be an effective protein supplement for salmonid feeds; 
generated new information on the use of commercially available feed 
ingredients for salmonids including a study on four organic acids 
citric, fumaric, oxalic, and gluconic. In Atlantic salmon feeding 
trials, gluconic acid may be the most promising when used as a feed 
preservative and may also contribute to enhance growth. Recent studies 
have determined: methods for culturing local freshwater mussel species 
described and refined, and several native species of fish were tested 
as hosts for the parasitic larvae of the mussels. Tilapia can 
effectively utilize phytate phosphorus with supplemental phytase being 
added to the diet. Research on organic diets for tilapia indicate that 
appropriate feeds can be created to support an organic tilapia 
aquaculture program once the final regulation from USDA for organic 
standards have been finalized.
    This project began in fiscal year 2003. The fiscal year 2003 
appropriation was $248,375; for fiscal year 2004, $221,684; for fiscal 
year 2005, $220,224; for fiscal year 2006, $217,800; for fiscal year 
2007, $0; for fiscal year 2008, $163,845; for fiscal year 2009, 
$154,000; and for fiscal year 2010, $300,000. A total of $1,371,928 has 
been appropriated.
    Cheyney University of Pennsylvania located in Cheyney, Pennsylvania 
is conducting the research.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
       best practices in agriculture waste management, california
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $300,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.
                  biobased polymer initiative, kansas
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $750,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.
                  biotechnology research, mississippi
    A goal of this research is to develop the capacity of Alcorn State 
University to conduct research in the area of plant biotechnology, 
train students for careers in biotechnology and biomedical sciences, 
and to utilize biotechnology techniques to improve the livelihood and 
viability of limited resource farmers in Mississippi and the Southeast. 
Another goal is to develop new sweet potato cultivars with disease 
tolerance, expanded industrial and food uses, and the potential for 
greater economic benefits for farmers. Several transgenic sweet potato 
lines have been developed with an anti-microbial peptide against 
various fungal pathogens.
    The work supported by this grant began in fiscal year 2000, and the 
following amounts have been appropriated: in fiscal year 2000, 
$425,000; in fiscal year 2001, $589,700; in fiscal year 2002, $680,000; 
in fiscal year 2003, $745,125; in fiscal year 2004, $667,041; in fiscal 
year 2005, $661,664; in fiscal year 2006, $680,130; in fiscal year 
2007, $0; in fiscal year 2008, $511,395; and in fiscal years 2009 and 
2010, $480,000 per year. The total amount appropriated is $5,920,055.
    The research is being conducted at Alcorn State University, in 
Lorman, Mississippi, and at field locations in Preston and Mound Bayou, 
Mississippi.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                   cellulosic biomass, south carolina
    The objective of this project is to determine which plants produce 
the highest energy yield per bushel among sugarcane, sugar-beets, and 
switchgrass for the production of bio-butanol. Specific objectives 
include: (1) establishment of field station; (2) contrasting organic 
versus traditional growth methods of feedstocks; and (3) educating the 
public through workshops and multimedia presentations in an effort to 
produce certified organic crop producers for bio-butanol feedstocks. 
Researchers are establishing the testing greenhouse on newly acquired 
land. Seeds of switchgrass, sugar beets, and vegetative cuttings of 
sugarcane are being planted and germinated. Students and researchers 
are collecting pertinent data on feedstock germination, establishment, 
and development.
    Fiscal year 2009 was the first year that funds were appropriated 
for this grant. In fiscal years 2009 and 2010, $469,000 per year was 
appropriated. A total of $938,000 has been appropriated.
    The work is being carried out by researchers at Claflin University 
and on the Agricultural/Biofuel Feed Stock Research Field Station in 
Orangeburg County, South Carolina.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
          center for agricultural and rural development, iowa
    The objectives of this project are to assess and evaluate various 
proposals affecting agricultural trade, provide analytical support to 
the Office of the U.S. Trade Representative, and provide information to 
farmers and agribusiness firms on the competitive implications of trade 
agreements. Theoretical studies, empirical and descriptive analyses of 
policy issues and technical problems pertaining to the Uruguay round of 
negotiations were completed and provided to negotiators and the 
agribusiness community. Knowledge developed in this phase is now being 
used to monitor the effects of the Uruguay Round Agricultural Agreement 
(URA).
    This grant supports six projects focusing on URA and the World 
Trade Organization (WTO) monitoring and implementation problems; 
implications of the URA and WTO for Eastern Europe, Baltic, and the 
Newly Independent States; development of a model to assess the North 
American Free Trade Agreement and its linkages with the General 
Agreement on Tariffs and Trade; trade implications of U.S. food and 
development aid in developing countries; integration of China into 
world agricultural markets; and special projects as requested for the 
U.S. Trade Representative's office. Major emphasis is placed on 
developing and improving international livestock and grain sector 
models.
    This research program was initiated in fiscal year 1989. Grants 
have been awarded from funds appropriated as follows: fiscal year 1989, 
$750,000; fiscal years 1990 and 1991, $741,000 per year; fiscal years 
1992-1993, $750,000 per year; fiscal year 1994, $705,000; fiscal year 
1995, $612,000; fiscal year 1996, $655,000; fiscal years 1997-2000, 
$355,000 per year; fiscal year 2001, $427,058; fiscal year 2002, 
$600,000; fiscal year 2003, $670,613; fiscal year 2004, $600,436; 
fiscal year 2005, $595,200; fiscal year 2006, $589,050; fiscal year 
2007, $0; fiscal year 2008, $438,906; and for fiscal years 2009 and 
2010, $412,000 per year. A total of $11,869,263 has been appropriated.
    The research program is carried out by the Center for Agriculture 
and Rural Development at Iowa State University.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
               center for food industry excellence, texas
    A goal of this research is to construct a mathematical simulation 
model based on real-world data that effectively compared E. coli 
O157:H7 and Salmonella movement through the farm-to-fork continuum in 
U.S. and Mexican beef processing plants. In addition to the development 
of the model, researchers will identify drivers of microbial failures 
within this model that could be used to critically evaluate and compare 
interventions used in the United States and Mexico to optimize their 
ability to reduce the microbial failure rate. This data will be used to 
develop training modules for producers involved in the farm-to-fork 
continuum in the United States and Mexico. Industry workshops on topics 
such as HACCP (Hazard Analysis and Critical Control Points), Listeria 
Control, Beef 706 and Beef Baccalaureate have been conducted to reach 
several targeted audiences including food processors, the media, and 
food retailers.
    The work supported by this grant began in fiscal year 2003, and the 
appropriation for fiscal year 2003 was $248,375; $221,684 in fiscal 
year 2004; $867,008 in fiscal year 2005; $1,353,330 in fiscal year 
2006; $0 in fiscal year 2007; $1,007,895 in fiscal year 2008; and 
$946,000 per year in fiscal years 2009 and 2010. The total 
appropriation was $5,590,292.
    Research is being conducted at the Center for Food Industry 
Excellence at Texas Tech University Meat Laboratory in Lubbock, Texas.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
              center for innovative food technology, ohio
    The goal of the program is to create a program that provided 
relevant solutions to technically challenging problems as defined by 
the industry. More than 64 industry-driven projects have been completed 
to date. The Center has encouraged innovation by leveraging private 
sector funding to underwrite projects designed to assess the 
feasibility of emerging technologies in specific applications, or 
traditional non-food technologies in specific food processing 
situations. The accomplishments in this last fiscal year include an 
evaluation performed at The Ohio State University on the efficiency of 
anti-microbial coatings for processing equipment, a demonstration of 
chemical thinning technology to increase the yields of processing 
vegetables, the establishment of a program to evaluate the technical 
and economic feasibility of electron beam processing of vegetables, the 
use of silver zeolite antimicrobial packaging for food products, the 
development of gluten-free pasta, wraps, and pizza dough, and the 
potential use of an organic substance to inhibit the browning of fresh 
cut fruits and vegetables.
    The work has been supported since fiscal year 1995. The project 
received appropriations of $181,000 per year for fiscal years 1995-
1997; $281,000 for fiscal year 1998; $381,000 per year for fiscal years 
1999 and 2000; $759,326 for fiscal year 2001; $765,000 for fiscal year 
2002; $760,028 for fiscal year 2003; $1,042,811 for fiscal year 2004; 
$1,144,768 for fiscal year 2005; $1,133,550 for fiscal year 2006; $0 
for fiscal year 2007; $845,043 in fiscal year 2008; and $793,000 per 
year in fiscal years 2009 and 2010. A total of $9,622,526 has been 
appropriated.
    Research is being conducted in the laboratories of the Ohio State 
University and at various participating companies in Ohio, Wisconsin, 
Texas, Tennessee, Colorado, Indiana, California, and Michigan.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                center for north american studies, texas
    The goal of this project is to promote strong agricultural ties 
among the United States, Mexico, and Canada. The project is also 
designed to help ensure the continued competitiveness of U.S. 
agriculture. Current progress is addressing the following:
  --Evaluate the trade impacts of alternative trade, macroeconomic, 
        market, and farm policies in each of the three countries.
    --Ongoing throughout the existence of the Center for North American 
            Studies (CNAS).
  --Develop cooperative research programs to investigate priority 
        issues related to growing North American trade in agricultural 
        and food products.
    --Ongoing throughout the existence of CNAS.
  --Develop training programs designed to prepare agricultural and 
        agribusiness firms for international opportunities and 
        competition.
    --Predominately performed during the spring and summer time period, 
            but also somewhat ongoing throughout the year.
  --Maintain and expand institutional linkages with internationally 
        recognized agricultural programs in Mexico, Canada, and other 
        countries important to North American agricultural trade.
    --Ongoing throughout the existence of CNAS.
    Work supported by this grant which began 1994 are as follows: 
fiscal year 1994, $94,000; fiscal year 1995, $81,000; fiscal years 
1996-2000, $87,000 each year; fiscal year 2001, $86,809; fiscal year 
2002, $200,000; fiscal year 2003, $198,700; fiscal year 2004, $894,690; 
fiscal year 2005, $992,000; fiscal year 2006, $990,000; fiscal year 
2007, $0; fiscal year 2008, $737,799; and for fiscal years 2009 and 
2010, $693,000 per year. In total, this research has received 
$6,095,998 in appropriations.
    The work is being carried out at Texas A&M University through the 
Texas Agricultural Experiment Station, and in other segments of the 
Texas A&M University System. In addition to Texas A&M University, other 
involved institutions are Texas Tech University, Louisiana State 
University Agricultural Center, and New Mexico State University.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
           center for renewable transportation fuel, michigan
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $500,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.
          centers for dairy and beef excellence, pennsylvania
    Please note that the Centers for Dairy and Beef Excellence are two 
separate organizations that function independently of one another.
    The goal for the Center for Dairy Excellence in Pennsylvania is to 
continue to revitalize the dairy industry within the State and 
positively impact rural communities while strengthening the local 
economy with regard to jobs and income. The Center has made significant 
progress toward these goals through the development and successful 
implementation of the Dairy Profit Team Program. This program has 
become a central part of the decision-making process on progressive 
dairy farms in Pennsylvania.
    The long-term efficiency goals set forth by the Center for Beef 
Excellence include increasing feed efficiency statewide by 10 percent, 
increasing cow reproduction by five percent, increasing cow efficiency 
by five percent and decreasing calf mortality by five percent. The 
Center also plans to increase research funding for beef-related 
research by 25 percent statewide.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $74,475; for fiscal year 2009, 
$319,000; and for fiscal year 2010, $340,000. The total amount 
appropriated is $733,475.
    The research is conducted at the Center for Dairy Excellence in 
Harrisburg, Pennsylvania and on dairy farms throughout the State.
    The Center for Beef Excellence is located in Harrisburg, 
Pennsylvania. A significant proportion of the work is conducted on-farm 
throughout the State.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
        clemson university veterinary institute, south carolina
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $1,000,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.
                      climate forecasting, florida
    The goal of this research is to improve climate forecasting and 
crop models to reduce risk for agricultural producers and the crop 
insurance industry. This is being accomplished by designing and 
developing a climate forecast information component, a State and 
region-wide agricultural outlook component, a commodity-based 
component; and produce an Agriculture Climate Information and Decision 
Support system. Additional research at the Southeast Climate Consortium 
includes the integration of weather generators with climate models; the 
assessment of agricultural impact through the analysis of historical 
crop yields and simulated yield potentials; understanding forestry risk 
and its minimization; water quality assessment and policy analysis; and 
the development of crop management optimization toolkits and programs 
to explore optimal management options under different El Nino-Southern 
Oscillation conditions and optimization criteria.
    The project accomplishments to date include: annual regional freeze 
forecasts; El Nino-Southern Oscillation phase assessment; historic 
weather data by county; weather generator; coupled climate-ocean-land 
surface-crop modeling: bimonthly wildfire and forest risk forecasts; 
crop simulation model; historic yield data by county; assessments of 
yield response to climate; county level climate-crop yield forecasts; 
and cattle heat stress forecast.
    The program has greatly improved its prototype crop yield risk tool 
which helps analyze yield potential based on climate forecast and 
planting dates. The Web-based system is a Climate-Related Tool for 
Agriculture and Natural Resources Management and referred to as 
AgroClimate Tools. The Climate Forecast Tool provides monthly climate 
forecasts of average precipitation and minimum and maximum temperatures 
at the county level; probabilities for these variables to help the 
analysis of risk and observed values for the past 5 years. The crop 
yield risk tool helps analyze yield potential based on climate forecast 
and planting dates. The results are based on crop model simulations and 
are only available for a limited number of counties, depending on the 
crop selected. Crops under implementation are: peanuts for selected 
counties in Alabama, Georgia, and Florida; potato for Suwannee County, 
Florida; and Fresh Tomato for South Florida.
    The work supported by this grant began in fiscal year 2003 with an 
appropriation of $894,150; for fiscal year 2004, $3,131,415; for fiscal 
year 2005, $3,601,952; for fiscal year 2006, $3,565,980; for fiscal 
year 2007, $0; for fiscal year 2008, $2,656,275; and for fiscal years 
2009 and 2010, $2,494,000 per year. A total of $18,837,772 has been 
appropriated.
    Research is conducted at Florida State University, University of 
Florida, University of Miami, University of Georgia, Auburn University, 
and the University of Alabama--Huntsville.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                         cotton research, texas
    The goal of this project was to provide comprehensive multi-
disciplinary research to improve cotton production in west Texas and 
expand the demand for cotton grown in the area. The research has made 
improvements in cotton varieties through traditional genetics and 
genetic engineering aimed at improving seedling establishment, 
increasing photosynthetic efficiency and cotton yields, and developing 
resistance to pest and diseases. As a result of this research, many 
production areas have seen an improvement in overall yield and improved 
fiber length and strength. Cotton economic and marketing research 
projects have provided an analysis of feasibility and market impact of 
new production technologies, improvement of pricing and market 
reporting, understanding market behavior, and factors related to 
international competitiveness.
    The work supported by this grant began in fiscal year 1998. The 
appropriation for fiscal years 1998 and 1999 was $200,000 per year; for 
fiscal year 2000, $170,000; for fiscal year 2001, $498,000; for fiscal 
year 2002, $880,000; for fiscal year 2003, $1,182,265; for fiscal year 
2004, $2,236,725; for fiscal year 2005, $2,480,000; for fiscal year 
2006, $2,475,000; for fiscal year 2007, $0; for fiscal year 2008, 
$1,843,008; and for fiscal years 2009 and 2010, $1,730,000 per year. A 
total of $15,624,998 has been appropriated.
    The work is conducted in or near Lubbock, Texas, on the Texas Tech 
University Campus, Fiber and Biopolymer Research Center, Texas ArgiLife 
Research and Extension Center, USDA-ARS Cropping Systems Research Lab, 
and on area research and demonstration farms.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
          council for agriculture science and technology, iowa
    The Council for Agriculture Science and Technology (CAST) is a 
nonprofit 501(c)(3) organization composed of scientific societies and 
many individual, student, company, nonprofit and associate society 
members. The goal of CAST is to compile and communicate objective, 
science-based information about agriculture.
    During the current grant period, CAST published numerous issue 
papers, commentaries, and special publications on a wide variety of 
timely topics including Poultry and Ruminant Carcass Disposal Options 
for Routine and Catastrophic Mortality; Scientific Assessment of the 
Welfare of Dry Sows Kept in Individual Accommodations; Animal 
Productivity and Genetic Diversity; Considerations in Biodiesel 
Production; Food Safety and Fresh Produce; Fate and Transport of 
Pathogens in Swine Manure; and Sustainability of U.S. Soybean 
Production. These publications were distributed widely to both 
scientific and nonscientific audiences.
    This project began in fiscal year 2004 with an appropriation of 
$134,203; in fiscal year 2005, $148,800; in fiscal year 2006, $147,510; 
in fiscal year 2007, $0; in fiscal year 2008, $112,209; in fiscal year 
2009, $105,000; and in fiscal year 2010, $110,000. A total of $757,722 
has been appropriated.
    This work is being carried out at the Council for Agriculture 
Science and Technology in Ames, Iowa.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                     data information system--reeis
    The objective of the system is to enable users to measure the 
impact and effectiveness of research, extension, and education 
programs. REEIS is meeting this goal by incrementally incorporating 
data from more and more programs and continually expanding the data 
available for currently incorporated programs and disseminating 
information on current research programs. REEIS now contains over 10 
major Data Marts--a subsection of a Data Warehouse--and resources of 
information.
    In 2008, there was a continuation of enhancing program monitoring 
and reporting tools. The Leadership Management Dashboard (LMD) was 
developed and released in REEIS as a real time tool integrating 
information from multiple databases. The LMD links grant funding 
information with program information and provides an integrated view of 
how grant funds are allocated and spent by various USDA programs. The 
first audience for the LMD was the USDA National Program Leaders. In 
2009, additional releases of this enhanced tool were made available to 
broader audiences including university partners. Also, data from the 
National Information Management and Support System (NIMSS) were 
incorporated into the LMD. The REEIS system also incorporated reports 
from the new Agricultural Research, Extension and Education Reform Act 
(AREERA) system which provides for the direct input by States of Plans 
of Work and Annual Reports.
    Information from the system is provided for the following topics: 
current and historical agricultural research efforts; forestry research 
efforts; statistics about students, institutions, faculty, and degrees 
related to agriculture; partner institution snapshots; food and 
nutrition efforts; 4-H programs; information on families at risk; 
impact reports; agricultural snapshots of each State and outlying 
areas; agriculture-related patents and citations and state 
accomplishments and plans of work;
    REEIS began in fiscal year 1997 when Congress appropriated $400,000 
for planning and design. The subsequent appropriations by fiscal year 
are as follows: 1998--$800,000; 1999--$1,000,000; 2000--$2,000,000; 
2001--$2,120,325; 2002--$2,078,000; 2003--$2,750,000; 2004--$2,444,492; 
2005--$2,424,448; 2006--$2,561,130; 2007--$0; 2008--$2,703,939; and 
2009 and 2010--$2,704,000 per year. The total appropriation for fiscal 
years 1997 through 2008 is $26,690,334.
    This program is conducted at the NIFA headquarters in Washington, 
DC.
                       dietary intervention, ohio
    The goals of this research are to determine if freeze-dried berries 
can exert a preventive effect on the development of colon cancer in 
humans, and to identify dietary components mediating CEACAM1 levels for 
the prevention of and therapeutics against obesity, diabetes and 
secondary complications.
    Ohio State University researchers have completed two clinical 
trials that provide evidence that freeze-dried black raspberries could 
be protective against colon cancer; one trial in patients diagnosed 
with colon cancer and the other in patients with familial adenomatous 
polyposis. In addition, biomarker studies in normal and polyp tissues 
taken from berry treated familial adenomatous polyposis patients showed 
that the berries are capable of demethylating tumor suppressor genes in 
rectal polyps taken from these patients.
    Researchers at the University of Toledo have reported findings that 
show a correlation between reduction in hepatic CEACAM1 and obesity 
with insulin resistance; high fat diets reduce hepatic CEACAM1 levels 
and impact insulin clearance; and high fat diets cause insulin 
resistance via a CEACAM1 dependent gene-dose mechanism. Currently, 
researchers are investigating the reduction in hepatic CEACAM1 via a 
PPARa-depended pathway as an early mechanism of diet-induced insulin 
resistance and the premise that additional proteins are involved in the 
progression of frank diabetes.
    For The Ohio State University the work supported by this grant 
began in fiscal year 2003 with an appropriation of $248,375; for fiscal 
year 2004, $894,690; for fiscal year 2005, $1,138,816; for fiscal year 
2006, $1,237,500; for fiscal year 2007, $0; for fiscal year 2008, 
$922,497; and for fiscal years 2009 and 2010, $866,000 per year. A 
total of $6,173,878 has been appropriated.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                electronic grants administration system
    The goal of the program is to enable the agency to advertise, 
accept, process, review and award grants and cooperative agreements 
electronically. The initial focus on advertising funding opportunities 
with electronic applications has been successful. The goal of receiving 
applications electronically has also been successful. In 2009, 99 
percent of NIFA proposals were received electronically. Significant 
progress is being made on electronic review and evaluation of 
proposals, and the final elements of awarding grants electronically 
remain.
    The work completed in fiscal year 2006 allowed the agency to begin 
accepting electronic grant applications. In fiscal year 2007, NIFA 
expanded the scope of the project to allow the submission of proposals 
in an electronic format for all programs.
    In fiscal year 2009, NIFA required electronic submission via 
Grants.gov for all program areas eliminating paper-based submissions. 
Proposals were submitted through Grants.gov and processed by the Agency 
through the eGrants system. Over 5,000 applications were received and 
successfully processed through the system during this cycle. The 
percentages of problem categories were reduced from previous cycles. 
Significant improvements were made in components supporting proposal 
review and evaluation as well as other management functions that have 
led to significant improvement in overall processing efficiency.
    This project began in fiscal year 2003 with an appropriation of 
$2,125,960; $1,944,460 in fiscal year 2004; $1,928,448 in fiscal year 
2005; $2,030,490 in fiscal year 2006; $0 in fiscal year 2007; 
$2,135,943 in fiscal year 2008; and $2,136,000 per year in fiscal years 
2009 and 2010. A total of $14,437,301 has been appropriated.
    This program is conducted at the NIFA headquarters in Washington, 
DC, except the Grants USDA project, which is carried out at a USDA 
Rural Development facility in St. Louis, Missouri.
                       ethnobotanicals, maryland
    Research at the Appalachian Center for Ethnobotanical Studies is 
focusing on the multidisciplinary study and conservation of native 
plants.
    This research will foster economic growth in the region through the 
managed development of the area's natural resources and the development 
of new local enterprises that explore the use of regional plants for 
health-related purposes. It will also help to document and preserve 
Appalachian culture as it relates to wild plant harvesting and herbal 
medicine through community outreach and education programs.
    Black cohosh is one of the most important medicinal plants in the 
Appalachian region. The roots and rhizomes are harvested for commercial 
medicinal purposes because they contain bioactive secondary metabolites 
or natural products.
    A number of natural product phytochemicals from black cohosh have 
been investigated to elucidate a principal agent and a mechanism of 
action. Early work suggested that black cohosh possessed estrogenic 
activity, and though a number of unique cinnamic acid esters and 
cycloartane-type triterpene glycosides were discovered, no reproducible 
evidence has yet to be reported to support that hypothesis. Subsequent 
studies demonstrated convincingly that many of the metabolites show 
antioxidant activity, bind serotonin and opiate receptors, inhibit 
osteoclastogenesis, and inhibit the growth of human breast and prostate 
cancer cells. Recent work identified a serotonin derivative from the 
plant that binds with high affinity to a cognate receptor, supporting 
an emerging model in which small-molecule agonists produced by black 
cohosh stimulate the serotonergic system, which is involved in 
thermoregulation, and which in turn could alleviate episodes of hot 
flashes during menopause.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $372,375; for fiscal year 2009, 
$469,000; and for fiscal year 2010, $550,000. The total amount 
appropriated is $1,391,375.
    The research will be conducted at Frostburg State University, West 
Virginia University, and the University of Maryland Biotechnology 
Institute.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                      farmland preservation, ohio
    The objectives of the Ohio Center for Farmland Policy Innovation 
the Center are to: (1) Become an ``action center'' for farmland policy 
in Ohio, creating and delivering new information for communities who do 
not currently have the professional capacity to manage and balance 
growth and change; (2) Consider and test new policy instruments with 
communities seeking to retain farmland in Ohio through a Farmland 
Protection Partnership program; and (3) Consider ways to strengthen the 
economic viability of Ohio farms as a necessary part of farmland 
protection. It achieves its mission by conducting research-based 
outreach and extension. Current progress is as follows:
    Farmland Protection Partnership Program.--The Center conducts 
policy experiments with communities that are leaders in farmland 
protection in Ohio.
    The main purpose of the policy experiments is to develop and convey 
information on likely performance land policy options for Ohio 
communities, as well as other techniques that should be available, to 
those who can use it.
    Farmland Preservation Summit.--The Center co-hosts the annual Ohio 
Farmland Preservation Summit. This summit is the one opportunity of the 
year for farmland protection interests to gather and learn from each 
other and invited speakers. According to the national organization, 
American Farmland Trust, the summit is the largest statewide meeting of 
farmland preservationists across the country. The most recent Farmland 
Preservation Summits was held in November 2009. The next one is planned 
for the autumn of 2010. These are excellent opportunities to not only 
provide outreach on our partnership projects--number one above--but a 
time to bring in outside experts that we can access through the 
national network of farmland preservation.
    State-level Assistance.--Staff of the Center are often called on to 
provide advice and expertise to State level efforts. These efforts have 
a direct impact on Ohio communities and their opportunities and options 
for farmland preservation. A few of the roles that staff is involved 
with include the Food Policy Council, Food Systems Assessment task 
force, Ohio Department of Agriculture, Office of Farmland Preservation 
advisory board, and Ohio Department of Agriculture Specialty Crop Block 
Grant Review Committee.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $112,209; for fiscal year 2009, 
$105,000; and for fiscal year 2010, $160,000. A total of $377,000 has 
been appropriated.
    The research is being conducted at the Ohio State University.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
        florida biomass to biofuels conversion program, florida
    The goal of this project is to optimize the use of waste biomass as 
a feedstock for ethanol production. Enzyme cocktails will be made to 
utilize a variety of waste biomass including corn stover, rye straw, 
wood pulp, switchgrass, sugarcane bagasse, and citrus peel. Three 
important enzymes have been expressed in significant quantities. 
Because of the enzyme activity observed in plant crude extracts, there 
is no need for purification; therefore, further reducing the cost below 
current commercial recombinant enzymes. Plant-derived enzyme cocktails 
enhanced the hydrolysis of wood and citrus peels, releasing more 
fermentable sugars than commercial cocktails.
    Fiscal year 2009 was the first year that funds were appropriated 
for this grant with an amount of $235,000; and for fiscal year 2010, 
$300,000. A total of $535,000 is appropriated.
    The work is being carried out at the University of Central Florida.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                       greenhouse nurseries, ohio
    This goal of this research is to identify and implement strategies 
to enhance the economic competitive position of Ohio greenhouse 
nurseries, especially those in northwestern Ohio.
    Economic impact of the greenhouse industry has been estimated. 
Mapping of general industry trends has been completed, and economic 
barriers to competitiveness have been identified and strategies have 
been developed based upon a cluster-based economic model. This economic 
model was implemented in 2005 with the formation of a greenhouse 
cluster advisory board with representatives from northwestern Ohio 
greenhouse growers, Ohio Floriculture Association, Regional Growth 
Partnership, The Ohio State University Extension Office, the 
Agricultural Research Service, the University of Toledo, and Bowling 
Green State University. This board meets monthly to implement marketing 
and branding strategy. The use of controlled release fertilizers is 
being researched and implemented to reduce nutrient pollution. During 
the last 12 months, the major accomplishment of the grant has been 
progress on a sustainable greenhouse cluster in northwest Ohio. A 
Maumee Valley Growers cluster developed a positive brand identity. Two 
major challenges that have been successfully addressed by Maumee Valley 
Growers are the implementation of a coordinated marketing effort 
capitalizing on the growers' brand, and the implementation of a group 
buying program that will save the northwest Ohio greenhouse industry an 
estimated $250,000 in energy, workers compensation, and insurance costs 
during the next 12 months. The northwest Ohio natural gas savings 
program has been expanded to other parts of the State and southeastern 
Michigan and will continue to develop as will a group buying program 
for electricity modeled after the highly successful natural gas buying 
program. This electricity program will initially focus on 19 northern 
Ohio counties. A successful cluster emphasizes collaboration between 
the businesses, in this case greenhouses, in a cluster and community 
partners. Progress has been made in developing relationships with 
community partners since 2005, but efforts to develop long-term, 
sustainable, collaborative relationships with community partners will 
continue as will the work of nurturing and building on relationships 
between participating growers. This cluster strategy has the potential 
to be utilized in other areas, strengthening the links between growers 
and consumers.
    The work supported by this grant began in fiscal year 2003, and the 
following amounts have been appropriated: in fiscal year 2003, 
$149,025; in fiscal year 2004, $712,770; in fiscal year 2005, $726,144; 
in fiscal year 2006, $718,740; in fiscal year 2007, $0; in fiscal year 
2008, $535,227; in fiscal year 2009, $502,000; and in fiscal year 2010, 
$1,380,000. A total of $4,723,906 has been appropriated.
    The research is being conducted at selected sites throughout Ohio 
and through subcontracts with the University of Toledo, Bowling Green 
State University, and Indiana State University.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                high value horticultural crops, virginia
    The goal of this grant is to build capacity in the area of 
renewable and sustainable resources at the Institute for Advanced 
Learning and Research. This effort was conducted in close collaboration 
with the Departments of Forestry and Horticulture at Virginia 
Polytechnic Institute and State University. Short-term objectives of 
this undertaking were to organize and equip the plant tissue culture/
agricultural biotechnology laboratory and solicit sub-licenses for the 
production of polyploid orchids, for the production of landscape 
ornamentals and other unique, high value horticultural crops, as well 
as initiate research on new ornamental and vegetable cultivars.
    In fiscal year 2003, the plant tissue culture/agricultural 
biotechnology laboratory was designed and equipped. Fast growing clones 
of loblolly pines that are to be used in Institute research were 
planted at the Reynolds Homestead. In fiscal year 2004, technicians 
were hired and participated in in-depth training at Virginia Tech 
University, the Georgia Institute of Technology, and North Carolina 
State University. A horticulture graduate student was employed to teach 
and document protocols for orchid propagation. Three Danville-based 
faculty positions were filled in 2005. These included two molecular 
breeding faculty and a Virginia plant introduction program coordinator. 
New ornamentals and trees developed through the program will be field 
tested in collaboration with the Virginia Nursery and Landscape 
Association. The Virginia Tech Department of Horticulture and the 
Institute was awarded a grant from the Virginia Tobacco Indemnification 
and Community Revitalization Commission to establish test sites for 
plant introductions. The Virginia Tech Department of Forestry has hired 
a new faculty member with expertise in forest tree genetics and 
functional genomics, to collaborate with researchers at the Institute. 
Collaborative meetings have been held with several potential partners, 
both educational and commercial, including North Carolina State 
University, CellFor, and HZPC. A new objective is to development and 
breeding of novel biofuel crops. Additionally, high value native 
ornamental crops are being propagated to replace commonly sold, but 
potentially invasive non-native ornamentals.
    The work supported by this grant began in fiscal year 2003, and the 
following amounts have been appropriated: in fiscal year 2003, 
$248,375; in fiscal year 2004, $447,345; in fiscal year 2005, $567,424; 
in fiscal year 2006, $717,750; in fiscal year 2007, $0; in fiscal year 
2008, $535,227; and in fiscal years 2009 and 2010, $502,000 per year. A 
total of $3,520,121 has been appropriated.
    This work is being conducted at the Institute for Advanced Learning 
and Research, partnering with the Forestry and Horticulture 
Departments, Virginia Polytechnic Institute and State University, 
Blacksburg, Virginia.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
international center for good technology development to expand markets, 
                                indiana
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $750,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.
                      mariculture, north carolina
    Projects funded under the fiscal year 2009 Mariculture, North 
Carolina grant were designed to develop and transfer to commercial 
users, safe and effective methods for marine food fish production. 
Current research focuses on three candidate species for aquaculture: 
southern flounder, Paralichthys lethostigma; black sea bass, 
Centropristis striata; and red porgy, Pagrus pagrus. Specific 
objectives include: (1) Compare performance of southern flounder and a 
southern flounder female by summer flounder male F1 hybrid; (2) 
optimize Artemia enrichment protocols for larval southern flounder and 
black sea bass using state-of-the-art products; (3) evaluate 
substitution limits of alternative proteins such as underutilized plant 
and animal by-products as a fish meal replacement in southern flounder 
diets under controlled laboratory conditions by replacing menhaden fish 
meal with: (a) poultry by-products and fermented poultry by-products; 
and (b) menhaden fish meal with dried distillers grain with solubles; 
(4) formulate cost-effective diets using a combination of different 
alternative protein sources such as soybean meal, poultry by-product 
meal, and meat and bone meal, and determine their effects on growth of 
black sea bass; and (5) determine the effects of these feeds on the 
biochemical composition of fish flesh.
    Research conducted under the Mariculture, North Carolina program 
has led to information on the effects of temperature, salinity, and 
light intensity on embryos and early larval survival of black sea bass; 
fatty acid profile studies in southern flounder provided a better 
understanding of the biochemical basis of egg quality and requirements 
for natural spawning of southern flounder; culture requirements for 
larval rearing and grow-out culture studies have demonstrated that 
wild-caught black sea bass can be grown indoors from juvenile to 
marketable sizes in low-salinity, brackish water; black sea bass will 
undergo sexual maturation under artificial conditions within 1 year of 
capture; and using only female black sea bass for cost-effective grow-
out indoors. These advances aid the development of microbound diets for 
replacing live feeds and the development of more cost-effective rearing 
protocols. Captive, wild-caught, red porgy broodstock produced up to 
300,000 eggs per day from January through March, 2005. A total of 1,200 
day 35 post-hatch juveniles were produced with 2.4 percent survival. 
The University of North Carolina at Wilmington is collaborating with 
the city of Jacksonville, North Carolina, to retrofit a defunct waste 
water treatment plant to install a state-of-the-art, pilot-scale 
recirculating aquaculture system for marine finfish. Southern flounder 
and black sea bass will be grown by a commercial practitioner to test 
economic viability and to integrate research, education, and technology 
transfer for these two species. The results of this project have 
advanced knowledge of private practitioners which are currently 
undertaking startup commercial companies in North Carolina. The 
Sturgeon City project has provided a unique opportunity for a 
commercial practitioner to produce marine finfish, specifically the 
southern flounder and black sea bass, in a state-of-the-art 
recirculating aquaculture system, while receiving training. This is an 
example of a public-private partnership for sustainable marine finfish 
culture development. The outcomes of the Sturgeon City project in 
Jacksonville, North Carolina, will be of significant interest to 
prospective commercial aquaculturists, government policy makers, and to 
researchers and educators.
    The work supported by this grant began in fiscal year 1998. The 
appropriation for fiscal year 1998 was $150,000; for fiscal years 1999 
and 2000, $250,000 per year; for fiscal year 2001, $324,285; for fiscal 
year 2002, $360,000; for fiscal year 2003, $357,660; for fiscal year 
2004, $320,100; for fiscal year 2005, $317,440; for fiscal year 2006, 
$313,830; for fiscal year 2007, $0; for fiscal year 2008, $234,348; and 
for fiscal years 2009 and 2010, $220,000 per year. A total of 
$3,317,663 has been appropriated.
    The work is being conducted at the Center for Marine Science 
Research at the University of North Carolina at Wilmington.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                  medicinal and bioactive crops, texas
    The long-term goal of this project is to develop aesculiosides as 
novel primary and/or adjuvant therapy for cancers.
    To date, over 1,000 species of vascular plants representing 138 
families found in Texas have been collected and screened for the 
identification of bioactive agents since 1993. Over 600 pure compounds, 
including over 100 new compounds, have been isolated from 28 species, 
mostly native plants in Texas. Several aesculiosides have shown 
promising activity against 60 cell lines from 9 different human cancers 
including leukemia, non-small cell lung, colon, central nervous system 
(CNS), melanoma, ovarian, renal, prostate, and breast19. Further 
investigation indicated that active saponins are highly selective for 
tumor cells relative to normal cells.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $267,900; for fiscal year 2009, 
$280,000; and for fiscal year 2010, $300,000. A total of $847,900 has 
been appropriated.
    The research will be conducted at Stephen F. Austin State 
University in Nacogdoches, Texas
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
        midwest agribusiness trade and information center, iowa
    The objective of this project is to continue work by the Midwest 
Agribusiness Trade Research and Information Center to promote expansion 
of foreign trade and investment by small and medium-size midwest 
agribusiness firms. Current progress is as follows: Topics for research 
to be conducted at Iowa State University include: (1) competitiveness 
and marketability of commodity and non-commodity agricultural products; 
(2) export opportunities for non-commodity products and methods of 
differentiating these products; and (3) emerging issues and trade-
distorting events with significant potential to affect world trade 
patterns.
    Under subcontract, the Greater Des Moines Partnership will provide 
technical assistance and information to agribusinesses, such as 
business climate and trade lead information, business contacts of 
potential buyers and partners, and other resources that benefit 
companies before and during the exporting process. The project 
objectives are to: (1) Study the competitiveness and marketability of 
commodity and non-commodity agricultural products in international 
markets, determine the potential size and value of specific markets, 
and evaluate opportunities and constraints faced by U.S. agribusiness 
firms conducting business in foreign countries. (2) Evaluate 
opportunities for non-commodity products and ways to differentiate 
these products, such as process verification, reputation- and location-
based identification, branding, and traceability. (3) Analyze emerging 
issues such as trade agreements, trade-distorting events and animal 
disease outbreaks and their potential effects on U.S. agricultural 
exports and world supply and demand. (4) Disseminate research results 
and other relevant information about international business 
opportunities to help U.S. agribusiness firms initiate or increase 
agricultural exports.
    The Greater Des Moines Partnership's objectives and expected 
outputs are to: (1) Offer professional consultation to midwest 
agribusinesses interested in penetrating international markets through 
trainings, one-on-one consultations/assistance, development of 
marketing materials and matching up of international delegations with 
potential midwest agribusiness partners. (2) Disseminate market 
research and information related to agricultural exports. (3) Publish 
an online quarterly newsletter to serve the needs of Iowa agribusiness 
exporters and create an online database listing Iowa agribusiness 
companies wishing to expand their presence in the international 
marketplace. (4) Develop expertise in Foreign Trade Zone (FTZ) 
provisions for the benefits of midwest exporters. Use two operating 
FTZs to serve export-oriented businesses.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $186,684; for fiscal year 2009, 
$176,000; and for fiscal year 2010, $187,000. A total of $549,684 has 
been appropriated.
    The research will be conducted at the Midwest Agribusiness Trade 
and Information Center at Iowa State University.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                  mississippi valley state university
    The goal of this project is to expose students, faculty, staff, 
community-leaders, and lay citizens to promote a healthier life style 
which will reduce obesity rate, encourage young people to stay in 
school, and pursue education beyond high school. This is to be 
accomplished through curriculum enhancement and faculty research 
support.
    The accomplishment report indicates that the goals described in the 
proposal are being achieved satisfactorily. The goal of the program is 
to enhance the various academic programs at Mississippi Valley State 
University.
    This program was initiated in fiscal year 1987. Grants have been 
awarded from funds appropriated as follows: fiscal year 1987, $750,000; 
fiscal year 1988 and 1989, $625,000 per year; fiscal year 1990, 
$617,000; fiscal year 1991, $642,000; fiscal years 1992 and 1993, 
$668,000 per year; fiscal year 1994, $593,000; fiscal year 1995, 
$544,000; fiscal years 1996-2000, $583,000 per year; fiscal year 2001, 
$645,577; fiscal year 2002, $633,000; fiscal year 2003, $1,043,175; 
fiscal year 2004, $933,460; fiscal year 2005, $925,536; fiscal year 
2006, $1,418,670; fiscal year 2007, $0; fiscal year 2008, $1,067,475; 
and for fiscal years 2009 and 2010, $1,002,000 per year. A total of 
$17,317,893 has been appropriated.
    The work is being carried out at Mississippi Valley State-
University campus and off-campus in Leflore County. Other counties in 
Mississippi may also be involved.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
        monitoring agricultural sewage sludge application, ohio
    The University of Toledo, along with Bowling Green State University 
and Central State University, will determine the human health and 
environmental impacts associated with the application of sewage sludge 
on agricultural fields. Researchers will analyze physical, chemical and 
biological impacts of sewage sludge application and the impacts of 
pharmaceutical and personal care products, pathogens and nutrients on 
soil and water. The project will include epidemiological studies, 
pathogens, and residual drugs within the sludge.
    Researchers have incorporated data into a geographic information 
system (GIS) to create layers of parcel data including roads, 
waterways, schools, soil data, biosolids permitted fields, and 
biosolids application rates for the project. A health survey was 
completed in Wood County that examined whether an association existed 
between self-reported health effects and distance from fields where 
application of Class B biosolids was permitted. Researchers have also 
identified approximately 50 compounds in wastewater influent, effluent, 
and biosolids that are classified as antibiotics, anti-depressants, 
anti-coagulants, and anti-psychotics. New methods of testing for these 
contaminants have developed as a result of the conduct of these studies 
and have been published in national scientific journals.
    The work supported by this grant began in fiscal year 2004 with an 
appropriation of $1,073,628; for fiscal year 2005, $1,276,704; for 
fiscal year 2006, $1,274,130; for fiscal year 2007, $0; for fiscal year 
2008, 893,700; for fiscal year 2009, $839,000; and for fiscal year 
2010, $500,000. A total of $5,857,162 has been appropriated.
    Research is being conducted at the University of Toledo; Bowling 
Green State University; and at field locations in Lucas and Green 
counties as appropriate.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
     ne center for invasive plants, connecticut, vermont, and maine
    The goal of this project is to develop a multi-State, 
interdisciplinary research program to address the problems caused by 
invasive species and to develop methods for sterile, non-invasive 
cultivars. There have been a number of achievements including:
    The development of methods in the creation of non-invasive euonymus 
and Japanese barberry plants as a first step in developing sterile, 
non-invasive cultivars in the next 5 years.
    Predictive models to predict future spread of invasive plants in 
the New England region.
    The analysis of economic impacts of invasive plants in New England 
as useful information to policy makers, nursery industry and scientific 
community.
    Development of outreach education activities to make the public 
aware of the problems of invasive plants and the importance of adopting 
native, non-invasive plants for ornamental purposes.
    Sponsoring an international symposium August 10-14, 2009, entitled 
``Invasive Plants in the Northeast of Asia and America: Trading 
Problems, Trading Solutions,'' that brought together experts of from 
the United States, China, Japan, Korea, and eastern Russian for a week 
of presentations, field trips, and workshops dealing with the ecology 
of invasives, biotechnology and horticultural approaches to control, 
and regulatory hurdles and opportunities. Over 80 people attended the 
conference, parts of which were broadcast by the Connecticut Public 
Broadcasting Network. Agency representatives--USDA and the National 
Science Foundation; Chinese Forestry--attended and contributed to 
discussions of potential future joint research activities.
    There also have been some scientific publications including: 
``Detecting the influence of ornamental Berberis thunbergii var. 
atropurpurea in invasive populations of Berberis thunbergii--
Berberidaceae--using Amplified Fragment Length Polymorphism--AFLP'' 
published in American J. Botany 95(6):1-7; ``AFLP identification of 
Berberis thunbergii cultivars, inter-specific hybrids, and their 
parental species'' published in J. Horticultural Science & 
Biotechnology 83(1):55-63.
    The work under this project began in fiscal year 2006 with an 
appropriation of $420,750; for fiscal year 2007, $0; for fiscal year 
2008, $313,788; and for fiscal years 2009 and 2010, $295,000 per year. 
A total of $1,324,538 has been appropriated.
    Research is being conducted at the University of Connecticut, the 
University of Vermont, and the University of Maine.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                      nutrition research, new york
    The goal of this research is to evaluate City Harvest's work in the 
Melrose neighborhood-in-the South Bronx in order to increase access to 
high quality fresh produce and other nutrient-dense foods; to increase 
awareness as to the causes and effects of nutrition-related diseases 
while providing the information and tools necessary to enable residents 
to improve their dietary health; and to measure the change in dietary 
behavior exhibited by clients assessing these services.
    City Harvest helps feed 260,000 New Yorkers each week by rescuing 
high-quality surplus food and distributing to a network of 600 soup 
kitchens, food pantries and other community food programs. This program 
provides immediate hunger relief and helps New Yorkers gain access to 
affordable, local, nutritious food, with the goal of creating sustained 
long-term food security. City Harvest has been developing and testing 
measurement tools for the collection of data from users of the Melrose 
Mobile Market on fresh produce access. In addition, nutrition education 
courses on healthy planning, shopping and cooking for families have 
been offered in 6- or 8-week series at strategic locations within the 
community.
    Fiscal year 2009 was the first year that funds were appropriated 
for this grant with an amount of $188,000 under the Special Research 
Grants. In fiscal year 2010, this grant was moved to the Research 
Federal Administration Grants with an appropriation of $188,000. A 
total of $376,000 has been appropriated.
    The work is being carried out by City Harvest, New York City and 
Cornell University Cooperative Extension, New York City.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                nutrition and diet research, california
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $925,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.
                 pasteurization of shell eggs, michigan
    The goal of this project is the commercialization of this 
innovative and patented process that addresses the potential food 
safety problem of microbial contamination of eggs and the possible 
transfer of pathogenic bacteria to humans. Research on this microwave 
and heating process is progressing toward a commercial product. Work is 
being conducted in collaboration with government, industry, and 
university personnel.
    Grants have supported this research grant beginning in fiscal year 
2003. The appropriation for fiscal year 2003 was $248,375; for fiscal 
year 2004, $1,093,510; for fiscal year 2005, $1,237,024; for fiscal 
year 2006, $1,336,500; for fiscal year 2007, $0; for fiscal year 2008, 
$995,979; and for fiscal years 2009 and 2010, $935,000 per year. A 
total of $6,781,388 has been appropriated to this time.
    The Michigan Research Institute facility is the research site, 
which is coordinated with industry or university sub-contractors.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                        pm-10 study, washington
    The PM-10 study object is to address the effects of emissions of 
PM-10 and PM-2.5-sized particulates, or dust, from agricultural land on 
air quality and development of control strategies to (1) develop a 
geographic information system (GIS) database for simulating wind 
erosion and transport of fugitive dust; (2) quantify and predict wind 
erosion; (3) create a PM emission inventory; (4) develop PM dispersion 
models; (5) develop alternate tillage and cropping systems to control 
PM emissions; (6) document changes in farming practices that have led 
to reduced emissions; (7) identify sustainable farming practices that 
control erosion; and (8) help farmers adopt best management practices.
    The project has developed an undercutter tillage tool that has 
proven effective in reducing erosion. Scientists have reported a 50 
percent reduction in dust using the undercutter compared to 
conventional tillage. The USDA Wind Erosion Prediction System (WEPS) 
has recently been tested and improved for the Columbia Basin in 
addition to GIS databases that will drive atmospheric and global 
circulation models in the region. On-going work will attempt to couple 
WEPS with these advanced circulation models to predict regional wind 
erosion events.
    The project is in its fifth year of cropping system studies to 
evaluate conservation tillage against traditional wheat-fallow systems 
for controlling wind erosion. One more cropping season is needed to 
evaluate all of their treatments.
    The project has documented increases in soil organic carbon from 
using no-till versus conventional tillage practices. The chemical 
signatures in organic carbon are being utilized to predict sources of 
wind-blown sediment. In addition to carbon, the impact of these 
practices on soil quality is being documented.
    Economic analysis of various farming practices are being performed 
to document which practices are the most cost-effective for producers 
in controlling erosion. For example, the economic analysis showed that 
the undercutter tillage method was profitable, and 50 growers have 
adopted the practice through a cost-share program with Natural 
Resources Conservation Service (NRCS).
    The project is transferring direct-seeding technologies to 
producers through workshops and on-farm demonstrations.
    The work supported by this grant began in March 1994 at the 
University of California--Davis and at Washington State University. The 
appropriation for fiscal year 1994 was $940,000; for fiscal year 1995, 
$815,000; for fiscal years 1996 through 2000, $873,000 per year; for 
fiscal year 2001, $435,041; for fiscal year 2002, $426,000; for fiscal 
year 2003, $435,153; for fiscal year 2004, $389,687; for fiscal year 
2005, $386,880; for fiscal year 2006, $383,130; for fiscal year 2007, 
$0; for fiscal year 2008, $284,991; and for fiscal years 2009 and 2010, 
$268,000 per year. California has not received funding under this grant 
since fiscal year 2000 and has had its own funding stream since 2002. A 
total of $9,396,882 has been appropriated.
    Scientists at Washington State University are leading the efforts, 
but additional work is being done at the Agricultural Research 
Service's laboratory in Pullman, the University of Idaho, and Oregon 
State University through subcontracts.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                        polymer research, kansas
    The goals of the project are the development of new monomers and 
polymers based on vegetable and crop oils and the study of the effects 
of structure on the properties of novel polymers. Various processing 
methods will be examined. The physical and chemical properties of the 
new polymers will be systematically characterized.
    Five specific tasks have been completed to date. They include 
preparation of pure polyricinoleic acid methyl esters by 
transesterification of castor oil and distillation; preparation of 
hydroxyl acid methyl ester with secondary hydroxyl groups from oleic 
acid by epoxidation and hydrogenation; preparation of polyester diols 
of molecular weight 700-4000 transesterification of methylricioleate 
and diethylene glycol; preparation of polyurethanes from diols having 
soft segment concentration from 40-80 percent; and ozonolysis of 
vegetable oils and preparation of methyl esters of hydroxynonanoic 
acid. A new class of seven elastomers with well-defined structures and 
excellent properties was created suitable for medical and athletic 
applications. The new elastomers varied in hardness from soft rubbers 
having 70 percent of bio-based content to hard rubber with 50 or 40 
percent bio content. The original goal is nearly its completion.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $1,117,125; for fiscal year 2009, 
$1,284,000; and for fiscal year 2010, $2,000,000. A total of $4,401,125 
has been appropriated.
    The research will be conducted at the Pittsburg State University in 
Kansas.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
          rural agriculture small business development program
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $500,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.
                       rural systems, mississippi
    The goal of the National Center for Bio-defense Communications for 
Rural America (Center) is to bring to bear Internet-based technologies 
for early detection of significant human and animal health events and 
to issue authorized, secure, non-public, bio-terror alerts and 
notifications to authorized and appropriate policymakers, healthcare, 
and first-responder recipients.
    The Center is proposing to develop and implement more projects 
designed to address several problems that became evident as a result of 
Hurricane Katrina. The Center has just completed a major revision of 
the State Vet System. This revision has materially enhanced 
performance, removed unnecessary steps and key strokes, streamlined the 
user interface, and brought several disconnected tasks into the main 
body of the application. In partnership with the Mississippi Emergency 
Management Agency, the Mississippi State Veterinarian's Office and the 
Mississippi Department of Human Services, the Center has developed an 
integrated online Mississippi Emergency Evacuation Shelter System. The 
Center has begun work on a new goal to design, create, and host a 
Mississippi, rural-centric Web portal to personalize, deliver, and 
track the review of updated and newly available training materials on 
photogrammetric and geospatial analysis.
    The work supported by this grant began in fiscal year 2003 and the 
appropriation for fiscal year 2003 was $347,725; for fiscal year 2004 
is $311,153; for fiscal year 2005, $308,512; for fiscal year 2006, 
$304,920; for fiscal year 2007, $0; for fiscal year 2008, $229,383; and 
for fiscal years 2009 and 2010, $215,000 per year. A total of 
$1,931,693 has been appropriated.
    The program is conducted at the Institute of Epidemiology and 
Health Services Research at the e-Center of Jackson State University, 
and the Jackson Medical Mall, Jackson, Mississippi.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
    shrimp aquaculture, arizona, hawaii, louisiana, massachusetts, 
                 mississippi, south carolina, and texas
    The goal of this program is to increase domestic production of 
marine shrimp through aquaculture. Research funded through past awards 
to the program has led to: development of a computerized database for 
the shrimp breeding program; providing improved seedstock to industry 
that have been developed from the breeding program; improved shrimp 
disease diagnostics, prevention, and treatment protocols; advanced 
marine shrimp farming technologies, products, and services by providing 
high-quality, specific pathogen-free, and genetically improved shrimp 
stocks; environmentally and economically viable marine shrimp 
production systems that produce a quality product at competitive 
prices; improved biosecurity protocols that will provide protection for 
cultured and wild shrimp stocks; improving shrimp culture systems that 
reduce effluents; identifying and developing diagnostic protocols for 
many shrimp diseases that have affected world shrimp production; 
developing and using bioeconomic models to guide research and 
development efforts for the super-intensive production systems 
developed under this program; developing and evaluating disease-
resistant lines of shrimp by selective breeding; elucidating molecular 
mechanisms of disease resistance; developing monoclonal antibodies that 
have been licensed for rapid field diagnosis of a common bacterial 
disease in shrimp; developing new shrimp feeds that have lower 
inclusion rates of fish meal and fish oil; establishing a 
bioinformatics database with search capabilities to identify genes 
associated with traits of economic importance; training students in 
shrimp disease diagnostics and prevention; and improving feeds and 
feeding strategies using domestically produced grains that reduce our 
dependence on marine fish-derived protein and oils.
    Recent accomplishments include but are not limited to: production 
of approximately 50 shrimp families which are resistant to Taura 
Syndrome Virus and exhibit rapid growth and high survival at super-
intensive stocking densities; three new diseases appeared on the list 
of Crustacean Diseases in the 2008 Aquatic Code of the Office 
International des Epizooties as a direct result of this work. These 
were Necrotizing Hepatopancreatitis, Hepatopancreatic Parvovirus 
Disease, and Mourilyan Virus Disease. Following review of the global 
status of these diseases by the Crustacean ad hoc group at the 
University of Arizona, only Necrotizing Hepatopancreatitis was 
recommended for full listing by the Office International des 
Epizooties. The draft Code chapters on Hepatopancreatic Parvovirus 
Disease and Mourilyan Virus Disease were withdrawn in 2008 by the 
Crustacean ad hoc group as diseases recommended for listing by the 
Office International des Epizooties. The University of Arizona offers 
training in shrimp pathology and shrimp disease diagnostic methods to 
members of the Consortium, to United States and foreign governments, 
and to the domestic and foreign shrimp culture industries. The 
University of Arizona's Shrimp Pathology Short Course has been 
operational since 1989 as a mostly self-supporting, annually offered 
course, and is one of the University of Arizona's functions in the 
Consortium.
    Grants have been awarded from funds appropriated as follows: fiscal 
year 1985, $1,050,000; fiscal year 1986, $1,236,000; fiscal year 1987, 
$2,026,000; fiscal year 1988, $2,236,000; fiscal year 1989, $2,736,000; 
fiscal year 1990, $3,195,000; fiscal year 1991, $3,365,000; fiscal 
years 1992-1993, $3,500,000 per year; fiscal year 1994, $3,290,000; 
fiscal year 1995, $2,852,000; fiscal year 1996, $3,054,000; fiscal 
years 1997-2000, $3,354,000 per year; fiscal year 2001, $4,167,811; 
fiscal year 2002, $4,214,000; fiscal year 2003, $4,186,609; fiscal year 
2004, $3,745,769; fiscal year 2005, $3,941,216; fiscal year 2006, 
$4,158,000; fiscal year 2007, $0; fiscal year 2008, $3,097,167; and for 
fiscal years 2009 and 2010, $2,908,000 per year. A total of $78,782,572 
has been appropriated.
    The research is conducted through the United States Marine Shrimp 
Farming Consortium. Individual projects are administered and conducted 
by the University of Southern Mississippi's Gulf Coast Research 
Laboratory in Ocean Springs, Mississippi and by the Oceanic Institute 
in Hawaii. Other Consortium members conducting the research include: 
Tufts University in Massachusetts, the Waddell Mariculture Center in 
South Carolina, the Texas A&M Agricultural Experiment Station, the 
University of Arizona, and Nicholls State University in Louisiana.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
         sustainable agriculture freshwater conservation, texas
    The goal of this research is to develop a sustainable water use 
model for a part of the Rio Grande basin through the identification and 
analysis of constraints to the sustainable use of the trans-boundary 
Rio Grande water system. With agricultural water use being a major 
focus, other relevant project elements include: characterization, 
quantification, and modeling of basin surface and groundwater 
resources; water supply-demand issues throughout the Rio Grande 
drainage basin; human health-related water pollution issues; 
agricultural water use practices; identification and characterization 
of biological integrity and aquatic habitats as well as wastewater 
characterization and treatment options to extend/renew available 
supplies. The project seeks to identify the root causes and obstacles 
to sustainable use of limited resources and explore the socioeconomic 
potential of integrated solutions that are acceptable to stakeholders 
throughout the Rio Grande Basin. A focal point of the research is the 
identification of organizations and agencies doing water-related 
research in the three U.S. States and five Mexican States comprising 
the Rio Grande/Rio Bravo drainage basin. The development of a 
comprehensive and easily accessible Web-based clearinghouse of 
information will enable policy-makers, stakeholders, and the public to 
locate critical information throughout the Rio Grande and is intended 
to facilitate informed decisionmaking. A Trans-boundary Diagnostic 
Analysis Framework (TDA) has been developed specifically for the Rio 
Grande drainage basin and is actively used as the outline for 
identifying objectives and integrating the results of research 
conducted by researchers. The TDA is intended to be a resource in the 
subsequent development of a management action plan for Rio Grande Basin 
resources.
    The work supported by this grant began in fiscal year 2004, and the 
appropriation for fiscal year 2004 was $1,789,380; for fiscal year 
2005, $1,805,440; for fiscal year 2006, $1,831,500; for fiscal year 
2007, $0; for fiscal year 2008, $1,527,234; and for fiscal years 2009 
and 2010, $1,434,000 per year. A total of $9,821,554 has been 
appropriated.
    Much of this work is being conducted in the area of the Big Bend 
National Park on the Rio Grande River. The institution which provides 
leadership of the project is Sul Ross State University in Alpine, 
Texas. Subcontracts on the project also exist for Texas State 
University at San Marcos.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
   university of wisconsin--stevens point institute for sustainable 
                              technologies
    The goal of the project is to develop a self-sustaining center that 
will provide education, training, and research support for government 
and industry in Wisconsin. The Research Division of the institute will 
focus on establishing a biofuels research lab to support new 
alternative fuel development; a statewide biofuels scientific and 
economic conference is under development to provide practical 
information to the citizens of Wisconsin; the University of Wisconsin, 
Stevens Point Paper Science and Engineering Department is working with 
the institute on developing sustainable technologies for the paper 
industry; and researchers are collaborating with others in education 
and laboratory sciences to develop criteria for sustainability. A draft 
curriculum for an alternative energy minor has been developed and will 
process through university governance spring semester.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $1,843,008; for fiscal year 2009, 
$1,408,000; and for fiscal year 2010, $1,400,000. A total of $4,651,408 
has been appropriated.
    The research will be conducted at the University of Wisconsin--
Stevens Point.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                 viral hemorrhagic septicemia, michigan
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $150,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.
                   viral hemorrhagic septicemia, ohio
    The goal of the project is to investigate the emerging Viral 
Hemorrhagic Septicemia disease outbreaks in Lake Erie and in the Great 
Lakes region by developing a molecular genetic test to enhance the 
rapid and cost-effective detection of the virus and to map the 
distribution of VHS in yellow perch, walleye, smallmouth bass, and 
other Great Lakes fish populations. Results will be compared to the 
cell culture method, and results are currently being used as a 
confirmatory test for VHS detection to determine sensitivity, 
reliability, and accuracy. A positive outcome from this effort will 
result in a less-expensive and more-sensitive VHS test kit to be placed 
on the market providing time-efficient testing for aquaculture 
facilities and lake managers.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $223,425; for fiscal year 2009, 
$209,000; and for fiscal year 2010, $500,000. A total of $932,425 has 
been appropriated.
    The research is being conducted at the University of Toledo in 
Ohio.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                     vitis gene discovery, missouri
    The original goal of this research was to identify powdery mildew 
responsive genes in healthy and infected grapes and to obtain complete 
clonal DNA sequences of these genes as expressed in both berries and 
leaves.
    Molecular genetics will be used to elucidate resistance to powdery 
mildew and other fungal diseases in Vitis aestivalis, a grape species 
that is native to North America. An efficient gene silencing strategy 
will be developed. In addition, research will determine grape 
components that are beneficial to human health with the goal of 
increasing the content of those components in grapes.
    The research began in 2004. The amount appropriated for fiscal year 
2004 was $357,876; in fiscal year 2005, $603,136; in fiscal year 2006, 
$601,920; in fiscal year 2007, $0; in fiscal year 2008, $448,836; and 
in fiscal years 2009 and 2010, $422,000 per year. A total of $2,855,768 
has been appropriated to date.
    The research is being conducted by the Missouri Agricultural 
Experiment Station.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                    water pollutants, west virginia
    This project goal is aimed at characterizing the potential for 
bacterial contamination of water in West Virginia by providing a 
comprehensive database of bacteria against which samples can be 
compared to determine sources of E. coli contamination in waters. The 
database continues to grow as samples are acquired from surrounding 
States. Recent work in this project focuses on improving methods for 
detecting pathogens and using these detection methods to determine the 
potential health hazard posed by bacteria.
    The project is being carried out at Marshall University in West 
Virginia. Marshall University has one of the Nation's leading forensic 
laboratories. As the project has developed, water samples from a 
broader geographic region have been included in the analyses. These 
additional samples make the analyses more comprehensive in 
characterizing bacterial contamination.
    The work supported by this grant began in fiscal year 2002, and the 
appropriation for fiscal year 2002 was $206,000; for fiscal year 2003, 
$596,100; for fiscal year 2004, $536,814; for fiscal year 2005, 
$564,448; for fiscal year 2006, $594,000; for fiscal year 2007, $0; for 
fiscal year 2008, $410,109; for fiscal year 2009, $385,000; and for 
fiscal year 2010, $500,000. A total of $3,792,471 has been 
appropriated.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                extension federal administration grants
                      agriculture in the classroom
    The project supports State- and regional-level projects that 
promote and develop agricultural literacy for the Nation's students and 
teachers at the pre-K through secondary levels, by integrating 
agriculture into the curriculum currently taught in public and private 
schools and to those homeschooled. Funds also support the operating 
costs of the national office, including staff salaries and staff travel 
for AITC technical assistance workshops, community outreach, and 
stakeholder meetings.
    AITC encourages pre-K to 12th grade educators to adopt science-
based themes which are an outgrowth of recent scientific advances that 
address USDA priorities and advance science-based knowledge in our 
Nation's classroom. Such advances prepare students who will be better 
able to meet future U.S. manpower needs in science, technology, 
engineering and mathematics fields.
    On the national level, the AITC program supports a national Web 
site, a national resource directory, and an annual national conference. 
Each of these entities provides high-quality educational and learning 
materials: (1) Teacher resources on the AITC Web site include lesson 
plans aligned to State and/or national standards. The Web site also 
offers student information that includes virtual field trips, career 
options, agriculture and food facts, and State agricultural profiles; 
(2) The AITC National Resource Directory is an online database which 
lists hundreds of educational materials about agriculture. It was 
designed to help educators locate high-quality resources about 
agriculture for a pre-Kindergarten through 12th grade youth audience; 
(3) The national conference allows teachers from around the world to 
come together to learn about agriculture education through teacher 
training sessions, workshops, and experiential learning events. It is 
also an opportunity to share ideas and learn of others' experiences in 
using agriculture as teaching tool.
    The total amount appropriated to Agriculture in the Classroom since 
its inception in 1981 is $8,081,750. Appropriations are as follows: 
fiscal years 2010 and 2009, $553,000 per year; fiscal year 2008, 
$553,101; fiscal year 2007, $0; fiscal year 2006, $856,350; fiscal year 
2005, $730,112; fiscal year 2004, $622,307; fiscal year 2003, $700,000; 
fiscal year 2002, $600,000; fiscal year 2001, $452,000; fiscal year 
2000 through 1997, $208,000 annually; fiscal year 1996, $204,880; 
fiscal year 1995, $208,000; fiscal year 1994, $185,000; fiscal year 
1993 and 1992, $208,000 annually; fiscal year 1991, $170,000; fiscal 
year 1990, $135,000; fiscal year 1989, $87,000; fiscal year 1988 and 
1987 $74,000 per year; and fiscal year 1986, $76,000.
    AITC is administered through program staff in the Higher Education 
Programs unit in NIFA. The USDA's national staff consists of a national 
program leader, a program specialist, and a program assistant. Each 
State organization operates their programs independently and according 
to their individual needs. State AITC programs employs full and/or 
part-time staff or relies on volunteers to carry out its mission. The 
national program staff works collaboratively with the Consortium of 
State Agriculture in the Classroom Programs to maintain an active and 
national role in promoting agricultural literacy.
                      childhood farm safety, iowa
    The objective of the project is to identify the strengths and 
weaknesses of delivering farm safety and health messages through the 
Farm Safety 4 Just Kids, FS4JK, organization by gathering information, 
conducting focus group sessions, and identifying knowledge, attitude, 
and behavioral changes among previous participants. Each of the 10 
randomly selected FS4JK Chapter focus groups was facilitated by a local 
leader to identify their unique strengths, weaknesses, ways to address 
each, and strategies to implement change. Five strengths and four 
weaknesses were identified from the chapter telephone interviews 
completed in the fall of 2008. The strengths included community 
support, youth/peer involvement, strong activities, member attributes, 
and business partnerships. The four weaknesses included no/few members, 
funding, time, and awareness/community support/newness. Additional SWOT 
(Strengths, Weaknesses, Opportunities, and Threats) analyses are being 
conducted with additional chapters.
    The work supported by this grant began in fiscal year 2008 with an 
appropriation of $74,475; for fiscal year 2009, $69,000; and for fiscal 
year 2010, $75,000. A total of $218,475 has been appropriated.
    Work is being conducted at the Farm Safety 4 Just Kids in 
Urbandale, Iowa.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
              conservation technology transfer, wisconsin
    The goal of this project is to coordinate conservation education on 
soil and water issues including nutrient management. To date, one 
example of success pertains to integrated University research and 
extension outreach with Natural Resources Conservation Service 
technical assistance mission. This integrated effort has resulted in 
cooperative programs that have been used to train and give direct on-
farm consultations and nutrient management assessments to over 2,000 
producers who farm a total of 1,358,958 acres in 63 Wisconsin counties. 
Ninety-five percent of these producers completed a nutrient management 
plan or have one in development. Cost savings in lower fertilizer 
inputs have exceeded $1,200 annually per farmer in a representative 
sample of those who follow their plans. The Discovery Farms and Pioneer 
Farms portions of this program reach over 10,000 additional farmers per 
year with on-farm demonstrations, educational publications and local 
meetings designed to stimulate their interest in nutrient management 
planning and other conservation practices. Finally, local newsletters 
are used to inform thousands of farmers and other Wisconsin landowners 
annually, of important conservation education and cost share programs.
    The work supported by this grant began in fiscal year 2000 with an 
appropriation of $170,000; for fiscal year 2001, $473,955; for fiscal 
year 2002, $490,000; for fiscal year 2003, $496,750; for fiscal year 
2004, $447,345; for fiscal year 2005, $463,264; for fiscal year 2006, 
$481,140; for fiscal year 2007, $0; for fiscal year 2008, $372,375; and 
for fiscal years 2009 and 2010, $376,000 per year. The total amount 
appropriated is $4,146,829.
    This project is being conducted with individual producers and land 
managers throughout Wisconsin, in coordination with USDA Agricultural 
Research Stations operated by the University of Wisconsin, Madison. A 
number of other States are also adapting portions of the program.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                         dairy education, iowa
    The goals of this program Are: (1) to retain and grow the business 
of existing dairy farm families; (2) foster the development of new 
family dairy operations; (3) recruit dairy families from other regions 
to Northeast Iowa; (4) improve the image of the dairy industry; and (5) 
support specialized dairy production and processing.
    These goals are being realized by providing educational 
opportunities for current and future dairy industry participants. Since 
2000, the Northeast Iowa Dairy Foundation has helped contribute to the 
success of more than 300 students enrolled in the program's dairy 
curriculum. Approximately 95 of those 300 former students now operate, 
own, and/or manage successful dairy farms, milking roughly 12,730 cows 
and generating $203,680,000 in economic activity each year. These farms 
have contributed to a strong rural economy and infrastructure in Iowa. 
It is estimated that every 50 dairy cows create one full-time 
equivalent farm job, so at least 28 farm jobs have been created by the 
cows being milked by alumni of this program. Totaled, at least 61 
agricultural jobs are saved annually as a result of this program. 
Moreover, for every new job created in agriculture, an additional 1.3 
jobs are added to the State's employment base; so in addition to the 61 
agricultural jobs, graduates contribute to another 79 off-the-farm 
jobs, for a total of 140 jobs created annually.
    The work supported by this grant began in fiscal year 2001. The 
appropriation for fiscal year 2001 was $237,476. In fiscal year 2002, 
the appropriation was $232,000; in fiscal year 2003, $233,473; in 
fiscal year 2004, $210,749; in fiscal year 2005, $229,152; in fiscal 
year 2006, $226,710; in fiscal year 2007, $0; in fiscal year 2008, 
$168,810; in fiscal year 2009, $159,000; and in fiscal year 2010, 
$175,000. The total amount appropriated is $1,872,370.
    The work in this program takes place at The Dairy Education and 
Applied Research Center, located one mile South of Calmar, Iowa, 
adjacent to the Northeast Iowa Community College Calmar Campus. 
Resources at this Center include a 17,000 square foot education center, 
laboratories, and production facilities for 200 dairy cows.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
     diabetes detection and prevention, washington and pennsylvania
    The goal of the integrated extension and research project, led by 
the Joslin Diabetes Center, is to develop and conduct a community-
based, extension diabetes detection and prevention program that would 
increase public awareness of diabetes, risk factors for diabetes, and 
healthy living behaviors to prevent or delay diabetes and related 
complications. In 2009, specific program aims are: continued expansion 
of the On the Road<SUP>TM</SUP> sites to increase awareness, 
identification and proper management of diabetes; investigate methods 
for community screening of diabetes with emphasis on post-screening 
follow-up; test and evaluate the community use of On the 
Road<SUP>TM</SUP> nutrition and exercise modules; develop and establish 
a yearly Diabetes Symposium in Hawaii aimed at providers, community 
health workers and patients; update and manage the project database to 
improve data collection and analyses and program evaluation; develop 
and publish a Medication booklet to accompany On the Road<SUP>TM</SUP> 
materials; update and deploy retinal imaging equipment; and establish 
project sustainability and outreach to non-partner States and expansion 
into new venues.
    The goal of the work by Temple University in collaboration with 
Pennsylvania State University Cooperative Extension is to promote 
behaviors that are associated with decreased risk of obesity, diabetes 
and its complication in underserved urban communities. For this work, 
Temple University is using Dining with Diabetes, a well-established 
program created and used by Extension educators for community-based 
diabetes support and education of adults with type 2 diabetes. In 
addition, Temple University is conducting formative research among 
students, parents and school food service on breakfast participation 
among middle school students as relates to incidence and prevalence of 
overweight and obesity.
    An example of one accomplishment pertains to the Joslin Diabetes 
Center lead extension and research activities is the Diabetes Symposium 
in Hilo, Hawaii:
    Joslin Diabetes Center worked with University of Hawaii partners to 
put together the first annual Big Island Diabetes Summit. This 3-day 
event took place in Hilo October 17, 2009. Joslin faculty presented 
sessions on nutrition and diabetes management to physicians--35, 
dietitians and nurse educators--35, and people with diabetes--60 with 
over 130 attendees in attendance. The Big Island Diabetes Summit was 
developed to provide education, tools and resources to an area 
educationally underserved for both providers and patients.
    People with diabetes and caregivers were invited to attend the 
evening Summit session that included a free A1C and Blood Pressure 
screening before the event. Several caregivers not previously diagnosed 
were identified with A1C, greater than 6.5 percent, criteria for 
referral for full evaluation and possible diagnosis of diabetes. The 
session included an interactive education dinner with carbohydrate 
counting tips and healthy eating resources.
    The event was well received by all groups and will be held again 
next year as the 2nd Annual Big Island Diabetes Summit. Local radio 
stations expressed interest in the event, as well as other local 
businesses. Planning for next year includes attaining more support and 
involvement from local businesses and organizations.
    The work supported by this grant began in fiscal year 1999. The 
funds appropriated to date are: 1999: $550,000; 2000: $550,000; 2001: 
$923,963; 2002: $906,000; 2003: $917,994; 2004: $1,089,534; 2005: 
$1,084,256; 2006: $1,082,070; 2007: $0; 2008: $806,316; 2009: 
$1,033,000; 2010: $1,033,000; total appropriated is $9,976,133.
    The research aspects of the work to include educational development 
for the ``On the Road'' materials and data analysis are being carried 
out at the Joslin Diabetes Center in Boston, Massachusetts. ``Dining 
with Diabetes'' materials are developed at the West Virginia University 
by Extension staff. The Cooperative Extension office of each of the 
five Land-Grant Universities--Washington State University, the 
University of Hawaii, New Mexico State University, West Virginia 
University, Pennsylvania State University--are sites for educational 
material development, training of professionals and paraprofessionals, 
and data storage. The project makes a deliberate attempt to reach 
diverse and underserved audiences outside the mainstream healthcare 
system through a variety of methods and at non-traditional sites. For 
example, the program is being conducted in a diabetes screening and 
health center in a shopping center in Hilo, Hawaii, and in community 
facilities in Washington and New Mexico. In New Mexico, the project 
attempts to work with the colonistas, located along the border and 
among the Nation's poorest; New Mexico has implemented the program with 
the Navajo Nation. In addition, Temple University in Philadelphia, 
Pennsylvania, is the site of two program interventions related to 
community based approaches to prevent a treat obesity and diabetes.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                        e-commerce, mississippi
    The E-Commerce Extension Demonstration Project helps small 
businesses and rural communities use information technology to 
strengthen and develop businesses and to create a supportive business 
climate in rural communities. Its goal is to grow the rural economy by 
developing and delivering timely information, training, and technical 
assistance to the hundreds of small businesses and business leaders 
that dominate rural America's economic landscape. It builds the 
capacity of the land-grant university system to conduct research, 
deliver science-based information, train educators, and deliver high 
quality e-commerce education. The project is under the leadership of 
the Southern Rural Development Center (SRDC) and operates in 
partnership with the three other Regional Rural Development Centers and 
the Nation's Cooperative Extension Service.
    In fiscal year 2009, the project's competitive grants program has 
awarded nearly $600,000 to date involving the development of 15 
educational resources or curricula. It worked with e-commerce grantees 
to develop and release four comprehensive on-line curriculum products 
in 2009 for use by Extension educators and customers across the Nation. 
They are ``Marketing Food Specialty Products Online,'' ``Beginner's 
Guide to e-Commerce,'' ``Web site Basics: A Primer for Hispanic Small 
Businesses''--available in English and Spanish, and ``Electronic 
Retailing: Selling on the Internet.'' The project's National e-Commerce 
Extension Advisory Committee reviewed and recommended funding for the 
development of three new curriculum products slated for release in 
2010. They are ``Web Presence Strategies for Small Communities and 
Local Governments,'' ``Using Social Networking Tools to Enhance Small 
Business,'' and Search Engine Optimization (SEO) Strategies.'' The 
project updated and maintained the National e-Commerce Extension 
Initiative Web site, a state-of-the-art site that offers Extension 
educators and consumers high quality broadband and e-commerce 
information on a 24/7/365 basis. From January to November of 2009, the 
National eCommerce Extension Initiative Web site generated 10,729 
individual non-repeat visitors according to the Google analytic reports 
we prepared.
    The project awarded six competitive State mini-grants to help 
facilitate the launching of e-commerce programming that supports ``on 
the ground'' piloting of the resources developed by the SRDC. Mini-
grants were awarded to teams of Extension educators in Alabama, 
Oklahoma, Michigan, Missouri, South Carolina, and Tennessee. To date, 
these grants have resulted in nine workshops in five States and one 
national webinar. Three of the six awardees report evaluation efforts 
for both short and long term workshop participant impacts.
    It developed and released a second round mini-grant Request for 
Proposals (RFP) in the fall of 2009 and produced and published six 
eNews electronic newsletters, distributed to over 1,000 people 
nationwide, offering ready access to research reports, statistical 
data, and educational programs as they relate to e-commerce. It also 
organized and hosted a series of four webinars that offered Extension 
Educators and other participants effective strategies for using the 
newly released e-commerce curricula. It researched, completed, and 
released a tutorials section of the National e-Commerce Extension 
Initiative Web site created to give Web site users information about 
Web site design, set-up, and maintenance. Finally, it reviewed and 
approved sources for the ``Library of Resource'' section of the 
National e-Commerce Extension Initiative Web site. The Library section 
is a comprehensive listing of other sources available throughout the 
Internet that can enhance one's awareness and knowledge of a host of e-
commerce resources and programs.
    The work supported by this grant began in fiscal year 2003. The 
appropriated amount was $372,563 for fiscal year 2003; $344,018 for 
fiscal year 2004; $331,328 for fiscal year 2005; $327,690 for fiscal 
year 2006; $0 for fiscal year 2007; $246,264 for fiscal year 2008; and 
$231,000 per year in fiscal years 2009 and 2010. A total of $2,083,863 
has been appropriated.
    The work is being carried out through the leadership of the SRDC 
located at Mississippi State University. It draws on SRDC's network of 
Extension faculty located in land-grant institutions in Mississippi, 
the south, and nationally, and its partner Regional Rural Development 
Centers in the northeast, north central, and western regions.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
               efficient irrigation, new mexico and texas
    The main objective is to efficiently use and/or conserve the 
limited available water in the Texas and New Mexico Rio Grande Basin in 
order to meet present and future water needs for the region. In doing 
so, this project will provide extension education to increase the 
efficiency of agriculture and urban landscape irrigation and encourage 
the development of efficient water markets in the Rio Grande Basin. 
This project will also focus on defining current irrigation district 
and system deficiencies and work towards correcting those practices.
    Subject areas addressed include irrigation district studies; 
irrigation education and training; institutional incentives for 
efficient water use; on-farm irrigation system management; urban 
landscape and in-home water conservation; environment, ecology, and 
water quality protection; saline and waste water management and water 
use; basin-wide hydrology studies, salinity modeling, and technology; 
and project oversight, communications, biometric support, and 
accountability for the multi-components of this multi-State project.
    Economics models continue to provide valuable information to 
irrigation districts, aiding them with decision-making on costs, 
rehabilitation, and other issues. Engineers continue to provide 
training and information to irrigation district managers that help 
their district delivery systems work more efficiently. The managers 
value the information provided by both the economists and engineers and 
use it to make management decisions. Other workshops, trainings, short 
courses, and field days have been held for homeowners and agricultural 
producers. These events demonstrate more efficient and water conserving 
technologies, which help the participants realize the importance and 
effects of their water use and practices. Many homeowners in particular 
have adopted these in-home water conservation strategies, saving not 
only gallons of water but money.
    The Nutrient Management Education in the Rio Grande Valley Team 
helped Valley producers reduce fertilizer use to increase their 
profitability and make the Arroyo Colorado Watershed and Rio Grande 
Basin healthy again. Results achieved so far through marketing, 
educational programs and free soil testing campaigns are remarkable: 
Producers adopting these best soil management practices increased by 60 
percent; actual fertilizer application was reduced by more than 2.6 
million pounds of nitrogen and 3 million pounds of phosphorus; growers 
saved $1.6 million or $9.47 to $27.07 an acre; and the watershed's 
water quality improved dramatically.
    The work supported by this grant began in fiscal year 2001, and the 
appropriation for fiscal year 2001 was $1,895,820; for fiscal year 
2002, $1,960,000; for fiscal year 2003, $2,026,740; for fiscal year 
2004, $2,057,787; for fiscal year 2005, $2,161,568; for fiscal year 
2006, $2,301,750; for fiscal year 2007, $0; for fiscal year 2008, 
$1,714,911; and for fiscal years 2009 and 2010, $1,610,000 per year. 
The total amount appropriated is $17,338,576.
    Texas A&M University and New Mexico State University jointly 
conduct this extension program through coordination provided by Texas 
A&M University Extension.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                   extension specialist, mississippi
    The goal of this project is to gather and disseminate critical 
agricultural weather data for producers and researchers in Mississippi, 
surrounding States, and the Nation.
    Weather stations were installed to provide data for USDA and 
Mississippi Agricultural and Forestry Experiment Station (MAFES) 
scientists to predict seasonal variation with wind. Information is 
planned to be part of the Delta Agriculture Weather Center Web site. 
The information available primarily on the interactive Internet Web 
site (www.deltaweather.msstate.edu), has contributed greatly to the 
actual and potential annual savings for cotton, soybean, and rice 
producers. The Rice DD50 program allows farmers to reduce their risks 
and thus avoid possible losses due to untimely application of 
protection material for certain insects. Cotton DD60 heat units made 
available on a daily basis can allow the Mississippi Delta farmers to 
reduce the cost of treatments by over $24 million annually. This 
reduction in treatments translates into over 112,000 pounds of active 
ingredient of pesticide applications not sprayed in the Mississippi 
Delta per year. They also use these data to monitor the cotton boll 
formation to help time harvest aid application for economical 
defoliation.
    The funding for fiscal years 1997 and 1998 was $50,000 each year; 
for fiscal years 1999-2000, $100,000 each year; for fiscal year 2001, 
$99,780; for fiscal year 2002, $100,000; for fiscal year 2003, 
$l49,025; for fiscal year 2004, $133,209; for fiscal year 2005, 
$131,936; for fiscal year 2006, $130,680; for fiscal year 2007, $0; for 
fiscal year 2008, $98,307; for fiscal year 2009, $92,000; and for 
fiscal year 2010, $98,000. A total of $1,332,937 has been appropriated.
    The project is conducted by Mississippi State University at the 
Delta Research and Extension Center in Stoneville, Mississippi.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                   food production education, vermont
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $120,000. Since this is a new grant, no 
information is available regarding the program's goals and objectives.
                 health education leadership, kentucky
    The goal of this program is to develop a partnership among the 
University of Kentucky Cooperative Extension Service, the Kentucky 
College of Public Health, and the academic health centers at the 
University of Kentucky to improve the health status of Kentucky 
citizens through (1) utilizing a model for family health with the 
framework as the family being the micro unit in a macro system of 
public health and healthcare and being the first providers of 
healthcare and prevention; (2) creating a partnership of families, 
communities, Extension professionals, and university researchers to 
design and implement programs at the local level that will change the 
health status of Kentuckians; and (3) utilizing a diffusion model to 
more rapidly diffuse new research findings and programs throughout the 
State and examine the effectiveness of new health behavior 
interventions.
    The following innovative programs have been developed and 
implemented: Get Moving Kentucky, A Matter of Balance, The Literacy, 
Eating, and Activity for Pre-School Program, Small Steps to Health and 
Wealth and Team-Up Cancer Screening. The Literacy, Eating, and Activity 
program added an additional 12 curriculum modules. The Blue to You, 
Mental Health for Women curriculum was piloted in 11 western Kentucky 
counties and evaluation is underway. Wellness in Kentucky has been 
adapted from Wellness in the Rockies and will be implemented statewide 
during 2010. The American On the Move program designed for Cooperative 
Extension has been integrated into the Get Moving Kentucky program. 
This program is being used by Extension educators in several counties 
and data collected on participants' progress will be helpful to program 
evaluation. Both the Men's health program and the Smoking Cessation 
social marketing program and curriculum have been tested and data 
collected for program evaluation prior to full-scale implementation in 
2011.
    The work supported by this grant began in fiscal year 2002 with an 
appropriation of $800,000. Additional appropriations are $894,150 for 
fiscal year 2003; $800,251 for fiscal year 2004; $843,200 for fiscal 
year 2005; $834,570 for fiscal year 2006; $0 in fiscal year 2007; 
$627,576 in fiscal year 2008; and $590,000 per year in fiscal years 
2009 and 2010. A total of $5,979,747 has been appropriated.
    The program is being carried out at the University of Kentucky and 
in all 120 counties in the State of Kentucky.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                 income enhancement demonstration, ohio
    The goal of this project is to develop new agricultural businesses 
and restructure and expand existing businesses in response to domestic 
and international challenges. In 2005, the project moved from the Ohio 
State University to the Edison Industrial Systems Center and, more 
specifically, to a non-profit subsidiary of that company, the 
Innovative Food Technology Center. To date, current progress and new 
accomplishments include, but are not limited to the following:
  --Urban Agriculture/Novel Growing Systems.--During the past year, 
        existing demonstrations of high tunnel, unheated ``hoop 
        houses'', and of high-density, vertical hydroponic growing 
        systems were expanded. The goal of the demonstrations was to 
        illustrate the economic benefit of each of the technologies. As 
        a direct result of these demonstrations, one additional hoop 
        houses, as well as nine additional hydroponic systems, were 
        purchased by northwest Ohio entities and organizations.
  --Green Products.--Since initiating efforts in this area, CIFT has 
        been in contact via seminars, Web broadcasts, and personal 
        contact, with more than 200 producers or potential producers of 
        green products or green versions of existing products. This has 
        resulted in two new product launches by CIFT constituents.
  --Biomass Processing.--At the request of several industry, community, 
        and governmental groups, CIFT is participating in the Wood 
        County, Ohio-Agricultural Task Force, a group that is examining 
        the economics of a community based anaerobic digester. Inspired 
        by this project, CIFT has also been requested to organize a 
        similar effort in Defiance County, Ohio.
  --Energy Crops.--A current project involving a demonstration and 
        evaluation of camelina is underway. As the crop is harvested, 
        oil will be extracted and evaluated in order to determine 
        whether favorable economics would exist for expanded production 
        of camelina as an ``extra'' crop in Ohio, increasing per acre 
        revenue for midwestern growers. CIFT is also actively involved 
        in promoting the results of research that is undertaking with 
        the University of Toledo to produce algae as a source of 
        biofuel feedstock.
  --Food Safety Training.--Several years ago, CIFT was selected as the 
        lead food safety educator for the Good Agricultural Practices 
        program offered by the Mid-American Agricultural and 
        Horticultural Services organization. CIFT has continued to 
        offer this type training to small specialty crop growers, 
        either as individual consulting, or in educational programming 
        opportunities.
  --Alternate Protein Sources.--During the past year, several 
        technology development projects were completed by CIFT that 
        dealt with methods to provide protein to feeding programs for 
        the poor, for school children, and for elderly. These projects 
        each considered safe and healthy alternates for these programs. 
        They each also had significant economic development advantages 
        inherent in their concepts. During the coming year, CIFT will 
        attempt to develop evaluation and implementation plans for each 
        of the results. The projects are, first, a product development 
        effort to produce high protein canned meat product by combining 
        mechanically separated poultry and soy protein isolates. The 
        rationale is that this product will provide economic benefit to 
        the poultry industry by upgrading a marginally valuable 
        ingredient, while at the same time increasing the nutritional 
        value of protein sources distributed through feeding programs. 
        The second project evaluated the economics of growing various 
        dry bean cultivars and utilizing them to prepare healthy, high 
        protein meals for feeding programs. Finally, CIFT is leading 
        the Lake Erie Underutilized Fish Marketing Project, a 
        consortium which is evaluating the use of several nutritious 
        and plentiful fish species from Lake Erie to manufacture 
        alternative value added, preserved seafood products.
    The project began in 1991. Appropriations have been as follows: 
$145,000 in fiscal year 1991; $250,000 per year in fiscal years 1992 
through 1995; $246,000 per year in fiscal years 1996 through 2000; 
$245,459 in fiscal year 2001; $241,000 in fiscal year 2002; $239,434 in 
fiscal year 2003; $213,732 in fiscal year 2004; $725,152 in fiscal year 
2005; $1,234,530 in fiscal year 2006, $0 in fiscal year 2007; $919,518 
in fiscal year 2008; and $864,000 per year in fiscal years 2009 and 
2010. Appropriations to date total $7,921,825.
    The work is being carried out at the facilities of the Innovative 
Food Technology Center, Toledo, Ohio.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
            institute for sustainable agriculture, wisconsin
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $400,000. Since this is a new grant, no 
information is available regarding the program's goals and objectives.
           invasive phragmite control and outreach, michigan
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $155,000. Since this is a new grant, no 
information is available regarding the program's goals and objectives.
                          iowa vitality center
    The program was established to develop policy analysis to improve 
rural vitality in the State.
    The survival of many of Iowa's rural communities is in question, 
and communities in the State vary in their capacity to stimulate 
development and economic growth. The need for this program is to assist 
residents of Iowa's small and medium-sized rural communities as they 
work to improve economic and social conditions and achieve sustainable 
rural and community vitality. Since 2007 the project has focused on its 
Microenterprise Initiative. The local need for microenterprise 
assistance, entrepreneurial development projects, and community 
philanthropy in creating community vitality is increased because of 
weather related disasters and the credit crisis, drop in commodity 
prices, and overall economic downturn.
    In 2009, the project continued technical assistance and funding 
support for Iowa's statewide MicroLoan entity called the Iowa 
Foundation for Microenterprise and Community Vitality, a 501(c)(3) 
nonprofit foundation organized by the project as a statewide microloan 
intermediary that contracts with Cooperative Extension to coordinate 
Technical Assistance for Microloan clients. It designed Iowa's 
Microloan Web site, and went live in January 2009 
(www.iowamicroloan.org). During 2009, 60 applicants who were denied 
credit by commercial lenders were assisted by the project in developing 
Iowa Microloan applications; 20 microloan clients were approved for a 
microloan for which the project developed a technical assistance plan 
in collaboration with the entrepreneur; two-thirds of the microloan 
clients were startups and one-third were expansions; 2 microloan 
clients were minorities; no delinquencies or defaults were experienced 
in first year; and 15 Technical Assistance plans were developed and 
implemented. It also identified collaborators and negotiated agreements 
with eight Iowa regional and statewide microenterprise assistance 
networks.
    The project provided technical assistance to the Community 
Foundation of Greater Des Moines in organizing microenterprise and 
philanthropy projects for five rural affiliate county foundations. It 
also initiated four nonmetro county philanthropy capacity projects in 
collaboration with Iowa Council of Foundation--www.cvcia.org. It 
initiated the Ghana Millennium Fund Agricultural Microfinance 
Consultancy and consulted on New Market Tax Credits for four rural 
projects with three Iowa-based Community Development Entities.
    The project completed 15 County Reports for its Rural Migration 
Study and conducted 20 local and regional meetings with 365 community 
leaders--www.cvcia.org. It also conducted local demonstrations to help 
seven community entrepreneurs, and co-sponsored 12 succession planning 
workshops. It completed the Youth Marketplace Entrepreneurship Project 
in Sac County Middle Schools.
    The work supported by this grant began in fiscal year 2002. 
Appropriated amounts are: fiscal year 2002, $280,000; fiscal year 2003, 
$278,180; fiscal year 2004, $250,513; fiscal year 2005, $248,000; 
fiscal year 2006, $245,520; fiscal year 2007, $0; fiscal year 2008, 
$223,425; fiscal year 2009, $209,000; and fiscal year 2010, $250,000. A 
total of $1,984,638 has been appropriated.
    The program is being conducted at Iowa State University.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                 maine cattle health assistance program
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $700,000. Since this is a new grant, no 
information is available regarding the program's goals and objectives.
                 national center for farm safety, iowa
    The project supports training at the National Education Center for 
Agricultural Safety, or NECAS, to reduce the level of preventable 
illnesses, injuries, and fatalities among agricultural populations. The 
NECAS provides hand-on training to emergency response personnel and 
first responders. NECAS also develops, implement, and evaluate diverse 
training methods for at-risk agricultural audiences.
    Training topics covered included agricultural rescue and emergency 
preparedness, commercial training on hazardous material handling and 
pesticides, and youth and elderly farm safety training. The Center also 
conducted awareness and informational programs on rural and 
agricultural health, certification of safe farms, farm equipment 
rescue, and safe tractor operation.
    The work supported by this grant began in fiscal year 1998 with an 
allocation of $195,000 per year for fiscal years 1998-2000; for fiscal 
year 2001, $194,571; for fiscal year 2002, $196,000; for fiscal year 
2003, $196,713; for fiscal year 2004, $223,673; for fiscal year 2005, 
$241,056; for fiscal year 2006, $238,590; for fiscal year 2007, $0; for 
fiscal year 2008, $167,817; for fiscal year 2009, $158,000; and for 
fiscal year 2010, $170,000. The total amount appropriated is 
$2,371,420.
    The National Education Center for Agricultural Safety is located at 
the Northeast Iowa Community College in Peosta, Iowa.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                    nutrition enhancement, wisconsin
    The objectives of this program are to improve food security of 
school-age children through school breakfast promotion, enhancement, 
and coordination by increasing the number of children and schools 
participating in the school breakfast programs; to provide research-
based information, education and outreach associated with school 
breakfast promotion and enhancement to support county-based Extension 
staff efforts that further the school breakfast program; to provide 
research-based information, education and outreach related to school 
breakfast programs to schools across the State; and to provide 
leadership to statewide efforts to collect and summarize impact 
evaluation results related to school breakfast. Other initiatives 
include conducting in-depth interviews with key school food service 
directors from across the State to obtain detailed information for non-
participation in the breakfast program. In addition, efforts will focus 
on working with non-participating schools which qualify as severe, or 
schools with high percentages of free and reduced price qualifying 
students.
    To date a number of activities have been completed or are in 
progress. Following a noncompetitive grant application process, mini 
grants were awarded in September 2009 for schools to implement new 
breakfast programs or to improve an existing program. Forty-two 
Wisconsin schools received funding to start up a new breakfast program 
and 111 received program improvement grants. The conversion of the 
current school breakfast Web site to an updated blog is near 
completion. This new blog will incorporate easier navigation features 
and integrate new research and updated reports currently not found on 
the Web site. Formation of the school breakfast advisory board is in 
progress. A face to face meeting of this Board with key leaders in 
school breakfast promotion was in January 2010. Work with 
organizational partners, such as the Wisconsin Dietetic Association, 
the Wisconsin School Nutrition Association, Wisconsin Parent Teacher 
Association, and the Wisconsin Milk Marketing Board continues and is 
vital to the promotion of school breakfast programs across the State. 
Determination of severe need, non-participating schools is a project 
that is based on the most current data Wisconsin Department of Public 
Instruction collects from schools and this data is scheduled for 
release in spring 2010. Due to a demand for more information on school 
breakfast, two regional conferences will be offered in 2010. The first 
will be in Stevens Point, Wisconsin in February 2010 and the second in 
Fond du Lac, Wisconsin in April 2010.
    The work supported by this grant began in fiscal year 2004 with an 
appropriation of $894,690; $965,216 in fiscal year 2005; $1,089,000 in 
fiscal year 2006; in fiscal year 2007, $0; in fiscal year 2008, 
$744,750; in fiscal year 2009, $751,000; and in fiscal year 2010, 
$950,000. A total of $5,394,656 has been appropriated.
    The work is being carried out at the University of Wisconsin--
Extension, Madison, in collaboration with the Wisconsin Department of 
Public Instruction and in 153 schools.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                   ohio-israel agriculture initiative
    The grant is for the Cleveland-based Negev Foundation to promote 
the exchange of agricultural technology and resources between Israel 
and the State of Ohio. The objective of the Initiative is to foster 
greater collaboration between Ohio and Israeli government and research 
institutions, farmers and companies; develop joint research and 
development and educational activities; identify agribusiness ventures 
based on new technologies; introduce potential investors; and expand 
commercial ties and market access in both regions. Activities underway 
include exports of Ohio-bred beef calves to Israel, agricultural 
biosecurity training, soybean purchases and joint processing 
facilities, aquaculture cooperation, drip irrigation demonstrations in 
Ohio, model greenhouse development, participation in trade shows (trade 
shows in Israel promoting Ohio agricultural exports), and joint Ohio-
Israel applied research and scientific exchanges on dairy production, 
food safety, integrated pest management, precision and no-till 
agriculture, and greenhouse technologies.
    This project began in fiscal year 2004. The fiscal year 2004 
appropriation was $536,814; for fiscal year 2005, $564,448; for fiscal 
year 2006, $587,070; for fiscal year 2007, $0; for fiscal year 2008, 
$495,507; for fiscal year 2009, $466,000; and for fiscal year 2010, 
$700,000. The total amount appropriated is $3,349,839.
    The project is implemented by the Negev Foundation of Cleveland, 
Ohio, and project activities are being carried out primarily in Ohio 
and Israel. The Ohio State University (OSU) is collaborating with Negev 
on several activities, including on-campus seminars, participating in 
trade mission teams, exchanging agricultural research findings and 
technologies with Israeli scientists, and engaging OSU Cooperative 
Extension Service personnel as appropriate.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
      pilot technology transfer projects, oklahoma and mississippi
    The goal of these projects to contribute to an increase in business 
productivity, employment opportunities, and per capita income by 
increasing information technology capital, locally and throughout the 
States, and applying information from Federal laboratories, Cooperative 
Extension, and other university departments and non-campus agencies. 
The specific program objectives are to enhance profitability for 
existing enterprises; aid in the acquisition, creation, or expansion of 
business and industry in the area; establish an effective response 
process for technological and industrial-related inquires; devise 
effective communication procedures regarding the program for the 
relevant audiences; and provide one-on-one and on-site engineering, 
technology, and management assistance to small-scale rural 
manufacturers. Oklahoma's Manufacturing Extension Partnership--the 
Oklahoma Alliance for Manufacturing Excellence has received national 
acclaim for its noteworthy and effective partnership with the land-
grant university.
    In Oklahoma, for fiscal year 2009, the reported impact of the 
Applications Engineering program on client projects totaled over $68 
million. This included approximately $31.5 million in sales increase/
retention, $5.8 million in cost savings/avoidance, $15.3 million in new 
investment in facilities and equipment, and 209 jobs created or 
retained with an economic impact of approximately $15.8 million.
    In Mississippi, primary impacts included increased knowledge and 
skills regarding software selection and use, hardware selection/
procurement, technological advances, and technology planning/
implementation. Specific impacts included persons obtaining jobs due to 
increased skills, companies having better trained and more capable 
employees, and individuals being more effective and efficient in their 
personal lives.
    Funding appropriated to date is as follows: $350,000 per year in 
fiscal years 1984 and 1985; $335,000 in fiscal year 1986; $333,000 per 
year in fiscal years 1987 through 1990; $331,000 per year in fiscal 
years 1991 through 1995; $326,000 per year in fiscal years 1996 through 
2000; $325,283, 2001; $319,000, 2002; $335,803, 2003; $300,218, 2004; 
$297,600, 2005; $297,000, 2006; $0, 2007; $223,425, 2008; and $209,000 
per year, 2009 and 2010. Total appropriations are $8,168,329.
    The Oklahoma efforts are being coordinated at Oklahoma State 
University and at Rural Enterprises of Oklahoma, Inc. In addition, work 
is being done in the offices and shop floors of small, rural 
manufacturers across Oklahoma and Mississippi. Coordination of work is 
being carried out at Mississippi State University and on the shop 
floors of small, rural manufacturers, community colleges, on the 
Internet, and in every county in Mississippi.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                  pilot technology transfer, wisconsin
    The Manufacturing Technology Transfer programs principal objective 
in the development of a competitive, secure manufacturing base for 
rural communities through the mechanism of industrial extension. The 
program principally targets small and medium-size manufacturers in the 
economically distressed counties of Northwest Wisconsin.
    In 2007, the project managers report that this funding produced the 
following impacts for program participants in Northwest Wisconsin: 
increased sales, retention of sales, cost savings, targeted technology 
investments by clients totaling $90 million; 2,600 jobs were retained 
or created; 114 small and medium-sized manufacturers were served with 
165 technology transfer projects.
    In 2009, project managers continued to pilot test the relevance and 
effectiveness of new technology, business strategies, and systems by 
monitoring new concepts, systems, and technology with companies in our 
region. Project managers attended seminars to develop competencies in 
the topics selected. They also will continue to refine their 
Cooperative Extension activities by exploring ways to facilitate 
entrepreneurship by making referrals to and working closely with 
organizations such as the Small Business Development Center, University 
of Wisconsin--Extension, Small Business Association, University of 
Wisconsin--Stout's Economic Development Administration, and University 
of Wisconsin--Stout's Center for Innovation and Development.
    This project has been underway since fiscal year 1992 and was 
funded for $165,000 per year in fiscal years 1992 through 1995; 
$163,000 per year in fiscal years 1996 through 2000; $162,641, 2001; 
$160,000, 2002; $161,941, 2003; $214,726, 2004; $231,136, 2005; 
$247,500, 2006; $0, 2007; $184,698, 2008; and $174,000 per year, 2009 
and 2010. A total of $3,185,642 has been appropriated.
    The program has been carried out in northwest Wisconsin at the 
University of Wisconsin, Stout campus, and at the facilities of the 
following technical colleges in northwest Wisconsin: Chippewa Valley, 
North Central, Nicolet, and Wisconsin Indianhead. Work has also been 
carried out on-site at small and medium-size manufacturing companies in 
northwest Wisconsin.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                potato integrated pest management, maine
    The goal of this extension education project was to improve disease 
forecasting and management of potato late blight by providing growers 
with educational information to make decisions relating to field 
management of the late blight races and other pest problems, potato 
disease forecasting, disposal of cull potatoes, insect spread of potato 
diseases, insect management, implementation of economic thresholds, 
insect identification, disease identification, weed identification, and 
increase the knowledge base by increasing research efforts.
    The University of Maine Cooperative Extension's Potato Integrated 
Pest Management program impacts nearly 60,000 acres of potatoes. The 
program employs 26 program aides, maintains nearly 150 specialized 
insect traps, coordinates a statewide network of electronic weather 
stations, and surveys 125 potato fields on a weekly basis for weeds, 
insects, and diseases. The data produced help scientists track 
potential pest outbreaks and helps provide growers with current 
information on specific and timely treatments in order to minimize the 
number of pesticide applications and maximize potato yield. Weather 
conditions during the 2008 growing season were extremely conducive for 
the development of potato late blight. In the month of June, it rained 
23 of 30 days. This was a 40 percent increase in rainfall as compared 
to the average. Over 60 percent of the fields surveyed by the 
integrated pest management program in 2008 had detectable levels of 
potato late blight in them. Grower implementation of the Extension 
computerized disease forecasting program coupled with fungicide 
selection and applications, field scouting, early detection, and 
appropriate management strategies allowed growers to successfully cope 
with the serious late blight pressure. Minimal storage losses 
attributed to potato late blight were experienced with the 2008 crop. 
It was estimated that the total economic impact of the University of 
Maine Cooperative Extension Potato Integrated Pest Management program 
for the 2008 crop year was $17,216,136.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $297,900; for fiscal year 2009, 
$280,000; and for fiscal year 2010, $450,000. A total of $1,027,900 has 
been appropriated.
    The research is being conducted at the University of Maine and 
throughout the State of Maine.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                   potato pest management, wisconsin
    The of this project is to assist farmers in reducing risks from 
pesticides by working with them to implement practicable pest 
management options and to explore marketing strategies to allow growers 
to capture additional benefits from pesticide reduction. The project's 
accomplishments to date include improving the potato industry's 
environmental performance by increasing adoption of biointensive 
integrated pest management methods through grower education and the 
development of grower outreach tools, developing ecosystem function 
priorities and implementing total farm ecosystem plans, and the 
continued enhancement of a streamlined, real-time certification system 
for certified, eco-labeled niche marketed potatoes. Value-added 
marketing opportunities for fresh market potatoes have been researched, 
and measurement tools for assessing integrated pest management adoption 
and pesticide inputs have been coupled with an environmental potato 
production standard that requires potato growers to meet pesticide 
toxicity reduction and integrated pest management goals. Progress has 
been made in reducing the toxicity levels of pesticides used in potato 
production, while increasing biointensive integrated pest management 
adoption.
    In Wisconsin, the foundation for biointensive integrated pest 
management education has been developed. Educational efforts are being 
proposed to enable growers to integrate biointensive strategies into 
existing production systems. The overall momentum of the collaboration 
has been extremely strong with many accomplishments such as the 
continuation of the marketing effort, enhancements of the collaboration 
standards, improvements of resistance management protocols, database 
implementation, grant coordination and expansion of the development and 
use of educational tools for growers. The project has involved numerous 
faculty, industry representatives, potato and other commodity 
organizations, and environmental organizations to export this 
agricultural model for targeted and industry-wide change. In Wisconsin, 
this work is expanding to other vegetable crops, such as carrots, 
peppers, beans, and peas and is now also expanding to fruit crops. 
Furthermore, the ecological portions of the collaboration have been 
enhanced by working with national and local environmental organizations 
and expanding research with University of Wisconsin faculty through the 
infusion of their expertise, research, and education into the project. 
This strength needs to be maintained, while exporting the model of 
industry-wide agricultural changes through the use of policy and 
communication efforts.
    The work supported by this grant began in fiscal year 2001, and the 
following amounts have been appropriated: 2001, $189,582; 2002, 
$396,000; 2003, $298,050; 2004, $357,876; 2005, $375,968; 2006, 
$396,000; 2007, $0; 2008, $294,921; and 2009 and 2010, $277,000 per 
year. A total of $2,862,397 has been appropriated.
    This work is being conducted with fresh market potato growers in 
the following Wisconsin counties: Adams, Columbia, Barron, Green Lake, 
Langlade, Marquette, Portage, Sauk, Waupaca, and Waushara; apple 
growers in Bayfield, the Chippewa Valley, southeastern counties, and 
Dane County; and apple/cherry growers in Door County.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
                     range improvement, new mexico
    The focus of the project is the public rangeland resource in New 
Mexico. The Range Improvement Project: Analyzing the Cumulative Impacts 
of Federal Land Policy and Management, formerly called Range Policy 
Development, has a long-term goal to bring disparate information 
together into a single analysis and develop a comprehensive solution to 
issues on Federal land resources and economies. The program developed 
local and regional economic models that link management of Federal 
rangeland and forestland to the economies of rural communities in New 
Mexico. The economic factors of interest included forage loss from 
canopy closure in national forests, endangered species act listings/
designations on habitat and industry, recreation, wilderness, rangeland 
health and monitoring, private property rights, and cultures of the 
region. The modeling activities were intended to inform policy and 
decision makers towards understanding the linkages of local and State 
economies to the industries that rely on services from New Mexico 
public lands.
    It is the vision of this project to merge multiple topics and 
disciplines to do a complete analysis for specific geographic regions 
in New Mexico. This analysis included a historical perspective on land 
uses, economic structure, government regulations, customs and cultures, 
and private property issues. It also encompassed the current land uses 
and management practices, economic structures, government regulations, 
customs and cultures, and private property issues. This project created 
a baseline for future analysis in socioeconomic, timber, recreation, 
and rangeland issues on Federal lands in New Mexico. Education has been 
the primary output related to this project. Information is extended to 
a variety of audiences including landowners, industry and agency 
personnel. These outreach outputs, according to the project leaders, 
might lead to improved site selection, disturbance management, and size 
of oil and gas well sites on New Mexico rangelands and throughout the 
West. These extension efforts provided the data to support the oil and 
gas industry on rangelands with minimized impacts on other uses of the 
public domain while maintaining the environmental services. Outreach 
publications generated by this project coupled with a new rapid 
assessment methodology are both used by landowners, county agents, 
agency personnel, and researchers throughout New Mexico.
    Collection of primary data has occurred on New Mexico ranches, the 
Gila and Lincoln national forests, and Bureau of Land Management 
allotments adjacent to those forests in New Mexico. Modeling efforts 
for this extension project are being carried out at New Mexico State 
University. Regional or county economies have been evaluated for 
economic dependence on multiple use Federal lands. Area residents, 
industry and agency officials were involved in analyzing and checking 
socioeconomic data. Field-collected data were used to update the 
information available from the Bureau of Commerce, U.S. Department of 
Agriculture, and the New Mexico Department of Labor. Broad regional 
interest in the project has led to efforts to expand applications to 
fit other sites in the southwestern United States.
    The amounts appropriated are: 1996-2000, $197,000 per year; 2001, 
$196,567; 2002, $240,000; 2003, $243,408; 2004, $217,708; 2005, 
$232,128; 2006, $241,560; 2007, $0; 2008, $223,425; 2009, $209,000; and 
2010, $223,000. A total of $3,211,796 has been appropriated.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
 university of wisconsin--extension northern aquaculture demonstration 
                                facility
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $450,000. Since this is a new grant, no 
information is available regarding the program's goals and objectives.
                     urban horticulture, wisconsin
    The goal of this program was to provide the fundamental information 
and technology transfer needed by farmers to be successful in the new 
enterprises by increasing the capacity of county-based extension 
faculty to provide information to the public. County-based faculty are 
now working with campus faculty to identify issues where more 
information is needed. The project has expanded its focus beyond 
providing information primarily to producers by including consumers and 
homeowners as well. Overall, over 750 individuals have been empowered 
through community, neighborhood and at-risk population programs focused 
on fruit and vegetable gardening. The second area of research and 
education, impacting over 3,000 horticulturalists in Wisconsin is 
sustainable landscape practices, including Web-based pest 
identification, appropriate pesticide selection, and preserving water 
resources. The project has also involved the creation and dissemination 
of new research-based horticultural knowledge through both 
traditional--fact sheets, Web sites, etc.--venues as well as new 
communication channels--online classes, podcasts, etc. Project funding 
from USDA sources has been heavily supplemented through significant 
volunteer hours, local funding sources, and individual donations. The 
funding has also allowed the project team to leverage significant 
community-based relationships in Wisconsin's most urban counties 
including Milwaukee, Racine, Kenosha, and Waukesha. Two important 
examples include significant educational/facilities formalized 
relationships with the Boerner Botanical Gardens in Milwaukee County as 
well as funding relationship with the Milwaukee based non-profit 
organization ``Growing Power.''
    The work supported by this research began in fiscal year 2002. In 
fiscal year 2002, $200,000 was appropriated 2003, $536,490; 2004, 
$783,351; 2005, $810,464; 2006, $808,830; 2007, $0; 2008, $346,557; and 
2009 and 2010, $376,000 per year. The total appropriated to date has 
been $4,237,692.
    This project is being conducted at the University of Wisconsin at 
Madison through the Wisconsin Extension Service.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
               urban horticulture and marketing, illinois
    The goals of this project are to provide urban horticulture and 
agriculture training for low-income youth and young adults, produce and 
market locally grown organic produce at a variety of Chicago-area 
markets, and establish a green campus within the community. In 2009, 
Windy City Harvest became the first urban agriculture training 
certificate program in Illinois to be accredited Illinois Community 
College Board. The program attracted and retained a diverse student 
body. A Windy City Harvest related production and training garden at 
the Cook County Sheriff's Boot Camp is now serving young men in 4-month 
incarcerations, and some graduates will participate in the next 9-month 
certificate session. Windy City Harvest also collaborated with the 
administrators and staff of USDA's Food and Nutrition Services Region 5 
Office to create the first Midwest People's Garden on Chicago's west 
side.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $74,475; for fiscal year 2009, 
$104,000; and for fiscal year 2010, $175,000. A total of $353,475 has 
been appropriated.
    The project will be conducted at the Windy City Harvest in Chicago, 
Illinois, in conjunction with the Chicago Botanic Garden and the City 
Colleges of Chicago.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
            veterinary technology satellite program, kansas
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $1,000,000. Since this is a new grant, no 
information is available regarding the program's goals and objectives.

                          SUBCOMMITTEE RECESS

    Senator Kohl. Our next hearing will be Tuesday, March 9. 
We'll be hearing from Dr. Margaret Hamburg, FDA Commissioner, 
on the FDA's budget.
    Again, we thank you all for being here.
    And we will recess at this time.
    [Whereupon, at 11:59 a.m., Tuesday, March 2, the 
subcommittee was recessed, to reconvene at 10 a.m., Tuesday, 
March 9.]


   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                         TUESDAY, MARCH 9, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:03 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Herb Kohl (chairman) presiding.
    Present: Senators Kohl, Dorgan, Pryor, and Brownback.

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

                      Food and Drug Administration

STATEMENT OF DR. MARGARET HAMBURG, COMMISSIONER
ACCOMPANIED BY:
        PATRICK McGAREY, DIRECTOR, OFFICE OF BUDGET, FOOD AND DRUG 
            ADMINISTRATION
        NORRIS COCHRAN, DEPUTY ASSISTANT SECRETARY, OFFICE OF BUDGET, 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES

                 OPENING STATEMENT OF SENATOR HERB KOHL

    Senator Kohl. Good morning. We'd like to welcome each of 
you to our annual hearing on the budget for the Food and Drug 
Administration (FDA).
    Dr. Hamburg, we thank you for being here today. We're 
pleased to have you testify in front of this subcommittee for 
the first time, especially now that you've had a little while 
to get settled in your position.
    We also appreciate the participation of your colleagues, 
Mr. Patrick McGarey and Mr. Norris Cochran.

                            BUDGET INCREASES

    The FDA has been at the receiving end of some fairly 
substantial budget increases over the past several years. 
Between fiscal years 2007 and 2010, the FDA budget, excluding 
user fees, went up by 50 percent. This funding was important. 
As we all know, the FDA is responsible for oversight of a wide 
array of consumer goods used by every American, often multiple 
times each day.
    In fact, about 20 cents out of every dollar spent is on a 
product regulated by the FDA. This includes foods, drugs, 
medical devices, cosmetics, dietary supplements, vaccines, 
animal drugs and foods, and most recently, tobacco.
    The FDA's budget, for a long time, had not been 
representative of the task before the agency. This 
subcommittee, in recent years, has been working in a bipartisan 
manner to reverse that trend. This year's budget request again 
includes increased funding for the FDA, although it's been--
about one-half of the increase provided in fiscal year 2010. 
While some believe this is a cause for alarm, it's a realistic 
reflection of the need for the government as a whole to slow 
down spending. As it is, even though the budget proposes a 
smaller increase for FDA than the past few years, it's still a 
larger increase than nearly all of the United States Department 
of Agriculture (USDA) and most of the Department of Health and 
Human Services (DHHS).
    A brief review of the FDA budget would show that it 
includes increases in three overarching themes, which are: food 
safety, protecting patients, and advancing regulatory science. 
There are also proposals to save money through contract savings 
and the enactment of new user fees.
    In food safety, increases are proposed for activities 
including the establishment of an integrated national food 
safety system, a modern import safety system, and additional 
and smarter surveillance and enforcement.
    For patient safety, increases are proposed to improve the 
safety of imports and high-risk products, expand partnerships 
with public and private entities, and to slightly increase 
FDA's capacity to review generic drug applications.
    The Advancing Regulatory Science Initiative includes 
proposed increases that will help strengthen the FDA's 
scientific leadership, staff, and scientific capacities in 
emerging technologies.
    The increases are important, but we have concerns. We're 
concerned that, without adequate funding levels to maintain FDA 
scientists, inspectors, and reviewers, the performance goals 
that you list are not realistic and achievable. I want to 
repeat something said last week. I believe the goals for this 
subcommittee this year will be to produce a bill that protects 
the important gains we have made over the last few years, 
ensure that programs vital to the health and safety of 
Americans are adequately funded, and to do so in a way that 
shows fiscal restraint and responsible austerity.
    The FDA is obviously vital to the health and safety of 
Americans, and it will be adequately funded this year. We won't 
allow the agency to lose the ground that we've made up in 
recent years. However, we all need to do more with less, and no 
one is exempt.
    Senator Brownback and I will be looking closely at the 
budget and working in a bipartisan manner to make funding 
decisions. It will not be an easy job, but it's one that we 
must do right. I'm sure that you agree, Dr. Hamburg; and in 
that spirit, we are looking forward to continuing our work 
together.
    We turn now to Senator Brownback.

                   STATEMENT OF SENATOR SAM BROWNBACK

    Senator Brownback. Thank you very much, Mr. Chairman.
    It's always a pleasure to work with you.
    Senator Kohl and I like to talk about basketball too. 
Kansas has two top-ten teams in the NCAA basketball tournament, 
so we're hopeful we can move forward. And next to the wheat 
harvest, this is kind of the big season in Kansas.
    Pleasure to have you here, Dr. Hamburg. It was good to 
visit with you last week in the office. I enjoyed that, and I 
look forward to your presentation here.

                      RARE AND NEGLECTED DISEASES

    I want to follow up on the visit we had, because I've got 
some suggestions. I hope you're willing to look at, and that 
your staff has been willing to consider, about rare and 
neglected diseases, in particular, in the United States and 
around the world.
    To help jumpstart this effort in rare and neglected 
diseases, I worked with the chairman to include a provision in 
the current year's appropriation bill that created two groups 
within FDA to review the agency's process for approving medical 
products for the treatment of rare and neglected diseases. When 
fulfilling the agency's requirements under this provision, I 
have some ideas that I hope you'll take into serious 
consideration, and I hope these teams will be meeting and 
reporting out fairly soon.
    To date, approximately 7,000 rare diseases have been 
identified. These diseases affect more than 30 million 
Americans, but there are only FDA-approved treatments for 
approximately 200 of these 7,000 rare diseases. So, if you 
happen to be one of the 200 that has a FDA treatment, you've 
got something to work with. Those other 6,800 rare diseases are 
without treatments at all and are not benefiting from the 
progress. This is totally unacceptable. And it's 30 million 
total Americans that are in this category.
    In addition to those suffering from rare diseases in the 
United States, there are billions of people worldwide suffering 
from diseases that are often ignored because there are no 
market incentives for engaging in the costly process of 
developing a product for FDA approval. According to the World 
Health Organization, one of every six people worldwide is 
affected by at least one neglected disease. One in six. This is 
particularly astonishing when you consider that only 1 percent 
of the drugs approved since 1975 were developed to treat such 
diseases that affect one in six people in the world. This, too, 
is unacceptable.
    Now, solving these problems will involve many government 
agencies, and the cooperation of the private sector. Today, 
however, I'd like to talk with you about--something I think FDA 
can do to substantially impact this category. Specifically, I 
believe, and a lot of people agree, that FDA should work to 
demystify and simplify the review process for products to treat 
deadly rare and neglected diseases.
    While it's my expectation that FDA always consider safety 
and efficacy while reviewing products, the agency must exercise 
flexibility when reviewing certain products. I believe the 
agency should establish a second track for product approval 
that takes into consideration the unique nature of the product 
being approved, including the ability of manufacturers to find 
large enough populations for clinical trials, the willingness 
of patient groups to knowingly accept certain risk, and the 
global public health benefit. Without doing these things, I 
think it is highly unlikely we find treatments for these 6,800 
rare diseases; I don't see how it happens. And I think we're 
probably stuck on this 1 percent figure of work in these 
neglected diseases that affect one in six people globally. That 
is completely unacceptable, and it doesn't need to be this way. 
And you are the person most well positioned to address this.
    So, I hope you'll be able to look at this category of 
products. You've got a lot of other issues at FDA. I think this 
is amongst the top tier of most important.
    Mr. Chairman, thank you for holding the hearing.
    Senator Kohl. Thank you very much, Senator Brownback.
    We turn now to Dr. Hamburg for your statement.

               SUMMARY STATEMENT OF DR. MARGARET HAMBURG

    Dr. Hamburg. Thank you very much, Chairman Kohl and Senator 
Brownback.
    I'm very pleased to present the President's fiscal year 
2011 budget for the FDA.
    And, as you note, Patrick McGarey, Budget Director for FDA, 
and Norris Cochran, Deputy Assistant Secretary for Budget at 
HHS, are with me this morning.

                             BUDGET REQUEST

    My testimony outlines the fiscal year 2011 budget request. 
It also includes a summary of recent developments related to 
our new responsibilities to regulate tobacco products and other 
important FDA initiatives.
    As you know, this is my first time before this 
subcommittee, and I look very much forward to working with you. 
I deeply appreciate the support that you've given to the FDA, 
and I know that you share my determination to make sure that we 
can count on, as a Nation, a strong, fully functional FDA. And, 
as you point out, FDA is a unique and important agency 
responsible for programs and activities that affect every 
American every day.
    The fiscal year 2010 appropriation reflects your commitment 
to FDA and the health of the American public. Those funds will 
allow FDA to make progress across a wide range of public health 
priorities which are essential to the health, quality of life, 
safety, and security of all Americans. So, again, I thank you.
    The proposed fiscal year 2011 budget includes 
$4,000,000,000 for FDA programs, which is an increase of 
$755,000,000, with $601,000,000 in user fees, and $154,000,000 
in budget authority.
    We're proposing three major initiatives in areas vital to 
our mission: transforming food safety, protecting patients, and 
advancing regulatory science. These initiatives are crucial for 
the modernization of the agency to the challenges presented by 
the 21st century.

                        TRANSFORMING FOOD SAFETY

    The Transforming Food Safety Initiative reflects President 
Obama's vision of a new food safety system to protect the 
American people. And it's based on the principles of the 
President's Food Safety Working Group: prioritizing prevention, 
strengthening surveillance and enforcement, and improving 
response and recovery.
    FDA proposes an increase of $326,000,000 for transforming 
food safety, with $88,000,000 in budget authority, and 
$238,000,000 for new user fees, including $200,000,000 for a 
food registration and inspection fee.
    The fiscal year 2011 resources would allow FDA to establish 
a foundation for an integrated national food safety system 
focused on prevention. Key elements include setting standards 
for safety, expanding laboratory capacity, piloting track and 
trace technology, strengthening import safety, improving data 
collection and risk analysis for foods, and increasing 
inspections. This initiative will allow FDA to make the kind of 
changes needed to deliver the promise of improved food safety 
and reduce illnesses caused by contamination of the food supply 
in years to come.

                          PROTECTING PATIENTS

    The Protecting Patients Initiative reflects FDA's pressing 
need to modernize our approach to patient safety and the safety 
of medical products. This is a time when science and technology 
offers new promise to improve disease prevention, diagnosis and 
treatment, as well as new protections for safety. This is also 
a time when an increasing number of drugs, devices, and 
biologics are being manufactured abroad. FDA must act as a 
strong and smart regulator, addressing medical product safety 
challenges in the years ahead.
    The budget proposes an increase of $101,000,000 for this 
initiative, including $49,000,000 in budget authority. The 
balance is for two new user fees, generic drugs fees and fees 
for reinspecting medical product facilities.
    The Protecting Patients Initiative focuses on four vital 
areas: import safety, high-risk products, partnerships for 
patient safety, and generic drug review. These activities will 
have a very significant impact on public health in the United 
States. This science-based strategy will build new and greater 
safety capabilities. The result will be fewer import safety 
emergencies and fewer serious adverse events with drugs, 
devices, and biologics.
    FDA is proposing, in our budget, a new focus on advancing 
regulatory science, which is very important and exciting. It 
includes an increase of $25,000,000 for this much-needed 
initiative. Regulatory science represents the knowledge and 
tools we need to assess and evaluate a product's safety, 
efficacy, potency, quality, and performance. It is fundamental 
to all of our work at FDA, from supporting the development of 
new food and medical technologies to bringing new treatments to 
patients. In many ways, it represents the gateway between 
discovery, innovation, and opportunity and actual products that 
people need and can count on. Building a strong, robust 
regulatory science capacity is vital to the health of our 
Nation--to the health of people, our healthcare system, our 
economy, and our global competitiveness.
    During the past two decades, research has dramatically 
expanded our understanding of biology and disease, yet the 
development of new therapies has been in decline and the costs 
of bringing them to market have soared. New approaches and 
partnerships in the emerging field of regulatory science are 
urgently needed to bridge the gap between drug discovery and 
patient care, and, I might add, to address some of the concerns 
that Senator Brownback just raised.

                      ADVANCING REGULATORY SCIENCE

    Investing in regulatory science will yield better tools, 
standards, and pathways to evaluate products that offer 
promising opportunities to diagnose, treat, cure, and prevent 
disease. It will also improve product safety, quality, and 
manufacturing, more broadly, including new opportunities to 
better protect the food supply and support the development of 
healthy foods and food choices.

                          TOBACCO CONTROL ACT

    On June 22, 2009, the President signed the Family Smoking 
Prevention and Tobacco Control Act into law. The act grants FDA 
important new authority to regulate the manufacture, marketing, 
and distribution of tobacco products. I'm pleased to report 
that, so far, FDA has met or exceeded the statutory deadlines 
in the Tobacco Control Act.
    During fiscal year 2011, we will continue to implement the 
act, including overseeing and enforcing the reissuance of the 
1996 rule to prevent smoking and smokeless tobacco use among 
young people and proposing graphic health warning labels for 
cigarette packages and advertising.

                                  H1N1

    Finally, I'd like to take the opportunity to report to the 
subcommittee on FDA's response to the 2009 H1N1 influenza 
pandemic. During the past year, key FDA accomplishments include 
the licensure of five different H1N1 vaccines in record time. 
These H1N1 vaccines faced the same stringent manufacturing, 
quality, and oversight processes as seasonal influenza vaccine, 
and now more than 70 million Americans have been safely 
immunized.
    FDA also authorized the emergency use of antiviral drugs in 
circumstances for which they had not been licensed, but where 
they might save lives. These decisions were based on careful 
review of the scientific data for these products.
    FDA also conducted an aggressive proactive strategy to 
combat fraudulent H1N1 products. We issued more than 80 warning 
letters, covering about 150 different products, and we achieved 
a very high compliance rate in response to these actions.
    So, FDA's fiscal year 2011 budget contains important 
funding for vital public health priorities, including 
transforming food safety, protecting patients, and advancing 
regulatory science, as well as implementing the Tobacco Control 
Act and many other critical FDA programs and activities. 
Achieving all of this, and especially these identified 
priorities, is possible because of your support for the work of 
the Food and Drug Administration.

                           PREPARED STATEMENT

    I thank you, and I'm happy to answer any questions you may 
have.
    [The statement follows:]
             Prepared Statement of Dr. Margaret A. Hamburg
                              introduction
    Chairman Kohl, Senator Brownback, and members of the Subcommittee, 
I am Dr. Margaret Hamburg, Commissioner of Food and Drugs. I am pleased 
to present the President's fiscal year 2011 budget request for the Food 
and Drug Administration (FDA or agency). Joining me at today's hearing 
is Patrick McGarey, FDA's Director of the FDA Office of Budget and 
Norris Cochran, Deputy Assistant Secretary for Budget at the Department 
of Health and Human Services.
    My testimony outlines FDA's fiscal year 2011 budget request and the 
policy initiatives that we are advancing in our budget. I will also 
summarize recent developments related to FDA actions to implement the 
Family Smoking Prevention and Tobacco Control Act, FDA's response to 
the 2009 H1N1 influenza pandemic, and other initiatives at FDA.
                        fiscal year 2010 budget
    The funding that you appropriated for fiscal year 2010 shows the 
depth of your commitment to FDA's public health mission and the health 
of the American public. On behalf of all Americans who benefit from the 
work of the FDA, thank you for your support.
    This funding allowed FDA to make progress in a wide range of areas.
    For example, in the Foods Program, we are hiring and training new 
inspectors, improving our scientific and technical capacity, initiating 
a wide range of new State and international partnerships and--working 
with industry, consumer advocates, and others--laying the foundation 
for a shift to a food safety approach focused on prevention. We also 
started critical work on front of package labeling, an effort that will 
help American families better understand the nutritional content of 
foods.
    Fiscal year 2010 funding allowed FDA to aggressively engage with 
our HHS partners and industry in the public health response to the 2009 
H1N1 influenza pandemic. We supported the effort to rapidly develop and 
deploy safe vaccines, antiviral medicines, and diagnostic tests that 
were so vital in the public health response.
    For drugs and biologics, we began the first phase of the Sentinel 
system, a distributed network of electronic health data that can track 
the safety of medical products once they reach the market and quickly 
investigate potential safety signals. For medical devices, we released 
key guidance defining a path for more efficient and effective clinical 
trials.
    In the Tobacco Program, we established the new Center for Tobacco 
Products, implemented a ban on cigarettes with characterizing fruit and 
candy flavors, and established a program of registration and listing.
    We also began a process that will make FDA much more transparent to 
the American public and to the industries that we regulate. The FDA 
Transparency Initiative responds to President Obama's Executive Order 
on open government and the transparency priorities that Secretary 
Sebelius is advancing.
    As part of our Transparency Initiative, FDA held two public 
meetings, launched a transparency blog, and opened a docket--efforts 
that received more than 900 suggestions from the public.
    In January, FDA launched ``FDA Basics,'' the first phase of the 
Transparency Initiative. As one observer of the agency commented, 
``[t]he initiative can go a long way toward educating the public about 
what FDA does--and how--and also provide industry with realtime answers 
to their daily challenges, ultimately improving product quality and 
patient safety.'' Another said, ``[i]t is really well put together, 
clear and works quite well. . . . The site is not only supportive of 
transparency, but is highly instructive and educational.''
    The next two phases of our transparency efforts are well underway, 
and our goal is to provide communication with the public and industry 
about FDA actions and the basis for FDA decisions.
    We are also developing a major performance management initiative, 
which will provide additional access to Congress and the public about 
the activities and progress on more than 50 FDA offices.
                        fda 2011 budget request
Overview
    The President's fiscal year 2011 budget includes $4,000,000,000 for 
FDA programs to protect and promote public health. This represents an 
increase of $756,000,000 for FDA programs, which includes $601,000,000 
for statutory increases for user fee programs in current law and four 
new user fees to support public health priorities.
                 details of the fiscal year 2011 budget
Transforming Food Safety Initiative
    For fiscal year 2011, FDA proposes an increase of $326,300,000 for 
Transforming Food Safety. This increase includes $87,800,000 in budget 
authority and $238,500,000 for three new user fees related to food 
safety: Food Inspection and Registration User Fees, Reinspection User 
Fees for food facilities and Export Certification User Fees for food 
and feed products. The funding for Transforming Food Safety includes 
the budget amendment of $8,000,000 that the Administration recommended 
on February 12, 2010.
    The Transforming Food Safety Initiative reflects President Obama's 
vision of a new food safety system to protect the American public. The 
initiative is based on three core principles announced in July 2009 by 
the President's Food Safety Working Group: prioritizing prevention, 
strengthening surveillance and enforcement, and improving response and 
recovery.
    The fiscal year 2011 resources for Transforming Food Safety 
demonstrate that food safety is a national priority. It reflects the 
consensus among consumers, industry and experts that our food safety 
system needs fundamental change to prevent illness and restore public 
confidence.
    With the fiscal year 2011 increases, FDA will set standards for 
safety, expand laboratory capacity and pilot track and trace 
technology. FDA will also strengthen import safety and improve data 
collection and food risk analysis. Most importantly, the fiscal year 
2011 resources allow FDA to establish a foundation for an integrated 
national food safety system focused on prevention.
    During fiscal year 2011, FDA will hire 718 additional full time 
equivalent (FTE) staff to expand programs that protect America's food 
supply. The hiring by FDA food safety programs includes more than 425 
new FTE in our field operations, of which 132 FTE will be new food 
inspectors in the field operations of our Office of Regulatory Affairs. 
Among those 132 FTE, 3 are funded by budget authority, 99 are funded by 
food registration and inspection user fees, and 30 are funded by 
reinspection fees.
    When fully trained and deployed, the 132 new inspectors will 
annually conduct the following additional field activities, based on 
budget authority and user fee funding proposed for Transforming Food 
Safety:
  --1,900 domestic food safety inspections;
  --150 foreign food inspections;
  --1,000 domestic food and animal feed program reinspections;
  --200 domestic tissue residue inspections for illegal drug residues 
        in meat and poultry; and
  --3,000 samples for analysis in FDA laboratories.
    The Transforming Food Safety Initiative will also allow FDA to fund 
the cost of living pay adjustment for FDA professionals that conduct 
food safety activities and pay higher rent and related facility costs.
    In addition to the priorities listed above, fiscal year 2011 
resources for Transforming Food Safety support the following domestic 
and foreign activities that implement Food Safety Working Group 
priorities.
            Prioritizing Prevention
    FDA will issue guidances and establish new, binding standards to 
help prevent foodborne illness and reduce food risks. The standards 
include new controls to prevent food safety risks associated with fresh 
produce and other commodities, standards for food inspections, and 
standards for collecting and analyzing food samples.
    FDA will conduct audits of its regulatory and public health 
partners. FDA audits will evaluate inspection, investigation, sample 
collection and analysis, enforcement, response, recovery, and outreach 
activities. The audits will measure performance against FDA food safety 
standards. FDA will also strengthen collaboration with foreign 
regulatory bodies to evaluate and leverage inspection data. FDA will 
begin to develop an updated inventory of foreign facilities to support 
more foreign inspections.
    FDA will begin to establish a modern import safety program. FDA 
will develop standards to evaluate food safety systems in foreign 
countries. FDA will also continue third party certification efforts and 
develop a registry of all importers. When fully implemented, FDA's 
import safety program will result in greater oversight of imported 
foods and provide greater assurance they meet safety standards 
comparable to those required for domestically produced foods.
            Strengthening Surveillance and Enforcement
    FDA State liaisons will communicate essential information on food 
safety standards and priorities throughout the integrated food safety 
system. FDA will also develop and implement a national food inspection 
and sampling work plan. Working with the States, FDA will increase 
surveillance and sampling of feed and feed ingredients. FDA will 
improve its analysis of inspection results by establishing a system to 
electronically exchange inspection data.
    FDA will improve risk analysis and research for food and feed 
safety. FDA will expand its ability to identify products at highest 
risk for contamination. FDA will use this information to better target 
and prioritize food and feed safety sampling and inspection. As one 
tool for food risk analysis, FDA will enhance the food registry used to 
report problems with foods.
    FDA will expand the National Antimicrobial Resistance Monitoring 
System (ARMS). Expanding NARMS means more surveillance and monitoring 
of commodities such as seafood and animal feed. Working with CDC and 
USDA, FDA will also adapt NARMS to monitor emerging pathogens in food 
animals and retail foods of animal origin.
    FDA will increase its laboratory capacity. FDA will establish a new 
forensic microbiological laboratory and conduct more food safety 
sampling and surveillance.
            Improving Response and Recovery
    FDA will conduct pilot studies with industry of track and trace 
technology.
    FDA will improve response and recovery with expanded lab capacity. 
FDA will develop technology to reduce the time needed to screen for 
pathogens. We will focus our energies on priority pathogens and work to 
reduce screening time to one to two days, compared to the current 5 to 
10 days.
    FDA will invest in enterprise information technology (IT) systems 
to transform food safety. Funding for IT systems will also allow FDA to 
establish, collect and support the proposed new Food Registration and 
Inspection User Fees Program.
    FDA will provide essential support to food program offices. This 
support will allow food safety programs to achieve priority public 
health objectives.
            Results for Transforming Food Safety
    Fiscal year 2011 funding for the Transforming Food Safety 
initiative will allow FDA to deliver the promise of improved food 
safety. With this fiscal year 2011 investment, FDA will steadily reduce 
illnesses caused by contamination of the food supply in the years to 
come. In summary, Transforming safety will allow FDA to:
  --Reduce the number of foodborne illnesses by heightening the focus 
        on preventing harmful contamination;
  --Identify sources of risk in the food safety system through expanded 
        data collection and analysis and collaboration with partners in 
        other Federal agencies and with, States, international 
        agencies, and industry;
  --Improve industry compliance with food safety standards through more 
        frequent inspection and expanded use of microbial testing and 
        other modern tools;
  --Reduce time to detect and respond to outbreaks through improved 
        staffing and procedures and collaboration with the Centers for 
        Disease Control and Prevention and State, local, and 
        international colleagues;
  --Establish stronger links between performance outcomes and resource 
        investments by developing and tracking appropriate measures of 
        progress on food safety;
  --Better integrate Federal, State, local, and foreign food safety 
        efforts by removing barriers to full collaboration, leveraging 
        of information, and expanding current partnership efforts.
Protecting Patients Initiative
    For fiscal year 2011, FDA proposes an increase of $100,800,000 for 
Protecting Patients. This increase includes $49,400,000 in budget 
authority and $51,400,000 for two new user fees: Generic Drug User Fees 
and Reinspection User Fees for medical product facilities.
    The Protecting Patients Initiative advances Obama Administration 
priorities for safe, quality healthcare for all Americans. The 
resources in this initiative support new tools and partnerships to 
enhance the safety of increasingly complex drugs, devices, vaccines, 
human tissues and America's blood supply.
    This initiative will modernize FDA's approach to the safety of 
medical products at a time when the number of drugs, devices and 
biologics manufactured abroad is increasing dramatically. With these 
resources, FDA can act as a strong and smart regulator and address 
medical product safety challenges in the years ahead.
    The Protecting Patients Initiative focuses on four vital areas: 
import safety, high-risk products, partnerships for patient safety, and 
generic drug review.
    During fiscal year 2011, FDA will hire 215 FTE staff for programs 
that protect patients and support the safety and effectiveness of 
medical devices, human and animal drugs, and vaccines, blood and other 
biologics. This includes hiring 85 FTE in FDA field operations, of 
which 40 will be new ORA medical product inspectors. Among those 40 
FTE, 13 are funded by budget authority, 21 are funded by reinspection 
fees, and six are funded by generic drug user fees.
    When fully trained and deployed, the 40 FTE will annually conduct 
more than 600 foreign and domestic risk-based inspections. This 
includes more than 225 inspections funded by budget authority and more 
than 380 inspections funded by reinspections and generic drug user 
fees. These include inspections of foreign and domestic drug, device, 
radiological health, and biologic manufacturers, as well as bioresearch 
monitoring inspections to protect patients and ensure data integrity in 
clinical trials. The Protecting Patients Initiative funds the cost of 
living pay adjustment for FDA professionals that conduct food safety 
activities. The Initiative also funds higher rent and related facility 
costs and provides essential support to allow medical product programs 
to achieve their public health priorities.
    In addition to the activities listed above, fiscal year 2011 
resources for Protecting Patients support the following priorities.
            Import Safety
    Thousands of critical medical products are manufactured outside of 
the United States. Increased funding for import safety will allow FDA 
to better understand and respond to the growing challenge of foreign 
manufacturing and globalization, including counterfeit products.
    FDA will launch an electronic drug registration and listing system 
to stop imports of illegal drug. FDA will also work more closely with 
trusted foreign regulators to monitor drug manufacturing facilities.
    FDA will increase foreign inspections. FDA will identify and 
inspect the highest risk foreign facilities. FDA will also protect 
patients through increased inspections of human subject trials.
    FDA will review and use third party International Organization for 
Standardization (ISO) audits of foreign device manufacturers. As a 
result, FDA will leverage device inspections conducted for foreign 
governments.
            Safety of High-Risk Products
    Drugs, devices and biologics are becoming increasingly complex. To 
protect the American public, FDA will develop additional capacity to 
assess the safety of these medical products.
    FDA will improve the safety of the blood supply, vaccines, human 
tissues, and cord blood. To counter threats to the blood supply, FDA 
will improve the ability to prevent, detect and monitor for infectious 
agents. FDA will also improve its ability to analyze and respond to 
manufacturing deviations. FDA will also build additional capacity to 
identify and respond to adverse events and adverse reactions associated 
with biological products. FDA will improve vaccine safety through 
guidance for industry and better understanding mechanisms of adverse 
events.
    FDA will begin to build a National Medical Device Registry. FDA 
will begin a pilot project to link unique identifiers for medical 
devices with electronic health data. The result will be improved 
patient safety by creating a National Medical Device Registry.
            Partnerships for Patient Safety
    To meet its public health responsibilities, FDA must interact and 
collaborate with many public and private entities in a medical system 
that is committed to safety.
    FDA will expand postmarketing surveillance systems for medical 
product safety. This investment includes support for the next stage in 
FDA's Sentinel Initiative. The goal of the Sentinel Initiative is to 
use large databases to fairly and quickly assess the safety of medical 
products.
    FDA will partner with public and private organizations to reduce 
unnecessary adverse events, with emphasis on special populations. FDA 
will also work with the private sector to reduce unnecessary medical 
radiation exposure.
    FDA will improve pediatric drug and device safety. Working with 
international and domestic partners, FDA will identify medical products 
that are safe for children and those that pose special risks.
    FDA will improve the safety of animal drugs. FDA will hire and 
train scientific staff to review adverse experience reports and require 
prompt corrective action.
            Generic Drug Review
    FDA will Increase its Capacity to Review Generic Drugs 
Applications: FDA will hire additional staff to support generic drug 
review.
            Results for Protecting Patients
    FDA's Protecting Patients Initiative will have a significant impact 
on public health in the United States. This science-based strategy will 
build new and greater safety capabilities, resulting in:
  --Reduced number of import safety emergencies;
  --Fewer serious adverse events linked to medical products; and
  --Early identification of major safety problems with drugs, devices 
        and biologics.
    This initiative will permit FDA to rise to the challenge of 
protecting patients in the 21st century. The initiative supports 
critical international efforts, upgrades to FDA capacity, and essential 
partnerships with the private sector. With the fiscal year 2011 
resources, the Protecting Patients Initiative will lead to:
  --improved import safety program for medical products;
  --increased capacity to conduct inspections;
  --improved safety of blood, tissue, and vaccines;
  --improved data collection and risk analysis for medical products; 
        and
  --enhanced assessments of postmarket safety.
Advancing Regulatory Science for Public Health Initiative
    For fiscal year 2011, FDA proposes an increase of $25,000,000 in 
budget authority for Advancing Regulatory Science. The Advancing 
Regulatory Science initiative is the backbone that supports all other 
FDA activities, including transforming food safety and protecting 
patients. At FDA, science is at the heart of everything we do from 
keeping the blood supply safe, protecting Americans from global and 
emerging infectious diseases, supporting the development of new food 
and medical technologies, to bringing new treatments to patients.
    Advancing Regulatory Science for Public Health reflects President 
Obama's commitment to harness the power of science to benefit America. 
In his April 2009 address to the National Academy of Sciences, the 
President declared, ``science is more essential for our prosperity, our 
security, our health, our environment, and our quality of life than it 
has ever been before.''
    During the past two decades, U.S. research investments have 
dramatically expanded our understanding of biology and disease. Yet the 
development of new therapies has been in decline, and the costs of 
bringing them to market have soared. As a result, we have experienced 
lost opportunities to improve the effectiveness of U.S. medicine and 
the success of the biotechnology industry.
    Today, FDA is relying on 20th century regulatory science to 
evaluate 21st medical products. Regulatory science is needed to provide 
better tools, standards, and pathways to evaluate products under 
development. It also serves to create efficiencies in the development 
process, and improve product safety, quality, and manufacturing. The 
Advancing Regulatory Science initiative represents the first 
comprehensive effort to modernize regulatory science at FDA.
    Stem cells and personalized medicine are two examples of areas that 
could change the way we treat many diseases. Stem cells offer hope for 
treating patients with neurodegenerative diseases, such as Parkinson's 
and Alzheimer's disease. For the promise of stem cells to come to 
fruition, FDA must develop standards for stem cell therapies so that 
they can be produced reliably and safely. In the area of personalized 
medicine, FDA must work collaboratively to identify markers that can 
predict whether a patient will respond to certain cancer therapies. FDA 
must use cutting edge science to validate these tests for use in 
clinical practice.
    In addition to helping patients benefit from biomedical advances, 
improvements in regulatory science will also support better assessment 
of drug and device safety, better tools for food safety, and better 
understanding of how to reduce the enormous public health harm of 
tobacco products.
    The Advancing Regulatory Science for Public Health initiative 
focuses on three broad themes: science leadership and coordination, 
core capacity, and modern standards for evaluating products.
            Science Leadership and Coordination
    FDA will strengthen scientific leadership. The Office of the Chief 
Scientist (OCS) will support FDA and its centers with dedicated and 
expert scientific leadership. OCS will work with the centers to 
prioritize, oversee, support and coordinate key scientific investments 
at FDA.
            Core Capacities: Infrastructure, Workforce, Collaboration
    FDA will build core scientific capacity in the field of 
nanotechnology.
    Nanotechnology holds great promise in many areas. Examples include 
targeting drugs to where they can do the most good and least harm and 
making improved material for medical devices. Yet, nanoscale materials 
may interact very differently with biological systems and require 
special methods to assess safety and effectiveness. FDA will support 
science focused on the sound evaluation of nanotechnology-based 
products. The goal is to realize their promise while protecting 
patients and consumers.
    FDA will support the development and evaluation of products from 
stem cell innovation. The FDA investment will support the transfer of 
stem cell discoveries from the bench to the bedside.
    FDA will recruit next generation scientific staff. FDA will begin 
targeted recruitment in essential areas of emerging science where FDA 
has an expertise gap.
    FDA will address science issues that support a National Medical 
Device Registry.
    FDA will begin a pilot project to link unique device identifiers 
with health-related electronic data to create a National Medical Device 
Registry. The Registry will improve our understanding of the risk 
benefit profile of higher risk devices.
    FDA will promote scientific collaboration through the Critical Path 
Initiative.
    Fiscal year 2011 investments in FDA's Critical Path Initiative will 
allow FDA to foster partnerships that transform product development and 
evaluation sciences, advance personalized medicine, support meeting 
unmet public health needs, and better predict and prevent safety risks 
early in development.
            Medical Product Regulatory Standards
    FDA will update review standards and provide regulatory pathways 
for biosimilars. FDA will establish regulatory guidance to provide a 
scientifically sound and safe pathway to characterize and develop 
biosimilars.
    FDA will increase its ability to regulate animal biotechnology 
products. FDA will hire and train staff to strengthen our knowledge 
base and thereby support the review and potential approval of animal 
biotechnology products.
    FDA will promote development of healthy foods and encourage healthy 
food choices. FDA will use data from well-designed studies to support a 
modernized food label to encourage Americans to eat healthier diets.
    The Initiative also funds rent and related facility costs to 
conduct initiative activities and provides essential support to allow 
medical product programs to achieve their public health priorities.
Tobacco Control Act
    On June 22, 2009, the President signed H.R. 1256, the Family 
Smoking Prevention and Tobacco Control Act (Tobacco Control Act), into 
law. The Tobacco Control Act grants FDA important new authority to 
regulate the manufacture, marketing, and distribution of tobacco 
products.
    FDA's goals for the tobacco program include:
  --preventing youth from using tobacco and helping adults who use 
        tobacco to quit;
  --promoting public understanding of the harmful and potentially 
        harmful constituents of tobacco products;
  --developing a science base for tobacco regulation; and
  --beginning meaningful tobacco product regulation to reduce the toll 
        of tobacco-related disease, disability, and death.
    In September 2009, after a national search, I selected Lawrence 
Deyton, M.S.P.H, M.D., as Director of the Center for Tobacco Products. 
Dr. Deyton is an expert on veterans' health issues, public health, and 
tobacco control and prevention. He also is a clinical professor of 
medicine and health policy at George Washington University School of 
Medicine and Health Sciences.
    During fiscal year 2010, FDA made substantial progress in 
establishing the tobacco program and implementing initial steps under 
the Act.
    To date, FDA has met or exceeded the statutory requirements of the 
Tobacco Control Act, including:
  --establishing the tobacco products user fee program to support FDA's 
        tobacco program;
  --issuing and enforcing a ban on cigarettes with certain 
        characterizing flavors, including fruit and spice flavors;
  --publishing a guidance document related to tobacco product 
        establishment registration and product listing and began 
        tobacco industry registration with FDA;
  --publishing a guidance document describing the requirements for 
        providing listings of all ingredients used in making 
        cigarettes, smokeless tobacco, and certain other tobacco 
        products and began accepting tobacco product ingredient and 
        constituent listings;
  --establishing an FDA program to assist small tobacco product 
        manufacturers; and
  --creating the Tobacco Product Scientific Advisory Committee.
    FDA is in the midst of an aggressive recruitment and hiring 
program, with a goal of hiring 370 FTEs in the tobacco program by 
fiscal year 2011. I am pleased to report that FDA has met or exceeded 
the statutory deadlines in the Tobacco Control Act. During fiscal year 
2011, FDA will continue to make progress in tobacco product regulation. 
We will learn from the successes of our international counterparts that 
also regulate tobacco. We expect to implement a number of key steps in 
the next year. These steps will include reissuing and enforcing the 
1996 rule to prevent smoking and smokeless tobacco use among young 
people and proposing graphic health warning labels for cigarette 
packages and advertising.
New User Fees
    The new user fees proposed in FDA's fiscal year 2011 budget will 
facilitate the review of generic drugs and enhance FDA's ability to 
register and inspect food and feed manufacturing and processing 
facilities. New user fees will also allow FDA to reinspect facilities 
that fail to meet good manufacturing practices and other safety 
requirements and allow FDA to collect fees when it issues export 
certifications for food and feed.
            fda response to the 2009 h1n1 influenza pandemic
    I would also like to take this opportunity to report to the 
committee on FDA's response to the 2009 H1N1 influenza pandemic. As we 
reported to you last year, FDA established an incident command approach 
that allowed us to work across government, internationally and with the 
private sector to rapidly mobilize emergency response.
    Key accomplishments include:
    Licensing Safe and Effective Influenza Vaccines.--FDA worked to 
facilitate development, production, and availability of vaccines. FDA 
licensed pandemic influenza vaccines from all five U.S. licensed 
influenza vaccine manufacturers. These pandemic vaccines were subject 
to the same stringent manufacturing and quality oversight processes in 
place for seasonal influenza vaccines. More than 70 million Americans 
have been immunized with these vaccines, based on CDC's coverage survey 
estimates. Extensive safety review involving active surveillance 
systems that have captured information from approximately 4 million 
patients has found the vaccine to have the same excellent safety 
profile as the seasonal influenza vaccines.
    Authorizing Emergency Measures.--Our physicians and scientists 
worked tirelessly to facilitate the availability of antiviral 
medications to patients. FDA authorized 13 laboratory tests, 3 drugs, 
and certain types or models of respirators, known as N95 respirators, 
to provide tools to doctors across the country to fight the novel H1N1 
influenza. For example, FDA authorized the emergency of use of an 
unapproved intravenous antiviral drug, Peramivir, to treat certain 
hospitalized patients. FDA's work on dosing of Tamiflu in children 
under the age of 1 year was adopted by countries around the world. In 
addition, FDA authorized the use of antiviral medications that 
otherwise might have been thrown away because they were beyond their 
labeled expiration dates. Our efforts on expiring drugs helped prevent 
shortages of essential medicines for patients.
    Cracking Down on H1N1 Fraud.--FDA established the 2009 H1N1 
Consumer Protection Team that conducted an aggressive, proactive 
strategy to combat fraudulent 2009 H1N1 products. To date, the team has 
sent more than 80 Warning Letters to more than 85 Web sites, covering 
about 150 different products purporting to be dietary supplements, 
medical devices, drugs or biologics. These Warning Letters have 
resulted in a compliance rate of about 80 percent.
    FDA is pleased to have worked so closely with its sister agencies 
under the leadership of the Department of Health and Human Services in 
the pandemic response. We will continue our work to pave the way for 
manufacturers to develop faster and more reliable vaccines, antiviral 
medications, and diagnostic test.
                               conclusion
    The FDA fiscal year 2011 budget of $4,000,000,000 contains 
important funding increases for important public health priorities: 
Transforming Food Safety, Protecting Patients, Advancing Regulatory 
Sciences and Implementing the Tobacco Reform Act. Achieving these 
priorities is possible because of your support for the work of the Food 
and Drug Administration.
    Thank you for the opportunity to testify. I am happy to answer your 
questions.

    Senator Kohl. Thank you, for your fine statement, Dr. 
Hamburg.
    You've been at the FDA for nearly a year now, and I assume 
that it has been fulfilling as well as challenging.

                             VISION FOR FDA

    After a year, what have you learned about the FDA? What's 
working? What would you change? What is your vision for the 
agency, and where do you want it to be in 5 years and beyond? 
How does the Performance Manage Initiative you discussed in 
your opening statement play into this, Dr. Hamburg?
    Dr. Hamburg. There's a lot of questions--very, very 
important questions. I have found, since being here--it's been 
only about 8 months, but who's counting--that FDA is an 
extraordinary agency, you know, with an array of professional 
scientists, lawyers, policy analysts and support staff that, 
you know, are dedicated to the mission of protecting and 
promoting health.
    I have been struck much more deeply, since I've been in 
this role, by how important and unique FDA is--that we are 
responsible for a vast array of regulated products, and 
products that affect every American every day, as you noted in 
your opening statement.
    If we cannot do our job, and do it well, there are not 
other parts of government or other sectors of society that can 
step in and backstop behind us. And that is why it is so 
important to have a strong, fully functional FDA.
    As the new FDA Commissioner, I feel a tremendous 
responsibility to lead this agency fully into the 21st century. 
I think I must be a strong advocate for the agency, explaining 
to policymakers and the public about what we do, how we do it, 
and why. I believe that I must work to ensure trust and 
confidence in the work of the agency, and that includes being a 
responsible steward of the resources given to us, and tracking 
to make sure that we are using them widely and for the benefit 
of the American people.

                                SCIENCE

    I believe that now is the time for us to act aggressively 
to strengthen science within the FDA, in partnerships with 
external partners, so that we can bring the best possible 
science to bear on our regulatory decisionmaking. And I believe 
we have to respond to the globalized world we live in, and 
recognize that products regulated by the FDA are coming in from 
all over the globe, and that we have to effectively extend our 
foreign presence, so that we can ensure safety.
    Senator Kohl. Have you made any trips to any of these 
foreign countries?

                          INTERNATIONAL TRIPS

    Dr. Hamburg. I have made one international trip, so far, 
and we are planning additional--I've made two international 
trips--planning additional trips, as well. I've met with many 
of my counterparts from other countries on their visits here, 
as well, and have really made this area of strengthening our 
presence internationally a very high priority, because the 
world we live in is so increasingly complex and globalized. And 
the supply chains, whether it's food products or medical 
products, go around the globe, and we know that this, 
potentially, entails serious safety concerns.

                           FUNDING INCREASES

    Senator Kohl. Dr. Hamburg, as I said in my opening 
statement, and I'm sure you're fully aware, we have provided 
FDA with very large funding increases over the past several 
years. Your budget this year again includes one of the largest 
increases in our bill, but it's only about one-half of the 
increase that the Department has been receiving recently. How 
would you respond to concerns that this budget reflects a 
decrease in the priority the administration places on 
modernizing and improving the FDA?
    Dr. Hamburg. Well, I think we all recognize that these are 
very difficult economic times and we have to operate in that 
environment. I do think it's very, very important that we 
continue sustained investments in the FDA for the reasons I 
cited earlier, that we have a unique role to play, and it is 
one that matters deeply to every American. So, you know, we 
will continue to work, in every way possible, to perform the 
programs and activities that are on our plate and to address 
emerging new priorities. We hope that we will have the 
opportunity, in the fiscal year 2011 budget, to continue to 
expand in some key areas, as the budget reflects. And I'm eager 
to work with you and with others to ensure, in the upcoming 
fiscal year and in the years beyond, that we continue to 
support FDA in its crucial mission.
    Senator Kohl. Thank you.
    Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman.
    Dr. Hamburg, let me show you a chart--and I think we've got 
one laid out in front of you--for what I was talking about in 
my opening statement of a bifurcation on the review process. 
It's what we visited about it in my office, and we went and 
took the liberty to give a couple of examples.

                             RARE DISEASES

    I mentioned in my opening statement, there are some 7,000 
rare diseases affecting nearly 30 million Americans, only 200 
of which have any treatment at all. And what I'm suggesting to 
you is that your standard process which is well established; 
it's very expensive, I might add. I saw a 2005 review of it, 
and said that, by FDA's own report, it costs somewhere between 
$800 million to $1.7 billion to develop a new product. This is 
a 2005 FDA report.
    Diseases like Tay-Sachs disease affects approximately 1 in 
112,000 live births. There are no treatments for it. A child 
who's born with this--it's a genetic lipid storage defect--
usually dies by age 4. No treatment, whatsoever. Small market 
potential for it.
    Leigh's disease affects 1 in 36,000 live births. 
Individuals typically live anywhere from a few years to the 
mid-teens; and no treatment for it, whatsoever. The symptoms 
associated with this are usually a loss of early control--head 
control, walking, talking--becoming other problems, such as 
irritability, loss of appetite, vomiting and seizures, and 
there may be periods of sharp decline or temporary restoration 
of some function. Eventually, the child may also have heart, 
kidney, vision, breathing complications. These are tough 
things, when they grab a family.
    We all, as members, get people coming by our offices, 
representing these rare and neglected diseases, and they're 
always saying, ``Look, we want you to put more money into the 
process,'' and we all want to do it, because you don't want to 
hear of anybody having to face any sort of struggle or 
circumstance like that. But, then the truth of the matter is, 
we develop very few products for them, even if we pump a bunch 
of money from here into it, because it's going to take $800 
million to $1.7 billion to bring the product to market, and 
that market is this thin; it's just not going to happen.
    And that's why I would ask you to seriously consider 
something that the FDA has done, on an ad hoc basis previously, 
but instead, let's make this a separate category of review so 
it's not just done on an ad hoc, ``Well we like this one, we're 
not going to do that one. This one's important to us, or this 
one has political impetus to us, that one doesn't.'' Just 
create a separate category. Work with the disease population 
groups to see if they're willing, as groups, to consider going 
into this. Do a thorough review of it, and then set this 
truncated category up. And it's known, going into it, this 
isn't the same review that we're going to take on a common 
disease--arthritis, diabetes, something where there's a large, 
clear population.
    I think you would get a huge amount of support for doing 
something like this. I think you would get a lot of people 
behind it. And I think it would stretch our dollars out to a 
point where you would get action in 6,800 categories that have 
no action now.
    So, I'd ask how you would respond to that, please.
    Dr. Hamburg. Well, thank you very much for this proposal, 
and we will certainly look at it very seriously. And, you know, 
the issues you raise are ones that are very meaningful to me, 
personally and professionally, as well as to the agency. As I 
mentioned to you when I met with you at an earlier time, I 
shifted, in my career, from a career in academic medicine to 
public service, because of watching the AIDS epidemic develop 
while I trained as a medical student and became a resident in 
internal medicine. And at that time, we had no treatments to 
offer AIDS patients. And then new treatment options began to 
emerge, and I went to work at NIH--National Institute of 
Allergy and Infectious Diseases--to be part of that process of 
trying to develop new therapies and trying to get them to 
people who needed them.
    You know, the opportunity that we have right now, in terms 
of advances in science, combined with the growing public health 
need for both rare and neglected diseases, I think, demands 
that we take action and that we be innovative, if not 
transformative, in how we approach it.

                        NEW REGULATORY PATHWAYS

    So, I'm eager to work with you. I think that the program 
that you've already helped to establish within FDA in response 
to past legislation--section 740--has already gotten us on 
track, in terms of beginning to really, in a focused way, to 
look at: How do we develop new regulatory pathways? How do we 
leverage advances in science and technology to make our 
regulatory oversight as efficient and effective as possible? 
And how do we think creatively, building on activities already 
underway, such as the Orphan Drug Program, to look at various 
incentives that exist or could be developed to try to, you 
know, really catalyze activity in areas where there are limited 
markets.
    It's something that I know is of the highest priority 
within the White House, as well. President Obama spoke to this 
issue in his recent State of the Union Address, briefly, but he 
did talk about the importance of developing new products to 
address unmet public health needs.
    So, we will work with you with enthusiasm. We will make 
sure that the group--that the groups within FDA working on 
implementing section 740 look very seriously at your proposal 
here, and continue to work with you and your staff and others 
to make, you know, real, meaningful, and sustainable progress 
in this important area.
    Senator Brownback. I can't think of anything you could do 
that would give more hope to a large group of people that don't 
have a whole lot of it right now. And it affects a lot of 
people.
    I've got several other questions I'd like to ask, but, 
chairman, that's the primary issue, and I really hope--this is 
my last year in the Senate--I really hope we can make some 
progress on this. And I think it's within your power to move 
this forward, in developing a proposal, putting it forward. I 
think you would get a lot of support, and I'd love to be one 
right there with you to try to move that forward, to give hope.
    Dr. Hamburg. If I could just add, I think there's also a 
huge opportunity here to work with sister regulatory agencies 
around the world, because these are issues that do crosscut, 
clearly. And, you know, if we can bring new, innovative 
regulatory strategies and the best possible science to bear, 
and also, you know, fully define the markets that do exist and 
the incentives to bring the pharmaceutical and biotech industry 
into developing products in these areas, you know, we can make 
additional progress with that approach.
    Senator Brownback. Thank you.
    Thank you, chairman.
    Senator Kohl. Thank you, Senator Brownback.
    Senator Mark Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    And thank you for being here today, Dr. Hamburg. I 
appreciated our visit on the phone last week.

                             NANOTECHNOLOGY

    Let me talk a little bit about nanotechnology, and I'd like 
to get your thoughts. I know that the FDA has proposed a $7.3 
million line item to build core scientific capacity for 
nanotechnology. I actually have a bill here that would do a 
total of $25 million. And I guess my question for you--on that 
$25 million--is, if we are able to get that bill passed and 
make that money available, could you all spend it wisely?
    Dr. Hamburg. Well, I have not seen that piece of 
legislation, but, you know, clearly nanotechnology is an 
emerging technology that holds great promise, in terms of 
products--medical products, as well as cosmetics and food-
related issues. It's one where we want to fully explore the 
opportunity, but we also want to study it carefully to ensure 
that safety issues are adequately surfaced and addressed.
    We have a program that is moving forward in the 
nanotechnology area. As you may well know, the National Center 
for Toxicological Research in Arkansas is a very important hub 
in our nanotechnology research activities.
    But, it cuts across every aspect of FDA work, in terms of 
our product centers. So, I think that, yes, you know, there--
it's a very, very important emerging technology. We need to 
deepen our understanding. And it's key to many areas of FDA 
activities, so we would welcome the opportunity to work more 
with you to see what we can do and how we should best do it.
    Senator Pryor. Does FDA currently have the physical 
infrastructure it needs--the physical labs, buildings, space, 
and equipment, whatever that may be--to really, thoroughly 
study nanotechnology, or is that still a work in progress?
    Dr. Hamburg. You know, I think that we are always having to 
evolve our capabilities as emerging technologies also evolve. 
We do have a solid technical capability for nanotechnology, but 
I would hesitate to try to address whether we have all of the 
infrastructure that we need for our nanotechnology efforts. I 
can certainly tell you that we need to bring on board more 
expertise in the nanotechnology area. We also are working in 
partnership with outside experts in this important arena to 
strengthen our capacity. But, I think it's probably fair to say 
that one always needs to be dynamic in these kinds of programs, 
because the science itself is so dynamic.

                               SALMONELLA

    Senator Pryor. Let me change subjects on you, if I can.
    In the last few weeks, there's been a salmonella outbreak, 
and apparently it was related to hydrolyzed vegetable protein. 
And my understanding is, the administration's budget adds money 
for--to identify such outbreaks. But, does FDA--are you--do you 
feel like you have the right resources and the right 
capabilities in place to monitor things like salmonella and 
these other type of outbreaks that you see in the food system?
    Dr. Hamburg. Strengthening food safety is a huge priority 
for FDA and for the administration and for the Nation. We have 
experienced the real-world implications of gaps in food safety 
and a food safety system that's oriented toward addressing 
problems once they occur, rather than preventing them in the 
first place, and that's what we are dedicated to doing.
    Senator Pryor. And not to interrupt you, but, as I 
understand, there's a President's Food Safety Working Group? Is 
that----
    Dr. Hamburg. Yes. That is--the Food Safety Working Group is 
very active. It was established by the President, I think 
actually at the same time that he announced my nomination. And 
they've identified a number of critical activities and also a 
focus on prevention, strengthening surveillance and 
enforcement, and response and recovery.

                              FOOD SAFETY

    There is a piece of legislation that's pending, on the 
Senate side, to strengthen food safety, which we are very 
supportive of, because it would bring additional authorities 
and resources for the FDA to continue to develop our food 
safety programs and to truly transform our food safety system 
as it needs to be to address the challenges before us. But, 
even without that legislation, we are moving forward in key 
ways to reorient the system toward prevention, to enhance 
inspection, to try to really get a better handle on how to 
track and trace food-borne outbreaks, and working, importantly, 
in partnership with our counterparts at the State and local 
level, and also, again, working internationally, because import 
safety is such a concern. But, we do look forward to the 
consideration by the Senate of the food safety bill, because 
that would really dramatically enhance our position with 
respect to making the kinds of meaningful and enduring changes 
that we need for food safety.
    Senator Pryor. The last question I have, really, is about 
the National Center for Toxicological Research (NCTR). And I 
know that you've attempted to come down there previously, but--
I don't remember if it was a snowstorm or whatever, but you 
couldn't make it, and we certainly would love for you to come 
down and see that again, whenever it works in everybody's 
schedule.

                                  NCTR

    But, is the FDA doing everything possible to assure that 
the high quality science at NCTR is relied upon by other FDA 
labs rather than duplicating the capabilities elsewhere?
    Dr. Hamburg. NCTR represents a very unique resource for 
FDA, and one that we rely on, and one that I certainly value. 
It enables us to build fundamental research capacity that has 
implications that cut across our various product centers and to 
do, you know, really cutting-edge scientific work in some key 
areas, whether it's the establishment of a genomics lab that's 
really helping us think about how we can use a deepened 
understanding of genetics and genetic traits to target 
therapies better and to understand the interaction of lifestyle 
factors and genetics as we think about medical products; some 
of the bio-imaging capabilities that have been developed there 
that can help us develop new kinds of markers to assess product 
effectiveness and to support activities across a range of 
programs at FDA--the activities that they're doing in terms of 
toxicology research, per se, and safety that are so important, 
especially as we're looking more deeply at a range of 
environmental exposures, issues like BPA; and, of course, you 
know, what we talked about with nanotechnology--they represent 
a key hub in those efforts. So, it's really a unique, highly 
valued resource.
    I'm looking forward to my visit down there. But, in the 
meantime, I've been working closely with members of the NCTR 
staff and its director, and they are very much, while at a 
distance, integrated into our work at FDA.
    Senator Pryor. Thank you.
    Thank you, Mr. Chairman.
    Senator Kohl. Thank you very much, Senator Pryor.
    Senator Byron Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much.
    Dr. Hamburg, welcome, and----
    Dr. Hamburg. Thank you.
    Senator Dorgan. Dr. Hamburg, I want to visit with you about 
the issue of importation of prescription drugs, perhaps not a 
surprise to you.

                              IMPORTATION

    Last December, I and Senator Snowe, along with 30 other 
cosponsors, after working for a number of years, were preparing 
to have a vote on the importation of FDA-approved prescription 
drugs--only FDA-approved prescription drugs. And the day before 
the vote, you sent a letter to Senator Brownback and Senator 
Carper; and, in the letter, you indicated some concern about 
the legislation. You indicated, however, that the 
administration supports a program to allow Americans to buy 
safe and effective drugs from other countries, and you're 
beginning working with stakeholders to accomplish that.
    This has been a long and tortured trail, probably 10 years, 
in which the pharmaceutical industry has prevented the American 
people from accessing FDA-approved identical drugs that are 
sold for a fraction of the price in most other countries in the 
world.
    So, this is an issue, I think, of freedom for the American 
people. They don't want to buy tainted drugs or counterfeit 
drugs, but if Lipitor is made in Ireland and put in a sealed 
container and sent various places in the world, why should the 
American consumer be paying triple the price? Why should they 
not have access to that FDA-approved drug made in a plant 
inspected by the FDA, and so on?
    So, I guess the first question is--you indicate you support 
a program to allow Americans to buy safe and effective drugs. 
Are you working to make that happen? And if so, what kind of 
work is underway at FDA to assure that that could be the case?
    Dr. Hamburg. Well, we do very much care about helping 
Americans get access to important drugs for their health, and 
we also care very much about ensuring safety. And, with you, we 
want to work toward finding better strategies. As I think you 
know, in fiscal year 2010, and again in the proposed fiscal 
year 2011 budget, money has been put aside--$5 million each 
time--for developing strategies and examining and analyzing the 
safety issues with a broadened drug importation strategy. There 
are genuine safety concerns, and that's what we're trying to 
address.
    Many of the drugs that we're talking about, in terms of 
importation, are not drugs that are identical. They're----
    Senator Dorgan. Let's deal with identical drugs, however. 
Let's just talk about identical drugs.

                                LIPITOR

    Dr. Hamburg. Well, Lipitor is one example where it really 
is the same product, as I understand it. But, many of the drugs 
are not necessarily bioequivalent. They may have the same 
product name and be the same product class, but the formulation 
may not be bioequivalent, the dosing formulation may be 
different.
    Senator Dorgan. I understand----

                                LABELING

    Dr. Hamburg. There are labeling issues. There are issues 
about our being able to really assure proper manufacturing 
practices. All of those things really matter, and so we need to 
have a program that is doable, that will enable us to able to 
assure those kinds of issues for the American people.
    Senator Dorgan. Dr. Hamburg, but in the second paragraph of 
your letter last December, you talked about, ``Importing non-
FDA-approved drugs represents four potential risks.'' No one is 
talking about importing non-FDA-approved drugs. And the things 
you've just raised, labeling and so on--our staffs met with the 
FDA and the FDA staff and said, ``Identify any concerns and 
technical issues you've had.'' We dramatically changed our bill 
to address all of those issues.
    And if you will just bear with me for a moment, let's take 
the drug that is identical. Let's reintroduce the bill, with 
only an identical drug, made, in this case, by an American 
manufacturer in an Irish plant and sent in various places of 
the world, and the American consumer has the opportunity to 
spend double or triple the price in order to access it.
    Is there a way for us--in our legislation, we have batch 
lots, we have pedigree, things that don't now exist, even in 
today's drug supply. You're familiar with the Heparin issue, 
right? The tainted medicine----
    Dr. Hamburg. Of course.

                                HEPARIN

    Senator Dorgan [continuing]. With Heparin that's made in 
pig farms in China that no inspector has ever visited. So, I 
understand all of the scare stuff that the pharmaceutical 
industry raises about this, but I'm talking about an identical 
drug made in an FDA-approved plant, with batch-lot and pedigree 
attached, and so on. Couldn't we agree that, at least in those 
circumstances, we could at least do a pretty good job that 
would assure the American consumer that they are--what they are 
buying is exactly what everyone else is purchasing, for a 
fraction of the price?
    Dr. Hamburg. You know, we share your concerns. We want to 
work to try to establish programs that can assure safety of 
drugs and medical products that are imported into this country. 
It's a hugely important issue and a high priority. There are, 
you know, real logistical concerns, very resource-intensive 
strategies that are outlined in the legislation that, you know, 
would be very, very difficult for the FDA to actually--to 
implement. But, I think that there are ways that we can 
approach these issues, and I think, you know, we need to work 
with you and others in order to really--as we pursue this 
planning effort, this----

                        PROGRAM TO IMPORT DRUGS

    Senator Dorgan. Is there an end date on this effort? I 
mean, do you have a time by which you want to accomplish the 
goal--the administration's goal of allowing Americans to buy 
safe and effective drugs in other countries?
    Dr. Hamburg. Well, I think that we are moving forward, in 
terms of the work that we're doing--the analyses and the 
development of different types of strategies, and modeling 
those options for how much they would assure safety--trying to 
get a better sense of what are the issues, in terms of drugs 
that are being--while the drug may be approved for use in the 
United States, the drug that's coming in to people ordering 
these drugs on the Web site are not those drugs that are 
necessarily the FDA-approved drugs. That's----
    Senator Dorgan. Well, that's a----
    Dr. Hamburg [continuing]. One of the huge concerns that we 
have.
    And we know--you know, I was----
    Senator Dorgan. Yeah, that----
    Dr. Hamburg [continuing]. Recently up at the border offices 
at JFK and saw, you know, the products coming in from all over 
the world, some of them with a Canadian maple leaf, you know, 
to suggest that they were coming from Canadian pharmacies, but 
they were not. And the quality cannot be assured.
    So, it's a big issue. It's complicated. We ultimately 
want--our mission is to be able to provide Americans with 
access to safe and effective drugs in as timely and low-cost 
way as possible.
    Senator Dorgan. Mr. Chairman, let me ask if we might--if 
the subcommittee might request of Dr. Hamburg that she submit 
to us what they are doing, with respect to this planning, and 
what the timeliness might be.
    And let me say this. I--look I supported your nomination. 
I'm glad you're where you are. I think you are a terrific 
public servant, and you offering yourself to serve this country 
is an important thing. So, I--but I was upset in December, 
because, even in the last answer, you deftly changed the 
subject, and I don't want to lose an argument we're not having.
    We're not having a debate about medicine that's coming in 
that might or might not be counterfeit. We're having a 
discussion about whether--and I'm using Lipitor just as an 
example--whether the company that produces Lipitor in a plant 
in Ireland, with a batch lot and a pedigree and the safety that 
ought to exist now for American consumers--whether those 
consumers ought to have the freedom to access that FDA-approved 
drug made in an FDA-approved plant--same pill, put in the same 
bottle, sent to three places, except the American consumer pays 
triple the cost.
    This is not rocket science. Europe has done it for 20 
years. If Europe can do it, we can do it. And I would hope that 
we--you and I and others--can approach this on the basis of 
saying, ``How do we accomplish this with complete safety--which 
I think exists in our bill--for the American people?''
    So, I'm very anxious to engage with you and your staff, and 
Senator Brownback and anybody else that has questions about 
this, so that we can support the American consumer, here, to be 
able to access FDA-approved drugs that are being sold around 
the world--in some cases, for one-sixth the price; in Lipitor, 
it's one-half to one-third of the price. And I just think it's 
an important issue.
    So, thanks for indulging this discussion. You do a lot of 
other important things. It's very--and I appreciate the 
chairman's work and the subcommittee's work with the FDA. We 
want to get you the funding you need. We want you to succeed.
    Thank you very much.

                           SAFETY AND ACCESS

    Dr. Hamburg. Well, I appreciate that, and I do look forward 
to working with you and others on this important issue of 
safety and access.
    Senator Kohl. Just to pursue that, are there powerful 
political interests and lobbying interests involved here that 
prevent us from bringing these drugs to the American public at 
prices that are being paid around the world--much, much less 
than what we're paying here? And, as you know, I'm sure, and as 
Senator Dorgan has said, and which he has pursued so well over 
the years, we're paying double and triple and quadruple the 
price for some of the most popular drugs here in the United 
States than people are paying all around the world. Now, I'm 
sure that that causes you great concern and arouses your strong 
interest. And as the head of the FDA, of course, you can play a 
pivotal role in helping us bring these drugs to the American 
consumer for the equivalent price that are being paid around 
the world. Is that one of your missions?

                             BIOEQUIVALENTS

    Dr. Hamburg. You know, very much front and center is--a 
mission--is to be able to assure access to safe and effective 
medicines for the American people. You know, this is a very, 
very challenging area, though, in terms of being able to assure 
safety. And for the FDA, that is, honestly, the issue that 
motivates our actions and concerns. I am not the first FDA 
Commissioner to raise these issues. FDA Commissioners, 
regardless of administration, over, you know, many years now, 
have echoed these same concerns. And it does reflect the 
complexity of trying to assure, especially in the world of 
Internet sales, that the products that are being purchased are 
what they purport to be, and being able to assure that, while a 
product may be FDA-approved for use in the United States, when 
that same product is actually manufactured elsewhere, it is not 
manufactured with the exact same specifications that it's 
manufactured for use in the United States, and that can have 
very important implications for patients. If it's a different 
formulation, it may have different bioequivalence, it may 
require a different dosing schedule, it may be formulated even 
with other components. And, of course, the labeling for use may 
be different from what FDA reviews and approves.
    So, we need to have a program that can really get into that 
level of analysis to assure that patients get what they need, 
that their healthcare providers, as well as the patients, 
understand what may be different about these drugs, even though 
they have the same name, so that they're used properly.

                           COUNTERFEIT DRUGS

    And then there's the problem of outright counterfeit drugs, 
which is an enormous problem, and it is growing. And so, I 
think, you know, that this whole arena of import safety could 
not be more important and pressing to the work of the FDA and 
to the safety and security of the American people, and I hope 
that we can work on all of this together, because it is such a 
huge and urgent challenge.

                          STATE COLLABORATION

    Senator Kohl. Dr. Hamburg, I was happy, last August, that 
you were able to come to Wisconsin and visit with folks in my 
own State about food safety efforts, including people in 
Wisconsin government as well as academia. I believe it was a 
day that was well spent by you; and a major theme of that day, 
as you know, was collaboration.
    States inspect millions of food establishments each year, 
and investigate thousands of food-borne illness outbreaks, and 
they are really our first line of defense. You talk about 
collaboration often in your statement, specifically mentioning 
State liaisons and working with States to increase 
surveillance. Could you expand on this? What additional roles 
do you see the States playing, in collaboration with the 
Federal Government, in the integrated national food safety 
system?
    Dr. Hamburg. Well, thank you very much for that question 
and for the opportunity to say how much I enjoyed that visit, 
and that I've never eaten so much cheese and ice cream in one 
day before. But, it was a wonderful day, and I was told if I'd 
stayed for another, I would have had an equal amount of beer 
and sausage.
    But, you know, the partnership with States and localities 
is absolutely key to achieving our success in food safety, and 
I feel that very personally, having served for 6 years as New 
York City's health commissioner. I know, you know, that it's 
the States and localities that are on the ground from the time 
that a first case of food-borne illness appears until the last 
case goes away, and that the burden, in many ways, is borne at 
that level. And the opportunities to extend the reach of 
government and these important programs is so enhanced through 
collaboration.
    We see working with the States as key. We see strengthening 
training as an important part of that, we see strengthening 
laboratory capacity as an important part of that. We need to 
really improve the IT infrastructure for better communication 
of information--outbreak results, et cetera.
    And I really do think that--going back to some of your 
early questions and remarks--especially at this time of 
economic constraints--the need for partnership, the need to 
make sure that we're really utilizing the sources as best we 
can, and that we are sort of mutually supporting the whole 
spectrum of activities that are needed to support food safety--
and especially, to put a focus on prevention is absolutely key. 
So, this is a priority. We work well with the States on our 
food-borne outbreaks, but there's, I think, room to grow, in 
terms of strengthening those working relationships. And, of 
course, we work with our partner, the Centers for Disease 
Control and Prevention (CDC) and the Department of Agriculture, 
as we address important food-safety issues, as well. So, it's a 
very important Federal-State-local partnership.
    Senator Kohl. Thank you.
    Senator Brownback.
    Senator Brownback. Thanks, Chairman.
    If you're going to go to Wisconsin, you got to come to 
Kansas. We'll feed you bread and steaks. Really good.
    The other thing I would like to invite you there to see is 
University of Kansas' Pharmacy School is one of the top rated. 
It's rated top one, two, or three in the country. And they've 
developed this high-throughput model to test drugs at an early 
stage. And they're starting to work more and more in Second and 
Third World disease category areas for review, as well. And I 
think it'd be interesting to you to be able to see how they're 
doing this now, on trying to review these products at a much 
faster pace with the process that they're using.
    They're also at a point of being able to get a National 
Cancer Institute designation, with the Pharmacy School being 
one of the key aspects of it. So, it's drug delivery on cancers 
that they're working on. And I think it'd be an interesting 
thing for you to look at and to see as you think of ways to get 
more drugs to market--safe, efficaciously--but try to get this 
cost curve down, which is so important for us to be able to get 
some more of these categories covered. So, I hope you can--hope 
you come out and can take a look at that.

                       PARTNERSHIPS WITH ACADEME

    Dr. Hamburg. Well, I'd love to. And what you're describing, 
I think, fits very much with our strong new focus on advancing 
regulatory science, and that critically involves partnership 
with academe. We want to bring the best and the brightest minds 
to addressing these important issues of, how can we make the 
regulatory pathway more effective and efficient? How can we use 
the best possible science to help us rapidly identify 
products----
    Senator Brownback. Right.
    Dr. Hamburg [continuing]. With promise, and those that will 
fail, so that we can really focus our efforts on moving 
products through the pipeline to people who need them.
    So, I'd be delighted to come out there. A few other people 
in the Department of Health and Human Services that care about 
Kansas, too. So.
    Senator Brownback. Good, good. There's a secretary there 
that cares about it, yes.
    Thanks, Chairman.
    Senator Kohl. Thank you very much, Senator Brownback.
    Senator Pryor.
    Senator Pryor. No further questions, Mr. Chairman.
    Senator Kohl. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, I would just repeat the 
previous discussion we had, so I think I'll--we'll do this at 
another time, but----
    Dr. Hamburg. All right.
    Senator Dorgan [continuing]. Telephone or perhaps in 
person.

                           FOODBORNE ILLNESS

    Senator Kohl. Dr. Hamburg, one the outcomes you hope to 
achieve with fiscal year 2011 funding is to reduce the time it 
takes to detect and respond to outbreaks of food-borne illness. 
You talk about collaboration with CDC. State, local, and 
international partners have long felt that, after prevention, a 
quick response to any outbreak of food-borne illness is the 
most important way to prevent its spread.
    Several years ago, we actually put funding in this bill for 
the FDA to create rapid-response teams throughout the country 
in order to do that. I understand that you have increased the 
number of these teams--hopefully, because you believe that they 
have been successful. Could you talk a little bit more about 
these teams and other collaborative efforts you use to respond 
to food-borne illness outbreaks in this country?

                             RAPID RESPONSE

    Dr. Hamburg. Well, the rapid-response teams have been an 
important success. And thank you for your leadership in making 
those happen. We have nine rapid-response teams, at present, 
and I think they have demonstrated their value, in terms of, as 
you say, being able to rapidly identify a problem and respond.
    I think that, even beyond these nine teams, they provide a 
useful model as a strategy for how to achieve a more integrated 
approach to responding to outbreaks of food-borne illness, and 
the need to have a team that reflects a range of different 
disciplines and expertise so that you can understand, in a 
systematic way, the outbreak and what's needed to respond.
    In addition to those rapid-response teams, we have been 
able to put in place a network of laboratories to enhance our 
emergency response, because you need to identify the food 
source, and confirm it, in order to really pursue the 
investigation and the appropriate response. And so, that's been 
very, very important, as well.
    But, there--the elements of an integrated system, I think, 
are really starting to be put in place. You know, part of what 
I hope to be able to achieve is to continue to extend those 
important elements of our system--to institutionalize them, 
because, you know, one of the things that I have seen since 
I've been in this role is that the FDA has a sort of 
unfortunate history of sort of gearing up after there's been 
some kind of a crisis, and then the resources recede, and then 
there's another crisis, and we gear up again. I'd like to see 
us just continue with sustained support for key programs, such 
as the rapid-response teams, that do make a difference and 
matter to us all.

                             GENERIC DRUGS

    Senator Kohl. Dr. Hamburg, I've been a strong supporter of 
the generic drug program for many years now. As you know, we've 
consistently provided increased funds for the Office of Generic 
Drugs, and yet, because of the number of applications, which 
are rising so quickly, we can't keep up, and the backlog is 
continuing to rise.
    As you know, generic drugs provide an important opportunity 
to lower healthcare costs, which Senator Dorgan was referring 
to, and to which he is so much dedicated; and getting these 
drugs to market as quickly as possible is important, to respond 
to the high-priced drugs that we have on the market today.
    The budget includes a proposal for user fees for generic 
drugs that would result in hiring nearly 80 new reviewers and 
inspectors of generic drug applications. Have you been talking 
with the industry about these user fees, which they have 
opposed in the past? Can you give us an update on this? How 
soon can we hope to decrease, if not eliminate, the backlog in 
generic drug applications?
    Dr. Hamburg. Well, as you point out, generic drugs are 
very, very important in being able to get lower-priced, safe 
and effective drugs to people who need them. And thanks to the 
work of this subcommittee, you know, we have been able to 
increase our staffing and our opportunities in the Office of 
Generic Drugs and the review process. But, getting those 
generic user fees will make an enormous difference.
    I, just a few weeks ago, addressed the Generic 
Pharmaceutical Association's annual meeting, and had the 
opportunity to meet with and speak with their leadership. I am 
optimistic that this time we're going to be able to sit down 
and work something out, in terms of the generic drug user fees. 
I certainly hope so. I think, you know, this is one of those 
arenas where industry and FDA both recognize that the present 
situation is unacceptable, and not serving the American people 
well, and that, you know, together we have to find a meaningful 
and real solution. So, we are starting to roll up our sleeves, 
and we're going to be working hard on that. And, as I said, I 
am optimistic.
    Senator Kohl. What's your level of priority on this issue?

                               PRIORITIES

    Dr. Hamburg. On this issue, very high priority. Very high 
priority. You know, one of the challenges of this job is that 
I'm always juggling a lot of high-priority concerns, but this 
is very, very fundamental to what--we're trying to achieve with 
the President has set out to achieve through healthcare reform 
and other activities, what the Secretary wants to achieve--and 
certainly very fundamental to the mission of the FDA.
    Senator Kohl. Could you talk a little bit about some of the 
foreign offices that you've opened. I understand you have one 
in Jordan. What have these foreign offices accomplished, and 
how have they increased the level of food safety for American 
consumers? And are you intending to pursue that by opening 
additional foreign offices?

                            FOREIGN OFFICES

    Dr. Hamburg. We do have a number of foreign offices, at the 
present time. Actually, Jordan hasn't opened yet, but it's 
slated to open in the upcoming year. This is very important to 
extending our foreign presence and our ability to really ensure 
the safety of imports, both food and medical products. We, 
importantly, have offices in China and India now; we also have 
offices in Mexico, Costa Rica, and Chile. We have a presence in 
Brussels, to work with our counterparts in the European Union 
and in London, our counterpart agency, the EMEA, which is the 
European Union's FDA. We're planning an office in Jordan, as 
indicated, and also one in Parma, Italy, where EFSA, the 
European Union's food safety agency is located.
    And, you know, these offices are very, very important, 
working to extend our reach, in terms of international 
presence, working with sister regulatory agencies in those 
countries and in those regions, providing technical assistance 
to national regulatory authorities to try to boost regulatory 
capacity in other nations, that have less sophisticated systems 
than we do, so that we can have greater confidence that 
products being developed in those countries are being developed 
in accordance with international standards and with the 
standards that we would apply.
    So, I think, as we think about extending our global reach, 
we need, really, to have a very new approach, where our job 
isn't simply to inspect things at the border as they come over, 
but really to push back and try to assure safety; and again, 
you know, a preventive approach, to have standards and systems 
that are institutionalized, whatever country is producing the 
product, to enhance the safety of these products when they come 
into this country. And I think, you know, in many areas, we can 
provide an additional benefit by working with other countries 
to help them strengthen their regulatory capacity that will 
accrue to the people of those nations, as well as to the people 
of this country.
    Senator Kohl. Thank you.

                        MEDICAL DEVICE REGISTRY

    Could you talk a little bit about the medical device 
registry that you're working with?
    Dr. Hamburg. Well, this is an effort to try to really 
achieve a unique identifier system for medical devices, and a 
system that will allow us to link information about medical 
devices to electronic health records and to a overarching 
system where we can better monitor how medical devices are 
working in the real world, better track adverse events that may 
occur in relation to medical device use in the marketplace, 
and, if problems do emerge, to more swiftly and effectively 
respond.
    Senator Dorgan. All right.
    Well, I'd like to thank you so much for being here this 
morning.
    Dr. Hamburg. Thank you.
    Senator Kohl. There are multiple votes that are starting on 
the floor, so we'll have to wrap this up.
    You've done a great job.

                     ADDITIONAL COMMITTEE QUESTIONS

    We're going to keep the record open until next Tuesday, for 
any questions, and I hope that you will respond to them by 
April 13----
    Dr. Hamburg. Okay.
    Senator Kohl [continuing]. If you can.
    Dr. Hamburg. Certainly.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted by Senator Herb Kohl
                               pay costs
    Question. The amount proposed to keep up with inflation for all of 
FDA's salaries and expenses is just under $11,000,000, approximately 
$30,000,000 below what was requested last year, although staffing 
levels have increased.
    Will this amount fully fund all of the salary and benefit increases 
you will have to fund this year in order to retain staff?
    Answer. The $10,896,000 pay increase for FDA for fiscal year 2011 
is not intended to cover the cost of higher benefits and other 
increases in payroll costs other than the annual pay adjustment. In 
addition, although the $10,896,000 pay increase for FDA supports 
increased costs for the annual pay adjustment, it will not cover all of 
the FDA costs for the pay adjustment.
    Question. If not, how much is necessary, and where will the 
additional dollars come from?
    Answer. The Summary of Changes table on page 56 of the FDA fiscal 
year 2011 budget displays the fiscal year 2011 estimate for higher pay 
costs of $66,382,000. This amount is based on the most recent PDUFA pay 
analysis. The August 2009 pay analysis for PDUFA determined that the 
average change in FDA cost for compensation and benefits per FDA FTE 
was 5.54 percent. The table on page 56 also shows the fiscal year 2011 
pay change of $10,896,000 and the estimated pay absorption of 
$55,486,000. FDA will cover any shortfall during fiscal year 2011 due 
to the annual pay adjustment and other pay and benefit costs through a 
combination of strategies, including reducing operating costs and 
adjusting when it conducts hiring.
                               user fees
    Question. If food safety legislation is passed and includes 
authorization of user fees as proposed in the budget, will there be any 
discretionary start-up costs? If so, how much?
    Answer. The President's fiscal year 2011 budget includes 
$220,200,000 for user fees to register food facilities, conduct 
additional inspections of both domestic and foreign facilities, and 
conduct expanded import review and product sampling. In addition, the 
budget proposes $13,900,000 in food and feed reinspection fees and 
$4,400,000 for food and feed export certification services.
    If food safety legislation is passed and includes authorization of 
user fees as proposed in the budget, FDA could use existing resources 
to support the start up costs of setting up the new food safety related 
fees. Examples of startup activities include establishing a process to 
calculate the new food user fees, expanding FDA billings and 
collections capacity, and developing and implementing the new 
manufacturer and importer registration requirements In addition, FDA 
would enhance its capacity to hire the new employees funded by the food 
user fees by expanding FDA efforts to develop, classify, and recruit 
the new positions in the foods program and efficiently bring the new 
employees on board to FDA.
    Question. If legislation is passed to authorize any of the 
remaining proposed new user fees (including generic drugs), will 
additional budget authority be required to fund start-up costs?
    Answer. In this scenario FDA could use existing resources to 
support the start up costs of setting up both fees.
    Question. If a food safety bill isn't passed this year, and 
proposed registration fees can't be collected by FDA, how will this 
affect the agency? Do you have a contingency plan to allow FDA to keep 
moving forward without those additional dollars?
    Answer. For fiscal year 2011, FDA proposes an increase of 
$220,200,000 for food registration and inspection user fees. FDA also 
proposes an increase of $87,800,000 in budget authority to support 
transforming food safety priorities. If Congress does not enact 
legislation for fiscal year 2011 that contains food registration and 
inspection user fees, FDA will have to rely on the $87,800,000 budget 
authority increase to begin to transform food safety. Without the 
proposed fees, FDA will have a greatly reduced ability to implement the 
priorities announced by the President's Food Safety Working Group.
    The affect on FDA will be a significantly reduced ability to 
implement President Obama's vision of a new food safety system to 
protect the American public. For example, FDA will not be able to hire 
479 FTE to conduct important food safety priorities, including 99 
consumer safety officers to perform food safety inspections. The result 
will be a reduction of the following food inspection activities 
compared to the level supported with proposed user fees: 1,900 domestic 
food safety inspections, 150 foreign food inspections, 200 domestic 
tissue residue inspections for illegal drug residues in meat and 
poultry and 3,000 samples for analysis in FDA laboratories.
    Not receiving these fees will significantly undermine FDA's ability 
to implement the major activities to Transform Food Safety, beginning 
in fiscal year 2011. FDA will have a greatly reduced ability to set new 
standards for safety, expand laboratory capacity, pilot track and trace 
technology, strengthen import safety, improve safety data collection, 
conduct food risk analysis and most importantly establish a foundation 
for an integrated national food safety system focused on prevention.
                              food safety
    Question. I understand that FDA has entered into cooperative 
agreements with more than 30 countries to share inspection reports and 
other information, so if they discover a problem, we can be on the 
lookout for it here. How long have these agreements been in place and 
are you working with additional countries for more?
    Answer. FDA currently has 43 confidentiality arrangements with 39 
agencies, including the World Health Organization and specific 
Directorates General of the European Commission. These confidentiality 
arrangements involve 20 countries. The first arrangement was signed 
with our counterpart in Switzerland in September, 2003.
    Under these arrangements, FDA is not only able to share critical 
information with public health counterparts in other countries, but is 
also able to receive from our counterpart agencies important 
information about emerging safety and other issues and about foreign 
regulatory actions. These arrangements allow FDA to share otherwise 
non-public information, with the exception of trade secret and personal 
privacy information, with counterpart agencies. We believe we have 
arrangements now with most countries that are able to enter into and 
perform the tasks required in a confidentiality commitment, and which 
deal with public health and regulatory issues similar to ours. However, 
we continue to monitor our needs and add countries and agencies as the 
need arises. Most recently, we have added arrangements with counterpart 
agencies in Austria and Italy.
    Question. In Dr. Hamburg's statement, she mentioned the importance 
of expanding data collection and analysis and removing any barriers to 
full collaboration with State, local and foreign food safety efforts. 
What specific barriers was she referring to, and what proposals do you 
offer?
    Answer. Barriers to full collaboration with our State, local and 
foreign counterparts are predominantly barriers to data sharing between 
entities because of regulatory and technology constraints. To address 
these constraints, FDA has developed a new regulatory procedure 
designed to leverage more effectively the public health inspection data 
gathered by our State partners. Under this initiative, FDA will begin 
issuing Warning and Untitled Letters on the basis of State-gathered 
evidence. As a result of this enhanced cooperation, both FDA and our 
State partners will reap the benefits of translating State regulatory 
work directly into FDA regulatory action. FDA is also pleased that 
pending food safety legislation which passed the House of 
Representatives last year, H.R. 2749, would grants new legal 
authorities to allow more information sharing with our State, local and 
foreign counterparts.
    The technology constraints to data sharing are being addressed in 
working groups that are part of the Integrated National Food Safety 
System efforts. FDA, the United States Department of Agriculture, and 
the Centers for Disease Control and Prevention are participating in 
those discussions with the States to seek out opportunities to make 
their respective data systems interoperable.
                 united states pharmacopia partnership
    Question. Was FDA's recent partnership with the non-profit 
organization United States Pharmacopia to update standards for heparin 
and glycerin a successful one? Is this a model that can be replicated?
    Answer. Yes, the recent partnership with the United States 
Pharmacopia, also known as USP, has been successful. At the request of 
FDA, USP has revised the monographs for heparin, glycerin, and 
propylene glycol to test for known contaminants. FDA hopes to continue 
working with the USP to evaluate the current monograph system and 
determine methods to ensure that monographs are modernized as 
manufacturing changes or technology improves.
    Question. The FDA budget includes proposed funding to develop a 
standard for front of package labeling. Is FDA working with USDA in 
that effort?
    Answer. FDA has been coordinating with the United States Department 
of Agriculture (USDA) on front-of-pack labeling in numerous areas. Our 
coordination includes, design, research and science to ensure that the 
resulting symbols are noticeable, understandable and useable. The USDA 
has supported FDA's research by providing design support for the food 
label formats that are being tested by FDA. Additionally, USDA and FDA, 
with the Centers for Disease Control and Prevention (CDC), are 
supporting the Institute of Medicine, also known as IOM, on issues 
related to panel on front-of-pack labeling. Jointly, USDA and FDA 
provided input to the IOM panel on the Federal goals for front-of-pack 
labeling, information on existing front-of-pack symbols and direction 
for the IOM activities. FDA will continue to collaborate closely with 
USDA to ensure that the resulting front-of-pack symbols provide 
consumers with the information they need to consume healthy diets.
                          vaccine development
    Question. Recently, Secretary Sebelius announced a major evaluation 
of our efforts to respond to pandemics and other health threats, 
including vaccine development. What will FDA's role be in this, and 
what was learned from the H1N1 outbreak?
    Answer. A successful public-private partnership that preceded the 
2009 H1N1 influenza pandemic facilitated the availability and approval 
of safe and effective H1N1 vaccines in record time. This success 
reflects years of preparedness efforts and a significant investment by 
the Federal Government to counter the pandemic threat.
    However, we might not have been so fortunate if the public health 
emergency resulted from a pathogen other than influenza. Currently the 
Administration is conducting a comprehensive review of the HHS medical 
countermeasures development and distribution process, and FDA is 
actively working with others in HHS to provide input to this review. 
There is increasing awareness that the current approaches to developing 
and evaluating vaccines, diagnostics and other treatments needed to 
respond to the range of potential public health threats should take 
advantage of the latest scientific innovations. Reaping the benefits of 
our Nation's investment in biomedical research requires a 
complementary, strategic investment in regulatory science. FDA plays a 
central role to advance this type of science, which focuses on the 
tools to properly assess the safety, efficacy, and quality of medical 
products and to get them from concept to people efficiently. In fiscal 
year 2011, FDA seeks to enhance its own critically needed scientific 
infrastructure and augment its scientific collaborations to advance 
regulatory science, and to continue collaborating with our Federal 
partners and industry to transform public health preparedness.
                     prescription drug advertising
    Question. I have become increasingly concerned with the lack of 
standards regarding direct-to-consumer advertising of prescription 
drugs and medical devices via the Internet. Specifically, I am 
concerned that the limited amount of drug information provided in 
advertisements on social networking forums or ``microblogs'' may pose a 
risk to consumers. I am hopeful that increased oversight of this issue 
will make Internet-based advertising safer and more reliable, but 
remain concerned about any attempt to reduce the safety and labeling 
information that consumers receive.
    What restrictions does FDA currently place on Internet direct-to-
consumer advertising by drug and medical device manufacturers? What 
information must be included in ads or ``microblogs'' about advertised 
treatments?
    Answer. FDA's regulates all prescription drug promotion that drug 
companies issue or caused to be issued. FDA regulations require that 
such promotion be accurate, non-misleading, and present balanced 
information about both the risks and the benefits of the advertised 
product. FDA regulations do not specifically address Internet promotion 
of prescription drugs separately from the other types of promotion, but 
we have been regulating Internet promotion since drug companies first 
began using this medium. For example, we have sent numerous enforcement 
letters citing promotion on the Internet that failed to comply with the 
regulations, including promotion on company brand Web sites as well as 
promotion on search engine sites such as Google, third party sites such 
as cnn.com, and on newer social media sites such as YouTube.
    FDA regulates promotional labeling of all medical devices but only 
the advertising of restricted medical devices. FDA regulations do not 
specifically address Internet promotional labeling or advertising for 
medical devices, as applicable, separately from other types of 
promotion or advertising. FDA has sent numerous enforcement letters 
based on promotional labeling, where statements made are not consistent 
with the FDA approved or cleared labeling, including statements about 
the intended use of the device. FDA has also sent enforcement letters 
in situations where it has considered statements made in advertisements 
for medical devices to be evidence of an intended use for which the 
device has not been approved or cleared.
    Question. Are you concerned that incomplete drug advertising 
information on social networking sites like Facebook or Twitter may 
pose a risk to consumers, especially if the FDA logo is included in the 
ad?
    Answer. Yes, we are concerned about drug advertising on social 
network sites and are committed to ensuring that prescription drug 
promotion accurately conveys product risks and benefits, regardless of 
the medium used for such promotion. We are also concerned about FDA's 
logo being used in any drug promotion. FDA held a Part 15 Public 
Hearing in November 2009 to obtain public input on ``Promotion of FDA-
Regulated Medical Products Using the Internet and Social Media Tools.'' 
Social media tools, as well as their expansion to applications such as 
mobile technology, have raised questions regarding how to apply 
existing regulations to promotion in these newer media. We are 
currently evaluating the information and data obtained during our Part 
15 Hearing and in the related docket and plan to ensure that FDA has 
optimal policies in place for oversight of drug promotion using social 
networking tools.
    Question. Does the Division of Drug Marketing, Advertising, and 
Communications have adequate resources to properly oversee this type of 
marketing? If not, what additional resources are necessary?
    Answer. The Division of Drug Marketing, Advertising, and 
Communications, also known as DDMAC, has approximately 53 full-time 
employees. Currently, there are 24 staff in DDMAC focused on the review 
of direct-to-consumer advertising, including 13 reviewers. To get a 
sense of their workload, we note that DDMAC received 76,631 promotional 
pieces at the time of their first use during calendar year 2009. Of 
these, 15,998 were consumer-directed promotional pieces, which includes 
both direct-to-consumer ads and DTC promotional labeling pieces. 
Another 14,970 were ``mixed'' pieces. These are pieces directed to both 
consumer and professional audiences, which are typically Internet-based 
materials intended for all audiences. DDMAC can only review a fraction 
of these promotions. To most effectively address the increasing number 
of prescription drug promotional pieces that are produced each year, 
including the extremely rapid growth of Internet promotion, FDA has 
adopted a comprehensive risk-based strategy for triaging its 
substantial workload. This risk-based approach is designed to have the 
most impact in addressing misleading promotion and fulfill its goal of 
protecting consumers and healthcare professionals from misleading 
promotion of medical products.
                              antibiotics
    Question. The Agriculture Appropriations Subcommittee last year 
encouraged FDA's Center for Veterinary Medicine to conduct a focused 
reassessment of Guidance Document No. 152 to review and update the 
current ranking of antibiotics according to their importance in human 
medicine as a framework for approving antibiotics for use in animals. 
What is the status of this reassessment?
    Answer. FDA intends to update its guidance on the ``Potential 
ranking of antimicrobial drugs/drug classes based on identified 
relevant factors'' included in Guidance For Industry Number 152, 
``Evaluating the Safety of Antimicrobial New Animal Drugs With Regard 
to Their Microbiological Effects on Bacteria of Human Health Concern.'' 
At this time, FDA is planning to seek expert advice and public input on 
any updates to this existing drug ranking.
    Question. What is FDA's timeframe for issuing regulations to 
implement the animal antibiotic use data collection provision that was 
included in the Animal Drug User Fee Act (ADUFA)?
    Answer. Section 105 of the Animal Drug User Fee Amendments of 2008, 
also known as ADUFA, established additional requirements regarding the 
submission of sales and distribution data for antimicrobial active 
ingredients in new animal drugs approved for use in food-producing 
animals. The sponsors of such products are required by statute to 
submit the first report including this additional information by March 
31, 2010. The issuance of regulations is not required to implement the 
new ADUFA Section 105 requirements. However, independent of 
implementing these new statutory requirements, FDA intends to pursue 
rulemaking in the near future to incorporate the new Section 105 
requirements into the existing regulations regarding the preparation 
and submission of records and reports for new animal drugs.
    Question. The FDA has been authorized for several years to review 
the non-therapeutic use of antibiotics in farms. In 2004 letters were 
sent from the FDA to manufacturers of drugs requesting more information 
related to resistance, but there is uncertainty regarding whether FDA 
received a response. To date, it appears FDA is still attempting to 
gather data on this issue.
    At what point will this data gathering be completed? Will there be 
a point prior to that when FDA will have enough data to make an 
assessment?
    Answer. FDA continues to be concerned about the use of medically 
important antimicrobial drugs, antimicrobial drugs that are important 
for therapeutic use in humans, in food-producing animals for non-
therapeutic, production purposes. FDA does not believe that it is 
judicious to use these important drugs for such purposes in animals. 
Therefore, FDA is developing a strategy to address this important 
public health issue. Moving forward with the strategy to address this 
important public health issue is a priority for FDA. FDA is completing 
an initial review of the issue and intends to publish a document 
describing its current thinking in the near future.
                         regulation of tobacco
    Question. Recently the FDA began implementation of the Family 
Smoking Prevention and Tobacco Control Act. How is FDA working with 
interested parties, including the tobacco industry, consumer groups, 
and other agencies that have jurisdiction over tobacco products, in 
developing and implementing the regulatory process to ensure 
compliance?
    Answer. FDA, through its Center for Tobacco Products, or CTP, is 
working in a number of ways with interested parties to implement the 
Family Smoking Prevention and Tobacco Control Act, or more simply, the 
Tobacco Control Act. In July 2009, FDA opened a public docket seeking 
input from the public and various stakeholders on the implementation of 
the new statute and subsequently extended the comment period from 
September 29, 2009 to December 28, 2009. Since then, public dockets 
have been opened for comment on a number of issues, including marketing 
descriptors to convey modified risk and product registration and 
labeling requirements.
    FDA has developed a CTP Web site, located at www.fda.gov/
TobaccoProducts. This Web site contains information about CTP's efforts 
to implement the Tobacco Control Act, a list of frequently asked 
questions and answers about the Tobacco Control Act, tobacco-related 
regulatory documents such as guidance documents and regulations, 
contact information, and other information about tobacco use and 
prevention.
    In early August 2009, the Assistant Secretary for Health, the FDA 
Commissioner, and the Director of the Centers for Disease Control and 
Prevention hosted a conference call with more than 200 State and local 
officials to discuss collaboration in carrying out the Tobacco Control 
Act.
    In September 2009, FDA held a series of listening sessions with a 
variety of stakeholders, including national tobacco control groups, 
State and local government organizations, Federal partners, and tobacco 
manufacturers, distributors, importers, and retailers to hear comments 
and concerns regarding implementation of the Tobacco Control Act.
    In October and November 2009, FDA held two listening sessions to 
provide industry additional opportunities to make comments and raise 
concerns about the registration, product listing, and ingredient 
submission requirements.
    Question. As of June 22, tobacco packaging will no longer be 
allowed to include phrases such as ``Light'' and ``Ultra-Light''. When 
will final guidance on this be issued to ensure maximum compliance?
    Answer. Section 911 of the Tobacco Control Act prohibits the use of 
the descriptors ``light,'' ``mild,'' or ``low'' in the label, labeling, 
or advertising of tobacco products without an FDA order in effect. This 
statutory provision takes effect on June 22, 2010. In advance of the 
effective date of this prohibition, FDA intends to conduct outreach to 
retailers and manufacturers, reminding them of their responsibilities 
under the statute. FDA also plans to initiate a public education effort 
to increase public understanding about the prohibition of these terms. 
Once this provision takes effect, FDA intends to enforce it through a 
variety of means.
    Section 911 also prohibits the use of ``similar descriptors,'' such 
as descriptors similar to ``light,'' ``mild,'' or ``low,'' without an 
FDA order in effect. FDA opened a public docket in January 2010 to 
solicit public input on how to define ``similar descriptors,'' 
specifically requesting input on the use of numbers, colors, healthy 
images and terms like ``smooth,'' ``silver,'' and ``natural.'' FDA is 
in the process of assessing the input received from the public, 
including comments from tobacco control advocacy organizations and 
tobacco companies and trade organizations.
                     standards of identity for milk
    Question. Please provide an update on FDA's response to a petition 
filed last year regarding amending the standards of identity for milk 
as they relate to artificial sweeteners.
    Answer. FDA received a citizen petition from the International 
Dairy Foods Association, also known as IDFA, and the National Milk 
Producers Federation dated March 16, 2009. The petitioners requested 
FDA to amend the standard of identity for milk in 21 CFR 131.110(c), to 
provide for the use of any safe and suitable sweetener in the optional 
characterizing flavoring ingredients and to similarly amend 17 other 
standards of identity for milk and cream products, including yogurts. 
Such a change to the milk standard would permit the use of non-
nutritive sweeteners in flavored standardized milk. Currently, the 
standard of identity for milk provides for the use of only nutritive 
sweeteners under optional ingredients in 21 CFR 131.110(c)(2) in the 
characterizing flavor for flavored milks. FDA issued an interim 
response to IDFA on August 24, 2009 explaining that FDA had not reached 
a final decision on the petition due to other priorities. FDA is 
currently considering how it will respond to the petition.
                       state contract inspections
    Question. During fiscal year 2009, what percentage of food and 
medical product inspections were carried out by State inspectors 
through a contract?
    Answer. In fiscal year 2009, State inspectors carried out 23,913 
unique food and medical product establishment inspections. These State 
contract inspections total 62 percent of domestic inspections carried 
out by FDA and the States.
                              state audits
    Question. Funding was provided in fiscal year 2010 to enhance FDA's 
audit program for State inspection programs. Please provide an update 
on how this funding was used, and whether State program audits have 
increased.
    Answer. Of the 26 States currently enrolled in the Manufactured 
Food Regulatory Program Standards, also known as MFRPS, FDA completed 
program audits of five States during fiscal year 2009. These States are 
Missouri, North Carolina, New York, Oregon and Wisconsin. FDA expects 
to complete program audits in Massachusetts, Florida, Minnesota, 
Michigan, California and Washington during fiscal year 2010. These 
audits include a review of the States' self-assessment of their own 
programs against the standards described in FDA's MFRPS. The audits 
focus on a review of all manufacturing inspections accomplished by the 
States--both FDA contract and routine State inspections. The audits 
include reviews of the States' regulatory foundation, education and 
training files maintained for field investigators, inspection reports, 
self-audit procedures, compliance and enforcement actions, response and 
preparedness within the State, sample collection procedures, community 
outreach and the program's relationship with a regulatory lab.
    In addition to creating the infrastructure to perform robust 
program audits and improve our performance in auditing State 
inspections performed under FDA contract, FDA is also creating the 
critical infrastructure to provide support, guidance and technical 
assistance to our State regulatory partners to better enable them to 
establish and sustain conformance to the MFRPS. The funding provided by 
Congress is being fully and effectively used to support our States' 
successful implementation of the MFRPS, a key component of an 
effective, integrated national food safety system.
                                 ______
                                 
             Question Submitted by Senator Byron L. Dorgan
                           drug reimportation
    Question. Please provide us with your timeline for setting up the 
process for drug reimportation.
    Answer. The Administration supports a program to allow Americans to 
buy safe and effective drugs from other countries. The Administration 
has included $5,000,000 in our fiscal year 2010 and 2011 budget 
requests for the Food and Drug Administration to begin working with 
various stakeholders to develop policy options related to drug 
importation and addressing some of the implementation challenges such 
as improving supply chain security.
    FDA is currently conducting assessments of different drug 
importation approaches to inform legislative proposals and identify 
initial infrastructure needed to implement a program that assures 
patient safety. This work includes, among other things, conducting an 
economic and implementation analysis, evaluating policy options, 
identifying and enhancing IT infrastructure associated with drug 
importation, identifying and developing training programs, increasing 
sampling and laboratory capacity, enhancing collaboration with 
regulatory counterparts, and developing track and trace standards for 
supply chain security. Although we have not established a specific 
timeline for setting up the process for drug importation program we 
remain committed to ensuring that Americans have access to safe and 
effective drugs.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
    Question. Some individuals and interest groups have raised concerns 
that S. 510, the FDA Food Safety Modernization Act, expands the 
jurisdiction of the Food and Drug Administration into areas 
traditionally overseen by the United States Department of Agriculture. 
Please provide the FDA perspective on how, if at all, legislation would 
expand FDA jurisdiction into areas traditionally overseen by the USDA?
    Answer. FDA believes that these concerns are unfounded. The 
legislation makes it clear that the new provisions do not affect USDA's 
jurisdiction and, in many places, explicitly requires FDA consultation 
with USDA. With regard to new requirements, such as the produce safety 
standards, FDA is already working closely with USDA as we develop those 
standards. USDA also will be involved in the implementation of such 
standards, including an extensive outreach program to help the affected 
industry comply with the new standards. FDA recognizes the importance 
of working with USDA, with its expertise in agricultural production and 
its significant workforce, to help inform and implement the standards. 
FDA and USDA also are working together to ensure that our produce 
safety and quality activities are complementary and consistent and take 
into account the diversity of farming operations.
    Question. The adverse event reporting (AER) system for dietary 
supplements created by the Dietary Supplement and Nonprescription Drug 
Consumer Protection Act (Public Law 109-462) has been in effect for 
over 2 years. The intent of the AER system was to assist FDA in 
enhancing its surveillance capability by authorizing it to collect data 
regarding illnesses related to the consumption of dietary supplements. 
How has data collected through the AER system been used by FDA to 
identify meaningful trends and aid in recalls?
    Answer. The implementation of Public Law 109-462 resulted in a 
substantial increase in the number of adverse event reports about 
dietary supplements submitted to FDA. Additionally, the law mandated 
that product labels accompany mandatory serious adverse event reports. 
These factors have assisted FDA in two ways. First, the higher number 
of reports received enables FDA's clinical reviewers and statisticians 
to better detect unusual reporting patterns from clusters of adverse 
event reports, possibly providing evidence to better determine 
associations between products and adverse health effects. Second, 
product labels allow for better characterization of the products and 
their ingredients than may result from voluntary reports--typically 
from consumers--where the product may not be as clearly characterized 
and a label may not be included. Better description and 
characterization of the product helps FDA target specific products in 
support of FDA enforcement efforts. Analysis of adverse event reports, 
for example, led to FDA's warning to consumers and healthcare 
professionals about certain Hydroxycut-branded products because of 
serious reports of liver disease. The company producing the affected 
Hydroxycut-branded products--Iovate Health Sciences U.S.A., Inc.--
voluntarily recalled those products in 2009.
    Question. In January 2009, GAO issued a report on FDA's oversight 
of dietary supplements. In that report, GAO recommended that FDA issue 
guidance to clarify when an ingredient is considered a new dietary 
ingredient, what evidence is needed to document the safety of new 
dietary ingredients, and appropriate methods for establishing 
ingredient identity. In its comments on this recommendation, FDA said 
that it had developed draft guidance which was undergoing internal 
review. Can you provide me on an update on the status of this guidance?
    Answer. FDA is developing a draft New Dietary Ingredient, also 
known as NDI, guidance that is under internal FDA review. We expect the 
draft guidance to discuss, among other issues, when FDA considers an 
ingredient to be an NDI, FDA's current thinking on the evidence needed 
to document the safety of NDIs, and recommendations on appropriate 
methods for establishing the identity and composition of NDIs.
    In addition, FDA is developing a proposed rule to better define 
what a manufacturer or distributor must include in a NDI notification. 
Establishing more precisely the information that must be included in an 
NDI notification would improve the quality of the notifications being 
submitted to FDA and would expedite the review of NDI notifications. 
The amendments FDA intends to propose would also enable staff to 
evaluate the safety of new dietary ingredients in a more efficient 
manner with its limited resources. Both the draft guidance and the 
proposed rule are currently under review within FDA and appear to raise 
a number of complex issues.
    Question. There have been numerous notification delays that 
resulted in schools unknowingly serving beef, peanut products and 
canned vegetables that have been recalled. For the last 5 years, the 
Food and Drug Administration and the United States Department of 
Agriculture have been drafting a Memorandum of Understanding related to 
the safety of food served in schools. The Memorandum of Understanding 
would set forth detailed notification procedures during the FDA's 
investigation of commodities intended for school meal programs. Have 
the two agencies finalized this memorandum of understanding? If not, 
what is causing the delay and what is the anticipated timeline for 
doing so?
    Answer. FDA and the Food and Nutrition Service, also known as FNS, 
has collaborated with FDA to develop a Memorandum of Agreement, or MOA. 
Specifically, the MOA is between the Department of Health and Human 
Services, FDA and the following agencies within the United States 
Department of Agriculture: the Agricultural Marketing Service, FNS, and 
the Farm Service Agency. It is intended to strengthen and facilitate 
the exchange of information among the participating agencies during 
investigations and recalls that may involve USDA commodities such as 
those offered through the National School Lunch Program, and the Woman, 
Infants, and Children (WIC) Program.
    The basic framework of the Memorandum of Understanding is complete 
and it is under review by the agencies. Final clearance will follow 
with a targeted completion date of summer 2010.
    Question. In June 2010, several provisions of the Family Smoking 
Prevention and Tobacco Control Act (Public Law 111-31) will take 
effect, including new restrictions on cigarette advertising; new 
stronger warning labels for smokeless tobacco products; and a 
prohibition of terms such as ``light,'' ``low,'' and ``mild'' on 
cigarettes and smokeless tobacco products. How is FDA planning to 
educate the public about these changes, and ensure that industry 
complies with both the letter and spirit of the law?
    Answer. Concurrent with the reissuance of the 1996 Final Rule, 
``Regulations Restricting the Sale and Distribution of Cigarettes and 
Smokeless Tobacco to Protect Children and Adolescents,'' published in 
the Federal Register on March 19, 2010, FDA began educating the public. 
FDA has made available a variety of materials directed to retailers and 
consumers about the regulations. This effort includes information about 
what the regulations require, how to comply with them, and how to 
report violations. A dedicated Web page, www.fda.gov/
protectingkidsfromtobacco, was created and will be updated with the 
latest information. As of now, it includes fact sheets to both 
retailers and consumers, a letter to retailers, and frequently asked 
questions. FDA has also used social media, such as YouTube, badges, and 
buttons to reach out to consumers. Additionally, FDA has established a 
call center to respond to questions from the public.
    The Tobacco Control Act also directs the Secretary to contract with 
the States and Territories, to the extent feasible, to carry out 
tobacco retailer inspections and investigations to enforce the 
provisions of the reissued 1996 Rule. The goal is to enter into 
contracts with 75 percent of States and territories in fiscal year 
2011.
    In advance of the effective date of the provision prohibiting the 
use of terms such as ``light,'' ``low,'' or ``mild,'' FDA intends to 
conduct outreach to retailers and manufacturers, reminding them of 
their responsibilities under the statute. FDA also plans to initiate a 
public education effort to increase public understanding about the 
prohibition of these terms.
    FDA is currently assessing what additional public education and 
outreach efforts would be appropriate in order to adequately inform the 
public when these provisions become effective on June 22, 2010.
                                 ______
                                 
              Questions Submitted by Senator Arlen Specter
    Question. Last year, the FDA responded to the H1N1 threat with 
appropriate speed and while the process was not without challenges it 
was, in general, fast and efficient. I am concerned that this same 
urgency is not being applied to medical countermeasures being developed 
to prevent or mitigate threats that have been identified as critical 
national security priorities but have not yet materialized. The release 
of biological, chemical and radiological agents or the detonation of a 
nuclear device will come with little or no warning, we as a nation must 
have already developed and stockpiled safe and effective 
countermeasures if we are to respond to these types of threats. Does 
the FDA have the resources that it needs to prioritize responses to 
regulatory inquires and submissions from companies that are under 
contract with the Federal Government to develop products the United 
States has identified as critical unmet needs?
    Answer. Currently the Administration is conducting a comprehensive 
review of the HHS medical countermeasures development and distribution 
process, which has been a coordinated interagency effort by HHS' 
Assistant Secretary for Preparedness and Response and includes the 
Centers for Disease Control and Prevention, the National Institutes of 
Health, and FDA. As part of this review, there have been discussions 
about the U.S. Government's ability to ensure that medical 
countermeasure development is appropriately prioritized and resourced, 
and whether FDA has the resources and staff to robustly engage with 
partners throughout a product's developmental life-cycle. The 
Administration will be briefing Congress of its findings and 
recommendations once this comprehensive review is complete. Using 
existing resources and within the applicable regulatory framework, FDA 
prioritizes regulatory inquiries and submissions from sponsors and U.S. 
Government partners that are engaged in developing products that have 
been identified as meeting a critical unmet need.
    Question. How extensively has the leadership of the FDA and the 
staff responsible for reviewing medical countermeasures been briefed on 
the national security threat assessments for CBRN agents? How many FDA 
employees that are involved in the review of medical countermeasures 
being developed under contract with BARDA, NIH or DOD have the 
appropriate security clearances necessary to allow them to receive 
classified threat briefings?
    Answer. FDA leadership has been briefed and is very aware of the 
national security threat assessments for CBRN agents. FDA leadership is 
briefed by the HHS Office of Security and Strategic Information, and 
FDA has an employee assigned to that Office. In addition, FDA's Office 
of Criminal Investigations, within the Office of Regulatory Affairs, 
works with the Intelligence Community to obtain information and briefs 
FDA's leadership as needed. Across FDA's three centers that review 
medical countermeasure products, 106 employees that have been or in the 
future may be involved in medical countermeasure-related reviews have 
received special clearances to review classified documents related to 
product review submissions.
                                 ______
                                 
              Questions Submitted by Senator Sam Brownback
                               access act
    Question. Dr. Hamburg, during our meeting last week we discussed a 
bill I've been working on since 2005 to create a new conditional 
approval system for drugs, biological products, and devices that is 
responsive to the needs of seriously ill patients. This effort, called 
the Access, Compassion, Care and Ethics for Seriously-ill Patients Act, 
or ACCESS Act, offers a new compassionate investigational approval 
system for treatments showing efficacy during clinical trials, for use 
by the seriously ill patient population. Under this new approval 
system, seriously ill patients who have exhausted all alternatives and 
are seeking new treatment options would be offered access to these 
treatments with the consent of their physician. I plan to reintroduce 
the bill during this session.
    After our meeting, my staff provided a copy of this bill to FDA. 
Have you had a chance to review this legislation? Do you have any 
thoughts on the bill?
    Answer. I appreciate your interest in providing treatments to 
seriously ill patients and am committed to working with you on this 
important issue. We recognize the importance of providing access to 
patients who may benefit from an investigational drug and of providing 
seriously ill patients with a measure of autonomy over their healthcare 
options. My staff is continually engaged in efforts to increase the 
awareness of clinicians and patients about FDA's expanded access 
mechanisms. We are currently in the process of reviewing the 
legislation your staff provided and will give you feedback on the bill 
as soon as our review is complete.
    Question. Would you be willing to work with me to find common 
ground on this issue?
    Answer. I welcome the opportunity to work with you to find common 
ground on this issue. Once we have reviewed your bill, my staff will 
contact your staff to determine how we might continue to work together 
on this important issue.
                        cost of developing drugs
    Question. In March 2004, FDA released a report, called ``Innovation 
or Stagnation: Challenge and Opportunity on the Critical Path to New 
Medical Products'', that addressed the challenges facing the drug 
industry in bringing a new medical product to market. In this report, 
FDA raised concerns about the high cost of product development, 
estimated in the report to be $800,000,000 to $1,700,000,000 per 
product, and the high failure rate of products before they reach FDA 
for review. This was particularly concerning to the agency given the 
government and private sector's increased investment in research and 
development over the same period of time.
    It has been 6 years since FDA released this report and launched a 
new initiative to address this problem. What progress has the agency 
made in its quest to reduce the cost of drug development and provide 
more certainty that products will be viable beyond the research phase?
    Answer. Development of a drug takes many years, so it is too early 
to provide any specific metrics on cost and viability. However, I can 
certainly report progress in many Critical Path areas, some of which 
will have serious cost impacts. We have a series of fairly advanced 
efforts under way that will ultimately make the collection, submission, 
and management of the data FDA receives totally electronic. This effort 
will bring significant cost savings for industry and FDA because it 
will make the collection and analysis of this data much more efficient.
    An especially notable Critical Path success is the enormous support 
it has among industry, academia, and the public. There has been 
considerable enthusiasm to partner with us on Critical Path projects. 
In 2008 alone, Critical Path collaborations involved 84 government 
agencies, universities, industry leaders, and patient groups from 28 
States and 5 countries on a raft of groundbreaking research projects. 
Critical Path has also stimulated the creation of numerous 
collaborations that are leveraging outside resources, with FDA serving 
in an advisory capacity. These collaborations are reporting substantial 
successes as well.
    We are also making great strides in personalizing therapy. 
Increasingly, pharmaceutical developers are using pharmacogenetics and 
genomics data in drug development and submitting more of this type of 
data to FDA as part of their marketing applications. Since 2008, we 
have seen a 250 percent increase in the submission of genomic data 
included in marketing applications. To modernize our review process, 
FDA created a Genomics Group that uses an integrated review process, 
including discussions of genomics, pharmacometrics, and clinical 
pharmacology in the scoping meetings for all application submissions, 
including pediatric supplements. We are learning more and more about 
how to personalize treatments, making them safer and more effective.
                          generic drug review
    Question. Since the fiscal year 2008 appropriation, funding for the 
Office of Generic Drugs has increased by 23 percent. However, during 
this same time period, the median approval time for generic drugs has 
gone from 18.89 months to more than 26 months. How do you explain this 
decline in performance?
    Answer. The number of new generic drug applications submitted to 
FDA remains at a high rate of over 800 per year. Increased resources 
recently provided by Congress enabled FDA to hire more scientific 
review staff members. As the complexity of applications increases, 
however, more time is required for review and approval of each 
application. There are a significant number of pending applications. 
However, in most instances, applications are approved when relevant 
patents or exclusivities expire. Even if the currently pending 
applications were otherwise approvable, over one-half of them could not 
be approved immediately because they are currently blocked by patents 
or exclusivities. Further, some applications are of lower quality and 
these take longer to review. In addition, the total time to approval 
includes time that the application is with the firm after the 
application has been reviewed and deficiencies have been communicated 
for the firm to address. Sometimes the firm does not respond to the 
deficiencies in a timely manner because of the firm's own priorities or 
perhaps lack of resources to address the deficiencies.
                         third party inspection
    Question. Many States have implemented ``inspect the inspector'' 
programs to help find efficiencies in their inspection budgets. FDA 
calls this third party inspection, and I understand that the agency has 
been looking into this kind of inspection program to augment FDA's 
foreign food inspections. Would you update me on FDA's efforts in this 
area?
    Answer. In fiscal year 2009, FDA initiated a pilot program for 
aquacultured shrimp, under which it has audited more than 56 shrimp 
processors in six countries in an effort to evaluate the utility of 
third party programs to prevent problems with shrimp before export to 
the United States. Under the pilot, third parties will be certifying 
compliance of aquaculture shrimp with FDA's Seafood Hazard Analysis 
Critical Control Point (HACCP) regulations. If FDA finds that it can 
have confidence in such certifications, it may alter the import 
monitoring for those processors, freeing up resources to focus on 
higher risk processors.
    FDA has been working with foreign regulators and third party 
certification bodies to enhance monitoring and oversight of processing 
sites. FDA expects that these activities will enhance FDA's regulatory 
oversight by leveraging resources and a shared mission with foreign 
regulators. These activities also have an educational outreach 
component that promotes foreign industry standards that are in line 
with FDA's expectations for imported food. In addition, the evaluation 
of the aquacultured shrimp pilot will provide valuable insight into the 
feasibility of using third party certification programs for foreign 
inspections.
    Question. Have you considered a third party inspection program for 
domestic food inspections?
    Answer. FDA is currently in the evaluation stage of our Voluntary 
third party certification pilot for imported aquacultured shrimp pilot. 
The goal of the shrimp pilot is to assist FDA to determine the 
infrastructure needs for managing third party systems and the process 
for evaluating third party certification programs, including evaluating 
the utility and feasibility of third party voluntary programs.
    The pilot evaluated six participants--U.S. Government agency, 
foreign government, and private certification bodies--using the 
Guidance for Voluntary Third Party Certification Programs, published in 
the Federal Register in January 2009. The guidance was drafted in 
alignment with other existing benchmark attributes such as the 
Manufactured Food Regulatory Program Standards to ensure the same 
attributes are used for all third parties--States, foreign governments, 
and private certification bodies. The evaluation of the aquacultured 
shrimp pilot will provide valuable insight into the feasibility of 
using third party certification programs for both foreign and domestic 
inspections.
    In the domestic arena, we are working with our State partners to 
build an integrated food safety system. This includes developing 
standards and training and auditing to those standards. With this 
approach, Federal and State inspections, sample collections and 
analyses will support an integrated food safety system that will result 
in more coordinated coverage of the domestic food industry.
                         medical product safety
    Question. In December 2009, FDA notified healthcare facilities to 
discontinue the use of or transition away from using the STERIS System 
1 sterilization device. The agency described this product as 
``misbranded and adulterated'' in this notice, but proceeded to allow 
the product to be in use in healthcare facilities for over a year and a 
half. Is it common procedure for the agency to notify healthcare 
facilities of safety concerns and then allow the product to be in use 
for a long period of time?
    Answer. The decision to allow the continued use of a product of 
concern is determined by several factors, including the availability 
and cost of alternate products and the time required for providers to 
safely put these alternative products in place. Other factors include 
the impact that a delay of treatment caused by transitioning to 
alternative products man have on patients.
    For some devices, the immediate removal of the device may result in 
a device shortage or cause a delay in necessary medical procedures. In 
these situations, FDA works with distributors and healthcare providers 
to avoid shortages that might result in postponement of care.
    FDA performed a shortage assessment for the STERIS System 1 
Processor, also known as SS1, and determined that a sudden removal of 
the SS1 could disrupt operations at healthcare facilities, and that the 
risks of such a disruption would outweigh the risk of a measured 
transition to legally marketed alternative products.
    FDA provided general information to healthcare facilities on steps 
to mitigate the risk associated with continued use of the SS1, 
including a document identifying FDA-cleared products available to 
sterilize or disinfect medical devices.
    Question. Are healthcare providers required to notify patients that 
they are using a product that FDA has asked them to discontinue?
    Answer. Unless healthcare providers are serving as medical device 
manufacturers or distributors, which would fall outside the practice of 
medicine, FDA typically does not ask them to notify patients that they 
are using product that FDA has asked them to discontinue. FDA 
communicates regularly with patients and healthcare providers about 
products of concern. For example, FDA has made a broad range of 
information available on its Web site that details FDA concerns with 
the STERIS System 1 Processor. FDA also looks to device manufacturers 
and distributors to provide notifications about their products to 
healthcare providers and patients.
                             critical path
    Question. I have followed with a great deal of interest the 
agency's critical path public private partnerships that were authorized 
in the Food and Drug Administration Amendments Act. I have been 
particularly impressed with how the Critical Path Institute has been 
able to leverage its relatively modest partnership funding from FDA by 
bringing additional funding from Arizona-based foundations and in-kind 
effort from the pharmaceutical industry to improve the methods used to 
test new drugs. I recently learned that the Critical Path Institute has 
been able to engage the Gates Foundation to work with the FDA on 
developing Tuberculosis drug combinations. As you know, the fiscal year 
2010 appropriations bill included $2,000,000 to address this serious 
global health threat. What do you think can be accomplished with the 
Tuberculosis funding and how does it fit into your priorities for 
regulatory science?
    Answer. The tuberculosis funding is a critical first step in 
generating a program to accelerate the development of products for the 
diagnosis, treatment, and prevention of tuberculosis. The effort we 
envision is completely in line with FDA's new regulatory science 
initiative, planned for fiscal year 2011, which is designed to get 
better products to patients faster and more safely.
    Under this initiative, FDA seeks to rebuild its own critically 
needed scientific infrastructure and capacity to meet the demands of 
the 21st Century and to enhance its scientific collaborations. We will 
use the TB funding to establish partnerships that can leverage the 
relevant expertise and resources to develop TB diagnostics and 
biomarkers, the lack of which is a critical obstacle to TB drug 
development. We will also focus on developing the scientific principles 
for selection of new drug combinations as well as approaches for 
identifying new compounds and existing drugs that have activity against 
TB. With regard to clinical trials, it will be important to identify 
and validate endpoints that can be used in the conduct of vaccine 
trials, as well as build a stronger clinical trial infrastructure for 
conducting high-quality studies where the disease is endemic.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett
    Question. As you are aware, the user fee agreement negotiated 
between the FDA and the medical device industry and passed into law by 
Congress includes a series of goals that the FDA commits to meeting in 
return for the funds provided to the FDA by the industry. The FDA holds 
quarterly meetings with the device industry to report on the user fee 
program, funds being collected, and how goals are being met. However, 
it has come to my attention that for the first time in the history of 
the medical device user fee program, the FDA has failed to meet its two 
goals for PMA applications: 60 percent of applications have a decision 
in 180 days and 90 percent have a decision in 295 days. Neither goal is 
being met for 2008 applications and also will likely not be met for 
2009 applications. Can you explain why FDA is not meeting these goals?
    Answer. The goal to which you refer applies to non-expedited 
original premarket approvals or PMA and panel-track supplements. Our 
data currently indicates that FDA can still meet the 180-day decision 
goal, both for 2008 and 2009 applications. Our staff is striving to do 
so. You are correct that the 295-day decision goal was not met for 2008 
applications and is unlikely to be met for 2009 applications, despite 
strong efforts by our staff.
    It is important to recognize that the goals for 2008 and beyond are 
more challenging than for previous years. For example, the required 
performance level for the 180-day decision goal increased from 50 
percent for 2007 applications to 60 percent for 2008 applications. 
FDA's performance on this goal for 2008 applications has already 
surpassed performance for 2007 applications, but the 2008 goal has not 
yet been met. Had the goal remained unchanged, FDA's performance would 
have already satisfied it.
    Another contributing factor may be growth in the premarket review 
workload. The number of expedited and non-expedited PMA applications 
and panel-track supplements filed in 2009 was 15 percent greater than 
in 2007. Similarly, the number of 510K submissions was 12 percent 
greater. The same technical staff who review PMA applications also 
review 510K submissions, so it is important to consider the total 
review workload. In addition, the complexity of medical device 
technology is continually increasing.
    FDA recognizes the importance to public health of promoting the 
rapid introduction of safe and effective medical devices. The user fee 
performance goals remain a high strategic priority, and the Center for 
Devices and Radiological Health, or CDRH, is taking steps to improve 
performance. The staff at CDRH are developing improvements to their 
review processes to increase efficiency, consistency, and transparency, 
such as the new ``iReview'' system--an electronic interactive review 
system for 510Ks. They have implemented intensified internal tracking 
and reporting procedures for submissions subject to user fee goals. 
They are also gathering information on missed goals to better 
understand the underlying causes and develop effective solutions.
    Question. In your budget justification document you discuss a 
Medical Device Registry. As I'm sure you know, a provision to amend the 
FDCA to establish a medical device registry appeared in the House 
healthcare reform bill. This provision relied on manufacturer's 
proprietary sales data and certainly had the potential to be used for 
purposes unrelated to the FDA's mission. The concept was never 
discussed at any hearings in the committee of jurisdiction. 
Manufacturers raised a number of concerns about the intent behind the 
provision and answers to questions about its purpose were not 
forthcoming from the Administration. Now your proposal seems 
straightforward and I just have a few questions:
    What assurances can you offer that your proposal will not rely on 
manufacturers' sales information or other confidential data?
    Answer. We do not anticipate that the effort to establish the 
National Medical Device Registry, also known as NMDR, will require 
manufacturer proprietary sales information or other confidential data. 
Rather, the aim is to develop and implement a national strategy for the 
best public health use of health-related electronic data that 
incorporates unique device identifiers (UDIs) and leverages existing 
procedure and device registries. To the extent any confidential 
commercial information is submitted to FDA, we can assure you that we 
will protect it in accordance with applicable disclosure statutes and 
regulations.
    Question. What assurances can you offer that the purpose of this 
registry is to gather meaningful denominator data in an effort to 
improve the usefulness of the FDA's post market safety efforts?
    Answer. The incorporation of UDIs into health-related electronic 
data will provide FDA with long-needed exposure--or denominator--
information that is critical to the assessment of device safety. The 
purpose of the NMDR is to use the variety of disparate healthcare data 
sources, which will incorporate UDIs, to significantly augment FDA's 
postmarket safety efforts.
    Question. How will you ensure that the registry and the information 
in it will not be used by CMS or other third party payers to make 
coverage and payment determinations?
    Answer. The purpose of the registry is to develop and implement a 
national strategy for the best public health use of health-related 
electronic data that incorporates unique device identifiers (UDIs) and 
leverages existing procedure and device registries. FDA can not control 
how others use this data.
    Question. As you know we have tried to support the Critical Path 
Initiative in your appropriations but we have not been able to come 
close to the amount the European Union has given to their Innovative 
Medicines Initiative, which I am told was created to directly compete 
with the FDA's critical path program. As the critical path initiative 
is very closely related and complimentary to your regulatory science 
program, how will you continue to support critical path?
    Answer. The European Commission has committed large amounts of 
funding to the E.U. program, which is modeled on FDA's Critical Path 
Initiative, but the funding you have given FDA to support Critical Path 
Initiative, also known as CPI, has been put to excellent use. In 2006, 
2007, and 2008, FDA reported on 40 to 60 specific CPI projects 
involving FDA and numerous collaborators. During fiscal year 2008, the 
year that Congress allocated $8,000,000 to fund CPI projects, CPI 
collaborations involved 84 government agencies, universities, industry 
leaders, and patient groups from 28 States and 5 countries on a raft of 
groundbreaking research projects.
    In 2009, we received $16,000,000 in appropriations to support CPI. 
That year, we conducted an informal survey of CPI projects under way, 
including the congressionally funded projects, and found that numerous 
CPI projects are being worked on all across FDA to support regulatory 
science. CPI has been the prime engine driving much of the scientific 
work at FDA since 2006.
    Advancing Regulatory Science is a broad, FDA initiative, with many 
cross-agency components, that is building on the Critical Path 
Initiative. Advancing Regulatory Science seeks to develop FDA's 
scientific infrastructure, enhance scientific collaborations with 
academia and other government agencies, and increase our Critical Path 
partnerships. With a focused agenda and a greater, more targeted 
investment of human and financial resources, we can expand our work 
with partners to transform the culture and science of product research, 
development, and evaluation. We plan to use these resources to continue 
efforts that speed therapies to patients, address unmet public health 
needs, protect our food supply, work toward modernizing toxicology and 
hazard assessment. With support from the Center for Tobacco Products, 
we hope to meet the many challenges to regulating tobacco.

                         CONCLUSION OF HEARINGS

    Senator Kohl. Once again, we thank you and your colleagues 
for being here today.
    And this hearing is now recessed.
    [Whereupon, at 11:10 a.m., Tuesday, March 9, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Agriculture, Rural Development, Food and Drug 
Administration, and Related Agencies for inclusion in the 
record. The submitted materials relate to the fiscal year 2011 
budget request for programs within the subcommittee's 
jurisdiction.]

               Prepared Statement of the Ad Hoc Coalition

    Mr. Chairman, members of the subcommittee, this statement is 
respectfully submitted on behalf of the ad hoc coalition composed of 
the organizations listed below. The coalition supports sustained 
funding for our Nation's food aid programs, including titles I and II 
of Public Law 480, and therefore strongly opposes all proposals to 
divert funding away from these important programs.
                         food aid's unique role
    The donation of American commodities as food aid has been the 
cornerstone of U.S. and global foreign assistance programs since their 
inception. However, food aid has evolved in important ways over the 
years. Food aid began as an outgrowth of American farm policy that 
generated sizeable surpluses and American foreign policy characterized 
by the cold war competition for the hearts and minds of impoverished 
populations across the globe. Since then, American farm policy has 
evolved away from surpluses, and therefore food can no longer be 
mischaracterized as ``dumping'' of excess commodities. Indeed, the 
United States now purchases commodities for donation on the open 
market. In today's political and economic climate, the need to provide 
societal stability, avoid failed states, prevent terrorist breeding 
grounds, and bolster America's image abroad has never been more 
important. Our in-kind food aid programs are needed now more than at 
any time in their history. Hunger is a powerful and destabilizing 
force, and America faces a convergence of terrorist and other security 
threats from failed and unstable states that feed on ill will toward 
our Nation. The United Nations World Food Program tells us that in 
recent years the food insecure have been hit by a ``perfect storm'' of 
increases in food prices coupled with export restrictions imposed by 
traditional regional and local food exporters. Here at home, the ranks 
of long term unemployed have soared. U.S. food aid programs not only 
further our humanitarian and food security goals by allowing Americans 
to contribute to the needy in a tangible way, but the programs also 
provide stable jobs for Americans.
  food aid versus cash donations for ``local and regional purchases''
    Food for Peace, which provides farm products grown in the United 
States to millions overseas in bags marked as gifts ``From the American 
People,'' is a clear and tangible sign of America's concern and 
generosity to its recipients. This same ``in-kind'' composition 
generates important economic benefits to our Nation--vital jobs in many 
industries, farm income, markets for agriculture processors, and 
revenue for American transportation providers and ports. It also 
generates Federal, State, and local tax revenues, as well as secondary 
economic effects, such as farm equipment purchases and farm family 
spending in our broader economy. For these reasons, a strong domestic 
constituency for food aid, in good economic times and bad, has 
sustained America's food aid programs through decades of competing 
funding priorities. Furthermore, for over 50 years American agriculture 
has provided a dependable source of high-quality nutritious food that 
is not always reliably available to ``local'' or ``regional'' markets. 
Given the recent food crisis experienced by many nations, in terms of 
price, availability, and quality, and considering the recent actions by 
some food-exporting nations to halt food exports when domestic price 
increases occurred, the amount and dependability of U.S. produced food 
aid in Public Law 480 is crucial to our humanitarian assistance effort. 
Using American taxpayer dollars to purchase foreign agricultural 
commodities would forego the unique benefits of U.S. food aid, such as 
predictable food aid supply, unparalleled quality, and good American 
jobs, when our country and food-deficit areas need them most. 
Nevertheless, additional resources have already been directed to so-
called ``local and regional purchases'': USAID has been provided 
hundreds of millions of dollars of new funding for such purchases under 
the Foreign Assistance Act through the International Disaster and 
Famine Assistance Account and Congress also established a $60 million 
CCC-funded USDA pilot program in the 2008 Farm Bill to examine the 
potential dangers and benefits of this approach before considering 
further expansion of its use in conjunction with a strong in-kind food 
aid program centered around American commodities. Additionally, the 
U.N. World Food Program operations have wide latitude to purchase grain 
from Europe, Australia, and elsewhere.
               restoration of title ii food for progress
    The title I concessional sales food aid program is an important 
tool in the aid ``toolbox''. In order to ensure that countries with the 
most dire need have sufficient donated food aid, the coalition 
recommends that USDA offer the title I concessional sales program to 
countries that can afford it. Title I allows us to leverage our aid 
dollars, helping more people in need with our limited budget resources. 
To the extent that the title I funding truly cannot be used for 
concessional sales, it may be converted to donations on full grant 
terms through the Food for Progress (``FFP'') program.
                    conclusions and recommendations
    Mr. Chairman, the coalition is committed to maintaining the funding 
for America's food aid programs to meet humanitarian needs, enhance the 
potential for economic growth in recipient countries, and stimulate the 
economy here at home. Our recommendation is to increase, over time, 
annual food assistance with a blend of programs drawing upon the unique 
strengths of the different U.S. food aid program authorities. 
Specifically, the coalition respectfully recommends the following:
  --Full up-front funding of title II at the $2.5 billion authorized by 
        law, which is consistent with the fiscal year 2008 and fiscal 
        year 2009 appropriation levels, and should serve to help avoid 
        the cycle of emergency supplemental appropriations for this 
        program.
  --Title I/Food for Progress program levels should be restored to 
        responsible levels so that the unique efficiencies of the 
        program are not lost and more people can be fed.
  --Increase funding available for the McGovern-Dole program, 
        leveraging the special ability of this program to reach 
        children and to spur long-term development.
    Public Law 480 Food for Peace is the world's most successful 
foreign assistance program, and has saved countless lives. Its 
straightforward delivery of American food to the hungry fills a clear 
and immediate need overseas, and its unique architecture has made it a 
successful program here at home that has endured for over 50 years.
    Thank you, Mr. Chairman.

America Cargo Transport Corp.
American Maritime Congress
American Maritime Officers
American Maritime Officers' Service
American Peanut Council
American Soybean Association
APL Ltd.
Central Gulf Lines, Inc.
Global Food and Nutrition Inc.
Hapag-Lloyd USA, LLC
International Organization of Masters, Mates & Pilots
Liberty Maritime Corporation
Maersk Line, Ltd.
Marine Engineers' Beneficial Association
Maritime Institute for Research and Industrial Development
National Association of Wheat Growers
National Corn Growers Association
National Council of Farmer Cooperatives
National Potato Council
Sailors' Union of the Pacific
Seafarers International Union
Sealift, Inc.
Transportation Institute
United Maritime Group, LLC
U.S. Dry Bean Council
U.S. Dry Pea & Lentil Council
U.S. Wheat Associates, Inc.
USA Rice Federation
Waterman Steamship Corporation.
                                 ______
                                 

         Prepared Statement of the Alliance for a Stronger FDA

    The Alliance for a Stronger FDA requests at least $2.857 billion 
for the U.S. Food and Drug Administration for fiscal year 2011. This 
request is exclusive of user fees.
    We thank the Senate Appropriations Committee for the opportunity to 
present our views on the fiscal year 2011 appropriations for the U.S. 
Food and Drug Administration. The Alliance has 180 members from every 
stakeholder group interested in FDA. Our members include consumer and 
patient groups, associations, non-profits, health professions 
organizations, individuals and industry. Three former DHHS Secretaries 
and six former FDA commissioners are also part of our cause. We are 
united in the belief that:

A strong FDA benefits all Americans: Patients, consumers, health 
professionals, industry . . . and the whole world benefits, too.

    We would like to express our appreciation to the Senate 
Appropriations Committee and its Subcommittee Chair, Senator Herb Kohl 
and Ranking Member, Senator Sam Brownback. The FDA's appropriation has 
gone up significantly over the last 3 years and their support and 
leadership has been essential.
    Those increases have been critical to strengthening the Agency. 
Nonetheless, there remains an extraordinarily large gap between FDA's 
responsibilities and FDA's resources. Every year, the Agency's job 
becomes more complex scientifically and more difficult to implement. 
New laws affecting FDA are enacted with some regularity, further 
straining the FDA's ability to meet the expectations of the Congress 
and the American people.
    There are a number of legislative initiatives this year that would 
further expand the responsibilities of the FDA. As a very broad-based 
coalition, we take no position on the merits of any of these.
    We are concerned, however, that FDA's appropriation reflect any 
further increases in responsibilities. As will be described, we are 
recommending a $495 million increase or more for the Agency. This is 
the amount we believe is needed to make further progress against 
existing responsibilities. Any new legislation needs to come with the 
assurance that there will be larger ``budget authority'' appropriations 
to cover the cost of the additional work.
    We remind the committee that FDA's appropriation is quite small, 
especially when matched against its jurisdiction over one-quarter of 
consumer spending, 80 percent of the food supply and all of the drugs, 
biologics, medical devices, animal drugs, cosmetics and dietary 
supplements used anywhere in the United States. FDA must also deal with 
the food and medical products that are sourced from overseas. Despite 3 
years with appropriations above the break-even point, the FDA still 
gets only $2 billion per year. There cannot be many agencies in the 
U.S. Government that have such a vast scope of responsibilities and so 
few dollars to get the job done.
    As a way to sum up many points about the Agency, we have 10 things 
that we hope policymakers will know and remember about FDA:
  --FDA is a comparatively small agency with an appropriation: just 
        $2.35 billion in 2010 to regulate products that represent a 
        quarter of all consumer spending.
  --Twenty-five years ago, FDA and CDC were the same size; today the 
        CDC budget is nearly 2\1/2\ times as large.
  --A strong FDA is good for the U.S. economy and for our balance of 
        trade.
  --FDA is an integral part of our response to public health 
        emergencies, including defense against bioterrorism.
  --FDA's appropriation is almost entirely staff costs, requiring 
        nearly 6 percent increase each year to sustain program levels.
  --After 3 years of good increases (thank you, Congress), FDA staffing 
        levels from the 2010 appropriation have only just been restored 
        to the previous high-level achieved in 1994.
  --User fees serve valuable functions, but they are targeted and 
        support only specific activities. They don't strengthen the FDA 
        in carrying out its overall public health mission.
  --All FDA stakeholders support a stronger FDA (consumers, patients, 
        health professionals, and industry).
  --FDA's responsibilities increase each year--through new mandates, 
        globalization, scientific complexity.
  --FDA touches every American multiple times each day. Today's 
        investment (2 cents per day per American) is a pittance 
        compared to the benefit of a strong FDA and the risk of an 
        underfunded FDA.
    The Alliance often compares the FDA's budget to that of the 
Montgomery County school system's budget. The Superintendent of Schools 
and the FDA Commissioner had offices less than three miles apart before 
the Commissioner moved to White Oak. When the Superintendent looks out 
his window, he reflects on the educational needs between Takoma Park 
and Germantown. When the Commissioner looks out his window, he reflects 
on the food and medical product needs of the entire world. Yet, until 
last year, the Superintendent had a significantly larger budget to 
spend than the Commissioner.
    More than 80 percent of the FDA's budget is people-related. This 
includes salary, benefits, rent, telecom, training, office equipment, 
travel, etc. There are no grants to pull back if the money comes up 
short. Instead, over much of the last 20 years, when FDA's funding has 
been inadequate, the result has been layoffs, hiring freezes and buy-
outs. Now that the Agency's funding situation has improved, there are 
still many FDA managers concerned that this year's hires may need to be 
dismissed if next year's appropriation doesn't continue to grow.
    At this point, FDA needs more than $100 million more each year just 
to sustain the prior year's FTEs and program initiatives. Substantial 
dollars are needed above that level to help close the gap between 
responsibilities and resources.
    The solution, which is also our goal, is to strengthen FDA's 
ability to operate a modern, scientifically based regulatory program. 
To do so, the FDA needs to be provided with resources to rebuild the 
infrastructure and assure the safety of foods and cosmetics and the 
safety and efficacy of drugs and medical devices.
    In the mid-1980s, FDA and CDC had similar budgets (about $400 
million each in fiscal year 1985). In fiscal year 2010, CDC has a 
budget authority appropriation of $6.37 billion dollars, a compound 
annual growth rate greater than 11 percent. In comparison, FDA has a 
budget of $2.35 billion, a compound annual growth rate of about 7 
percent.
    The impact is particularly pronounced when the differences are 
graphed and the upward slopes compared (below). The chart is in nominal 
dollars. If we were to look at constant dollars, CDC is a substantially 
bigger agency than 25 years ago. In FDA's case, the net grown over the 
same period has been insubstantial and much of the growth is in the 
last 3 years. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We are not suggesting that FDA should have a $6 billion budget. 
Rather, the degree to which FDA has fallen behind is often hard to see, 
because the Agency is being compared to itself. In this comparison, it 
is dramatic and can lead to only one conclusion: FDA is not funded to 
meet its responsibilities as a public health and regulatory agency.
    We do not know what the right number for FDA is . . . only that it 
is significantly more than the current budget. Large increases for a 
number of years are going to be needed.
    For the immediate timeframe, the Alliance for a Stronger FDA 
requests a $495 million increase or more for the FDA in fiscal year 
2011. We believe that the President's budget request of $154 million is 
a step in the right direction, but substantially below what is needed. 
Below, our request is broken down by centers and major functions. We 
show fiscal year 2008, 2009 and 2010 for comparison. This recognizes 
that growth over the last three has changed the direction of the 
Agency. More will be needed . . . this year, next year and thereafter.

----------------------------------------------------------------------------------------------------------------
                                                                                                    Fiscal year
                                                    Fiscal year                                        2011
                                                    2008 actual     Fiscal year     Fiscal year   recommendation
 Function note: budget authority only, by center     (December      2009 final      2010 final        of the
                                                       2007)       (March 2009)   (October 2009)  Alliance for a
                                                                                                   Stronger FDA
----------------------------------------------------------------------------------------------------------------
Food............................................    $510 million    $649 million    $784 million    $955 million
Human Drugs.....................................     353 million     413 million     465 million     580 million
Biologics.......................................     155 million     183 million     206 million     255 million
Animal Drugs/Feed...............................      97 million     116 million     135 million     165 million
Devices & Radiological Health...................     238 million     280 million     315 million     385 million
Natl. Ctr. for Toxicological Research...........      44 million      52 million      59 million      72 million
HQ, Office of Commissioner/Other................      97 million     121 million     144 million     183 million
Rent and Facilities.............................     220 million     223 million     237 million     250 million
                                                 ---------------------------------------------------------------
      TOTAL, Salaries and Expenses..............   1.714 billion   2.039 billion   2.346 billion   2.857 billion
----------------------------------------------------------------------------------------------------------------

    We have allocated new money to building and facility rental, which 
is more than 20 percent of the FDA's budget. We are told that the FDA 
will reach a point where White Oak (even with the new building being 
constructed) and College Park will barely fit the FTE's that have been 
authorized and/or will be transferring from Parklawn and other 
facilities that are closing. A more substantial increase in rental 
costs may be needed in fiscal year 2011. We hope the Committee will 
follow this closely and assure that rental costs are fully funded. 
Increases in rental costs should not be covered by tapping into new 
program monies or by disproportionate allocations from user fees.
    New monies from this year and last year are now flowing into the 
FDA and are being translated into recruitment, hiring, training and 
deployment. Because of the nature of FDA jobs, many of the new hires 
may not reduce division workloads for upwards of a year. This is a slow 
process, but necessary to grow and strengthen FDA.
    Going forward, the Alliance is committed to working with the 
Congress and FDA to ensure:
  --Transparency in how new appropriated monies are spent, and
  --Clear communications from FDA about the public health benefits that 
        have been achieved with the new funding.
    In closing, the Alliance for a Stronger FDA reiterates its 
appreciation for the efforts of Committee members and their staffs to 
change the course of the FDA. They are strengthening the Agency and 
guiding it toward success.
    We remain available to the Committee to provide information and 
analysis at any time.
                                 ______
                                 

 Prepared Statement of the American Commodity Distribution Association 
                                 (ACDA)

    On behalf of the American Commodity Distribution Association 
(ACDA), I respectfully submit this statement regarding the budget 
request of the Food and Nutrition Service for inclusion in the 
subcommittee's official record. ACDA members appreciate the 
subcommittee's support for these vital programs. We also thank you for 
this opportunity to share our experiences and recommendations with you.
    We urge the subcommittee to maintain administrative expense funding 
for the Emergency Food Assistance Program (TEFAP) at $74.5 million; to 
make TEFAP food purchase dollars available for 2 fiscal years; to 
approve the Administration's budget request for the Commodity 
Supplemental Food Program, and to evaluate alternative approaches for 
the Department of Defense Fresh Program.
    ACDA is a non-profit professional trade association, dedicated to 
the growth and improvement of USDA's Commodity Food Distribution 
Program. ACDA members include: State agencies that distribute USDA-
purchased commodity foods; agricultural organizations; industry; 
associate members; recipient agencies, such as schools and soup 
kitchens; and allied organizations, such as anti-hunger groups. ACDA 
members are responsible for distributing over 1.5 billion pounds of 
USDA-purchased commodity foods annually through programs such as 
National School Lunch Program, the Emergency Food Assistance Program 
(TEFAP), Summer Food Service Program (SFSP), Commodity Supplemental 
Food Program (CSFP), Charitable Institution Program, and Food 
Distribution Program on Indian Reservations (FDPIR).
 maintain tefap administrative funds at $74.5 million, as provided for 
                 fiscal year 2009 and fiscal year 2010
    We urge the subcommittee to maintain TEFAP Administrative Funds at 
$74.5 million, as provided for fiscal year 2009 and fiscal year 2010 
when ARRA funds were added to the regular appropriation.
    Food banks around the Nation are in great need. The number of 
Americans who are turning to food banks for assistance continues to 
increase. The Congress appropriated $49.5 million for TEFAP 
Administrative Funds in both fiscal year 2009 and 2010, and, through 
the American Recovery and Reinvestment Act, supplemented these amounts 
with an additional $25 million. These resources have been used 
responsibly, and are sincerely appreciated.
    Donations to food banks are declining as many individuals and 
businesses no longer have the ability to be as supportive as they had 
been in the past. One of our members, Hunger Solutions Minnesota, 
reports that one-half to two-thirds of the food distributed by 
Minnesota food banks is from TEFAP. TEFAP has allowed Minnesota to 
distribute more food to more people with no impact on their budget. 
Minnesota Food Shelves are able to procure this much needed product 
from the food banking system without paying for the shared maintenance 
or transportation fees. Most Minnesota food shelves are small nonprofit 
organizations run by volunteers with thrifty budgets. They have very 
limited capacity for raising more funds to cover this potential loss of 
funding.
    In Florida, TEFAP operators are distributing over 39 million pounds 
of USDA food at no charge (administrative, shared maintenance, etc.) to 
their sub-distributors. The TEFAP Administrative funds help pay for 
that distribution which often includes delivery to sub-distributors 
more than 100 miles away. The additional funding has gone a long way 
toward compensating the TEFAP Recipient Agencies for the cost of 
trucking, fuel, storing the additional TEFAP food, and other related 
costs, without passing those costs on to sub-distributors like food 
pantries, soup kitchens, and shelters. This in turn helps those 
emergency feeding organizations which would otherwise have to find the 
resources to help defray the costs of acquiring the food, picking it up 
from the Recipient Agency, and other necessary activities in order to 
assist the needy residents of their communities.
    The Food Bank Association of New York State believes that the 
fiscal year 2011 budget proposal may result in statewide cuts in excess 
of $1.4 million, adversely impacting the three million people served by 
almost 2,500 emergency food programs throughout the State.
    Other ACDA members tell us that if TEFAP expense funds are reduced 
as effectively proposed by the fiscal year 2011 budget request, they 
will have to accept less food to reduce shipping/warehousing expenses, 
and will likely have to cut reimbursement to local distributors. These 
reimbursements are key to maintaining distribution sites, especially in 
rural distribution sites.
    We recognize that States have had the ability to convert a portion 
of their food funds to administrative funds, and have done so. We 
appreciate this flexibility, but must respectfully point out that even 
if this flexibility is continued, TEFAP operators will experience a 
significant reduction in available administrative expense funds that 
jeopardizes their ability to provide essential food assistance to needy 
Americans.
    Sec. 4201 of the Food, Conservation, and Energy Act of 2008 (Public 
Law 110-246) increased the authorization for TEFAP Administrative 
Expense funds from $60 million to $100 million, recognizing the need 
for increased expense funds to responsibly manage increased TEFAP food 
supplies. Our request for $74.5 million, is, therefore, not an increase 
over the total amounts provided in fiscal year 2009 and fiscal year 
2010, and is well within the amounts authorized.
         make tefap food dollars available for two fiscal years
    We urge the subcommittee to make TEFAP food dollars available for 2 
fiscal years, as was done under ARRA.
    While the agencies of the Department of Agriculture work closely 
with food banks to provide as much food for distribution as possible, 
there are occasions when food dollars are at jeopardy through no fault 
of recipient agencies.
    If food orders are cancelled by either USDA or vendors for any 
reason near the end of the Federal fiscal year, State agencies must 
either purchase whatever items might be available through USDA, or lose 
these end-of-year balances.
    At the end of fiscal year 2009 Florida had an ARRA TEFAP balance of 
$1.6 million on September 28, 2009 due to the cancellation of cheese 
orders that day. Florida's regular TEFAP balance was $218,023. On 
September 8, 2009 the TEFAP entitlement balance in New York was just 
over $12,000. On September 28 it was $415,000 due to the significant 
cancellations and deletions of truckloads of commodity foods. On July 
28, 2009, New York's ARRA balance was $11,000. On September 28 it was 
$481,000. Other ACDA members have told us of similar experiences in 
their States.
    Food banks are working diligently to use every dollar responsibly 
because every dollar is needed. When ARRA was passed, TEFAP food 
dollars were allowed to be carried over from fiscal year 2009 to fiscal 
year 2010. This procedure helped food bank operators to make 
responsible decisions and to take maximum advantage of available 
resources.
    We urge the committee to make TEFAP food dollars available for 2 
years, and urge the Secretary of Agriculture to allow those States who 
made responsible efforts to use their TEFAP Food dollars to roll over 
to the next fiscal year balances unexpended through no fault of the 
TEFAP operator.
  acda supports the fiscal year 2011 budget request for the commodity 
                       supplemental food program
    ACDA is pleased to support the fiscal year 2011 budget request of 
$176,788,000 for the Commodity Supplemental Food Program (CSFP). The 
Congress in fiscal year 2010 once again demonstrated its support for 
this important program with a funding level that allowed seven States 
with approved plans to begin serving eligible individuals within those 
States, while allowing for needed caseload expansion in the 32 States, 
the District of Columbia, and 2 Indian Tribal Organizations previously 
offering the program.
    While we understand that there may be as many as four additional 
States considering making application for their own CSFP, at this time 
we believe the President's request will fully fund the current 
caseload, including the caseload provided to the seven new States. It 
may be necessary at a later date to add to the budget request should 
USDA approve State plans.
  acda requests the evaluation of alternative approaches for dod fresh
    There is broad consensus that improving the nutritional well-being 
of Americans, particularly children, includes increasing fruit and 
vegetable consumption, including fresh items. USDA's commodity program 
is constrained in its ability to distribute fresh foods.
    However, in the 1990s the Department developed a partner 
relationship with the Department of Defense to utilize some of the 
Federal commodity entitlement for school meal programs to allow school 
districts to purchase through the DOD distribution system. This 
program, DOD Fresh, was very successful.
    Changes in the DOD procurement and distribution program which have 
outsourced these procurement activities have had a deleterious effect 
on the school program. This change has also created a situation where 
each school that participates must pay a fee to access the DOD secure 
ordering system.
    The Secretary has worked to ameliorate these fees, approximately $3 
million per year, in the short term, but this is a temporary fix. We 
believe that there may be an alternate approach that will restore the 
many benefits of the original DOD Fresh program.
    We are asking the Committee to direct the Secretary to evaluate 
alternative approaches for replacing DOD Fresh including, but not 
limited to, developing an analog program through the Agricultural 
Marketing Service, and report back to the Committee on these options.
    We look forward to continuing to partner with you and USDA in the 
delivery of these needed services.
                                 ______
                                 

    Prepared Statement of the American Farm Bureau Federation (AFBF)

    The American Farm Bureau Federation (AFBF) has identified five 
general areas for increased emphasis and funding for United States 
Department of Agriculture (USDA) programs in the fiscal year 2011 
agriculture spending bill. They are:
  --Programs that enhance and improve food safety and protection;
  --Programs that expand domestic and export markets for agriculture;
  --Programs that strengthen rural communities;
  --Programs that improve USDA efficiency; and
  --Research Priorities.
    Farm Bureau strongly opposes any cuts to funding for the farm 
safety net. Such cuts would break a 5-year commitment made to America's 
farmers and ranchers in the 2008 farm bill. Producers have made 
business decisions based on this contract with the government, and to 
break these commitments would be destabilizing to a rural economy that 
is already impacted by this country's severe recession and credit 
crisis.
      programs that enhance and improve food safety and protection
    Americans spend more than $1 trillion annually on food--nearly half 
of it in restaurants, schools and other places outside the home. 
Consumers have a reasonable expectation that the food products they buy 
are safe. The continued safety of food is crucial to consumers, as well 
as production agriculture and the food industry. AFBF believes that 
sufficient, reliable Federal funding for the government's food and feed 
safety and protection functions is vital to this effort.
    Therefore, we recommend that funding be increased for food 
protection at the Food and Drug Administration (FDA) and at the Food 
Safety and Inspection Service (FSIS) and directed to:
  --Increased education and training of inspectors;
  --Additional science-based inspection, targeted according to risk;
  --Research and development of scientifically based rapid testing 
        procedures and tools;
  --Accurate and timely responses to outbreaks that identify 
        contaminated products, remove them from the market and minimize 
        disruption to producers; and
  --Indemnification for producers who suffer marketing losses due to 
        inaccurate government-advised recalls or warnings.
    We also support authorized funding of $2.5 million for the Food 
Animal Residue Avoidance Databank (FARAD). FARAD aids veterinarians in 
establishing science-based recommendations for drug withdrawal 
intervals, critical for both food safety and animal health. No other 
government program provides or duplicates the food safety information 
FARAD provides to the public. Without the critical FARAD program, 
producers may be forced to euthanize animals or dispose of meat, milk 
and eggs due to the lack of withdrawal information.
    programs that expand domestic and export markets for agriculture
    America is increasingly committed to being a Nation fueled by 
clean, renewable, domestic energy. Biofuels are a crucial to this 
effort and create new domestic markets for our commodities. AFBF 
supports the research, production and promotion of agricultural 
products into home-grown fuels. We urge you to provide $10,000,000 for 
the establishment of Regional Biofuels Feedstocks Research and 
Demonstration Centers in USDA.
    In order to take full advantage of the market opportunities offered 
through trade agreements AFBF supports funding at authorized levels 
for:
  --The Foreign Agricultural Service (FAS) to maintain services that 
        expand agricultural export markets. We urge continued support 
        for the Office of the Secretary for trade negotiations and 
        biotechnology resources.
  --The Market Access Program, the Foreign Market Development Program, 
        the Emerging Markets Program and the Technical Assistance for 
        Specialty Crops program that are effective export development 
        and expansion programs. These programs have resulted in 
        increased demand for U.S. agriculture and food products abroad 
        and should be fully funded.
  --Public Law 480 programs which serve as the primary means by which 
        the United States provides needed foreign food assistance 
        through the purchase of U.S. commodities. In addition to 
        providing short-term humanitarian assistance, the program helps 
        to develop long-term commercial export markets.
    As trade increases between countries, so do does the threat of new 
invasive and noxious pests that can destroy America's agricultural and 
natural resources. Therefore, we support full funding for the following 
Animal Plant Health Inspection Service (APHIS) programs:
  --The APHIS Plant Protection and Quarantine personnel and facilities, 
        especially the plant inspection stations, that are necessary to 
        protect U.S. agriculture from costly pest problems that enter 
        the United States from foreign lands.
  --APHIS trade issues resolution and management activities that are 
        essential for an effective response when other countries raise 
        pest and disease concerns (i.e., sanitary and phytosanitary 
        measures) to prohibit the entry of American products.
  --APHIS Biotechnology Regulatory Services (BRS) that play an 
        important role in overseeing the permit, notification and 
        deregulation process for products of biotechnology. BRS 
        personnel and activities are essential to ensure public 
        confidence and international acceptance of biotechnology 
        products.
    Funding for the U.S. Codex Office is essential to developing 
harmonized international standards for food and food products. Codex 
standards provide uniformity in food rules and regulations by allowing 
countries to adopt similar levels of safety protection for consumers 
while concurrently facilitating transparency in food trade.
    The International Food for Education Program is an effective 
platform for delivering severely needed food aid and educational 
assistance and should be fully funded.
               programs that strengthen rural communities
    The lack of high-speed, modern telecommunications systems in rural 
America hinders its residents' access to educational, medical and 
business opportunities, and therefore hampers the economic growth of 
rural America. We support funding for loans and grants administered by 
the Rural Utilities Service to increase rural broadband capacity and 
telecommunications services and to fund the Distance Learning and 
Telemedicine Program.
    Rural entrepreneurs often lack access to the capital and technical 
assistance necessary to start new businesses. These new ventures are 
needed for rural communities to sustain themselves and contribute to 
our national economy. AFBF supports funding for USDA Rural Development 
(RD) programs that foster new business development in rural 
communities. These programs include Value-Added Agricultural Producer 
Grants, the Rural Innovation Initiative, the Rural Microentrepreneur 
Assistance Program, and Business and Industry Direct and Guaranteed 
Loans.
    Many rural communities lack access to the tax base necessary to 
provide modern community facilities like fire stations. Farm Bureau 
support funding for RD's Community Facility Direct and Guaranteed 
Loans, which finance the construction, enlargement or improvement of 
essential community facilities in rural areas and small towns.
    Renewable energy production holds great promise as a means to help 
America's farmers and rural communities contribute to our national 
economy and enhance our national security. We support increasing 
funding for the Renewable Energy for America Program (REAP). REAP 
offers grants, guaranteed loans and combination grant/guaranteed loans 
for agricultural producers to purchase renewable energy systems and 
energy efficiency improvements, as well as offer funding for energy 
audits and feasibility studies.
    The Revolving Fund (RFP) Grant Program helps communities acquire 
safe drinking water and sanitary, environmentally sound waste disposal 
facilities. With dependable water facilities, rural communities can 
attract families and businesses that will invest in the community and 
improve the quality of life for all residents. We support funding for 
this important program.
    AFBF supports funding for and opposes any effort to eliminate the 
Resource Conservation and Development program. This vital program 
supports economic development and resource protection. This program, in 
cooperation with rural development councils, helps local volunteers 
create new businesses, form cooperatives, develop marketing and agri-
tourism activities, improve water quality and flood control, improve 
leadership and other business skills and implement renewable energy 
projects.
    AFBF supports full funding for Agriculture in the Classroom, a 
national grassroots program coordinated by the USDA. This worthy 
program helps students gain a greater awareness of the role of 
agriculture in the economy and society, so that they may become 
citizens who support wise agricultural policies.
                 programs that improve usda efficiency
    Farm Bureau supports providing $95.3 million to improve computer 
technology in the Farm Service Agency (FSA). FSA currently operates on 
the oldest technology system within USDA and one of the oldest systems 
in the entire Federal Government. These outdated systems create 
enormous inefficiencies throughout the department, and it is unclear 
how long these antiquated systems can continue to support increasingly 
complex farm programs. Systems across agencies under USDA jurisdiction 
cannot communicate with each other, which could lead to improper 
payments and often requires duplicative paperwork and additional labor 
hours. Upgrading FSA computer technology now will lead to greater 
efficiencies down the road and could prevent a future system failure.
                          research priorities
    Farm Bureau utilizes commodity advisory committees to identify USDA 
program areas important to specific agricultural industries. Based on 
the recommendations of these advisory groups, Farm Bureau supports:
  --Funding for efforts to control, prevent and eradicate Citrus 
        Greening Disease including funding for research, public and 
        industry outreach and border monitoring.
  --Funding to conduct research on Colony Collapse Disorder (CCD) as 
        authorized in the 2008 Farm Bill including research on the 
        affects of pesticides, viruses, parasitic mites and other 
        distress management issues.
  --Appropriating $2.25 million, as authorized in the 2008 Farm Bill, 
        to conduct a National Honeybee Pest Survey to identify what 
        pests, diseases, viruses and pathogens are present in the 
        United States.
  --Funding for research to determine the impact on public lands sheep 
        and goat herds of species that currently exist, have been 
        reintroduced, or are planning to be introduced for the first 
        time.
  --Funding for research for soybean diseases using sentinel plots and 
        mapping.
  --Funding for research for the USDA-ARS Floriculture and Nursery 
        Research Initiative and ``regionalization'' of research 
        throughout the land grant system.
  --Funding for genomic research on the peanut plant.
  --Funding to support Texas Cattle Fever Tick control and eradication 
        programs and to encourage development of new user-friendly 
        products and management practices.
                                 ______
                                 

 Prepared Statement of the American Forest & Paper Association (AF&PA)

                      PRIMARY AF&PA RECOMMENDATIONS
                          [Dollars in millions]
------------------------------------------------------------------------
                                                 Fiscal year
           Account                  Program          2010        AF&PA
------------------------------------------------------------------------
Food and Drug Administration.  Center for Food     $236.600     $259.400
                                Safety and
                                Applied
                                Nutrition
                                (CFSAN).
Animal and Plant Health        Lacey Act               (\1\)       5.500
 Inspection Service.            Enforcement.
Animal and Plant Health        Emerging Plant       158.769      176.269
 Inspection Service.            Pests.
National Institute of Food     McIntire-Stennis      29.000       35.000
 and Agriculture.               Cooperative
                                Forestry
                                Research.
------------------------------------------------------------------------
\1\ No funding specifically designated.

                              introduction
    The American Forest & Paper Association (AF&PA) is the national 
trade association of the forest products industry, representing forest 
landowners and pulp, paper, packaging, and wood products manufacturers. 
AF&PA companies make products essential for everyday life from 
renewable and recyclable resources.
    The U.S. forest products industry accounts for approximately six 
percent of total domestic manufacturing GDP (putting it on par with the 
automotive and plastics industries). Forest industry companies produce 
$200 billion in products annually, employ one million people, and 
provide $54 billion in annual payroll. The industry is among the top 10 
manufacturing sector employers in 48 States. Lumber, panel, pulp, and 
paper mills are frequently the economic hub of local communities, 
making the industry's health critical to the economic vitality of 
hundreds of rural areas across the country.
    Declining timber harvests from Federal lands have resulted in 
severe job losses in many forestry-dependent communities. Many actions 
are needed to help preserve the industry's remaining jobs and 
contribute to the broader revitalization of the economy. Congress and 
the Administration must continue to improve credit markets, stimulate 
demand for housing, and craft policies that recognize the significant 
contributions made by the wood and paper industries towards renewable 
energy and climate goals. Within the jurisdiction of this subcommittee, 
continued resources for approval of paper-based food packaging, 
protecting forest health, and providing adequate resources to enforce 
existing trade laws are essential. Specific recommendations follow.
    food and drug administration--food contact notification program
    The Food Contact Notification (FCN) program protects consumer 
health, food safety and quality while providing packaging manufacturers 
with an efficient process which is less burdensome than the food 
additive approval process. It has allowed packaging manufacturers to 
bring new products to market which are more environmentally friendly 
and have extended product shelf life, thereby increasing consumer 
value.
    The President's fiscal year 2011 budget includes $2.5 billion for 
the Food and Drug Administration (FDA). On a current authorities basis, 
the budget proposes $259.4 million in funding for FDA's Center for Food 
Safety and Applied Nutrition (CFSAN), an increase of $22.8 million from 
fiscal year 2010 funding levels. The FDA's Congressional Budget 
Justification states that the FDA budget request assumes continued 
funding for the Food Contact Notification Program. AF&PA appreciates 
that the subcommittee has previously rejected proposals to eliminate 
the FCN program. AF&PA supports the Administration's budget request 
which ensures continued funding of the Food Contact Notification 
Program.
   animal and plant health inspection service--lacey act enforcement
    The 2008 Farm Bill amended the Lacey Act (16 USC 3371 et seq.) to 
make it unlawful to trade wood products or other plants taken in 
violation of the laws of either a U.S. State or foreign country. This 
ground-breaking legislation is already beginning to influence the way 
companies make sourcing decisions and monitor their supply chains. Full 
and effective implementation and enforcement of the Lacey Act will 
enable American forest product companies to compete fairly in the 
global marketplace, help keep jobs in the United States, deter the 
destructive impacts of illegal logging on forests and forest-dependent 
communities in developing countries, and reinforce initiatives to 
mitigate climate change.
    The law requires U.S. importers of wood products to file a 
declaration identifying the species name and country of harvest--a 
critical measure intended by the law's sponsors to increase supply 
chain transparency and assist Federal agencies in fair and strong 
enforcement. The prohibition and the declaration requirement affect a 
wide array of American industries, so it is critical that the 
declaration process generates data in a streamlined, cost-effective 
manner without unduly burdening legitimate trade. To that end, APHIS--
which is responsible for implementing the declaration provision--needs 
$5.5 million in funding to establish an electronic declarations 
database and to add internal capacity to perform data analysis needed 
for monitoring and enforcement purposes.
    AF&PA supports $5.5 million to provide for implementation of the 
Lacey Act, as amended by the 2008 Farm Bill.
    animal and plant health inspection service--emerging plant pests
    As world trade continues to expand, global weather patterns shift, 
and an increasingly affluent world population has the ability to travel 
to--and demand products from--the far corners of the globe, the 
inadvertent, yet inevitable introduction of nonnative pests and 
diseases into the United States continues. Additional funding is 
vitally needed to aid in combating pests such as the Asian longhorn 
beetle, the Emerald Ash borer, and the Sirex woodwasp, as well as 
diseases such as Phytopthora ramorum. These are but a sampling of the 
diseases which harm commercial timber stands, community parks, and 
private forest landowners. American citizens will most certainly bear 
the cost of combating these and other emergent threats. We believe that 
a comprehensive, coordinated response to each is more effective and 
more economical.
    AF&PA supports additional funding for APHIS Emerging Plant Pests 
and urge the provision of at least an additional $17.5 million to aid 
in combating these, and other pests and diseases.
     national institute of food and agriculture--mc intire-stennis 
                     cooperative forestry research
    Approximately one-third of the United States is forested and these 
forests enhance our quality of life and economic vitality and are an 
invaluable source of renewable bioproducts, outdoor recreation, clean 
water, fish and wildlife habitat, and carbon sequestration. Sustaining 
these forests in a healthy and productive condition requires a strong, 
continuing commitment to scientific research and graduate education. 
Foundational financial support for university-based forestry research 
and graduate education comes from the McIntire-Stennis Cooperative 
Forestry program, funded through the USDA's National Institute of Food 
and Agriculture (NIFA). Funds are distributed according to a statutory 
formula to each of the 50 States, Puerto Rico, Guam, and the Virgin 
Islands, with a dollar-for-dollar match required from the States.
    Additional funding is needed to:
  --Provide the additional scientific discoveries needed to address 
        critical forest issues such as fires, storms, climate change, 
        insects, diseases, urbanization, fragmentation, and lost 
        economic opportunities.
  --Develop new knowledge and innovations to sustain healthy, 
        productive forests and address the challenges facing forest 
        owners, forest products manufacturers and all Americans who 
        benefit from our forest resources.
  --Support research capacity within each State to address issues that 
        are essential to their private forest owners, and develop new 
        opportunities for economic benefit from their forests.
    AF&PA requests $35 million for the McIntire-Stennis Cooperative 
Forestry Research Program.
                                 ______
                                 

 Prepared Statement of the American Honey Producers Association, Inc. 
                                 (AHPA)

    Chairman Kohl and members of the subcommittee, my name is Kenneth 
Haff, and I currently serve as president of the American Honey 
Producers Association (``AHPA''). I am pleased today to submit the 
following statement on behalf of the AHPA, a national organization of 
commercial beekeepers actively engaged in honey production and crop 
pollination throughout the country. The purpose of this statement is to 
bring to your attention the continued threats faced by American 
beekeepers and the billions of dollars in U.S. agriculture that rely 
upon honeybee pollination services. With those threats in mind, we 
respectfully request an appropriation that meets the needs anticipated 
by the 2008 Farm Bill authorization of $20 million in additional 
research funds to combat CCD and to conduct other essential honeybee 
research through the Agricultural Research Service (ARS) and other 
agencies at the Department of Agriculture.
    As I speak to you today, U.S. beekeepers are facing the most 
extraordinary of challenges. Colony Collapse Disorder (``CCD'') has 
continued to ravage bee colonies across the United States, moving from 
one hive to another in unpredictable patterns. The result has been the 
death of up to 90 percent of the bee colonies in affected apiaries. In 
early 2007, the National Research Council at the National Academy of 
Sciences characterized the beekeeping industry as being in ``crisis 
mode''--a point echoed and re-emphasized in a 2008 action plan 
regarding honeybee threats. Hundreds of news articles and many in-depth 
media reports have continued to chronicle the looming disaster facing 
American beekeepers and the producers of over 90 fruit, vegetable and 
fiber crops that rely on honeybee pollination. The President's own 
budget documents for fiscal year 2011 state, ``The beekeeping industry, 
and growers that depend on the honey bee for pollination are facing a 
crisis because of CCD, a new syndrome that appeared throughout the 
country in late 2006, killing 25 percent of hives nationally and 80 to 
90 percent of hives in some apiaries. Mitigation will depend on 
determining the cause of the syndrome, and finding practical, cost-
effective solutions useful to the bee industry.''
    However, despite extensive and coordinated work by experts from 
government, academia and the private sector, the definitive causes of 
and solutions for CCD have yet to be identified. In fact, USDA is yet 
unable to provide even a definition for CCD for purposes of insurance 
recovery for associated losses. In a March 15, 2010 Washington Post 
article entitled, ``Bees are busier than ever as disease besieges 
colonies'', Adrian Higgins writes that ``more than 3 years after 
beekeepers started seeing the sudden disappearance of hive populations, 
scientists have yet to find the cause--let alone the fix--for a 
condition called colony collapse disorder (CCD). Meanwhile, the 
commercial beekeeping industry is struggling to provide pollination 
services to the nations' farmers. One-third of food crops rely on 
insect pollination.'' One of the most respected editors to follow honey 
matters, Kim Flotsam, reported in his March issue of ``Bee Culture'' 
that ``incidences of colony losses to CCD and other stresses this 
spring have been much higher than the last 2 years, and some predict 
when all is said and counted, will be the worst year since the malady 
raised its ugly head.'' This assessment is consistent with the 
experiences of the AHPA membership.
    The emergence of CCD shines a bright light on the inadequacies of 
current honeybee research, particularly on the lack of capacity to 
address new challenges and to take long-term steps to assure honeybee 
health. In saying this, we do not mean to diminish the vital, ongoing 
work of ARS and other honeybee scientists. They do their job and they 
do it very well. In recent years, however, honeybee research has become 
largely confined to four ARS laboratories that provide the first line 
of defense against exotic parasitic mites, Africanized bees, viruses, 
brood diseases, pests, pathogens and other conditions. Universities and 
the private sector have substantially scaled back their efforts due to 
a lack of available funds. Moreover, ARS laboratories lack sufficient 
resources even for current honeybee research priorities. For example, 
we understand that ARS currently lacks funds even to test high priority 
CCD samples that ARS scientists have already collected.
    In past fiscal years, this subcommittee has supported the 
beekeeping industry through funding for agricultural research 
activities. As you know, in the fiscal year 2003 cycle, the 
subcommittee rejected a proposal that would have resulted in the 
elimination of three ARS laboratories that are indispensable to the 
survival of our industry. Again, in the fiscal year 2009 omnibus 
appropriations bill, Congress preserved funding for the Weslaco, Texas 
ARS research facility despite a recommendation in the President's 
fiscal year 2009 budget proposal to close that facility. In fiscal year 
2010, the Congress increased funding by $1.5 million for the ARS labs 
and added $3 million for the work of the Department of Agriculture's 
Cooperative State Research, Education, and Extension Services (CSREES), 
now known as the National Institute of Food and Agriculture (NIFA). 
Those were wise decisions. Without these labs, and without the work of 
other researches supported by Federal funds, the American honeybee may 
not have survived the various above-mentioned threats, and the 
infrastructure would not exist today upon which an aggressive research 
campaign may continue to be built.
    For fiscal year 2011, President Obama has requested an additional 
$500,000 in increased funding for CCD research. We thank the President 
and we urge this subcommittee to continue in its long demonstrated 
commitment to addressing the crises before us by supporting the 
President's request and adding desperately needed funding. However, we 
believe strongly that an increase of $500,000 does not come close to 
meeting the growing demands imposed by CCD and other threats to 
honeybee health. Instead, to meet the needs of the American beekeeper 
and to stave off a pending agricultural crisis for growers and 
consumers, we respectfully urge the subcommittee to appropriate at 
least $3 million in additional funding for ARS laboratories and to 
achieve across the agencies a full $20 million in new research funds 
dedicated toward CCD and other honeybee health research projects. As 
you know, the 2008 Farm Bill included an authorization of $100 million 
over 5 years for such initiatives. A $20 million appropriation in 
fiscal year 2011 would reflect that authorization, and would provide 
government, academic and private sector researchers with the vital 
resources needed to combat CCD and other emerging threats and assure 
long-term honeybee health. Such funding would be a prudent investment 
in the U.S. farm infrastructure, which, along with U.S. consumers, 
derives tens of billions of dollars of benefit directly from honeybee 
pollination. While we do not otherwise specify the locations of the 
labs where this research is to be performed, we do believe it is 
important that at least $500,000 be provided in support of the genome 
work done at the Baton Rouge lab on Russian bees that have developed a 
resistance to varroa mites.
            the importance of honeybees to u.s. agriculture
    Honeybees are an irreplaceable part of the U.S. agricultural 
infrastructure. Honeybee pollination is critical in the production of 
more than 90 food, fiber, and seed crops and directly results in more 
than $15 billion in U.S. farm output. The role of pollination is also 
vital to the health of all Americans given the dietary importance of 
fruit, vegetables and nuts, most of which are dependent on pollination. 
Honeybees are necessary for the production of such diverse crops as 
almonds, apples, oranges, melons, blueberries, broccoli, tangerines, 
cranberries, strawberries, vegetables, alfalfa, soybeans, sunflower, 
and cotton, among others. In fact, honeybees pollinate about one-third 
of the human diet.
    The importance of this pollination to contemporary agriculture 
cannot be understated. In fact, the value of such pollination is vastly 
greater than the total value of honey and wax produced by honeybees. 
More than 140 billion honeybees, representing 2 million colonies, are 
transported by U.S. beekeepers across the country every year to 
pollinate crops.
    The importance of honeybees--and the U.S. honey industry which 
supplies the honeybees for pollination--is illustrated by the 
pollination of California's almond crop. California grows 100 percent 
of the Nation's almond crop and supplies 80 percent of the world's 
almonds. Honeybees are transported from all over the Nation to 
pollinate California almonds, which are the largest single crop 
requiring honeybee pollination. More than 1 million honeybee hives are 
needed to pollinate the 600,000 acres of almond groves that line 
California's Central Valley. Thus, nearly half of the managed honey-
producing colonies in the United States are involved in pollinating 
California almonds in February and March of each year.
    Many other U.S. agriculture producers require extensive honeybee 
pollination for their crops, including blueberry, avocado, and cotton 
growers. Cattle and farm-raised catfish industries also benefit from 
honeybee pollination, as pollination is important for growing alfalfa, 
which is fodder for cattle and farm-raised fish. As OnEarth magazine 
has noted, the fate of California's almond crop rests ``on the slender 
back of the embattled honeybee.'' Over the past year, both beekeepers 
and almond growers have struggled to meet almond crop pollination 
demands, forced to bring inadequate bee supplies to the crops. Many 
expect that the almond crop will suffer noticeably this season as a 
result, an added drain on the United States economy at a time when we 
can least afford it.
                   ongoing and new critical research
    Since 1984, the survival of the honeybee has been threatened by 
continuing infestations of mites, pests and other conditions for which 
appropriate controls must continually be developed by scientists at the 
four ARS laboratories and other highly qualified research institutions. 
CCD, while the most severe, is only the most recent threat to the bee 
population. Unfortunately, the specific cause of CCD and treatments for 
it remain elusive to both beekeepers and scientists. The research is 
complex, as there are a wide range of factors that--either alone or in 
combination--may be causes of this serious condition. Areas for 
research include the stress from the movement of bees to different 
parts of the country for extensive commercial pollination, the 
additional stress of pollinating crops, such as almonds, that provide 
little honey to the bees, and the impact of certain crop pesticides and 
genetic plants with altered pollination characteristics. Continuing 
infestations of the highly destructive Varroa mite, combined with other 
pests and mites, are also thought to compromise the immune systems of 
bees and may leave them more vulnerable to CCD. At the same time, 
researchers will need to focus on the many reported instances in which 
otherwise healthy, pest-free, stationary bee colonies are also 
suffering collapse or problems with reproduction.
    AHPA, other industry officials, and leading scientists believe that 
an important contributing factor in the current CCD crisis is the 
longstanding, substantial under funding of U.S. bee research. In recent 
years, the Federal Government has spent very modest amounts at each ARS 
Honeybee Research Laboratory--for a sector that directly contributes 
$15 billion per year to the U.S. farm economy. Worse still, funding 
amounts have not been increased to account for growing bee health 
concerns. USDA honeybee researchers remain under funded. As noted 
above, current funding shortages have caused important CCD-related bee 
samples to go untested. Additionally, despite their ability to provide 
significant and innovative new research on emerging bee threats, 
researchers in the academic and private sectors also lack the necessary 
financial resources for these vital tasks. With the emergence of CCD, 
there is a serious gap between the threats faced by U.S. honeybees and 
the capacity of our researchers to respond. Closing this gap will 
require significant new resources. It is estimated that each new 
scientist, technician and the support materials that they need will 
cost an additional $500,000 per year.
    To address these challenges, the AHPA respectfully requests an 
appropriation of at least $20 million to combat CCD and conduct other 
essential honeybee research. These funds should be allocated in 
accordance with authorizations provided in the 2008 Farm Bill. 
Specifically, the funds should be divided among the following 
Department of Agriculture agencies and programs: (1) the four ARS Bee 
Research Laboratories for new personnel, facility improvement, and 
additional research; (2) the Animal and Plant Health Inspection Service 
to conduct a nationwide honeybee pest and pathogen surveillance 
program; (3) the ARS Area Wide CCD Research Program divided between the 
Beltsville, MD and the Tucson, Arizona research laboratories to 
identify causes and solutions for CCD in affected States; (4) the NIFA 
to fund extension and research grants to investigate the following: 
honey bee biology, immunology, and ecology; honey bee genomics; native 
bee crop pollination and habitat conservation; native bee taxonomy and 
ecology; pollination biology; sub-lethal effects of insecticides, 
herbicides, and fungicides on honey bees, native pollinators, and other 
beneficial insects; the effects of genetically modified crops, 
including the interaction of genetically modified crops with honey bees 
and other native pollinators; honey, bumble, and other native bee 
parasites and pathogens effects on other native pollinators; and (5) 
the additional ARS research facilities in New York, Florida, 
California, Utah, and Texas for research on honey and native bee 
physiology, insect pathology, insect chemical ecology, and honey and 
native bee toxicology.
    Since the beekeeping industry is too small to support the cost of 
needed research, publicly funded honeybee research by the four ARS bee 
laboratories is absolutely key to the survival of the U.S. honey and 
pollination industry. For example, the pinhead-sized Varroa mite is 
systematically destroying bee colonies and prior to CCD was considered 
the most serious threat to honeybees. Tracheal mites are another 
contributing factor to the loss of honeybees. Tracheal mites infest the 
breathing tubes of adult honeybees and also feed on the bees' blood. 
The mites essentially clog the bees' breathing tubes, blocking the flow 
of oxygen and eventually killing the infested bees.
    The industry is also plagued by a honeybee bacterial disease that 
has become resistant to antibiotics designed to control it, and a 
honeybee fungal disease for which there is no known treatment. These 
pests and diseases, especially Varroa mites and the bacterium causing 
American foulbrood, are now resistant to chemical controls in many 
regions of the country. Further, we have seen that these pests are 
building resistance to newly developed chemicals more quickly than in 
the past, thereby limiting the longevity of chemical controls.
    As previously mentioned, the cause or causes of CCD are unknown. 
Thus, pest, viral and bacterial disease research takes on added 
significance. First, pest, viral and bacterial disease research may 
itself provide insight into the discovery of CCD's root causes. Second, 
whether pests and bacterial diseases are directly a factor in CCD or 
not, they nonetheless continue to threaten bee population health and 
vitality. Given CCD's particularly devastating impact on bee 
populations, even greater emphasis must be placed on mitigating known 
threats in order to achieve the overall goal of ensuring adequate honey 
production and pollination capacity.
    In addition to pest and bacterial disease research, the sequencing 
of the honeybee genome in 2006 at Baylor University has opened the door 
to creating highly effective solutions to bee health and population 
problems via marker-assisted breeding. Marker-assisted breeding would 
permit the rapid screening of potential breeders for specific DNA 
sequences that underlie specific desirable honeybee traits. The 
sequenced honeybee genome is the necessary key that will allow 
scientists to discover the important DNA sequences. Additional funding 
for the ARS research laboratory at Baton Rouge, in particular, will 
assure that this critically important work goes forward.
    Because of the sequenced honeybee genome, it is now possible to 
apply molecular biological studies to the development of marker-
assisted breeding of honeybees. Marker-facilitated selection offers the 
first real opportunity to transform the beekeeping industry from one 
that has been dependent upon a growing number of expensive pesticides 
and antibiotics into an industry that is free of chemical inputs and 
that is economically viable in today's competitive global marketplace. 
Additionally, this new sequencing capacity may prove central to 
identifying both the causes of and solutions to CCD. New pathogens have 
recently been identified in the United States that are thought to be 
associated with CCD. Genetic research can be utilized to determine 
whether a comparative susceptibility to such pathogens exists among 
various bee populations, and if so, can serve to facilitate breeding 
with enhanced resistance.
    The four ARS Honeybee Research Laboratories work together to 
provide research solutions to problems facing businesses dependent on 
the health and vitality of honeybees. The key findings of these 
laboratories are used by honey producers to protect their producing 
colonies and by farmers and agribusinesses to ensure the efficient 
pollination of crops. Each of the four ARS Honeybee Research 
Laboratories (which are different in function from the ARS Wild Bee 
Research Laboratory at Logan, Utah) focuses on different problems 
facing the U.S. honey industry and undertakes research that is vital to 
sustaining honey production and assuring essential pollination services 
in this country. Furthermore, each of the four ARS Honeybee Research 
Laboratories has unique strengths and each is situated and equipped to 
support independent research programs which would be difficult, and in 
many cases impossible, to conduct elsewhere. Given the multi-factor 
research capacity needed to address the scourge of CCD, it is important 
that each research laboratory is permitted to continue and expand upon 
its unique strengths.
    And while to date the four ARS Research Laboratories have been the 
backbone of American Honeybee research, we do not believe that those 
four facilities alone--even when fully funded--will have the capacity 
to meet today's research needs. This is why, after analyzing the new 
and serious threats to U.S. honeybees, Congress, representatives of the 
farm sector and leading researchers developed the research priorities 
that were incorporated into the 2008 Farm Bill. In addition to 
increased resources for ARS research, these experts pressed for new 
funding, through NIFA, for government, academic and private sector 
research. They also urged new bee surveillance programs through the 
Animal and Plant Health Inspection Service to address the alarming lack 
of accurate information about the condition of U.S. bee colonies. 
Unfortunately, these programs are not yet funded to the level expected 
in 2008.
    One particularly effective way of adding needed capacity and 
innovative expertise in the effort to ensure honeybee health would be 
to reinvigorate private sector and university bee research initiatives. 
For many years, these sectors played a vital role in honeybee research, 
and many leading universities have significant bee research 
capabilities. In recent years, non-Federal agency research has 
substantially declined due to a lack of support for such initiatives. 
Funding the 2008 Farm Bill authorization of $10.26 million for the 
Department of Agriculture's NIFA would go a long way toward achieving 
this goal.
    NIFA is tasked with advancing knowledge for agriculture by 
supporting research, education, and extension programs. Funds may be 
channeled through the Department to researchers at land-grant 
institutions, other institutions of higher learning, Federal agencies, 
or the private sector. The requested funding for NIFA would provide 
important flexibility in allocating badly needed Federal dollars among 
government, private sector and university researchers. The recipients 
would provide more widespread research on honeybee biology, immunology, 
ecology, and genomics, pollination biology, and investigations into the 
effects on honeybees of potentially harmful chemicals, pests, other 
outside influences, and genetically modified crops. The result of such 
funds would be to ensure flexible financing with a comprehensive plan 
for battling CCD, pests, and other ongoing and future honeybee threats.
    Additionally, the same coalition of experts identified a need for a 
honeybee pest and pathogen surveillance program. Although significant 
data exists on American honey production, comparably less and lower 
quality data exists on beekeepers and bees. Providing $2.31 million 
under the 2008 Farm Bill authorizations to the Animal and Plant Health 
Inspection Service at the Department of Agriculture would allow the 
Department to utilize such data to better respond to pest and disease 
outbreaks, and to compile data that may better enable prediction of new 
threats. Given the roughly $15 billion added to the U.S. farm economy 
each year by honeybees, this is certainly a worthwhile investment in 
the honeybee and pollinator industry.
    Finally, these longstanding and worsening threats have caused great 
strain on the American honeybee to the point where some U.S. honey 
producers have felt the need--for the first time in over 80 years--to 
import bees from New Zealand and Australia for pollination. Ironically, 
scientists and industry leaders have since concluded that there is 
likely a correlation between the introduction of foreign bees and the 
emergence of CCD, the newest and greatest challenge to the survival of 
American honeybees. While researchers continue in their exhaustive 
effort to isolate the specific causes of CCD, the AHPA strongly urges 
the Congress to work with the Department of Agriculture to ensure that 
exotic bees and the threats they pose are restricted from importation 
into the United States. Under current law, the Department of 
Agriculture has the duty to refuse a shipment's entry into the United 
States where the export certificate identifies a bee disease or 
parasite of concern to the United States or an undesirable species or 
subspecies of honeybee, including the Oriental honeybee or ``Apis 
cerana'' (7 CFR  322.6(a)(2) (2004)). In the case of Australian 
honeybees, officials in that country have detected the presence of the 
Apis cerana honeybee throughout their country, a species known to 
harbor parasitic mites and possibly viruses that do not currently exist 
in the United States.
                               conclusion
    In conclusion, we wish to thank you again for your past support of 
honeybee research and for your understanding of the critical importance 
of these ARS laboratories. By way of summary, in fiscal year 2011, the 
American Honey Producers Association strongly encourages at least $20 
million in funding for CCD and other honeybee research spread among the 
four ARS Honeybee Research Laboratories, other ARS research facilities 
across the country, the NIFA at the Department of Agriculture, and the 
Animal and Plant Health Inspection Service. Specifically, we urge at 
least an additional $3 million in funding for the ARS research 
laboratories in fiscal year 2011, including a $500,000 increase for 
high priority, specialized genetic work with Russian bees to be 
performed at the Baton Rouge laboratory. AHPA also opposes importation 
of Australian honeybees. Only through critical research can we have a 
viable U.S. beekeeping industry and continue to provide stable and 
affordable supplies of bee-pollinated crops, which make up fully one-
third of the U.S. diet. I would be pleased to provide answers to any 
questions that you or your colleagues may have.
                                 ______
                                 

 Prepared Statement of the American Indian Higher Education Consortium 
                                (AIHEC)

    On behalf of the American Indian Higher Education Consortium 
(AIHEC) and the 32 tribal Colleges and Universities (TCUs) that compose 
the list of 1994 Institutions, thank you for this opportunity to share 
our funding requests for fiscal year 2011.
                          summary of requests
    We respectfully request the following funding levels for fiscal 
year 2011 for our land grant programs established within the USDA 
National Institute of Food and Agriculture (NIFA) and the Rural 
Development mission area. In NIFA, we request: $8 million for the 1994 
Institutions' competitive Extension grants program; $5 million for the 
1994 Institutions' competitive Research grants program; a minimum of 
$3.342 million for the higher education equity grants; and a $12 
million payment into the Native American endowment fund. In the Rural 
Development--Rural Community Advancement Program (RCAP) we request that 
the separate TCU Essential Community Facilities grants program be 
retained and that $5 million be appropriated each year for the next 5 
fiscal years to help the TCUs to address the critical facilities and 
infrastructure needs that increase their capacity to participate fully 
as land grant partners.
             background on tribal colleges and universities
    The first Morrill Act was enacted in 1862 specifically to bring 
education to the people and to serve their fundamental needs. Today, 
148 years after enactment of the first land grant legislation, the 1994 
Institutions, as much as any other higher education institutions, 
exemplify the original intent of the land grant legislation, as they 
are truly community-based institutions.
    The 1994 Institutions are accredited by independent, regional 
accreditation agencies and like all institutions of higher education, 
must undergo stringent performance reviews to retain their 
accreditation status. TCUs serve as community centers by providing 
libraries, tribal archives, career centers, economic development and 
business centers, public meeting places, and child and elder care 
centers. Despite their many obligations, functions, and notable 
achievements, TCUs remain the most poorly funded institutions of higher 
education in this country. The vast majority of the 1994 Institutions 
is located on Federal trust territory. Therefore, States have no 
obligation, and in most cases, provide no funding to TCUs. In fact, 
most States do not even provide funds to our institutions for the non-
Indian State residents attending our colleges, leaving the TCUs to 
assume the per student operational costs for non-Indian students 
enrolled in our institutions, accounting for approximately 21 percent 
of their student population. This is a significant financial commitment 
on the part of TCUs, as they are small, developing institutions and 
cannot, unlike their State land grant partners, benefit from economies 
of scale--where the cost per student to operate an institution is 
reduced by the comparatively large size of the student body.
    As a result of 200 years of Federal Indian policy--including 
policies of termination, assimilation and relocation--many reservation 
residents live in conditions of poverty comparable to those found in 
Third World nations. Through the efforts of TCUs, American Indian 
communities are availing themselves of resources needed to foster 
responsible, productive, and self-reliant citizens. It is essential 
that we continue to invest in the human resources that will help open 
new avenues to economic development, specifically through enhancing the 
1994 Institutions' land grant programs, and securing adequate access to 
information technology.
   1994 land grant programs--ambitious efforts to economic potential
    In the past, due to lack of expertise and training, millions of 
acres on Indian reservations lay fallow, under-used, or had been 
developed through methods that caused irreparable damage. The Equity in 
Educational Land Grant Status Act of 1994 is addressing this situation 
and is our hope for the continued improvement of our reservation lands. 
Our current land grant programs remain small, yet very important to us. 
With increased capacity and program funding, we will become even more 
fundamental contributors to the agricultural base of the Nation and the 
world.
    Competitive Extension Grants Programs.--In fiscal year 2011, the 
1994 Institutions' extension programs, which strengthen communities 
through outreach programs designed to bolster economic development; 
community resources; family and youth development; natural resources 
development; agriculture; as well as health and nutrition education and 
awareness, is our first priority for increased 1994 land grant program 
funding. Last year, $4,321,000 was appropriated for the 1994 
Institutions' competitive grants for extension services. Without 
adequate funding the 1994 Institutions' ability to maintain existing 
programs and to respond to emerging issues such as food safety and 
homeland security, especially on border reservations, is severely 
limited. Increased funding is needed to support these vital programs 
designed to address the inadequate extension services that have been 
provided to Indian reservations by their respective State programs. It 
is important to note that the 1994 extension program is not duplicative 
of the Federally Recognized Tribes Extension Program, formerly known as 
the Extension Indian Reservation Program (EIRP) that is administered by 
State land grant institutions. Funding for extension services at the 
1994 Land Grants is extremely modest. The 1994 Institutions have 
applied their resourcefulness for making the most of every dollar they 
have at their disposal by leveraging funds to maximize their programs 
whenever possible. Two examples of effective 1994 extension programs 
include: Extension activities at the College of Menominee Nation 
(Wisconsin) strengthen the sustainable economic development potential 
of the Menominee, Stockbridge-Munsee, Oneida, and Potawatomi 
Reservations and surrounding communities by increasing distance 
education capacity, conducting needs assessment studies, providing 
workshops and training sessions, and offering strategic planning 
assistance. The Agriculture & Natural Resources Outreach Education 
Extension program at Oglala Lakota College (South Dakota), which is 
located in one of the poorest counties in the Nation, utilizes 
education to promote the environmentally sound use of agriculture and 
natural resources by Lakota people. The program coordinates activities 
between the college's Agriculture and Natural Resources department, 
reservation schools, other tribal departments, South Dakota State 
University, and county extension programs. Specific issues addressed by 
the program include poverty, isolation, health, cultural dissonance, 
and land use practices by Lakota landowners. To continue and expand 
successful programs like these, we request that the subcommittee 
support this competitive program by appropriating $8 million to sustain 
the growth and further success of these essential community-based 
extension programs.
    1994 Competitive Research Program.--As the 1994 Institutions enter 
into partnerships with 1862/1890 land grant institutions through 
collaborative research projects, impressive efforts to address economic 
development through natural resource management have emerged. The 1994 
Research Grants Program illustrates an ideal combination of Federal 
resources and TCU-State institutional expertise, with the overall 
impact being far greater than the sum of its parts. We recognize the 
severe budget constraints under which Congress is currently 
functioning. However, the $1,805,000 appropriated in fiscal year 2010 
is grossly inadequate to develop capacity and conduct necessary 
research at our institutions. The 1994 Research Program is vital to 
ensuring that TCUs may finally be recognized as full partners in the 
Nation's land grant system. Currently, many of our institutions are 
conducting applied research, yet finding the resources to continue this 
research to meet their communities' needs is a constant challenge. This 
research authority opens the door to funding opportunities to maintain 
and expand the vital research projects begun at the 1994 Institutions, 
but only if adequate funds are secured and sustained. A total research 
budget of $1,805,000, for which all 32 of the 1994 Institutions 
compete, is vastly insufficient. Priority issue areas currently being 
studied at the 1994 Institutions include: sustainable agriculture and 
forestry; biotechnology and bioprocessing; agribusiness management and 
marketing; plant propagation, including native plant preservation for 
medicinal and economic purposes; animal breeding; aquaculture; human 
nutrition (including health, obesity, and diabetes); and family, 
community, and rural development. For example, the Standing Rock Sioux 
Reservation, home to Sitting Bull College and located in North and 
South Dakota, is often characterized by high unemployment and health 
concerns. The college is conducting a research project to develop a 
natural beef enterprise on the reservation that will maximize use of 
existing natural resources, allow American Indian students to be 
actively involved in research and to produce a healthier agricultural 
product for the community. This project combines expertise from Sitting 
Bull College, North Dakota State University, and the USDA-ARS Northern 
Great Plains Research Laboratory. We strongly urge the subcommittee to 
fund this program at a minimum of $5 million to enable our institutions 
to develop and strengthen their research capacity.
    1994 Institutions' Educational Equity Grant Program.--This program 
is designed to assist 1994 Institutions with academic programs. Through 
the modest appropriations first made available in fiscal year 2001, the 
TCU Land Grant Institutions have begun to support courses and to 
conduct planning activities specifically targeting the unique 
educational needs of their respective communities.
    The 1994 Institutions have developed and implemented courses and 
programs in natural resource management; environmental sciences; 
horticulture; forestry; and food science and nutrition. This last 
category is helping to address the epidemic rates of diabetes and 
cardiovascular disease that plague American Indian reservations. We 
request that the subcommittee appropriate a minimum of $3,342,000 to 
allow the 1994 Institutions to build upon their course offerings and 
successful activities that have been launched.
    Native American Endowment Fund.--Endowment installments that are 
paid into the 1994 Institutions' account remain with the U.S. Treasury. 
Only the annual interest yield, less the USDA's administrative fee, is 
distributed to the 1994 Institutions. The latest annual interest yield 
for the 1994 Institutions' Endowment was $3,822,753 and after the USDA 
NIFA claimed its standard 4 percent administrative fee, $3,667,843 was 
distributed among the eligible 32 TCU Land Grant institutions by 
statutory formula. Once again, the administrative fee paid to USDA-NIFA 
to distribute the funds was larger than the amount paid to all but nine 
of the 1994 Institutions--in other words the USDA-NIFA fee is higher 
than the amount paid to 72 percent of 1994 Institutions.
    Many of the colleges have used the endowment interest in 
conjunction with the 1994 Equity Grant funds to develop and implement 
their academic programs. As earlier stated, TCUs often serve as primary 
community centers and although conditions at some have improved 
substantially, many of the colleges still operate under less than 
satisfactory conditions. In fact, most of the TCUs continue to cite 
improved facilities as one of their top priorities. Several of the 
colleges have indicated the need for immediate new construction and 
extensive renovations to replace buildings that have long exceeded 
their effective life spans and to upgrade existing facilities to 
address accessibility, modernization, and safety concerns.
    Endowment payments appropriated increase the size of the corpus 
held by the U.S. Treasury and thereby increase the base on which the 
annual interest yield is determined for distribution to the 1994 
Institutions. These additional funds would continue to support faculty 
and staff positions and program needs within 1994 agriculture and 
natural resources departments, as well as to help address the critical 
and very expensive facilities needs at these institutions. In order for 
the 1994 Institutions to become full partners in this Nation's great 
land grant system, we need and, through numerous treaty obligations, 
are due the facilities and infrastructure necessary to fully engage in 
education and research programs vital to the future health and 
wellbeing of our reservation communities. We respectfully request the 
subcommittee fund the fiscal year 2011 endowment payment at $12 million 
and strongly urge the subcommittee to review the USDA-NIFA 
administrative fee and consider directing the department to reduce said 
fee for the Tribal College Endowment program so that more of these 
already limited funds can be utilized by the 1994 Institutions to 
conduct essential community-based programs.
    Tribal Colleges and Universities Essential Community Facilities 
Program (Rural Development).--The President's fiscal year 2011 budget 
request recommends eliminating the TCU Essential Community Facilities 
grant program. The reason stated for this drastic move is an ill-
considered one. The administration has stated that the TCUs' grant 
program should be eliminated because TCUs can participate in other 
programs offered in the Community Facilities Loan and Grant Programs 
(CFLGP). However, history indicates otherwise. Before the TCU-specific 
grant funding was made available, only 3 of the 32 TCU 1994 
Institutions received awards under CFLGP. That constitutes successful 
participation by less than 10 percent of the eligible TCUs. By 
contrast, in fiscal year 2001 when the TCU-specific program launched, 
22 TCU Land Grant Institutions, or almost 70 percent of the 1994 
Institutions received grant awards. We strongly urge the subcommittee 
to reject the proposal to eliminate this critical program and to 
designate $5 million each year for the next 5 fiscal years to afford 
the 1994 Institutions the means to aggressively address critical 
facilities and infrastructure needs, thereby allowing them to better 
serve their students and their respective communities.
                               conclusion
    The 1994 Institutions have proven to be efficient and effective 
vehicles for bringing educational opportunities to American Indians and 
the promise of self-sufficiency to some of this Nation's poorest and 
most underserved regions. The modest Federal investment in the 1994 
Institutions has already paid great dividends in terms of increased 
employment, access to higher education, and economic development. 
Continuation of this investment makes sound moral and fiscal sense. 
American Indian reservation communities are second to none in their 
potential for benefiting from effective land grant programs and, as 
earlier stated, no institutions better exemplify the original intent of 
the land grant concept than the 1994 Institutions.
    We appreciate your support of the 1994 Institutions and recognition 
of their role in the Nation's land grant system. We ask you to renew 
your commitment to help move our students and communities toward self-
sufficiency. We look forward to continuing our partnership with you, 
the U.S. Department of Agriculture, and the other members of the 
Nation's great land grant system--a partnership with the potential to 
bring equitable educational, agricultural, and economic opportunities 
to Indian Country.
    Thank you for this opportunity to present our funding proposals to 
the subcommittee. We respectfully request your continued support and 
full consideration of our fiscal year 2011 appropriations 
recommendations.
                                 ______
                                 

  Prepared Statement of the American Museum of Natural History (AMNH)

                                overview
    Recognizing its shared commitment to developing a science-literate 
workforce, ensuring the safety of the Nation's agriculture and food 
supply, improving nutrition and health, and protecting the Nation's 
natural resources and environment, the American Museum of Natural 
History seeks $1.5 million in fiscal year 2011 to partner with the USDA 
in a multifaceted initiative focused on food, nutrition, and the 
critical issues underlying our Nation's food supply.
              about the american museum of natural history
    Since its founding in 1869, the American Museum of Natural History 
(AMNH) has pursued its joint mission of scientific investigation and 
public education. More than 200 Museum scientists conduct 
groundbreaking research in fields as diverse as systematic and 
conservation biology, astrophysics, and Earth and biodiversity 
sciences, and AMNH's collections of some 32 million specimens and 
cultural artifacts provide an irreplaceable record of life on Earth. 
The work of the Museum's scientific staff fuels exhibitions and 
educational programming, the goal of which is to communicate to a broad 
public of varying ages and backgrounds about basic scientific concepts, 
scientific research, and new discoveries.
    Each year, the Museum welcomes and engages some 4 million on-site 
visitors--more than half of them children--with exhibitions and 
programs that are grounded in current scientific research. In addition, 
the Museum reaches beyond its walls to communities across the country 
and around the world, through extensive touring of its award-winning 
exhibitions and space shows, broad-ranging online initiatives, and 
publishing ventures. Because of the scale and scope of this audience, 
the Museum is uniquely positioned to have a significant impact on 
millions of children, families, teachers, adults, and students from 
preschool to graduate school.
    AMNH has a particularly successful history of translating current 
research for public audiences of all ages through its internationally 
renowned exhibitions. Most recently, the Museum's environmental 
science-based exhibits Water: H<INF>2</INF>O=Life and Climate Change: 
The Threat to Life and a New Energy Future helped illuminate these 
critical issues for millions, making important scientific research 
relevant to the daily lives of our audiences.
          initiative to advancing public understanding of food
    Drawing on these unique strengths, AMNH seeks to collaborate with 
the USDA on an initiative that will both research and educate the 
public about food, nutrition, and the Nation's food supply. Through the 
proposed initiative, AMNH would develop an exhibition supported by 
associated educational and research programs:
  --Food Exhibition.--The production, consumption, and nutrition of 
        food in the United States today is perhaps more complex than 
        ever before, but despite its national importance there is 
        currently no major educational exhibition on the subject. 
        AMNH's Food exhibition would address these issues relevant to 
        U.S. concerns, answering such questions as: ``What is the role 
        of food in health?''; ``What is the environmental impact of the 
        food we eat?''; and ``How will we feed a growing population?''. 
        The exhibit would address several topics key to scientific 
        literacy, potentially including the biology behind the food we 
        eat, the process of agriculture, the role of food in overall 
        nutrition, the manufacturing and safety of food, and the impact 
        on the environment. An engaging mix of hands-on elements, 
        interactive media installations, live demonstrations, and food 
        tastings would immerse visitors in the core educational topics 
        of the exhibit. Through AMNH's traveling program, the 
        exhibition would reach millions in New York, across the 
        country, and abroad.
  --Educational Programs and Resources.--AMNH proposes to develop a 
        suite of educational resources associated with the topic of 
        food and nutrition, including professional development programs 
        for teachers and multimedia presentations for its Science 
        Bulletins program, which presents current science news to 
        Museum and online audiences at AMNH and other venues. Through 
        documentary feature stories about scientists in the field and 
        regular brief research updates using scientific visualizations 
        and imagery, Science Bulletins present the latest developments 
        in the fields of astrophysics, Earth science, biodiversity, 
        human biology, and evolution. All Science Bulletins content is 
        produced through the collaboration of in-house scientists, 
        writers, producers, and designers, and through partnerships 
        with other institutions worldwide.
  --Research.--Museum scientists carry out cutting-edge research in 
        areas such as environmental and systematic biology, 
        conservation and biodiversity, and comparative genomics. Their 
        research will serve as the springboard for all programs, 
        resources, and activities developed.
    Requested funding, which the Museum will leverage with support from 
non-Federal as well as other Federal sources, will be used for 
exhibition development and production, traveling exhibition 
implementation, associated online educational resources, multimedia 
presentations on food and nutrition, and related environmental and 
biodiversity research. In addition to the creation of these resources 
and the expansion of the public's understanding of these issues, it is 
anticipated that this project will support 3 full-time and 30 part-time 
positions.
                                 ______
                                 

   Prepared Statement of the American Public Power Association (APPA)

    The American Public Power Association (APPA) is the national 
service organization representing the interests of over 2,000 municipal 
and other State and locally owned utilities in 49 States (all but 
Hawaii). Public power utilities deliver electricity to one of every 
seven electricity consumers (approximately 45 million people), serving 
some of the Nation's largest cities. However, the vast majority of 
APPA's members serve communities with populations of 10,000 people or 
less.
    We appreciate the opportunity to submit this statement outlining 
our fiscal year 2011 funding priorities within the jurisdiction of the 
Agriculture, Rural Development, Food and Drug Administration and 
Related Agencies Subcommittee.
department of agriculture: rural utility service rural broadband grants 
                               and loans
    APPA supports the Administration's efforts to provide funding in 
the amount of $418 million for the Rural Utilities Service Rural 
Broadband Grants and Loans. APPA believes it is important to provide 
incentives for the deployment of broadband to rural communities, many 
of which lack broadband service. Increasingly, access to advanced 
communications services is considered vital to a community's economic 
and educational development. In addition, the availability of broadband 
service enables rural communities to provide advanced healthcare 
through telemedicine and to promote regional competitiveness and other 
benefits that contribute to a high quality of life. Approximately one-
fourth of APPA's members are currently providing broadband service in 
their communities. In addition, several APPA members are planning to 
apply for RUS broadband loans to help them finance their future 
broadband projects.
              department of agriculture: title ix programs
    APPA supports full funding of programs authorized in title IX of 
the 2008 Farm Bill for energy efficiency, renewable energy and 
biofuels. APPA is extremely pleased that the President's budget 
provides an additional $39.3 million in addition to the $70 million in 
discretionary funding for the Rural Energy for America Program (REAP). 
In addition, we request the full authorized level of $5 million for the 
Rural Energy Self-Sufficiency program, and $5 million for the Community 
Wood Energy Program for fiscal year 2011.
                                 ______
                                 

  Prepared Statement of the American Sheep Industry Association (ASI)

    The American Sheep Industry Association (ASI) is a federation of 
State-member associations representing 82,000 sheep producers in the 
United States. The sheep industry views numerous agencies and programs 
of the U.S. Department of Agriculture (USDA) as important to lamb and 
wool production. Sheep industry priorities include expanding sheep 
operations and inventory by strengthening the infrastructure of the 
industry primarily through the programs of USDA, APHIS, Veterinary 
Services and Wildlife Services, as well as targeted research and 
education. The industry and the benefits to rural communities will be 
strengthened by fully funding critical predator control activities and 
national animal health efforts and by expanding research opportunities.
    We appreciate this opportunity to comment on the USDA fiscal year 
2011 budget.
           animal and plant health inspection service (aphis)
Scrapie
    ASI believes that the Administration's request of $18,043,000 is an 
inadequate level of funding if scrapie eradication is to be achieved in 
the reasonably near future. ASI urges the subcommittee to increase the 
funding for scrapie eradication by at least $10.64 million beyond the 
Administration's request for a total of $28.687 million in fiscal year 
2011.
    Scrapie is one of the families of transmissible spongiform 
encephalopathies (TSEs), all of which are the subject of great 
importance and interest around the globe. USDA/APHIS, along with the 
support and assistance of the livestock and allied industries, began an 
aggressive program to eradicate scrapie in sheep and goats 10 years 
ago. The plan USDA/APHIS is implementing is designed to eradicate 
scrapie by 2010. Through a subsequent monitoring and surveillance 
program, the United States could be declared scrapie-free by 2017 
according to the APHIS plan. Becoming scrapie-free will have a 
significant positive economic impact to the livestock, meat and feed 
industries and, of course, rid our flocks and herds of this fatal 
animal disease. Through a concerted effort, USDA/APHIS, along with 
industry and State regulatory efforts, is in the position to eradicate 
scrapie from the United States with a multi-year attack on this animal 
health issue. As the collective and aggressive efforts of Federal and 
State eradication efforts have included expanded slaughter surveillance 
and diagnostics, the costs are, as expected, escalating.
    ASI has made it clear to USDA that the appropriations requests of 
recent years have been inadequate for successful eradication of 
scrapie. When the scrapie eradication program was first being 
implemented in 2000, USDA/APHIS projected the cost to be $170,259,083 
over the first 10 years of the eradication program with a cost peak of 
$31,974,354 in the fifth year and projected funding decreasing 
afterwards. At the end of 2009, $145,996,000 (not counting rescissions) 
has been spent and peak-year funding was only $18.6 million in 2006 
(see exhibit A ``Scrapie Funding Comparisons'').
    The program cannot function properly without sufficient funding for 
diagnostic support, surveillance and enforcement of compliance 
activities that are dedicated to scrapie eradication as an animal 
health priority. We believe that funding the scrapie eradication 
program at an appropriate level will help provide for an achievable 
eradication program and eventually scrapie-free status for the United 
States. As with the other successful animal disease eradication 
programs conducted by USDA/APHIS in the past, strong programs at the 
State level are key. Without strong, appropriately funded scrapie 
programs at the State level, eradication will not become a reality. 
Only a fraction of what USDA/APHIS projected for State scrapie 
cooperative agreements has been spent. In addition to recommending 
funding of $28.687 million for fiscal year 2011, we urge the 
subcommittee to send a clear message to USDA to (A) make scrapie 
eradication a top disease eradication priority within USDA and the 
APHIS field staff with a focus on animal identification compliance and 
enforcement; and (B) increase the slaughter-surveillance numbers so 
that the disease can be found and dealt with wherever it resides.
                      wildlife services operations
    With well over one-quarter million sheep and lambs lost to 
predators each year, the Wildlife Services (WS) program of USDA-APHIS 
is vital to the economic survival of the sheep industry. The value of 
sheep and lambs lost to predators and predator control expenses are 
second only to feed costs for sheep production. Costs associated with 
depredation currently exceed our industry's veterinary, labor and 
transportation costs.
    WS cooperative nature has made it the most cost effective and 
efficient program within the Federal government in the areas of 
wildlife management and public health and safety. WS has more than 
2,000 cooperative agreements with agriculture, forestry groups, private 
industry, State game and fish departments, departments of health, 
schools and county and local governments to mitigate the damage and 
danger that the public's wildlife can inflict on private property and 
public health and safety.
    ASI strongly disagrees with the Administration's proposed reduction 
of nearly $7 million in WS operations from the $77,780,000 enacted for 
2010 to the proposed $71,000,000 and urge the subcommittee to fund WS 
operations at least at the 2010 level of $77,780,000. Such a reduction 
would place a larger burden on the livestock industry, as well as 
county and State government cooperators which already fund far more of 
the livestock protection programs than Federal sources.
    We urge the subcommittee to increase funding at the livestock 
industry's request for the western region of Wildlife Services 
operations of livestock protection to $19 million and the eastern 
region to $3.6 million.
    The western region requires an additional $8.3 million to meet the 
$19 million federally sourced level of the livestock protection 
program. Federal funding available for livestock predation management 
to the western region program has remained relatively constant for 
approximately 16 years. WS program cooperators have been forced to fund 
more and more of the costs of the program. The Federal base funding for 
WS western region has increased only 5.6 percent in the past 10 years 
while cooperative funding has increased 110 percent. This increase has 
primarily come from individual livestock producers, associations, 
counties and States.
    The eastern region requires $3.6 million of increased 
appropriations to meet the needs of the 11 States that participate in 
livestock protection programs with only $878,000 in current funding 
($650,000 of which is non-Federal). The $3.6 million needed for the WS 
eastern region would help fund livestock predation protection programs 
in Pennsylvania, Virginia, West Virginia, Mississippi, Minnesota, 
Michigan, Florida, Ohio, Tennessee, Kentucky, and Wisconsin.
    Additionally, new Federal mandates and program investments such as 
narrow-banding of radios, computer record keeping and compliance with 
the Endangered Species Act are requiring a larger portion of the 
already stretched budget and negatively impacting the amount of 
livestock predation management work that WS can conduct.
    We encourage and support continued recognition in the 
appropriations process of the importance of aerial hunting as one of WS 
most efficient and cost-effective core programs. It is used not only to 
protect livestock, wildlife and endangered species but is a crucial 
component of the WS rabies control program.
    Similar to the increasing needs in the aerial hunting program, we 
encourage continued emphasis in the programs to assist with management 
of wolf depredation in the States of Montana, Idaho, Wyoming, 
Minnesota, Wisconsin, Michigan, New Mexico and Arizona. Additionally, 
program expenses are expected to increase in the States surrounding the 
Montana, Idaho and Wyoming wolf populations.
                 wildlife services methods development
    The sheep industry considers control of canid predation on sheep as 
a major concern and believes an array of control tools and 
methodologies, which includes predacides, is critical. Weather 
conditions, topography, different species of predators, vegetation 
cover and government regulations all pose situations in which one tool 
may not work for an area or period and another tool must be employed. 
The Administration's proposed reduction from $18,630,000 to $16,064,000 
is not supported by the cooperators of the program.
    The USDA, APHIS, WS, Methods Development Center is currently 
evaluating a theobromine and caffeine mixture as a possible tool for 
predation management. The mixture induces mortality in coyotes with 
minimal morbidity. The mixture is selectively toxic to canids and is 
present in high concentrations in the extract of tea, coffee and cocoa 
plants. Because theobromine and caffeine are readily available to 
persons and pets, the medical community has developed antidotes. The 
Agency estimates that it will cost $1.5 million to complete field 
studies and other EPA registration requirements. ASI urges the 
subcommittee to recommend funding for this research and registration 
effort in the fiscal year 2011 budget.
                 farm and foreign agricultural services
Foreign Agricultural Service (FAS)
    The sheep industry participates in FAS programs such as the Market 
Access Program (MAP), Quality Samples Program (QSP) and the Foreign 
Market Development Program (FMD). ASI strongly supports appropriations 
at the full authorized level for these critical FAS programs. ASI is 
the cooperator for American wool and sheep pelts and has achieved solid 
success in increasing exports of domestic product. Exports of American 
wool have increased dramatically with approximately 60 percent of U.S. 
production now competing overseas.
             natural resources conservation service (nrcs)
    ASI urges increased appropriations for the range programs of the 
Soil Conservation Service to benefit the private range and pasture 
lands of the United States with conservation assistance. We support the 
budget item and recommend an increased level for the Grazing Lands 
Conservation Initiative, which ASI and other livestock and range 
management organizations have worked jointly with to address this 
important effort for rangelands in the United States.
                   research, education and economics
    Our industry is striving to be profitable and sustainable as a user 
of and contributor to our natural resource base. Research, both basic 
and applied, and modern educational programming is essential if we are 
to succeed. We have been disappointed in the decline in resources USDA 
has been targeting toward sheep research and outreach programs. In 
order for the sheep industry to continue to be more globally 
competitive, we must invest in the discovery and adoption of new 
technologies for producing, processing and marketing lamb and wool. We 
urge the subcommittee to recommend a bold investment in sheep and wool 
research.
Agricultural Research Service (ARS)
    Infectious Diseases and the Domestic-Wildlife Interface project is 
a top priority to address as it is one of the most pressing issues 
facing the U.S. sheep industry. ASI strongly endorses a request for 
appropriations to fund this project as do the numerous State sheep 
producer associations and the Wild Sheep Foundation. This vital 
research will help resolve one of the more important issues of the 
western sheep industry.
    The research funding is targeted toward the development of methods 
to control infectious diseases at the domestic-wildlife interface with 
specific focus on bighorn sheep health and species compatibility. These 
funds are to be directed to ARS's Animal Disease Research Unit that is 
co-located with the University of Idaho and Washington State 
University. The funds are to be used in collaborative research efforts 
with those institutions, the U.S. Sheep Experiment Station in Dubois, 
Idaho, and in collaboration with other agencies as appropriate.
    The request will provide for acquisition of genetic and disease 
transmission details leading to the development of vaccines, which are 
critical for the continued grazing of sheep on public lands and healthy 
bighorn herds. $900,000 is requested for fiscal year 2011 to be 
directed to the Animal Disease Research Unit, ARS-USDA, co-located at 
the University of Idaho and Washington State University to develop 
methods to control infectious diseases at the domestic animal interface 
with specific focus on bighorn sheep health and species compatibility.
    We continue to vigorously support the administration's funding of 
research concerning emerging and exotic diseases. Emerging and exotic 
diseases continue to have significant impact on industry global 
competitiveness due to animal health and trade issues related to 
endemic, exotic and wildlife interface disease issues. The continued 
and expanded support of animal disease research is urgently needed to 
protect the U.S. livestock industry. Scrapie, the transmissible 
spongiform encephalopathy of sheep, remains an industry priority. We 
respectively request that the subcommittee urge ARS to continue 
important research aimed at rapid diagnostic methods and the role of 
other small ruminants as environmental sources of the TSE agent in 
transmission of TSEs within the United States and the world to further 
understand the basis of genetic resistance and susceptibility to this 
devastating disease.
    A virtual map of the sheep genome has been completed. A more 
complete sheep genome sequence is now essential because, as expected, 
there are significant inconsistencies in the virtual map that will 
hinder the use of SNPs in animal or population evaluations. The USDA 
Animal Genomics Strategic Planning Task Force recently released a 
``Blueprint for USDA Efforts in Agricultural Animal Genomics.'' In this 
document, it is stated: ``. . . sheep . . . should have a high quality 
draft genome sequence (approximately 6X). This level of genome sequence 
quality is necessary for accurate functional genomics studies as well 
as comparative analyses.'' By investing in sequencing the sheep genome 
now, the United States helps insure our competitive position in the 
global marketplace for sheep, wool and their products. A much needed 
AFRI grant was awarded in 2009 for the purpose of further sequencing 
the sheep genome. We urge the subcommittee to remind USDA/ARS that 
sheep genome sequencing should be a high priority within its program to 
help assure the completion of the effort in a timely manner.
    Due to the extreme importance of agricultural genomics in enhancing 
the global competitiveness of sheep production and the recent progress 
toward fully sequencing the sheep genome, we respectively request that 
this initiative be expanded within ARS to include sheep genomics. 
Endemic, exotic and domestic agricultural animal wildlife interface 
infectious diseases continue to impose significant impact on the 
economy of animal agriculture and the related food supply. Most 
recently the presumed infectious disease risk associated with contact 
between domestic and bighorn sheep has led to significant economic 
hardship. Genomics represents a unifying tool for many scientific 
disciplines and is capable of providing research resolutions to the 
most difficult disease and resulting economic losses. Genomic research 
efforts should be directed to the early determination of which sheep 
are susceptible to disease and responsible for economic losses. High 
throughput genomics has ushered in a new era of unifying research 
regarding the ability to link control of chronic, economically 
important diseases such as OPPV and important production traits.
    Research into Johne's disease has received additional funding 
through ARS over the past several years with a focus on cattle. Johne's 
disease is also endemic in the U.S. sheep population and is not well 
understood as a sheep disease. The same food safety concerns exist in 
both sheep and cattle. Other countries are also very concerned about 
Johne's in sheep. We urge the subcommittee to send a strong message to 
ARS that Johne's disease in sheep should receive more attention with an 
emphasis on diagnostics.
    In response to USDA's strategic goals of expanding opportunities 
for bio-energy and bio-based products, we request that the subcommittee 
recommend $400,000 as a targeted increase for the USDA/ARS Eastern 
Regional Research Center (ERRC) at Wyndmoor, Pennsylvania, to be 
directed toward research on wool at the molecular level focusing on 
anti-microbial properties, flame retardation and enhancement of fiber 
properties through enzyme treatments targeting high priority military 
needs and other niche market applications for consumers.
National Institute of Food and Agriculture (NIFA)
    The Minor Use Animal Drug Program has had great benefit to the U.S. 
sheep industry. The research under this category is administered as a 
national program, NRSP-7, cooperatively with FDA/CVM to provide 
research information for the approval process on therapeutic drugs that 
are needed. The mission of the Minor Use Animal Drug Program/NRSP-7 is 
to identify animal drug needs for minor species and minor uses in major 
species, to generate and disseminate data for safe and effective 
therapeutic applications and to facilitate FDA approval for drugs 
identified as a priority for a minor species or minor use. The program 
is funded through a USDA Special Research Grant administered by NIFA. 
The program also receives in-kind support from several sources 
including the institutions conducting the research (e.g., State 
Agriculture Experiment Stations), animal producer groups through 
contributions of animals for research, and pharmaceutical companies. 
Without this program, American sheep producers would not have effective 
products to keep their sheep healthy. We urge the subcommittee to fund 
the NRSP-7 program at the level of $1 million for 2011.
    On-going funding for the Food Animal Residue Avoidance Databank 
(FARAD) program is critically important for the livestock industry in 
general and especially for ``minor species'' industries, such as sheep, 
where extra-label use of therapeutic products is more the norm rather 
than the exception. We urge the subcommittee to recommend that funding 
be restored for this program at least at the level of $1.5 million in 
2011 to help meet the needs of the animal industries. FARAD provides 
veterinarians the ability to accurately prescribe products with 
appropriate withdrawal times protecting both animal and human health as 
well as the environment.
    On-going research to improve value quantification and marketing of 
wool is critically important to the sheep and wool industry.
    The Livestock Marketing Information Center (LMIC) is a unique and 
very effective cooperative effort. This is not a State specific effort; 
it operates as a national virtual ``Center of Excellence'' for 
extension education, research and public policy. Members of LMIC 
represent 26 Land Grant Universities, six USDA agencies and a variety 
of associate institutions. In conjunction with the USDA's Economic 
Research Service (ERS), this cooperative effort started in the mid-
1950s. This effort is an integral part of U.S. livestock marketing and 
outlook programs for cattle, hogs, sheep, dairy and poultry. Demands on 
the LMIC staff continue to increase from other USDA agencies, Land 
Grant Universities, State governments, commodity associations and 
directly from producers. We strongly urge that funding should be 
reinstated under NIFA at least at the 2006 level of $194,000 for LMIC 
in fiscal year 2011.
Food and Drug Administration, Center for Veterinary Medicine
    The Minor Use and Minor Species (MUMS) Animal Health Act of 2004 
included a provision to make competitive grants available to fund 
studies to support new animal drug approval for new animal drug 
products for minor use and minor species indications that have already 
obtained ``designated'' status. This grants program parallels the human 
orphan drug grants program. The final rule became effective October 
2007 for the administration of this program. All drugs labeled for 
sheep fall under the minor-use category, therefore, this program should 
be very helpful to our industry. ASI urges Congress' support for $1 
million for the MUMS grants program.

                 EXHIBIT A--SCRAPIE FUNDING COMPARISONS
------------------------------------------------------------------------
                                               APHIS
                  Year                    projections in  Funds received
                                               2000        by APHIS \1\
------------------------------------------------------------------------
2000....................................  ..............     $12,991,000
2001....................................      $6,310,778       3,024,000
2002....................................      20,000,000       9,122,000
2003....................................      20,438,943      15,373,000
2004....................................      30,056,592      15,607,000
2005....................................      31,974,354      17,768,000
2006....................................      30,794,507      17,911,000
2007....................................      26,994,991      18,487,000
2008....................................      26,994,991      17,980,000
2009....................................      26,994,991      17,733,000
2010....................................      26,994,991      17,906,000
------------------------------------------------------------------------
\1\ Does not count rescissions.

                                 ______
                                 

   Prepared Statement of the American Society for Microbiology (ASM)

    The American Society for Microbiology (ASM), which includes 40,000 
members, is pleased to submit the following testimony on the fiscal 
year 2011 appropriation for the Food and Drug Administration (FDA). The 
ASM recommends $2.857 billion for the FDA in fiscal year 2011, a $495 
million increase above the Agency's fiscal year 2010 funding. The ASM 
is pleased to see that the Administration's proposed fiscal year 2011 
FDA budget of $2.5 billion represents an increase of about 6 percent 
over fiscal year 2010. This is noteworthy at a time when most funding 
for Federal programs is being frozen or cut. We also appreciate that 
after years of chronic underfunding, the FDA budget has recently begun 
to recover. However, given the FDA's substantial role in protecting the 
American consumer, the ASM urges Congress to consider increasing the 
FDA's budget above that requested by the President to a level of $2.857 
billion.
    The FDA's expansive mission is to assure the safety, efficacy and 
security of human and veterinary drugs, biological products, medical 
devices, the Nation's food supply, cosmetics and products that emit 
radiation; to facilitate innovation in food safety and affordable 
medicine; and to provide the public with science based information to 
help Americans make wise choices and safeguard public health. Because 
of its oversight of drugs, biologics, foods and laboratory tests, FDA 
plays a critical role in the development and dissemination of medical 
countermeasures for biological, chemical and radiologic attacks.
    Despite some recent improvements, serious deficiencies in FDA 
resources persist. These problems have been highlighted by several 
critical external reviews in recent years most prominently its own 
Science Board Report released in 2007, FDA Science and Mission at Risk. 
Products regulated by the FDA arrive from more than 150 countries, with 
nearly 20 million shipments of food, devices, drugs and cosmetics 
expected this year (compared to about 6 million 10 years ago). Faced 
with a flood of consumer goods, the FDA's import inspectors (fewer than 
500) typically examine only 1 percent of shipments at U.S. ports of 
entry. The FDA's own science expertise has failed to keep up with 
innovations in product research and development. Outmoded computing 
also complicates oversight by the FDA. Informed by expert advice, the 
FDA is currently attempting to transform food safety, better protect 
patients from unsafe products and revitalize its own scientific 
enterprise. Important steps have been taken to upgrade information 
technology and management at the FDA. However, without more substantial 
increases in funding, the Agency will barely keep up much less 
strengthen the scientific infrastructure that is so badly needed. In 
the fiscal year 2011 budget, the ASM believes that two areas need 
particular attention: one is to assure sufficient resources to continue 
efforts to transform Agency approaches to food safety and the second is 
to enable FDA to implement new mechanisms to enhance scientific 
expertise and capacity in key areas.
                        transforming food safety
    The FDA needs additional resources to overhaul and modernize its 
food safety efforts. Regulation of the U.S. food supply is a monumental 
challenge for the FDA foods program, which has responsibility for $417 
billion worth of domestic food, $49 billion worth of imported food, and 
$62 billion worth of cosmetics per year. As a result, the FDA oversees 
about 156,000 registered U.S. food establishments, 230,700 registered 
foreign facilities, and more than 3,500 cosmetic firms. The ASM 
appreciates efforts made last year by the Congress and the 
Administration to improve the safety and security of the Nation's food 
supply. The President's new Food Safety Working Group reaffirmed 
previous external reviews of FDA regulatory activities that supported 
upgrading food safety through a greater focus on prevention as a 
priority, better surveillance and enforcement capabilities, and 
improved response to identified threats.
    Advances in food safety require funding levels that can sustain 
long term efforts, such as the Agency's wide-ranging fight against 
Salmonella species that are responsible for more than a million 
illnesses each year and the leading cause of foodborne illness in the 
United States. Salmonella enteritidis (SE) accounts for about 17 
percent of all salmonellosis in humans, with shell eggs and broiler 
chickens the most common sources. One high priority FDA goal is to 
decrease, by the end of 2011, the annual number of illnesses and 
outbreaks linked to SE in this country by 10 percent. In July 2009, the 
FDA published its final rule on preventing SE in shell eggs, affecting 
production on farms, storage and transportation and requiring producers 
to maintain compliance records. The FDA expects the new regulation to 
prevent 79,000 cases of SE associated foodborne illness and 30 deaths 
each year, with eventual annual savings in medical costs estimated to 
be $1.4 billion or more.
    The FDA also continues to strengthen its collaborations with other 
government agencies, academic and industry entities and professional 
organizations, toward enhancing its own performance. Last year, the 
Agency opened its Reportable Food Registry electronic portal, where 
food manufacturers are required to alert the FDA within 24 hours if 
they suspect a health threat is linked to their products. In the case 
of food product tracing, the Agency announced in November its 
partnership with the USDA to expedite improvements in tracing specific 
foods throughout the supply chain, and solicited public input. A week 
later, CFSAN released a report on food product tracing that it had 
commissioned from the Institute of Food Technologists to help redesign 
its food surveillance. In fiscal year 2009, the FDA awarded 83 grants 
worth $17.5 million to State and local groups to build food safety 
initiatives; for example, three States received funding for Food 
Protection Rapid Response Teams especially trained to respond to food 
hazard incidents. Grants support FDA's ongoing strategy to integrate 
food safety among Federal, State, and local partners. This program 
needs to be expanded to additional States as quickly as possible.
                   building fda science & technology
    The FDA's capacity in regulatory science, which underlies all 
Agency activities, has been under great scrutiny since the FDA Science 
Board's highly critical 2007 review of FDA science and technology. 
There is an indisputable need for leading edge science and technology 
capabilities within the FDA to provide the careful review of today's 
innovative medical products and burgeoning food supply that the public 
expects and demands. Last year, the FDA approved the first DNA test for 
two specific human papillomaviruses, while other FDA researchers showed 
that a nanotechnology based test could detect anthrax bacteria in 
quantities 100 times lower than current tests. Both diagnostics rely on 
emerging technologies that certainly must be within a flexible FDA 
portfolio of scientific expertise.
    The ASM applauds the Administration's $25 million budget request 
for advancing regulatory science, the first time that fiscal support 
has been explicitly designated for building FDA science. Solid science 
must be the basis for the numerous FDA rules and guidelines promulgated 
to industry here and abroad. The request includes funding for 
nanotechnology safety review, a stem cell initiative, and multi-faceted 
support for FDA's Critical Path Initiative and its new Office of 
Science and Innovation. However, the ASM believes more needs to be done 
in this area.
    The FDA Science Board review of Science and Technology at FDA (FDA 
Science and Mission at Risk, 2007) found that the FDA mission was at 
risk for the following key reasons:
  --The FDA scientific base has eroded and its scientific 
        organizational structure is weak at a time when there have been 
        major scientific advances and when new products and 
        technologies under the regulatory authority are more 
        scientifically complex.
  --The FDA scientific workforce does not have sufficient capacity and 
        capability.
  --The FDA information technology (IT) infrastructure to support the 
        scientific base is inadequate.
    Food safety, just one mission area for the FDA, is an important 
case study demonstrating the urgent need to build regulatory science at 
the FDA. Food safety today is largely based on 1970-1980s science and 
1950s regulation approaches. It is critical that policy, science and 
public health experts collaborate to identify where the science and 
practice of regulation is significantly limited for food safety and 
then develop and implement a strategic road map to mitigate these 
deficiencies. In some cases that will require the development and 
support for new technologies that have little to no commercial or 
academic value so they remain ``orphan technologies'' and in other 
cases it will require translating new science (industry, academic or 
government supported) into more effective regulations and then provide 
training for how to apply and enforce these new regulations.
    The 2007 Science Board report recognized that the FDA is confronted 
by many such regulatory challenges and recommended the development of a 
FDA Centers of Excellence network to strengthen the science capability 
of the FDA and to discover solutions for complex problems such as food 
safety. At the time of its release the ASM strongly endorsed the 
recommendations of the Science Board report and believes that 
establishment of Academic Centers of Excellence in Regulatory Science 
will rapidly and efficiently build FDA science capability and capacity 
through three types of activities: research and innovation, regulatory 
services and education. All the activities of the Centers of Excellence 
would be grounded in a well developed and disciplined applied research 
agenda in regulatory and information sciences.
    Regulatory and information sciences are the foundation of the FDA's 
mission. Regulatory science is a broad term concerning drug, food and 
other product regulations, regulatory standards, law and procedures 
across many disciplines. It is a systemized body of knowledge 
(practiced by FDA and similar regulatory agencies worldwide) comprising 
public protection oriented medical product regulations, policy and 
decisions using scientific methods employing empirical and causal 
evidence utilized in the evaluation and approval of all the products 
that FDA regulates. The activities for which FDA needs such expertise 
are wide-ranging: the review and assessment of laboratory data; animal 
and human clinical data; methods development; facilities inspection; 
and development of technical and scientific standards for preclinical 
assessment, product development, postmarket surveillance, 
manufacturing, packaging standards, food safety standards and food 
processing technologies. FDA must have the scientific expertise, 
resources and collaborations to ensure that the regulatory scientific 
research priorities are addressed and that services will be delivered 
that provide a basis to: (1) Improve capacity for safety and efficacy 
evaluations and monitoring of candidate and licensed products, (2) 
Modernize current regulatory pathways, and (3) Develop new regulatory 
pathways where there are currently none.
    The lack of new science capability or capacity places the FDA's 
mission at risk, and may actually stall progress in development of 
products at the leading edge of innovation. This compromises not only 
the public health mission since the Agency cannot effectively regulate 
products built on emerging science, but it also compromises the 
Agency's ability to support innovation in the industries and markets 
that it regulates. These logistical, technical and budgetary 
limitations will continue to constrain, rather than enable, the 
innovation on which advances in healthcare delivery and public safety 
depend.
    The recognition that the FDA is a science based and ultimately 
science dependent organization is the basis for the 2007 Science Board 
report recommendation for the creation of a Center of Excellence in 
Regulatory Science within the Agency and an external network of Centers 
of Excellence in regulatory and information science. A network of 
Centers of Excellence based in research intensive institutions could 
deliver the scientific and informatics expertise that will result in 
the tools, methods and information that the FDA requires to fulfill its 
mission. The network will provide opportunity for the FDA to harness 
the substantial potential of the academic sector where many of the 
innovations and early applications of emerging technologies are likely 
to occur. Each center might bring to the FDA a particular incremental 
expertise. For example, centers might add critical mass to the FDA 
mission by providing expertise in novel approaches to trial design; to 
the development of novel informatics tools or to various aspects of 
translational therapeutics wherein preclinical and clinical information 
studies are designed and integrated to enhance prediction of efficacy 
and safety of novel therapeutics. In addition to providing critically 
important access to safety data, patients, health outcomes, enabling 
technologies and process or technical expertise, the centers will 
enable targeting limited resources to the research priorities that are 
most relevant to the health and public safety challenges faced by the 
FDA. Importantly, these will allow the Agency to address important 
safety issues and opportunities for disease intervention in a proactive 
rather than a reactive manner.
    Our best estimate for the cost of the Centers of Excellence network 
is $650 million over 5 years, or $150 million per year. As a first 
step, the Administration and Congress should consider implementing the 
internal FDA Center ($70 million in fiscal year 2011) and establishing 
at least four of the external Centers ($40 million or $10 million per 
center in fiscal year 2011). The ASM encourages Congress and the 
Administration to begin the establishment of the Centers of Excellence 
network in fiscal year 2011.
    Thank you for the opportunity to comment on the FDA budget.
                                 ______
                                 

   Prepared Statement of the American Society for Microbiology (ASM)

    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2011 appropriation for the 
Department of Agriculture (USDA) science programs. The ASM is the 
largest single life science organization in the world with more than 
40,000 members. The ASM mission is to enhance the science of 
microbiology, to gain a better understanding of life processes, and to 
promote the application of this knowledge for improved health and 
environmental well-being.
    USDA supported scientific research strengthens food safety, water 
quality, agriculture production, clean energy, and animal and public 
health. The ASM endorses the Administration's proposed fiscal year 2011 
funding for the USDA's science and food safety programs, including $1.5 
billion for the National Institute for Food and Agriculture (NIFA), and 
about $1 billion for the Food Safety and Inspection Service (FSIS). The 
ASM strongly endorses the proposed $429 million for the USDA's recently 
created NIFA Agriculture and Food Research Initiative (AFRI) as an 
important step, but encourages Congress to fund AFRI at its fully 
authorized level of $700 million.
    Agriculture in the United States produces $300 billion worth of 
products each year. USDA employees including, scientists, inspectors, 
educators, and regulatory experts, deliver public services through more 
than 300 programs here and abroad. Increased funding will strengthen 
programs focused on threats to the U.S. food supply, as well as climate 
change and other environmental challenges facing our agribusiness 
sectors. Funding also will sustain the USDA support for basic and 
applied research at the Nation's universities and land grant 
institutions.
    The recently established, National Institute of Food and 
Agriculture, funds research, education, and extension activities that 
advance knowledge critical to U.S. public health and our national 
economy. The USDA also formulated new food safety rules in 
collaboration with the Food and Drug Administration (FDA). These 
science based actions align with the Agency's fiscal year 2011 strategy 
to focus USDA research on high impact solutions like radically improved 
food safety and innovations in biofuels and climate stress resistant 
crops. The ASM urges the Congress to recognize the importance of USDA 
science with strong fiscal year 2011 funding levels.
                   improving food safety and security
    The USDA is responsible for ensuring that our meat, poultry, and 
processed egg products are safe, wholesome and properly labeled. These 
products, from both domestic and foreign sources, account for roughly 
20 percent of the U.S. food supply. There are innumerable possibilities 
for contamination within the massive system that feeds Americans, who 
spend nearly $1.2 trillion on food annually. Disease outbreaks from 
foodborne microbial pathogens persist as sporadic public health crises, 
and about 76 million new cases of food related illness are reported 
each year, with likely many more unreported. A new report estimates the 
total economic impact of U.S. foodborne illness to be a combined $152 
billion annually.
    In 2007, and again in 2009, the Government Accountability Office 
(GAO) listed ``revamping Federal oversight of food safety'' among its 
high risk areas demanding immediate Federal attention and resources. 
Last September, another GAO report called for the FDA and USDA to close 
gaps in their collaborative oversight of imported foods. In 2009, the 
new Food Safety Working Group (FSWG) co-chaired by the Secretaries of 
the USDA and the Department of Health and Human Services recommended 
actions that will shape how USDA science affects future food safety 
standards. The proposed fiscal year 2011 USDA budget would specifically 
address several key FSWG findings, including the development of better, 
high tech tools to reduce the prevalence of pathogens, as well as risk 
based methods for targeting inspections of USDA regulated products.
         the national institute of food and agriculture (nifa)
    The ASM supports the Administration's proposed $1.5 billion for the 
USDA's National Institute of Food and Agriculture. In 2009, the newly 
created NIFA replaced the Cooperative State Research, Education, and 
Extension Services (CSREES) program as the USDA's extramural research 
enterprise. Its principal responsibility is linking together a diverse 
nationwide collection of Federal, State, and higher education entities 
involved in agriculture related research. Like its predecessor, NIFA 
supports new scientific discoveries and provides Federal leadership in 
key areas including food safety, climate change, clean energy and 
public education.
    The NIFA's mission is to fund projects at the State and local level 
through 60 target driven programs, which have been grouped by the USDA 
into a dozen national emphasis areas: agricultural systems; animals; 
biotechnology and genomics; economics and community development; 
education; environment and natural resources; food, nutrition and 
health; international; pest management; plants; technology and 
engineering; and families, youth and communities.
            agriculture and food research initiative (afri)
    The ASM strongly supports the Administration's proposed budget for 
AFRI of $429 million, an increase of $166 million from fiscal year 
2010. AFRI, the Nation's leading funding source for basic and applied 
sciences in agriculture, was created by the Food, Conservation, and 
Energy Act of 2008 as a competitive grants program for research, 
extension, and education activities. The ASM supports the end goal of 
funding AFRI to its fully authorized level of $700 million annually and 
stresses that a fiscal year 2011 budget of $429 million is only a 
crucial first step.
    Funding for AFRI will support critical USDA initiatives on 
biofuels, global climate change, international food security, food 
safety, and nutrition.
    Through competitive, peer reviewed grants, AFRI promotes creative 
solutions across disciplines throughout the United States. Grants 
awarded in 2010 will be larger in size and longer in duration than 
previous CSREES awards, matching resources with the magnitude of 
challenges currently faced by agriculture.
    USDA supported discoveries have significant health and economic 
impact. In 2009, researchers reported a protein in Clostridium bacteria 
that protects spores of the foodborne pathogen from heat and sodium 
nitrite, imparting resistance to common food hygiene techniques. C. 
perfringens is the second most common bacterial cause of foodborne 
illness in the United States, affecting as many as 250,000 people each 
year. A new poultry vaccine against Campylobacter bacteria, using 
genetically engineered Salmonella to induce antibodies in chicks, is 
under development. Campylobacter is the most common bacterial cause of 
U.S. foodborne illness, infecting an estimated 2.4 million people 
annually. Contaminated poultry is a significant reservoir for human 
infection and, more importantly, infection by drug resistant strains of 
Campylobacter.
    Multi-year AFRI grants awarded in 2009 include projects to (1) 
sequence the genomes of Chlamydiaceae bacterial species that cause 
severe livestock diseases and significant annual economic losses, to 
inform drug and vaccine development; (2) determine the fate of 
antibiotic containing poultry litter applied to pastures as fertilizer, 
testing antibiotic levels in surface waters affected by runoff; and (3) 
develop a new soil-phosphorus index based on molecular biological and 
biochemical assays of soil microorganisms. Current AFRI funding 
opportunities for fiscal year 2011 include projects in carbon cycle 
science and in risk assessment of biotechnology generated agricultural 
products.
                   agriculture research service (ars)
    Since fiscal year 2009, the ARS budget has decreased by more than a 
staggering thirteen percent. This disturbing trend is continued with 
the Administration's proposed fiscal year 2011 budget for the ARS of 
$1.22 billion, a further 4 percent reduction from fiscal year 2010. ASM 
strongly urges Congress to fund the ARS with at least $1.4 billion in 
fiscal year 2011 to begin to regain the critical research capabilities 
lost with previous reductions.
    The ARS is the Department's principal in house research component, 
with an 8,000 member workforce that includes 2,100 scientists from 
diverse disciplines. It maintains about 1,200 research projects at more 
than 100 U.S. locations and four overseas laboratories. Its national 
research programs include food safety, global climate change, 
bioenergy, and food animal production, among others. To strengthen its 
own research efforts, ARS has a long history of partnering with 
commercial firms to transfer ARS technologies to the marketplace.
    The ARS portfolio also utilizes international research partnerships 
to address global issues. Food safety and food security, for example, 
must be dealt with far beyond the United States, which imports 15-20 
percent of its food supply and is vulnerable to migrating pathogens. 
Current collaborations include an Argentina study of immune responses 
to the virus that causes foot and mouth disease in cattle, to identify 
the genetic basis of why some animals are more resistant to disease; 
and the creation of a virtual Joint U.S.-Sino Food Safety Research 
Center with Shanghai Jiao Tong University, to promote training and 
research programs in China and the cooperative development of new 
analysis methods like biomarker screening for Salmonella and other 
foodborne pathogens.
               food safety and inspection service (fsis)
    The ASM endorses the Administration's fiscal year 2011 budget for 
USDA's Food Safety and Inspection Service of $1.05 billion. Sufficient 
funding for the FSIS is crucial to successful oversight of the Nation's 
food supply.
    The FSIS provides the USDA regulatory force to ensure the safety of 
domestic and imported meat, poultry and egg products (liquid, frozen, 
and dried). It employs about 9,250 full-time staff, including more than 
8,500 deployed in the field. FSIS personnel inspect more than 6,280 
federally regulated meat, poultry, and egg product plants in 50 States, 
Puerto Rico, Guam and the U.S. Virgin Islands. In fiscal year 2009, 
those facilities processed 150 million head of livestock and nine 
billion poultry carcasses.
    The FSIS science-based inspection system, the Hazard Analysis and 
Critical Control Point (HACCP) system, emphasizes prevention and 
control of foodborne threats to public health. FSIS inspectors verify 
that individual food producers and processors meet HACCP requirements, 
determined by routine sampling of products for pathogens like 
Salmonella and Listeria monocytogenes. In fiscal year 2009, FSIS 
personnel condemned more than 527 million pounds of poultry and 227,000 
head of livestock during pre and post slaughter inspections. That year, 
more than 3.4 billion pounds of meat and poultry were presented to FSIS 
for import from 20 eligible countries, with 6.6 million pounds refused 
entry or rejected post inspection. Also in fiscal year 2009, there were 
71 recalls of FSIS regulated commercial products, totaling 9.5 million 
pounds; and 27 recalls were linked to contamination by Listeria and E. 
coli bacteria.
                      education and collaboration
    The USDA is the lead Federal agency for higher education in the 
food and agriculture sciences; in particular, NIFA's Office of Higher 
Education Programs links teaching, research and extension activities. 
Its mission includes the training of food and agriculture scientists 
and other professionals. Ten percent of the AFRI budget is marked for 
USDA Strengthening Awards and postdoctoral fellowships. The proposed 
fiscal year 2011 budget allocates up to $5 million for pre- and 
postdoctoral grants, designed to create ``a cadre of NIFA Fellows'' as 
agriculture's next generation of scientists, educators, and 
practitioners. Many of the AFRI funded programs require that education 
and outreach activities be integrated with research components.
    Fiscal support for USDA science yields benefits that reach far 
beyond the Agency's immediate responsibilities. The Agency routinely 
establishes collaborations with other Federal agencies, State agencies, 
land grant universities, non profit organizations, professional 
societies, commodity groups and grower associations, private industry, 
the military, various foreign government and academic entities, and 
other groups. For example, FSIS participates in the Foodborne Diseases 
Active Surveillance Network with the FDA and Centers for Disease 
Control and Prevention (CDC), and, with the FDA, is responsible for the 
Healthy People 2010 food safety objectives. In October, USDA agreed to 
help FDA personnel develop new safety rules for fresh produce. Last 
year, the FDA and the USDA's Animal and Plant Health Inspection Service 
created an online tool to help farmers and producers identify and fix 
vulnerabilities in their production processes. FSIS will partner with 
other government agencies to provide on-site expertise at the new 
Commercial Targeting and Analysis Center for Import Safety, recently 
opened in Washington, DC, by the U.S. Customs and Border Protection 
agency.
    The proposed fiscal year 2011 USDA budget will support much needed 
improvements in the Agency's ability to carry out its regulatory duties 
more efficiently and more quickly. Computing capabilities will be 
upgraded and expanded within key program areas like FSIS. The USDA 
expects to begin phased in implementation of its Public Health 
Information System (PHIS) in October, automating food safety 
verification and sampling procedures by FSIS personnel. PHIS will link 
in real time with the CDC's PulseNet human outbreak system, addressing 
in part the GAO's criticism of interagency gaps in Federal food 
oversight.
                               conclusion
    The ASM urges Congress to increase research and education funding 
in the USDA budget, and provide at least $1.5 billion for NIFA, at 
least $429 million for AFRI, at least $1.4 billion for ARS, and $1 
billion for FSIS.
    Research in the agricultural and biological sciences is imperative 
to combat current and future threats to human, environmental, plant and 
animal health. The research supported by the USDA should be a priority 
that deserves steady, predictable and sustainable funding; the future 
of our agricultural systems, a basis for human health, relies on it.
    The ASM appreciates the opportunity to provide written testimony 
and would be pleased to assist the subcommittee as it considers the 
fiscal year 2011 appropriation for the USDA.
                                 ______
                                 

     Prepared Statement of the American Society for Nutrition (ASN)

    The American Society for Nutrition (ASN) appreciates this 
opportunity to submit testimony regarding fiscal year 2011 
appropriations for the U.S. Department of Agriculture (USDA) and 
specifically, its research programs. ASN is the professional scientific 
society dedicated to bringing together the world's top researchers, 
clinical nutritionists and industry to advance our knowledge and 
application of nutrition to promote human and animal health. Our focus 
ranges from the most critical details of research to very broad 
societal applications. ASN respectfully requests $108 million in fiscal 
year 2011 for the Human Nutrition Research program at the Agricultural 
Research Service. We request $500 million for the Agriculture and Food 
Research Initiative in fiscal year 2011, which is housed under the 
National Institute of Food and Agriculture (NIFA).
    Basic and applied research on nutrition, food production, nutrient 
composition, food processing and nutrition monitoring is critical to 
American health and the U.S. economy. Awareness of the growing epidemic 
of obesity and the contribution of chronic illness to burgeoning 
healthcare costs has highlighted the need for improved information on 
dietary intake and improved strategies for dietary change. Demand for a 
safer and more nutritious food supply continues to increase. 
Preventable chronic diseases related to diet and physical activity cost 
the economy over $117 billion annually, and this cost is predicted to 
rise to $1.7 trillion in the next 10 years. Nevertheless, funding for 
food and nutrition research at USDA over the past two decades has 
neither kept pace with inflation, nor the growing complexity of our 
food supply and public health needs. This decline in our national 
investment in agricultural research seriously threatens our ability to 
sustain the vitality of food, nutrition and agricultural research 
programs and in turn, threatens the future of our economy and the 
health of our Nation.
    USDA historically has been identified as the lead nutrition agency 
and the most important Federal agency influencing U.S. dietary 
patterns. Through the nutrition and food assistance programs, which 
form roughly 60 percent of its budget, USDA has a direct influence on 
the dietary intake (and ultimately the health) of millions of 
Americans. It is important to understand better the impact of these 
programs on the food choices, dietary intake, and nutritional status of 
those vulnerable populations which they serve. Research is the key to 
achieving this understanding and the foundation upon which U.S. 
nutrition policy is built.
    USDA is in full or in part responsible for the development and 
translation of Federal dietary guidance, implementation of nutrition 
and food assistance programs and nutrition education; and, national 
nutrition monitoring. The USDA Human Nutrition Research programs ensure 
nutrition policies are evidence-based, ensure we have accurate and 
valid research methods and databases, and promote new understanding of 
nutritional needs for optimal health.
                  ars human nutrition research program
    ASN's recommendation of $108 million for the Human Nutrition 
Research program at ARS is based on three major components: a requested 
increase by the President for specific projects, funding needs related 
to national nutrition monitoring, and stabilizing, in a graded fashion, 
funding for the six Human Nutrition Research Centers (HNRCs).
                        the president's request
    ASN strongly supports the President's budget request of an 
additional $6.75 million for the Human Nutrition Program under ARS. 
These dollars would be aimed at: supporting key research projects such 
as one studying whether and how American diets adhere to the Dietary 
Guidelines; bolstering the nutrition monitoring program, What We Eat in 
American (WWEIA); and, funding critical updates to www.nutrition.gov, 
which is maintained by the National Agricultural Library.
                     what we eat in america survey
    In addition to supporting the specific request made in the 
President's budget, ASN urges Congress to consider additional needs 
such as those of the What We Eat in America Survey (WWEIA). WWEIA is 
another example of the unique nutrition research at ARS. This program 
allows us to know not only what foods Americans are eating, but also 
how their diets directly affect their health. This survey is a partner 
to the National Health and Nutrition Examination and Survey (NHANES) 
that is run by the CDC's National Center for Health Statistics. 
Information from the survey guides policies on food safety, food 
labeling, food assistance, military rations, pesticide exposure and 
dietary guidance. In addition to having an impact on billions of 
dollars in Federal expenditures for nutrition assistance programs, the 
survey data leverages billions of private sector dollars allocated to 
nutrition labeling, food product development and production. For 
example, data collected through WWEIA provided critical information to 
the Institute of Medicine expert panel reviewing the WIC food package a 
few years ago. The panel's recommendations to USDA, based on these 
data, guided a revision of the food package. The changes have now been 
implemented and are having a positive influence on the nutritional 
intake of WIC participants.
    Despite its enormous value and importance, WWEIA has been flat-
funded at $11.5 million for over 14 years and is in jeopardy. While we 
are grateful that the President proposed $900,000 for the survey, it 
does not go far enough. The USDA budget for WWEIA should be increased 
two-fold to $23 million to make up for losses to inflation over the 
years and to ensure this program can remain a state-of-the-art, 21st 
century data collection effort. Otherwise, we risk losing this national 
treasure and the essential information it provides.
               setting the stage for a successful future
    USDA has built a program of human nutrition research housed in six 
HNRCs\1\ geographically disperse across the Nation and affiliated with 
the ARS, which links producer and consumer interests and forms the core 
of our knowledge about food and nutrition. More than a decade of flat 
funding at ARS for this program seriously jeopardizes the future of the 
centers, their important research projects, and the critical 
infrastructure provided by the USDA from which the HNRCs and scientists 
benefit. These unique centers are working closely with a wide variety 
of stakeholders to determine just how specific foods, food components, 
and physical activity can act together during specific life-stages 
(e.g. prior to conception, in childhood, in older adult years) to 
promote health and prevent disease. The HNRCs are a critical link 
between basic food production and processing and health, including food 
safety issues. Moreover, the center structure adds value by fully 
integrating a multitude of nutritional science disciplines that cross 
both traditional university department boundaries and the functional 
compartmentalization of conventional funding mechanisms.
---------------------------------------------------------------------------
    \1\ Of the six HNRCs, three are fully administered by ARS and are 
located in Davis, CA; Beltsville, MD; and Grand Forks, ND. The other 
three are administered through cooperative agreements with Baylor 
University Medical Center in Houston, TX; Tufts University in Boston, 
MA; and the University of Arkansas in Little Rock.
---------------------------------------------------------------------------
    In addition to supporting the specific request made in the 
President's budget and additional support for WWEIA, ASN urges Congress 
to consider a renewed commitment to the Human Nutrition Research 
Centers program over the next 5 years that would lead to a doubling of 
its current budget to $180 million by fiscal year 2015.
    An important basic premise of research in the HNRCs is that many 
chronic diseases, such as diabetes and obesity, can be prevented by 
lifestyle issues, the most important of which are: consuming 
appropriate amounts of a well-balanced, healthful diet; and regularly 
engaging in adequate levels of physical activity. Using state-of-the-
art facilities and a concentration of critical interdisciplinary 
scientific teams, the HNRCs are conducting the highest quality 
translational research. Also of importance are the long-term 
experiments involving the derivation of dietary reference intake values 
and nutrient requirements of individuals. Often compared to the 
intramural program at the National Institutes for Health, these centers 
tackle projects that are unlikely to be funded through other means, 
such as through competitive grants or by industry.
    Flat-funding coupled with inflation has led to considerable funding 
deficits that threaten to compromise the Centers' abilities to continue 
their work at the level necessary to solve the significant nutrition 
problems facing our country. For example, the ARS HNRC located at Tufts 
University in Boston, MA has been flat-funded at $15 million since 
2004. The Center today would need over $19 million in funding just to 
keep up with the costs of inflation over the past 6 years--a 28 percent 
increase. The other five centers have had similar flat-funding during 
this time period.
    Beginning next year in fiscal year 2012, the provision of 
approximately $18 million in additional funds each year would result in 
a budget by fiscal year 2015 that is double that of today. By making 
this stepwise commitment to the Human Nutrition Research program, 
Congress would ensure that it, through the six HNRCs, can continue 
current research projects, plan for the future and restore purchasing 
power lost to inflation over a decade of flat budgets.
  agriculture and food research initiative competitive grants program
    The Food, Conservation, and Energy Act of 2008 established the 
Agriculture and Food Research Initiative (AFRI), a new competitive 
grants program authorized at $700 million annually, for research, 
extension, and education in support of our Nation's food and 
agricultural systems within the newly established National Institute of 
Food and Agriculture (NIFA) at USDA. This unique program, the successor 
to USDA's National Research Initiative (NRI) and the Initiative for 
Future Agriculture and Food Systems (IFAFS), takes research and 
innovation beyond the development phase, into implementation through 
contemporary education and extension programs.
    ASN is pleased that the NIFA has identified human nutrition and 
specifically, childhood obesity, as a top priority. AFRI includes 
programs aimed to improve the Nation's nutrition and health which focus 
on two objectives: (1) improving human health by better understanding 
an individual's nutrient requirements and the nutritional value of 
foods; and (2) promoting research on healthier food choices and 
lifestyles. For example, USDA-funded projects funded by the Human 
Nutrition and Obesity program have led to a better understanding of the 
behavioral and environmental factors that influence obesity, and to the 
development and evaluation of effective interventions. Specifically, 
USDA competitive grants have funded nutrition education interventions 
focusing on the reduction of childhood obesity in low-income families.
    ASN believes the program should be funded at its full authorization 
level of $700 million, but we understand that in the current fiscal 
climate, that is unlikely. However, with the Nation and world facing 
unprecedented health, food security and nutrition challenges, now is 
the time to renew investment in our Nation's agricultural research 
enterprise. We applaud the President's strong request of $429 million 
for the program with an additional $50 million for nutrition and 
obesity research, but urge Congress to take this a step further and 
fund AFRI at $500 million in fiscal year 2011. Such funding will not 
only position the program to achieve its full funding as we approach 
the next Farm Bill, but it will provide America's agriculture, food and 
nutrition scientists, land managers and farmers with the tools 
necessary to solve problems and keep the country competitive, while 
also protecting the natural resource base and environment, enhancing 
human nutrition and fostering vibrant rural communities.
    The AFRI and the Human Nutrition Research Program under ARS are 
synergistic programs equally important to the nutrition field, because 
together they provide both the infrastructure and the investigator-
initiated, peer-reviewed research that generates new knowledge and 
allows for rapid progress towards meeting national dietary needs. These 
programs allow USDA to make the connection between what we grow and 
what we eat. And through strategic nutrition monitoring, we learn more 
about how dietary intake affects our health.
    ASN thanks your Committee for its support of the ARS and the AFRI 
Competitive Grants Program.
                                 ______
                                 

 Prepared Statement of the American Society of Plant Biologists (ASPB)

    On behalf of the American Society of Plant Biologists (ASPB) we 
submit this statement for the official record in support of increased 
funding for the U.S. Department of Agriculture's (USDA) National 
Institute of Food and Agriculture in fiscal year 2011, specifically 
funding the Agriculture and Food Research Initiative at the requested 
level of $429 million. This testimony highlights the importance of 
biology, particularly plant biology, as the Nation seeks to address 
vital issues including a sustainable food supply, climate change and 
energy security. We would like to thank the subcommittee for its 
consideration of this testimony and for recognizing that its support of 
agricultural research is an important investment in America's future.
    ASPB is an organization of more than 5,000 professional plant 
biologists, educators, graduate students, and postdoctoral scientists. 
A strong voice for the global plant science community, our mission--
which is achieved through engagement in the research, education, and 
public policy realms--is to promote the growth and development of plant 
biology and plant biologists and to foster and communicate research in 
plant biology. The Society publishes the highly cited and respected 
journals Plant Physiology and The Plant Cell, and it has produced and 
supported a range of materials intended to demonstrate fundamental 
biological principles that can be easily and inexpensively taught in 
school and university classrooms by using plants.
  food, fuel, climate change, and health: plant biology research and 
                            america's future
    Plants are vital to our very existence. They harvest sunlight, 
converting it to chemical energy for food and feed; they take up carbon 
dioxide and produce oxygen; and they are almost always the primary 
producers in the Earth's ecosystems. Indeed, plant biology research is 
making many fundamental contributions in the areas of fuel security and 
environmental stewardship; the continued and sustainable development of 
better foods, fabrics, and building materials; and in the understanding 
of basic biological principles that underpin improvements in the health 
and nutrition of all Americans. To go further, plant biology research 
can help the Nation both predict and prepare for the impacts of climate 
change on American agriculture, and it can make major contributions to 
our Nation's efforts to combat global warming.
    In particular, plant biology is at the center of numerous 
scientific breakthroughs in the increasingly interdisciplinary world of 
alternative energy research. For example, interfaces among plant 
biology, engineering, chemistry, and physics represent critical 
frontiers in both basic biofuels research and bioenergy production. 
Similarly, with the increase in plant genome sequencing and functional 
genomics, the interface of plant biology and computer science is 
essential to our understanding of complex biological systems ranging 
from single cells to entire ecosystems.
    Plant biology also has much to offer to our basic understanding of 
biology. Many common biological problems can best be addressed using 
plants. For example, plants cells are totipotent and, unlike animal 
cells, can be regenerated to whole plants. Many genetic studies are 
best done in plants due to the ability to analyze large numbers of 
individuals. Fundamental biological discoveries (e.g., the discovery of 
gene silencing) derive from initial studies in plants.
    Despite the fact that plant biology research--the kind of research 
funded by USDA--underpins so many vital practical considerations for 
our country, the amount invested in understanding the basic function 
and mechanisms of plants is relatively small when compared with the 
impact it has on multibillion dollar sectors of the economy like 
energy, agriculture, health and nutrition.
                            recommendations
    ASPB is in an excellent position to articulate the Nation's plant 
science priorities as they relate to agriculture. Our recommendations 
are as follows:
  --It is ASPB's hope that USDA will have an elevated role to play as 
        part of the expanding Federal research landscape. USDA already 
        funds research that is intended to provide a foundation for 
        creating sustainable food and new energy supplies; however, 
        much higher investment in competitive funding is needed if the 
        Nation is to continue to make ground-breaking discoveries. ASPB 
        strongly encourages the appropriation of at least the requested 
        level of $429 million in fiscal year 2011 for the Agriculture 
        and Food Research Initiative (AFRI). ASPB encourages efforts to 
        fully fund AFRI at the $700 million level, as currently 
        authorized in the Farm Bill. This is justified since AFRI will 
        play a vital role in maintaining America's food and energy 
        security through funding innovative research.
  --There are clear opportunities to use biological systems to 
        ameliorate and respond to climate change, such as through 
        carbon sequestration or modification of plants to resist 
        environmental stress. Therefore, ASPB calls for additional 
        funding focused on studies of the effect of climate change on 
        agricultural cropping systems, basic studies of its effects on 
        plant growth and development, and targeted research focused on 
        modification of plants to resist climate change and for use in 
        carbon sequestration.
  --Current estimates predict a significant shortfall in the needed 
        scientific and engineering workforce as the demographics of the 
        U.S. workforce change. For example, there is a clear need for 
        additional scientists in the areas of interdisciplinary energy 
        research and plant breeding. USDA has not traditionally been a 
        major funding agency for education and training, other than 
        that which occurs through the funding of individual 
        investigator and center grants. So ASPB applauds the pending 
        inauguration of the NIFA Fellows program. However, given the 
        expected need for additional scientists and engineers who are 
        well-grounded in agriculture research and development 
        activities, ASPB calls for increased funding of specific 
        programs (e.g., training grants and fellowships) that are 
        targeted to provide this needed workforce over the next 10 
        years and to adequately prepare these individuals for careers 
        in the agricultural research of the future. It should be noted 
        that this recommendation is directly in-line with the findings 
        of the recently published National Research Council (NRC) 
        report entitled ``A New Biology for the 21st Century: Ensuring 
        the United States Leads the Coming Biology Revolution.''
  --Considerable research interest is now being paid to the use of 
        plant biomass for energy production. However, if crops are to 
        be used to their full potential, considerable effort must be 
        expended to improve the understanding of their basic biology 
        and development, as well as their agronomic performance. 
        Therefore, ASPB calls for additional funding that would be 
        targeted to efforts to increase the utility and agronomic 
        performance of bioenergy crops.
  --The launch of NIFA in 2009 brought to the table numerous 
        representatives from Federal research agencies such as the 
        Department of Energy, National Science Foundation, and the 
        National Institutes of Health that welcomed the new research 
        structure at USDA. With NIFA now in place, USDA should be able 
        to cultivate stronger interagency relationships (as well, 
        potentially, as relationships with private philanthropies) and 
        take on bolder new initiatives to address grand challenges 
        related to food, energy, the environment, and health. Although 
        ASPB is excited to see this new research infrastructure take 
        shape, ASPB wants to ensure that USDA remains committed to 
        individual grantees, in addition to group awards and larger 
        multi-institution partnerships. Truly paradigm shifting 
        discoveries cannot be predicted and can only be insured by 
        maintaining a broad, diverse, and robust research agenda.
  --The Agricultural Research Service (ARS) provides vital research to 
        serve USDA's mission and objectives and the Nation's 
        agricultural research needs. As USDA begins to transform its 
        extramural research programs through NIFA, ASPB asks that the 
        parallel reorganization of the Agency's intramural research 
        programs around the five core challenges identified by the USDA 
        be carried out with due care and diligence. Indeed, ASPB 
        supports continued robust funding for ARS.
    Thank you for your consideration of our testimony on behalf of the 
American Society of Plant Biologists. Please do not hesitate to contact 
the American Society of Plant Biologists if we can be of any assistance 
in the future. For more information about the American Society of Plant 
Biologists, please see www.aspb.org.
                                 ______
                                 

                    Letter From Amicus Therapeutics

                                                     June 23, 2010.
Hon. Herb Kohl, 
Chairman, Subcommittee on Agriculture, Rural Development, Food and Drug 
        Administration and Related Agencies, Washington, DC.
    Dear Chairman Kohl: My name is John F. Crowley of Princeton, New 
Jersey. I am honored today to present this letter of testimony to you 
and the Senate Committee on Appropriations, Subcommittee on 
Agriculture, Rural Development, Food and Drug Administration, and 
Related Agencies, and thank you for this opportunity. I do so as the 
chairman and CEO of Amicus Therapeutics of Cranbury, New Jersey, a 
biopharmaceutical company developing orally administered, small 
molecule drugs called pharmacological chaperones, a novel, first-in-
class approach for treating a broad range of diseases with unmet 
medical needs, including lysosomal storage disorders and diseases of 
neurodegeneration. Amicus' lead program is in Phase 3 for the treatment 
of Fabry disease, a rare lysosomal storage disease affecting an 
estimated 10,000 individuals worldwide. I also do so as the father of 
three children, two of whom bravely face each day living with Pompe 
disease, another rare and chronic lysosomal storage disorder. Pompe is 
a progressive, multi-systemic, often fatal muscular disease. From both 
of my perspectives, I am most appreciative that the subcommittee is 
discussing the FDA's review process for orphan products to treat rare 
diseases. The time to consider change and build on past successes could 
not be better.
                        a foundation of success
    The Orphan Drug Act of 1983 has brought unprecedented success. To 
date, in excess of 1,000 orphan product designations have been granted 
by the FDA's Office of Orphan Product Development and more than 250 
drugs and biologics have received approval by the FDA, collectively 
helping hundreds of thousands of adults and children with rare 
diseases. Among these are accomplishments I have participated in 
professionally and, in the case of my own children, have witnessed most 
personally. There are an estimated 7,000 rare diseases, each one 
affecting 200,000 or fewer individuals, but collectively affecting 25 
million Americans. Unfortunately, treatments exist for only a fraction 
of these devastating, life-threatening diseases leaving so many people 
of all ages with significant unmet medical need. And of those 
treatments, the majority of approved orphan drugs are for those rare 
diseases with higher prevalence.
                      continued unmet medical need
    Rare or orphan diseases with lower prevalence remain without 
treatment. Of 588 rare diseases included in a recent study by H.E. 
Heemstra, et al, (Drug Discovery Today 14 (23-24):1166-73), 64 percent 
(115/179) of the more common rare diseases had at least one orphan 
designation, while only 32.5 percent (133/409) of the ultra-rare 
diseases had at least one orphan designation. According to an Orphan 
Drug Development Trends report published by BioMedical Insights in 
January of this year, 83 percent of rare diseases are ultra-rare, yet 
only 11 percent of orphan designations issued between 1997 and 2009 
were for these ``ultra-rare'' diseases (144/1,310). What do these 
numbers translate to for the average patient family in the rare disease 
community? No treatment options. After a rollercoaster of a diagnostic 
journey that takes an average of 5 years, the majority of individuals 
and families facing rare, usually progressive and often fatal diseases, 
may be ``lucky'' enough to finally learn the name and prognosis of what 
they or their loved one has, but chances are they can do nothing about 
it. In 2010, in the United States of America, that extent of unmet 
medical need simply should not exist.
    For most of these rare and extremely rare diseases, perhaps as many 
as two-thirds, medical research is absent--completely. Affected 
patients, their families and friends strive to bring attention to their 
causes. For other diseases, such as Tay-Sachs, for example, medical 
research is just now gaining momentum, despite it being one of the most 
commonly known rare, genetic diseases, with one of the oldest advocacy 
groups in the country, and the first disease for which a carrier 
genetic test was perfected back in 1970. Yet it could be many more 
years before a safe, effective treatment is ready for the clinic, and 
tens of children and adults will still die from this neurodegenerative 
disease. As a past-president of the National Tay-Sachs & Allied 
Diseases Association, I've seen the hope sustained by parents listening 
to academic researchers, while they watch Tay-Sachs ravage their young 
children physically and mentally. And for those rare diseases fortunate 
to have a treatment, not all is perfect. As can be the case with Pompe 
disease, for example, many patients cannot tolerate the treatment due 
to immunogenicity or other significant issues. For others, the 
treatment may not be effective but there are no other options. Much 
work remains to be done in orphan drug development to evolve the 
unmistakably critical work already achieved for rare diseases.
                     ability to meet the challenges
    In the year 2010, we have the collective ability to tackle the 
challenges of understanding and developing viable treatment options for 
rare and ultra-rare diseases with unmet medical need. Basic scientific, 
biomedical and preclinical research is taking place with groundbreaking 
technology in laboratories at colleges and universities, independent 
academic medical centers, at the National Institutes of Health, and in 
the biotech industry. Initiatives such as the Therapeutics of Rare and 
Neglected Diseases (TRND) Program at the National Human Genome Research 
Institute (NHGRI) have impressive capabilities and hold great promise 
for discovery at the level of public/private collaboration that is 
necessary to help address these challenges. In particular, this is a 
new and exciting approach to moving forward from screening and 
developing compounds through the junctures of pre-clinical and clinical 
work, optimizing resources and harnessing the varied expertise of 
collaborators along the way.
    Collaboration is now mandated for Federal funding issued by the NIH 
Office of Rare Diseases through its Rare Disease Clinical Research 
Centers Consortia program. These grants support the formation of 
cooperative agreements for: collaborative clinical studies, 
investigator training, conducting pilot and demonstration projects, 
providing a test bed for data collection, management, mining and 
sharing, and access to rare disease information for basic and clinical 
researchers, academic and practicing physicians, patients, and the lay 
public--all across diverse geographies, institutions and stakeholders. 
In fact, the patient community, with its advocates, outreach experts 
and educators, can be considered a driving force in bringing the 
professionals together.
    Families and friends of children and adults affected by these 
debilitating, horrific, often fatal rare diseases no longer passively 
sit around sick rooms and hospital rooms. They--we, because I am one of 
them, are well aware of the promising developments taking place in the 
clean rooms of industry and research institutions and are confident 
that technology can match our sense of urgency. Patient advocates are 
proactive, agents for changing how this research can be conducted, how 
quickly it gets translated to the clinic, all with the hope it will 
positively influence their loved one's clinical outcome. Today's 
patient advocacy and disease organizations are partners in social and 
venture philanthropy. They want the exciting and promising technology 
that exists for their diseases to see the light of day, and that 
developing treatments and potential cures can be realities in their 
lifetimes. Here are just two examples.
    The Cystic Fibrosis Foundation is one such health venture 
philanthropist. In 2000, there were few potential treatments in the CF 
pipeline. Today, there are more than 30 treatments in development, a 
few already available to patients, with a pipeline portfolio ranging 
from gene therapy, protein rescue, mucus alteration, restoring airway 
surface liquid (ion transport), anti-inflammatory, anti-infective, 
transplantation, and nutrition. In the area of protein rescue alone, 
the CF Foundation invested more than $100 million with Vertex 
Pharmaceuticals and $25 million with PTC Therapeutics for two different 
small molecules in the past few years.
    Fight Spinal Muscular Atrophy dedicates itself to research for a 
cure for this group of diseases which affect the motor neurons of the 
spinal cord and brain stem. In its infantile form, SMA kills more 
babies than any other genetic disease. With grants up to $250,000 each, 
FightSMA is a social philanthropist funding about 20 academic and 
medical institutions in the United States and internationally. The 
organization brings approximately 25 SMA researchers together for an 
annual scientific conference to encourage collaboration at the same 
time that SMA-affected families come to meet each other for support and 
learn from these researchers.
    It is exactly this type of community-driven, cross-fertilization 
and financial support of ideas, and sharing of disease experience that 
has occurred at advocacy organization conferences for years that the 
patient community is more recently asking take place on a broader scale 
in clinical research and drug development. Patients are appreciative of 
the active role of the Office of Rare Diseases at NIH in supporting 
these meetings and of the Office of Orphan Product Development 
participation at many programs. Collaborative approaches are in the 
United States and abroad, originated by highly respected organizations 
such as NORD and now assumed by their counterparts, such as EURORDIS, 
CORD and ICORD. The 2010 European Conference on Rare Diseases held last 
month in Krakow, Poland, attracted more than 600 participants from 43 
countries, with one-third from Eastern Europe: the aim to discuss 
public policies and actions that will improve the lives of people with 
rare diseases. The rare disease community may be growing, but it 
represents a world that is getting smaller all the time. The demands of 
the diseases themselves always have been there; however, the presence 
of the diseases is augmented by the fast-paced technology available to 
researchers, the charged atmosphere of advocacy, immediate access to 
information about diseases, research and support groups, and 
connectiveness through the Internet and social media for all disease 
stakeholders.
    Collectively, these activities represent a trend toward 
acceleration of all aspects of orphan drug development to ultimately, 
and most importantly, benefit patients living with rare diseases.
                        keeping pace for change
    Given these changes in the rare disease landscape, it is timely 
that the subcommittee is discussing the FDA's review process for orphan 
products. The sheer size of patient populations is an important factor 
for consideration in study design. Affected individuals are part of 
such small individual patient populations; they may represent disease 
prevalence of as many as 67:100,000 to as few as 2:100,000. No one rare 
disease exceeds an incidence of 200,000 in the United States. However, 
as an overarching group of 25 million in this country alone, they have 
several commonalities worthy of consideration. Limited individual 
disease experience makes it unlikely that there are organized 
registries from which to draw information for the majority of these 
diseases, and unrealistic to consider conducting natural history 
studies as prelude to or in parallel with clinical trials. (The topic 
of disease and product registries currently is a controversial one in 
the rare disease community and one worth exploring, as well.) All 
numbers of subjects for any orphan product study should be carefully 
considered based on current disease situations. Given that these 
trials, especially registration studies requiring larger numbers of 
subjects, typically necessitate global recruitment, protocols should be 
able to satisfy institutional review boards/ethics committees 
internationally. In the ultra-rare category, consideration also should 
be given to combined Phase 1/2 and Phase 2/3 studies with a Phase 4 
commitment from sponsor companies making these investments.
    The subcommittee should respectively consider funding that enables 
the Agency to focus on orphan diseases/orphan products beyond the fine 
work already being conducted by the Office of Orphan Product 
Development. The multi-systemic, complex nature of the majority of rare 
diseases, as genetic, metabolic, inborn errors of metabolism, further 
complicates a simple route forward for the guidance and development of 
well-designed clinical protocols. Therefore, study design guidance and 
review for rare diseases should also have an approach 
characteristically distinct from that used with common disease guidance 
and review. The FDA would benefit from a dedicated team of experts in 
the genetic and metabolic disorders that together with regulatory 
colleagues can offer guidance to study sponsors that will result in 
clinical protocols that account for limited patient numbers, the most 
current collective thinking on disease biomarkers, surrogate endpoints 
and better use of pharmacogenetics. Along these same lines, the Agency 
might consider having reviewers, staff other than OOPD, spend more time 
with rare disease patient organizations to learn from their leadership 
and members what they think and know of clinical trials, barriers to 
participation, etc. This might be mutually beneficial for educational 
purposes and understanding the rare disease patient experience.
                           the cost of change
    This suggested interaction might enhance the understanding for 
addressing the tolerance for risk in drug development in the rare 
disease space. Individuals directly affected by these highly unusual 
disorders, or their parents, custodial family members and caregivers 
are experiencing unusual, almost unique and unprecedented unmet need. 
They have a sense of urgency few if any can understand, but this does 
not necessarily cloud their judgment or ability to understand the risks 
and benefits of clinical trial participation. There should be no less 
scrutiny of safety for patients with ultra-orphan diseases but many of 
the traditional pre-clinical and clinical safety studies typically 
required of most drugs need to be reevaluated in the context of the 
cost and time associated and the severity of the unmet need.
    Certainly, the protracted timelines too often impose the ultimate 
cost on affected families awaiting treatment for their rare disease . . 
. the loss of their child or other loved one. It behooves the Agency to 
reassess the process and the extraordinary financial costs involved in 
developing orphan drugs. For example, the last five drugs developed and 
approved to treat lysosomal storage diseases have cost more than $200 
million each in research and development expenses alone to develop, 
while addressing populations in the United States of less than 3,000 
patients. There is no current economic framework that exists to promote 
this kind of investment. While the industry is appreciative of the 
existing incentives established by the Orphan Drug Act 27 years ago, it 
is time to update these to ensure ongoing and future innovation to 
benefit rare diseases. Some very practical considerations are: 
investment tax credits, permanent R&D credits and tax grants for 
companies conducting research for ultra-orphan treatments, accelerated 
clinical studies, and special tax treatments for investments in smaller 
companies with fewer than 250 employees.
    Change does not come easily. It was not an easy process when a 
group of parents lead by Abbey Meyers spearheaded the development of 
the Orphan Drug Act in 1983. In January of 1984, when Ronald Reagan 
signed the Orphan Drug Act into law, with Democrats and Republicans at 
his side, he stated that: ``I only wish that with the stroke of this 
pen that I could also decree that the pain and suffering of people 
living with these diseases would cease as well.'' It didn't, but the 
Act did create an environment with a system of special incentives for 
industry and certain government supported programs that spawned a new 
era of research and drug development. We have come very far in that 
last quarter of a century but we have much further to go. The change 
brought about by the Orphan Drug Act improved hundreds of thousands of 
lives in this country and abroad, helped launch an industry and 
established the global rare disease advocacy movement. It does not come 
easily for every family that struggles with illness and then receives a 
life-altering diagnosis of a rare disease with no treatment or cure. 
But each of us committed to orphan drug development, including the FDA 
and those responsible for seeing the Agency is appropriately funded, 
owe those families a more-than-fighting chance that their medical needs 
will be met.
            Respectfully submitted,
                                           John F. Crowley,
                                                  Chairman and CEO.
                                 ______
                                 

        Prepared Statement of the Animal Welfare Institute (AWI)

    The Animal Welfare Institute welcomes this opportunity to submit 
testimony in support of funding for animal welfare-related activities 
within the U.S. Department of Agriculture.
      usda/aphis/animal care/animal welfare act (awa) enforcement
AWI Request: $23 Million (Near-Level Funding)
    Over the past decade, the subcommittee has responded to the urgent 
need for increased funding for the Animal Care (AC) division to improve 
its inspections of nearly 16,000 sites, including animal dealers, 
commercial breeding facilities, laboratories, zoos, circuses, and 
airlines to ensure compliance with AWA standards. Animal Care now has 
115 inspectors (with two vacancies), compared to 64 inspectors at the 
end of the 1990s. During fiscal year 2009, they conducted 13,948 
inspections, including required annual visits to all research 
facilities that alone house over 1 million animals (excluding birds, 
rats, and mice who are not covered by law). Moreover, AC inspectors 
engaged in extended and more time-consuming follow-up with licensees 
regarded as problems because of the nature and frequency of their 
violations.
    It is important to sustain the progress that has been made. This 
budget request of $23 million provides a minimal increase over fiscal 
year 2010 to cover pay costs as well as the added responsibilities 
associated both with the growing number of licensed/registered 
facilities, and with enforcing the Congressional ban on imports from 
foreign puppy mills.
        aphis/animal care/horse protection act (hpa) enforcement
AWI Request: Support Administration's Request for $900,000
    The goal of the Horse Protection Act, passed in 1970, is to end the 
cruel practice of soring, by which unscrupulous owners and/or trainers 
primarily of Tennessee Walking Horses intentionally inflict pain on the 
legs and feet of horses, through the application of chemical and 
mechanical irritants, to produce an exaggerated gait. In 2008, the 
American Association of Equine Practitioners condemned soring as ``one 
of the most significant welfare issues faced by the equine industry.'' 
Three Girl Scouts bravely documented the brutality of this crime in 
their video ``See it through my eyes.'' (Available at www.youtube.com/
watch?v=kqFeYu1CrjU)
    Throughout its history, however, the law has been openly flouted 
and inadequate funding has hampered enforcement. USDA inspectors are 
able to attend fewer than 6 percent of Tennessee Walking Horse shows. 
Consequently, there is continued reliance on an industry-run system of 
certified Horse Industry Organization (HIO) inspection programs that 
utilize Designated Qualified Persons (DQPs), usually industry insiders 
with a history of looking the other way. Reliance on DQPs has been an 
abysmal failure. Statistics clearly indicate that the presence of USDA 
inspectors at shows results in violations being cited at a far higher 
rate than occurs when DQPs are present. The greater the likelihood of a 
USDA inspection, the greater the deterrent effect on those who 
routinely sore their horses. Enforcement of this law should not be 
entrusted to individuals with a stake in the status quo.
    USDA is to be commended for seeking to do a more rigorous job of 
enforcement than has been done in the past. For instance, in 2009, 
inspectors cited twice as many violations at the largest show, the 
National Celebration, as in the previous year. However, the top three 
winning horses at the Celebration were afterwards found to have been in 
apparent violation of the HPA.
    Given the problems as outlined above and in separate, more detailed 
testimony signed by AWI and many other groups (www.awionline.org/hpa), 
it is clear that USDA cannot make progress in this area with current 
funding levels. We ask that Congress appropriate the $900,000 for HPA 
enforcement as provided in the Administration's budget. This sum would 
allow government oversight at many more horse shows and greater 
investment in technologies (gas chromatography/mass spectrometry and 
thermography) that improve detection of sored horses. It should be 
noted that in fiscal year 2007, the use of GC/MS, which detects foreign 
substances used to sore horses, resulted in positive findings in 50 
percent of the animals tested.
           aphis/investigative and enforcement services (ies)
AWI Request: $15 Million
    IES handles investigations related to enforcement of the laws and 
regulations for APHIS' programs, which involves collection of evidence; 
both civil and criminal investigations; and investigations carried out 
in conjunction with Federal, State, and local enforcement agencies. In 
addition, IES, in collaboration with USDA's Office of the General 
Counsel, handles other types of enforcement actions, including 
stipulations and formal administrative proceedings. We respectfully 
request a $15 million appropriation for IES to enable the Service to 
fulfill its full range of responsibilities, particularly its increasing 
Horse Protection Act and Animal Welfare Act investigatory demands.
    The number of HPA investigations undertaken by IES has jumped 
dramatically in the past half dozen years from a mere 7 in 2004 to 152 
this year. IES must have additional funds to deal with this 
substantially increasing workload. Further, it is anticipated that HPA 
enforcement by Animal Care will continue to rise to reach a level where 
it will actually serve as a deterrent, and thus IES must be equipped to 
handle the ever-increasing number of cases that are expected. New 
strategies are being employed to further strengthen enforcement, 
including the consolidation of cases of alleged violations (Form 7077s) 
over a 2-year period, thereby demonstrating that violations are not 
isolated but of an ongoing nature.
    We applaud and encourage increased attention by Animal Care, IES, 
and OGC in their efforts to stop the abuse of gaited horses. We are 
confident that, with the support of Congress, USDA can ensure a fair, 
competitive field that permits horses and their riders to win shows 
based upon the natural animated gait of the horses rather than a 
freakish gait induced by an array of agonizing techniques applied to 
the front feet and legs of the horses.
  agricultural research service/nal/animal welfare information center 
                                 (awic)
AWI Request: $1,978,400
    We very much appreciate the subcommittee's continuing support for 
the Animal Welfare Information Center (AWIC). AWIC's services are 
vitally important to the Nation's biomedical research enterprise, as 
well as other regulated entities, because they facilitate compliance 
with specific requirements of the Federal animal welfare regulations 
and policies governing animal-related research. It proves its worth 
time and time again.
    The AWIC was established in 1986 in response to a mandate in the 
Improved Standards for Laboratory Animals amendment to the Animal 
Welfare Act (AWA). The Center serves as a clearinghouse, training 
center, and education resource for those involved in the use of animals 
for research, testing, and teaching, as well as other entities covered 
by the AWA. It provides training and compiles, distributes, and posts 
on its Web site information resources from the scientific literature to 
assist researchers who use animals. The subjects covered include 
husbandry, handling, and care of animals; personnel training; animal 
behavior; alternatives; improved methodologies; environmental 
enrichment; and pain control via anesthesia and analgesia and other 
methods. It also serves as a resource for the wider scientific and 
agricultural communities by providing access to material on zoonotic 
diseases such as avian influenza, transmissible spongiform 
encephalopathies, tuberculosis, West Nile Virus, foot and mouth 
disease, the H1N1 virus, and others. Its activities contribute 
significantly to science-based decision-making in animal care.
    In fiscal year 2009, staff conducted 13 sessions of AWIC's 
workshop, ``Meeting the Information Requirements of the Animal Welfare 
Act'' (evaluations of which are overwhelmingly positive, with 
participants indicating a high degree of new information acquisition); 
this was an increase of six over fiscal year 2008. At the end of 2009 
in Kansas City, AWIC and APHIS/Animal Care jointly presented the 
workshop ``Considering Alternatives; Making a Difference,'' which was 
open, without cost, to any research facility personnel; about 60 people 
attended. AWIC and AC will collaborate again this April, again in 
Kansas City, on a workshop for Animal Care inspectors to help them 
better understand the alternatives requirement. It will train them to 
do alternatives searches so that they can better evaluate the products 
of such searches conducted by research institutions.
    The AWIC Web site (http://awic.nal.usda.gov/) is one of the most 
accessed sites at NAL, with an average of over 363,000 page-views each 
month in fiscal year 2009, a 7 percent increase over fiscal year 2008. 
Many improvements to the Web site have been made in the past year, 
including increased timeliness and accessibility through Facebook, a 
Twitter account, and a blog. Currently, 250 full text documents are 
available on the Web site; 11 new ones were added in fiscal year 2009, 
and already completed or in process for fiscal year 2010 are documents 
on big cats, camels (update), blood collection, zebra fish, swine, 
elephants (update), rodent enrichment, sheep and goats, reducing animal 
numbers in research, and interpretive summaries of the Animal Welfare 
Act. Making this information available in a timely fashion urgently 
requires additional staff.
    The need and demand for AWIC's services continue to outstrip its 
resources. We write in support of an appropriation of $1,978,400, which 
is urgently needed to fund, in addition to current salaries and other 
expenses, AWIC's services and its ongoing efforts to improve their 
delivery:
  --$300,000--To support the addition of 2 FTEs to the professional 
        staff.
  --$100,000--Develop Web-based training modules, including interactive 
        modules, in order to provide online delivery of training 
        opportunities.
  --$50,000--Present workshops for research personnel, in collaboration 
        with Animal Care, similar to those held in 2009 in Kansas City 
        described above. The workshops must be free of charge to the 
        institutions in order to encourage attendance.
  --$20,500--Internet services.
  --$10,000--AWIC staff training.
  --$15,000--To fund an internship program that would provide 
        opportunities for postgraduate students (including 
        veterinarians) to work on special projects, such as creating 
        specialized information resources on animal (especially 
        zoonotic) diseases.
  --$200,000--Resume acquisition of veterinary publications that NAL 
        discontinued several years ago, and increase the pace of 
        indexing all such publications.
  --$259,000--Overhead to ARS and NAL.
  --$50,000--Meet congressional mandate to digitize more materials; in 
        particular, scanning historically relevant animal welfare 
        materials dating from the 1800s.
  --$65,000--Funding is urgently needed to update Essentials for 
        Animals in Research, as well as certain animal care manuals, 
        and then to translate them, as well as, and perhaps most 
        especially, the Animal Welfare Act and its regulations, into 
        Spanish; develop training DVDs, etc. In the past, this program 
        yielded very useful products, including the original Essentials 
        for Animal Research: A Primer for Research Personnel (which was 
        also translated into Spanish and is still among the top 10 
        downloaded documents); a video on normal animal behaviors; and 
        a training video on using animals in research. It also provided 
        support for the first World Congress on Animal Use in the Life 
        Sciences, and for the proceedings of conferences for the 
        Scientists Center for Animal Welfare.
    The growing numbers of Spanish-speaking animal-care personnel in 
U.S. research facilities and zoos, as well as increasing interest on 
the part of the scientific communities in Central and South America, 
have made the availability of Spanish-language materials a priority.
    AWIC's value to the research community and other entities that must 
comply with the Animal Welfare Act, and to the general public, 
justifies this modest proposed increase in its budget.
  food safety and inspection service/humane methods of slaughter act 
                              enforcement
AWI Request: Reallocate $2 Million From Existing Activity (HATS)
    We request that $2 million of the FSIS Humane-handling Activities 
Tracking (HATS) funding be allocated to strengthen Humane Methods of 
Slaughter Act enforcement via creation of a mobile team of slaughter 
plant auditors or by hiring additional District Veterinary Medical 
Specialists. While past appropriations have contributed to improved 
HMSA oversight, inadequate enforcement remains a problem. We have 
accumulated evidence of repeated violations at particular Federal 
slaughter plants, as well as data demonstrating that humane slaughter 
and handling violations are reported with greater frequency in the 
presence of outside inspection personnel, such as the DVMSs, as 
compared to in-plant personnel.
    Based on these findings, we respectfully request that funds be 
appropriated toward one of two alternatives: (1) to convene a roving 
slaughter inspection team that would conduct mostly unscheduled audits 
of handling and slaughter practices in Federal plants to ensure 
compliance with humane standards; or (2) to increase the presence of 
outside personnel by hiring additional DVMSs to provide scheduled and 
unscheduled plant audits in accordance with their preexisting duties as 
prescribed by FSIS. Hiring and training of these new personnel could be 
funded from $2 million of the $3 million currently allocated to the 
Humane-handling Activities Tracking computer system.
        office of inspector general/animal fighting enforcement
AWI Request: Support Administration's Request for $90.3 Million
    In 2007, violations of the AWA's animal fighting provisions, as 
well as the possession of related implements, became felonies. AWI 
supports providing OIG with adequate funding to allow it to pursue 
animal fighting cases vigorously. Animal fighting is often associated 
with other violent crimes, including drugs, weapons violations, and 
even homicide, thus posing a threat to both the welfare of animals and 
the welfare of our communities. This level of funding is also needed to 
enable OIG to carry out audits and investigations to improve compliance 
with the Humane Methods of Slaughter Act, the Horse Protection Act, and 
the downed animal rules.
    Thank you for your consideration of our comments.
                                 ______
                                 

      Prepared Statement of the Association of Clinical Research 
                          Organizations (ACRO)

    Chairman Kohl, Ranking Member Brownback, and members of the 
subcommittee: The Association of Clinical Research Organizations (ACRO) 
represents the world's leading clinical research organizations (CROs). 
Our member companies provide a wide range of specialized services 
across the entire spectrum of development for new drugs, biologics and 
medical devices, from pre-clinical, proof of concept and first-in-man 
studies through post-approval and pharmacovigilance research. With more 
than 70,000 employees engaged in research activities in more than 115 
countries around the world, ACRO advances clinical outsourcing to 
improve the quality, efficiency and safety of biomedical research. Last 
year, member companies were involved in conducting more than 9,000 
clinical trials that included nearly 2 million research participants.
    From approving new drugs and biologics to ensuring the safety of 
the food supply, the U.S. Food and Drug Administration faces many 
challenges across a diverse portfolio. And, whether the issue is 
assessing the safety of marketed drugs or monitoring the conduct of 
clinical trials, that portfolio is increasingly global in scope. Thus, 
we applaud Commissioner Hamburg's commitment to international 
cooperation and engagement. In fact, under Section 903 of the Food Drug 
and Cosmetic Act, it is part of the FDA's mission to ``(b)(3) 
participate through appropriate processes with representatives of other 
countries to reduce the burden of regulation, harmonize regulatory 
requirements, and achieve appropriate reciprocal arrangements.''
    Today, FDA-regulated products are part of an international 
marketplace in which consumers shop, and borders are no longer 
barriers. In 2007, the United States imported more than $2 trillion 
worth of FDA-regulated products from roughly 200 countries or 
territories. Both the number of drugs manufactured at foreign sites and 
the number of foreign sites making FDA-regulated drugs have more than 
doubled since 2001. Given these realities of the 21st century, 
international activities at FDA are no longer ``discretionary''; 
rather, they are an integral part of our Nation's public health 
apparatus.
    Like many other important economic activities, the conduct of 
clinical research has become increasingly globalized in recent years. 
For example, in 2004 clinical trial activity in India totaled $30 
million; the estimate for 2010 is $1.5 billion, a figure that will 
constitute 5 percent of all clinical trials worldwide. According to 
clinicaltrials.gov, today 53 percent of clinical studies are performed 
in the United States, 24 percent are performed in Europe, and 23 
percent are performed in the rest of the world.
    The expansion of clinical research to foreign countries results in 
benefits to U.S. patients. As The Case for Globalization, (a white 
paper ACRO commissioned in 2009,) suggested, a cancer trial that would 
take 5.8 years using only U.S. patients would be completed in only 1.9 
years when global research sites are used. While this globalization is 
a positive trend for many reasons, it presents challenges as well, 
especially in terms of the FDA's capacity to oversee non-U.S. drug 
development and manufacturing.
    Globalization of the biomedical research industry has greatly 
increased the demand on the FDA's resources. Between 2004 and 2007, the 
number of FDA-regulated investigators increased by 15.9 percent in 
Central and Eastern Europe (CEE), by 12.1 percent in Latin America and 
by 10.2 percent in the Asia-Pacific region. (Meanwhile, the number of 
North American and Western European investigators declined by 5.2 
percent and 6.1 percent, respectively.) Yet, despite the tremendous 
growth of clinical research abroad, 83 percent of FDA clinical 
investigator inspections between 2000 and 2008 were conducted in the 
United States and only 10 percent outside the United States and Western 
Europe.
    As part of the Alliance for a Stronger FDA, ACRO supports an FDA 
budget that provides adequate resources to fulfill the Agency's far-
flung obligations. Beyond the agency-wide budget, ACRO is especially 
interested in funding for the FDA's Office of International Programs 
(OIP). The President's proposed budget for fiscal year 2011 requests 
only $16.9 million for OIP.
    ACRO recommends funding OIP at $35 million in fiscal year 2011. 
Such an increase would not only improve the FDA's capacity to perform 
audits and inspections around the world, but facilitate capacity-
building in, and in cooperation with, the non-U.S. regulatory 
authorities whose competence and strength will ultimately impact the 
safety and efficacy of the drugs and biologics used by patients in the 
United States. Simply, the FDA remains the gold standard among drug 
regulators worldwide. As such, it is imperative for the FDA to increase 
its oversight capabilities in countries where many of the drugs it will 
approve in the future are being tested and to actively partner with its 
foreign counterparts. A budget of $35 in fiscal year 2011 would allow 
the Office of International Programs to accelerate the necessary 
globalization of the FDA's presence.
    Thank you for allowing ACRO to submit this statement. Please feel 
free to have your staff contact us with any questions.
                                 ______
                                 

     Letter From the California Association of Winegrape Growers; 
 WineAmerica; the Winegrape Growers of America; and the Wine Institute

                                                     April 7, 2010.
Hon. Herb Kohl, 
Chairman, Subcommittee on Agriculture, Rural Development, Food and Drug 
        Administration, and Related Agencies, Washington, DC.
Hon. Sam Brownback,
Ranking Member, Subcommittee on Agriculture, Rural Development, Food 
        and Drug Administration, and Related Agencies, Washington, DC.
    Dear Chairman Kohl and Senator Brownback: Our organizations are 
pleased to provide recommendations to fund important programs that will 
allow the national grape and wine industry to continue its record of 
growth in job creation, exports and rural development efforts to 
attract tourism and diversify local economies.
               recommendation: funding for grape research
    Grapes are the Nation's eighth largest crop. Grape growing 
contributes to the U.S. economy in diverse ways. It generates jobs, 
exports, tax revenues, tourism and enhances the quality of life in 
rural communities while producing outstanding wines, juices, raisins, 
and table grapes. But wine and grapes and grape products are subject to 
intense global competition that may seriously affect the ability of our 
industry to successfully compete. The industry's future success will 
hinge on public and private policies that facilitate, rather than 
impede, responses to new competitive conditions.
    The Federal Government does not subsidize grape production. 
American grape growers compete in the global market with growers who 
are subsidized by their countries. Our success in maintaining a 
competitive edge is directly tied to investment by industry and 
government in research and extension of research results to stimulate 
innovation by industry and accelerate the adoption of new best 
practices. This will keep grapes and wine competitive, enhance our 
environmental stewardship, create new jobs and generate revenues to 
keep rural communities healthy.
                       the viticulture consortium
    We support funding for the very successful Viticulture Consortium 
which has been administered as a national competitive peer-and-industry 
reviewed program. It is one of the finest examples of collaboration 
between industry, Federal and State resources to provide and enhance 
efforts to improve a major agricultural industry's quality and cost 
effectiveness. Initiated in fiscal year 1996, the Viticulture 
Consortium is administered by Cornell University, Pennsylvania State 
University and the University of California and funds competitive 
grants in about 20 States for grape-related research. The program is 
designed to focus research efforts to avoid duplication and target 
resources to strategic priorities that will accelerate innovation and 
knowledge-based tools to enhance the competitiveness of the grape and 
grape products industries that are facing intense margin pressures and 
loss of market share to imports. The Consortium leverages Federal, 
State and industry funding to maximize coordination, collaboration and 
efficiency, eliminate duplication and ensure the extension of research 
results to industry users.
    We respectfully recommend increasing funding for the Viticulture 
Consortium to $3 million.
                           ars grape research
    The President's fiscal year 2011 budget increases ARS funding for 
grape-related research. We support those increases:
    We support the:
  --President's budget increase for USDA/ARS Crop Breeding and 
        Protection, specifically the $400,000 to breed new table grape 
        varieties that are tolerant to drought stress and $500,000 to 
        phenotype the grape collection for drought tolerance and winter 
        hardiness.
  --President's budget increase for USDA/ARS Plant, Animal, and 
        Microbial Collections, specifically the $400,000 to strengthen 
        the National Plant Germplasm System to expand capacity and 
        conservation of horticultural crops.
  --President's budget increase for USDA/ARS Adapting American 
        Agriculture to a Changing Global Climate, specifically the 
        $500,000 to develop greenhouse gas mitigation solutions and 
        carbon sequestration management practices for specialty crops.
 recommendation: funding for pierce's disease control, containment and 
                                research
    Pierce's disease, a fatal infection of grape vines by the bacterium 
Xyella fastidiosa (XF), is being spread throughout California by the 
Glassy-winged Sharpshooter (GWSS). GWSS was first detected in 
California in 1989. It has invaded much of southern California and is 
effectively contained in the southern San Joaquin Valley and southern 
California. This vigorous and difficult-to-control insect vector, 
indigenous to the southeastern United States and northern Mexico, 
threatens California's entire grape and wine-producing community. 
Commercial grape varieties grown in California cannot tolerate 
infection by the If bacterium and are quickly killed or rendered 
uneconomical. There is no cure for Pierce's disease.
    The onslaught of the GWSS and its spread of Pierce's disease has 
triggered a massive and expensive cooperative response by the Federal 
and State agencies, California nurseries, citrus and winegrape growers 
to contain, control and develop long-term viable management solutions. 
There are many other crops threatened by the agents that cause Pierce's 
disease, including almonds, citrus, stone fruits, alfalfa, and 
oleander. The risks to California agriculture presented by the GWSS 
were recognized by a USDA declaration of emergency June 23, 2000, and 
subsequent allocation of CCC funds to conduct research, manage and 
fight the disease.
    While progress is being made, annual discoveries have shown the 
need to continue funding this vital program. Last year GWSS egg masses 
were found on nursery plants shipped to Amador and San Luis Obispo 
counties. This underscores the importance of an aggressive containment 
and control program with a strong nursery shipping inspection 
component.
    Congress has appropriated money to fund GWSS and Pierce's disease 
research beginning in fiscal year 2001 and every year thereafter. To 
date, other stakeholders have contributed $99.5 million to assist in 
funding research and inspection efforts. The breakdown is as follows: 
California State government: $59.5 million; local government: $1.3 
million; growers and vintners: $38.7 million. California's experience 
in controlling and containing Pierce's disease assists States that have 
infestations by sharing resources on how to stop the spread and 
eventually eradicate the disease and the insect that spreads it.
    Our organizations strongly support an increase in funding for the 
Animal and Plant Health Inspection Service (APHIS) for the control and 
containment to $30 million.
    We also request $3 million in National Institute of Food and 
Agriculture funding for research work on Pierce's disease at the 
University of California.
                         market access program
    The Market Access Program (MAP) provides export assistance to over 
70 different agricultural industries, most producing specialty crops. 
This assistance is frequently the only kind of government export 
assistance given these producers to allow them to compete in world 
markets against highly subsidized European producers. The wine industry 
has made excellent use of the MAP program. According to Wine Institute, 
exports have increased 80 percent by value over the past 10 years, and 
despite an export rise of 6 percent in value in 2008 over the prior 
year, our industry has less than 6 percent of the world's wine export 
market. Clearly, there is considerable potential to increase our share.
    MAP is funded at $200 million per year in mandatory funds in the 
Food, Conservation and Energy Act of 2008. Funding for the MAP pales in 
comparison to the support given other major world producers.
    We respectfully request that the full amount of mandatory funding 
remain intact for this program in fiscal year 2011.
    Chairman Kohl and Senator Brownback, we appreciate your 
consideration of our requests.
            Sincerely,
                              Camron King, Program Manager,
                       California Association of Winegrape Growers.
                                    Bill Nelson, President,
                                                       WineAmerica.
                                      Ron Bitner, Chairman,
                                      Winegrape Growers of America.
                                         Sally Hope Murphy,
                                                    Wine Institute.
                                 ______
                                 

 Prepared Statement of Campaign for Contract Agriculture Reform (CCAR)

    Chairman Kohl, Ranking Member Brownback, and members of the 
subcommittee: My name is Steven Etka. I am submitting this testimony on 
behalf of the Campaign for Contract Agriculture Reform (CCAR) regarding 
fiscal year 2011 funding requests for USDA's Grain Inspection, Packers 
and Stockyards Agency (GIPSA).
    The Campaign for Contract Agriculture Reform (CCAR) is a national 
alliance of organizations working to provide a voice for farmers and 
ranchers involved in contract agriculture, as well as the communities 
in which they live. The goal of the campaign is to assure that the 
processor-producer relationship serves as a fair partnership, rather 
than a dictatorship.
    The Packers and Stockyards Act of 1921 prohibits packers, swine 
contractors, and live poultry dealers from engaging in unfair, unjustly 
discriminatory, or deceptive trade practices. The Act is administered 
by the Grain Inspection, Packers and Stockyards Agency (GIPSA).
    Contract poultry growers regularly experience unfair and deceptive 
treatment in their dealings with the live poultry dealers with whom 
they contract. While is it GIPSA's job to take action against these 
companies when such practices occur, the Agency's capacity to do so has 
been greatly limited by staff resources. As a result, many growers have 
had to wait years for their cases to be addressed, and others have had 
cases unresolved because of lack of resources at GIPSA. Because of the 
vulnerable economic positions that most growers are in, justice delayed 
on enforcement of unfair practices is indeed justice denied.
    Therefore, we are greatly encouraged by the new dedication to the 
mission of GIPSA by the Obama Administration, the recent actions taken 
by the Agency to increase enforcement of the Packers and Stockyards 
Act, and their willingness to do what's necessary to make further 
improvements. In keeping with that new commitment, the Administration's 
fiscal year 2011 budget requests an increase of $2.035 million for the 
Packers and Stockyards Program within GIPSA, to add 16 additional staff 
years to strengthen enforcement of the Act.
    As described in USDA's Fiscal Year 2011 Budget Justification 
document (page 20-7):

``This increase will strengthen direct enforcement of the Packers and 
Stockyards (P&S) Act and promote greater voluntary compliance with the 
Act through an expanded GIPSA presence within the industry. The P&S Act 
provides an important safety net for livestock producers and poultry 
growers in rural America by prohibiting unfair, deceptive, and 
fraudulent practices in the livestock, poultry, and meatpacking 
industries. As such, compliance with the Act is a measure of the level 
of protection provided in the marketplace. The Agency strives to 
increase industry compliance to maximize the level of protection 
afforded to all market participants. GIPSA conducts routine and ongoing 
regulatory inspections and audits to assess whether subject entities 
are operating in compliance with the Act, and conducts investigations 
of potential P&S Act violations identified by either industry 
complaints or previous GIPSA regulatory inspections. All activities are 
carried out by professionals including economists, attorneys, 
accountants, and agricultural marketing professionals. Economic 
conditions will result in a continued increase in complaints and, 
therefore, an increased need for GIPSA protection under the Packers and 
Stockyards Act. Additional resident agents and investigative attorneys 
are needed to expand investigative, regulatory, and audit activities in 
order to raise industry compliance levels from the 80 percent level 
attained in 2008; enhance market protections for buyers and sellers of 
livestock, poultry, and meat; and enforce the amendments in the 2008 
Farm Bill. Funding will also provide for attorneys to provide 
additional legal support for enforcement of the P&S Act.''

    We strongly urge the subcommittee to provide the increased 
resources requested by GIPSA for Packers and Stockyards Act 
enforcement. Without swift and thorough enforcement of the act, contact 
growers will continue to experience trade practice abuses that are 
unacceptable.
                                 ______
                                 

      Prepared Statement of the Colorado River Board of California

    This testimony is in support of funding for the U.S. Department of 
Agriculture (USDA) with respect to its on-farm Colorado River Basin 
Salinity Control Program for fiscal year 2011. This program has been 
carried out through the Colorado River Basin Salinity Control Act 
(Public Law 93-320), since it was enacted by Congress in 1974. With the 
enactment of the Federal Agricultural Improvement and Reform Act 
(FAIRA) in 1996 (Public Law 104-127), specific funding for salinity 
control projects in the Colorado River Basin were eliminated from the 
Federal budget and aggregated into the Department of Agriculture's 
Environmental Quality Incentives Program (EQIP) as one of its program 
components. With that action, Congress concluded that the salinity 
control program could be more effectively implemented as one of the 
components of the EQIP. In 2008, Congress passed the Food, 
Conservation, and Energy Act (FCEA). The FCEA addressed the cost 
sharing required from the Basin Funds. In so doing, the FCEA named the 
cost sharing requirement as the Basin States Program (BSP). The BSP 
will provide 30 percent of the total amount that will be spent each 
year by the combined EQIP and BSP effort.
    The Program, as set forth in the Act, benefits both the Upper Basin 
water users through more efficient water management and the Lower Basin 
water users, hundreds of miles downstream from salt sources in the 
Upper Basin, through reduced salinity concentration of Colorado River 
water. California's Colorado River water users are presently suffering 
economic damages in the hundreds of millions of dollars per year due to 
the River's salinity.
    The Colorado River Board of California (Colorado River Board) is 
the State agency charged with protecting California's interests and 
rights in the water and power resources of the Colorado River system. 
In this capacity, California along with the other six Colorado River 
Basin States through the Colorado River Basin Salinity Control Forum 
(Forum), the interstate organization responsible for coordinating the 
Basin States' salinity control efforts, established numeric criteria in 
June 1975 for salinity concentrations in the River. These criteria were 
established to lessen the future damages in the Lower Basin States of 
Arizona, California, and Nevada, as well as assist the United States in 
delivering water of adequate quality to Mexico in accordance with 
Minute 242 of the International Boundary and Water Commission.
    The goal of the Colorado River Basin Salinity Control Program is to 
offset the effects of water resources development in the Colorado River 
Basin after 1972 as each State develops its Colorado River Compact 
apportionments. In close cooperation with the U.S. Environmental 
Protection Agency (EPA) and pursuant to requirements of the Clean Water 
Act (Public Law 92-500), every 3 years the Forum prepares a formal 
report analyzing the salinity of the Colorado River, anticipated future 
salinity, and the program elements necessary to keep the salinity 
concentrations (measured in Total Dissolved Solids--TDS) at or below 
the levels measured in the Colorado River system in 1972 at Imperial 
Dam, and below Parker and Hoover Dams. The latest report was prepared 
in 2008 titled: 2008 Review, Water Quality Standards for Salinity, 
Colorado River System (2008 Review). The plan necessary for controlling 
salinity and reducing downstream damages has been captioned the ``Plan 
of Implementation.'' The 2008 Review includes an updated Plan of 
Implementation.
    Concentrations of salts in the River annually cause about $376 
million in quantified damage in the United States (there are 
significant un-quantified damages as well). For example, damages occur 
from:
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration; and
  --Increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    For every 30 milligram per liter increase in salinity 
concentrations, there are $75 million in additional damages in the 
United States. Although the Program, thus far, has been able to 
implement salinity control measures that comply with the approved plan, 
recent drought years have caused salinity levels to rise in the River. 
Predictions are that this will be the trend for the next several years. 
This places an added urgency for acceleration of the implementation of 
the Program.
    Enactment of the Farm Security and Rural Investment Act of 2002 
provided an opportunity to adequately fund the Salinity Program within 
EQIP. The Colorado River Basin Salinity Control Advisory Council has 
taken the position that the USDA portion of the effort be funded at 2.5 
percent of the EQIP funding, but at least $20 million annually. Over 
the past few years, the Natural Resources Conservation Service (NRCS) 
has designated 2.5 percent of EQIP funds be allocated to the Colorado 
River Salinity Control program. The Colorado River Board supports the 
recommendation of the Advisory Council and urges this subcommittee to 
support funding for the Colorado River Basin Salinity Control Program 
for 2011 at this level.
    These Federal dollars will be augmented by the State cost sharing 
of 30 percent with an additional 25 percent provided by the 
agricultural producers with whom USDA contracts for implementation of 
salinity control measures. Over the past years, the Colorado River 
Basin Salinity Control program has proven to be a very cost effective 
approach to help mitigate the impacts of increased salinity in the 
Colorado River. Continued Federal funding of this important Basin-wide 
program is essential.
    In addition, the Colorado River Board recognizes that the Federal 
Government has made significant commitments to the Republic of Mexico 
and to the seven Colorado River Basin States with regard to the 
delivery of quality water to Mexico. In order for those commitments to 
continue to be honored, it is essential that in fiscal year 2011, and 
in future fiscal years, that Congress continues to provide funds to 
USDA to allow it to provide needed technical support to agricultural 
producers for addressing salinity control in the Basin.
    The Colorado River is, and will continue to be, a major and vital 
water resource to the 18 million residents of southern California as 
well as throughout the Colorado River Basin. As stated earlier, 
preservation and improvement of the Colorado River water quality 
through an effective salinity control program will avoid the additional 
economic damages to users of Colorado River water in California, 
Arizona, and Nevada.
                                 ______
                                 

          Letter From the Colorado River Commission of Nevada

                                                     March 5, 2010.
Hon. Herb Kohl, 
Chairman, Subcommittee on Agriculture, Rural Development, and Related 
        Agencies, Washington, DC.

RE: Support of Funding of the Department of Agriculture's Fiscal Year 
        2011 Appropriations
    Dear Chairman Kohl: As a Nevada representative of the Colorado 
River Basin Salinity Control Forum, the Colorado River Commission of 
Nevada supports full funding of the Department of Agriculture's fiscal 
year 2011 appropriations for the Environmental Quality Incentives 
Program (EQIP) and recommends that this Committee advise the 
Administration that 2.5 percent or, at a minimum, $20,000,000, of the 
EQIP funds be designated for the Colorado River Basin Salinity Control 
Program.
    Salinity remains one of the major problems in the Colorado River. 
Congress has recognized the need to confront this problem with its 
passage of Public Law 93-320 and Public Law 98-569. Your support of the 
current funding recommendations for the Colorado River Basin Salinity 
Control Program is essential to move the program forward so that the 
congressionally directed salinity objectives are achieved.
            Sincerely,
                                            George M. Caan,
                                                Executive Director.
                                 ______
                                 

          Prepared Statement of the Cystic Fibrosis Foundation

    Chairman Kohl and Ranking Member Brownback, it is my pleasure to 
submit this statement on behalf of the Cystic Fibrosis Foundation. We 
commend the subcommittee for convening this hearing to consider Food 
and Drug Administration (FDA) review of products for rare and neglected 
diseases and to assess the impact of priority review vouchers for 
tropical diseases. For all of those affected by rare and neglected 
diseases, an efficient and effective review system is absolutely 
critical. Delays in the evaluation of safety and effectiveness of 
promising new therapies for rare diseases adversely impact those 
affected by these diseases, and we support efforts by the Agency to 
improve its review record as well as the oversight provided by 
Congress.
                            the cf pipeline
    Cystic fibrosis (CF) is a disease that affects only 30,000 
Americans and 70,000 individuals worldwide. The effects of this disease 
are severe, despite significant therapeutic advances, outstanding 
management of the disease by patients and their physicians, and 
enhanced adherence to standards of clinical care. There is a pressing 
need for improved therapies for CF, and as new treatments are 
developed, efficient review is necessary.
    Through aggressive investment in and management of the CF 
therapeutic development program, the Cystic Fibrosis Foundation is now 
managing a rich portfolio of potential new treatments with more than 30 
drugs in the clinical development pipeline. Included in our research 
efforts are drugs that may correct the genetic defects that cause CF. 
The CF Foundation is assuming an expansive role in research, supporting 
basic research, functioning as a venture philanthropist through 
investment in biotechnology companies for development of new CF 
therapies, and coordinating CF care quality improvement through a 
patient registry that includes most CF patients in the Nation.
    The venture philanthropy effort has yielded a number of potential 
CF treatments. Our efforts to date have focused on translating basic 
research findings into agents for clinical testing, coordinating the 
clinical trials network for testing CF treatments, and removing 
barriers to participation in trials by CF patients. As promising 
treatments will soon emerge from the development pipeline, our 
attention is increasingly focused on guaranteeing an efficient FDA 
review process.
    We have identified a number of issues that should be addressed to 
improve FDA review of CF therapies, and we believe that FDA action on 
these issues would benefit review of all rare disease treatments. These 
issues include: (1) identification of and regulatory agreement 
regarding endpoints for approval of rare disease treatments; (2) making 
widely and readily known the process for validation of biomarkers to 
identify subpopulations of CF patients who might benefit from therapies 
approved for other populations; (3) consistency between FDA and the 
European Medicines Agency, to eliminate difficulties associated with 
conducting parallel and duplicative trials in orphan populations; and 
(4) regulatory guidance regarding methods for evaluating supplemental 
uses of devices, including nebulizers, without undertaking trials that 
are prohibitive for cost and other reasons. We also encourage the 
Agency to ensure that it receives appropriate expert advice and 
guidance on rare diseases as products for those diseases are reviewed.
    We are encouraged by initiatives that the Agency has undertaken to 
enhance its scientific expertise for review of rare diseases and more 
generally by the willingness of FDA leaders and review staff to engage 
in constructive dialogue to address the problems of rare disease review 
that we have identified.
    The joint regulatory science initiative of FDA and the National 
Institutes of Health (NIH) signals the firm commitment of the agencies 
to enhance the scientific expertise of FDA review staff. This effort, 
still a relatively new one, promises to provide special benefits in 
strengthening the scientific knowledge and experience for rare disease 
treatment review. In addition, the Agency directed important resources 
and attention to rare disease treatments by naming a lead reviewer on 
rare diseases. We have also found the Agency to be willing to engage in 
constructive dialogue to address other problems posed by rare disease 
review and those issues that are specific to CF product review.
    We applaud the subcommittee for turning its attention to FDA review 
of treatments for rare diseases and to evaluating initiatives or 
programs that might enhance such review. The priority review voucher 
program for rare diseases deserves a fair and full evaluation, to 
ensure it is meeting program goals and to assess whether its expansion 
to rare diseases might be appropriate. We support a collaborative and 
constructive approach to enhancing FDA review and are pleased to see 
that spirit of cooperation in the efforts of the subcommittee.
    Thank you again for this opportunity to submit this statement.
                                 ______
                                 

       Prepared Statement of the Farm Credit Administration (FCA)

    Mr. Chairman, members of the subcommittee, I am Leland A. Strom, 
chairman and chief executive officer of the Farm Credit Administration 
(FCA or Agency). On behalf of my colleagues on the FCA Board, Kenneth 
Spearman of Florida and Nancy Pellett of Iowa, and all the dedicated 
men and women of the Agency, I am pleased to provide this testimony.
    Before I discuss the Agency's role, responsibilities, and budget 
request, I would like to thank the subcommittee staff for its 
assistance during the budget process. Also, I would respectfully bring 
to the subcommittee's attention that the funds used by FCA to pay its 
administrative expenses are assessed and collected annually from the 
Farm Credit System (FCS or System) institutions we regulate and 
examine--the FCS banks, associations, and service corporations, and the 
Federal Agricultural Mortgage Corporation (Farmer Mac). FCA does not 
receive a Federal appropriation.
    Earlier this fiscal year, the Agency submitted a proposed total 
budget request of $59,537,346 for fiscal year 2011. FCA's proposed 
budget for fiscal year 2011 includes funding from current and prior 
assessments of $59,400,000 on System institutions, including Farmer 
Mac. Almost all this amount (approximately 83 percent) goes for 
salaries, benefits, and related costs.
    The fiscal year 2011 proposed budget is driven largely by two 
factors: (1) stress on the System caused by conditions in the 
agricultural and the general economy and (2) the large number of 
retirements that FCA anticipates in the coming 5 years. Although the 
System remains safe and sound overall, risks have increased across the 
System, and conditions in several institutions have deteriorated. As a 
result, we are hiring additional staff members to provide more 
intensive examination and oversight. We are also hiring employees to 
fill the positions of those who will be retiring soon. The funding 
we've requested for fiscal year 2011 will allow us to provide the 
additional supervision and oversight required in challenging economic 
times and to ensure that we maintain a staff with the skills necessary 
to properly examine, oversee, and regulate the System.
               mission of the farm credit administration
    As directed by Congress, FCA's mission is to ensure a safe, sound, 
and dependable source of credit and related services for agriculture 
and rural America. The Agency accomplishes its mission in two important 
ways. First, FCA protects the safety and soundness of the FCS by 
examining and supervising all FCS institutions, including Farmer Mac, 
and ensures that the institutions comply with applicable law and 
regulations. Our examinations and oversight strategies focus on an 
institution's financial condition and any material existing or 
potential risk, as well as on the ability of its board and management 
to direct its operations. We also evaluate each institution's 
compliance with laws and regulations to serve all eligible borrowers, 
including young, beginning, and small farmers and ranchers. If a System 
institution violates a law or regulation or operates in an unsafe or 
unsound manner, we use our supervisory and enforcement authorities to 
ensure appropriate corrective action. Second, FCA develops policies and 
regulations that govern how System institutions conduct their business 
and interact with customers. FCA's policy and regulation development 
focuses on protecting System safety and soundness; implementing the 
Farm Credit Act; providing minimum requirements for lending, related 
services, investments, capital, and mission; and ensuring adequate 
financial disclosure and governance. The policy development program 
includes approval of corporate charter changes, System debt issuance, 
and other financial and operational matters.
          examination programs for fcs banks and associations
    The Agency's highest priority is to maintain appropriate risk-based 
oversight and examination programs. With changes in the System and 
human capital challenges within our Agency (pending retirements, normal 
attrition of staff, and the ever-increasing need for more sophisticated 
skills in the financial sector), we have undertaken a number of 
initiatives to enhance our skills and expertise in key examination 
functions. On a national level, we actively monitor risks that may 
affect groups of System institutions or the entire System, including 
risks that may arise from the agricultural, financial, and economic 
environment in which the System institutions operate.
    The scope and frequency of each examination is based on our 
assessment of an institution's internal controls and the ability of its 
board and management to manage risks. FCS institutions are required to 
have prudent loan underwriting and loan administration processes, to 
maintain adequate asset-liability management, to establish high 
standards for governance, and to issue transparent shareholder 
disclosures. Furthermore, we also are requiring institutions to 
complete stress tests to determine their ability to withstand increased 
risk and to develop appropriate contingency plans. The frequency and 
depth of our examinations may vary, but each institution is provided a 
summary of our activities and a report on its overall condition at 
least every 18 months. Most issues are resolved through corrective 
actions established in the Report of Examination or other 
communication. In certain cases, FCA will use its enforcement powers to 
effect changes in the institution's policies and practices to correct 
unsafe or unsound conditions or violations of law or regulations.
    We evaluate each institution's risk profile on a regular basis. The 
Financial Institution Rating System (FIRS) is the primary risk 
categorization and rating tool used by examiners to indicate the safety 
and soundness of an institution. FIRS ratings range from one for a 
sound institution to five for an institution that is likely to fail. As 
of December 31, 2009, FIRS ratings as a whole continued to reflect the 
sound financial condition of the FCS, although some individual 
institutions are showing stress from conditions in agriculture and the 
general economy.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As shown in the preceding chart, FIRS ratings were downgraded in 
several institutions in 2009, continuing a declining trend over recent 
years. In addition, at December 31, 2009, two FCS institutions were 
under a formal enforcement action and two others were placed under 
enforcement actions shortly after the first of the year. There are no 
FCS institutions in conservatorship or receivership. As a result of 
declining ratings, we have increased supervisory oversight at a number 
of institutions and dedicated additional resources in particular to 
those 17 institutions rated 3 or worse. Although these 17 institutions 
represent only 4 percent of System assets and do not threaten the 
System's consolidated performance, they require significantly greater 
Agency resources to oversee. Overall the System remains financially 
strong and adequately capitalized. Additionally, the FCS does not pose 
material risk to investors in FCS debt, to the Farm Credit System 
Insurance Corporation, or to FCS institution stockholders.
                  regulatory and corporate activities
    Regulatory Activities.--Congress has given the FCA Board statutory 
authority to establish policy, prescribe regulations, and issue other 
guidance to ensure that FCS institutions comply with the law and 
operate in a safe and sound manner. The Agency's regulatory philosophy 
focuses our efforts on developing balanced, flexible, and legally sound 
regulations. Some of the Agency's current regulatory and policy 
projects include the following:
  --Enhancing our risk-based capital adequacy framework for the FCS to 
        more closely align it with that of the Federal banking agencies 
        and the Basel II standardized approach.
  --Revising lending and leasing-limit regulations to ensure that FCS 
        institutions maintain effective policies to measure and manage 
        exposure to single counterparties, industries, and market 
        segments, and to large complex loans.
  --Reviewing regulations and policies on loan pricing, terms, and 
        conditions to ensure that System practices and procedures are 
        safe and sound and reflect sensitivity to market conditions.
  --Developing regulations with the Federal banking agencies to 
        implement the Secure and Fair Enforcement for Mortgage 
        Licensing Act of 2008.
  --Revising regulations to enhance System disclosures of senior 
        officer compensation and supplemental benefit programs and 
        issuing guidance for System compensation policies and best 
        practices.
  --Strengthening investment-management and liquidity regulations to 
        ensure prudent practices are in place for the safe and sound 
        management of FCS investment portfolios.
    Corporate Activities.--While FCS institutions have declined in 
number over the years, their complexity has increased, which has 
resulted in greater demands on both examination staff resources and 
expertise. Generally, these mergers have resulted in larger, more cost-
efficient, and better capitalized institutions with a broad, 
diversified asset base, both by geography and commodity. As of January 
1, 2010, the System had 88 direct-lender associations, five banks, five 
service corporations, and two special-purpose entities. Thus far in 
fiscal year 2010, we have received and approved six restructuring 
applications.
                          condition of the fcs
    Agricultural economic conditions and the System's operating 
environment continue to be unsettled. In February 2010, USDA forecast a 
7.8 percent increase in net cash farm income for 2010 largely because 
of an approximate 10 percent increase in cash receipts from livestock 
and related products. Improved demand for livestock and dairy products, 
combined with lower production, has improved prices and profitability 
in these sectors. However, many of these producers remain financially 
vulnerable because of a substantial reduction in equity over the past 
couple years. Also, the USDA report forecast weakening in other 
sectors. Profit margins for some crop producers could be lower in 2010 
since commodity prices are generally lower than a year ago and input 
prices are higher. Crop cash receipts are expected to decline about 4 
percent. Profitability in the ethanol industry improved in the fall of 
last year although ample ethanol supplies pressured margins in early 
2010. Uncertainty has increased in the global economy in part because 
of fiscal difficulties in several European countries and elevated 
unemployment rates in the United States. This uncertainty will likely 
lead to a somewhat tepid economic recovery and to a challenging 
operating environment for the FCS in 2010.
    Despite a very challenging year affecting the credit markets, the 
System's overall condition and performance remained sound in 2009. The 
System is well positioned to withstand the continuing challenges coming 
from the general economy and stress in some sectors of the agricultural 
economy. Total capital increased to $30.0 billion at December 31, 2009, 
up from $27.1 billion a year earlier. Also, more than 82 percent of 
total capital is in the form of earned surplus, the most stable form of 
capital. The ratio of total capital to total assets increased to 13.9 
percent at year-end 2009, compared with 12.7 percent the year before as 
asset growth slowed considerably and the System continued to grow its 
capital base.
    Gross loans grew by a modest 2.1 percent in 2009, compared with 
double-digit growth for several years. System borrowers were negatively 
impacted by the overall stress in the general economy and certain 
sectors of the agricultural economy. Credit quality declined but 
remained satisfactory overall. Nonperforming loans increased by $1.1 
billion to $3.5 billion as of December 31, 2009, and represented 11.8 
percent of total capital at the end of 2009, up from 8.9 percent at the 
end of 2008.
    In 2009, the System earned $2.9 billion, a 2.2 percent decrease 
from 2008. The return on assets remained at the very favorable level of 
1.33 percent. The System's liquidity position equaled 178 days at 
December 31, 2009, essentially unchanged from a year earlier and well 
in excess of the 90-day regulatory minimum.
    Further strengthening the System's financial condition is the Farm 
Credit Insurance Fund (Insurance Fund), which has grown to more than 
$3.2 billion. The Insurance Fund protects investors in Systemwide 
consolidated debt obligations. The Farm Credit System Insurance 
Corporation administers the Insurance Fund.
    The economic and financial market turmoil in 2008 dissipated 
somewhat in 2009, and certain sectors of the capital markets began to 
function more normally. This helped the System to maintain its overall 
financial strength, serve its mission, and build the Insurance Fund in 
2009. Even though the System is a Government-sponsored enterprise (GSE) 
with solid financial performance, not all of the liquidity has returned 
to the financial markets. Investor demand for longer-term Systemwide 
debt securities, particularly those with maturities over 5 years, 
remained moderate, and long-term funding costs, while declining, 
remained volatile. Government actions to stabilize the financial 
markets and funding for other GSEs have provided some ancillary benefit 
to System funding, which helped support solid System earnings 
performance in 2009. Also, the System has enhanced its domestic 
marketing and internal liquidity reserve requirements. For 2010, the 
System expects debt markets to remain accessible.
               federal agricultural mortgage corporation
    Congress established Farmer Mac in 1988 to provide secondary market 
arrangements for agricultural mortgage and rural home loans. Farmer Mac 
creates and guarantees securities and other secondary market products 
that are backed by mortgages on farms and rural homes. The 2008 Farm 
Bill expanded Farmer Mac's program authorities by allowing it to 
purchase and guarantee securities backed by eligible rural utility 
loans made by cooperative lenders. Through a separate office required 
by statute (Office of Secondary Market Oversight), the Agency examines, 
regulates, and monitors Farmer Mac's operations.
    Like the FCS, Farmer Mac is a GSE devoted to agriculture and rural 
America. Farmer Mac is not subject to any intra-System agreements or 
the joint and several liability of the FCS banks. Also, the Insurance 
Fund does not back Farmer Mac's securities. However, by statute, in 
extreme circumstances Farmer Mac may issue obligations to the U.S. 
Treasury Department, not to exceed $1.5 billion, to fulfill the 
guarantee obligations of Farmer Mac Guaranteed Securities.
    Farmer Mac made significant financial progress during 2009 compared 
with 2008. Net income for the year ending December 31, 2009, was $82.3 
million, compared with a net loss to common stockholders of $154.1 
million in 2008. At year-end 2009, capital surplus had grown to $120.2 
million, up significantly from $13 million as of December 31, 2008. The 
total portfolio of loans, guarantees, and commitments grew to $10.7 
billion. Farmer Mac continues to have access to the debt markets to 
fund its program assets.
    In January of 2010, Farmer Mac raised $250 million in capital from 
a private offering of shares of noncumulative perpetual preferred stock 
of Farmer Mac II LLC, a recently formed operating subsidiary in which 
Farmer Mac owns all of the common equity. Farmer Mac used the proceeds 
to repurchase and retire $150 million of Farmer Mac's outstanding 
Series B preferred stock, with additional proceeds available for other 
corporate purposes. The new preferred stock has a lower net effective 
cost than the recently retired capital and will improve Farmer Mac's 
ability to generate new capital through earnings.
    Farmer Mac's program loan portfolio shows stress in certain 
subsectors such as ethanol; however, risk in the portfolio remains 
manageable. Improvements related to the ethanol industry reduced the 
nonperforming loan rate to 1.41 percent at December 31, 2009, compared 
with 1.61 percent at December 31, 2008. Loans more than 90 days 
delinquent decreased from 1.35 percent at December 31, 2008, to 1.13 
percent at December 31, 2009.
    Regulatory activity for 2010 includes plans to issue an Advance 
Notice of Proposed Rulemaking to consider modifying regulations 
governing nonprogram investments and liquidity at Farmer Mac. 
Additionally, FCA plans to finalize a rule this year governing the 
Risk-Based Capital Stress Test that would update the model to address 
Farmer Mac's new rural utility financing authority and certain other 
technical changes in parts of the stress test.
                               conclusion
    We at FCA remain vigilant in our efforts to ensure that the Farm 
Credit System and Farmer Mac remain financially sound and focused on 
serving agriculture and rural America. It is our intent to stay within 
the constraints of our fiscal year 2011 budget as presented, and we 
continue our efforts to be good stewards of the resources entrusted to 
us. While we are proud of our record and accomplishments, I assure you 
that the Agency will continue its commitment to excellence, 
effectiveness, and cost efficiency and will remain focused on our 
mission of ensuring a safe, sound, and dependable source of credit for 
agriculture and rural America. This concludes my statement. On behalf 
of my colleagues on the FCA Board and at the Agency, I thank you for 
the opportunity to share this information.
                                 ______
                                 

 Prepared Statement of FasterCures/The Center for Accelerating Medical 
                               Solutions

    Chairman Kohl, Senator Brownback, and members of the subcommittee, 
on behalf of FasterCures I am writing to thank you for your continued 
support of the U.S. Food and Drug Administration (FDA) over the past 
several appropriation cycles and to urge you to once again authorize an 
increase in the fiscal year 2011 budget for this critical agency. 
FasterCures is a nonprofit think tank and center of the Milken 
Institute that works across sectors and diseases to improve the 
effectiveness and efficiency of the medical research enterprise, and we 
view improvements at FDA as key to accelerating progress in disease 
research.
    Together with the Alliance for a Stronger FDA, of which we are a 
member, FasterCures requests that the budget authority appropriation 
for the FDA in fiscal year 2011 be increased to $2.857 billion. This 
request is exclusive of user fees. It represents a $495 million 
increase over the fiscal year 2010 budget and a $341 million increase 
over the President's request for fiscal year 2011. This increase would 
ensure that the FDA could not only adequately sustain its existing 
activities at their current levels, but also continue to meet its 
increasingly robust set of public health and safety responsibilities 
without compromising its scientific base.
    Regulatory science is the backbone that supports all other FDA 
activities. It must be strengthened to provide better tools, standards 
and pathways to evaluate products under development and help patients 
benefit from biomedical advances.
  --In recent years, U.S. investments in research have generated a 
        tremendous amount of knowledge about the relationship between 
        molecular information and human health. Yet the development of 
        new therapies has declined, and the cost to develop them has 
        increased.
  --We need 21st century science to support the evaluation of 21st 
        century medical products.
  --Improvements in regulatory science will support better assessment 
        of drug and device safety, and create efficiencies in the 
        development process.
    Deficiencies in capital--human, scientific and financial--are 
creating a widening gap between the microscope and the marketplace, and 
hindering the FDA's ability to achieve its mission.
  --Staffing levels from the 2010 appropriation have only just been 
        restored to the previous high level achieved in 1994.
  --Increasing internationalization, scientific complexity and drug 
        development costs add mounting pressure on the Agency.
    --It takes about 15 years, on average, to take a promising 
            scientific discovery from the research lab through the 
            development, testing and regulatory review approval 
            process, and get it into the hands of patients.
    --For the more than 100 million Americans who suffer from cancer, 
            Alzheimer's disease, diabetes, Parkinson's disease, heart 
            disease and others for which there are no cures--and in 
            many cases, few meaningful treatment options--this is 
            simply too long to wait.
    Challenges are growing, while capacity is shrinking.
  --While new responsibilities continue to be added, the FDA's base is 
        eroding.
  --CDRH staff, including its field force, has decreased in recent 
        years, while scientific discovery continues to move at a rapid 
        pace.
  --Generic drug submissions outpace the capacity to review them.
    A consistent multi-year funding approach is essential.
  --The Institute of Medicine, U.S. Government Accountability Office, 
        and FDA Science Board have highlighted deficiencies in the 
        FDA's ability to carry out its responsibilities, noting 
        resource limitations.
  --The Science Board report (December 2007) is particularly clear that 
        a fundamental source of problems is chronic under-funding.
  --No systemic improvement is likely without resources to increase 
        food science and inspection capacity, further fund drug and 
        device approvals and safety monitoring, and upgrade mission-
        critical information technology systems.
    Compared with other public health agencies, the FDA's budget is 
still relatively small, and out of alignment with its growing 
responsibilities.
  --The FDA is responsible for regulating products that represent one-
        quarter of all consumer spending.
  --Twenty-five years ago, the FDA and the Centers for Disease Control 
        and Prevention (CDC) were roughly the same size, but since that 
        time, the CDC's compound annual growth rate has grown to nearly 
        double that of FDA.
  --With over 80 percent of its budget going to staff and operational 
        costs--including salary and benefits for approximately 10,000 
        employees as well as rent, supplies, telecommunications, etc.--
        at the current rate of growth, the Agency will not be able to 
        sustain, much less grow, its current scope.
  --FDA needs excellent staff with cutting edge scientific expertise, 
        but it also needs strong, selective scientific research 
        programs that are appropriately mission-driven in all of the 
        areas of FDA responsibility (e.g. generic biologic review, 
        adverse event tracking, drug import field exams, foreign 
        manufacturing facility review, etc.)
    Increasing the FDA's budget in fiscal year 2011 will strengthen its 
ability to operate a modern, scientifically based regulatory program.
  --The FDA must be strong enough to accept the baton of innovation 
        from the research community in order to ensure that patients 
        are able to benefit from advances in biomedical and laboratory 
        science.
    We commend Dr. Hamburg and the Agency for their commitment to 
excellence and for recognizing the valuable role of regulatory science 
in creating new pathways and standards for product development and 
approval.
    Attached is a chart that breaks down our budget request by 
function, comparing it to both the President's request and previous 
year's budgets.
    Thank you very much for your consideration and for the opportunity 
to submit this testimony. I would be happy to answer any questions you 
may have.

 PRESIDENT OBAMA'S FISCAL YEAR 2011 REQUEST FOR THE FDA COMPARED TO THE ALLIANCE FOR A STRONGER FDA'S FISCAL YEAR 2011 REQUEST (WITH FURTHER COMPARISON
                                                          TO FISCAL YEARS 2008, 2009 AND 2010)
                                              [Budget Authority Appropriations, does not include user fees]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                Fiscal year 2008  Fiscal year 2009  Fiscal year 2010  Fiscal year 2011  Fiscal year 2011
       Function  Note: budget authority only, by center         actual (December    final (March     final (October        alliance        President's
                                                                      2007)             2009)             2009)            request           request
--------------------------------------------------------------------------------------------------------------------------------------------------------
Food..........................................................      $510 million      $649 million      $784 million      $955 million      $856 million
Human Drugs...................................................       353 million       413 million       465 million       580 million       484 million
Biologics.....................................................       155 million       183 million       206 million       255 million       215 million
Animal Drugs/Feed.............................................        97 million       116 million       135 million       165 million       141 million
Devices & Radiological Health.................................       238 million       280 million       315 million       385 million       326 million
Natl. Ctr. for Toxicological Research.........................        44 million        52 million        59 million        72 million        61 million
HQ, Office of Commissioner and Other..........................        97 million       121 million       144 million       183 million       162 million
Rent & Facilities Cost........................................       220 million       223 million       237 million       250 million       259 million
                                                               -----------------------------------------------------------------------------------------
      SUBTOTAL, Salaries and Expenses.........................     1.714 billion     2.039 billion     2.346 billion     2.845 billion     2.504 billion
                                                                  (+$145 million    (+$325 million    (+$307 million
                                                                over fiscal year  over fiscal year  over fiscal year
                                                                           2007)             2008)             2009)
                                                               -----------------------------------------------------------------------------------------
Building and Facilities Repair................................         8 million        16 million        16 million        12 million        12 million
                                                               -----------------------------------------------------------------------------------------
      TOTAL, ALL Budget Authority Appropriations (no user          1.722 billion     2.055 billion     2.362 billion     2.857 billion     2.516 billion
       fees)..................................................                                                         (Proposes +$495    (Proposes $154
                                                                                                                          million over      million over
                                                                                                                           fiscal year       fiscal year
                                                                                                                                 2010)             2010)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Because OMB includes new and proposed user fees in their totals, these numbers vary considerably from those being discussed by the Administration and
  reported by many sources.
Subsequently, the Administration amended its request to ask for an additional $8 million for earmarks within the food program. This is reflected in the
  chart, but may not be in all budget descriptions.

                                 ______
                                 

                 Prepared Statement of Feeding America

    Thank you Mr. Chairman and members of the subcommittee for the 
opportunity to submit written testimony on the President's fiscal year 
2011 budget for the U.S. Department of Agriculture (USDA). As president 
and CEO of Feeding America, I am pleased to be able to share with you 
the needs and interests of the more than 37 million people served by 
our network of 200 food banks and more than 62,000 local feeding 
agencies. I also want to thank you and your colleagues for the 
continuing and generous support this subcommittee has always provided 
for nutrition programs and for your leadership in the fight to end 
hunger in this Nation.
    As you know, our network and those we serve are heavily reliant on 
the programs administered by the Food and Nutrition Service of USDA. We 
greatly appreciate the difficult challenges this agency takes on in 
administering our Nation's domestic nutrition assistance programs. Over 
the years we have formed a successful partnership with FNS and its 
regional offices. Federal commodity donation programs like The 
Emergency Food Assistance Program (TEFAP) and the Commodity 
Supplemental Food Program (CSFP) make it possible for our network to 
distribute millions of pounds of nutritious foods to the food pantries, 
shelters, soup kitchens, and after school programs (like Kids Cafes) 
that we operate throughout the country. This partnership and our close 
working relationship with FNS also has helped our network engage in 
promoting and helping hungry people access other nutrition programs, 
like SNAP, Child Nutrition, and WIC.
    If we are ever going to end hunger in this country we all must 
continue to work together so that the 49 million people in our Nation 
who are defined by USDA as ``Food Insecure'' are able to fully access 
the critically important tools provided by Federal nutrition programs.
               tefap and commodity distribution programs
    Feeding America food banks are the largest user of commodities 
provided through The Emergency Food Assistance Program (TEFAP). This 
program provides a consistent source of food that allows many feeding 
agencies to keep their doors open, and as noted below, helps us 
leverage private, charitable donations to significantly expand the 
amount of food and resources we distribute through our food bank 
network
    The Feeding America food bank network depends on USDA commodities 
to ensure a guaranteed supply of foods to distribute to our pantries, 
shelters, soup kitchens and community feeding programs. In fiscal year 
2009, a total of $2.2 billion worth of food was distributed through our 
food banks and local agencies. The value of TEFAP and CSFP commodities 
accounted for $436 million of this amount.
    TEFAP Commodities.--With the generous support of this Congress in 
enacting the American Recovery and Reinvestment Act (ARRA), funding for 
TEFAP commodities was increased by $150 million for fiscal year 2009 
and fiscal year 2010. Of this amount States could use $50 million for 
distribution grants. Unfortunately, the additional commodities bought 
with the ARRA funding will run out by the end of March, 2010. This is 
happening at a time when the numbers of people coming to our agencies 
for food assistance (already at record levels) continues to grow, and 
unemployment remains high. The rising demand, together with a 
significant decline in available bonus commodities for the program and 
the end of ARRA commodities, is seriously depleting our food 
inventories, and many of our feeding agencies soon may be facing empty 
shelves. We estimate that an additional $200 million in TEFAP commodity 
assistance is needed to continue serving the growing numbers of people 
who are seeking food assistance through emergency feeding agencies.
    Feeding America recommends that an additional $200 million be added 
in emergency funding for TEFAP commodities to ensure that emergency 
feeding programs can continue to serve the growing numbers of hungry 
Americans coming to them for help.
    Safe Storage and Distribution of Commodities.--As in past years, 
the Administration budget proposal for TEFAP commodity distribution 
grants requests the same amount ($50 million) to help State and local 
agencies with the costs of storing, transporting and distributing TEFAP 
commodities. Funding to protect the food commodities and transport and 
distribute them is critically important, especially now that many 
States are facing budget crises that are challenging their ability to 
fund this essential work. It has been very difficult to cover these 
costs as demand has increased, and we are hopeful that the subcommittee 
will find more funding to help make sure the food we have can be safely 
stored, transported and distributed.
    Feeding America recommends that the Committee fully fund the TEFAP 
grant program for commodity distribution at the fully authorized level 
of $100 million.
    TEFAP Infrastructure Grants.--The Administration budget request 
proposes to zero out the $6 million in funding for TEFAP infrastructure 
grants that was approved by this Committee for fiscal year 2010. These 
grants, yet to be awarded by the Administration for fiscal year 2010, 
are critically important to help food banks with the costs of 
maintaining and improving their facilities and equipment and ensuring 
safe food storage and handling. Many of our food banks, particularly 
those located in rural areas are struggling to update their facilities 
and equipment. Efforts to improve the amount of fresh fruits and 
vegetables distributed also are hindered by outdated refrigeration and 
storage units. Moreover, the poor economy in many regions is 
handicapping efforts to raise sufficient private funding for capitol 
improvement projects.
    We recommend that the USDA release the Infrastructure grant funding 
appropriated by the Committee for fiscal year 2010 as quickly as 
possible, and that the Committee continue to fund this extremely 
important program to our network.
    Commodity Supplemental Food Program.--The Administration budget 
request recommends $176.8 million for the Commodity Supplemental Food 
Program. More than one-third of our food banks operate CSFPs in States 
approved for this program. We are pleased that your Committee has long-
supported the CSFP, which is critically important to so many needy 
elderly and young mothers and children. The addition of new States to 
this program last year has opened the way for many more hungry people 
to receive the nourishment they need. It is our hope that caseloads in 
States with programs can be increased and that over time more States 
and localities will be able to offer CSFPs. The decline in bonus 
commodities available to this and other nutrition programs is 
worrisome, and we hope that this does not impede progress in reaching 
the many people, especially seniors, who require the nutritious 
supplemental food packages provided by the CSFP.
    We support the Administration proposal for CSFP funding for fiscal 
year 2011 and the position of our colleagues in the national CSFP 
Association.
                            child nutrition
    Recognizing the many gaps in our child nutrition programs, our food 
banks are heavily engaged in promoting and feeding children through 
innovative child nutrition programs. Along with offering nutritious 
foods to over 14 million children through our food pantries, shelters 
and soup kitchens, our food banks operate more than 1,600 Kids Cafes 
serving more than 115,000 children each year. These after school 
programs are able to operate with support from the Child and Adult Care 
Food program and private donations. They are run in a wide variety of 
local settings like Boys and Girls clubs, churches, community centers, 
and schools. Kids Cafe programs had their origin in Savannah, Georgia, 
where in 1989 two young brothers were found late one night searching 
for something to eat in a housing project community kitchen.
    More recently, our food banks have taken on the issue of gaps in 
our child nutrition programs by initiating weekend feeding programs for 
low income children. These programs, commonly known as BackPack 
programs, operate in partnership with local schools and community 
agencies and provide child-friendly, non-perishable, nutritious foods 
for children to take home on the last day before a weekend or school 
holiday. BackPack programs originated in Little Rock, Arkansas after a 
school nurse contacted the local food bank to ask for help when she 
noticed that many children were coming to her on Mondays complaining of 
stomach aches and dizziness. There now are more than 140 Feeding 
America members and partner organizations operating 3,600 BackPack 
programs that serve more than 190,000 children.
    The Administration fiscal year 2011 budget for Child Nutrition 
Programs would maintain current services for all of the current 
programs. More importantly it proposes to increase funding for child 
nutrition programs by $1 billion annually (or $10 billion over 10 
years) to make the needed changes to these programs to help achieve the 
President's goal of ending childhood hunger by 2015. Feeding America 
fully supports the President's ambitious and achievable goal and budget 
proposal.
    Child Nutrition programs are the foundation upon which to build a 
Nation where all of our children have access to the nutritious foods 
essential to help them learn and thrive and lead healthy and productive 
lives. It is critically important that comprehensive child nutrition 
reauthorization legislation be enacted this year, and that enough 
funding be provided to make this happen.
    Too many low-income children in this country are unable to access 
child nutrition programs when they need them. For example, only 2.2 
million children participate in the Summer Food Service Program, which 
is targeted to children living in low-income areas. This compares to 
some 19 million low-income children receiving free and reduced price 
school lunches during the school year. Summer food and child care 
feeding programs are handicapped by excessive sponsor requirements, 
proscriptive eligibility rules and administrative and paperwork burdens 
that limit access to these programs and reduce cost efficiencies. At a 
time when State and local governments are struggling with budget 
cutbacks, these administrative barriers hinder sponsorship of Federal 
nutrition programs that could help millions of children without adding 
fiscal burdens to States and communities.
    Feeding America recommends that changes to child nutrition programs 
be accomplished this year to expand their quality and reach to all 
children, and that these changes fill the gaps in current services. Our 
priorities call for (1) expanding the reach and quality of foods for 
hungry children in schools, child care, After school and summer sites; 
(2) providing start-up funding and outreach to increase the number of 
Summer Food Service programs in unserved and underserved areas; (3) 
funding innovative programs, like the BackPack Program, to help hungry 
children when they do not have access to nutrition programs, and (4) 
better coordinating programs and streamlining and simplifying rules 
that prevent or hinder the operation of child nutrition programs. [See 
attachment at the end for a more detailed list of Feeding America 
priorities.]
                snap outreach and application assistance
    Our food banks are working closely with FNS staff at the Federal, 
State and local level to conduct SNAP outreach. As you know, too many 
people who are eligible for SNAP benefits are not receiving them. Data 
shows that about one-third of those who are eligible for SNAP do not 
participate in this program. There are many reasons for this, and high 
among them are long and complicated application forms and processes. 
Our food banks are committed to addressing this problem by working with 
local Federal, State and local SNAP agencies to offer on-site 
application assistance to clients wading through the difficult and 
time-consuming process of qualifying for these critically important 
benefits.
    While this is not part of a specific Administration budget request 
we hope that this partnership will continue and be expanded through 
waivers and other methods to help ensure that all of those who are 
eligible for SNAP can qualify and receive these vitally important 
benefits.
                           concluding remarks
    Feeding America is profoundly aware of the current economic crisis 
and the challenges this presents to our legislators and those they 
represent. Our Nation's nutrition programs provide the foundation upon 
which to build a future where all of Americans have access to 
nutritious foods that will help them live healthy and productive lives. 
As they have so often in the past when our Nation faced war, a Great 
Depression, and social and economic upheavals, Federal nutrition 
programs offer the way to effectively respond to our current economic 
crisis and to the needs of those struggling to nourish themselves and 
their families.
    Millions in this country are struggling to keep their jobs, homes, 
and food on the table. Food Banks and local feeding agencies often are 
the first to see the devastated faces of those who never imagined that 
they would be seeking help at a food pantry, shelter, or soup kitchen. 
The charitable sector has truly stepped up to try and serve the growing 
numbers of those in this Nation who are hungry. But, as we learned in 
the Great Depression and are reminded of in the current Great 
Recession, charity alone cannot meet the need.
    The government and charitable sector must work together and Federal 
nutrition programs must be the solid foundation upon which to build the 
structure that finally succeeds in ending the scourge of hunger in this 
Nation. No one in this country should have to wonder where their next 
meal will come from, or how they will afford to buy nutritious foods 
for their families.
    Thank you so much for allowing me to present this written 
testimony. I hope you will not hesitate to contact me or my colleagues 
in our Washington office if we can be of assistance in helping you and 
the President finally put an end to hunger among children and for all 
of those living in out great Nation.
                               Attachment
                       child nutrition priorities
    Feeding America food banks play a critical role in directly 
supporting and advocating for child nutrition. In 2009, our food bank 
network provided food to 13.9 million children, or one out of every 
five of all children in the United States. As the Congress prepares to 
reauthorize and strengthen these child nutrition programs, our food 
banks are actively engaged in developing and promoting legislative 
changes that will move the Nation forward in the crusade to end 
childhood hunger in America. President Obama's commitment to achieving 
this goal by the year 2015 is running behind schedule. The Congress 
must move quickly to complete action on a child nutrition bill that 
makes a substantial investment of no less than the Administration 
request to ensure that all of our children have access to a safe, 
nutritious, and healthy diet.
    Our child nutrition legislative priorities will: (1) strengthen the 
quality and efficiency of all child nutrition programs; (2) fill the 
gaps in food service for millions of low-income children, and (3) offer 
creative ideas for new and innovative approaches to ending childhood 
hunger.
    High on our priority list are proposals to reach more needy 
children through the Summer Food Service and Child and Adult Care Food 
Programs (SFSP & CACFP). Too many low-income children receiving free or 
reduced-price school lunches during the school year (some 19 million) 
do not have access to the SFSP, which reaches only 2.2 million 
children. Similarly, because of the limited number of after-school 
programs currently being operated through CACFP, too many low-income 
children find themselves without access to nourishing food after the 
school day ends. Moreover, as the economy worsens, many low-income 
children are going hungry during weekends and school holidays. The 
Feeding America food banks operating summer food and afterschool 
programs, the Kids Cafe program, and weekend food box (or BackPack) 
programs strongly urge the Congress to make the following program 
improvements.
Afterschool and Child Care Nutrition (Child and Adult Care Food 
        Program)
    Expand supper funding for At-Risk After-School Programs beyond the 
current 14 States and localities (CT, DC, DE, IL, MD, MI, MO, NV, NY, 
OR, PA, VT, WI, and WV) to all 50 States.
    Reduce the area eligibility threshold for At-Risk After-School 
Programs from 50 percent of children eligible for free or reduced-price 
school meals down to 40 percent.
    Provide child care centers and home day cares with the option of 
providing a third meal.
    Provide funding for outreach to recruit new sponsors to participate 
in CACFP.
    Increase funding for CACFP expansion grants.
    Require the publication of a CACFP manual to help applicants and 
program sponsors.
Weekend Nutrition (The BackPack Program)
    Create a Pilot Program to fund a series of projects to explore 
various methods for providing food to low-income children on weekends 
and extended school holidays. Require that BackPack Programs be 
included as a model for one or more of the pilots and include funding 
for a USDA evaluation.
    Provide authority for schools to designate Fruit and Vegetable 
Program purchases for distribution through Weekend box or BackPack 
Programs.
Summer Nutrition (The Summer Food Service Program; Rural Summer 
        Initiatives)
    Reduce the area eligibility threshold for SFSP from areas where 50 
percent of children are eligible for free or reduced-price school meals 
to areas where 40 percent are eligible.
    Expand the California SFSP pilot, which authorized use of the SFSP 
program year round, to more or all States, with the provision that 
meals may be served afterschool year round to reduce need for separate 
program applications and criteria for summer and CACFP afterschool 
programs.
    Increase the percentage of second meals that sponsors may be 
reimbursed for to recognize the variable nature of attendance in the 
summer and the need to reduce food waste.
    Provide outreach funding to get new sponsors/sites/participants 
into the SFSP program by, among other things, providing funding for 
USDA and/or States to develop and implement aggressive outreach 
programs to get more children into summer food programs, and offering 
Start-up grants for new SFSP sponsors to encourage them to begin new 
programs
    Eliminate the restrictions on non-profit sponsors on the number of 
operating sites and participants they may serve.
    Create a series of pilot programs to explore innovative methods of 
reaching more children through the SFSP in underserved areas. [NOTE: 
Fiscal year 2010 appropriations provided $85 million for USDA to test 
innovative methods for reaching children in the summer.] Ideas we 
recommend include:
  --Funding for mobile meal programs.
  --Creation of a commodity box program pilot, targeted to children in 
        rural areas that are not served through traditional congregate 
        meal programs. Operated through schools, government, or non-
        profit agencies using school meals data to identify need, with 
        option of picking up a box of items containing the equivalent 
        to meals received through the SFSP.
In-School Nutrition (National School Lunch Program and School Breakfast 
        Program)
    Expand the School Breakfast Program to more schools and more 
children by increasing school options and incentives for providing 
breakfasts at schools; including in-classroom breakfast options and 
allowing universal school breakfasts in targeted schools with high 
percentages of low-income students.
    Expand the ``free'' meal category for school meals from 130 percent 
to 185 percent of poverty, resulting in the elimination of the 
``reduced price'' meal category.
    Improve the nutritional quality of meals served in schools and of 
foods available on the school campus.
Special Supplemental Nutrition Program for Women, Infants and Children 
        (WIC)
    Ensure adequate funding to serve the growing caseload of women, 
infants, and children receiving WIC food packages and participating in 
the accompanying nutrition services.
Cross-Program Child Nutrition Initiatives
    Increase base reimbursement rates for all child nutrition programs 
(school meals, CACFP, SFSP, etc.) to cover the higher meal costs due to 
inflation and improved nutritional quality.
    Provide for more frequent indexing of reimbursement rates for all 
child nutrition programs. For example, provide semi-annual indexing and 
round up rates (currently rounded down).
                                 ______
                                 

          Prepared Statement of Florida State University (FSU)

    Florida State University is requesting $5,000,000 in fiscal year 
2011 for the Risk Reduction for Agricultural Crops Program from the 
National Institute of Food and Agriculture (NIFA).
    Mr. Chairman, I would like to thank you and the members of the 
subcommittee for this opportunity to present testimony before this 
Committee. I would like to take a moment to briefly acquaint you with 
Florida State University.
    Located in Tallahassee, Florida's capitol, FSU is a comprehensive 
Research university with a rapidly growing research base. The 
University serves as a center for advanced graduate and professional 
studies, exemplary research, and top-quality undergraduate programs. 
Faculty members at FSU maintain a strong commitment to quality in 
teaching, to performance of research and creative activities, and have 
a strong commitment to public service. Among the current or former 
faculty are numerous recipients of national and international honors 
including Nobel laureates, Pulitzer Prize winners, and several members 
of the National Academy of Sciences. Our scientists and engineers do 
excellent research, have strong interdisciplinary interests, and often 
work closely with industrial partners in the commercialization of the 
results of their research. Florida State University had over $200 
million this past year in sponsored research awards.
    Florida State University attracts students from every State in the 
Nation and more than 100 foreign countries. The university is committed 
to high admission standards that ensure quality in its student body, 
which currently includes National Merit and National Achievement 
Scholars, Rhodes and Goldwater Scholars, as well as students with 
superior creative talent. Since 2005, FSU students have won more than 
30 nationally competitive scholarships and fellowships including 3 
Rhodes Scholarships, 2 Truman Scholarships, Goldwater, and 18 Fulbright 
Fellowships.
    At Florida State University, we are very proud of our successes as 
well as our emerging reputation as one of the Nation's top public 
research universities. Our new President, Dr. Eric Barron, will lead 
FSU to new heights during his tenure.
    Mr. Chairman, I bring two items of interest to you today. The first 
is a project vital to many of our Nation's farmers and the second is 
our strong support for the President's fiscal year 2011 budget requests 
for two programs within the USDA--the Agriculture and Food Initiative 
and the Expanded Food and Nutrition Education Program. First, let me 
tell you about our project.
    Droughts in the southeastern U.S. have had significant impacts on 
the water resources. The Federal Government can reduce these risks by 
using modern technologies such as climate models, to predict future 
climate, and decision-support tools to help mitigate some uncertainties 
and provide adaptation strategies for the agricultural and 
environmental sectors. The Southeast Climate Consortium (SECC), which 
includes three Florida universities: Florida State University, 
University of Florida, University of Miami. The SECC has been at the 
forefront of research and extension for the application of climate 
predictions to risk reduction for agriculture and natural resources. 
With support from USDA and NOAA, the SECC has developed new methods to 
predict the consequences of climate variability and climate change for 
agricultural crops, forests, and water resources in the southeastern 
USA.
    The SECC is a model for employing regional climate forecasts for 
agricultural purposes; because of its success, USDA has considered 
establishing other such regional activities throughout the United 
States to coordinate regional research efforts. Examples of coordinated 
research efforts have FSU leading efforts to provide climate forecasts 
and risk reduction methodology. UF will translate this climate 
information into risks and environmental impacts on agriculture and 
will work with Extension to provide information to the agricultural 
community. UM will provide economic modeling capacities. Research 
efforts with other regional players in GA, AL, SC, and NC are 
coordinated to provide an overall regional climate strategy. Together, 
all university partners are developing new tools to manage climate 
risks to water quality. These tools and applications have strong 
support of extension in all these SE States.
    The new tasks are to develop improved methods to forecast droughts 
and other extreme climate events. These forecasts will be incorporated 
into decision support systems to help agricultural, forest, and natural 
resource managers to reduce risks of losses. We will develop new 
partnerships and methods for incorporating climate forecasts into 
agricultural and water policy decisions and continue the development of 
a decision support system to provide seasonal and multi-year 
projections for agricultural water use. Lastly, we will initiate 
research to determine risks and appropriate agricultural responses to 
longer term trends in climate.
    Florida State University, on behalf of the Southeast Climate 
Consortium, seeks $5.0 million in fiscal year 2011 for this project.
    Mr. Chairman, I would also like to express strong support for the 
President's fiscal year 2011 budget requests for two programs within 
the USDA.
    The Agriculture and Food Initiative (AFRI) is seeking $428.845 
million to enhance funding levels for several areas critical to our 
Nation's continued progress. These areas include bioenergy, global 
climate change, global food security, nutrition and health, and the 
agricultural workforce. Two areas within AFRI that we feel strongly 
about are providing avenues to address changes in our climate related 
to agriculture and programs related to nutrition and nutrition 
education. A second programmatic area within USDA is the Expanded Food 
and Nutrition Education Program (EFNEP). The President has requested 
$68.070 million for fiscal year 2011, the same level appropriated in 
fiscal year 2010. We understand the difficult choices that the 
President and your Committee must make in this difficult budget climate 
and, for that reason, we support level funding for this important 
program for fiscal year 2011. Our faculty members at FSU are very 
involved in both these important areas, and we respectfully request 
that the Committee endeavor to find funding to help move these 
important endeavors forward in fiscal year 2011.
    Mr. Chairman, I appreciate your consideration of our project 
request as well as the President's budget request for AFRI and EFNEP. 
Thank you.
                                 ______
                                 

  Prepared Statement of Friends of Agricultural Research--Beltsville, 
                              Inc. (FAR-B)

    Mr. Chairman, and members of the subcommittee, thank you for this 
opportunity to present our statement regarding funding for the 
Department of Agriculture's Agricultural Research Service (ARS), and 
especially for the Agency's flagship research facility, the Henry A. 
Wallace Beltsville Agricultural Research Center (BARC), in Maryland. 
Our organization--Friends of Agricultural Research--Beltsville promotes 
the Center's current and long-term agricultural research, outreach, and 
educational missions. In this request, we support $13 million of 
increases proposed in the President's budget for the Beltsville 
Agricultural Research Center. Also, we ask restoration of $111,000 of 
decreases proposed for the U.S. National Arboretum, Washington, DC, and 
$2,918,000 of decreases proposed for the Beltsville Agricultural 
Research Center. These actions, if approved, would restore the 
increases for the Beltsville Agricultural Research Center to $13 
million.
    Before turning to explanatory specifics, please allow us to note 
for the record that during this calendar year the Beltsville 
Agricultural Research Center will mark a great historical milestone, a 
milestone to celebrate the many great and small accomplishments that 
BARC research has contributed to the Nation's agricultural bounty and 
to the overall march of scientific progress. A century has passed since 
1910, the year research at Beltsville began with the assembly of a 
dairy cattle herd for research purposes. The ensuing BARC story is by 
all rights a great national story--a story of world-class 
accomplishment. BARC Director Joseph Spence and his staff are planning 
worthy events to commemorate the centennial year.
    The Friends of Agricultural Research--Beltsville (FAR-B) is honored 
to be both a participant in the centennial planning process and a 
contributor to coming events. We would be pleased, Mr. Chairman, to 
answer any questions, to collect any information or documents the 
subcommittee might wish regarding the centennial.
    We now turn to the specifics of our testimony for fiscal year 2011. 
Most fiscal year 2011 increases in the President's budget for BARC 
appeared (sometimes under slightly different headings) in our testimony 
for fiscal years 2009 or 2010. We strongly support all the proposed 
increases.
    Animal Breeding and Protection, $1,500,000.--The promise of 
understanding the genome of plants and animals is being fully exploited 
at Beltsville. In groundbreaking research conducted here, scientists 
have been able to quickly and accurately identify dairy bulls that will 
produce daughters that are the most efficient milk producers. Now a 
simple test at birth can predict at twice the former accuracy and at a 
cost of about $250 the potential of a bull to sire high producing cows. 
Traditionally, bull prediction methods have required farmers to 
maintain and study cows for several years, at a cost up to $50,000 per 
bull. The potential for developing and expanding this breakout 
technology is huge and at great savings to farmer and consumer alike.
    Colony Collapse of Honey Bees, $500,000.--The loss of honey bees 
has and will continue to have a major effect on American agriculture. 
Crops such as almonds are entirely dependent on the honey bee for 
pollination. Research conducted at Beltsville is regarded as the most 
significant and effective at addressing the issue of colony collapse 
disorder and the funds will make use of the recently reported DNA 
sequence of nosema, a pathogen that is associated with colony collapse 
disorder. BARC scientists determined the DNA sequence for nosema.
    Crop Breeding and Protection, $1,250,000.--A number of crops of 
great agronomic importance to the United States are at risk from 
emerging diseases that can devastate crop yield. Research to identify 
germplasm that is resistant to these emerging diseases is being 
conducted at BARC. The research combines BARC's unique germplasm 
resources with outstanding breeding research ability to develop 
improved crop varieties with resistance to emerging diseases.
    Food Safety, $1,500,000.--The Beltsville Area has established the 
largest single food safety unit in ARS. This research unit will focus 
on a number of issues, including safety of fruits and vegetables and 
food safety issues related to organic agriculture. The ability exists 
at BARC to raise crops and animals under farm conditions, and then to 
process, store, and package the resulting products. The ability to 
propose and test interventions that greatly reduce pathogen exposure in 
foods, and ultimately in people, is a unique feature of the food safety 
research program at BARC.
    Global Climate Change, $800,000.--BARC has unique growth chambers 
that can measure and observe plant growth at every stage or part from 
root to stem, and under every conceivable atmospheric condition. BARC 
is using these chambers to measure the effects of increasing 
atmospheric CO<INF>2</INF> and changes in environmental temperatures. 
Studies are underway not only on agronomically important crops, but 
also on invasive weeds. BARC research shows that environmental changes 
may enhance the rapid growth of invasive plants, thus threatening to 
exacerbate already costly problems for American agriculture.
    Human Nutrition, $5,400,000.--Obesity negatively impacts the health 
and productivity of the American public. Moreover, obesity comes with 
greatly increased risk of chronic diseases that dramatically add to the 
economic costs of healthcare. The Beltsville Human Nutrition Research 
Center (BHNRC) is researching barriers and facilitators that may 
discourage or encourage Americans from following recommended Dietary 
Guidelines; that is, why adults and children from major U.S. racial/
ethnic groups may or may not follow dietary guidelines. A major 
research emphasis is to prevent obesity through a better understanding 
of why people make the food choices they do. This research also will 
help USDA design and implement more effective food assistance programs. 
Furthermore, this research will help to define the progress of efforts 
to prevent obesity in children because it takes advantage of the unique 
national food consumption survey ``What We Eat in America'', conducted 
by BHNRC and is the Nation's nutrition monitoring effort.
    Local Food Systems, $500,000.--BARC scientists are working with 
farmers on Maryland's Eastern Shore to learn how to improve on-farm 
conservation practices that will improve water quality in the 
Chesapeake Bay. The research goals--targeting the entire range of 
Eastern Shore farming practices--include reducing fertilizer and 
pesticide usage. A central goal is to create agronomic and animal waste 
management practices that will reduce fertilizer usage and control 
pollution runoff. Biocontrol studies are searching out ways to minimize 
the need for pesticides. Scientists also are using advanced remote 
sensing and hydrological technologies to protect the health of the 
Chesapeake watershed. Because BARC is a working farm and has 
established collaborations with producers on the Eastern Shore, BARC is 
an ideal place to study the utilization of farm-generated waste 
products. Farm-generated waste products can be environmentally harmful, 
have little or no value to the farmer, and be costly to dispose of. 
Work at Beltsville has led to the effective development of technologies 
and products that take waste by-products and convert them to valuable 
new products. Examples include biofuels and plastics made without 
petroleum.
    Plant, Animal, and Microbial Collections, $1,250,000.--BARC 
maintains and expands the Federal government's unique collections of 
biological materials and organisms that are of utmost importance in 
identifying pests and parasites in the United States and are critical 
for preventing unwanted pests from entering the United States through 
imports or by international travelers, as well as demonstrating that 
our exports are safe. These unique, irreplaceable collections include 
the invaluable reference collections of insects, nematodes, parasites, 
and fungi, and the national Germplasm Resource Information Network. 
These world-class collections and information systems attract leading 
experts from around the world in efforts to globally control diseases 
and pests. The continued availability of research in this general area 
of systematics is essential for trade, for homeland security, and for 
the protection of American agriculture.
    Reduce World Hunger, $300,000.--This research will collect 
phenotypic data and use genome sequence derived markers to characterize 
germplasm for traits of importance in food animals. Of most 
significance, this work will utilize BARC's Animal Improvements 
Laboratory, which is a truly unique research operation that builds on 
100 years of expertise at BARC.
    Now we turn to proposed decreases, all listed as earmarks in the 
President's budget. We recommend restoration of these funds.
    Medicinal and Bioactive Crops, $111,000.--This funding is critical 
to continue research on the beneficial bioactive components in plants 
and herbs. These components have been shown at BARC to enhance human 
health.
    Biomedical Materials in Plants, $1,700,000.--Plants can be used as 
factories to manufacture vaccines and other pharmaceuticals for animals 
and humans. This research focuses on development of alternative crops 
to produce these biomedical products.
    Bioremediation Research, $111,000.--Munitions storage sites and 
bombing ranges in parts of the United States have left huge tracts of 
soils and lands contaminated by highly toxic residues from such 
explosives as TNT. Those soils and lands now are limited 
environmentally for commercial or agricultural purposes. These funds 
support ongoing research to determine if forage plants can remove TNT 
and its metabolites from contaminated sites. Beltsville is a world 
recognized leader in the field of bioremediation. This work is not done 
anywhere else in ARS.
    Foundry Sand By-Products Utilization, $638,000.--Waste sands from 
the metal casting industry currently are dumped in landfills. This 
project is working with industry on guidelines for beneficial uses of 
these sands.
    Potato Diseases, $61,000.--These funds are used for research 
activities on genetic improvement of potato and reducing diseases of 
potato. While a small amount of money, these funds are used to 
supplement ongoing efforts in this important area.
    Poultry Diseases, $408,000.--Coccidiosis, a parasitic poultry 
disease, costs the industry almost $1 billion per year. This research 
focuses on understanding the genetics of both the parasite and the host 
chicken to identify targets that will allow better disease prevention 
and control.
    Mr. Chairman, that concludes our statement. We again thank you for 
the opportunity to present our testimony and for your interest and 
support.
                                 ______
                                 

Prepared Statement of the Infectious Diseases Society of America (IDSA)

    The Infectious Diseases Society of America (IDSA) appreciates this 
opportunity to speak in support of Federal efforts to prevent, detect 
and respond to infectious diseases in the United States and abroad as 
part of the fiscal year 2011 funding cycle. IDSA supports an overall 
increase of $495 million for the Food and Drug Administration (FDA) for 
fiscal year 2011. Within this overall increase, we support an 
additional $20 million for FDA's antimicrobial resistance and 
antibacterial drug review programs, which will allow FDA to more 
aggressively address staffing problems within the Agency's division 
with oversight over antibacterial human drug reviews to enable that 
division to quicken its pace in developing critical guidance for 
industry on antibacterial drug clinical trial designs; fund Critical 
Path initiatives specific to antibacterial drug development; update 
antibacterial drug and antimicrobial susceptibility testing (AST) 
device susceptibility breakpoints for inclusion in product labeling; 
and review the safety of antibacterial drug use in food animals. We 
also support an increase of $13.25 million for FDA's new regulatory 
science initiative and an increase of $3 million for the National 
Antimicrobial Resistance Monitoring System (NARMS).
    IDSA represents more than 9,000 infectious diseases physicians and 
scientists devoted to patient care, prevention, public health, 
education and research. Our members care for patients of all ages with 
serious infections, including meningitis, pneumonia, tuberculosis (TB), 
resistant infections caused by methicillin-resistant Staphylococcus 
aureus (MRSA), Escherichia coli (E. coli) and Salmonella, and cancer 
and transplant patients who have life-threatening infections caused by 
unusual microorganisms, food poisoning, and HIV/AIDS, as well as 
emerging infections like the 2009 H1N1 virus and severe acute 
respiratory syndrome (SARS).
                   overall fda funding recommendation
    The increases in FDA's appropriations over the past few years have 
been critical to strengthening the Agency. Nonetheless, there remains 
an extraordinarily large gap between FDA's responsibilities and its 
resources. Every year, the Agency's job becomes more complex 
scientifically and more difficult to perform. Moreover, new laws 
affecting FDA recently have been enacted, further straining the FDA's 
ability to meet the expectations of the Congress and the American 
people. It is also important to note that FDA's appropriation is quite 
small, especially when matched against its jurisdiction over one-
quarter of consumer spending, 80 percent of the food supply and all of 
the drugs, biologics, medical devices, animal drugs, cosmetics and 
dietary supplements used anywhere in the United States. FDA must also 
deal with the food and medical products that are sourced from overseas. 
IDSA is recommending a $495 million increase for FDA in fiscal year 
2011. This is the amount we believe is needed to enable FDA to make 
further progress in carrying out its existing responsibilities.
                    specific funding recommendations
    Within this increased funding, IDSA supports a strengthening of 
efforts which will support FDA's antimicrobial resistance programs and 
antibacterial drug review efforts. Specifically, we support at least a 
$20 million increase for FDA's activities in these areas in fiscal year 
2011. We also support an increase in FDA funding for the new regulatory 
science initiative and an increase for the National Antimicrobial 
Resistance Monitoring System (NARMS).
            the antibiotic pipeline: problems and solutions
    Since antibiotics were first discovered and used in the 1940s to 
save American soldiers during World War II, they have saved millions of 
lives and eased patients' suffering. In fact, antibiotics often have 
been referred to as ``miracle drugs,'' since patients only need to take 
them for a few days to completely resolve most infections.
    However, antibiotics also are unique among all medicines in two 
very unfortunate ways. First, over time, these drugs lose their ability 
to treat the diseases for which they were approved--due to antibiotic 
resistance. And, second, the phenomenon of antibiotic resistance has 
required that newly approved antibiotics be used sparingly so that we 
can prolong their effectiveness against life-threatening infections. 
These two issues, resistance and the resulting need for protective 
antibiotic stewardship measures, have created very real clinical 
challenges in physicians' ability to treat infectious diseases. 
Unfortunately, they also have resulted in a market failure that has 
caused most pharmaceutical companies to withdraw from antibiotic 
research and development (R&D). The sad result--the antibiotic pipeline 
is drying up, placing Americans and other people around the world at 
serious risk.
    A January 2009 IDSA report published in the journal Clinical 
Infectious Diseases (CID) analyzes antibiotics in development and shows 
the pipeline is bare, particularly for infections caused by a group of 
bacteria known as the ESKAPE Pathogens (Enterococcus faecium, 
Staphylococcus aureus, Klebsiella pneumoniae, Acinetobacter baumannii, 
Pseudomonas aeruginosa, and Enterobacter species), so-called because 
they effectively escape the effects of approved antibiotic drugs. Of 
significance, these ESKAPE pathogens cause the majority of U.S. 
healthcare-associated infections. A report released by the European 
Centre for Disease Prevention and Control (ECDC) and the European 
Medicines Agency (EMA) in September 2009 confirms IDSA's assessment 
finding only 15 antibacterial drugs in development with the potential 
to offer a benefit over existing antibacterial drugs. Only five of 
these antibiotics had progressed to clinical trials to confirm clinical 
efficacy (Phase III or later).
    The lack of new antibacterial drugs in development is deeply 
troubling to health experts and has the potential to change the 
practice of medicine as we know it. A number of advanced interventions 
that we currently take for granted, e.g. surgery, cancer treatment, 
transplantation and care of premature babies, may be impossible to 
perform if we get to the point where effective antibacterial drugs are 
no longer available. Our ability to care for patients with serious and 
life-threatening infections already has been significantly diminished--
morbidity and mortality are on the rise.
    In addition to market failure due to antibacterial resistance, 
pharmaceutical companies often report that uncertainty caused by a lack 
of clear FDA guidance on appropriate clinical trial designs is a 
significant impediment to antibacterial R&D efforts. IDSA requests that 
FDA funding be sufficiently increased to allow the Agency to quickly 
provide regulatory certainty and to explore other incentives needed to 
motivate major drug companies to become engaged again in antibacterial 
R&D.
    FDA has made some progress over the past several years in 
publishing new clinical trial guidelines. However, clear clinical trial 
design guidance is still urgently needed, including guidances for 
community-acquired bacterial pneumonia, hospital-acquired bacterial 
pneumonia, ventilator-associated bacterial pneumonia, complicated skin 
and skin structure infections and other serious infections. FDA must 
have adequate funding to hire additional staff quickly to finalize 
these guidances. Otherwise, more companies will leave this area of drug 
development.
    Moreover, IDSA strongly urges FDA to commission a study through the 
Tufts Center (or some other similar entity) seeking a report on 
strengths and weaknesses in the antibacterial and related diagnostics 
R&D pipelines with a particular emphasis on products needed to treat, 
detect, and prevent serious and life-threatening infections caused by 
ESKAPE pathogens. The study also should provide recommendations as to 
what combination of incentives, considering each phase of product 
development, will work to spur greater R&D of such products among the 
biotechnology, pharmaceutical, and diagnostics industries as well as 
within academic settings.
                     support for regulatory science
    IDSA is encouraged by the recent announcement of the initiative 
between FDA and the National Institutes of Health designed to 
accelerate the process from scientific breakthrough to the availability 
of new, innovative medical therapies for patients. The initiative 
involves two interrelated scientific disciplines: translational 
science, the shaping of basic scientific discoveries into treatments; 
and regulatory science, the development and use of new tools, standards 
and approaches to more efficiently develop products and to more 
effectively evaluate product safety, efficacy and quality.
    In order to improve the regulatory science, the two agencies will 
jointly make $6.75 million available over 3 years for work in this 
area. The research supported through this initiative will add to the 
scientific knowledge base by providing new methods, models or 
technologies to inform the scientific and regulatory community about 
better approaches to evaluating safety and efficacy in medical product 
development. IDSA is concerned, however, that this amount of funding 
will be insufficient to lead to the types of breakthroughs needed to 
bring new antibacterial drug products to the market in a more timely 
fashion. We support an increase of $13.25 million in this funding, to a 
total of $20 million, to support science around antibacterial drug 
development.
                       antibacterial breakpoints
    Physicians need accurate information on susceptibility 
interpretative criteria (``breakpoints'') to use antibacterial drugs 
wisely. Breakpoints are the science behind standard laboratory policy 
and are the basis upon which antibacterial drug selection 
determinations are made. The real-life impact of relying upon 
inaccurate (including out-of-date) breakpoints are thousands of wrong 
treatment decisions being made every day in this country. Without 
accurate breakpoint information, patients' safety and lives are at 
risk. That is why updating antibacterial drug product labeling and AST 
instruments/systems in a timely manner are so critically important. 
Again, FDA must have the funding necessary to allow for additional 
staff to be able to update these breakpoints on a timely and consistent 
basis.
             antibacterial use and resistance on u.s. farms
    Another area of serious concern is the inappropriate use of 
antibacterial drugs in food animal production. An additional $5 million 
should be allocated to allow FDA to complete, update and publish 
reviews on the safety of antimicrobials important in human medicine 
currently used for non-therapeutic purposes in food-producing animals 
for their role in the selection and dissemination of antibiotic 
resistant food-borne pathogens, these reviews. Since 2003, FDA's Center 
for Veterinary Medicine (CVM) has required that the pre-approval safety 
review for all new antibiotic veterinary drugs include an evaluation of 
the likelihood that the proposed drug use in animals will lead to 
resistant infections in humans. Because almost all antibacterial drugs 
being used for growth promotion and other non-therapeutic purposes in 
livestock production were approved by the FDA before 2003, most have 
either not undergone reviews with respect to antibacterial resistance 
or have undergone reviews that are inconsistent with current standards. 
In order to ensure that these drugs meet current safety standards, it 
is important to do post-market safety reviews of those classes of 
antibiotics important to human medicine that are also being used for 
routine non-therapeutic purposes in animal agriculture. These would 
include penicillins, tetracyclines, macrolides, lincosamides, 
streptogramins, aminoglycosides, and sulfonamides. By providing an 
additional $5 million, the subcommittee can ensure that FDA completes 
and publishes these critical reviews.
    Finally, an additional $3 million should be provided to the 
National Antimicrobial Resistance Monitoring System (NARMS). Jointly 
operated by FDA, the Department of Agriculture (USDA) and the Centers 
for Disease Control and Prevention (CDC), NARMS is a national public 
health surveillance system that tracks changes in the susceptibility of 
certain enteric bacteria to antimicrobial agents of human and 
veterinary medical importance. Systematic collection and analyses of 
data is essential to address the growing problem of antibacterial 
resistant infections.
    NARMS has been level-funded at about $7 million for the last 
several years; however, at that level it has been unable to keep up 
with life-threatening pathogens, such as MRSA, E. coli and Salmonella. 
Additional funding will enable increased surveillance, to include 
additional bacterial species and numbers and/or types of samples as 
well as allow researchers to utilize more sensitive methods. The 
additional funding will also allow NARMS to initiate farm-level 
surveillance of antibiotic-resistant bacteria.
    Today's investment in infectious diseases research, surveillance, 
prevention, and treatments will pay significant dividends in the future 
by dramatically reducing healthcare costs and improving the quality of 
life of millions of Americans and others. In addition, U.S. leadership 
in infectious diseases research and prevention will translate into 
worldwide health benefits. We urge the subcommittee to continue to 
demonstrate leadership and foresight in this area by appropriating the 
much-needed resources outlined above in recognition of the lives and 
dollars that ultimately will be saved.
                                 ______
                                 

   Prepared Statement of the International Walking Horse Association 
                                 (IWHA)

    IWHA submits the following testimony seeking an increase in funding 
for the USDA/APHIS Horse Protection Program to $900,000, as requested 
in the President's budget for fiscal year 2011. This funding is 
urgently needed to by APHIS in order to fulfill the intent of the Horse 
Protection Act, which is to abolish the cruel practice of soring horses 
for show ring competition--by increasing the USDA's oversight and 
enforcement of the Horse Protection Act (HPA).
    In 1970, Congress passed the HPA with the clear intent to end 
soring, the intentional infliction of pain to the limbs horses to 
produce an exaggerated gait, practiced primarily in the Tennessee 
Walking Horse show industry. The practice creates an unfair advantage 
in the show ring for those who engage in it, and has significant 
negative impacts to both the breed itself and to commerce in and 
related to the breed.
    Soring often involves the use of various chemicals which are 
painted on the lower front legs of a horse, then the legs are wrapped 
for days in plastic wrap and bandages to ``cook'' the chemicals deep 
into the horse's flesh, but it may also involve various means of 
physical abuse. The desired result is that horse's legs and or feet 
become extremely painful and sensitive. Then when the horse is ridden, 
by attempting to relieve its front feet and legs of pain, it most often 
performs an exaggerated gait which is highly rewarded in the show ring. 
Some of the physical methods mentioned include inserting foreign 
objects such as metal screws or hard acrylic between the shoes and the 
horse's hoof, and/or cutting a horse's hoof down to the sensitive live 
tissue to cause extreme pain every time the horse bears weight on the 
hoof; a practice known as pressure shoeing. Other cruel secondary 
practices involve such practices as applying painful chemicals such as 
salicylic acid to slough off scarred tissue, in an attempt to remove 
evidence of soring.
    The Horse Protection Act authorizes the USDA to inspect Tennessee 
Walking Horses and Racking Horses--in transport to and at shows, 
exhibits, auctions and sales--for signs of soring, and to impose 
penalties against violators. Unfortunately, in recent years the 
enforcement of the Act has been plagued by underfunding. As a result, 
the USDA has not been able to adequately enforce the Act, allowing this 
extreme and deliberate cruelty to persist on a widespread basis.
    The most effective way to meet the goals of the Act is for USDA 
officials to be present at more Tennessee Walking Horse shows. However, 
the current funding provision allows USDA attendance at only about 6 
percent of shows. Although the USDA set up and has oversight of an 
industry-run system of certified Horse Industry Organization (HIO) 
inspection programs, which are charged with inspecting horses for signs 
of soring at the majority of shows These HIOs have often hired industry 
insiders who have an obvious stake in preserving the status quo. In the 
absence of strict USDA oversight, these programs often fail to 
accomplish the intent of the Act, and in some cases even take advantage 
of the lack of USDA oversight in order to thwart the intent of the Act. 
Statistics clearly show that when USDA inspectors are in attendance to 
oversee shows, the numbers of noted violations for some of the HIOs are 
many times higher than at shows where industry inspectors alone are 
conducting the inspections. By all measures, the overall DQP program 
has been a failure--the only remedy is to abolish it or greatly reduce 
dependence on this conflicted industry-run program of self-regulation 
and give USDA the resources it needs to adequately enforce the Act.
    USDA appears to have recently attempted to step up its enforcement 
efforts, as evidenced in 2009 by a more than twofold increase over the 
previous year in the number of violations cited at the industry's 
largest show (the Tennessee Walking Horse National Celebration). 
However, the top three prize winning horses at that show were all found 
after their wins to have been in violation of the HPA, yet their owners 
and trainers were allowed to keep the titles and prizes awarded. Horses 
identified as sored at shows also continue to be shown in subsequent 
events, and their owners continue to win lucrative prizes and 
accolades. USDA needs enhanced resources to carry out its 
responsibilities as Congress intended, and the public expects.
    Lack of a consistent presence by USDA officials at Tennessee 
Walking Horse events has fostered a cavalier attitude among industry 
insiders, who have not stopped their abuse, but have only become more 
clandestine in their soring methods. The continued use of soring to 
gain an advantage in the show ring has ruined the reputation of the 
Tennessee Walking Horse, both as a breed and show industry. The 
continued allowance of soring creates an unfair advantage for those who 
are willing to break the law in order to win in the show ring. Besides 
the cruelty to the horses, the continued acceptance of sored horses in 
the show ring unfairly disadvantages those with sound horses from 
competing fairly for prizes, breeding fees, and the value of their 
horses. Meanwhile, other owners whose horses are in training with 
unscrupulous trainers are often unwittingly suffering property damage 
and being duped into believing that their now abused, often permanently 
scarred horses are naturally superior.
    Currently, when USDA inspectors arrive at shows, many exhibitors 
load up and leave to avoid being caught with sored horses. While USDA 
could stop these trailers on the way out, Agency officials have stated 
that inspectors are wary of going outside of their designated 
inspection area, for fear of harassment and physical violence from 
exhibitors. Recently, armed security has been utilized to allow such 
inspections, at additional expense to this program. The fact that 
exhibitors feel they can intimidate government officials without 
penalty is a testament to the inherent shortcomings of the current 
system.
    Further, in years past, inspections were limited to physical 
observation and palpation by the inspector. More recently, new 
technologies, such as thermography and ``sniffer'' devices (gas 
chromatography/mass spectrometry machines), have been developed, which 
can help inspectors identify soring more effectively. However, USDA has 
been unable to purchase and put enough of this equipment in use in the 
field, allowing for industry insiders to continually evade detection. 
With increased funding, the USDA could purchase this equipment and 
train more inspectors to use it properly, greatly increasing its 
ability to enforce the HPA.
    The egregious cruelty of soring is not only a concern for animal 
protection and horse industry organizations, but also for equine 
veterinarians. In 2008, the American Association of Equine 
Practitioners (AAEP) issued a white paper condemning soring, calling it 
``one of the most significant welfare issues faced by the equine 
industry.'' It called for the abolition of the DQP Program, saying 
``the acknowledged conflicts of interest which involve many of them 
cannot be reasonably resolved, and these individuals should be excluded 
from the regulatory process.'' The AAEP further stated, ``The failure 
of the HPA to eliminate the practice of soring can be traced to the 
woefully inadequate annual budget of $500,000 allocated to the USDA to 
enforce these rules and regulations.''
    It is unacceptable that nearly 40 years after passage of the Horse 
Protection Act, the USDA still lacks the resources needed to end this 
extreme form of abuse and the impact it has on the breed and overall 
commerce in it. It is time for Congress to give our public servants 
charged with enforcing this Act the support and resources they need to 
fulfill their duty to effectively protect these horses, those who 
compete fairly in showing them, and the public's interest in an 
industry that should be realizing its full potential as a positive 
source of commerce rather than being thwarted by illegal activity.
    We appreciate the opportunity to share our views about this serious 
problem, and thank you for your consideration of our request.
                                 ______
                                 

                  Letter From the Lacey Act Coalition

                                                    March 17, 2010.
Hon. Herb Kohl, 
Chairman, Subcommittee on Agriculture, Rural Development, Food and Drug 
        Administration, and Related Agencies, Washington, DC.
Hon. Sam Brownback,
Ranking Member, Subcommittee on Agriculture, Rural Development, Food 
        and Drug Administration, and Related Agencies, Washington, DC.
    Dear Chairman Kohl and Ranking Member Brownback: We write to 
request your leadership and support to fund the Animal and Plant Health 
Inspection Service (APHIS) at the Department of Agriculture to 
implement its ongoing responsibilities under the Lacey Act plant 
provisions (Section 8204 of the Food, Conservation, and Energy Act of 
2008, Public Law 110-246).
    The Lacey Act amendments, passed in 2008 with overwhelming support 
from Congress, industry, labor and environmental organizations, make it 
unlawful to trade wood products or other plants taken in violation of 
the laws of either a U.S. State or a foreign country. This ground-
breaking legislation is already beginning to influence the way 
companies are making sourcing decisions and monitoring their supply 
chains. Full and effective implementation and enforcement of the Lacey 
Act will enable American forest product companies to compete fairly in 
the global marketplace, help keep jobs in the United States, deter the 
destructive impacts of illegal logging on forests and forest-dependent 
communities in developing countries, and reinforce initiatives to 
mitigate climate change.
    The law requires U.S. importers of wood products to file a 
declaration identifying the species name and country of harvest--a 
critical measure intended by the law's sponsors to increase supply 
chain transparency and assist U.S. agencies in fair and strong 
enforcement. The prohibition and the declaration requirement affect a 
wide array of American industry, so it is critical that the declaration 
process generates data in a streamlined, cost-effective manner without 
unduly burdening legitimate trade. To that end, APHIS, which is 
responsible for implementing the declaration provision, needs $5.5 
million in funding to establish an electronic declarations database and 
to add internal capacity to perform data analysis needed for monitoring 
and enforcement purposes.
    We recognize that this is a tight budget year; however, support for 
the Lacey Act amendments is critical as they herald U.S. leadership on 
a complex global environmental and business issue. Other key allies are 
watching the United States and looking to emulate this example. Thus we 
urge you to allocate adequate funds to APHIS in the fiscal year 2011 
Agriculture, FDA and Related Agencies Appropriations Act for effective 
implementation of its new responsibilities under the amended Lacey Act, 
to help curb the importation of illegally sourced wood products into 
the United States.
            Sincerely,

Amazon Watch
American Forest and Paper Association
Conservation International
Defenders of Wildlife
Dogwood Alliance
Double Helix Tracking Technologies
Environmental Investigation Agency
Friends of the Earth
Global Witness
Hardwood Federation
Humane Society International
The Humane Society of the United States
National Wildlife Federation
Natural Resources Defense Council
Rainforest Action Network
Rainforest Alliance
Rainforest Relief
Sierra Club
Sustainable Furnishings Council
The Forest Trust
The Nature Conservancy
TRAFFIC
United Steelworkers
Wildlife Conservation Society
World Wildlife Fund
                                 ______
                                 

   Letter From the Metropolitan Water District of Southern California

                                                    March 26, 2010.
Hon. Herb Kohl, 
Chairman, Subcommittee on Agriculture, Rural Development, and Related 
        Agencies, Washington, DC.

Re: Support for fiscal year 2011 Federal funding of 2.5 percent of the 
        U.S. Department of Agriculture's Environmental Quality 
        Incentives Program (at least $20 million annually) for the 
        Colorado River Basin Salinity Control Program
    Dear Senator Kohl: The Metropolitan Water District of Southern 
California (Metropolitan) has adopted a position supporting funding for 
the Department of Agriculture's Colorado River Basin Salinity Control 
Title II program.
    For 70 years, Metropolitan has provided imported water to the 
Southern California region from the Colorado River and the State Water 
Project originating in Northern California. Our mission is to provide 
high quality, reliable drinking water supplies primarily for municipal 
and industrial use. Metropolitan is the Nation's largest provider of 
imported water to an urban area. The population today in our service 
area is 19 million and it is projected to rise to 25 million within the 
next 25 years. Metropolitan is comprised of 26-member public agencies 
that serve an area spanning 5,200 square miles and six southern 
California counties.
    Water imported via the Colorado River Aqueduct (CRA) has the 
highest salinity of Metropolitan's imported sources of supply, 
averaging around 630 milligrams per liter since 1976 and causing 
economic damages. For example, damages occur from:
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the cost of water treatment and sewer fees in the 
        industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration;
  --Increased use of imported water for leaching; and
  --Increased cost of desalination and brine disposal for recycled 
        water.
    Concern over salinity levels in the Colorado River has existed for 
many years. To deal with the concern, the International Boundary and 
Water Commission approved Minute No. 242, Permanent and Definitive 
Solution to the International Problem of the Salinity of the Colorado 
River in 1973, and the President approved the Colorado River Basin 
Salinity Control Act in 1974. High total dissolved solids in the 
Colorado River as it entered Mexico and the concerns of the seven 
Colorado River Basin States regarding the quality of Colorado River 
water in the United States drove these initial actions. To foster 
interstate cooperation on this issue and coordinate the Colorado River 
Basin States' efforts on salinity control, the seven Basin States 
formed the Colorado River Basin Salinity Control Forum (Forum).
    The salts in the Colorado River system are indigenous and 
pervasive, mostly resulting from saline sediments in the Basin that 
were deposited in prehistoric marine environments. They are easily 
eroded, dissolved, and transported into the river system.
    The Colorado River Basin Salinity Control Program reduces salinity 
by preventing salts from dissolving and mixing with the River's flow. 
Irrigation improvements (sprinklers, gated pipe, lined ditches) and 
vegetation management reduce the amount of salt transported to the 
Colorado River. Point sources such as saline springs are also 
controlled. The Federal Government, Basin States, and contract 
participants spend close to $50 million annually on salinity control 
programs.
    The Program, as set forth in the Act, benefits both the Upper 
Colorado River Basin water users through more efficient water 
management and the Lower Basin water users, hundreds of miles 
downstream from salt sources in the Upper Basin, through reduced 
salinity concentration of Colorado River water. California's Colorado 
River water users are presently suffering economic damages in the 
hundreds of millions of dollars per year due to the River's salinity.
    By some estimates, concentrations of salts in the Colorado River 
cause approximately $350 million in quantified damages in the lower 
Colorado River Basin States each year and significantly more in 
unquantified damages. Salinity control projects have reduced salinity 
concentrations of Colorado River water on average by over 100 
milligrams per liter with an economic benefit of $264 million per year 
(2005 dollars) in avoided damages.
    Metropolitan urges this subcommittee to support funding for the 
Colorado River Basin Salinity Control Program for fiscal year 2011 of 
2.5 percent of the U.S. Department of Agriculture's Environmental 
Quality Incentives Program (at least $20 million annually) for the 
Colorado River Basin Salinity Control Program.
    These Federal dollars will be augmented by the State cost sharing 
of 30 percent with an additional 25 percent provided by the 
agricultural producers with whom USDA contracts for implementation of 
salinity control measures. Over the past years, the Colorado River 
Basin Salinity Control program has proven to be a very cost effective 
approach to help mitigate the impacts of increased salinity in the 
Colorado River. Continued Federal funding of this important basin-wide 
program is essential.
    I would appreciate it if you make this statement a part of the 
formal hearing record concerning fiscal year 2011 appropriations for 
the Department of Agriculture. I thank you for your subcommittee's 
support of this program in years past and hope that you will again 
support funding to continue this valuable program.
            With best regards,
                                       Jeffrey Kightlinger,
                                                   General Manager.
                                 ______
                                 

    Prepared Statement of the National Association of State Energy 
                           Officials (NASEO)

    Chairman Kohl and members of the subcommittee, I am Phil Giudice, 
Chairman of the National Association of State Energy Officials (NASEO). 
NASEO is submitting this testimony in support of funding of at least 
$39 million in discretionary appropriations for the Rural Energy for 
America (REAP) (section 9007 of the 2008 Farm Bill) in addition to the 
$70 million in mandatory funding. The REAP program was created as part 
of the 2002 Farm Bill and it has been a huge success. Over 3,500 clean 
energy projects have been implemented in every State since 2003. These 
activities have included energy efficiency projects, as well as wind, 
solar, biomass, anaerobic digesters, biodiesel, and geothermal. 
Technical assistance has also been a big factor in this program. 
Funding requests are generally three times the amount of available 
funds. NASEO has worked with farmers, our State agricultural agencies 
and rural interests to promote this successful program. As we face 
dramatically increasing energy bills for all sectors of the economy 
(and increased volatility in energy prices), it is critical that we do 
more to address the energy problems of rural America.
    Greater energy efficiency and renewable energy use in the farm 
sector will help create jobs, reduce climate change, increase 
agricultural productivity and improve the environment. If significantly 
increased energy funding can be provided for the energy title of the 
Farm Bill, then this could effectively combine with efforts through the 
Energy and Water Development Appropriations Bill, such as the State 
Energy Program, biorefineries, expanded alternative fuels programs, 
alternative fuels infrastructure, etc.
                                 ______
                                 

Prepared Statement of the National Commodity Supplemental Food Program 
                          Association (NCSFPA)

    The Honorable Herb Kohl, Mr. Chairman, and subcommittee members: 
Thank you for this opportunity to present information regarding the 
USDA/FNS Commodity Supplemental Food Program (CSFP).
    The National Commodity Supplemental Food Program Association 
(NCSFPA) requests the Senate Agriculture Appropriations Subcommittee 
fund CSFP for fiscal year 2011 at $176.788 million, as requested by the 
U.S. Department of Agriculture, and include language directing the 
Department to utilize all available resources to supplement the CSFP 
food package and meet the rising demand for nutritional assistance 
among our vulnerable senior population.
    This first effort at national food assistance began in 1969 with 
monthly packages designed to supplement protein, calcium, iron, 
vitamins A and C for low-income mothers and children (preceding WIC); 
nutrients shown to be lacking in the diets of low-income households. 
Low-income seniors added in 1983 now comprise 96 percent of all CSFP 
participants.
    CSFP is a unique program that brings together Federal and State 
agencies, along with public and private entities, The USDA purchases 
specific nutrient-rich foods at wholesale prices. State agencies 
provide oversight, contract with community and faith based 
organizations to warehouse and distribute food, certify eligibility and 
educate participants. The local organizations build broad collaboration 
among non-profits, health units, and area agencies on aging for simple, 
fast access to the supplemental foods (canned fruits and vegetables, 
juices, meats, fish, peanut butter, cereals, grain products, cheese and 
dairy products from American farmers) and nutrition education to 
improve participants health and quality of life. This partnership 
reaches even homebound seniors in both rural and urban settings with 
vital nutrition and remains an important ``market'' for commodities 
supported under various farm programs.
    In fiscal year 2009, the CSFP provided services through 150 non-
profit community and faith-based organizations at 1,800 sites located 
in 32 States, the District of Columbia, and two Indian Tribal 
Organizations (Red Lake, Minnesota and Oglala Sioux, South Dakota). On 
behalf of those organizations NCSFPA would like to express our 
gratitude for the increased fiscal year 2010 funding. We are most 
appreciative for the funding increase that has allowed CSFP to begin in 
seven new States, Arkansas, Delaware, Georgia, Maine, New Jersey, 
Oklahoma, and Utah, and has also resulted in a significant increase in 
the number of individuals who are now able to participate in the 
program in the other CSFP States.
    CSFP's 41 years of service is a testimony to the power of community 
partnerships of faith-based organizations, farmers, private industry 
and government agencies. The CSFP offers a unique combination of 
advantages unparalleled by any other food assistance program:
  --The CSFP specifically targets our Nation's most nutritionally 
        vulnerable populations: young children and low-income seniors--
        many of whom will not qualify for other nutrition assistance 
        programs.
  --The CSFP provides a monthly selection of food packages tailored to 
        specific nutritional needs. Eligible participants are 
        guaranteed [by law] a certain level of nutritional assistance, 
        nutrition education, and food preparation guidance each month. 
        The nutritional content of the food provided has improved with 
        the introduction of low-fat cheese, canned fruits packed in 
        fruit juice, and low-salt canned vegetables.
  --The CSFP purchases foods at wholesale prices, directly supporting 
        American farmers. The average food package cost is estimated at 
        $19.82 and the retail value is $50.00-$60.00.
  --The CSFP involves the entire community. Thousands of volunteers and 
        private companies donate money, equipment, and most importantly 
        time and effort to deliver food to needy and homebound seniors. 
        These volunteers not only bring food but companionship and 
        other assistance to seniors who might have limited support 
        systems. (See Attachment 1.)
    In a recent CSFP survey, more than half of seniors living alone 
reported an income of less than $750 per month. One-half of respondents 
from two-person households reported an income under $1,000 per month. 
Twenty-five percent were enrolled in the Supplemental Nutrition 
Assistance Program (SNAP) and 50 percent said they ran out of food 
during the month. Seventy percent of senior respondents said they 
choose between medicine and food.
    The Senate Agriculture Appropriations Subcommittee has consistently 
supported CSFP, acknowledging it as a cost-effective way of providing 
nutritious supplemental foods. Congress provided funding to meet the 
rising need among the elderly in the fiscal year 2010 appropriation. 
USDA's budget request will provide adequate resources for our monthly 
caseload of 604,931 mothers, children and seniors, and we urge the 
subcommittee to accept it. We also want to be sure that you are aware 
that four additional States are either considering or preparing to 
submit applications to USDA for approval. Should USDA's approval be 
granted, it may be necessary to reconsider if funds beyond those 
requested will be required to allow newly approved States to begin 
operations in fiscal year 2011.
    CSFP and other nutrition programs such as SNAP, are only 
supplemental programs by design. Together they cover a shortfall that 
many seniors face each month. These programs must have support to meet 
the increasing need as part of the ``safety net''.

``The Managers fully support continued operation of this program and 
recognize the need for a substantial expansion of CSFP . . . the 
Managers encourage the Secretary to approve all remaining States for 
expansion and to expand caseload in all participating States.''--Joint 
Statement of Managers, H.R. 2419, the Food, Conservation and Energy Act 
of 2008.

``CSFP has charms worth considering in designing human service programs 
. . . the program's trademarks were its simplicity and accessibility . 
. . CSFP in particular represents a guaranteed source of high quality 
food, delivered in a balanced package.''--The Role of CSFP in 
Nutritional Assistance to Mothers, Infants, Children and Seniors. The 
Urban Institute, August 2008.


------------------------------------------------------------------------
                                                            Amount in
                                                             millions
------------------------------------------------------------------------
The National Commodity Supplemental Food Program
 Association requests the following:
    To continue serving our monthly caseload of 604,931         $175.888
     needy seniors (96 percent of participants), women,
     infants and children (4 percent of participants)..
    To meet USDA's commodity procurement expenses......            0.9
                                                        ----------------
      Total fiscal year 2011 request...................          176.788
------------------------------------------------------------------------

    A 1997 report by the National Policy and Resource Center on 
Nutrition and Aging at Florida International University, Miami--Elder 
Insecurities: Poverty, Hunger, and Malnutrition indicated that 
malnourished elderly patients experience 2 to 20 times more medical 
complications, have up to 100 percent longer hospital stays, and incur 
hospital costs $2,000 to $10,000 higher per stay. Proper nutrition 
promotes health, treats chronic disease, decreases hospital length of 
stay and saves healthcare dollars. America is aging. CSFP must be an 
integral part of Senior Nutrition Policy and plans to support the 
productivity, health, independence and quality of life for America's 
seniors, many of whom now need to continue working at least part-time 
beyond retirement age to afford basics.
    The CSFP is committed grassroots operators and dedicated volunteers 
with a mission to provide quality nutrition assistance economically, 
efficiently, and responsibly always keeping the needs and dignity of 
our participants first. We commend the Food Distribution Division of 
Food and Nutrition Service of the Department of Agriculture for their 
continued innovations to strengthen the quality of the food package and 
streamline administration.

                                                         FISCAL YEAR 2008 NATIONAL CSFP ASSOCIATION ADMINISTRATIVE EXPENSE/VALUE SURVEY
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                     Goods and                                                      Extra goods
                                                                       USDA       Not reimbursed       CSFP          services        Volunteer     Annual total    Percent paid     donated to
                            Programs                                reimbursed     by USDA cash    expenditures     donated to      labor hours    program value      by USDA          CSFP
                                                                       cash                            cash        agency value        value                                       participants
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
New Hampshire...................................................        $461,361  ..............        $461,361  ..............         $61,121        $522,482              88         $16,097
New York........................................................       1,947,032      $2,500,000       4,447,032         $20,700           3,984       4,471,716              44           6,500
Vermont FB......................................................         233,132  ..............         233,132  ..............  ..............         233,132             100  ..............
Washington, DC..................................................         434,945       1,600,000       2,034,945         800,000         173,632       3,008,577              14  ..............
Pennsylvania....................................................         912,209          18,637         930,846          32,169          48,259       1,011,274              90         100,000
Kentucky........................................................         980,911          64,645       1,045,556  ..............          24,577       1,070,133              92         624,093
Mississippi.....................................................         437,969  ..............         437,969          30,520         199,906         668,395              66           7,104
North Carolina..................................................          75,126  ..............          75,126  ..............  ..............          75,126             100  ..............
South Carolina..................................................         232,192  ..............         232,192  ..............           1,342         233,534              99          22,500
Tennessee \1\...................................................         840,812  ..............         840,812  ..............  ..............         840,812             100  ..............
Illinois........................................................         869,405  ..............         869,405  ..............          25,643         895,048              97  ..............
Indiana.........................................................         269,732          25,000         294,732          25,000          68,502         388,234              69          32,189
Michigan........................................................       4,861,625         314,317       5,175,942         310,168       1,722,543       7,208,653              67       4,637,316
Minnesota.......................................................         881,829         319,848       1,201,677           2,213         449,733       1,653,623              53         864,844
Red Lake, MN \1\................................................           6,204  ..............           6,204  ..............  ..............           6,204             100  ..............
Ohio............................................................         978,890         198,896       1,177,786          65,770         328,264       1,571,820              62          85,774
Wisconsin.......................................................         316,547          50,000         366,547  ..............         275,406         641,953              49          54,610
Louisiana.......................................................       4,089,578  ..............       4,089,578         330,000       1,104,420       5,523,998              74  ..............
New Mexico......................................................       1,032,128         129,911       1,162,039         248,791         233,955       1,644,785              63         479,843
Texas...........................................................         997,895         157,200       1,155,095  ..............         297,774       1,452,869              69  ..............
Colorado........................................................       1,104,198          67,533       1,171,731          57,449         119,319       1,348,499              82       1,343,961
Iowa............................................................         216,086         353,367         569,453  ..............          13,463         582,916              37  ..............
Kansas..........................................................         328,548           7,200         335,748          10,000          83,642         429,390              77          89,519
Missouri........................................................         583,040  ..............         583,040  ..............          16,608         599,648              97  ..............
Montana \1\.....................................................         425,091  ..............         425,091  ..............  ..............         425,091             100  ..............
Nebraska........................................................         820,898          75,529         896,427          40,470         301,447       1,238,344              66          70,479
North Dakota \1\................................................         175,413  ..............         175,413  ..............  ..............         175,413             100  ..............
South Dakota....................................................         176,228           8,416         184,644  ..............          26,464         211,108              83  ..............
Ogala Sioux, SD \1\.............................................          40,360  ..............          40,360  ..............  ..............          40,360             100  ..............
Alaska..........................................................         134,803          63,000         197,803       1,015,000         104,235       1,317,038              10  ..............
Arizona.........................................................         940,739         252,000       1,192,739           2,000         184,312       1,379,051              68       2,000,000
California......................................................       3,373,339         580,027       3,953,366          35,400       1,248,232       5,236,998              64         379,140
Nevada..........................................................         371,461         174,278         545,739  ..............          24,960         570,699              65         179,400
Oregon..........................................................          84,166          96,573         180,739           4,436          44,317         229,492              37           5,200
Washington......................................................         228,871           7,500         236,371         208,000          90,076         534,447              43  ..............
                                                                 -------------------------------------------------------------------------------------------------------------------------------
      Grand Total...............................................      29,862,763       7,063,877      36,926,640       3,238,086       7,276,137      47,440,863              63     11,306,319
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ No information provided. Feb. 24, 2009. Client Extras incl.: flu shots, fresh produce, clothing, books, toys, health screenings, personal care items, energy efficient items, dairy, baked
  goods, eye exams, etc.

                                 ______
                                 

   Prepared Statement of the National Council of Farmer Cooperatives 
                                 (NCFC)

    Mr. Chairman, members of the subcommittee, we would like to thank 
you for your continued leadership and support for U.S. agriculture. The 
National Council of Farmer Cooperatives (NCFC) appreciates this 
opportunity to submit its views regarding the fiscal year 2011 
agriculture appropriations bill, and respectfully requests this 
statement be made part of the official hearing record.
    NCFC represents the interests of America's farmer cooperatives. 
There are nearly 3,000 farmer cooperatives across the United States 
whose members include a majority of our Nation's 2 million farmers.
    We believe that our farmer cooperative members offer the best 
opportunity for America to realize the farmer-focused ideal of American 
agricultural policy. These farmer cooperatives allow individual farmers 
the ability to own and lead organizations that are essential for 
continued competitiveness in both the domestic and international 
markets.
    America's farmer-owned cooperatives provide a comprehensive array 
of services for their members. These diverse organizations handle, 
process and market virtually every type of agricultural commodity 
produced. They also provide farmers with access to infrastructure 
necessary to manufacture, distribute and sell a variety of farm inputs. 
Additionally, they provide credit and related financial services, 
including export financing.
    In all cases farmers are empowered, as elected board members, to 
make decisions affecting the current and future activities of their 
cooperative. Earnings derived from these activities are returned by 
cooperatives to their farmer-members on a patronage basis thereby 
enhancing their overall farm income.
    America's farmer cooperatives also generate benefits that 
strengthen our national economy. They provide jobs for nearly 250,000 
Americans with a combined payroll over $8 billion. Many of these jobs 
are in rural areas where employment opportunities are often limited.
    Congress faces many challenges in the current budget environment 
and we appreciate the difficulty of your task. However, we want to 
emphasize the continued importance of policies under the current Farm 
Bill that promote an economically healthy and competitive U.S. 
agricultural sector.
    These programs serve a variety of purposes including: meeting the 
food, fuel and fiber needs of consumers worldwide, strengthening farm 
income, improving our balance of trade, promoting rural development, 
and creating needed jobs.
    There is a long history of congressional support for farmer 
cooperatives, recognizing that they serve a variety of essential 
functions for American agriculture. Some of these functions include: 
enhancing producers' overall income, managing their risk, capitalizing 
on new market opportunities, and helping individual farmers work 
together to compete more effectively in a global economy.
    Given these vital tasks that farmer cooperatives perform on behalf 
of their members, it is extremely important that they retain the 
flexibility to modernize and adapt to the current and future 
marketplace confronting U.S. agriculture. Accordingly, in addition to 
supporting basic farm and commodity programs under the current Farm 
Bill, we recommend the following:
                          usda export programs
    We continue to strongly support USDA's export programs, which are 
vital to maintaining and expanding U.S. agricultural exports, counter 
subsidized foreign competition, meet humanitarian needs, protect 
American jobs, and strengthen farm income.
    NCFC is a longstanding member of the Coalition to Promote U.S. 
Agricultural Exports. The Coalition supports the Administration's 
proposed funding increases to several export promotion activities, but 
Coalition members are very concerned with the Administration's proposed 
20 percent reduction to the Market Access Program (MAP). MAP has been 
very successful in helping develop, maintain, and expand long-term 
export markets for U.S. agricultural products. U.S. agriculture is 
reliant on exports, which account for about one-third of farm cash 
receipts. And, given that over 95 percent of the world's consumers live 
outside the United States, foreign markets are critical for U.S. 
agriculture to expand sales and boost incomes. In addition, the ability 
of cooperatives to use MAP funding helps give individual farmers the 
ability to market their products overseas, which they otherwise would 
not be able to do on their own. As part of the 2008 Farm Bill, Congress 
authorized $200 million for MAP and we urge the subcommittee to support 
funding at the authorized level.
    NCFC also supports full funding of the Foreign Market Development 
program, the Export Credit Guarantee Programs, the Dairy Export 
Incentive Program, and Technical Assistance for Specialty Crops.
                food aid and foreign assistance programs
    NCFC strongly supports maintaining funding for America's food aid 
programs to meet humanitarian needs, enhance the potential growth in 
recipient countries, and stimulate the economy in the United States. 
Given the ongoing food crisis for many nations, the amount and 
dependability of U.S.-produced food aid from USDA's Food for Peace 
program (Public Law 480) is crucial to our humanitarian assistance 
efforts. Specifically we recommend full funding of Public Law 480 title 
II for emergency and non-emergency food assistance programs at the $2.5 
billion authorized under the 2008 Farm Bill. We also urge the 
subcommittee to reject any proposals to divert funds from the Public 
Law 480 title II program to Local and Regional Purchase programs.
    NCFC also supports the goals and objectives and full funding of 
USDA's Food for Progress and McGovern-Dole International Food for 
Education and Child Nutrition Program.
                      foreign agricultural service
    Additionally, we want to take this opportunity to urge support for 
needed funding and resources for USDA's Foreign Agricultural Service. 
This funding is crucial if we are to continue to effectively carry out 
trade and assistance programs, and to provide the technical assistance 
and support needed to help maintain and expand U.S. agricultural 
exports.
           usda's rural business--cooperative service (rb-cs)
    Several years ago, the Cooperative Service was eliminated as a 
separate agency within USDA. Since that time, the focus of research, 
education and technical assistance for farmer cooperatives has eroded. 
Funding for such purposes has generally been provided through the 
salary and expense budget relating to rural development. For fiscal 
year 2011, the Administration's budget proposal provides $730 million 
in both budget authority and program level for salaries and expenses 
for the rural development mission area, compared to $715 million for 
fiscal year 2010.
    In addition to ensuring that RB-CS has the funding for resources to 
assist in enhancing the competitiveness of farmer-owned cooperatives, 
we suggest the committee include report language directing RB-CS to 
improve the usability and scope of its statistics and data. In 
particular, the data should include information regarding farmer 
cooperatives' positive impact on competition in the market place and on 
rural communities.
                                 energy
    Cooperatives play a significant role in the development and 
marketing of renewable fuels, both ethanol and biodiesel. Many 
cooperatives are also investigating opportunities for renewable energy 
from biomass such as dairy manure. In addition, USDA programs are being 
used more and more by cooperatives to improve energy efficiency in 
their facilities. We strongly support funding for important grant, loan 
and related programs which research and promote the development and 
advancement of biofuels and opportunities for biomass, as well as such 
programs that assist in reaching energy efficiency goals.
                      value-added producer grants
    USDA's Value-Added Producer Grants (VAPG) Program encourages and 
enhances farmer and farmer cooperative participation in value-added 
businesses. These new ventures are intended to help producers capture a 
larger share of the value of their production and improve their overall 
income from the marketplace. These activities also promote economic 
development and create needed jobs in rural areas.
    The program is administered on a matching-fund basis, thereby 
doubling the impact of such grants and helping encourage investment in 
rural America. As a cost-share program, it is as an excellent example 
of an effective public-private partnership bringing a number of self-
sustaining products to market.
    Since the program's inception, NCFC has strongly support the VAPG. 
However, the program is not useful to cooperatives if they cannot meet 
the application and eligibility requirements. This was the case for the 
2009 program when USDA imposed requirements that were too burdensome, 
and in some cases impossible, for many cooperatives meet. We are 
hopeful that the subcommittee will look favorably upon funding the 
program up to the $40 million as authorized under the Farm Bill in the 
hopes that USDA does not again impose unnecessary and overly stringent 
requirements on cooperatives and thus limit their participation.
           b&i loan guarantee program and farmer cooperatives
    Access to equity capital is one of the major challenges facing 
farmer cooperatives. A successful resolution of this challenge is 
essential in helping farmers capture more of the value of what they 
produce beyond the farm gate.
    For fiscal year 2011, the Administration's budget proposal provides 
an overall program level of $942 million, which represents a decrease 
from the $993 million in loans estimated to be guaranteed in fiscal 
year 2010. Accordingly, we recommend that resources be increased to at 
least the fiscal year 2010 estimated level.
                    rural business enterprise grants
    The Rural Business Enterprise Grants was reauthorized under the 
current Farm Bill to help foster rural economic development by 
encouraging and facilitating equity investments in rural business 
enterprises, including farmer cooperatives. Again, providing improved 
access to equity capital is essential to allowing farmers to capitalize 
on value-added business opportunities through farmer cooperatives. For 
these reasons, we urge that the program be fully funded as authorized 
and implemented as Congress intended.
                                research
    Another important area of emphasis when it comes to enhancing the 
global competitiveness of farmer cooperatives and American agriculture 
is research. NCFC is a member of the National Coalition for Food and 
Agriculture Research, and supports their goals of increasing Federal 
food and agriculture research. We also joined with over 50 other 
agriculture groups in supporting funding for the Agriculture and Food 
Research Initiative, which was authorized in the 2008 Farm Bill.
                              conservation
    We also want to express our strong support for important 
conservation and related programs administered by USDA's Natural 
Resources Conservation Service (NRCS). Programs like the Environmental 
Quality Incentives Program (EQIP) provide needed financial and 
technical assistance to help farmers and others who are eligible to 
develop and carry out conservation and related activities to achieve 
important environmental goals. We support continued funding as 
prescribed in the Farm Bill for these important working lands 
conservation programs.
                      commodity purchase programs
    USDA annually purchases a variety of commodities for use in 
domestic and international feeding programs, including the school lunch 
program. NCFC strongly supports such programs to: (1) meet the food and 
nutrition needs of eligible consumers and (2) help strengthen farm 
income by encouraging orderly marketing and providing farmers with an 
important market outlet, especially during periods of surplus 
production.
    As you are well aware, decades of public policy has reinforced the 
fact that the cooperative stands in the shoes of its farmer-owners, as 
they act for their mutual benefit. This is consistent with USDA's 
historic support of cooperative efforts and essential to ensure the 
continued availability of high quality products on a competitive basis. 
Therefore, it is important to ensure that farmers and their 
cooperatives remain fully eligible to participate in these programs.
                               conclusion
    Thank you again, Mr. Chairman and members of the subcommittee, for 
the opportunity to share our views. We look forward to working with the 
committee to ensure continued benefits for rural communities, 
consumers, American agriculture and our Nation as a whole.
                                 ______
                                 

Prepared Statement of the National Environmental Services Center (NESC)

    Chairman Kohl, Ranking Member Brownback and members of the 
subcommittee: Thank you for the opportunity to offer testimony to the 
Subcommittee on Agriculture, Rural Development, Food and Drug 
Administration and Related Agencies. We request $3.5 million for the 
National Drinking Water Clearinghouse (NDWC), a program that provides 
water infrastructure services for small communities and rural areas 
nationwide.
                              introduction
    My name is Gerald Iwan, and I represent the National Environmental 
Services Center (NESC), located at West Virginia University in 
Morgantown, West Virginia. Previously, I was for 20 years the drinking 
water administrator for the State of Connecticut Department of Public 
Health, during which time I oversaw the implementation of all 
regulatory aspects of the Safe Drinking Water Act. In my current 
assignment with NESC, I manage a unique program with nationally 
recognized expertise in drinking water, wastewater, and small community 
infrastructure security and emergency preparedness. NESC provides 
access to an in-depth repository of information and specialized 
technical assistance and training services.
             water and wastewater infrastructure challenges
    More than 41,000 small community water systems in the United States 
provide drinking water to communities of 3,300 people or less (EPA, 
2009). These systems are mandated to comply with the Safe Drinking 
Water Act (SDWA) in providing reliable and safe water services to their 
citizens. Small water systems perform with limited financial, human and 
equipment resources and account for the majority of SDWA violations. 
The U.S. Department of Agriculture's (USDA) Water and Wastewater Grants 
and Loans program may be the only option small systems have to obtain 
funding to address necessary system improvements. However, reliable 
technical assistance provided by organizations such as NESC is also 
necessary to help them overcome the many challenges they and their 
operators face in complying with local, State and Federal regulations.
    Recognizing these challenges, the USDA funds ``Rural Water and 
Wastewater Technical Assistance and Training (RWTA) Programs'' through 
authorization in the Consolidated Farm and Rural Development Act (the 
Farm Bill). NESC's National Drinking Water Clearinghouse is one RWTA 
program. We have been funded by USDA for 19 years to help communities 
and rural areas identify and evaluate solutions to water or wastewater 
problems, improve facility operation and maintenance, and prepare 
funding applications for water or wastewater treatment facility 
construction projects.
                   deliverables provided by the ndwc
    The NDWC serves local officials, utility managers, system operators 
and RWTA professionals in small and rural communities. Telephone 
callers obtain toll-free drinking water technical assistance from our 
staff of certified operators, engineers, and scientists. Our quarterly 
publication On Tap, a magazine for small drinking water systems, 
provides information about water treatment, financing, and management 
options and has 27,000 subscribers. A comprehensive Web site 
www.nesc.wvu.edu and searchable online databases featuring water, 
wastewater, security, and emergency preparedness resources for 
communities of 10,000 or fewer residents provides round-the-clock 
access to contemporary information for small water systems. Annually, 
visitors to our Web site view more than 3.5 million pages and download 
over 1.6 million documents. Training sessions customized for small and 
rural areas, teleconferences, and more than 700 free and low-cost 
educational products give people the instruction and tools they need to 
address their most pressing drinking water issues.
    We anticipate an even greater need for NDWC services in 2011 due to 
the current recession, the severe winter conditions that have produced 
flood devastation, and the Federal effort to stimulate the economy 
through infrastructure projects. Stimulus funding in the water sector 
has been directed to construction, with only a fraction directed to 
support water and wastewater facility operation and maintenance. Small 
and rural communities will need increased support from RWTA providers 
to plan for and protect their current and future utility assets. The 
NDWC has accordingly expanded its scope of deliverables for fiscal year 
2011 to provide additional services. It is imperative that the NDWC 
continues to receive funding from the Technical Assistance and Training 
Grants (TAT) account to assist small community drinking water systems.
                                request
    We request a congressionally directed appropriation of $3.5 million 
to continue and increase the NDWC program services through the 
Technical Assistance and Training (TAT) Grants program. Thank you for 
considering our request.
                                 ______
                                 

       Prepared Statement of the National Organic Coalition (NOC)

    Chairman Kohl, Ranking Member Brownback, and members of the 
subcommittee: My name is Steven Etka. I am submitting this testimony on 
behalf of the National Organic Coalition (NOC) to detail our fiscal 
year 2011 funding requests for USDA programs of importance to organic 
agriculture.
    The National Organic Coalition (NOC) is a national alliance of 
organizations working to provide a voice for farmers, ranchers, 
environmentalists, consumers, cooperative retailers and others involved 
in organic agriculture. The current members of NOC are the Beyond 
Pesticides; Center for Food Safety; Equal Exchange; Food and Water 
Watch; Maine Organic Farmers and Gardeners Association; Midwest Organic 
and Sustainable Education Service; National Cooperative Grocers 
Association; Northeast Organic Dairy Producers Alliance; Northeast 
Organic Farming Association-Interstate Policy Council; Organically 
Grown Company; Rural Advancement Foundation International-USA; and the 
Union of Concerned Scientists.
               usda/agricultural marketing service (ams)
National Organic Program
            Request: $10.08 million
    Sales of organic food and beverages had experienced a rapid growth 
over the last decade, averaging nearly 20 percent per year. Even 
despite the recession, organic sales grew at a rate of 5 percent in 
2009. The National Organic Program (NOP) is the Agency charged with 
regulating and enforcing the USDA organic label. For years, the 
exponential growth of the organic industry has far outpaced the 
resources provided to the NOP, which has greatly limited the ability of 
NOP to fulfill its regulatory and enforcement role credibly.
    Fortunately, both Congress and the Administration have heard this 
concern, and have responded with a steady increase in funding in the 
last 2 years to meet these needs. In addition, over the last year, the 
new leadership at USDA and NOP has taken significant steps to bolster 
the integrity of the program and public confidence in the organic label 
though issuance of long overdue regulations (e.g. pasture rule for 
organic ruminants) and through efforts to seek independent oversight of 
its accreditation procedures to assure compliance with international 
standards of quality management. In addition, NOP leadership has made 
its budget and its plans fully transparent to the public. These changes 
have met with widespread praise from the full spectrum of stakeholders 
in the organic sector, from consumers to farmers to handlers.
    We are strongly supporting the Administration's fiscal year 2011 
request for $10.08 million for the National Organic Program (NOP), 
representing an increase of $3.11 million over last year's level. $2.11 
million of this request is for regulatory review, enforcement and 
equivalency agreements; with an additional one-time amount of $1 
million for assisting certifying agents in achieving compliance with 
international certification standards.
    In addition, we are requesting inclusion of report language 
praising the Agency for the significant improvements that have been 
made over the past year. In previous years, Congress has included 
report language urging improvements in the program. Now that many of 
these improvements are being made, it seems fitting for Congress to 
recognize the progress. We request inclusion of the following report 
language:
    The Committee notes the significant improvements made in the 
administration of the National Organic Program over the last year, in 
keeping with the requests of this Committee in previous years. The 
Committee applauds the Agency for the long-overdue publication of the 
final pasture rule for organic livestock, the decision to seek 
independent oversight and recognition of its accreditation procedures 
by NIST within the Department of Commerce, and for its actions to make 
the NOP budget and planning process transparent to the public. These 
actions bolster the integrity of the USDA organic seal and enhance 
public confidence in that label.
                         usda (ams, ers, nass)
Organic Data Initiative
            Request: $5 million
    Authorized by Section 7407 of the 2002 Farm Bill, the Organic 
Production and Marketing Data Initiative states that the ``Secretary 
shall ensure that segregated data on the production and marketing of 
organic agricultural products is included in the ongoing baseline of 
data collection regarding agricultural production and marketing.'' 
Section 10302 of the Farm, Conservation, and Energy Act of 2008 amends 
the provision further to provide mandatory funding, and to authorize $5 
million annually in discretionary funding.
    As the organic industry matures and grows at a rapid rate, the lack 
of national data for the production, pricing, and marketing of organic 
products has been an impediment to further development of the industry 
and to the effective functioning of many organic programs within USDA. 
The organic data collection and analysis effort at USDA has made 
significant strides in recent years, but remains in its infancy. 
Because of the multi-agency nature of data collection within USDA, 
organic data collection and analysis must also be undertaken by several 
different agencies within the Department: The Administration's fiscal 
year 2011 budget requests $300,000 for AMS and $500,000 for NASS 
organic data collection. We are requesting the full $5 million to be 
appropriated for this initiative, to be divided between the three main 
data collection sub-agencies as follows:
  --Economic Research Service (ERS)
    --Request: $1.5 million
  --Agricultural Marketing Service (AMS)
    --Request: $3 million
  --National Agricultural Statistic Service (NASS)
    --Request: $500,000
         usda/national institute of food and agriculture (nifa)
Organic Transitions Program
            Request: $5 million
    The Organic Transition Program, authorized by Section 406 of the 
Agricultural Research, Education and Extension Reform Act (AREERA) for 
Integrated Research Programs, is a research grant program that helps 
farmers surmount some of the challenges of organic production and 
marketing. As the organic industry grows, the demand for research on 
organic agriculture is experiencing significant growth as well. The 
benefits of this research are far-reaching, with broad applications to 
all sectors of agriculture, even beyond the organic sector. Yet funding 
for organic research is minuscule in relation to the relative economic 
importance of organic agriculture and marketing in this Nation. 
Starting in fiscal year 2009, the program has been administered in 
combination with the NIFA Water Quality integrated research program, to 
study the watershed impacts of organic systems.
    The Organic Transition Program was funded at levels ranging between 
$2.1 and $1.8 million during the period of fiscal year 2003 through 
fiscal year 2009, and then received a significant increase to $5 
million in fiscal year 2010. The Administration's budget proposes to 
eliminate funding for the Organic Transition Program, as well as the 
other section 406 ``integrated'' programs within the NIFA budget, based 
on vague assertions that the needs will be met through other 
competitive grants research programs. The past Administration made 
similar recommendations regarding the 406 programs, which have been 
consistently rejected by Congress. We urge the Committee to continue to 
reject this proposal to defund the Organic Transition Program, and to 
provide fiscal year 2011 funding at last year's level of $5 million.
Organic Research and Extension Initiative (OREI)
            Request: $10 million
    OREI is USDA's flagship competitive research and education grant 
program specifically dedicated to the investigation of organic 
agriculture. The program is consistently oversubscribed and in fiscal 
year 2009 could only fund 17 percent of the funds requested. The 2008 
Farm Bill authorized $25 million annually in discretionary funds, in 
addition to mandatory funds authorized. We request that $10 million be 
appropriated for OREI for fiscal year 2011.
Agriculture and Food Research Initiative (AFRI)
            Request: Report language on Conventional/Classical Plant 
                    and Animal Breeding
    In recent decades, public resources for classical plant and animal 
breeding have dwindled, while resources have shifted toward genomics 
and biotechnology, with a focus on a limited set of major crops and 
breeds. This problem has been particularly acute for organic and 
sustainable farmers, who seek access to germplasm well suited to their 
unique cropping systems and their local environment.
    Since fiscal year 2005, the Senate Agriculture Appropriations 
Subcommittee has included report language raising concerns about this 
problem, and urging CSREES (now NIFA) to give greater consideration to 
research needs related to classical plant and animal breeding when 
setting priorities within the National Research Initiative/AFRI. 
Despite this report language, research proposals for classical plant 
and animal breeding that have sought AFRI funding in recent years have 
been consistently denied.
    In Section 7406 of the Food, Conservation, and Energy Act of 2008, 
the National Research Initiative was merged with the Initiative for 
Future Agriculture and Food Systems to become the Agriculture and Food 
Research Initiative (AFRI). Congress included language within AFRI to 
make ``conventional'' plant and animal breeding a priority for AFRI 
research grants, consistent with the concerns expressed by the 
Appropriations Committee in preceding appropriations cycles.
    When CSREES released its AFRI Program Announcement for fiscal year 
2009, it invited research proposals on conventional/classical plant and 
animal breeding. However, when researchers submitted their initial 
letters of intent spelling out their research topics in the arena, they 
were nearly all rejected in the pre-proposal stage.
    We are awaiting the fiscal year 2010 AFRI Request for Applications. 
After numerous meetings with NIFA leadership and letters urging the 
full inclusion of the classical breeding into the fiscal year 2010 
funding priorities, we are anxious to see how the Agency responds to 
this need, and the strong expressions of both the Congressional 
appropriators and authorizers on this matter.
    We are requesting report language from the subcommittee to 
reiterate that the funding for classical plant and animal breeding 
should be a priority area within the AFRI process.
Sustainable Agriculture Research and Education (SARE)
            Request: $30 million ($25 million for research and 
                    education grants; and $5 million for professional 
                    development grants)
    The SARE program has been very successful in funding on-farm 
research on environmentally sound and profitable practices and systems, 
including organic production. The reliable information developed and 
distributed through SARE grants have been invaluable to organic 
farmers. The President's budget requests $30 million for SARE program 
for fiscal year 2011, including $10 million to start the Federal-State 
Matching Grant program. Consistent with the President's request, we are 
requesting $25 million for research and education grants (including $10 
million for the Federal-State Matching Grant program) and $5 million 
for professional development grants.
                usda/rural business cooperative service
Appropriate Technology Transfer for Rural Areas (ATTRA)
            Request: $3 million
    ATTRA, authorized by Section 6016 on the Food, Conservation, and 
Energy Act of 2008, is a national sustainable agriculture information 
service, which provides practical information and technical assistance 
to farmers, ranchers, Extension agents, educators and others interested 
and active in sustainable agriculture. ATTRA interacts with the public, 
not only through its call-in service and Web site, but also provides 
numerous excellent publications written to help address some of the 
most frequently asked questions of farmers and educators. Much of the 
real-world information provided by ATTRA is extremely helpful to both 
the conventional and organic communities, and is available nowhere 
else. As a result, the growth in demand for ATTRA services has 
increased significantly, both through the Web site-based information 
services and through the growing requests for workshops. We are 
requesting $3 million for ATTRA for fiscal year 2011.
                usda/agriculture research service (ars)
Classical Plant and Animal Breeding Activities
            Request: $9.03 million
    As noted above in the AFRI section of this request, public 
resources for classical plant and animal breeding have dwindled in 
recent decades, and as a result, our capacity for public breeding in at 
critical point. While USDA's statutory obligation to address this 
problem through the AFRI competitive grant program remains strong, 
USDA's ARS also has an obligation in this regard. Although ARS has the 
resources and expertise to help reverse this dangerous trend, the 
Agency has not made a concerted effort in this regard, until now. The 
Administration's fiscal year 2011 budget requests an increase of $4.289 
million for ``crop breeding to enhance food and production security'' 
and other $4.75 million for ``crop protection to enhance food and 
production security,'' with a clear focus on classical plant and animal 
breeding activities.
    As described on pages 16-19 and 16-29 of the USDA Budget 
Justifications document:

    ``Sustainability of our Nation's food supply depends on a 
continuous supply of improved plant varieties with protection from 
emerging diseases, insects, and damaging environmental conditions. 
While there has been major investment in the public and private sector 
in new genomic and biotechnology strategies for crop improvement, 
classical plant breeding research and expertise continues to be a major 
but unmet need. Developing improved seeds and new varieties requires 
effective methods and expertise in selecting desired traits 
(`phenotyping') and field evaluation. There is an urgent national and 
international need for more research and expertise in classical, 
conventional plant breeding. New emerging diseases such as citrus 
greening and cereal rusts are threatening the future supply of food 
crops. Temperature extremes and reduced water supplies provide new 
challenges for crop production.
    ``Breeding research is particularly needed to improve complex 
traits that require long-term research and challenging methods such as 
developing perennial grains with high seed yields, as well as 
integrating disease resistance and weather stress tolerance genes from 
wild and weedy relatives of crop plants. Perennial grain production 
systems offer benefits in soil and water conservation, and decreased 
dependence on fertilizer and fuel inputs. The Land Institute, Salinas, 
Kansas, has led in developing perennial grain varieties and production 
systems. More breeding and disease protection research is needed to 
increase the production capacity of perennial grains and to optimize 
perennial grain production systems.
    ``The need for classical breeding research and expertise is 
growing, but the supply of trained classical plant breeders is 
diminishing worldwide. The entire plant breeding industry faces a 
shortage of trained plant breeders as a result of industry expansion. 
Also, traditional partner disciplines for plant breeding, such as 
statistics, plant pathology, physiology, and entomology have often 
shifted away from field-based, practical plant breeding applications. 
ARS has a force of more than 125 plant breeders, working in teams with 
plant pathologists, biologists, entomologists and other skilled crop 
scientists. Clearly, ARS has an obligation to increase training, and 
mentor more new plant breeders to meet this urgent need.''

    We strongly agree with the above statement and fully support the 
request for $9.03 million to meet this need. In addition, we request 
report language calling on ARS to report to the Committee about its 
activities in the area of classical breeding.
                    usda/food and nutrition service
WIC Program
            Report Language: Removing Barriers of Access to Organic 
                    Foods for WIC recipients
    Despite the growing body of peer-reviewed research demonstrating 
the human health benefits of organic food, particularly for pregnant 
mothers and small children, many States have greatly limited or 
prohibited access to organic foods as part of the WIC program. Some of 
the barriers are explicit, whereby WIC recipient are expressly 
prohibited in some States from using their WIC certificates or vouchers 
for organic versions of WIC foods. Others barriers are indirect, such 
as rules that make it difficult for retail stores that carry organic 
foods from participating in the program. Therefore, we are requesting 
that report language be included in the Food and Nutrition Service 
section of the fiscal year 2011 Appropriations report, such as:

    ``The Committee is concerned about the number of States the have 
set up barriers within the WIC program to hinder or prohibit WIC 
recipients from purchasing organic food. The Committee strongly urges 
FNS to actively encourage States to remove barriers to the purchase of 
organic foods as part of the basic food instrument, and to understand 
the nutritional and health benefits of organic foods for the vulnerable 
populations served by this program.''
                                 ______
                                 

  Prepared Statement of the National Sustainable Agriculture Coalition

    Thank you for the opportunity to present our funding requests for 
the fiscal year 2011 Agriculture, Rural Development, FDA and Related 
Agencies appropriations bill. The National Sustainable Agriculture 
Coalition is an alliance of national, regional and local grassroots 
farm, rural and conservation organizations that together advocate for 
public policies that support the long-term economic, social and 
environmental sustainability of agriculture, natural resources and 
rural communities.
    Below is a summary of our requests, followed by a brief description 
and rationale for each item.
               national institute of food and agriculture
Sustainable Agriculture Research and Education Program
    Fiscal year 2010 actual: $14.5 million (research & education) + 
$4.7 million (extension) = $19.2 million total.
    USDA 2011 request: $15.0 million + $5.0 million + $10.0 million 
(Federal-State Matching Grants) = $30.0 million total.
    NSAC 2011 request: $18.0 million + $5.0 million + $7.0 million = 
$30 million total.
Organic Transitions Program
    Fiscal year 2010 actual: $5.0 million.
    USDA 2011 request: $0.
    NSAC 2011 request: $5.0 million.
Research and Education Grants for the Study of Antibiotic Resistant 
        Bacteria
    Fiscal year 2010 actual: $0.
    USDA 2011 request: $0.
    NSAC 2011 request: $3.0 million.
                          farm service agency
Beginning Farmer Individual Development Account (IDA) Pilot Program
    Fiscal year 2010 actual: $0.
    USDA 2011 request: $0.
    NSAC 2011 request: $5.0 million.
Direct Farm Ownership and Operating Loans--Program Levels
    Fiscal year 2010 actual: $650.0 million + $1,000.0 million.
    USDA 2011 request: $475.0 million + $900.0 million.
    NSAC 2011 request: $650.0 million + $1,000.0 million.
                 natural resources conservation service
Conservation Technical Assistance
    Fiscal year 2010 actual: $887.6 million.
    USDA 2011 request: $923.7 million.
    NSAC 2011 request: $923.7 million.
                 rural business and cooperative service
Value-Added Producer Grants
    Fiscal year 2010 actual: $20.4 million.
    USDA 2011 request: $20.4 million.
    NSAC 2011 request: $30.0 million.
Rural Microentrepreneur Assistance Program
    Fiscal year 2010 actual: $9.0 million (no limitation on $4 million 
in Farm Bill direct funding + $5 million discretionary).
    USDA 2011 request: $11.7 million (no limitation on Farm Bill $4 
million mandatory + $7.7 million discretionary).
    NSAC 2011 request: $11.7 million (no limitation on Farm Bill $4 
million mandatory + $7.7 million discretionary).
          general provisions--mandatory conservation programs
Conservation Stewardship Program
    Fiscal year 2010 actual: no limitation on mandatory farm bill 
direct funding.
    USDA 2011 request: permanent cut of 770,000 acres.
    NSAC 2011 request: no limitation on farm bill direct funding.
Wetlands Reserve Program
    Fiscal year 2010 actual: no limitation on mandatory farm bill 
funding.
    USDA 2011 request: permanent cut of 57,018 acres, including new 
15,224 acre cut.
    NSAC 2011 request: no limitation on direct farm bill funding.
    We also oppose changes in mandatory funding for the other Farm Bill 
mandatory conservation programs.
     general provisions--marketing, rural development, and research
    We support mandatory farm bill spending at their Farm Bill levels 
for the Organic Agriculture Research and Extension Initiative, 
Beginning Farmer and Rancher Development Program, Outreach and 
Assistance to Socially Disadvantaged Farmers and Ranchers, Farmers' 
Market Promotion Program, and Community Food Grants.
    We support the general provision for the Regional Innovation 
Initiative. This initiative proposes a set aside of up to 5 percent 
from 20 existing programs for a total of $135 million and allocate 
these funds competitively among regional pilot projects tailored to 
local needs and opportunities.
                             justifications
               national institute of food and agriculture
    Sustainable Agriculture Research and Education Program (SARE). We 
urge you to support the President's fiscal year 2011 request for $30 
million for SARE, divided among research and education grants ($25 
million) and extension and professional development grants ($5 
million). We propose the Federal-State Matching Grants program be 
included in the total for research and education grants (as it is in 
the SARE authorizing law) and funded at $7 million, or slightly less 
than the President' request.
    SARE has funded farmer-driven research, education and extension 
initiatives into profitable, environmentally and socially sound 
practices for over 20 years. Funding SARE at $30 million would finally 
jumpstart the Federal-State Matching Grant program as well as the 
already-approved emphasis on farming systems research, while allowing 
the existing award-winning research program to continue, including the 
popular farmer research grant initiative.
    By funding the matching grants program as envisioned by Congress, 
competitive grants could be awarded to State sustainable agriculture 
centers and institutes to develop innovative sustainable agriculture 
programs that address high-priority problems and opportunities; embed 
sustainable agriculture in university and statewide research, 
education, and extension; and leverage greater on-farm change. The huge 
demand for SARE grants has unfortunately limited the amount of funding 
into larger farming systems work. The proposed increase in research 
grant funding could begin to remedy this shortfall, and the SARE 
councils have already approved this shift, pending appropriations.
    We strongly urge an increased commitment to SARE through an 
appropriation of $30 million in fiscal year 2011 that is consistent 
with sustainable agriculture's expanding role within our food and 
farming system and with the program's award-winning and cost-effective 
delivery of services.
    Organic Transitions Research Program.--We request $5 million for 
fiscal year 2011 to maintain the funding level established in fiscal 
year 2010. Beginning in fiscal year 2009, this program was combined 
with the Water Quality integrated program to fund multi-year projects 
examining the effects of organic systems on water quality. The combined 
funding will focus resources on one of the most effective solutions to 
critical water quality problems. Maintaining the funding level 
established in fiscal year 2010 will allow the organic program to 
cooperate with other priority natural resource programs to provide 
environmental solutions in an integrated program with strong farmer 
delivery mechanisms built in. Without at least level funding, organic 
research and extension will fall even further behind in its overall 
share of the research budget, a share which continues to lag behind 
trends in agriculture.
    Research and Education Grants for the Study of Antibiotic Resistant 
Bacteria.--We request that you support $3 million to fund Research and 
Education Grants for the Study of Antibiotic Resistant Bacteria 
(Section 7521 of the 2008 Food, Conservation, and Energy Act). 
Antibiotic-resistant disease has been identified by the Centers for 
Disease Control and Prevention as the number one public health 
challenge in the United States. The 2008 Farm Bill addressed the need 
to create a program to conduct research to develop animal production 
systems less dependent on antibiotics. This program has not yet been 
launched, and we ask the subcommittee to appropriate $3 million to 
launch the program.
                          farm service agency
    Beginning Farmer and Rancher Individual Development Account (IDA) 
Pilot Program.--We urge you to invest in the future of a diverse U.S. 
agriculture by supporting the full $5 million amount authorized and 
requested for this exciting new program. This competitive grants 
program authorized by the 2008 Farm Bill enables beginning farmers and 
ranchers to open an Individual Development Account (matched savings 
account) in order to save for a farming-related asset, including 
farmland, farming equipment, breeding stock, trees or similar 
expenditures. A 50 percent local match is needed to obtain the Federal 
grant. This program creates the technical infrastructure as well as the 
incentives to assist individuals who might not historically be able to 
save to make asset-building purchases to get started in farming. It 
would operate in 15 States initially.
    Direct Farm Ownership and Operating Loans.--We are grateful that 
Congress has provided more money in the last 2 years for these loans. 
However, even with the increased funding, the Farm Service Agency has 
already indicated that it is likely to run out of money before the 
current fiscal year ends and would require a supplemental to meet 
demand. In light of this and in light of the continuing financial 
crisis, it does not make sense to decrease the credit budget as the 
Administration proposes. The budget should be at least level with 
fiscal year 2010 in order to meet increased demand. Lending from FSA is 
critical for family farms in general and particularly for beginning and 
socially disadvantaged farmers and ranchers.
                 natural resources conservation service
    Conservation Technical Assistance.--Conservation Technical 
Assistance (CTA) is a critical addition to the mandatory conservation 
technical assistance provided to farmers enrolled in the farm bill 
conservation programs. Technical assistance is provided to agricultural 
producers enrolling in financial assistance programs as well as to help 
farmers with conservation planning and implementation without financial 
assistance, including conservation compliance plans. CTA also funds 
assessment of conservation practices and systems that underpin the 
conservation programs, as well as NRCS collection, analysis, 
interpretation and dissemination of information on the status and 
condition of the Nation's soil, water and other resources.
    NSAC supports the CTA funding level of $923.7 million in the 
President's fiscal year 2011 budget request. We would also support a 
modest increase in the percentage of Farm Bill mandatory funding that 
may be used for technical assistance.
                 rural business and cooperative service
    Value-Added Producer Grants.--VAPG offers grants to farmers and 
ranchers developing new farm and food-related businesses that boost 
farm income, create jobs and increase rural economic opportunity. As 
farmers and rural communities face tough economic times, VAPG grants 
encourage the kind of entrepreneurship and innovation in agriculture 
that enable farms and communities to survive economically. Furthermore, 
strong interest in farm-to-school and farm-to-hospital programs is 
generating significantly increased demand for mid-tier value chains and 
local food enterprises to aggregate local production and make it 
available in a form usable by cafeterias, exactly the kind of rural 
development strategy VAPG is designed to support. VAPG is an excellent 
investment in rural economic recovery. We request VAPG funding of $30 
million in fiscal year 2011.
    Rural Microentrepreneur Assistance Program.--RMAP provides business 
training, technical assistance and loans to owner-operated businesses 
with up to 10 employees. Small businesses make up 90 percent of all 
rural businesses, and micro-businesses are the fastest growing segment 
in many rural areas. With nearly one-quarter of rural jobs attributable 
to micro-enterprises, small business development provides a major 
economic stimulus opportunity for rural communities. This program is 
critical to preventing a credit freeze to an essential part of the 
rural economy. It will help create jobs, attract young people, build 
assets, create local markets and alleviate poverty. NSAC supports the 
USDA request that RMAP be funded at $11.7 million, inclusive of $4 
million of mandatory farm bill funding.
          general provisions--mandatory conservation programs
    The cuts proposed in the President's fiscal year 2011 budget to the 
Conservation Stewardship Program, the Environmental Quality Incentives 
Program, and other mandatory conservation programs would rob nearly $1 
billion from the conservation baseline, or roughly a quarter of the 
conservation increases gained in the 2008 Farm Bill. These programs 
lead to critical public benefits and environmental services such as 
cleaner water, erosion reduction, carbon sinks, energy conservation, 
improved wildlife habitat and restored wetlands. Farmer demand for 
these programs exceeds available dollars, a fact the carefully 
negotiated farm bill funding package took into account. That deal 
should not be reversed through backdoor limitations. We note in 
particular that the proposed cut to the Conservation Stewardship 
Program would wipe out over 6 percent of the program, yet yield just $2 
million in fiscal year 2011 savings, making it the worst possible 
candidate for a change in mandatory spending. We recognize that an 
annual cut in EQIP funding has been assumed since before the passage of 
the last Farm Bill, but beyond this designated amount, we strongly 
oppose the proposed 1-year and permanent cuts to these critical 
programs.
     general provisions--marketing, rural development, and research
    We strongly support full funding (no changes in mandatory funding) 
for the Organic Agriculture Research and Extension Initiative, 
Beginning Farmer and Rancher Development Program, Outreach and 
Assistance to Socially Disadvantaged Farmers and Ranchers, Farmers' 
Market Promotion Program, and Community Food Grants.
    We encourage you to support the Regional Innovation Initiative. The 
initiative proposes to set aside up to 5 percent from 20 existing 
programs for a total of $135 million in budget authority and to 
allocate these funds competitively among regional pilot projects 
tailored to local needs and opportunities. These projects would aim to 
foster regional strategies for activities--such as sustainable 
renewable energy or local and regional food system development--which 
can benefit from planning and innovation beyond the normal separate, 
isolated project-by-project approach. This more coordinated approach is 
well worth testing.
                                 ______
                                 

  Prepared Statement of the National Walking Horse Association (NWHA)

    The National Walking Horse Association (NWHA) is a nonprofit 
organization founded in 1998 and dedicated to the promotion of sound, 
naturally gaited Walking Horses. We are a Horse Industry Organization 
(HIO) certified by the USDA to provide inspection services as required 
in the Horse Protection Act (HPA) of 1970. Despite our DQP program's 
excellent record for compliance with the HPA--the strongest in the 
Walking Horse industry--we nevertheless urge the Committee to increase 
funding for the USDA/APHIS Horse Protection Program to $900,000, as 
requested in the President's budget for fiscal year 2011.
    This funding is urgently needed to fulfill the intent of the Horse 
Protection Act--to eliminate the cruel practice of soring which 
continues to be used on many horses at many horse shows and sales even 
all these years after the passage of the HPA. The additional funding 
will allow the USDA to strengthen its enforcement of this law.
    NWHA's Designated Qualified Persons (DQPs) inspected over 13,000 
horses in 2009 and had a .02 percent violation rate. Our DQPs go 
through a vigorous training program and do an excellent job of 
enforcing NWHA's zero tolerance policy for sore horses which goes above 
and beyond the HPA in some areas. While we are very proud of our 
record, we recognize that some HIOs have a much lower compliance rate. 
We also recognize the critical role that USDA plays by attending the 
many horse shows each weekend during the show season where compliance 
is typically low.
    NWHA appreciates the support of the USDA when its staff attends our 
shows, but even more important is the USDA presence at horse shows 
where horses STILL enter the show ring in pain! Our organization and 
others that are committed to enforcing the HPA cannot do it alone. We 
need your support for the USDA so that we can work together to make a 
significant impact in eliminating the practice of soring horses. It is 
long past time for Congress to make a serious commitment to end this 
shameful era in the history of our Nation. Thank you.
                                 ______
                                 

                Letter From the National WIC Association

                                                     March 5, 2010.
Hon. Herb Kohl, 
Chairman, Subcommittee on Agriculture, Rural Development, Food and Drug 
        Administration and Related Agencies, Washington, DC.
Hon. Sam Brownback,
Ranking Member, Subcommittee on Agriculture, Rural Development, Food 
        and Drug Administration and Related Agencies, Washington, DC.
    Dear Chairman Kohl and Ranking Member Brownback: We are writing in 
support the President's fiscal year 2011 budget request to fund WIC--
the Special Supplemental Nutrition Program for Women, Infants, and 
Children--at $7.603 billion. This funding level should be adequate to 
serve 10.1 million mothers and young children. However, we urge 
Congress and the Administration to carefully monitor WIC participation 
and food cost inflation to assure that the budget request responds to 
economic conditions.
    For more than 35 years, WIC has contributed to healthier 
pregnancies and birth outcomes, improving children's health, growth and 
development. WIC children enter school Ready to Learn and show better 
cognitive performance. As the Nation's premier public health nutrition 
program, WIC is a cost-effective, sound investment--insuring the health 
of our children.
    This year is no different. WIC currently serves over 9.2 million 
mothers, infants and children--over half of all America's infants and 
one-quarter of its children 1-5 years of age. Families turning to WIC 
for nutrition assistance are vulnerable and at risk. Economic crises 
compounded their vulnerability. WIC food packages and the nutrition 
services that accompany them ensure that WIC mothers and your children 
stay healthy.
    We understand that Congress is in the process of developing an 
Agriculture appropriations bill. It will be important for Congress to 
provide $7.603 billion for WIC in the bill including:
  --$125 million for contingency funding;
  --We urge Congress to direct USDA to eliminate restrictions on the 
        use of contingency funds for the purchase of breastpumps needed 
        to serve participants;
  --$60 million for management information systems;
  --$14 million for infrastructure funding;
  --$83 million for breastfeeding peer counselors and other related 
        activities;
  --To compliment peer counseling activities, we urge Congress to 
        direct USDA to provide State and local WIC agencies flexibility 
        to implement other evidence-based diversified breastfeeding 
        related activities;
  --$10 million for breastfeeding performance bonuses;
  --We urge Congress to direct USDA to work closely with State and 
        local WIC agencies to develop appropriate selection criteria 
        for these bonuses:
  --$15 million for evaluating program performance;
  --$10 million for Federal Administrative Oversight to improve the 
        application process; and
  --$5 million for coordination with other programs and modernization 
        of Federal information.
                       technology infrastructure
    We urge you to join in supporting the President's fiscal year 2011 
budget request for WIC and the vulnerable mothers and young children 
who turn to WIC for nutritious foods, nutrition education, 
breastfeeding support and promotion, healthcare referrals and other 
essential social service referrals in times of economic uncertainty.
            Sincerely,
                                 Patti Hauser, RD, CD, MPA,
               Chair, Board of Directors, National WIC Association.

                                The Rev. Douglas Greenaway,
                       President and CEO, National WIC Association.
                                 ______
                                 

           Prepared Statement of the National WIC Association

                  wic fiscal year 2011 funding agenda
WIC for a Healthier, Stronger America
    The Special Supplemental Nutrition Program for Women, Infants, and 
Children--WIC--has improved at-risk children's health, growth and 
development, and prevented health problems for 35 years. WIC children 
enter school Ready to Learn, showing better cognitive performance.
    WIC serves over 9.2 million mothers and young children, over half 
of all America's infants and one-quarter of its children 1-5 years of 
age. Still, the National Academy of Sciences has found that there is 
significant unmet need and many WIC eligibles are unable to receive 
services due to funding constraints and infrastructure limitations.
Families Turn to WIC in Economic Crises
    Families turning to WIC for nutrition assistance are vulnerable and 
at-risk. Economic crises compound their vulnerability. WIC food 
packages and the nutrition services that accompany them ensure that WIC 
mothers and young children stay healthy. WIC caseload has grown from 
serving 7.9 million mothers and young children in fiscal year 2004 to 
over 9.2 million in fiscal year 2009.
Quality Nutrition Services--at WIC's Heart
    Quality nutrition services are the centerpiece of WIC: nutrition 
and breastfeeding education, nutritious foods, and improved healthcare 
access for low and moderate income women and children with, or at risk 
of developing, nutrition-related health problems, including overweight, 
obesity, and type-2 diabetes. WIC's committed, results oriented, 
entrepreneurial staff stretch resources to serve the maximum numbers of 
women, infants, and children and ensure program effectiveness and 
integrity.
    As the Nation's premier public health nutrition program, WIC is a 
cost-effective, sound investment--ensuring the health of our children.
    NWA's mission: providing leadership to promote quality nutrition 
services; advocating for services for all eligible women, infants, and 
children; and assuring the sound and responsive management of WIC.
                      nwa funding recommendations
Fiscal Year 2011 Appropriation
    NWA supports the President's fiscal year 2011 budget commitment to 
fully fund the WIC Program at $7.603 billion to serve 10.1 million 
mothers and young children, of which $125 million will be placed in a 
Contingency Fund. Full funding must be adequate to:
  --maintain current and anticipated WIC participation levels;
  --assure adequate nutrition services and administration (NSA) 
        funding;
  --respond to food cost inflation; and
  --provide funds for nutrition services to maintain clinic staffing 
        and pay competitive salaries.
    NWA urges Congress and the Administration to carefully monitor WIC 
participation and food cost inflation to assure that the budget request 
responds to economic conditions. Should the economic recovery take 
longer than anticipated, more families will turn to WIC for nutrition 
assistance and WIC may require additional funding.
    NWA Strongly Urges Congress To Support Replenishment of the WIC 
Contingency Fund.--The Fund is essential to meet the demand for WIC 
services in situations of unpredictable caseload or food cost spikes. 
In fiscal years 2006-2009, unforeseen economic circumstances forced WIC 
to utilize contingency funds to assure that mothers and young children 
were not turned away.
Improving WIC Infrastructure
    WIC Infrastructure Funding Has Remained Static at Roughly $14 
Million Since 1999.--Despite a 25 percent growth in participation since 
1999, WIC has responded entrepreneurially to limit clinic challenges by 
shifting from 1-month to 3-month food benefit issuance and where 
possible, extending clinic hours. WIC needs to build capacity to 
respond to growth and reduce the risks of systemic problems. The 
current infrastructure funds level is inadequate to meet other 
essential program infrastructure needs. This has caused U.S. Department 
of Agriculture (USDA) to sacrifice the resource base on a single 
priority to the disadvantage of other infrastructure program needs 
including special project grants that help WIC State agencies 
demonstrate effective ways of doing business. NWA recommends: that 
infrastructure funding be unencumbered and increased from $14 million 
to $40 million.
Enhancing Service Delivery Through Information Technology
    Improving the Use of Information Technology To Enhance Service 
Delivery and Building Management Information Systems (MIS).--Technology 
provides a critical foundation for quality WIC services and Program 
Integrity. Funding WIC technology from existing resources compromises 
WIC's ability to deliver services and develop responsive MIS systems. 
To develop and maintain MIS and electronic service delivery systems 
(EBT)--NWA recommends: Congress provide an additional $60 million 
annually in unencumbered funds outside the regular NSA grant to 
implement MIS core functions, upgrade WIC technology systems, maintain 
MIS and electronic services, render MIS systems EBT ready, and expedite 
WIC's transition to EBT.
Promoting and Supporting Breastfeeding in WIC
    Breastfeeding Is the Normal and Most Healthful Way To Feed 
Infants.--The benefits to infants and mothers are numerous. For 
children, science shows that human milk: may lower the risk of obesity 
in childhood and adolescence; promotes and supports development; 
protects against illness symptoms and duration; improves IQ and visual 
acuity scores; lowers cancer rates; decreases cavities; improves 
premature infants' health; and significantly reduces healthcare costs. 
For mothers: decreases the likelihood of ovarian and breast cancers; 
reduces the risk of osteoporosis and long-term obesity; increases 
bonding between mother and child; and significantly reduces the 
incidence of child neglect. NWA recommends: increasing resources to 
assure more breastfeeding mothers access to critical breastfeeding 
support to $83 million.
    Maintaining the Enhanced Value of the Breastfeeding Food Package.--
In 2005, the Institute of Medicine (IOM) recommended an enhanced 
breastfeeding food package to encourage and support mothers who choose 
to fully breast feed. USDA Food and Nutrition Service (FNS), in 
publishing its Interim Final Rule on the WIC Food Packages, correctly 
emphasized the distinction between the fully breastfeeding food package 
and other food packages for women when it set the fruit and vegetable 
cash value vouchers for this food package at $2 above the value for 
other food packages for women. The fiscal year 2010 Agriculture 
Appropriations Act directed FNS to increase the fruit and vegetable 
cash value voucher for women to $10, eliminating that important 
distinction. NWA recommends: To maintain the enhanced value of the 
fully breastfeeding food package, as recommended by the IOM and as 
proposed by FNS in the Interim Final Rule, the monthly cash value 
voucher benefit for fully breastfeeding women be increased by $2 and 
that at least $8 million be provided to make this critical public 
health nutrition change possible.
    Promoting WIC Breastfeeding Success.--Breastfeeding rates among WIC 
women are on the rise. According to the most recent WIC Participant 
Characteristics Report, breastfeeding rates are at record highs--59 
percent initiation and 30 percent at 6 months. Despite the continued 
rise in breastfeeding rates overall, they are lower than the Healthy 
People 2010 goal of 75 percent breastfeeding initiation and 50 percent 
at 6 months. NWA recommends: Congress provide $10 million in 
performance bonus payments (to be treated as program income) to State 
agencies that demonstrate the highest proportion of breast fed infants, 
as compared to other State agencies participating in the program; or 
the greatest improvement in proportion of breast fed infants, as 
compared to other State agencies participating in the program. When 
providing performance bonus payments to State agencies, FNS should 
consider a State agency's proportion of participating fully breast fed 
infants.
Assuring Science Based WIC Food Packages
    Meeting the IOM Recommendations for Children.--The IOM recommended 
to USDA that the WIC food package for children provide a monthly fruit 
and vegetable cash value voucher benefit of $8. The IOM sought to 
provide a reasonable benefit of fruits and vegetables to promote 
healthier eating choices that would help to stem the incidence of 
overweight, obesity, and diet related chronic diseases. The current 
funding level only allows for a monthly value of $6. NWA recommends: 
that the monthly cash value voucher benefit for children be increased 
to $8 to meet the science recommended by the IOM and that at least $104 
million be provided to make this important public health nutrition 
change possible.
    Meeting the IOM Recommendations for Culturally Appropriate Foods.--
The IOM recommended to USDA that the WIC food packages provide a wide 
variety of culturally appropriate foods to appeal to the diverse 
populations that WIC serves. Included among the specific recommendation 
were a wide variety of whole grains, varieties of canned fish, and soy 
beverage, calcium-rich tofu, and yogurt as appropriate milk 
substitutes. NWA recommends: that Congress make available $89 million 
to allow WIC to provide yogurt in the WIC food packages to fund this 
public health nutrition recommendation.
Assessing the Effects of Nutrition Services
    NWA urges Congress to provide $15 million to update rigorous health 
outcomes research and evaluation documenting WIC's continued success.
                                 ______
                                 

   Prepared Statement of the New Mexico Interstate Stream Commission

                                summary
    This statement is submitted in support of appropriations for the 
U.S. Department of Agriculture's Environmental Quality Incentives 
Program (EQIP) and the Colorado River Basin Salinity Control Program 
(Program). The Program is funded through EQIP, the U.S. Bureau of 
Reclamation's Basinwide Program, and cost-sharing provided by the Basin 
States. With the enactment of the Farm Security and Rural Investment 
Act (FSRIA) in 2002, there have been opportunities to adequately fund 
the EQIP portion of the Program. I request that the subcommittee 
designate 2.5 percent, but no less than $20 million, of the EQIP funds 
for the Colorado River Basin Salinity Control Program. I request that 
adequate funds be appropriated for technical assistance and education 
activities directed to salinity control program participants.
                               statement
    Congress authorized the Colorado River Basin Salinity Control 
Program in the Colorado River Basin Salinity Control Act of 1974. 
Congress amended the Act in 1984 to give new responsibilities to the 
U.S. Department of Agriculture (USDA). While retaining the Department 
of the Interior as the lead coordinator for the Program, the amended 
Act recognized the importance of USDA efforts in meeting the objectives 
of the Program. Many of the most cost-effective salinity control 
projects to date have occurred since implementation of the USDA's 
authorization for the Program.
    Bureau of Reclamation studies show that quantified damages from the 
Colorado River to United States water users are about $350,000,000 per 
year. Unquantified damages are significantly greater. Damages are 
estimated at $75,000,000 per year for every additional increase of 30 
milligrams per liter in salinity of the Colorado River. It is essential 
to the cost-effectiveness of the salinity control program that USDA 
salinity control projects be funded for timely implementation to 
protect the quality of Colorado River Basin water delivered to the 
Lower Basin States and Mexico.
    Congress directed, with the enactment the Federal Agricultural 
Improvement and Reform Act of 1996 (FAIRA), that the program should 
continue to be implemented as a component of EQIP. However, until 2004, 
the program was not funded at an adequate level to protect the Basin 
State-adopted and Environmental Protection Agency approved water 
quality standards for salinity in the Colorado River. Appropriations 
for EQIP prior to 2004 were insufficient to adequately control salinity 
impacts from water delivered to the downstream States and Mexico.
    EQIP subsumed the salinity control program without giving adequate 
recognition to the responsibilities of the USDA to implement salinity 
control measures per Section 202(c) of the Colorado River Basin 
Salinity Control Act. The EQIP evaluation and project ranking criteria 
targeted small watershed improvements and did not recognize that water 
users hundreds of miles downstream are significant beneficiaries of the 
salinity control program. Proposals for EQIP funding were ranked in the 
States of Utah, Wyoming, and Colorado under the direction of the 
respective State Conservationists without consideration of those 
downstream, particularly out-of-State, benefits.
    Following recommendations of the Basin States to address the 
funding problem, the USDA's Natural Resources Conservation Service 
(NRCS) designated the Colorado River Basin an ``area of special 
interest'' including earmarked funds for the Program. The NRCS 
concluded that the salinity control program is different from the small 
watershed approach of EQIP. The watershed for the Program stretches 
almost 1,200 miles from the headwaters of the river through the salt-
laden soils of the Upper Basin to the river's termination at the Gulf 
of California in Mexico. NRCS is to be commended for its efforts to 
comply with the USDA's responsibilities under the Colorado River Basin 
Salinity Control Act, as amended. Irrigated agriculture in the Upper 
Basin realizes significant local benefits of improved irrigation 
practices, and agricultural producers have succeeded in submitting 
cost-effective proposals to NRCS.
    Years of inadequate Federal funding for EQIP since the 1996 
enactment of FAIRA and prior to 2004 resulted in the need to accelerate 
the salinity control program in order to maintain the criteria of the 
Colorado River Water Quality Standards for Salinity. Since the 
enactment of FSRIA in 2002, an opportunity to adequately fund the 
salinity control program now exists. The requested funding of 2.5 
percent, but no less than $20 million, of the EQIP funding will 
continue to be needed each year for at least the next few fiscal years.
    State and local cost-sharing is triggered by and indexed to the 
Federal appropriation. In fiscal year 2011, it is anticipated that the 
States will cost-share about $8 million and local agricultural 
producers will add more than $7 million, resulting in contributions for 
over 40 percent of the total program costs.
    USDA salinity control projects have proven to be a cost-effective 
component of the salinity control program. USDA has indicated that a 
more adequately funded EQIP program would result in more funds being 
allocated to the salinity program. The Basin States have cost-sharing 
dollars available to participate in on-farm salinity control efforts. 
The agricultural producers in the Upper Basin are willing to cost-share 
their portion and are awaiting funding for their applications to be 
considered.
    The Basin States expend 40 percent of the State funds allocated for 
the program for essential NRCS technical assistance and education 
activities. Previously, the Federal part of the salinity control 
program funded through EQIP failed to adequately fund NRCS for these 
activities, which has been shown to be an impediment to accomplishing 
successful implementation of the salinity control program. Recent 
acknowledgement by the Administration that technical assistance and 
education activities must be better funded has encouraged the Basin 
States and local producers that cost-share with the EQIP. I request 
that adequate funds be appropriated to NRCS technical assistance and 
education activities directed to the salinity control program 
participants (producers).
    I urge the Congress to appropriate at least $1 billion in fiscal 
year 2011 for EQIP. Also, I request that Congress designate 2.5 
percent, but no less than $20 million, of the EQIP appropriation for 
the Colorado River Basin Salinity Control Program.
                                 ______
                                 

  Prepared Statement of the Organic Farming Research Foundation (OFRF)

    The Organic Farming Research Foundation (OFRF) is a national 
farmer-directed, non-profit organization fostering the improvement and 
widespread adoption of organic farming systems. The multiple benefits 
of organic production and market systems make organic agriculture a 
highly cost-effective investment for achieving national economic and 
environmental goals.
    OFRF's funding requests for fiscal year 2011 Agriculture, Rural 
Development, Food and Drug Administration, and Related Agencies 
Appropriations Bill emphasize research, data collection, and 
information dissemination. These are all significant limiting factors 
for the growth and improvement of organic agriculture. Our requests 
represent continued progress towards achieving the ``fair-share'' 
benchmark for organic agriculture within the USDA-REE mission area. The 
fair-share benchmark compares the U.S. retail market share of organic 
products to the percentage of USDA-REE spending on activities 
explicitly directed towards organic agriculture. Organic represents 3.5 
percent of the U.S. retail market share, but, according to OFRF 
estimates,\1\ explicit organic research represents only 1.8 percent of 
the USDA-REE mission area budget. We present below a summary of our 
requests followed by more justifications.
---------------------------------------------------------------------------
    \1\ OFRF estimates total fiscal year 2010 organic REE spending at 
approximately $51 million out of approximately $2.9 billion for the REE 
mission area. This includes: OREI ($20 million), ORG ($5 million), ARS 
direct organic ($17 million), ODI ($1 million), and other NIFA grants 
($8 million).
---------------------------------------------------------------------------
  --USDA--National Institute of Food and Agriculture
      --Organic Agriculture Research and Extension Initiative
        Fiscal year 2010 actual: no limit on mandatory funding
        USDA fiscal year 2011 request: no limit on mandatory funding
        OFRF fiscal year 2011 request: no limit on mandatory funding 
            plus $10 million in discretionary funds
      --Organic Transitions Integrated Research Program
        Fiscal year 2010 actual: $5.0 million
        USDA fiscal year 2011 request: $0
        OFRF fiscal year 2011 request: $5.0 million
      --Sustainable Agriculture Research and Education Program
        Fiscal year 2010 actual: $14.5 million (research and education) 
            + $4.7 million (extension) = $19.2 million
        USDA fiscal year 2011 request: $15.0 million + $5.0 million + 
            $10.0 million (State matching grants) = $30.0 million
        OFRF fiscal year 2011 request: $15.0 million + $5.0 million + 
            $10.0 million = $30.0 million
  --USDA--Agricultural Research Service
      --Direct Organic Projects (allocation within agency baseline)
        Fiscal year 2010 actual: $17.2 million
        USDA fiscal year 2011 request: N/A
        OFRF fiscal year 2011 request: $42 million (approximate result 
            of requested ``fair-share'' language)
      --Classical Plant and Animal Breeding Activities
        Fiscal year 2010 actual: N/A
        USDA fiscal year 2011 request: $9.0 million
        OFRF fiscal year 2011 request: $9.0 million
      --National Agricultural Library
        Fiscal year 2010 actual: N/A
        USDA fiscal year 2011 request: Increase of $1.5 million for 
            sustainability information framework
        OFRF fiscal year 2011 request: Increase of $1.5 million for 
            sustainability information framework
  --USDA--AMS/ERS/NASS
      --Organic Market and Production Data Initiatives
        Fiscal year 2010 actual: $0.75 million ($0.5 million for ERS, 
            $0.250 million for NASS)
        USDA fiscal year 2011 request: $0.8 million ($0.3 million for 
            AMS, $0.5 million for NASS)
        OFRF fiscal year 2011 request: $5.0 million ($3.0 million for 
            AMS, $1.5 million for ERS, $0.5 million for NASS).
  --USDA--Agricultural Marketing Service
      --National Organic Program
        Fiscal year 2010 actual: $7.0 million
        USDA fiscal year 2011 request: $10.1 million
        OFRF fiscal year 2011 request: $10.1 million
  --USDA--Natural Resources Conservation Service
      --Mandatory Conservation Programs
        Fiscal year 2010 actual: $270 million cut to Environmental 
            Quality Incentives Program
        USDA fiscal year 2011 request: Cuts to several mandatory 
            conservation programs
        OFRF fiscal year 2011 request: No limit on mandatory funding
      --Conservation Technical Assistance
        Fiscal year 2010 actual: $887.6 million
        USDA fiscal year 2011 request: $923.7 million
        OFRF fiscal year 2011 request: $923.7 million
                             justifications
            usda--national institute of food and agriculture
    Organic agriculture provides multiple benefits to society, and has 
the potential to help achieve important agricultural outcomes. These 
outcomes include providing a nutritious and safe food supply, 
protecting and enhancing natural resources, building a prosperous 
agricultural economy, and adapting to climate change.
    These benefits can only be realized with a strong commitment to 
organic research. Congress created and has funded the dedicated organic 
research programs to improve organic systems and leverage their 
multiple benefits. However, Congress has also made clear that these 
programs should not be the only source for scientific improvement of 
organic agriculture. Continued growth of the dedicated funding streams 
is necessary to build a critical mass of capacity for organic research 
and extension. This increased capacity in turn will allow for organic 
research to be competitive within other grant programs. Additionally, 
the organic research programs address significant, specific research 
needs not addressed by any of the other competitive research grant 
programs at the National Institute of Food and Agriculture.
Organic Agriculture Research and Extension Initiative (OREI)
            OFRF Fiscal Year 2011 Request: No Limit on Mandatory 
                    Funding Plus $10 Million in Discretionary Funds
    OREI is USDA's flagship competitive research and education grant 
program specifically dedicated to the investigation of organic 
agriculture and the delivery of its outcomes. The program is 
consistently oversubscribed and in fiscal year 2009 could only fund 17 
percent of the funds requested. The 2008 Farm Bill authorized $25 
million annually in discretionary funds. In addition to the $20 million 
in mandatory funding available in fiscal year 2011, OFRF requests $10 
million of the $25 million in discretionary authority in fiscal year 
2011. Protecting and growing the funding for this program would 
continue to make progress towards the fair-share benchmark for USDA 
funding for organic research and extension, would help respond to the 
strong demand for the program, and would increase the capacities of 
University organic programs to utilize other competitive research 
funds.
Organic Transitions Integrated Research Program (ORG)
            OFRF Fiscal Year 2011 Request: $5.0 Million
    ORG is the smaller and older of the two USDA competitive grant 
programs dedicated to organic research and education. From 2003 to 
2008, it was administered together with OREI. Starting in fiscal year 
2009, NIFA has been combining the program with 406 Integrated Water 
Quality research program. The newly combined program funds multi-year 
projects that examine the effects of organic production systems on 
water quality. This approach provides a ``specialized'' complement to 
the general purposes of OREI, and OFRF supports this move by the 
Agency. Additionally, ORG supports formal educational activities (e.g., 
curriculum development for colleges), which OREI does not fund.
    The President's fiscal year 2011 budget eliminates funding for ORG 
along with funding for all of the other Section 406 integrated 
programs, and justifies the cuts by saying that those research 
objectives will be met through other competitive research grants 
programs such as the Agriculture and Food Research Initiative. Given 
the type of research that AFRI/NRI has funded in the past and the 
limited opportunities that appear in the newly issued 2010 Request for 
Applications, we doubt that AFRI will sufficiently support integrated 
activities for organic systems similar to those currently funded 
through ORG. The past Administration made similar recommendations on 
the 406 programs, which Congress consistently rejected. We urge the 
subcommittee to again reject these cuts and keep ORG level funded at $5 
million in fiscal year 2011.
Sustainable Agriculture Research and Education Program (SARE)
            OFRF Fiscal Year 2011 Request: $15.0 Million (Research & 
                    Education) +$5.0 Million (Extension) +$10.0 Million 
                    (Federal-State Matching Grants Program) = $30.0 
                    Million
    We strongly support the President's fiscal year 2011 request of $30 
million for SARE, which includes $10 million to launch a Federal-State 
matching grants program to leverage non-Federal funds to support 
sustainable agriculture research. SARE is a farmer-driven, regionally 
led, and outcomes-oriented competitive research and extension grants 
program that complements the activities of dedicated organic research 
programs.
                  usda--agricultural research service
Direct Organic Projects
            OFRF Fiscal Year 2011 Request: Report Language Resulting in 
                    ``Fair-Share'' Expenditures (Appx. $42 Million)
    USDA's Agricultural Research Service (ARS) has an organic research 
portfolio and a work plan to guide further organic research objectives. 
The current total for direct organic projects is $17.2 million, about 
1.3 percent of the ARS budget. To strengthen the Agency's organic 
portfolio and reach the ARS fair-share benchmark, we request report 
language directing the Secretary of Agriculture to use a share of the 
ARS budget for research specific to organic food and agricultural 
systems that is at least commensurate with the organic sector's retail 
market share (currently 3.5 percent).
Classical Plant and Animal Breeding Activities
            OFRF Fiscal Year 2011 Request: $9.0 Million
    The President's fiscal year 2011 budget requests an increase of 
$4.289 million for ``crop breeding to enhance food and production 
security'' and another $4.75 million for ``crop protection to enhance 
food and production security,'' with a clear focus on classical plant 
and animal breeding activities. In recent decades, there has been a 
significant decrease in the public resources supporting classical plant 
and animal breeding, and the Nation's capacity for public breeding is 
now at a crisis point. We fully support this request for much-needed 
classical breeding activities conducted through ARS.
National Agricultural Library (NAL)
            OFRF Fiscal Year 2011 Request: Increase of $1.5 Million for 
                    Sustainability Information Framework
    We strongly support the President's fiscal year 2011 request for an 
increase of $1.5 million for NAL to develop a framework for information 
access and databases focused on sustainable agricultural practices and 
systems.
                           usda--ams/ers/nass
Organic Market and Production Data Initiatives
            OFRF Fiscal Year 2011 Request: $5.0 Million ($3.0 Million 
                    for AMS, $1.5 Million for ERS, $0.5 Million for 
                    NASS)
    Data on prices, yields, and markets are vital to farmers for 
production planning, market development, risk management, and obtaining 
financial credit. The organic sector is still without vital 
comprehensive data on par with what USDA provides for conventional 
agriculture, putting organic farmers at a significant disadvantage. The 
absence of marketing and production data specific to organic 
agriculture inhibits organic producers and handlers, and limits the 
effectiveness of policies enacted to facilitate the public benefits of 
organic agriculture.
    Activities of AMS, ERS, and NASS require continued full support to 
build upon the previous investments. AMS has planned further 
enhancement of organic reporting and the development of additional 
organic market information tools. NASS released its first-ever organic 
agriculture production survey in February, and will need funds to 
develop cross tabs and conduct further analysis. ERS will need 
additional targeted funds to continue expanding the Agency's overall 
program of research and analysis of organic agriculture, and will work 
jointly with NASS to analyze the data from the organic production 
survey.
    The 2008 Farm Bill provided $5 million in mandatory funds for ODI 
and additional authority up to $5 million annually for ODI. Those 
mandatory funds have been applied to important projects, but there is 
still an increasing backlog of information needs. We are asking the 
subcommittee to exercise its full authority and allocate $5 million for 
fiscal year 2011 to organic data collection, distributed among the 
three agencies leading this initiative.
                  usda--agricultural marketing service
National Organic Program
            OFRF Fiscal Year 2011 Request: $10.1 Million
    We support the President's fiscal year 2011 request of $10.1 
million for NOP. This budget request will help protect the integrity of 
the organic label, allow for proper enforcement of the national organic 
standards, and restore consumer confidence in the organic label.
              usda--natural resources conservation service
Mandatory Conservation Programs
            OFRF Fiscal Year 2011 Request: No Limit on Mandatory 
                    Funding
    The cuts proposed in the President's fiscal year 2011 budget to the 
Environmental Quality Incentives Program, Conservation Stewardship 
Program, and other conservation programs would rob over $1 billion from 
the conservation baseline, or nearly a quarter of the conservation 
increases in the 2008 Farm Bill. These programs lead to cleaner water, 
erosion reduction, carbon sinks, improved wildlife habitat, and other 
essential environmental services.
Conservation Technical Assistance (CTA)
            OFRF Fiscal Year 2011 Request: $923.7 Million
    We strongly support the President's full request for CTA, which is 
funded through yearly appropriations for NRCS to provide conservation 
technical assistance to farmers and ranchers. CTA also funds assessment 
of conservation practices and systems that underpin the conservation 
programs, as well as NRCS collection, analysis, interpretation and 
dissemination of information on the status and condition of the 
Nation's soil, water and other resources. This information is used by 
farmers and by Federal, State and private natural resource managers who 
are charged with managing and protecting natural resources.
    Disclosure: Organic Farming Research Foundation was a subcontractor 
for a grant awarded by the USDA-CSREES Integrated Organic Program. 
Grant# 2207-01384. ``Midwest Organic Research Symposium.'' Application 
submitted to OREI fiscal year 2010 round and currently under 
consideration.
                                 ______
                                 

       Prepared Statement of the Organic Trade Association (OTA)

    Chairman Kohl, Ranking Member, and members of the subcommittee, I 
am Christine Bushway, executive director of the Organic Trade 
Association (OTA). The organic agricultural economy continues to be one 
of the fastest-growing sectors of American agriculture, with retail 
sales increasing by approximately 14 to 20 percent each year since 
1990. U.S. organic product sales totaled $26 billion in 2009, with 
organic food sales reaching $24.2 billion to represent 3 percent of the 
domestic food market. In addition, exports of U.S. organic products 
were over $1 billion in 2009. To help continue this growth, we 
respectfully request the following funding levels for programs 
pertinent to the organic industry: USDA--National Organic Program--
$10.1 million; USDA--Organic Data Initiative--$5 million; USDA--Organic 
Agriculture Research and Extension Initiative--$35 million; USDA--
Organic Transitions Integrated Research Program--$5 million; USDA--
Agricultural Research Service--$9.03 million; and National Center for 
Appropriate Technology--Appropriate Technology Transfer for Rural 
Areas--$3 million.
    The Organic Trade Association is the membership-based business 
association for organic agriculture and products in North America. Its 
members include growers, shippers, processors, certifiers, farmers' 
associations, distributors, importers, exporters, consultants, 
retailers and others. OTA's Board of Directors is democratically 
elected by its members. OTA's mission is to promote and protect the 
growth of organic trade to benefit the environment, farmers, the public 
and the economy.
                        national organic program
    OTA supports the President's request of $10.1 million for the 
National Organic Program (NOP). This supports Congress's intent to 
enhance NOP as expressed through the 2008 Farm Bill, as well as 
supporting current NOP projections. USDA's 2007 Census of Agriculture: 
Organic Production Survey reported more than 14,540 farms engaged in 
organic agriculture productions. OTA's 2010 Organic Industry Survey 
shows organic food sales have grown from $3.6 billion in 1997 to $24.2 
billion in 2009, with a 2009 growth rate of over 5 percent despite the 
recession.
    NOP performs regulatory oversight over organic agriculture. 
Recognizing continued growth of the industry, the President's budget 
asks for $0.6 million more than the 2008 Farm Bill authorized for 
fiscal year 2011 ($9.5 million). OTA strongly supports this additional 
request.
    The $3.1 million increase over fiscal year 2010 provides $2.1 
million for regulatory review, enforcement, and development of 
equivalency agreements. Another $1 million is included to assist 
accredited certifying agents with training costs to enhance compliance 
with program regulations. Each of these areas is critical to the 
integrity of the program.
    Provisions for organic agriculture in the 2008 Farm Bill have 
already resulted in better compliance with and enforcement of NOP 
standards, an improved appeals process, a final pasture rule and an 
organic equivalency agreement between the United States and Canada. 
These milestones would not have been possible without support from 
Congress to expand NOP staff from 14 in fiscal year 2008 to 31 in 
fiscal year 2010, with a total staff of 40 expected in fiscal year 
2011.
    USDA recently proclaimed that the organic industry has entered an 
``Age of Enforcement'' of organic standards. OTA supports this call to 
action, and asks Congress to provide the necessary resources for NOP 
staff to continue work on the following priorities:
    Compliance and enforcement is fundamental to the integrity of the 
organic seal, and long-term health of the industry. The additional 
funds allow for full implementation of appeals decisions, including 
monitoring of final actions through having at least one audit over the 
following year, or 6 months for cease-and-desist, suspension or 
revocation adverse actions, reducing the backlog from previous years, 
and improving compliance resolution time, which averages 75 days.
    Accreditation and training of certifying agents is necessary for 
consistent application of the standards in the field, and is a critical 
precursor to compliance and enforcement. The additional funds allow for 
improved qualifications and training of inspectors and auditors and 
create an up-to-date database of certified operations.
    Development of equivalence agreements reduces and eliminates trade 
barriers for American organic producers who want to develop export 
markets. Over 70 percent \1\ of organic companies surveyed currently 
export, or plan to export, good in the next few years. Currently 
organic exports are estimated to total $1 to $1.5 billion annually, 
creating between 6,000 and 9,000 jobs.\2\ Requested funds allow for 
negotiations with the European Union on organic equivalence. Success in 
this negotiation would open up the world's largest market to U.S. 
organic exports.
---------------------------------------------------------------------------
    \1\ Organic Trade Association's 2009 Organic Industry Survey. May, 
2009. Page 19.
    \2\ ``Every $1 billion increase in exports supports more than 6,000 
additional jobs''. Remarks by President Obama at the Export-Import 
Bank's Annual Conference. March 11, 2010.
---------------------------------------------------------------------------
    Funding NOP at the requested $10.1 million will provide the 
resources needed to maintain the integrity of the organic label that 
both domestic and international consumers place their trust in and help 
to ensure the continued growth of the organic industry. It will give 
NOP the ability to deliver the improvements needed to address 
recommendations outlined in the March 18 release of USDA's Office of 
Inspector General NOP audit report (http://www.usda.gov/oig/webdocs/
01601-03-HY.pdf).
                        organic data initiative
    OTA supports fully funding the Organic Data Initiative (ODI) at $5 
million as authorized in the 2008 Farm Bill. ODI collects and 
disseminates data regarding organic agriculture through the 
Agricultural Marketing Service (AMS), the Economic Research Service 
(ERS) and the National Agricultural Statistics Service (NASS). This 
program has been highly successful in providing valuable information to 
Congress, government agencies and the organic industry at a low cost.
    AMS collects organic prices and disseminates the data through 
Market News Reports, which give producers and buyers knowledge of farm-
gate selling prices for several organic commodities, helping to create 
a more stable organic market. This is an excellent first step, but 
organic pricing information falls far behind what is available to 
conventional agriculture. Organic producers currently only receive 
farm-gate prices for a limited number of commodities, while 
conventional producers receive farm-gate, terminal and retail price 
information for many commodities in all regions of the country. Organic 
producers, processors and retailers need this information to maintain a 
stable organic market. We request $3 million for AMS to continue and 
expand organic price reporting services in fiscal year 2011.
    NASS provides surveys based on Census of Agriculture data. In 
February 2010, NASS released the Organic Production Survey (2008), the 
first to provide a State-by-State collection of the amount of farmland 
used for organic production and gross farm sales of organic products. 
Such information has been provided for conventional production, and 
should continue to be funded for organic production. OTA requests that 
NASS receive $0.5 million in fiscal year 2011, as requested in the 
President's budget, to continue collecting and distributing organic 
agriculture statistics.
    ERS published the consumer survey Marketing U.S. Organic Foods: 
Recent Trends from Farms to Consumers (2009), and multiple other 
reports that used data collected by AMS and NASS in addition to 
surveying Americans about their organic consumption patterns. The 
reports provided valuable information regarding the growth of and 
trends in the organic industry.
    ERS also plans to broaden its current research agenda to include 
economic analysis of international trade of organic products. In order 
to conduct sound economic research, data collected must be 
statistically reliable and of high quality. OTA hopes the International 
Trade Commission will expand the Harmonized System Codes (HS Codes) for 
organic products. With more than 70 percent of certified organic 
producers and handlers exporting or planning to export,\3\ these codes 
are needed to expand and simplify the trade of organic products. OTA 
requests that ERS be funded at $1.5 million in fiscal year 2011 for 
continued organic economic analysis and inclusion of organic trade 
data.
---------------------------------------------------------------------------
    \3\ Organic Trade Association's 2009 Organic Industry Survey. May, 
2009. Page 19.
---------------------------------------------------------------------------
    Unfortunately, the President's budget only includes $0.3 million 
for AMS organic price collection and $0.5 million for NASS to conduct 
production surveys for organic agriculture, with no provision for funds 
for ERS to study organic data. Congress expressed its intention for 
comprehensive data collection and analyses in the 2008 Farm Bill by 
mandating $5 million to start ODI the first year, then authorizing $5 
million in discretionary funds for each year following. Fully funding 
ODI at $5 million will help provide critical data necessary for any 
agricultural sector to survive, and help increase organic exports.
         organic agriculture research and extension initiative
    OTA requests $35 million to fund the Organic Agriculture Research 
and Extension Initiative (OREI), USDA's flagship competitive research 
and education grant program specifically dedicated to the investigation 
of organic agriculture and the delivery of its outcomes. OREI provides 
grants for a myriad of research projects that improve organic 
agriculture. The program is consistently oversubscribed and could only 
fund 17 percent of the funds requested in fiscal year 2009.
    Funds are given to land grant universities, for-profit 
organizations, individuals, private universities and State agricultural 
experiment stations to conduct organic research. Projects funded 
through OREI include improving organic farming systems and assessing 
their environmental impacts across agroeco-regions, enhancing 
productivity and soil borne disease control in intensive organic 
vegetable production, and improving weed and insect management.
    This request includes $20 million in mandatory funding plus $15 
million out of an authorized $25 million of discretionary funds in the 
2008 Farm Bill. We request $15 million in discretionary funding because 
the President's budget folds the Organic Transitions Integrated 
Research Program (below) into the Agriculture and Food Research 
Institute. If this occurs, less money will be appropriated specifically 
for organic research. If the Organic Transitions Integrated Research 
Program continues to receive funding, we will reduce OTA's request for 
OREI to $30 million.
    OREI projects have contributed to the health and sustainability of 
the environment and organic agriculture. Funding OREI at $35 million 
will support continued organic research by educational, State, and 
private institutions.
            organic transitions integrated research program
    OTA requests $5 million to fund the Organic Transitions Integrated 
Research Program (ORG) in fiscal year 2011. Authorized by Section 406 
of the Agricultural Research, Extension, and Education Reform Act of 
1998, ORG provides funding for research grants that specifically study 
the relationship between organic agriculture and improving critical 
water quality problems. This program consistently receives many more 
funding requests than it can accommodate.
    The President's fiscal year 2011 budget cuts ORG as a separate 
program, and merges its responsibilities into the Agriculture and Food 
Research Initiative. We oppose merging the programs because the funds 
needed to continue this important grant program will be forced to 
compete with multiple proposals from all agriculture sectors instead of 
having dedicated resources. As organic retail sales have grown to 3.5 
percent of retail agriculture sales, research funding provided to 
organic agriculture has only reached and estimated 1.76 percent as of 
fiscal year 2009.\4\ Ending ORG as an organic specific research grant 
program will likely increase this gap.
---------------------------------------------------------------------------
    \4\ Estimate based on $2.9 billion USDA's Research, Education and 
Economics Mission fiscal year 2011 funding request and fiscal year 2010 
funding of Organic Data Initiative, Organic Agriculture Research and 
Extension Initiative, Organic Transitions Integrated Research Program, 
Agriculture Research Service and other National Institute of Food and 
Agriculture requests.
---------------------------------------------------------------------------
    ORG grants have funded several projects that have led to a better 
understanding of the link between agriculture and water quality, with 
more worthy proposals waiting for resources. The project should be 
funded at $5 million to continue and grow this important research. If 
ORG is not funded separately at $5 million, we request an increase in 
the Organic Agriculture Research and Extension Initiative (see OREI 
request) to continue supporting this research.
                      agriculture research service
    OTA supports the ARS request for $9.03 million in additional funds 
to study classical plant and animal breeding. Public resources for 
classical plant and animal breeding have dwindled in recent decades, 
while resources have shifted toward genomics and biotechnology, with a 
focus on a limited set of major crops and breeds. This problem has been 
particularly acute for organic and sustainable farmers, who seek access 
to germplasm well suited to their unique cropping systems and their 
local environment. The Senate Agriculture Appropriations Report has 
registered the Committee's concern about this problem every year since 
fiscal year 2005, in the context of the CSREES (now the National 
Institute of Food and Agriculture) section of the Report.
    While USDA's statutory obligation to address this problem through 
the Agriculture and Food Research Initiative competitive grant program 
remains a strong need, USDA's ARS also has an obligation in this 
regard. ARS has the resources and expertise to help reverse this 
dangerous trend, but the Agency has not made a concerted effort until 
now. The Administration's fiscal year 2011 budget requests an increase 
of $4.289 million for ``crop breeding to enhance food and production 
security'' and another $4.75 million for ``crop protection to enhance 
food and production security,'' with a clear focus on classical plant 
and animal breeding activities.
    Research on breeding stocks for organic and sustainable agriculture 
has not kept pace with the rate at which the organic industry has 
grown. Providing ARS with the requested $9.03 million to study 
classical plant and animal breeding will help to overcome this lack of 
needed research.
            appropriate technology transfer for rural areas
    We request $3 million to fund Appropriate Technology Transfer for 
Rural Areas (ATTRA), as authorized in the 2008 Farm Bill. The (ATTRA) 
project of the National Center for Appropriate Technology (NCAT) is a 
very helpful resource for both beginning and advanced organic farmers. 
It has been funded by Congress for many years and continues to develop 
resources, including organic system plan templates and technical sheets 
on organic production. ATTRA reports that 30 percent of the calls 
received are in regards to organic practices.
    ATTRA helps thousands of organic and conventional farmers across 
the country. A sampling of topics that are routinely asked about are: 
reducing the use of herbicides and pesticides; employing farm practices 
that help protect air, water, and soil resources; reducing energy and 
water use; developing new marketing opportunities by focusing on local 
foods, farm-to-school, and farmers markets; and creating rural jobs by 
encouraging farming. OTA and NOP refer callers seeking technical 
information to ATTRA on a regular basis, whose toll-free number and 
bilingual capacity make it a national information resource. Funding 
ATTRA at $3 million will enable its work to provide valuable 
information to both organic and conventional farmers.
                               conclusion
    Organic agriculture gives farmers more opportunities, improves and 
conserves the condition of the environment and gives consumers the 
choice to buy foods and other products that are produced to organic 
standards. Meeting these funding requests will help to insure the 
continued growth of U.S. organic agriculture by supporting the 
integrity of the organic label, providing important data and continuing 
to support research for organic agriculture.
    I thank the committee and look forward to working with you to 
advance the organic industry.
                                 ______
                                 

        Prepared Statement of Pickle Packers International, Inc.

                                summary
    Sustained and increased funding is desperately needed to maintain 
the research momentum built over recent years and to defray rising 
fixed costs at laboratory facilities. Companies in the pickled 
vegetable industry generously participate in funding and performing 
short-term research, but the expense for long-term research needed to 
insure future competitiveness is too great for individual companies to 
shoulder on their own.

                  BUDGET REQUESTS FOR FISCAL YEAR 2011
     [Funding needs for four USDA/ARS laboratories are as follows:]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Requests for Restoration of Funds Not in the                  $9,200,000
 Presidential Budget: U.S. Vegetable Laboratory,
 Charleston, South Carolina [Note: These funds are for
 the design ($700,000) and construction ($8,500,000) of
 the final phases of the planned greenhouse complex.]
                                                         ---------------
      Total Restoration Requests........................       9,200,000
                                                         ===============
Requests for Program Enhancement--Pickled Vegetables:
    Emerging Disease of Crops (HS)......................         500,000
    Quality and Utilization of Agricultural Products &           300,000
     Food Safety (HS)...................................
    Applied Crop Genomics...............................         270,400
    Specialty Crops.....................................         550,000
                                                         ---------------
      Total Program Enhancements Requested--Pickled            1,620,400
       Vegetables.......................................
------------------------------------------------------------------------

    USDA/ARS research provides:
  --Consumers with over 150 safe and healthful vegetable varieties 
        providing vitamins A, C, folate, magnesium, potassium, calcium, 
        and phytonutrients such as antioxidant carotenoids and 
        anthocyanins.
  --Genetic resistance for many major vegetable diseases, assuring 
        sustainable crop production with reduced pesticide residues--
        valued at nearly $1 billion per year in increased crop 
        production.
  --Classical plant breeding methods combined with bio-technological 
        tools, such as DNA marker-assisted selection and genome maps.
  --New vegetable products with economic opportunities amidst 
        increasing foreign competition.
  --Improved varieties suitable for machine harvesting, assuring post 
        harvest quality and marketability.
  --Fermentation and acidification processing techniques to improve the 
        efficiency of energy use while continuing to assure safety and 
        quality of our products.
  --Methods for delivering living pro-biotic microorganisms in 
        fermented or acidified vegetables.
  --New technology and systems for rapid inspection, sorting and 
        grading of pickling vegetable products.
Health and Economical Benefits
    Health agencies continue to encourage increased consumption of 
fruits and vegetables, useful in preventing heart disease, cancer, 
stroke, diabetes and obesity.
    Vegetable crops, including cucumbers, peppers, carrots, onions, 
garlic and cabbage (sauerkraut), are considered ``specialty'' crops and 
not part of commodity programs supported by taxpayer subsidies.
    Current farm value for just cucumbers, onions and garlic is 
estimated at $2.4 billion with a processed value of $5.8 billion. These 
vegetables are grown and/or manufactured in all 50 States.
    Thank you for your consideration and expression of support for the 
USDA/ARS.
                               Attachment
concern for sustained and increased research funding usda/agricultural 
                            research service
    The pickled vegetable industry strongly supports and encourages 
your committee in its work of maintaining and guiding the Agricultural 
Research Service. To accomplish the goal of improved health and quality 
of life for the American people, the health action agencies of this 
country continue to encourage increased consumption of fruits and 
vegetables in our diets. Accumulating evidence from the epidemiology 
and biochemistry of heart disease, cancer, diabetes and obesity 
supports this policy. Vitamins (particularly A, C, and folic acid), 
minerals, and a variety of antioxidant phytochemicals in plant foods 
are thought to be the basis for correlation's between high fruit and 
vegetable consumption and reduced incidence of these debilitating and 
deadly diseases. The problem is that many Americans choose not to 
consume the variety and quantities of fruits and vegetables that are 
needed for better health.
    As an association representing processors that produce over 85 
percent of the tonnage of pickled vegetables in North America, it is 
our goal to produce new products that increase the competitiveness of 
U.S. agriculture as well as meet the demands of an increasingly diverse 
U.S. population that is encouraged to eat more vegetables. The profit 
margins of growers continue to be narrowed by foreign competition. 
Likewise, the people of this country represent an ever-broadening array 
of expectations, tastes and preferences derived from many cultural 
backgrounds. Everyone, however, faces the common dilemma that food 
costs should remain stable and preparation time continues to be 
squeezed by the other demands of life. This industry can grow by 
meeting these expectations and demands with reasonably priced products 
of good texture and flavor that are high in nutritional value, low in 
negative environmental impacts, and produced with assured safety from 
pathogenic microorganisms and from those who would use food as a 
vehicle for terror. With strong research to back us up, we believe our 
industry can make a greater contribution toward reducing product costs 
and improving human diets and health for all economic strata of U.S. 
society.
    Many small to medium sized growers and processing operations are 
involved in the pickled vegetable industry. We grow and process a group 
of vegetable crops, including cucumbers, peppers, carrots, onions, 
garlic, cauliflower, cabbage (Sauerkraut) and Brussels sprouts, which 
are referred to as ``minor'' crops. None of these crops is in any 
``commodity program'' and as such, do not rely upon taxpayer subsidies. 
However, current farm value for just cucumbers, onions and garlic is 
$2.4 billion with an estimated processed value of $5.8 billion. These 
crops represent important sources of income to farmers, and the 
processing operations are important employers in rural communities 
around the United States. Growers, processing plant employees and 
employees of suppliers to this industry reside in all 50 States. To 
realize its potential in the rapidly changing American economy, this 
industry will rely upon a growing stream of appropriately directed 
basic and applied research from four important research programs within 
the Agricultural Research Service. These programs contribute directly 
to top research priorities that the Research, Education, and Economics 
Mission Area (REE) of the USDA has identified in that they develop 
vegetable crop germplasm and preservation technology that contributes 
to improved profitability with reduced pesticide inputs in a safer, 
higher quality product grown by rural farm communities across the 
United States, consequently improving food security and food safety. 
Improved germplasm, crop management practices and processing 
technologies from these projects have measurably contributed to the 
profitability, improved nutritional value and increased consumption of 
affordable vegetable crops for children and adults in America and 
around the world.
        vegetable crops research laboratory, madison, wisconsin
    The USDA/ARS Vegetable Crops Research Lab at the University of 
Wisconsin is the only USDA research unit dedicated to the genetic 
improvement of cucumbers, carrots, onions and garlic. Three scientists 
in this unit account for approximately half of the total U.S. public 
breeding and genetics research on these crops. Their past efforts have 
yielded cucumber, carrot and onion cultivars and breeding stocks that 
are widely used by the U.S. vegetable industry (i.e., growers, 
processors, and seed companies). These varieties account for over half 
of the farm yield produced by these crops today. All U.S. seed 
companies rely upon this program for developing new varieties, because 
ARS programs seek to introduce economically important traits (e.g., 
virus and nematode resistance) not available in commercial varieties 
using long-term high risk research efforts. The U.S. vegetable seed 
industry develops new varieties of cucumbers, carrots, onions, and 
garlic and over 20 other vegetables used by thousands of vegetable 
growers. The U.S. vegetable seed, grower, and processing industry, 
relies upon the USDA/ARS Vegetable Crops Research Lab for unique 
genetic stocks to improve varieties in the same way the U.S. healthcare 
and pharmaceutical industries depend on fundamental research from the 
National Institutes of Health. Their innovations meet long-term needs 
and bring innovations in these crops for the U.S. and export markets, 
for which the United States has successfully competed. Past 
accomplishments by this USDA group have been cornerstones for the U.S. 
vegetable industry that have resulted in increased profitability, and 
improved product nutrition and quality.
    Both consumers and the vegetable production and processing industry 
would like to see fewer pesticides applied to food and into the 
environment in a cost-effective manner. Scientists in this unit have 
developed genetic resistance for many major vegetable diseases that are 
perhaps the most important threat to sustained production of a 
marketable crop for all vegetables. Genetic resistance assures 
sustainable crop production for growers and reduces pesticide residues 
in our food and environment. Value of this genetic resistance developed 
by the vegetable crops unit is estimated at $670 million per year in 
increased crop production, not to mention environmental benefits due to 
reduction in pesticide use. New research in Madison has resulted in 
cucumbers with improved disease resistance, pickling quality and 
suitability for machine harvesting. New sources of genetic resistance 
to viral and fungal diseases, environmental stress resistance like heat 
and cold, and higher yield have recently been mapped on cucumber 
chromosomes to provide a ready tool for our seed industry to 
significantly accelerate the development of resistant cultivars for 
U.S. growers. Nematodes in the soil deform carrot roots to reduce yield 
from 10 percent to over 70 percent in major production areas. A new 
genetic resistance to nematode attack was found to almost completely 
protect the carrot crop from one major nematode. This group improved 
both consumer quality and processing quality of vegetables with a 
resulting increase in production efficiency and consumer appeal. Baby 
carrots were founded on germplasm developed in Madison, Wisconsin. 
Carrots provide approximately 30 percent of the U.S. dietary vitamin A. 
New carrots have been developed with tripled nutritional value, and 
nutrient-rich cucumbers have been developed with increased levels of 
provitamin A. Using new biotechnological methods, a system for rapidly 
and simply identifying seed production ability in onions has been 
developed that reduces the breeding process up to 6 years. A genetic 
map of onion flavor and nutrition will be used to develop onions that 
are more appealing and healthy for consumers.
    There are still serious vegetable production problems which need 
attention. For example, losses of cucumbers, onions, and carrots in the 
field due to attack by pathogens and pests remains high, nutritional 
quality needs to be significantly improved and U.S. production value 
and export markets could certainly be enhanced. Genetic improvement of 
all the attributes of these valuable crops are at hand through the 
unique USDA lines and populations (i.e., germplasm) that are available 
and the new biotechnological methodologies that are being developed by 
the group. The achievement of these goals will involve the utilization 
of a wide range of biological diversity available in the germplasm 
collections for these crops. Classical plant breeding methods combined 
with bio-technological tools such as DNA marker-assisted selection and 
genome maps of cucumber, carrot and onion will be used to implement 
these genetic improvements. With this, new high-value vegetable 
products based upon genetic improvements developed by our USDA 
laboratories can offer vegetable processors and growers expanded 
economic opportunities for U.S. and export markets.
       u.s. food fermentation laboratory, raleigh, north carolina
    The USDA/ARS Food Fermentation Laboratory in Raleigh, NC is the 
major public laboratory that this industry looks to as a source for new 
scientific information on the safety of our products and development of 
new processing technologies related to fermented and acidified 
vegetables. Over the years, this laboratory has been a source for 
innovations which have helped this industry remain competitive in the 
current global trade environment. We expect the research done in this 
laboratory to lead to new processing and product ideas that will 
increase the economic value of this industry and provide consumers with 
safe, high quality, healthful vegetable products.
    We seek additional funding to support two new research initiatives 
for this laboratory that have substantial economic potential for our 
industry and health benefits for the American public. These are: (1) 
New approaches for pasteurization and application of microwave heat 
processing to acidified foods to achieve major improvements in the 
efficiency of energy utilization and reduction in water use while 
assuring safety and quality of products that require thermal 
processing; (2) development of techniques to deliver living pro-biotic 
microorganisms to consumers in fermented or acidified vegetable 
products.
    Nearly all pickled vegetables in the aisles of your super market 
are heated (pasteurized) so they are shelf stable at room temperature. 
Current steam and water bath pasteurizer technologies, which were 
developed in the 1940s and 1950s, have been very successful in that 
there as never been an outbreak of illness caused by commercially 
processed fermented or acidified vegetables. These older processing 
technologies are not very efficient in the use of energy or water 
resources, however. Our recent experience with soaring energy prices 
makes it clear that major improvements in the ways we heat process our 
products are required. There are three promising approaches that could 
benefit the broad range of products and sizes of companies that 
constitute the membership of PPI. First, is to develop practical ways 
to preheat and pack vegetables to reduce or even eliminate the 
residence time required in current pasteurizers. Secondly, is to adapt 
newer thermal processing technologies, particularly microwave heating, 
to our products. Thirdly, is to modify containers and product 
ingredients such that less heat and associated water use is required to 
assure killing of pathogenic bacteria and other spoilage 
microorganisms. Modifications of processes require strong scientific 
justification to assure ourselves, FDA, and the public that safety and 
quality will be maintained. In concert with any new processing 
technologies adequate process verification methods to assure process 
control and acceptance of our processes by FDA must be developed and 
validated. The objective will be to develop and transfer to the 
fermented and acidified vegetable industry new, scientifically 
validated energy efficient processing technologies that will assure the 
safety and quality of the products we make.
    Most of what we hear about bacteria in foods concerns the pathogens 
that cause disease. However, lactic acid bacteria are intentionally 
grown in fermented foods because they are needed to give foods like 
sauerkraut, yoghurt, cheeses, and fermented salami the characteristic 
flavors and textures that we desire. There is a growing body of 
research to indicate that certain living lactic acid bacteria are 
``pro-biotic'' in that they improve human health by remaining in the 
intestinal tract after they are consumed. Fermented or acidified 
vegetables may be a good way to deliver such pro-biotic bacteria to 
consumers. The objective will be to identify pro-biotic lactic acid 
bacteria that can survive in high numbers in selected vegetable 
products and investigate the potential for using vegetables as 
healthful delivery vehicles for pro-biotic organisms.
       sugar beet and bean research unit, east lansing, michigan
    New innovations and technology can help deliver high quality and 
healthy fruits and vegetables for consumers and assure secure food 
supply at home and abroad. It is critical that an effective quality 
inspection and assurance system be implemented for food crops 
throughout the handling steps between harvest and retail. While 
automated quality inspection systems are currently used in many pickle 
processing facilities, there exists considerable room for improving 
current technologies and developing new and more efficient sensors and 
automated inspection methods for pickling vegetables. Methods currently 
available for measuring and grading quality of cucumbers and other 
vegetables remain ineffective and time consuming. Labor required for 
postharvest handling and processing operations represents a significant 
portion of the total production cost. New and/or improved technologies 
are needed to assess, inspect and grade pickling cucumbers and pickles 
rapidly and accurately for internal and external quality 
characteristics so that they can be directed to, or removed from, 
appropriate processing or marketing avenues. This will minimize 
postharvest losses of food that has already been produced and ensure 
high quality, consistent final product and end-user satisfaction.
    The USDA/ARS Sugarbeet and Bean Research Unit at East Lansing, 
Michigan provides national leadership in research and development of 
innovative technologies and systems for assessing and assuring quality 
and marketability of tree fruits and pickling vegetables and enhancing 
production efficiency. It has developed a number of innovative 
engineering technologies for rapid, nondestructive measurement and 
inspection of postharvest quality of tree fruits and vegetables, 
including a novel spectral scattering technology for assessing the 
texture and flavor of fruits, a portable fruit firmness tester, and an 
optical property analyzing system for fruits and vegetables. Recently, 
an advanced hyperspectral imaging system was developed for automated 
detection of quality/defect of pickling cucumbers and pickles. Research 
at East Lansing will lead to new inspection and grading technology that 
will help the pickling industry in delivering high-quality safe 
products to the marketplace and achieving labor cost savings. 
Therefore, it is critical that additional resources be provided to 
support and expand the existing program to effectively address the 
technological needs for the pickling industry.
         u.s. vegetable laboratory, charleston, south carolina
    The research program at the USDA/ARS Vegetable Laboratory in 
Charleston, South Carolina, addresses national problems in vegetable 
crop production and protection with emphasis on the southeastern United 
States. This research program is internationally recognized for its 
accomplishments, which have resulted in development of over 150 new 
vegetable varieties and lines along with the development of many new 
and improved disease and pest management practices. This laboratory's 
program currently addresses 14 vegetable crops including those in the 
cabbage, cucumber, and pepper families, which are of major importance 
to the pickling industry. The mission of the laboratory is to (a) 
develop disease and pest resistant vegetable crops and (b) develop new, 
reliable, environmentally sound disease and pest management programs 
that do not rely on conventional pesticides.
    Continued expansion of the Charleston program is crucial. Vegetable 
growers depend heavily on synthetic pesticides to control diseases and 
pests. Cancellation and/or restrictions on the use of many effective 
pesticide compounds are having a considerable influence on the future 
of vegetable crop production. Without the use of certain pesticides, 
growers will experience crop failures unless other effective, non-
pesticide control methods are found quickly. The research on improved, 
more efficient and environmentally compatible vegetable production 
practices and genetically resistant varieties at the U.S. Vegetable 
Laboratory continues to be absolutely essential. This gives U.S. 
growers the competitive edge they must have to sustain and keep this 
important industry and allow it to expand in the face of increasing 
foreign competition. Current cucumber varieties are highly susceptible 
to a new strain of the downy mildew pathogen; this new strain has 
caused considerable damage to commercial cucumber production in some 
South Atlantic and Midwestern States during the past 5 years, and a new 
plant pathologist position needs to be established to address this 
critical situation.
                      funding needs for the future
    It remains critical that funding continues the forward momentum in 
pickled vegetable research that the United States now enjoys and to 
increase funding levels as warranted by planned expansion of research 
projects to maintain U.S. competitiveness. We also understand that 
discretionary funds are now used to meet the rising fixed costs 
associated with each location. Additional funding is needed at the 
Wisconsin and South Carolina programs for genetic improvement of crops 
essential to the pickled vegetable industry, and at North Carolina and 
Michigan for development of environmentally sensitive technologies for 
improved safety and value to the consumer of our products. The 
fermented and acidified vegetable industry is receptive to capital 
investment in order to remain competitive, but only if that investment 
is economically justified. The research needed to justify such capital 
investment involves both short term (6-24 months) and long term (2-10 
years or longer) commitments. The diverse array of companies making up 
our industry assumes responsibility for short-term research, but the 
expense and risk are too great for individual companies to commit to 
the long-term research needed to insure future competitiveness. The 
pickled vegetable industry currently supports research efforts at 
Wisconsin and North Carolina and anticipates funding work at South 
Carolina and Michigan as scientists are put in place. Donations of 
supplies and processing equipment from processors and affiliated 
industries have continued for many years.
U.S. Vegetable Laboratory, Charleston, South Carolina
    The newly constructed laboratory-office building at the U.S. 
Vegetable Laboratory was occupied in April 2003. Design of the 
accompanying greenhouse and head house was completed in July 2004. 
Construction of the head house was completed in 2006, and construction 
of the initial phase of the greenhouse complex was completed in early 
fall 2008. In fiscal year 2005, $2.976 million was appropriated for 
construction of greenhouses. In fiscal year 2006, an additional $1.980 
million was appropriated for construction of greenhouses, but an 
estimated $9.2 million is still needed to design and construct the 
final phases of the planned greenhouse complex. This new facility 
replaces and consolidates outmoded laboratory areas that were housed in 
1930s-era buildings and trailers. Completion of the total research 
complex will provide for the effective continuation and expansion of 
the excellent vegetable crops research program that has been conducted 
by the Agricultural Research Service at Charleston for over 70 years.
    New funds are needed to establish a plant pathology position to 
address cucumber diseases, especially the disease caused by a new 
strain of the downy mildew pathogen that has caused extensive damage to 
cucumber production in some South Atlantic and Midwestern States during 
the past 5 years. The plant pathologist is needed to characterize 
pathogen strains using molecular methodologies and to develop new 
management approaches and resistant cucumber lines. This new plant 
pathologist position will greatly contribute to the accomplishment of 
research that will provide for the effective protection of cucumbers 
from disease without the use of conventional pesticides. This position 
will require a funding level of $500,000 for its establishment.

------------------------------------------------------------------------
                                        Current status     Funds needed
------------------------------------------------------------------------
Construction:
    Greenhouse design..............  Needed.............        $700,000
    Greenhouse construction........  Needed.............       8,500,000
                                    ------------------------------------
        Design and Construction      ...................       9,200,000
         Funds Needed.
                                    ====================================
New scientific staff needed: plant   Needed.............         500,000
 pathologist (cucumber disease).
                                    ------------------------------------
        New Funds Needed...........  ...................         500,000
------------------------------------------------------------------------

Food Fermentation Laboratory, Raleigh, North Carolina
    The current funding for the laboratory is $1,264,000. To carry out 
the new research initiatives to reduce the energy and water use 
required to produce safe, high quality products and to develop systems 
to deliver pro-biotic lactic acid bacteria in acidified and fermented 
vegetable products, we request additional support for the Food 
Fermentation Laboratory of $300,000 in fiscal year 2011. This will 
provide support for Post-Doctoral or Pre-Doctoral research associates 
along with necessary equipment and supplies to develop these new areas 
of research.

------------------------------------------------------------------------
          Scientific staff              Current status     Funds needed
------------------------------------------------------------------------
Microbiologist.....................  Active.............        $316,000
Chemist............................  Active.............         316,000
Food Technologist/Biochemist.......  Active.............         316,000
Microbial Physiologist.............  Active.............         316,000
Fiscal Year 2011 Post-doctoral and   Needed.............         300,000
 Predoctoral Research Associate.
                                                         ---------------
      Total Funding Required.......  ...................       1,564,000
                                                         ---------------
Presidential Budget (Fiscal Year     ...................       1,264,000
 2011).
                                                         ---------------
New Funds Needed...................  ...................         300,000
------------------------------------------------------------------------

Vegetable Crops Research Laboratory Unit, Madison, Wisconsin
    Current base funding for three scientists is $889,600, of which 
$200,000 was added in fiscal year 2002. Emerging diseases, such as 
downy mildew of cucumber, threaten production of the crop in all 
production areas. Therefore, we request an additional $270,400 to fully 
fund the scientists and support staff in fiscal year 2011, including 
graduate students and post-doctorates for new research searching for 
genetic resistance to emerging diseases.

------------------------------------------------------------------------
     Scientific staff in place          Current status     Funds needed
------------------------------------------------------------------------
Geneticist.........................  Active.............        $320,000
Geneticist.........................  Active.............         320,000
Geneticist.........................  Active.............         320,000
Fiscal Year 2011 Post-doctoral or    Needed.............         200,000
 Predoctoral Research Associates.
                                                         ---------------
      Total Funding Required.......  ...................       1,160,000
                                                         ---------------
Presidential Budget (Fiscal Year     ...................         889,600
 2011).
                                                         ---------------
New Funds Needed...................  ...................         270,400
------------------------------------------------------------------------

Sugar Beet and Bean Research Unit, East Lansing, Michigan
    Current base funding for the location is $190,000, which is far 
short of the funding level needed to carry out research on inspection, 
sorting and grading of pickling cucumbers and other vegetable crops to 
assure the processing and keeping quality of pickled products. An 
increase of $550,000 in the current base funding level would be needed 
to fund the research engineer position.

------------------------------------------------------------------------
     Scientific staff in place          Current status     Funds needed
------------------------------------------------------------------------
Postdoctoral Research Associate....  Active.............        $190,000
Research Engineer..................  Needed.............         550,000
                                                         ---------------
      Total Funding Required.......  ...................         740,000
                                                         ---------------
Current Funding....................  ...................         190,000
                                                         ---------------
New Funds Needed...................  ...................         550,000
------------------------------------------------------------------------

    Thank you for your consideration and expression of support for the 
USDA/ARS.
                                 ______
                                 

         Prepared Statement of the Red River Valley Association

    Mr. Chairman and members of the subcommittee, I am Wayne Dowd, and 
I am pleased to represent the Red River Valley Association as its 
President. Our organization was founded in 1925 with the express 
purpose of uniting the citizens of Arkansas, Louisiana, Oklahoma and 
Texas to develop the land and water resources of the Red River Basin.
    The Resolutions contained herein were adopted by the Association 
during its 85th Annual Meeting in Bossier City, Louisiana on February 
18, 2010, and represent the combined concerns of the citizens of the 
Red River Basin Area as they pertain to the goals of the Association.
    As an organization that knows the value of our precious water 
resources we support the most beneficial water and land conservation 
programs administered through the Natural Resources Conservation 
Service (NRCS). We understand that attention and resources must be 
given to our national security and alternate energy sources; however, 
we cannot sacrifice what has been accomplished on our Nation's lands. 
NRCS programs are a model of how conservation programs should be 
administered and our testimony will address the needs of the Nation as 
well as our region.
    We want to express our appreciation for the funding levels provided 
by Congress in the fiscal year 2010 Appropriation Bill. Your plus up 
over the Administration's budget of $20.4 million in Conservation 
Operations was welcomed. More important was the funding you provided 
for Watershed & Flood Prevention Operations ($30 million) and RC&D 
($50.7 million) when the Administration `zeroed' out those programs.
    What concerns us the most is the lack of water resource planning 
funding. If we are experiencing serious water issues across our Nation 
today what will we face when our Nation's population is expected to 
double in 50 years? As urban development spreads out into our urban 
areas we will lose water resources and agricultural lands. What will we 
do for drinking water and irrigation? If we started planning for this 
scenario today we would not be prepared in 50 years. No one is planning 
or preparing for this expected growth and future demands on our water 
needs. Water and food supply are a matter of national security. It is 
inconceivable that we would consider outsourcing our water and food, 
more than we do now. We request that Congress fund the NRCS planning 
accounts and reenergize the planning process to preserve our national 
independence on our food and water resources.
    1. Conservation Operations.--This account has been in steady 
decline, in real dollars, over the past several years. Mandated 
increases in pay and benefits, continuing increases in the ``cost of 
doing business' and budget reductions greatly reduces the effective 
work that can be accomplished in this account. Allocations should be 
increased not decreased and we acknowledge and appreciate that Congress 
did increase this account in fiscal year 2010 from fiscal year 2009.
    We request a total of $950 million be appropriated for Conservation 
Operations for NRCS to meet the demands it faces today.
    Conservation Technical Assistance is the foundation of technical 
support and a sound, scientific delivery system for voluntary 
conservation to the private users and owners of lands in the United 
States. It is imperative that we provide assistance to all ``working 
lands'' not just those fortunate few who are able to enroll in a 
Federal program. Working lands are not just crops and pasture 
(commodity staples) but includes forests, wildlife habitat and coastal 
marshes. The problem is that NRCS personnel funded from``mandatory 
programs'' can only provide technical assistance to those enrolled in 
these programs, leaving the majority of the agricultural community 
without technical assistance. We recommend that adequate funding be 
placed in ``Conservation Technical Assistance'', and allow NRCS to 
provide assistance to all who are in need of assistance.
    2. Watershed and Flood Prevention Operations (Public Law 566 and 
534).--There is no doubt that this is a Federal responsibility, in 
conjunction with a local sponsor. This program addresses all watersheds 
needs to include: flood protection, water quality, water supply and the 
ecosystem. There is no Corps of Engineer, Bureau of Reclamation or FEMA 
program to address small watershed needs, before disaster strikes. We 
recommend that Congress continue to hold oversight hearings to 
understand the importance and hear how popular this program is to our 
communities.
    Over the past 50 years these projects have developed a $15 billion 
infrastructure that is providing $1.5 billion in annual benefits to 
over 47 million people. It is not a Federal program, but a federally 
assisted program. This partnership between local communities, State 
agencies and NRCS has been successful for over 50 years. It would take 
$1.6 billion to fund the existing Federal commitment to local project 
sponsors. This cost only increases every year if adequate funding is 
not provided.
    All ongoing contracts will be terminated, if you allow this program 
to end. This will ultimately lead to lawsuits and tort claims filed by 
both sponsors and contractors, due to the Federal Government not 
fulfilling its contractual obligation.
    We are very appreciative for the funding level of $30 million 
enacted in fiscal year 2010 ($5.7 m more than fiscal year 2009). For 
every $1 spent, the Nation realizes $2 in benefits. Congress must take 
responsibility for this program.
    There are many new projects, which are awaiting funds for 
construction under this program. We strongly recommend that a funding 
level of $75 million be appropriated for Watershed Operations Programs, 
Public Law 534 ($20 million) and Public Law 566 ($55 million).
    The Red River has proven, through studies and existing irrigation, 
to be a great water source for ``supplemental'' irrigation. The two 
projects mentioned below, will use existing, natural bayous to deliver 
water for landowners to draw from. The majority of expense will be for 
the pump system to take water from the Red River to the bayous. These 
projects will provide the ability to move from ground water dependency 
to surface water, an effort encouraged throughout the Nation. Both will 
enhance the environmental quality and economic vitality of the small 
communities adjacent to the projects.
    a. Red Bayou Irrigation Project, LA.--This project has received 
funding from the 2010 `Stimulus' package. The State of Louisiana 
provided the required cost share ($1.1 million) to move forward with 
construction. It is not only a very important irrigation project for NW 
Louisiana, but will serve as a model for similar projects throughout 
the State and along the Red River in Arkansas.
    b. Walnut Bayou Irrigation Project, AR.--Plans and specifications 
have been completed and it is ready to proceed into the construction 
phase. An irrigation district has been formed and they are prepared to 
take on the responsibility to generate the income for the O&M required 
to support this project. We request that $4,000,000 be appropriated for 
these projects in fiscal year 2011.
    3. Watershed Rehabilitation.--More than 10,400 individual watershed 
structures have been installed nationally, with approximately one-third 
in the Red River Valley. They have contributed greatly to conservation, 
environmental protection and enhancement, economic development and the 
social well being of our communities. More than half of these 
structures are over 30 years old and several hundred are approaching 
their 50-year life expectancy. Today you hear a lot about the watershed 
approach to resource management. They protect more people and 
communities from flooding now than when they were first constructed. 
The benefit to cost ratio for this program has been evaluated to be 
2.2:1. What other Federal program can claim such success?
    In the next 5 years over 900 watershed structures will require over 
$570 million for rehabilitation. Each year this number increases as 
more dams reach their 50-year life. There is no questioning the value 
of this program. The cost of losing this infrastructure exceeds the 
cost to reinvest in our existing watersheds. Without repairing and 
upgrading the safety of existing structures, we miss the opportunity to 
keep our communities alive and prosperous. It would be irresponsible to 
dismantle a program that has demonstrated such great return and is 
supported by our citizens. We cannot wait for a catastrophe to occur, 
where life is lost, to decide to take on this important work.
    Past Administration budgets have neglected the safety and well 
being of our community needs and recommended minimum funding for this 
program. Appropriations have been drastically lower than the levels 
authorized in the 2002 Farm Bill, which authorized $600 million for 
rehabilitation for 2003-2007.
    We request that $65 million be appropriated to provide financial 
and technical assistance to those watershed projects where sponsors are 
prepared (35 percent cost share) to commence rehabilitation.
    4. Watershed Survey and Planning.--In fiscal year 2006, $6.1 
million was appropriated to support this extremely important community 
program. However, no funding has been provided since fiscal year 2007. 
NRCS has become a facilitator for the different community interest 
groups, State and Federal agencies. In our States such studies are 
helping identify resource needs and solutions where populations are 
encroaching into rural areas. The Administration and Congress has 
decided not to fund this program. We disagree with this and ask 
Congress to fund this program at the appropriate level.
    Proper planning and cooperative efforts can prevent problems and 
insure that water resource issues are addressed. Zeroing out the 
planning process assumes the economy will not grow and there is no need 
for future projects. We do not believe anyone supports or believes 
this. Another serious outcome is that NRCS will lose its planning 
expertise, which is invaluable.
    We request this program be funded at a level of $35 million.
    We request that the following two studies be specifically 
identified and funded in the fiscal year 2010 appropriation bill.
    a. Maniece Bayou Irrigation Project, AR.--This is a project in its 
initial stage of planning. An irrigation district is being formed to be 
the local sponsor. This project transfers water from the Red River into 
Maniece Bayou where landowners would draw water for supplemental 
irrigation. We request that $200,000 be appropriated to initiate the 
plans and specifications.
    b. Lower Cane River Irrigation Project, LA.--The transfer of water 
from the Red River to the Lower Cane River will provide opportunities 
for irrigation and economic development. Funds are needed to initiate a 
Cooperative River Basin Study. We request that $250,000 be appropriated 
for this study.
    5. Resource Conservation and Development (RC&D).--This has 
traditionally been a well-received program by the Administration, but 
not last year. The budget proposal zeroed out this important program. 
This program leverages its resources at 4 to 1, with communities, local 
sponsors and non-government organizations. The benefits are realized at 
over 14 to 1, average per project. Congress showed how important they 
believe this program is by providing $50.7 million in fiscal year 2010. 
We do not agree with the current Administration eliminating this 
program and request Congress continue its support for this program.
    We request that $51 million be appropriated for this program, at 
the same level as in fiscal year 2010.
    6. Mandatory Accounts (CCC) Technical Assistance (TA).--Request for 
assistance through the CCC programs has been overwhelming. Requests far 
exceed the available funds and place an additional workload on NRCS's 
delivery system. Adequate funding for TA must be provided at the full 
cost for program delivery. This includes program administration, 
conservation planning and contracting with each applicant. Congress, in 
the 2002 Farm Bill, wisely increased conservation programs each year. 
This increased investment, will increase the NRCS workload. It is 
imperative that NRCS receive the TA funding levels required to 
administer these programs. If they do not receive full funding these 
programs will not realize their full capability.
    It has been mandated that a set percent of TA, from the CCC 
Program, must be used for TSPs. This is equivalent to losing 600 staff 
years from NRCS manpower. This is another unacceptable policy, which 
will reduce the effectiveness of NRCS. This mandate must be eliminated.
    Over 70 percent of our land is privately owned. This is important 
in order to understand the need for NRCS programs and technical 
assistance. Their presence is vital to ensuring sound technical 
standards are met in conservation. These programs not only address 
agricultural production, but sound natural resource management. Without 
these programs and NRCS properly staffed to implement them, many 
private landowners will not be served adequately to apply conservation 
measures needed to sustain our natural resources for future 
generations. Technical Assistance cannot be contracted out to private 
companies.
    We are all aware of the issue with TMDL levels in our waterways. If 
our Nation is to seriously address this we must look at the impacts 
from our farmlands. Assistance for land treatment plans and plan 
implementation is exactly what the NRCS Watershed programs are intended 
to address. Watershed programs should be receiving an increase in 
funds, not eliminated.
    With these new clean water initiatives why do we ignore the Agency 
that has a proven record for implementing watershed conservation 
programs? Congress must decide; will NRCS continue to provide the 
leadership within our communities to build upon the partnerships 
already established? It is up to Congress to insure NRCS is properly 
funded and staffed to provide the needed assistance to our taxpayers 
for conservation programs.
    These NRCS studies and watershed projects are an example of true 
``cooperative conservation'' initiatives. There is an interface with 
communities and local sponsors at each step of the process and local 
sponsors do cost share at the levels expected of them.
    All these programs apply to the citizens in the Red River Valley 
and their future is our concern. The RRVA is dedicated to work toward 
the programs that will benefit our citizens and provide for high 
quality of life standards. We therefore request that you appropriate 
the requested funding within these individual programs, to insure our 
Nation's conservation needs are met.
    I thank you for the opportunity to present this testimony on behalf 
of the members of the Red River Valley Association and we pledge our 
support to assist you in the appropriation process.
    Grant Disclosure: The Red River Valley Association has not received 
any Federal grant, sub-grant or contract during the current fiscal year 
or either of the two previous fiscal years.
                                 ______
                                 

     Prepared Statement of the Rocky Mountain Climate Organization

    This statement is being submitted on behalf of the following 
representatives of government agencies, water providers, and 
organizations with a stake in Colorado's water future: Nolan Doesken, 
Colorado State Climatologist; Eric Kuhn, General Manager, Colorado 
River Water Conservation District; David Little, Director of Planning, 
Denver Water; Brett Gracely, Water Resource Planning Supervisor, 
Colorado Springs Utilities; Brad Udall, Director, CU-NOAA Western Water 
Assessment; Stephen Saunders, President, Rocky Mountain Climate 
Organization; Joel Smith, Principal, Stratus Consulting; Drew Beckwith, 
Water Policy Analyst, Western Resource Advocates; and Drew Peternell, 
Director, Trout Unlimited's Colorado Water Project.
    Specifically, we respectfully request your consideration of 
inclusion of additional fiscal year 2011 funding for the following 
programs:
  --Department of Agriculture, Natural Resources Conservation Service, 
        Snowpack Telemetry Program;
    --Additional monitoring stations--$2,275,000, and for fiscal year 
            2012 and years beyond, $260,000 per year for recurring 
            annual operations and maintenance costs.
    --Soil moisture and sublimation instrumentation--$650,000, and for 
            fiscal year 2012 and years beyond, $520,000 per year for 
            recurring annual operations and maintenance costs.
  --Department of Agriculture, Colorado Agricultural Meteorological 
        Network (CoAgMet) evapotranspiration monitoring, line item to 
        be determined--$335,000 and for fiscal year 2012 and years 
        beyond, $195,000 per year for recurring annual operations and 
        maintenance costs.
    Since 2007 our organizations, and others in Colorado, have been 
collaborating on strategies to prepare for the changes that scientists 
have identified as the likely impacts of climate change on Colorado's 
most critical natural resource--the water resources that enable our 
people, commerce, and natural systems to thrive. Key to our ability in 
Colorado, and across the West, to understand and adapt to the effects 
of climate change on water supplies will be good information on what 
changes are occurring with respect to such key elements as 
temperatures, precipitation, snowpack, the timing of snowmelt, 
streamflows, and soil moisture. The data collection systems that 
currently exist to gather this information were not designed to track 
changes in climate, and so are incomplete to meet today's needs. Many 
of the programs for collecting and disseminating these data have 
deteriorated or have been diverted over the last quarter-century, with 
the result that many long-term climate and streamflow records have been 
interrupted.
    The additional climate/water monitoring needs we identify are for 
systems in Colorado and the Upper Colorado River Basin, but they are 
needed for national reasons, as well. The State of Colorado supplies 70 
to 75 percent of the water in the Colorado River. About 30 million 
Americans, or about one-tenth of all Americans, living in seven 
States--Arizona, California, Colorado, Nevada, New Mexico, Utah, and 
Wyoming--depend on Colorado River water. The largest city in each of 
those seven States depends on Colorado River water. Twenty-two of the 
32 largest cities in those seven States depend on Colorado River water. 
Fifteen percent of the Nation's crops and 13 percent of the Nation's 
livestock depend on Colorado River water. Some of the Nation's most 
spectacular natural resources, including our largest concentration of 
national parks, depend on Colorado River water.
    Yet scientists consistently tell us that a changed climate is 
likely to reduce the flow of the Colorado River. As this is already the 
most over-allocated river in the Nation, this presents a challenge of 
great national significance.
    No less important to those who depend on them are the other rivers 
that originate in Colorado, including the Rio Grande, Arkansas, and 
North and South Platte rivers, which supply additional millions of 
Americans not just in our State but in downstream States. These rivers, 
too, may be substantially affected by the hotter and drier conditions 
projected to result in the interior West from a changed climate.
    To be able to address these challenges, we have a pressing, 
critical need to know more than we now do about our water resources and 
how they may be affected over time. That is the purpose of our proposal 
for relatively modest increases in these key budget accounts:
  --Department of Agriculture, Natural Resources Conservation Service 
        (NRCS), Snow Telemetry (SNOTEL) stations
    --NRCS installs, operates, and maintains SNOTEL--an extensive, 
            automated system designed to collect snowpack and related 
            climatic data in the Western United States and Alaska. 
            There is widespread desire for more SNOTEL stations in the 
            Upper Colorado River basin, to provide a stronger basis for 
            seasonal runoff forecasts. Climate change and its effects 
            on the distribution of snow pack with elevation is also a 
            concern among water managers in the basin. The installation 
            of SNOTEL stations to provide a transect across the 
            topographic gradient is required to better understand this 
            phenomenon. While there have been some new installations 
            made recently in watersheds of the Blue, Fraser, and 
            Gunnison Rivers, an additional 65 stations are needed in 
            the Upper Colorado River Basin to augment the existing 117 
            stations.
        Our funding request: SNOTEL stations cost approximately $35,000 
            to install, and $4,000 per year thereafter to operate and 
            maintain. Our fiscal year 2011 request is for $2,275,000 to 
            fund station installation costs, and for fiscal year 2012 
            and years beyond, $260,000 per year for annual recurring 
            operations and maintenance costs.
    --There is also a widespread perception among water managers that 
            seasonal runoff volumes in recent years have not been 
            commensurate with observed snow pack accumulations. 
            Consequently, there is a desire for greater insight into 
            the physical processes governing the fate of the snow pack, 
            with particular interest in sublimation and soil moisture 
            as potential explanatory factors. Unfortunately, these 
            processes are observed to a very limited extent, leading to 
            the suggestion that SNOTEL stations be fitted with 
            additional instrumentation to measure soil moisture and 
            atmospheric variables governing sublimation (radiation, 
            wind, humidity, etc).
        Our funding request: Cost of installation of these instruments 
            runs around $10,000 per site. While O&M of soil moisture 
            instruments is not high, the atmospheric sensors do require 
            significant ongoing care. The estimated cost to maintain 
            SNOTEL stations with these additional instruments is $8,000 
            per year. Our fiscal year 2011 request is for $650,000 to 
            fund installation of instruments, and for fiscal year 2012 
            and years beyond, $520,000 per year to fund recurring 
            annual operations and maintenance costs.
  --Department of Agriculture, Colorado Agricultural Meteorological 
        Network (CoAgMet) evapotranspiration monitoring, line item to 
        be determined
        This request falls outside of the auspices of the Upper 
        Colorado River Basin, but is critical for ensuring adequate 
        climate monitoring over Colorado's agricultural lands. In 
        collaboration with several Federal, State and local 
        organizations, CoAgMet was established as a specialized 
        monitoring network 20 years ago. CoAgMet currently consists of 
        60 stations and is designed to provide meteorological and 
        climatological information most needed for agricultural 
        production, research and planning. This network is particularly 
        well suited for estimating and tracking evapotranspiration (ET) 
        from irrigated croplands. With nearly 20 years of data, the 
        network is just now getting to the point where analyses to 
        detect trends are feasible. Projected changes in Colorado 
        temperatures will likely cause changes in ET and it is critical 
        that we have the capabilities to track this over time.
        Colorado State government's ongoing budget challenges are 
        forcing it to downsize this network by as much as 50 percent by 
        the end of 2010. This is a very serious matter. Prior to the 
        economic downturn, there was an identified need for 22 
        additional observing sites in eastern Colorado plus six sites 
        in the irrigated valleys of western Colorado to better track 
        climatic conditions (wind, humidity, solar energy, soil 
        temperature, etc.) affecting agriculture. The cost of 
        purchasing and installing a new station is approximately 
        $10,000. Annual maintenance costs are $2,000-$2,500/year per 
        station depending on location. There is also an interest in 
        soil moisture monitoring over Colorado's dryland agricultural 
        areas. Instrumentation could be added to the CoAgMet stations 
        in non-irrigated environments to meet this need at a cost of 
        $2,500 per site.
        Our funding request: Our fiscal year 2011 request to complete 
        the CoAgMet network is $335,000 ($280,000 for hardware and 
        installation of new stations, plus $55,000 for soil moisture 
        instrumentation in the 22 new stations in eastern Colorado). 
        For fiscal year 2012 and years beyond, our request is for 
        $195,000 per year in recurring annual operations and 
        maintenance costs.
    We would welcome the opportunity to discuss these requests further, 
and stand ready to supply additional information as needed.
                                 ______
                                 

            Letter From the San Diego County Water Authority

                                                    March 26, 2010.
Hon. Herb Kohl, 
Chairman, Subcommittee on Agriculture, Rural Development, Food and Drug 
        Administration, and Related Agencies, Washington, DC.

Re: Support for Fiscal Year 2011 Federal Funding of At Least $20 
        Million for the U.S. Department of Agriculture's Environmental 
        Quality Incentives Program for the Colorado River Basin 
        Salinity Control Program
    Dear Chairman Kohl: Your support is needed to secure adequate 
funding for the U.S. Department of Agriculture's Colorado River Basin 
Salinity Control Program for fiscal year 2011. This program has 
implemented important salinity control projects for the Colorado River 
since 1974, benefiting water users from seven States through more 
efficient water management and reduced salinity concentrations in 
Colorado River water. To continue this work, the Water Authority urges 
the USDA's salinity control program be funded at least $20 million for 
fiscal year 2011.
    The Colorado River is the primary source of drinking water for more 
than 3 million people in San Diego County. Excess salinity causes 
economic damages in the San Diego region worth millions of dollars 
annually. It also hinders local water agency efforts to stretch limited 
supplies by recycling and reusing water. The local impacts of excess 
salinity include:
  --reduced crop yields for farmers, who produce more than $1 billion 
        of agricultural products in the San Diego region;
  --the reduced useful life of commercial and residential water pipe 
        systems, water heaters, faucets, garbage disposals, clothes 
        washers, and dishwashers;
  --the increased household use of expensive bottled water and water 
        softeners;
  --increased water treatment facility costs;
  --difficulty meeting Federal and California wastewater discharge 
        requirements; and
  --fewer opportunities for water recycling due to excess salt in the 
        product water, which limits usefulness for commercial and 
        agricultural irrigation.
    The Colorado River Basin Salinity Control program has proven to be 
a very cost-effective approach to mitigate the impacts of increased 
salinity in the Colorado River. Continued Federal funding of this 
important program is essential. The Colorado River is the single most 
important source of water for the San Diego region, as well as the rest 
of the seven-State Colorado River Basin. Maintenance of the river's 
water quality through an effective salinity control program is an 
investment that avoids millions of dollars in economic damages caused 
by excess salinity.
    The Colorado River Basin Salinity Control Advisory Council has 
recommended that the USDA salinity control effort be funded at least 
$20.0 million annually. The Water Authority supports the Forum's 
recommendation and urges this Subcommittee to support this level of 
funding for 2011. The Water Authority would appreciate your assistance 
in securing adequate funding for this important effort.
            Sincerely,
                                      Maureen A. Stapleton,
                                                   General Manager.
                                 ______
                                 

  Prepared Statement of the Society for Women's Health Research (SWHR)

    On the behalf of the Society for Women's Health Research (SWHR) and 
the Women's Health Research Coalition (WHRC), we are pleased to submit 
testimony in support of increased funding for the Food and Drug 
Administration (FDA) to $2,857 billion for fiscal year 2011, and 
specifically support increased funding for the Office of Women's Health 
(OWH), a critical focal point on women's health within the Agency.
    Founded in 1990, SWHR brought to national attention the need for 
the appropriate inclusion of women in major medical research studies 
and the need for more information about conditions affecting women 
exclusively, disproportionately, or differently than men. SWHR 
advocates increased funding for research on women's health; encourages 
the study of sex differences that may affect the prevention, diagnosis 
and treatment of disease; promotes the inclusion of women in medical 
research studies; and informs women, providers, policy makers and media 
about contemporary women's health issues.
    In 1999, the WHRC was established by SWHR to give a voice to 
scientists and researchers from across the country that are concerned 
and committed to improving women's health research. WHRC now has more 
than 650 members, including leaders within the scientific community and 
medical researchers from many of the country's leading universities and 
medical centers, as well as leading voluntary health associations, and 
pharmaceutical and biotechnology companies.
    SWHR and WHRC are committed to advancing the health status of women 
through the discovery of new and useful scientific knowledge. 
Appropriate funding of the FDA by Congress is critical for the Agency 
to function and to assure the American public of the safety of its food 
and drugs. Good investments have been made in recent years that are 
helping to restore the FDA's resources; however, the FDA is endeavoring 
to catch up after years of flat funding to meet the needs of scientific 
growth, innovation and development, and adequate food and drug 
protection. Further, FDA is struggling to catch up to present-day needs 
in the area of information technology (IT).
    Past investments in the FDA, as well as the budget increases 
secured under Representative DeLauro's leadership, have undoubtedly 
helped the FDA continue to meet--to varying degrees--the numerous 
responsibilities assigned to it. What remain to be seen are what 
advancements in medicine and what protections to the Nation's food and 
drug supply are jeopardized by the FDA budget barely matching inflation 
year after year. With over 80 percent of FDA's budget going toward its 
scientists and staff, one must consider the impact of not investing in 
the human collateral that makes the FDA and the United States the world 
leaders in drug and food safety. Until sound investments are made in 
the FDA's scientists, training, and infrastructure, it will be forced 
to keep ``hanging on by its fingernails''--acting in a reactionary way 
against the threats to food and drug security and lacking the resources 
to foster a new culture of proactive science and research leadership.
    SWHR recognizes the need to control discretionary spending; 
however, the strength of the FDA must be a public priority. The 6 
percent increase in President Obama's budget request is a good start, 
but SWHR urges Congress to provide the FDA with an increase of $495 
million over fiscal year 2010 and $350 million more than the 
Administration's request, bringing the FDA's fiscal year 2011 budget to 
a proposed $2,857 billion. This funding increase will allow the FDA to 
continue rebuilding its infrastructure and addressing the shortage of 
resources was well as building on the catch up effort on IT systems 
that will match the needs of the industries it is regulating and 
expectations of the American public. From promoting wellness and 
meeting healthcare needs to protecting the food supply, the FDA touches 
each American each day. We risk jeopardizing the important work they do 
through underfunding.
    Further, key investment that must be taken into account at the FDA 
is the Office of Women's Health (OWH). OWH's women's health programs, 
often conducted with the Agency centers, are vital to maintaining focus 
on women's health within the FDA. They are critical to improved care 
and increased awareness of disease-specific impacts to women. For 
example, OWH ensures that sex and gender differences in the efficacy of 
drugs (such as metabolism rates), devices (sizes and functionality) and 
diagnostics are taken into consideration in reviews. To address OWH's 
growing list of priorities, the Society recommends that Congress 
support an additional $2 million budget for OWH for fiscal year 2011 
within the budget for the FDA. In addition, we further recommend that 
the current budget levels not only increase in the future, but should 
never be less than the $6 million that the office currently receives.
                   fda information technology systems
    The FDA is tasked with guarding the safety, efficacy, and security 
of human drugs, biological products, and medical devices. However, as 
was stated by the 2007 Science Board Report, requested by former 
Commissioner von Eschenbach, FDA's IT systems were inefficient and 
incapable of handling the current demands placed on the Agency, thus 
preventing the FDA from fulfilling its mission. Equipment still remains 
outdated, often unsupported by maintenance, and regularly breaks down. 
Some computer experts are being brought back out of retirement to 
service the systems now too old to be corrected by current FDA 
employees. FDA's IT system, a system which needs to function 24/7, 
simply cannot keep up with current scientific data, new technology, and 
technological advances (such as nanotechnology), as well as market 
trends. This will only continue to worsen.
    Additionally, the on-going discussion on an overhaul of the 
Nation's healthcare system again brought to light poor IT systems as a 
recurring source of medical errors and financial and personal losses. 
Comprehensive or piecemeal reform efforts are likely to include further 
advances to electronic health records and other innovations which will 
place an even greater burden on the FDA, among other agencies, to 
function within those advanced IT systems and networks.
    The antiquated nature of the current IT systems also makes the FDA 
unable to keep up appropriately in safety analyses, tracking the 
natural history and disease models for rare disorders, or accessing 
huge amounts of clinical data and emerging trends. The creation of a 
central database would provide a centralized repository for all 
relevant facts about a certain product including where, when and how 
the product was made. Such a uniform and centralized database will be 
relevant for all information stored across agencies, so as to maximize 
functionality not only of FDA's data but for any other research and 
analysis needed by the American public for safety and surveillance.
    Currently, the FDA receives large volumes of information for review 
and evaluation in applications from drug manufacturers. FDA reviewers 
must manually comb through the submitted drug trial reports and digital 
data in as many as 12 different formats when evaluating a new drug's 
safety and effectiveness. Frequently, reviewers must handpick data 
manually from stacks of paper reports and craft their own data 
comparisons. This process is time consuming, makes the review process 
less efficient, more error-prone, and ultimately delays access to 
important information. Scientific and medical advances are occurring 
rapidly and the public needs and deserves access to the most recent and 
accurate information regarding their health. It is time Congress 
enables the FDA to utilize up-to-date information technology.
    SWHR believes that the FDA and it's Office of Women's Health should 
be able to track women or men and other subpopulations in all clinical 
trials being monitored and they are currently not able to do so. The 
FDA should be able to know how many women are in studies, both by 
recruitment and retention rates. This should be an immediate goal of 
any new IT system upgrade at the FDA, in conjunction with the adoption 
of uniform data standards from which to pull the data and as part of 
the shift to a fully automated, electronic filing system.
                        office of women's health
    OWH at the FDA, established in 1994, plays a critical role in 
women's health, both within and outside the Agency, supporting sex- and 
gender-based research, areas in which SWHR has long been a proponent. 
OWH provides scientific and policy expertise on sex and gender 
sensitive regulatory and oversight issues; endeavors to correct sex and 
gender disparities in the areas for which the FDA is responsible--
drugs, devices, and biologics. OWH also monitors women's health 
priorities, providing both leadership and an integrated approach to 
problem solving across the FDA. Despite inadequate funding, OWH 
continues to provide women with invaluable tools for their health.
    Each year OWH, with little difficulty, exhausts its tiny budget. 
OWH's pamphlets are the most requested of any documents at the 
government printing facility in Colorado. In 2009, more than 5.2 
million pamphlets were distributed to women across the Nation, 
including target populations such as Hispanic communities, seniors and 
low-income citizens. Since its creation, OWH has awarded $21.7 million 
in research funds. Last year, two of OWH's intramural research projects 
were recognized by the Senate Excellence in Aging Research Committee 
Report as exemplary research performed by departments and agencies 
within the Federal government that seeks to advance the well-being of 
older Americans. Despite the $1 million increase the office received 
last year, additional funding is needed so OWH may continue its present 
work on current projects, but also expand and develop future projects.
    It is absolutely critical for Congress to take action now to help 
preserve the vital functions of OWH and to ensure that its small budget 
is dedicated to the resource needs of the office and to the projects, 
programs, and research it funds.
    Since its beginning, OWH has funded high quality scientific 
research to serve as the foundation for FDA activities that improve 
women's health. Since 1994, OWH has funded approximately 195 research 
projects with approximately $15.7 million in intramural grants, 
supporting projects within the FDA that address knowledge gaps or set 
new directions for sex and gender research. All contracts and grants 
are awarded through a competitive process. A large number of these 
studies are published and appear in peer reviewed journals.
    As part of its educational outreach efforts to consumers, OWH works 
closely with women's advocacy and health professional organizations to 
provide clarity on the results of the Women's Health Initiative. Due to 
OWH efforts, an informational fact sheet about menopause and hormones 
and a purse-sized questionnaire to review with the doctor were 
distributed to national and local print, radio, and Internet 
advertisers.
    Further, OWH's Web site serves as a vital tool for consumers and is 
regularly updated to include new and important health information. The 
Web site provides free, downloadable fact sheets on over 100 different 
illnesses, diseases, and health related issues for women. OWH has 
created medication charts on several chronic diseases, listing all the 
medications that are prescribed and available for each disease. This 
information is ideal for women to use in talking to their doctors, 
pharmacists, or nurses about their treatment options. They have also 
collaborated with Pharmacy Choice, Inc. to create a Web portal solely 
dedicated to FDA consumer health education materials, providing access 
to fact sheets and medication guides. In keeping with current 
technology trends, OWH has used social media networks like twitter to 
reach out to consumers.
OWH and Sex Differences Research
    Scientists have long known of the anatomical differences between 
men and women, but only within the past decade have they begun to 
uncover significant biological and physiological differences. Sex 
differences have been found everywhere from the composition of bone 
matter and the experience of pain, to the metabolism of certain drugs 
and the rate of neurotransmitter synthesis in the brain. Sex-based 
biology, the study of biological and physiological differences between 
men and women, has revolutionized the way that many in the scientific 
community view the sexes, with even more information forthcoming as a 
result of the sequencing of the X chromosome. The evidence is 
overwhelming, and as researchers continue to find more and more complex 
biological differences, they gain a greater understanding of the 
biological and physiological composition of both sexes.
    Much of what is known about sex differences is the result of 
observational studies, or is descriptive evidence from studies that 
were not designed to obtain a careful comparison between females and 
males. SWHR has long recognized that the inclusion of women in study 
populations by itself was insufficient to address the inequities in our 
knowledge of human biology and medicine, and that only by the careful 
study of sex differences at all levels, from genes to behavior, would 
science achieve the goal of optimal healthcare for both men and women. 
Many sex differences are already present at birth, whereas others 
develop later in life. These differences play an important role in 
disease susceptibility, prevalence, time of onset, and severity and 
have documented roles in cancer, obesity, heart disease, immune 
dysfunction, mental health disorders, and other illnesses. 
Physiological differences and hormonal fluctuations may also play a 
role in the rate of drug absorption, distribution, metabolism, 
elimination as well as ultimate effectiveness of response in females as 
opposed to males. This vital research is supported and encouraged by 
the OWH, working directly with the various centers to advance the 
science in this area, collaborating on programs, projects, and 
research.
    Our country's drug development process has succeeded in delivering 
new and better targeted medications to ensure the health of both women 
and men. However, the requirement that the data acquired during 
research of a new drug's safety and effectiveness be analyzed as a 
function of sex is generally not enforced. Information about the ways 
drugs may differ in various populations (e.g., women requiring a lower 
dosage because of different rates of absorption or chemical breakdown) 
are often not explored, or female enrollment in studies is too low to 
adequately power results, and as a result this vital information 
continues to not be included in prescription drug labels and other 
patient educational and instructional materials.
    SWHR believes that the opportunity to present this information to 
consumers exists now. Sex differences data discovered from clinical 
trials can be directly relayed to the medical community and to 
consumers through appropriate education, drug labeling and packaging 
inserts, and other forms of alerts directed to key audiences. As part 
of advancing the need to analyze and report sex differences, SWHR 
encourages the FDA to continue addressing the need for accurate, sex-
specific drug labeling to better serve male and female patients, as 
well as to ensure that appropriate data analysis of post-market 
surveillance reporting for these differences is placed in the hands of 
physicians and ultimately the patient.
    In conclusion, Mr. Chairman, we thank you and this Committee for 
its strong record of support for the FDA and women's health, as well as 
your commitment to OWH. We recommend that you exceed the 
Administration's proposed increase, appropriating $495 million more 
than fiscal year 2010, for an overall fiscal year 2011 budget for the 
FDA of $2,857 billion, overall, so that it may dramatically improve 
upon current operations while also rebuilding its IT infrastructure. 
Secondly, we urge you to allocate $8 million for the Office of Women's 
Health for fiscal year 2011, and to ensure that future budget 
appropriations for the OWH are never below current funding levels. We 
look forward to continuing to work with you to build a stronger and 
healthier future for all Americans.
                                 ______
                                 

  Prepared Statement of The Humane Society of the United States (HSUS)

    As the largest animal protection organization in the country, we 
appreciate the opportunity to provide testimony to your Subcommittee on 
fiscal year 2011 items of great importance to The Humane Society of the 
United States (HSUS) and its 11 million supporters nationwide. In this 
testimony, we request the following amounts for the following USDA 
accounts:
  --FSIS/Humane Methods of Slaughter Act Enforcement--$2 million of HAT 
        funds to hire/train mobile review team to conduct unscheduled 
        audits and undercover surveillance to assess compliance with 
        HMSA, and language calling for establishment of ombudsman to 
        help ensure that inspectors can carry out their 
        responsibilities--both food safety and humane slaughter--
        without undue interference.
  --FSIS/Horse Slaughter--language mirroring fiscal year 2010 
        provision.
  --APHIS/Horse Protection Act Enforcement--$900,000.
  --APHIS/Animal Welfare Act Enforcement--$22,333,000.
  --APHIS/Investigative and Enforcement Services--$14,213,000.
  --OIG/including Animal Fighting Enforcement--$90,000,000.
  --NIFA (formerly CSREES)/Veterinary Student Loan Forgiveness--
        $5,000,000.
  --APHIS/Emergency Management Systems/Disaster Planning for Animals--
        $1,017,000.
  --APHIS/Wildlife Services--funding limitation on use of two 
        particularly toxic poisons.
  --NAL/Animal Welfare Information Center--$1,978,400.
    We thank you for your outstanding support during recent years for 
improved enforcement of key animal welfare laws by the U.S. Department 
of Agriculture and we urge you to sustain this effort in fiscal year 
2011. Your leadership is making a difference in helping to protect the 
welfare of millions of animals across the country. As you know, better 
enforcement will also benefit people by decreasing: (1) food safety 
risks to consumers from sick animals who can transmit illness, and 
injuries to slaughterhouse workers from suffering animals; (2) 
orchestrated dogfights and cockfights that often involve illegal 
gambling, drug trafficking, and human violence, and can contribute to 
the spread of costly illnesses such as bird flu; (3) the sale of 
unhealthy pets by commercial breeders, commonly referred to as ``puppy 
mills''; (4) laboratory conditions that may impair the scientific 
integrity of animal based research; (5) risks of disease transmission 
from, and dangerous encounters with, wild animals in or during public 
exhibition; and (6) injuries and deaths of pets on commercial airline 
flights due to mishandling and exposure to adverse environmental 
conditions. In order to continue the important work made possible by 
the Committee's prior support, we request the following for fiscal year 
2011:
  food safety and inspection service/humane methods of slaughter act 
                           (hmsa) enforcement
    We request that $2,000,000 of the Humane Animal Tracking funding be 
directed to hire a mobile review team to focus on strengthening HMSA 
enforcement, and that language be included calling for the 
establishment of an ombudsman. We greatly appreciated the committee's 
inclusion of $2 million in fiscal year 2009 to address severe 
shortfalls in USDA oversight of humane handling rules for animals at 
slaughter facilities, oversight that is important not only for animal 
welfare but also for food safety. While the Agency has taken some steps 
on this front, serious problems remain. For example, video taken by a 
non-profit organization during a 2009 undercover investigation revealed 
atrocities including repeated electric shocks, kicking, cutting off a 
hoof and partial decapitation of conscious baby calves. The footage 
also revealed a USDA inspector showing callous disregard for blatant 
cruelty, as he watched a calf being skinned alive and commented that 
another inspector would shut the plant down, but he allowed the abuse 
to continue. While that inspector has since been fired, to address 
remaining weaknesses in the inspection regime, we request that $2 
million be allocated out of the $3 million in Humane Animal Tracking 
(HAT) funding for the purpose of hiring and training a mobile review 
team to conduct unscheduled audits and undercover surveillance focused 
on assessing compliance with humane handling rules of live animals as 
they arrive and are offloaded and handled in pens, chutes, and stunning 
areas.
    We also urge the committee to include language calling on the USDA 
to establish an ombudsman to provide inspectors with an avenue to take 
their concerns and grievances, and help ensure that they are able to 
carry out their responsibilities--both food safety and humane 
slaughter--without undue interference. A whistleblower, a current FSIS 
veterinarian who has served the Agency for 18 years, testified at a 
recent House Oversight subcommittee hearing that a core problem with 
HMSA enforcement involves high-level supervisors putting pressure on 
inspectors below them to not rigorously enforce humane standards--
discouraging them from reporting violations, rewriting and watering 
down their reports, second-guessing their first-hand observations, 
insisting that actions comport with humane standards even when they run 
contrary to the guidelines of leading animal science expert Dr. Temple 
Grandin (whose expertise is well-respected by industry), and 
reprimanding and punishing them for taking enforcement actions. Even 
some District Veterinary Medical Specialists--the very positions funded 
by Congress to focus on ensuring compliance with the Humane Methods of 
Slaughter Act--have engaged in this undermining of inspectors. For the 
humane slaughter law to be properly enforced, personnel at all levels--
and certainly those in the supervisory ranks--must take this mission 
seriously. Ideally, this ombudsman would be independent from FSIS, 
reporting directly to the Under Secretary for Food Safety, or 
alternatively could perhaps be in the Office of Program Evaluation, 
Enforcement & Review (OPEER) that helps ensure the effectiveness of 
FSIS.
                            horse slaughter
    We request inclusion of the same language barring USDA from the 
expenditure of funds for horse slaughter inspection as the Committee 
included in the fiscal year 2010 omnibus. This provision is vital to 
prevent renewed horse slaughter activity in this country.
              aphis/horse protection act (hpa) enforcement
    We request that you support the President's request of $900,000 for 
strengthened enforcement of the Horse Protection Act. Congress enacted 
the HPA in 1970 to make illegal the abusive practice of ``soring,'' in 
which unscrupulous trainers use a variety of methods to inflict pain on 
sensitive areas of Tennessee Walking Horses' hooves and legs to 
exaggerate their high-stepping gait and gain unfair competitive 
advantage at horse shows. For example, caustic chemicals--such as 
mustard oil, diesel fuel, and kerosene--are painted on the lower front 
legs of a horse, then the legs are wrapped for days in plastic wrap and 
tight bandages to ``cook'' the chemicals deep into the horse's flesh, 
and then heavy chains are attached to slide up and down the horse's 
sore legs. Additional tactics include inserting foreign objects such as 
metal screws or acrylic between a heavy stacked shoe and the horse's 
hoof; pressure shoeing--cutting a horse's hoof down to the sensitive 
live tissue to cause extreme pain every time the horse bears weight on 
the hoof; and applying painful chemicals such as salicylic acid to 
slough off scarred tissue, in an attempt to disguise the sored areas. 
Though soring has been illegal for 40 years, this cruel practice 
continues unabated by the well-intentioned but seriously understaffed 
APHIS inspection program. Several horse show industry groups, animal 
protection groups, and the key organization of equine veterinarians 
have called for funding increases to enable the USDA to do a better job 
enforcing this law. To meet the goal of the HPA, Animal Care inspectors 
must be present at more shows. Exhibitors who sore their horses go to 
great lengths to avoid detection, even fleeing a show when USDA 
inspectors arrive. But with current funding, Animal Care is able to 
attend only about 6 percent of the more than 500 Tennessee Walking 
Horse shows held annually. An appropriation at the requested level will 
help provide for additional inspectors, training, security (to address 
threats of violence against inspectors), and advanced detection 
equipment (thermography and gas chromatography/mass spectrometry 
machines).
               aphis/animal welfare act (awa) enforcement
    We request that you support the President's request of $22,333,000 
for AWA enforcement under the Animal and Plant Health Inspection 
Service (APHIS). We commend the Committee for responding in recent 
years to the urgent need for increased funding for the Animal Care 
division to improve its inspections of more than 12,000 sites, 
including commercial breeding facilities, laboratories, zoos, circuses, 
and airlines, to ensure compliance with AWA standards. Under the 2008 
Farm Bill, Congress established a new responsibility for this 
division--to enforce a ban on imports from foreign puppy mills where 
puppies are mass produced under inhumane conditions and forced to 
endure harsh long-distance transport. Animal Care currently has 115 
inspectors (with 2 vacancies to be filled), compared to 64 inspectors 
at the end of the 1990s. An appropriation at the requested level would 
maintain fiscal year 2010 funding with a modest increase to cover pay 
costs and help ensure that the Agency can provide adequate oversight of 
the increasing number of licensed/registered facilities.
              aphis/investigative and enforcement services
    We request that you support the President's request of $14,213,000 
for APHIS Investigative and Enforcement Services (IES). We appreciate 
the Committee's consistent support for this division, which handles 
many important responsibilities, including the investigation of alleged 
violations of Federal animal welfare laws and the initiation of 
appropriate enforcement actions. The volume of animal welfare cases is 
rising significantly as new facilities become licensed and registered. 
An appropriation at the requested level would maintain fiscal year 2009 
funding with a modest increase to cover pay costs.
        office of inspector general/animal fighting enforcement
    We request that you support the President's request of $90,000,000 
for the Office of Inspector General (OIG) to maintain staff, improve 
effectiveness, and allow investigations in various areas, including 
enforcement of animal fighting laws. We appreciate the Committee's 
inclusion of funding and language in recent years for USDA's OIG to 
focus on animal fighting cases. Congress first prohibited most 
interstate and foreign commerce of animals for fighting in 1976, 
tightened loopholes in the law in 2002, established felony penalties in 
2007, and further strengthened the law as part of the 2008 Farm Bill. 
We are pleased that USDA is taking seriously its responsibility to 
enforce this law, working with State and local agencies to complement 
their efforts and address these barbaric practices, in which animals 
are drugged to heighten their aggression and forced to keep fighting 
even after they've suffered grievous injuries. Dogs bred and trained to 
fight endanger public safety, and some dogfighters steal pets to use as 
bait for training their dogs. Cockfighting was linked to an outbreak of 
Exotic Newcastle Disease in 2002-2003 that cost taxpayers more than 
$200 million to contain. It's also been linked to the death of a number 
of people in Asia reportedly exposed through cockfighting activity to 
bird flu. Given the potential for further costly disease transmission, 
as well as the animal cruelty involved, we believe it is a sound 
investment for the Federal Government to increase its efforts to combat 
illegal animal fighting activity. We also support the OIG's auditing 
and investigative work to improve compliance with the humane slaughter 
law and downed animal rules and the Horse Protection Act.
  national institute of food and agriculture/veterinary student loan 
                              forgiveness
    We request that you support the President's request of $5,000,000 
to continue the implementation of the National Veterinary Medical 
Service Act (Public Law 108-161). This program received $2,950,000 in 
fiscal year 2009, $4,800,000 in fiscal year 2010, and was projected to 
need $5,000,000 in its third year under the CBO score accompanying 
authorization. We appreciate that Congress is working to address the 
critical shortage of veterinarians practicing in rural and inner-city 
areas, as well as in government positions at FSIS and APHIS. A 2009 
Government Accountability Office report enumerating the challenges 
facing veterinary medicine identified that an inadequate number of 
veterinarians to meet national needs is among the foremost challenges. 
A 2006 study demonstrated the acute and worsening shortage of 
veterinarians working in rural farm animal practice, while domestic 
pets in both rural and urban areas are often left without necessary 
medical care. Having adequate veterinary care is a core animal welfare 
concern. To ensure adequate oversight of humane handling and food 
safety rules, FSIS must be able to fill vacancies in inspector 
positions. Veterinarians also support our Nation's defense against 
bioterrorism (the Centers for Disease Control estimate that 75 percent 
of potential bioterrorism agents are zoonotic--transmitted from animals 
to human). They are also on the front lines addressing public health 
problems such as those associated with pet overpopulation, parasites, 
rabies, chronic wasting disease, and bovine spongiform encephalopathy 
(``mad cow'' disease). Veterinary school graduates face a crushing debt 
burden of $130,000 on average, with an average starting salary of 
$65,000. For those who choose employment in underserved rural or inner-
city areas or public health practice, the National Veterinary Medical 
Service Act authorizes the Secretary of Agriculture to forgive student 
debt. It also authorizes financial assistance for those who provide 
services during Federal emergency situations such as disease outbreaks.
    aphis/emergency management systems/disaster planning for animals
    We request that you support the President's request of $1,017,000 
for Animal Care under APHIS' Emergency Management Systems line item. 
Hurricanes Katrina and Rita demonstrated that many people refuse to 
evacuate if they are forced to leave their pets behind. The Animal Care 
division has been asked to develop infrastructure to help prepare for 
and respond to animal issues in a disaster and incorporate lessons 
learned from previous disasters. These funds are used for staff time 
and resources to support State and local governments' and humane 
organizations' efforts to plan for protection of people with animals, 
and to enable the Agency to participate, in partnership with FEMA, in 
the National Response Plan without jeopardizing other Animal Care 
programs.
                      aphis/wildlife services (ws)
    We also hope the committee will consider a funding limitation on 
two particularly cruel, indiscriminate wildlife control methods used by 
the WS division to kill more than 13,000 animals every year: the 
toxicants sodium cyanide (delivered via small explosive devices known 
as M-44s) and sodium fluoroacetate (commonly known as Compound 1080). 
Not only are these two substances undeniably cruel to animals, they 
also pose an unnecessary threat to human health and public safety. The 
FBI has declared that both Compound 1080 and sodium cyanide are 
``highly toxic pesticides judged most likely to be used by terrorists 
or for malicious intent.'' The FBI and the Canadian Security 
Intelligence Service have listed Compound 1080 as a substance that may 
be sought for use as a possible chemical warfare agent in public water 
supplies. As early as 1999, the U.S. Air Force identified Compound 1080 
as a likely biological agent. A funding limitation on the use of these 
particular methods would not only reduce the number of animals killed 
every year and the amount of suffering animals endure as a result of 
the continued use of these inhumane methods by WS, it would help 
protect homeland security and move WS toward non-lethal wildlife 
control methods that are safer, more effective, less expensive, and 
more humane. With the most indefensible methods eliminated, there will 
be more money for other, more beneficial WS programs.
                animal welfare information center (awic)
    We request $1,978,400 for AWIC. These funds will enable AWIC to 
improve its services as a clearinghouse, training center, and 
educational resource to help institutions using animals in research, 
testing and teaching comply with the requirements of the AWA, including 
consideration of alternatives to minimize or eliminate animal use in 
specific research protocols.
    Again, we appreciate the opportunity to share our views and 
priorities for the Agriculture, Rural Development, FDA, and Related 
Agencies Appropriation Act of fiscal year 2011. We are grateful for the 
Committee's past support, and hope you will be able to accommodate 
these modest requests to address some very pressing problems affecting 
millions of animals in the United States. Thank you for your 
consideration.
                                 ______
                                 

 Prepared Statement of The Humane Society of the United States--Equine 
                               Protection

    On behalf of the undersigned animal welfare and horse industry 
organizations, with combined supporters exceeding 12 million, we submit 
the following testimony seeking an increase in funding for the USDA/
APHIS Horse Protection Program to $900,000, as requested in the 
President's budget for fiscal year 2011. This funding is urgently 
needed to begin to fulfill the intent of the Horse Protection Act--to 
eliminate the cruel practice of soring--by allowing the USDA to 
strengthen its enforcement capabilities for this law.
    In 1970, Congress passed the Horse Protection Act to end soring, 
the intentional infliction of pain to the hooves and legs of a horse to 
produce an exaggerated gait, practiced primarily in the Tennessee 
Walking Horse show industry.
    For example, caustic chemicals--such as mustard oil, diesel fuel, 
and kerosene--are painted on the lower front legs of a horse, then the 
legs are wrapped for days in plastic wrap and bandages to ``cook'' the 
chemicals deep into the horse's flesh. This makes the horse's legs 
extremely painful and sensitive, and when ridden, the horse is fitted 
with chains that slide up and down the horse's sore legs, forcing him 
to produce an exaggerated, high-stepping gait in the show ring. 
Additional tactics include inserting foreign objects such as metal 
screws or hard acrylic between a heavy stacked shoe and the horse's 
hoof; pressure shoeing--cutting a horse's hoof down to the sensitive 
live tissue to cause extreme pain every time the horse bears weight on 
the hoof; and applying painful chemicals such as salicylic acid to 
slough off scarred tissue, in an attempt to remove evidence of soring.
    The Horse Protection Act authorizes the USDA to inspect Tennessee 
Walking Horses and Racking Horses--in transport to and at shows, 
exhibits, auctions and sales--for signs of soring, and to pursue 
penalties against violators. Unfortunately, since its inception, 
enforcement of the Act has been plagued by underfunding. As a result, 
the USDA has never been able to adequately enforce the Act, allowing 
this extreme and deliberate cruelty to persist on a widespread basis.
    The most effective way to eliminate soring and meet the goals of 
the Act is for USDA officials to be present at more shows. However, 
limited funds allow USDA attendance at only about 6 percent of 
Tennessee Walking Horse shows. So the Agency set up an industry-run 
system of certified Horse Industry Organization (HIO) inspection 
programs, which are charged with inspecting horses for signs of soring 
at the majority of shows. These groups license examiners known as 
Designated Qualified Persons (DQPs) to conduct inspections. To perform 
this function, they often hire industry insiders who have an obvious 
stake in preserving the status quo. Statistics clearly show that when 
USDA inspectors are in attendance to oversee shows, the numbers of 
noted violations are many times higher than at shows where industry 
inspectors alone are conducting the inspections. By all measures, the 
overall DQP program has been a failure--the only remedy is to abolish 
it or greatly reduce dependence on this conflicted industry-run program 
of self-regulation and give USDA the resources it needs to adequately 
enforce the Act.
    USDA appears to have recently attempted to step up its enforcement 
efforts, as evidenced in 2009 by a more than twofold increase over the 
previous year in the number of violations cited at the industry's 
largest show (the Tennessee Walking Horse National Celebration). 
However, the top three prize winning horses at that show were all found 
after their wins to have been in violation of the HPA, and their owners 
and trainers were allowed to keep the titles and prizes awarded. Horses 
identified as sored at shows also continue to be shown in subsequent 
events, and their owners continue to win lucrative prizes. USDA needs 
enhanced resources to carry out its responsibilities as Congress, and 
the public, expects.
    Lack of a consistent presence by USDA officials at Tennessee 
Walking Horse events has fostered a cavalier attitude among industry 
insiders, who have not stopped their abuse, but have only become more 
clandestine in their soring methods. The continued use of soring to 
gain an advantage in the show ring has tainted the Tennessee Walking 
Horse industry as a whole, and creates an unfair advantage for those 
who are willing to break the law in pursuit of victory. Besides the 
indefensible suffering of the animals themselves, the continued 
acceptance of sored horses in the show ring prevents those with sound 
horses from competing fairly for prizes, breeding fees and other 
financial incentives, while those horse owners whose horses are sored 
may unwittingly suffer property damage and be duped into believing that 
their now abused, damaged horses are naturally superior.
    Currently, when USDA inspectors arrive at shows, many exhibitors 
load up and leave to avoid being caught with sored horses. While USDA 
could stop these trailers on the way out, Agency officials have stated 
that inspectors are wary of going outside of their designated 
inspection area, for fear of harassment and physical violence from 
exhibitors. Recently, armed security has been utilized to allow such 
inspections, at additional expense to this program. The fact that 
exhibitors feel they can intimidate government officials without 
penalty is a testament to the inherent shortcomings of the current 
system.
    In years past, inspections were limited to physical observation and 
palpation by the inspector. New technologies, such as thermography and 
``sniffer'' devices (gas chromatography/mass spectrometry machines), 
have been developed, which can help inspectors identify soring more 
effectively and objectively. However, USDA has been unable to purchase 
and put enough of this equipment in use in the field, allowing for 
industry insiders to continually evade detection. With increased 
funding, the USDA could purchase this equipment and train more 
inspectors to use it properly, greatly increasing its ability to 
enforce the HPA.
    The egregious cruelty of soring is not only a concern for animal 
protection and horse industry organizations, but also for 
veterinarians. In 2008, the American Association of Equine 
Practitioners (AAEP) issued a white paper condemning soring, calling it 
``one of the most significant welfare issues faced by the equine 
industry.'' It called for the abolition of the DQP Program, saying 
``the acknowledged conflicts of interest which involve many of them 
cannot be reasonably resolved, and these individuals should be excluded 
from the regulatory process.'' The AAEP further stated, ``The failure 
of the HPA to eliminate the practice of soring can be traced to the 
woefully inadequate annual budget of $500,000 allocated to the USDA to 
enforce these rules and regulations.''
    It is unacceptable that nearly 40 years after passage of the Horse 
Protection Act, the USDA still lacks the resources needed to end this 
extreme form of abuse. It is time for Congress to give our public 
servants charged with enforcing this Act the support and resources they 
want and need to fulfill their duty to protect these horses as 
effectively and safely as possible.
    We appreciate the opportunity to share our views about this serious 
problem, and thank you for your consideration of our request.

The Humane Society of the United States.
Friends of Sound Horses, Inc.
Animal Welfare Institute.
American Society for the Prevention of Cruelty to Animals (ASPCA).
American Horse Protection Association.
American Horse Defense Fund.
Plantation Walking Horses of Maryland.
United Animal Nations.
National Plantation Walking Horse Association.
Plantation Walking Horse Association of California.
United Pleasure Walking Horse Association.
Pennsylvania Pleasure Walking Horse Association.
Gaitway Walking Horse Association.
Mid Atlantic Tennessee Walking Horse Association.
International Pleasure Walking Horse Registry.
Sound Horse Outreach (SHO).
One Horse At a Time, Inc. Horse Rescue.
Northern California Walking Horse Association.
Tennessee Walking Horse Association of Oklahoma.
Pure Pleasure Gaited Horse Association.
United Mountain Horses.
Northwest Gaited Horse Club.
New York State Plantation Walking Horse Club.
                                 ______
                                 

               Prepared Statement of The Wildlife Society

    The Wildlife Society appreciates the opportunity to submit 
testimony concerning the fiscal year 2011 budgets for the Animal Plant 
Health Inspection Service (APHIS), National Institute of Food and 
Agriculture (NIFA), and Natural Resources Conservation Service (NRCS). 
The Wildlife Society represents over 9,000 professional wildlife 
biologists and managers dedicated to sound wildlife stewardship through 
science and education. The Wildlife Society is committed to 
strengthening all Federal programs that benefit wildlife and their 
habitats on agricultural and other private land.
    This is a difficult financial year, with many programs across the 
board being asked to take significant cuts in appropriations. While 
budget cuts may be unavoidable, we urge Congress to remember that many 
of the programs funded by the U.S. Department of Agriculture (USDA) 
play a key role in protecting our natural resources, safeguarding 
wildlife and human health, and securing our economy in the face of a 
changing climate. And, with the President's focus on addressing climate 
change, as well as the potential for climate change and energy 
legislation to emerge from Congress, funding for the programs within 
USDA that support environmental science, develop mitigation strategies, 
and implement conservation measures are more important now than ever 
before.
               animal and plant health inspection service
    Wildlife Services, a unit of APHIS, is responsible for controlling 
wildlife damage to agriculture, aquaculture, forest, range, and other 
natural resources, monitoring wildlife-borne diseases, and protecting 
wildlife at airports. Its activities are based on the principles of 
wildlife management and integrated damage management, and are carried 
out cooperatively with State fish and wildlife agencies. The 
administration's request this year is a $7.69 million decrease from 
fiscal year 2010. Such a significant decrease would substantially 
reduce funding for State and Federal cooperative wildlife damage 
programs across the country; just a few of the programs affected would 
be Hawaii Wildlife Operations, Louisiana Rice Damage, and Pennsylvania 
Cooperative Livestock Protection. Funding cuts for these programs not 
only result in significant ecological damage, but they threaten local 
economies as well. TWS recommends that Congress increase the 
appropriation for Wildlife Services Operations to $79.9 million; this 
amount would continue to provide support for the ongoing programs 
funded through the direct appropriations process, and it would as well 
as fund necessary safety improvements and cover the programmed pay 
costs for operations.
    Another key budget line in Wildlife Services is Methods 
Development, which funds the National Wildlife Research Center (NWRC). 
Much of the newest and most cross-cutting research that is critical to 
State wildlife agencies is being performed at the NWRC, and in order 
for State wildlife management programs to be the most up-to-date, the 
mission of the NWRC must continue. The President's request is currently 
a $2.84 million decrease from fiscal year 2010 enacted levels. The 
result of this decrease is that programs conducting research into 
human-wildlife conflict (Jack Berryman Institute), invasive species and 
seed crops (Hilo Hawaii Field Station), and wildlife disease 
(Kingsville Texas Field Station) would all be eliminated or severely 
reduced. Such a loss could be devastating in this era as human and 
wildlife issues are becoming increasingly intertwined. TWS requests 
that Congress restore $3.7 million to the Methods Development line to 
ensure adequate funding for the National Wildlife Research Center.
    Finally, TWS is recommending providing $20.6 million to Veterinary 
Services for addressing the import and export of invasive species. The 
potential import of exotic diseases, parasites, and vectors into the 
United States is a grave threat to human, wildlife, and habitat health 
and has the potential to cause incalculable economic damage. To 
mitigate this, it is important that APHIS-Veterinary Services is able 
to conduct inspections at all U.S. ports. The historic method of 
relying on import or user fees is inadequate and varies greatly from 
year to year. Also, as wildlife disease continues to spread worldwide, 
more exotic species are continually imported, and the number of ports 
of entry increase, the resources for inspections are stretched even 
further. Therefore, TWS recommends funding $7 million beyond the 
Administration's request of $13.6 million, $3 million to support 
inspections, and an additional $4 million for surveillance of exotic 
parasites, and staffing and operations of offshore disease monitoring 
and evaluation.
               national institute of food and agriculture
    The Renewable Resources Extension Act (RREA) provides an expanded, 
comprehensive extension program for forest and rangeland renewable 
resources. The RREA funds, which are apportioned to State Extension 
Services, effectively leverage cooperative partnerships at an average 
of four to one, with a focus on private landowners. The need for RREA 
educational programs is greater than ever today because of continuing 
fragmentation of ownership, urbanization, the diversity of landowners 
needing assistance, and increasing societal concerns about land use and 
the impact on natural resources including soil, water, air, wildlife 
and other environmental factors. The Wildlife Society recommends that 
the Renewable Resources Extension Act be funded at $30 million, as 
authorized in the 2008 Farm Bill.
    The McIntire-Stennis Cooperative Forestry Program is essential to 
the future of resource management on non-industrial private 
forestlands, as forest products are produced while conserving natural 
resources, including fish and wildlife. As demand for forest products 
grow, privately held forests will increasingly be needed to supplement 
supplies, but trees suitable for harvest take decades to produce. In 
the absence of long-term and on-going research, such as provided 
through McIntire-Stennis, the Nation could be unable to meet future 
forest-product needs. We appreciate the over $29 million in funding 
allocated in the fiscal year 2010 appropriations and urge that amount 
to be increased to $31 million in fiscal year 2011.
                 natural resources conservation service
    The Farm Bill conservation programs are more important than ever, 
given huge backlogs of qualified applicants for these programs, 
increased pressure on farmland from the biofuels boom, sprawling 
development, and the ongoing declines in wildlife habitat and water 
quality. The Natural Resources Conservation Service (NRCS), which 
administers many of the Farm Bill conservation programs, is one of the 
primary contributors to ensuring that our public and private lands are 
made resilient to climate change. NRCS does this through a variety of 
programs that are aimed to preserve land, protect water resources, and 
mitigate effects of climate change.
    The Wildlife Society recommends that the Farm Bill conservation 
programs be funded at the levels mandated in the 2008 Farm Bill. 
Currently, the Administration's request results in collective program 
reductions of about $705 million less than authorized levels. TWS 
encourages Congress to restore funding for all conservation programs at 
authorized levels. Demand for these programs continues to grow during 
this difficult economic climate when more assistance than ever is 
needed to address natural resource challenges and conservation goals, 
such as climate change, soil quality deficiencies, declining pollinator 
health, disease and invasive species, water quality and quantity 
issues, as well as degraded, fragmented and lost habitat for fish and 
wildlife. We would also like to particularly highlight the Wildlife 
Habitat Incentive Program (WHIP), a voluntary program for landowners 
who want to improve wildlife habitat on agricultural, nonindustrial, 
and Indian land. WHIP plays an important role in protecting and 
restoring America's environment, and is doubly important because it 
actively engages public participation in conservation. We urge Congress 
to fully fund WHIP at $85 million.
                      farm services administration
    We also note that 4 million acres of Conservation Reserve Program 
(CRP) contracts have expired, and we recommend that a general sign up 
of these 4 million+ acres be added in order to more fully realize the 
conservation needs of the Nation. Additionally, the Administration's 
budget request, $15 million less than fiscal year 2010, in part 
reflects a CRP enrollment projection of 30.2 million acres by the end 
of fiscal year 2011, which is 1.8 million acres below the enrollment 
authorized in the 2008 Farm Bill. Farmers need CRP to provide 
supplemental income, and enrolled lands provide an important source of 
fish and wildlife habitat as well as help achieve soil and water 
conservation needs. We also recommend that CRP should be funded at a 
level that allows for full enrollment of authorized CRP acres.
    Thank you for considering the views of wildlife professionals. We 
look forward to working with you and your staff to ensure adequate 
funding for wildlife conservation.
                                 ______
                                 

               Prepared Statement of Hon. Joseph Tydings

    As the author of the Horse Protection Act (HPA), and on behalf of 
Friends of Sound Horses (FOSH), I submit the following testimony 
requesting an increase in funding for the USDA/APHIS Horse Protection 
Program to $900,000, as requested in the President's fiscal year 2011 
budget.
    Forty-two years ago while serving in the United States Senate, I 
introduced the Horse Protection Act, which was enacted in 1970 with the 
assistance of Senator Tom Eagleton of Missouri. As you may have 
surmised, I am a horseman. I grew up and worked on a farm in the summer 
which still used draft horses. I was in the last horse cavalry unit in 
the U.S. Army. I am working hard in Washington, DC to keep honor in 
horsemanship by eliminating the cruel and sadistic soring of the 
magnificent Tennessee Walking Horses in hopes to bring respect back to 
the industry.
    Horse soring is the malicious and illegal process of deliberately 
causing extreme pain to the legs and hooves of Tennessee Walking Horses 
in order to trigger the exaggerated high-stepping gait, known as the 
``Big Lick,'' desired during showing. Trainers sore the horses by 
applying caustic chemicals, like mustard oil or diesel fuel, to the 
horse's legs and hooves and then cover the substances with plastic wrap 
to ``cook'' the chemicals into the skin. Trainers have also been known 
to use foreign objects, such as bolts, to mechanically sore the horses' 
hooves. The practice is savage and wanton and show horses live 24-7 in 
the intolerable pain with a lifetime of consequences from the damage 
that is inflicted. The HPA made this practice illegal, but much more 
must be done to bring an end to soring.
    The USDA's funding for HPA enforcement has not increased since 
1976, nor has it been adjusted for inflation. Currently, the $500,000 
funding limit only allows the USDA to inspect less than 7 percent of 
Tennessee Walking Horse shows. Although these inspections can be 
effective, this low monitoring rate obviously leaves the majority of 
horse shows uninspected. Additionally, independent Horse Industry 
Organizations, charged with the task of inspecting shows when the USDA 
is unavailable, only report and penalize a small fraction of violations 
compared to the USDA. The USDA's inability to sustain a consistent 
presence at shows has allowed rampant soring to continue in the 
industry.
    I believe Congress can play a vital role in ending this extreme 
abuse. The most effective way to abolish horse soring is to increase 
USDA funding so that it can expand its monitoring and enforcement 
efforts. The USDA needs several million dollars a year in order to 
effectively inspect all Tennessee Walking Horse shows, and even if a 
simple inflation adjustment had been made over the years since 
enactment, USDA would have roughly $2.5 million annually to enforce the 
Act. I realize times are tough in our struggling economy, but if the 
USDA's budget were increased to $900,000, as in the President's budget 
request, a signal could be sent to the industry that enforcement 
efforts have not stalled. I encourage you to support the enforcement of 
the HPA by granting the USDA the resources it needs to successfully 
carry out its duties.
    Thank you for your consideration in making this funding request a 
reality. Simply leaving USDA funding levels for enforcement at its 
current level and allowing the industry to continue to govern on its 
own, will only exacerbate the problem. I hope Congress will support 
this funding to help eradicate this shameful practice and bring honor 
and pride back into the Walking Horse industry.
                                 ______
                                 

    Prepared Statement of the Union of Concerned Scientists, et al.

    Antibiotic-resistant infections have been identified by the Centers 
for Disease Control and Prevention (CDC) as one of the top public 
health challenges in the United States. Massive use of medically 
important antibiotics like penicillin and tetracycline in food animal 
production is a significant contributor to this problem.\1\ Antibiotic-
resistant pathogens, which are found in and on food animals, can be 
transferred to humans though several pathways, including handling of 
farm animals,\2\ movement through ground and surface water, and most 
commonly on contaminated food.\3\ Animal food products can become 
contaminated during slaughter and processing and food and crops can 
become contaminated with resistant bacteria in the field or during food 
processing. Infections caused by foodborne pathogens are more severe 
and more costly to treat than those caused by susceptible bacteria. The 
existence of resistant bacteria also means that more cases of infection 
will occur than would otherwise be the case.\4\
---------------------------------------------------------------------------
    \1\ Silbergeld, Graham, and Price. 2008. ``Industrial food animal 
production, antimicrobial resistance, and human health,''Annual Review 
of Public Health 29:151-69.
    \2\ Akwar et al. 2007. ``Risk factors for antimicrobial resistance 
among fecal Escherichia coli from residents on 43 swine farms,'' 
Microbial Drug Resistance 13(1):69-76.
    \3\ WHO. 1997. ``The Medical Impact of Antimicrobial Use in Food 
Animals,'' Report of a WHO Meeting. Berlin, Germany, 13-17 October. 
whqlibdoc.who.int/hq/1997/WHO__EMC__ZOO__97.4.pdf
    \4\ Anderson et al. 2003. ``Public Health Consequences of Use of 
Antimicrobial Agents in Food Animals in the United States,'' Microbial 
Drug Resistance 9(4):373-379. whqlibdoc.who.int/hq/1997/
WHO__EMC__ZOO__97.4.pdf
---------------------------------------------------------------------------
    As recently reported in The New York Times, some infections caused 
by resistant bacteria now cannot be treated. There simply are no longer 
antibiotics that work. There are 5,815 hospitals in the U.S. registered 
with the American Hospital Association. The yearly cost associated with 
antibiotic-resistant patient infections in one U.S. hospital has been 
estimated at $13.5 million.\5\
---------------------------------------------------------------------------
    \5\ Roberts, 2009. ``Hospital and Societal Costs of Antimicrobial-
Resistant Infections in a Chicago Teaching Hospital: Implications for 
Antibiotic Stewardship,'' Clinical Infectious Diseases 49:1175-84.
---------------------------------------------------------------------------
    Additional research and data are critical to understanding how to 
address the public health and food safety concerns associated with such 
uses. As you consider fiscal year 2011 appropriations, we would like to 
propose three appropriations that will help research, monitor, and find 
solutions to the problem of antibiotic resistance. The requests below 
are in priority order:
    Request #1.--$5 million of funds from the FDA's Transforming Food 
Safety Initiative to finish, update, and publish reviews on the safety 
of antimicrobials important in human medicine currently used for 
nontherapeutic purposes in food-producing animals for their role in the 
selection and dissemination of antibiotic-resistant foodborne 
pathogens.
    Request #2.--$3 million to fund Research and Education Grants for 
the Study of Antibiotic Resistant Bacteria as authorized in Section 
7521 of the 2008 Farm Bill.
    Request #3.--$10 million for the FDA/USDA/CDC National 
Antimicrobial Resistance Monitoring System (NARMS) in order to expand 
data collection by $3 million beyond current annual funding of 
approximately $7 million.
    The rationale and background for each of these requests are 
detailed below.
    Request #1.--$5 million of funds from the FDA's Transforming Food 
Safety Initiative to finish, update, and publish reviews on the safety 
of antimicrobials important in human medicine currently used for 
nontherapeutic purposes in food-producing animals for their role in the 
selection and dissemination of antibiotic-resistant foodborne 
pathogens.
    Requested accompanying report language: In conducting these post-
market safety reviews, the FDA shall use the same standards and 
methodology currently used in pre-market safety evaluations. The 
Committee directs the FDA to report the findings of the safety reviews 
to Congress within 2 years and to include a time line of any regulatory 
action steps needed to address drug uses found not to be safe. Congress 
directs the FDA immediately to report to Congress on any post-market 
safety reviews of animal antimicrobials already completed, but not yet 
made public.
    Background.--The FDA's Center for Veterinary Medicine is 
responsible for reviewing the safety of animal drugs, including 
antibiotics, and has the authority to approve, withdraw, or restrict 
drugs based on their safety. Since 2003, the FDA has required that the 
pre-approval safety review for all new antibiotic veterinary drugs 
include an evaluation of the likelihood that the proposed drug use in 
animals will lead to resistant infections in humans.
    Because almost all antibiotics being used for growth promotion and 
other nontherapeutic purposes in livestock production were approved by 
the FDA before 2003, most have either not undergone reviews with 
respect to antibiotic resistance or have undergone reviews that are 
inconsistent with current standards. In order to ensure that these 
drugs meet current safety standards, it is now critical to conduct 
post-market safety reviews of those antibiotic classes important to 
human medicine that are also being used for routine nontherapeutic 
purposes in animal agriculture.
    Seven classes of antibiotics considered by the FDA to be either 
critically or highly important for therapy of infectious diseases in 
humans are used for nontherapeutic purposes in livestock production. 
These are the penicillins, tetracyclines, macrolides, lincosamides, 
streptogramins, aminoglycosides, and sulfonamides. Nontherapeutic uses 
of these drugs include growth promotion and routine disease prevention 
in healthy farm animals.
    In 1977 the FDA proposed to withdraw its approval for 
nontherapeutic uses of both penicillin \6\ and tetracycline \7\ in food 
animals because of then new evidence showing that such uses undercut 
the efficacy of human drugs and as such were not safe for humans. The 
FDA took no final action on either of these 1977 proposals. In the 
interim since the proposed cancellations, the European Union has banned 
use of all medically important antibiotics to accelerate the growth of 
food animals, and Australia, Japan, and New Zealand do not allow the 
use of penicillin and tetracycline as growth promoters.\8\
---------------------------------------------------------------------------
    \6\ 42 Fed. Reg. 43770 (August 30, 1977).
    \7\ 42 Fed. Reg. 56264 (October 21, 1977).
    \8\ General Accounting Office, Antibiotic Resistance, Federal 
Agencies Need to Better Focus Efforts to Address Risk to Humans from 
Antibiotic Use in Animals (April 2004) at 44.
---------------------------------------------------------------------------
    Citing its still-pending 1977 regulatory proposal, in May 2004 the 
FDA wrote to three manufacturers of penicillin for animal use--Alpharma 
Inc, Pennfield Oil Company, and Phibro Animal Health--to express its 
concerns about their products' ``possible role in the emergence and 
dissemination of antimicrobial resistance'' in humans.
    In its July 2007 report on the fiscal year 2008 appropriations 
bill, the House Committee on Appropriations expressed its concern that 
the use of antimicrobials in animals produced for food can also render 
less effective critically important human antibiotics, including those 
used to treat foodborne illnesses. The Committee was particularly 
concerned that the FDA had not finished its review of the safety for 
humans of using penicillin nontherapeutically in animal feed and 
directed the FDA to finish this review and make it public by June 30, 
2008.
    In September 2008 the FDA told Congress that it had completed its 
review of the ``scientific literature for microbial food safety 
information for penicillin-containing products'' and that it 
``continues to have safety concerns regarding the non-therapeutic use 
of antimicrobial drugs in food-producing animals.'' \9\ The FDA has 
not, however, either made public the results of its penicillin review 
or taken any action on the other medically important antibiotics that 
are used to accelerate the growth of food animals.
---------------------------------------------------------------------------
    \9\ September 19, 2008 letter from FDA to Senator Kennedy (at 8).
---------------------------------------------------------------------------
    In fiscal year 2009 and fiscal year 2010, the FDA received a 
significant amount of new funding to address food safety. An additional 
$318.3 million and 718 new FTEs for the Transforming Food Safety 
initiative have been proposed for fiscal year 2011. With the additional 
resources FDA should take a more aggressive approach to tackling the 
growing problem of antibiotic resistant foodborne pathogens.
    Congress should ensure that the FDA finishes, updates, and 
publishes reviews on the safety of antimicrobials important in human 
medicine used for nontherapeutic purposes in food-producing animals.
    Request #2.--$3 million to fund Research and Education Grants for 
the Study of Antibiotic Resistant Bacteria as authorized in Section 
7521 of the 2008 Farm Bill.
    Background.--Antibiotic-resistant disease has been identified by 
the CDC as the number one public health challenge in the United States. 
Massive use of medically important antibiotics like penicillin and 
tetracycline in food animal production is a significant contributor to 
this problem. Research to develop animal production systems less 
dependent on antibiotics would help American producers address this 
crisis, add consumer value to their products, and position themselves 
advantageously in the global marketplace.
    In 2004, the U.S. Government Accountability Office (GAO) released a 
report highlighting the looming trade implications for countries that 
do not improve their agricultural antibiotic-use practices. GAO found 
that two of our major competitors in world meat markets (New Zealand 
and Denmark) have already banned the use of medically important 
antibiotics for growth promotion in food animals, as has the European 
Union. In addition, Japan, a major market for U.S. meat exports, is now 
reviewing such uses and considering a ban. The international trend is 
clear. To keep up and maintain market share, U.S. meat producers need 
to have the option to raise animals with less dependence on 
antibiotics.
    The 2008 Farm Bill addressed this need by creating a new 
competitive grant program called Research and Education Grants for the 
Study of Antibiotic-Resistant Bacteria. This program will provide the 
research needed to understand the phenomenon of antibiotic resistance 
and devise food animal production systems less dependent on antibiotic 
use. But, this important program will not get off the ground without 
funding. If U.S. meat producers hope to maintain a competitive 
advantage in the global market, funding is needed to support research 
to provide technical information on antibiotic-free production methods 
to all meat producers, and to enable those producers seeking to 
transition away from routine antibiotic use to do so smoothly. 
Accordingly, we urge the committee to appropriate $3 million to launch 
the grant program.
    Request #3.--$10 million for the FDA/USDA/CDC National 
Antimicrobial Resistance Monitoring System (NARMS) in order to expand 
data collection by $3 million beyond current annual funding of 
approximately $7 million.
    Systematic collection and analyses of data are essential to 
addressing the growing problem of antibiotic resistant disease. NARMS 
has been funded at about $7 million for the last several years and at 
that level has been unable to keep up with emerging new public health 
concerns, such as the Committee-recognized (in the report on the fiscal 
year 2009 appropriations bill) threat of methicillin-resistant 
Staphylococcus aureus (``MRSA''). Additional funding will enable 
increased surveillance, to include additional bacterial species and 
numbers and/or types of samples as well as allow NARMS researchers to 
utilize more sensitive methods (e.g., antibiotic-supplemented media and 
molecular assays). Furthermore, the additional funding should be used 
to improve sampling of bacteria on farm animals.
    NARMS is a national public health surveillance system that tracks 
changes in the susceptibility of certain enteric bacteria to 
antimicrobial agents of human and veterinary medical importance. The 
NARMS program was established in 1996 as a collaboration among three 
Federal agencies: the FDA, the CDC, and the U.S. Department of 
Agriculture (USDA). NARMS is included in the FDA's budget, and the FDA 
then gives some of the appropriated funds to CDC and USDA.
    NARMS also collaborates with scientists involved in antimicrobial 
resistance monitoring in other countries so that information can be 
shared on the global dimensions of antimicrobial resistance in 
foodborne bacteria. The NARMS program currently looks at only four 
pathogens: Salmonella, Campylobacter, Escherichia coli, and Enterococci 
on retail meats. However, the scientific literature on foodborne 
antibiotic-resistant bacteria shows that additional pathogens may be 
contaminating our food supply, such as Staphylococcus aureus.
    As a public health monitoring system, the primary objectives of 
NARMS are to:
  --Monitor trends in antimicrobial resistance among foodborne bacteria 
        from humans (CDC), retail meats (FDA), and animals (USDA);
  --Disseminate timely information on antimicrobial resistance to 
        promote interventions that reduce resistance among foodborne 
        bacteria;
  --Conduct research to better understand the emergence, persistence, 
        and spread of antimicrobial resistance;
  --Assist the FDA in making decisions related to the approval of safe 
        and effective antimicrobial drugs for animals.
    The NARMS program is important for identifying trends in 
antimicrobial resistance and for setting policy to address problems 
that are identified. For example, NARMS data have been used to support 
regulatory action such as the FDA's withdrawal in 2005 of the approval 
for fluoroquinolones in poultry and a proposed FDA ban in 2008 on the 
extralabel use of cephalosporins in food animals.
    Thank you for your support of these priorities.

Adrian Dominicans Sisters.
Alliance for Sustainability.
Alliance for the Prudent Use of Antibiotics.
American Academy of Pediatrics, District II.
American Academy of Pediatrics, NY Chapter 2.
American Academy of Pediatrics, NY Chapter 3.
American Academy of Physician Assistants.
American Grassfed Association.
American Nurses Association.
American Society for the Prevention of Cruelty to Animals.
Animal Welfare Approved.
Arkansas Nature Alliance.
Blue Heron Environmental Network Inc.
Breast Cancer Fund.
Butte Environmental Council.
California Public Health Association, North.
Catholic Healthcare West.
Center for Science in the Public Interest.
Chicago Physicians for Social Responsibility.
Citizen Action of Wisconsin.
Citizens Action Coalition of Indiana.
Citizens for Pennsylvania's Future.
Citizens for Sludge-free Land.
Clean Water Action.
Coast Action Group.
Colorado Academy of Family Physicians.
Consumers Union.
Earth Day Coalition, Cleveland.
Endangered Habitats League.
Environmental Defense Fund.
Fair Food.
Family Farm Defenders.
Farms Without Harm.
Farmworker Justice.
Food & Water Watch.
Food Animal Concerns Trust.
Food Democracy Now!.
Friends of Arizona Rivers.
Friends of the Earth.
Georgia AIDS Coalition.
Grass-roots.
Halifax River Audubon.
Humane Farming Association.
Humane Society of the United States.
Humane Society Veterinary Medical Association.
Illinois Citizens for Clean Air & Water.
Infectious Disease Association of California.
Institute for Agriculture & Trade Policy.
Iowa Association of Water Agencies.
Iowa Citizens for Community Improvement.
Iowa Environmental Council.
Iowa Farmers Union.
Izaak Walton League of America, Midwest.
Keep Antibiotics Working.
Kentucky Resources Council.
Klamath Forest Alliance.
Land Stewardship Project.
Lymphoma Foundation of America.
Maine Organic Farmers & Gardeners Association.
Maine Public Health Association.
Michigan Antibiotic Resistance Reduction Coalition.
Michigan Public Health Association.
Minnesota Citizens Organized Acting Together.
Montana Public Health Association.
National Anti-Vivisection Society.
National Catholic Rural Life Conference.
National Latino Farmers & Ranchers Trade Association.
National Organic Coalition.
National Organization for Rare Disorders.
National Sustainable Agriculture Coalition.
Naturesource Communications.
Network for Environmental & Economic Responsibility United Church of 
Christ.
New Mexico Environmental Law Center.
North Carolina Association of Pharmacists.
Northeast Organic Farming Association--Interstate Council.
Northeast Organic Farming Association--Massachusetts.
NY/NJ Environmental Watch.
Occidental Arts & Ecology Center.
Ohio Ecological Food & Farm Association.
Ohio Environmental Council.
Ohio Nurses Association.
Ohio River Foundation.
Oklahoma Chapter, American Academy of Pediatrics.
Oregon Pediatric Society.
Organic Consumers Association.
Pennsylvania Coalition of Nurse Practitioners.
Pennsylvania Farmers Union.
Pennsylvania State Nurses Association, Environmental Health Task Force.
Pew Campaign on Human Health & Industrial Farming.
Physicians for Social Responsibility-Los Angeles.
Preserve Wild Santee.
Protect Our Earth's Treasures.
Rivers Unlimited.
Rural Advancement Foundation International, USA.
Safe Food & Fertilizer.
Safe Tables Our Priority.
San Francisco Bay Area Physicians for Social Responsibility.
San Francisco Medical Society.
South Carolina Nurses Association.
Southwest Environmental Center.
Stonyfield Farm, Inc.
Sustain LA.
Sustainable Earth.
The Cornucopia Institute.
The Minnesota Project.
The Society of Infectious Diseases Pharmacists.
Trust for America's Health.
Union of Concerned Scientists.
Upper Merrimack River Local Advisory Committee.
U.S. Environmental Watch.
Washington Sustainable Food & Farming Network.
Waterkeeper Alliance.
Western Nebraska Resources Council.
Wisconsin Chapter, American Academy of Pediatrics.
Women's Environmental Institute.
Women, Food & Agriculture Network.
Women's Health & Environmental Network.
                                 ______
                                 

                  Letter From the USA Rice Federation

                                                    March 26, 2010.
Hon. Herb Kohl, 
Chairman, Subcommittee on Agriculture, Rural Development, FDA, and 
        Related Agencies, Committee on Appropriations, U.S. Senate, 
        Washington, DC.
Hon. Rosa DeLauro, 
Chairman, Subcommittee on Agriculture, Rural Development, FDA, and 
        Related Agencies, Committee on Appropriations, U.S. House of 
        Representatives, Washington, DC.

Re: USA Rice Federation's Fiscal Year 2011 Agriculture Appropriations 
        Requests
    Dear Chairman Kohl and Chairman DeLauro: This is to convey the rice 
industry's requests for fiscal year 2011 funding for selected programs 
under the jurisdiction of your respective subcommittees. The USA Rice 
Federation appreciates your assistance in making this letter a part of 
the hearing record.
    The USA Rice Federation is the global advocate for all segments of 
the U.S. rice industry with a mission to promote and protect the 
interests of producers, millers, merchants, and allied businesses. USA 
Rice members are active in all major rice-producing States: Arkansas, 
California, Florida, Louisiana, Mississippi, Missouri, and Texas. The 
USA Rice Producers' Group, the USA Rice Council, the USA Rice Millers' 
Association, and the USA Rice Merchants' Association are members of the 
USA Rice Federation.
    USA Rice understands the budget constraints the subcommittees face 
when developing the fiscal year 2011 appropriations bill. We appreciate 
your past support for initiatives that are critical to the rice 
industry and look forward to working with you to meet the continued 
needs of research, food aid, and market development in the future.
    A healthy U.S. rice industry is also dependent on the program 
benefits offered by the Farm Bill. Therefore, we oppose any attempts to 
modify the support levels provided by this vital legislation through 
more restrictive payment limitations or other means and encourage the 
subcommittees and committees to resist such efforts during the 
appropriations process, especially given that the Farm Bill was 
reauthorized in June of 2008 and represents a contract with America's 
producers.
    A list of the programs the USA Rice Federation supports for 
appropriations in fiscal year 2011 are as follows:
                           funding priorities
Research and APHIS
    The Dale Bumpers National Rice Research Center (DBNRRC) conducts 
research to help keep the U.S. rice industry competitive in the global 
marketplace by assuring high yields, superior grain quality, pest 
resistance, and stress tolerance. We urge you to provide fiscal year 
2011 funding for rice at the DBNRRC at least at the fiscal year 2010 
approved level of $3,607,338 in base funding. In addition, we strongly 
support the President's proposed $500,000 funding increase for rice-
related climate-change research and $400,000 increase for rice-breeding 
research at the DBNRRC. We also urge funding a $1.3 million increase 
for the ARS facility at Stuttgart for research on diversified rice-
farming techniques to help reduce water use by developing varieties 
that are more drought tolerant.
    For APHIS-Wildlife Services, we encourage the subcommittees to fund 
the Louisiana blackbird control project at $150,000, which we strongly 
support. This program annually saves rice farmers in Southwest 
Louisiana over $4,000 per farm, or $2.9 million total.
Market Access
    Exports are critical to the U.S. rice industry. Historically, 40-50 
percent of annual U.S. rice production has been shipped overseas. Thus, 
building healthy export demand for U.S. rice is a high priority.
    The Foreign Market Development Program allows USA Rice to focus on 
importer, foodservice, and other non-retail promotion activities around 
the world. This program should be fully funded for fiscal year 2011 at 
the authorized level of $34.5 million.
    The Market Access Program (MAP) allows USA Rice to concentrate on 
consumer promotion and other activities for market expansion around the 
world. This program should also be fully funded for fiscal year 2011 at 
the authorized level of $200 million. USA Rice strongly opposes the 
President's proposed 20 percent reduction in MAP funding.
    In addition, the Foreign Agricultural Service should be funded to 
the fullest degree possible to ensure adequate support for trade-policy 
initiatives and oversight of export programs. These programs are 
critical for the economic health of the U.S. rice industry.
Food Safety
    Food safety, including the safety of imported food, is one of the 
national issues that deserves significantly more funding. The USA Rice 
Federation appreciates greatly the increased funding that Congress 
appropriated for the Food and Drug Administration in fiscal year 2010 
for food-safety purposes. We urge Congress to continue this funding 
direction by increasing the Agency's fiscal year 2011 appropriations 
for food-safety personnel, programs, and related technology, including 
continuing to ensure the safety of imported food.
    Appropriations increases would allow the FDA to help reassure 
consumers and accelerate innovation in food-safety programs and related 
research and technology development. FDA would be able to administer 
food-safety inspections and other related activities more fully and 
effectively, speed up approvals for safe, new food technologies and 
products, and provide leadership in protecting the food supply from 
intentional domestic and foreign threats.
    As importantly, USA Rice opposes the President's proposed food-
safety-related user fees, including for food registration and 
inspection and export certificates. These public-safety activities 
should continue to be funded from annual appropriations.
Food Aid
    We urge the subcommittees to fund Public Law 480 title I. No title 
I funding has been provided since fiscal year 2006. At a minimum, 
fiscal year 2011 funding should be the same as 2006. Public Law 480 
title I is our top food-aid priority and we support continued funding 
in order to meet international demand. Food-aid sales historically 
account for an important portion of U.S. rice exports.
    For Public Law 480 title II, we strongly support funding title II 
up front at the fully authorized $2.5 billion level, which would help 
to make possible satisfying the 2.5 million MT required by statute. We 
encourage the subcommittees to fund title II at the higher level to 
ensure consistent tonnage amounts for the rice industry. We strongly 
oppose any shifting of title II funds, which have traditionally been 
contained within USDA's budget. We believe all food-aid funds should 
continue to be used for food-aid purchases of rice and other 
commodities from only U.S. origin.
    USA Rice supports continued funding at fiscal year 2006 levels, at 
a minimum, for the Food for Progress Program's Public Law 480 title I-
sourced funding. For the program's Commodity Credit Corporation funding 
component, a minimum at USDA's estimated fiscal year 2010 level of $150 
million is requested. Funding for this program is important to improve 
food security for food-deficit nations.
    The McGovern-Dole International Food for Education and Child 
Nutrition Program is a proven success and it is important to provide 
steady, reliable funding for multi-year programming. USA Rice supports 
funding at the $300 million level for this education initiative because 
it efficiently delivers food to its targeted group, children, while 
also encouraging education, a primary stepping-stone for populations to 
improve economic conditions.
Other
    Farm Service Agency.--We encourage the subcommittees to provide 
adequate funding so the Agency can deliver essential programs and 
services, including for improved computer hardware and software. The 
Agency has been hard hit by staff reductions and our members fear a 
reduction in service if sufficient funds are not allocated.
    Please feel free to contact us if you would like further 
information about the programs we have listed. Additional background 
information is available for all of the programs we have referenced; 
however, we understand the volume of requests the subcommittees receive 
and have restricted our comments accordingly.
    Thank you for your consideration of our recommendations.
            Sincerely,
                                             Reece Langley,
                                Vice President, Government Affairs.
                                 ______
                                 

            Letter From the Wyoming State Engineer's Office

                                                    March 10, 2010.
Hon. Herb Kohl, 
Chairman, Subcommittee on Agriculture, Rural Development, Food and Drug 
        Administration and Related Agencies, Washington, DC.
Hon. Sam Brownback,
Ranking Member, Subcommittee on Agriculture, Rural Development, Food 
        and Drug Administration and Related Agencies, Washington, DC.

Re: Support for Designation to the Colorado River Basin Salinity 
        Control Program of 2.5 per centum of the Total Environmental 
        Quality Incentives Program (EQIP) Funding Recommended in the 
        President's Fiscal Year 2011 Budget.
    Dear Chairman Kohl and Ranking Member Brownback: This letter is 
sent in support of the designation of 2.5 percent of the fiscal year 
2010 Environmental Quality Incentive Program (EQIP) funding for the 
Department of Agriculture's Colorado River Salinity Control (CRSC) 
Program. With the enactment of the Federal Agriculture Improvement and 
Reform Act of 1996 (FAIRA, which was designated Public Law 104-127), 
the USDA's CRSC Program is a component program within EQIP. Wyoming 
views the inclusion of the CRSC Program in EQIP as a direct recognition 
on the part of Congress of the Federal commitment to maintenance of the 
water quality standards for salinity in the Colorado River. The vital 
role of the Department of Agriculture in meeting that commitment is 
apparent pursuant to the law, as well as based on the past 25 years we 
have observed and encouraged Agriculture's efforts effectively reducing 
salt loading into the Colorado River system through proven and cost-
effective irrigation water application and management practices. Each 
of the seven Colorado River Basin States, acting collectively through 
the Colorado River Basin Salinity Control Forum, have actively assisted 
the U.S. Department of Agriculture in implementing its unique, 
collaborative and important program.
    Established in 1973, the seven-State Colorado River Basin Salinity 
Control Forum coordinates with the Federal Government on the 
maintenance of the basin-wide Water Quality Standards for Salinity in 
the Colorado River System. The Forum is composed of gubernatorial 
representatives and serves as a liaison between the seven States and 
the Secretaries of the Interior and Agriculture and the Administrator 
of the Environmental Protection Agency. The Forum advises the Federal 
agencies on the progress of efforts to control the salinity of the 
Colorado River. Its annual funding recommendation process includes 
suggesting to the Department of Agriculture the amount the Forum 
believes USDA should be expending in the subsequent 2 years for its on-
farm CRSC Program. Overall, the combined efforts of the Basin States, 
the Bureau of Reclamation and the Department of Agriculture have 
resulted in one of the Nation's most successful non-point source 
control programs.
    The Colorado River provides municipal and industrial water for 
nearly 30 million people and irrigation water to approximately 4 
million acres of land in the United States. The River is also the water 
source for some 2.5 million people and 500,000 acres in Mexico. 
Limitations on users' abilities to make the greatest use of that water 
supply due to the River's high concentration of total dissolved solids 
(e.g., the water's salinity concentration) remains a major issue and 
continuing concern in both the United States and Mexico. The salinity 
concentration in this water supply especially affects agricultural, 
municipal, and industrial water users. While economic detriments and 
damages in Mexico are unquantified, the Bureau of Reclamation presently 
estimates direct and computable salinity-related damages in the United 
States amount to $376 million per year.
    At its recent October 2009 meeting, the Forum recommended that the 
USDA CRSC Program expend 2.5 percent of the Environmental Quality 
Incentive Program funding. In the Forum's judgment, this amount of 
funding is necessary to implement one of the most successful Federal/
State cooperative non-point source pollution control programs in the 
United States. The Colorado River Basin Salinity Control Advisory 
Council has taken the position that the funding for the salinity 
control program should not be below $20 million per year. The amount of 
State and local cost-sharing that can be applied in each given fiscal 
year is driven by the amount of Federal appropriations and the EQIP 
allocation.
    The State of Wyoming greatly appreciates the subcommittee's support 
of the Colorado River Salinity Control Program in past years. We 
continue to believe this important basin-wide water quality improvement 
program merits support by your subcommittee. We request that your 
subcommittee direct the allocation of 2.5 percent of the Environmental 
Quality Incentives Program funding for the USDA's CRSC Program during 
fiscal year 2011. Thank you in advance for your consideration of this 
statement and its inclusion in the formal record for fiscal year 2011 
appropriations.
            Respectfully submitted,
                                        Patrick T. Tyrrell,
   Wyoming State Engineer, Chairman, Colorado River Basin Salinity 
                                                     Control Forum.
                                               Dan S. Budd,
      Interstate Stream Commissioner, Member, Colorado River Basin 
                                            Salinity Control Forum.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Ad Hoc Coalition, Prepared Statement of the......................   295
Alliance for a Stronger FDA, Prepared Statement of the...........   297
American:
    Commodity Distribution Association (ACDA), Prepared Statement 
      of 
      the........................................................   300
    Farm Bureau Federation (AFBF), Prepared Statement of the.....   302
    Forest & Paper Association (AF&PA), Prepared Statement of the   305
    Honey Producers Association, Inc. (AHPA), Prepared Statement 
      of the.....................................................   306
    Indian Higher Education Consortium (AIHEC), Prepared 
      Statement of the...........................................   311
    Museum of Natural History (AMNH), Prepared Statement of the..   314
    Public Power Association (APPA), Prepared Statement of the...   315
    Sheep Industry Association (ASI), Prepared Statement of the..   316
    Society for:
        Microbiology (ASM), Prepared Statements of the.........321, 323
        Nutrition (ASN), Prepared Statement of the...............   326
    Society of Plant Biologists (ASPB), Prepared Statement of the   329
Amicus Therapeutics, Letter from.................................   331
Animal Welfare Institute (AWI), Prepared Statement of the........   334
Association of Clinical Research Organizations (ACRO), Prepared 
  Statement of the...............................................   337

Bennett, Senator Robert F., U.S. Senator from Utah, Questions 
  Submitted by...................................................   292
Brownback, Senator Sam, U.S. Senator from Kansas:
    Questions Submitted by.....................................120, 289
    Statements of................................................2, 254
Byrd, Senator Robert C., U.S. Senator from West Virginia, 
  Questions Submitted by.........................................   118

California Association of Winegrape Growers, Letter from the.....   339
Campaign for Contract Agriculture Reform (CCAR), Prepared 
  Statement of the...............................................   341
Cochran, Norris, Deputy Assistant Secretary, Office of Budget, 
  Department of Health and Human Services........................   253
Cochran, Senator Thad, U.S. Senator from Mississippi, Questions 
  Submitted by...................................................   132
Collins, Senator Susan, U.S. Senator from Maine, Questions 
  Submitted by...................................................   133
Colorado River:
    Board of California, Prepared Statement of the...............   341
    Commission of Nevada, Letter from the........................   343
Cystic Fibrosis Foundation, Prepared Statement of the............   343

Dorgan, Senator Byron L., U.S. Senator from North Dakota, 
  Questions Submitted by........................................98, 286
Durbin, Senator Richard J., U.S. Senator from Illinois, Questions 
  Submitted by.................................................105, 286

Farm Credit Administration (FCA), Prepared Statement of the......   344
FasterCures/The Center for Accelerating Medical Solutions, 
  Prepared Statement of..........................................   348
Feeding America, Prepared Statement of...........................   350
Feinstein, Senator Dianne, U.S. Senator from California, 
  Questions Submitted by.........................................    99
Florida State University (FSU), Prepared Statement of............   355
Fong, Phyllis K., Inspector General, Department of Agriculture, 
  Prepared Statement of..........................................    15
Friends of Agricultural Research--Beltsville, Inc. (FAR-B), 
  Prepared Statement of..........................................   356

Hamburg, Dr. Margaret A., Commissioner, Food and Drug 
  Administration, Department of Health and Human Services........   253
    Prepared Statement of........................................   259
Statement of.....................................................   256
Harkin, Senator Tom, U.S. Senator from Iowa, Questions Submitted 
  by.............................................................    95

Infectious Diseases Society of America (IDSA), Prepared Statement 
  of the.........................................................   358
International Walking Horse Association (IWHA), Prepared 
  Statement of the...............................................   361

Johnson, Senator Tim, U.S. Senator from South Dakota, Prepared 
  Statement of...................................................    55
    Questions Submitted by.......................................   108

Kohl, Senator Herb, U.S. Senator from Wisconsin:
    Opening Statements of........................................1, 253
    Questions Submitted by......................................56, 280

Lacey Act Coalition, Letter from the.............................   363

McGarey, Patrick, Director, Office of Budget, Food and Drug 
  Administration, Department of Health and Human Services........   253
Merrigan, Dr. Kathleen, Deputy Secretary, Office of the 
  Secretary, Department of Agriculture...........................     1
Metropolitan Water District of Southern California, Letter from 
  the............................................................   364

National:
    Association of State Energy Officials (NASEO), Prepared 
      Statement of the...........................................   365
    Commodity Supplemental Food Program Association (NCSFPA), 
      Prepared Statement of the..................................   365
    Council of Farmer Cooperatives (NCFC), Prepared Statement of 
      the........................................................   370
    Environmental Services Center (NESC), Prepared Statement of 
      the........................................................   372
    Organic Coalition (NOC), Prepared Statement of the...........   374
    Sustainable Agriculture Coalition, Prepared Statement of the.   377
    Walking Horse Association (NWHA), Prepared Statement of the..   381
    WIC Association:
        Letter from the..........................................   382
        Prepared Statement of the................................   381
Nelson, Senator Ben, U.S. Senator from Nebraska, Questions 
  Submitted by...................................................   110
New Mexico Interstate Stream Commission, Prepared Statement of 
  the............................................................   384

Organic:
    Farming Research Foundation (OFRF), Prepared Statement of the   386
    Trade Association (OTA), Prepared Statement of the...........   389

Pickle Packers International, Inc., Prepared Statement of........   393
Pryor, Senator Mark, U.S. Senator from Arkansas, Questions 
  Submitted by...................................................   115

Red River Valley Association, Prepared Statement of..............   399
Reed, Senator Jack, U.S. Senator from Rhode Island, Questions 
  Submitted by...................................................   114
Rocky Mountain Climate Organization, Prepared Statement of the...   402

San Diego County Water Authority, Letter from the................   404
Society for Women's Health Research (SWHR), Prepared Statement of 
  the............................................................   405
Specter, Senator Arlen, U.S. Senator from Pennsylvania, Questions 
  Submitted by...................................................   288
Steele, Dr. Scott, Budget Officer, Department of Agriculture.....     1

The Humane Society of the United States (HSUS), Prepared 
  Statement of...................................................   408
    Equine Protection, Prepared Statement of.....................   412
The Wildlife Society, Prepared Statement of......................   413
Tydings, Hon. Joseph.............................................   415

Union of Concerned Scientists, et al., Prepared Statement of the.   416
USA Rice Federation, Letter from the.............................   420

Vilsack, Tom, Secretary, Office of the Secretary, Department of 
  Agriculture....................................................     1
    Prepared Statement of........................................     6
    Statement of.................................................     3

Wine Institute, Letter from the..................................   339
WineAmerica, Letter from.........................................   339
Winegrape Growers of America, Letter from the....................   339
Wyoming State Engineer's Office, Letter from the.................   422


                             SUBJECT INDEX

                              ----------                              

                       DEPARTMENT OF AGRICULTURE

                        Office of the Secretary

                                                                   Page

``Actively Engaged'' Farmer......................................   109
Additional Committee Questions...................................    56
Administration's:
    Funding of Catfish Inspections...............................   115
    Proposed Cuts to:
        Delta Regional Authority.................................   117
        Farm Bill Safety Net.....................................   116
Advanced Genetic Technologies, Kentucky..........................   135
Advancing Biofuel Production, Texas..............................   135
Aegilops Cylindrica (Jointed Goatgrass), Washington..............   135
Afghanistan Agriculture..........................................    29
Ag-Based Industrial Lubricants Research Program, Iowa............   218
Agricultural:
    Development..................................................   121
        In the American Pacific, Hawaii..........................   218
    Diversification, Hawaii......................................   136
    Entrepreneural Alternatives, Pennsylvania....................   137
    Marketing, Illinois..........................................   137
    Reconstruction and Stabilization.............................    85
Agriculture:
    And Food Research Initiative.................................    75
    Energy Innovation Center, Georgia............................   138
    Expo.........................................................    28
    In the Classroom.............................................   238
    Science, Ohio................................................   138
    Waste Utilization, West Virginia.............................   219
Agroecology/Chesapeake Bay Agroecology, Maryland.................   138
Air Quality, Texas and Kansas....................................   139
Animal:
    Disease Traceabilty..........................................   108
    Health Research and Diagnostics, Kentucky....................   219
    Science Food Safety Consortium, Arkansas, Iowa, and Kansas...   139
    Waste Management, Oklahoma...................................   219
Appalachian Farming Systems Research Center......................   118
Apple Fire Blight, Michigan and New York.........................   140
Applied Agriculture and Environmental Research, California.......   220
Aquaculture:
    Product and Marketing Development, West Virginia.............   145
    Research and Education Center, Pennsylvania..................   221
    California, Florida, and Texas...............................   141
    Idaho and Washington.........................................   141
    Louisiana....................................................   142
    Mississippi..................................................   143
    North Carolina...............................................   144
    Ohio.........................................................   220
Armillaria Root Rot, Michigan....................................   145
ARS Administrative Costs.........................................    74
Asparagus Production Technologies, Washington....................   146
Assisting Rural Communities to Create Prosperity.................     9
Avian Bioscience, Delaware.......................................   146
Babcock Institute, Wisconsin.....................................   147
Barley for Rural Development, Idaho and Montana..................   148
Beef Improvement Research, Missouri and Texas....................   148
Best Practices in Agriculture Waste Management, California.......   221
Bioactive Foods and Research for Health and Food Safety, 
  Massachusetts..................................................   149
Biobased Polymer Initiative, Kansas..............................   221
Biodesign and Processing Research Center, Virginia...............   149
Bioenergy Production and Carbon Sequestration, Tennessee.........   149
Biomass-Based Energy Research, Mississippi and Oklahoma..........   149
Biorefinery Assistance Program...................................    38
Biotechnology....................................................    30
    North Carolina...............................................   150
    Research, Mississippi........................................   221
Bovine Tuberculosis, Michigan and Minnesota......................   150
Broadband........................................................    52
Brucellosis Vaccine, Montana.....................................   150
Business Gateway.................................................    65
Capital Security Cost Sharing....................................    84
Cataloging Genes Associated With Drought and Disease Resistance, 
  New Mexico.....................................................   151
Catfish Inspection Program.......................................   132
CCE Computer Modernization.......................................    80
Cellulosic Biomass, South Carolina...............................   222
Center for:
    Agricultural and Rural Development, Iowa.....................   222
    Food Industry Excellence, Texas..............................   222
    Innovative Food Technology, Ohio.............................   223
    North American Studies, Texas................................   223
    One Medicine, Illinois.......................................   151
    Renewable Transportation Fuel, Michigan......................   224
    Rural Studies, Vermont.......................................   152
Centers for Dairy and Beef Excellence, Pennsylvania..............   224
Childhood:
    Farm Safety, Iowa............................................   238
    Obesity and Nutrition, Vermont...............................   152
Citrus...........................................................   100
    Canker and Greening, Florida.................................   153
Classical Plant Breeding.........................................    74
Clemson University Veterinary Institute, South Carolina..........   224
Climate Forecasting, Florida.....................................   224
Competitiveness of Agriculture Products, Washington..............   154
Congressionally Direct Spending..................................   134
Congressionally Directed Spending................................    72
Conservation:
    Funding......................................................    36
    Partnerships.................................................   106
    Technical Assistance.........................................   110
    Technology Transfer, Wisconsin...............................   239
Consolidation of GSA Leased Space................................    69
Contracting and Acquisition Workforce Training...................    86
Cool Season Legume Research, Idaho, North Dakota, and Washington.   155
Cost Sharing.....................................................    78
Cotton:
    Insect Management and Fiber Quality, Georgia.................   156
    Research, Texas..............................................   225
Council for Agriculture Science and Technology, Iowa.............   225
Country of Origin Labeling.......................................   108
Cranberry/Blueberry:
    Disease and Breeding, New Jersey.............................   157
    Massachusetts................................................   157
Crop:
    Insurance...................................................40, 125
    Integration and Production, South Dakota.....................   158
    Pathogens, North Carolina....................................   158
Dairy..........................................................104, 133
    And Meat Goat Research, Texas................................   159
    Education, Iowa..............................................   239
    Farm Profitability, Pennsylvania.............................   159
    Farmers......................................................    23
Data Information System--REEIS...................................   226
Delta Rural Revitalization, Mississippi..........................   160
Departmental Management Reorganization...........................    68
Designing Foods for Health, Texas................................   160
Detection and Food Safety, Alabama...............................   161
Diabetes Detection and Prevention, Washington and Pennsylvania...   240
Dietary Intervention, Ohio.......................................   226
Direct Certification.............................................    83
Discrimination Claims............................................   131
Drought Mitigation, Nebraska.....................................   161
Duration of the National Household Food Purchase and Acquisition 
  Survey.........................................................    71
E-Authentication.................................................    65
E-Commerce, Mississippi..........................................   241
E-Government Initiatives and Lines of Business...................    64
E-Rulemaking.....................................................    65
E-Training.......................................................    66
Efficient Irrigation, New Mexico and Texas.....................162, 242
Electric Loan Program............................................    51
Electronic Grants Administration System..........................   227
Emerald Ash Borer, Ohio..........................................   162
Emergency Food Assistance Program................................    54
Ensuring:
    Private Working Lands Are Conserved, Restored, and Made More 
      Resilient to Climate Change, While Enhancing Our Water 
      Resources..................................................    14
    That All of America's Children Have Access to Safe, 
      Nutritious, and Balanced Meals.............................     7
Environmental:
    Research, New York...........................................   162
    Risk Factors/Cancer, New York................................   163
Environmentally Safe Products, Vermont...........................   164
Ethanol..........................................................26, 38
Ethnobotanicals, Maryland........................................   227
Expanded Wheat Pasture, Oklahoma.................................   164
Expert Integrated Pest Management Decision Support System........   165
Extension:
    Federal Administration Grants................................   238
    Specialist, Mississippi......................................   242
Farm:
    Loans........................................................    79
    Service Agency (FSA) Automated Systems.......................    88
Farmers Lawsuits.................................................    31
Farmland Preservation, Ohio......................................   227
Floriculture, Hawaii.............................................   166
Florida Biomass to Biofuels Conversion Program, Florida..........   228
Food:
    Aid:
        Pilot Projects...........................................   120
        Quality..................................................   121
    And:
        Agriculture Policy Research Institute, Iowa, Missouri, 
          Nevada, Wisconsin......................................   167
        Fuel Initiative, Iowa....................................   167
    Banks........................................................    54
    Emergency Response Network (FERN)............................    77
    Marketing Policy Center, Connecticut.........................   167
    Production Education, Vermont................................   243
    Safety......................................................99, 107
        Maine and Oklahoma.......................................   168
        Research Consortium, New York............................   169
        Texas....................................................   168
    Security, Washington.........................................   169
Forages for Advancing Livestock Production, Kentucky.............   169
Foreign Catfish..................................................    32
Forestry Research, Arkansas......................................   169
Fresh Produce Food Safety, California............................   170
FSIS:
    Budget.......................................................    50
    Salaries and Expenses........................................    77
Funding for the Statistical Community of Practice (SCOP) 
  Initiative.....................................................    70
GAO Greenbook Report.............................................    67
Genomics for Southern Crop Stress and Disease, Mississippi.......   170
Geographic Information System....................................   171
Global:
    Agriculture Development......................................    46
    Change and UV Monitoring, Colorado...........................   172
    Research Alliance............................................    69
Govbenefits.gov..................................................    66
Grain Sorghum, Kansas and Texas..................................   173
Grants.Gov.......................................................    66
Grass Seed Cropping for Sustainable Agriculture, Idaho, Oregon, 
  and Washington.................................................   173
Greenbook Charges................................................    73
    And Miscellaneous Agency Assessments.........................    87
Greenhouse Nurseries, Ohio.......................................   228
Health Education Leadership, Kentucky............................   243
Healthy Food Financing Initiative...........................43, 56, 126
High:
    Performance Computing, Utah..................................   174
    Value Horticultural Crops, Virginia..........................   229
Higher Education Institution Challenges Grants...................    77
Human Nutrition:
    Louisiana....................................................   174
    New York.....................................................   174
Humane Slaughter.................................................    77
Hunger-Free Community Grants.....................................    55
Hydroponic Production, Ohio......................................   175
Imports of Dogs..................................................   108
Improved:
    Dairy Management Practices, Pennsylvania.....................   176
    Fruit Practices, Michigan....................................   176
Income Enhancement Demonstration, Ohio...........................   243
Increasing Shelf Life of Agricultural Commodities, Idaho.........   176
Infectious Disease Research, Colorado............................   177
Initiative to Improve Blueberry Production and Efficiency, 
  Georgia........................................................   178
Inland Marine Aquaculture, Virginia..............................   178
Institute for:
    Food Science and Engineering, Arkansas.......................   178
    Sustainable Agriculture, Wisconsin...........................   244
Integrated:
    Economic and Technical Analysis of Sustainable Biomass Energy 
      Systems, Indiana...........................................   178
    Pest Management..............................................   179
    Production Systems, Oklahoma.................................   179
International:
    Arid Lands Consortium, Arizona...............................   180
    Center for Good Technology Development to Expand Markets, 
      Indiana....................................................   230
    Food:
        Aid......................................................   120
        Security.................................................   112
Interstate Shipment Program......................................    77
Invasive:
    Phragmite Control and Outreach, Michigan.....................   244
    Plant Management, Montana....................................   181
Iowa Vitality Center.............................................   245
Irrigation Funding...............................................    33
IR-4 Minor Crop Pest Management..................................   181
IT Security Risks................................................    64
Joint United States/China Biotechnology Research and Extension, 
  Utah...........................................................   182
Know Your Farmer, Know Your Food.................................44, 45
Legislative Authority for Administrative Data Pilot Project......    70
Leopold Center Hypoxia Project, Iowa.............................   182
Limitations on Farm Bill Programs................................    85
Livestock and Dairy Policy, New York and Texas...................   182
Maine Cattle Health Assistance Program...........................   245
Mandan ARS.......................................................    98
Maple Research, Vermont..........................................   183
Mariculture, North Carolina......................................   230
Market Access Program............................................   105
McGovern-Dole Program............................................   106
Meadowfoam, Oregon...............................................   183
Medicinal and Bioactive Crops, Texas.............................   231
Methane Research.................................................    27
Michigan Biotechnology Consortium................................   184
Midwest:
    Agribusiness Trade and Information Center, Iowa..............   231
    Center for Bioenergy Grasses, Indiana........................   184
    Poultry Consortium, Iowa.....................................   185
Milk Safety, Pennsylvania........................................   185
Minor Use Animal Drugs...........................................   185
Mississippi Valley State University..............................   231
Molluscan Shellfish, Oregon......................................   186
Monitoring Agricultural Sewage Sludge Application, Ohio..........   232
Multi-Commodity Research, Oregon.................................   186
National:
    Agricultural Statistics Service..............................    72
    Animal Identification System.................................    41
    Beef Cattle Genetic Evaluation Consortium, Colorado, Georgia, 
      and New York...............................................   187
    Center for:
        Farm Safety, Iowa........................................   245
        Soybean Biotechnology, Missouri..........................   188
    Drought Mitigation Center....................................   113
    Export Initiative............................................    84
    Organic Program..............................................    45
NE Center for Invasive Plants, Connecticut, Vermont, and Maine...   232
Nematode Resistance Genetic Engineering, New Mexico..............   188
Nevada Arid Rangelands Initiative................................   189
New:
    Century Farm, Iowa...........................................   189
    Crop Opportunities, Kentucky.................................   190
    Initiatives..................................................    43
    Satellite and Computer-Based Technology for Agriculture, 
      Mississippi................................................   190
Not-Ready-to-Eat Poultry Products................................   134
NRCS OIG Audit Report............................................    95
Nutrition:
    And Diet Research, California................................   233
    Enhancement, Wisconsin.......................................   246
    Guidelines...................................................    30
    Research, New York...........................................   233
Office of:
    Advocacy and Outreach........................................    61
    Budget and Program Analysis..................................    61
    Civil Rights.................................................    67
    Ecosystem Services Markets...................................    59
    The Chief:
        Economist................................................    60
        Information Officer Budget...............................    62
    Tribal Relations.............................................    60
Ohio-Israel Agriculture Initiative...............................   246
OIG:
    Fiscal Year 2011 Budget Request..............................    22
    Goal 1: Strengthen USDA's Safety and Security Measures for 
      Public Health..............................................    16
    Goal 2: Strengthening USDA's Program Integrity and Improving 
      the Delivery of Benefits...................................    19
    Goal 3: OIG Work in Support of USDA's Management Improvement 
      Initiatives................................................    20
    Goal 4: Improving USDA's Stewardship of Natural Resources....    21
    Investigations...............................................    22
    Oversight of USDA's Recovery Act Activities..................    15
Oil Resources From Desert Plants, New Mexico.....................   191
Organic..........................................................   101
    Cropping:
        Oregon...................................................   191
        Washington...............................................   192
    Research.....................................................    74
    Waste Utilization, New Mexico................................   192
Ouachita National Forest Trail Management Plan (ATVS)............   117
Outreach.........................................................    83
Pasteurization of Shell Eggs, Michigan...........................   233
Peach Tree Short Life Research, South Carolina...................   193
Pending Civil Rights Cases.......................................    68
Perennial Wheat, Washington......................................   193
Pest Management Alternatives.....................................   193
Pesticides.......................................................   102
Phytophthora Research:
    Georgia......................................................   194
    Michigan.....................................................   194
Phytosensors for Crop Security and Precision Agriculture, 
  Tennessee......................................................   195
Pierce's Disease, California.....................................   195
Pigford II Settlement............................................   133
Pilot Technology Transfer:
    Projects, Oklahoma and Mississippi...........................   247
    Wisconsin....................................................   247
PM-10 Study, Washington..........................................   234
Policy Analyses for a National Secure and Sustainable Food, 
  Fiber, Forestry and Energy Program, Texas......................   196
Polymer Research, Kansas.........................................   234
Potato:
    Breeding Research Program....................................   197
    Cyst Nematode, Idaho.........................................   196
    Integrated Pest Management, Maine............................   248
    Pest Management, Wisconsin...................................   248
Poultry Imports (Chinese Chicken)................................   116
Precision Agriculture:
    Alabama......................................................   197
    Kentucky.....................................................   198
Preharvest Food Safety, Kansas...................................   198
Preservation and Processing Research, Oklahoma...................   198
Promote Agricultural Production and Biotechnology Exports as 
  America Works to Increase Food Security........................    11
Protein:
    Production for Research to Combat Viruses and Microbes, 
      Connecticut................................................   199
    Utilization, Iowa............................................   199
Public Health Data Communication Infrastructure..................    78
Range Improvement, New Mexico....................................   249
Rangeland Ecosystems Dynamics, Idaho.............................   199
Recreation One-Stop..............................................    67
Regional:
    Barley Gene Mapping Project, Oregon..........................   200
    Biofuels Feedstocks Research.................................    74
    Innovation Initiative........................................   129
Regionalized Implications of Farm Programs, Missouri and Texas...   200
Renewable Energy and Products, North Dakota......................   200
Research.........................................................   111
    Federal Administration Grants................................   218
    Programs.....................................................    49
Rice Agronomy, Missouri..........................................   201
Ruminant Nutrition Consortium, Montana, North Dakota, South 
  Dakota, Wyoming................................................   201
Rural:
    Agriculture Small Business Development Program...............   235
    Broadband--Rural Utilities Service (RUS).....................   117
    Development--Rural Definition................................   115
    Microenterprise Assistance Program...........................   110
    Policies Institute, Nebraska, Iowa, and Missouri.............   202
    Renewable Energy Research and Education Center, Wisconsin....   202
    Systems, Mississippi.........................................   235
    Utilities Service............................................   114
        Loan and Grant Programs..................................    99
Russian Wheat Aphid, Colorado....................................   202
School Food Service Equipment....................................    54
Secondary Education, 2-Year Postsecondary Education, and 
  Agriculture in the K-12 Classroom..............................    76
Section 719 of the Proposed 2011 Act/Farm Bill Implementation....    94
Seed Technology, South Dakota....................................   203
Shrimp Aquaculture, Arizona, Hawaii, Louisiana, Massachusetts, 
  Mississippi, South Carolina, and Texas.........................   235
Single Family Housing:
    Guaranteed Loan Program......................................    81
    Loans........................................................   128
Small Fruit Research, Oregon, Washington, and Idaho..............   203
Smith-Lever......................................................    98
SNAP...........................................................114, 130
    State Administrative Expenses................................    25
Soil-Borne Disease Prevention in Irrigated Agriculture, New 
  Mexico.........................................................   204
Southern Great Plains Dairy Consortium, New Mexico...............   204
Southwest Consortium for Plant Genetics and Water Resources, New 
  Mex- 
  ico............................................................   205
Soybean:
    Cyst Nematode, Missouri......................................   205
    Research, Illinois...........................................   206
Special Research Grants..........................................   135
Specialty Crops:
    Arkansas.....................................................   206
    Indiana......................................................   207
Spending Cuts....................................................    48
State Inspection Programs........................................    50
Steep-Water Quality in Pacific Northwest.........................   207
Strategic Watershed Action Teams.................................    80
Sustainable:
    Agriculture:
        And Natural Resources, Pennsylvania......................   208
        California...............................................   207
        Freshwater Conservation, Texas...........................   236
        Michigan.................................................   208
    Beef Supply, Montana.........................................   209
    Engineered Materials From Renewable Resources, Virginia......   209
    Production and Processing Research for Lowbush Specialty 
      Crop, Maine................................................   210
Swine and Other Animal Waste Treatment, North Carolina...........   210
Technology for Irrigated Vegetable Production, North Carolina....   210
Texas Obesity Research Project...................................   210
The Food, Conservation, and Energy Act of 2008...................   133
Tick Borne Disease Prevention, Rhode Island......................   210
Tillage, Silviculture, Waste Management, Louisiana...............   211
Trade............................................................   113
Traditional Production Agriculture...............................   124
Tri-State Joint Peanut Research, Alabama.........................   211
Tribal College and University Community Facility Program.........    98
Tropical:
    And Subtropical Research/T Star, Florida, USVI, Puerto Rico, 
      and 
      Guam.......................................................   212
    Aquaculture, Florida.........................................   212
University of Wisconsin:
    Extension Northern Aquaculture Demonstration Facility........   250
    Stevens Point Institute for Sustainable Technologies.........   237
Urban Horticulture:
    And Marketing, Illinois......................................   250
    Wisconsin....................................................   250
Use of Antibiotics...............................................    79
Veterinary:
    Medical Loan Repayment Program..............................85, 109
    Technology Satellite Program, Kansas.........................   251
Viral Hemorrhagic Septicemia:
    Michigan.....................................................   237
    Ohio.........................................................   237
Virtual Plant Database Enhancement Project, Missouri.............   213
Virus-Free Wine Grape Cultivars, Washington......................   213
Viticulture Consortium, New York, California, and Pennsylvania...   214
Vitis Gene Discovery, Missouri...................................   237
Voluntary Public Access and Habitat Incentive Program............   131
Water:
    And Wastewater Disposal Grants for Native Alaskan Villages...    81
    Conservation, Kansas.........................................   214
    Pollutants, West Virginia....................................   237
    Use Efficiency and Water Quality Enhancements, Georgia.......   214
Wetland Plants, Louisiana........................................   215
Wheat:
    Genetic Research, Kansas.....................................   216
    Stem Rust....................................................   122
Wildlife/Livestock Disease Research Partnership, Wyoming.........   216
Women, Infants and Children (WIC) Program.......................95, 104
    ARRA Funds...................................................    24
    Budget.......................................................    24
Wood Utilization Research........................................   216
Wool Research, Montana, Texas, and Wyoming.......................   217
World Food:
    And Health Initiative, Illinois..............................   218
    Prize........................................................    75

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

                      Food and Drug Administration

Access Act.......................................................   289
Additional Committee Questions...................................   280
Advancing Regulatory Science.....................................   258
Antibiotics......................................................   284
Bioequivalents...................................................   275
Budget:
    Increases....................................................   253
    Request......................................................   256
Cost of Developing Drugs.........................................   289
Counterfeit Drugs................................................   275
Critical Path....................................................   291
Details of the Fiscal Year 2011 Budget...........................   260
Drug Reimportation...............................................   286
FDA:
    Fiscal Year 2010 Budget......................................   259
    Response to the 2009 H1N1 Influenza Pandemic.................   265
    2011 Budget Request..........................................   259
Food Safety....................................................271, 282
Foodborne Illness................................................   277
Foreign Offices..................................................   279
Funding Increases................................................   267
Generic:
    Drug Review..................................................   290
    Drugs........................................................   278
H1N1.............................................................   258
Heparin..........................................................   273
Importation......................................................   272
International Trips..............................................   266
Labeling.........................................................   273
Lipitor..........................................................   272
Medical:
    Device Registry..............................................   280
    Product Safety...............................................   291
Nanotechnology...................................................   269
NCTR.............................................................   271
New Regulatory Pathways..........................................   268
Partnerships With Academe........................................   277
Pay Costs........................................................   280
Prescription Drug Advertising....................................   283
Priorities.......................................................   279
Program to Import Drugs..........................................   273
Protecting Patients..............................................   257
Rapid Response...................................................   278
Rare:
    And Neglected Diseases.......................................   255
    Diseases.....................................................   267
Regulation of Tobacco............................................   285
Safety and Access................................................   275
Salmonella.......................................................   270
Science..........................................................   266
Standards of Identity for Milk...................................   285
State:
    Audits.......................................................   286
    Collaboration................................................   276
    Contract Inspections.........................................   286
Third Party Inspection...........................................   290
Tobacco Control Act..............................................   258
Transforming Food Safety.........................................   256
United States Pharmacopia Partnership............................   282
User Fees........................................................   281
Vaccine Development..............................................   283
Vision for FDA...................................................   266


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
